APPENDIX

SUPREME COURT

FILED

1a

MAR 1 0 2021
APPENDIX A
Court of Appeal, First Appellate District, Division Three - No. A159296
k
Jorge Navarrete C1er'S266497
Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc
BRANDON CAMPBELL, Plaintiff and Respondent,
V.

DOORDASH INC., Defendant and Appellant.

The petition for review is denied.

CANTIL-SAKAUYE
Chief Justice

2a

APPENDIX B

Filed 11/30/20 Campbell v. Doordash CA1/3

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for
publication or ordered published, except as specified by rule 8.1115(b). This opinion has not been certified for publication or
ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION THREE

BRANDON CAMPBELL,
Plaintiff and Respondent,

A159296

v.
DOORDASH INC.,

(City & County of San
Francisco No. CGC-19575383)

Defendant and Appellant.

DoorDash Inc. (DoorDash) appeals from the trial court’s order denying
its petition to compel arbitration of a Private Attorney General Act (PAGA)
action brought by its employee, Brandon Campbell (Campbell). DoorDash
acknowledges that the California Supreme Court case of Iskanian v. CLS
Transportation Los Angeles, LLC (2014) 59 Cal.4th 348 (Iskanian) precludes
California courts from enforcing pre-dispute waivers of the right to litigate
PAGA claims, but argues Iskanian is no longer good law in light of
subsequent United States Supreme Court cases. Other courts, including
most recently Division Two of our district in Olson v. Lyft, Inc. (Oct. 29, 2020,
No. A156322) 2020 WL 6336102, have uniformly rejected this argument. We
join them in holding Iskanian is good law and California courts remain bound

3a
by it. Accordingly, we affirm the order denying arbitration of Campbell’s
PAGA action.
FACTUAL AND PROCEDURAL BACKGROUND
DoorDash is a same-day, on-demand delivery company that delivers
goods from local restaurants and stores to its customers for a fee. DoorDash
guarantees a certain minimum pay to its workers, known as Dashers, for
each delivery. The guaranteed minimum pay amount depends on various
factors such as order size, distance, and delivery logistics. To place an order,
a customer uses the DoorDash smartphone app and selects items to be
delivered from a participating business. The app displays a price, which
includes the total cost of the items and a service/delivery fee. When the
customer places an order, the customer’s credit card is charged and a Dasher
picks up the items from the business and delivers them to the customer. The
customer may tip the Dasher through the app.
In early 2019, several news sources reported DoorDash had been using
customer tips to satisfy its Dashers’ guaranteed minimum pay. These reports
explained that if the guaranteed minimum pay for a job is $10, DoorDash
first pays its Dasher a “base pay” of $1. “If that minimum is $10 and you tip
$5, then DoorDash kicks in the $1 base plus an additional $4” to meet the $10
minimum. “If . . . you tip $9, then DoorDash pays only the $1 base” to meet
the $10 minimum. “If . . . you tip nothing, DoorDash pays the $1 base plus
an additional $9.” The reports stated: “DoorDash’s policy of ‘[a]djusting [its]
contribution, depending on the tip, flies in the face of how customers have
traditionally viewed the act of tipping: as a bonus that’s in addition to a set, if
low, base salary from the company.’ ” “When people add additional tips to
their delivery service tab, they reasonably assume they are tipping the
delivery person—rather than the company.” “ ‘Consumers are basically

4a
subsidizing [DoorDash’s] promised minimum payment, and it’s extremely
deceptive.’ ”
On April 19, 2019, Campbell, a Dasher, filed a PAGA action (Lab. Code,
§§ 2698 et seq.) against DoorDash alleging DoorDash’s tipping policy violated
Labor Code section 351, which provides that an employer shall not “collect,
take, or receive” an employee’s gratuity, and section 353, which requires
employers to “keep accurate records of all gratuities received.”
DoorDash filed a petition to compel arbitration and stay proceedings1
on the basis that its Independent Contractor Agreement, which Campbell
signed, provided that “any and all claims arising out of or relating to this
Agreement,” including “the payments received by [Dashers] for providing
services to consumers,” shall be submitted to binding arbitration. The parties
also waived their “right to have any dispute or claim brought, heard or
arbitrated as, or to participate in, a class action, collective action and/or
representative action—including but not limited to actions brought pursuant
to . . . PAGA. . . .” DoorDash recognized that the California Supreme Court
case of Iskanian prohibits the pre-dispute waiver of the right to litigate
PAGA claims, but argued Iskanian did not survive the United States
Supreme Court’s decision in Epic Systems Corp. v. Lewis (2018) 138 S.Ct.
1612 (Epic Systems), which “reiterated courts’ obligation to enforce
arbitration agreements according to their terms.”
Campbell opposed the petition, asserting the trial court was bound by
Iskanian because California trial courts and Courts of Appeal must follow
California Supreme Court decisions on federal questions unless the United
States Supreme Court has decided the same issue differently. (Citing Correia

DoorDash’s request for a stay, which the trial court denied, is not at
issue in this appeal.
1

5a
v. NB Baker Electric, Inc. (2019) 32 Cal.App.5th 603, 619 (Correia).)
Campbell argued that because Epic Systems did not consider whether PAGA
waivers are enforceable, the court remained bound by Iskanian. Campbell
also argued there was nothing in Epic Systems that suggested Iskanian was
wrongly decided.
The trial court denied DoorDash’s petition to compel arbitration,
stating “California courts are bound by Iskanian’s holding that a waiver of an
employee’s right to bring a representative action in any forum violates public
policy and that this rule is not preempted by the FAA [Federal Arbitration
Act].” “ ‘Although the Epic court reaffirmed the broad preemptive scope of
the [FAA], Epic did not address the specific issue before the Iskanian court
involving a claim for civil penalties brought on behalf of the government and
the enforceability of an agreement barring a PAGA representative action in
any forum.’ ” (Quoting Correia, supra, 32 Cal.App.5th at pp. 619–620.)
“Furthermore, there is no evidence that the State consented to any waiver of
the employee’s right to bring the PAGA claim in court.” (Citing Correia,
supra, 32 Cal.App.5th at pp. 624–625 [“we agree with [courts] that have held
Iskanian’s view of a PAGA representative action necessarily means that this
claim cannot be compelled to arbitration absent some evidence that the state
consented to the waiver of the right to bring the PAGA claim in court”].)
DoorDash appeals.
DISCUSSION
We conclude the trial court properly denied DoorDash’s petition to
compel arbitration of Campbell’s PAGA action.
PAGA “authorizes an employee to bring an action for civil penalties on
behalf of the state against his or her employer for Labor Code violations
committed against the employee and fellow employees, with most of the

6a
proceeds of that litigation going to the state.” (Iskanian, supra, 59 Cal.4th at
p. 360.) The Legislature enacted PAGA “to remedy systemic
underenforcement of many worker protections” (Williams v. Superior Court
(2017) 3 Cal.5th 531, 545) and to enhance the state’s enforcement of labor
laws by “allow[ing] aggrieved employees, acting as private attorneys general,
to recover civil penalties for Labor Code violations, with the understanding
that labor law enforcement agencies [are] to retain primacy over private
enforcement efforts” (Iskanian, supra, 59 Cal.4th at p. 379). Although PAGA
empowers employees to act as the agent of the Labor Commissioner, the
governmental entity “is always the real party in interest.” (Id. at p. 382.) A
PAGA action is therefore “a type of qui tam action” “ ‘ “designed to protect the
public and not to benefit private parties.” ’ ” (Id. at pp. 382, 387.)
In Iskanian, the California Supreme Court examined two related
questions regarding the pre-dispute waiver of PAGA claims: (1) whether
arbitration agreements requiring employees to waive their right to bring
PAGA actions are unenforceable under state law, and if so, (2) whether the
FAA preempts that rule. (Iskanian, supra, 59 Cal.4th at p. 378.) First, the
court held that pre-dispute waivers requiring employees to relinquish the
right to assert a PAGA claim on behalf of other employees were prohibited, as
such waivers violate public policy and “harm the state’s interests in enforcing
the Labor Code and in receiving the proceeds of civil penalties used to deter
violations.” (Id. at p. 383.) Second, the court held the FAA did not preempt
this rule invalidating PAGA waivers in arbitration agreements because “the
FAA aims to ensure an efficient forum for the resolution of private disputes,
whereas a PAGA action is a dispute between an employer and the state
[Labor and Workforce Development] Agency.” (Id. at p. 384.) PAGA actions
“directly enforce the state’s interest in penalizing and deterring employers

7a
who violate California’s labor laws.” (Id. at p. 387.) The FAA, which “aims to
promote arbitration of claims belonging to the private parties to an
arbitration agreement,” “does not aim to promote arbitration of claims
belonging to a government agency.” (Id. at p. 388.) This “is no less true when
such a claim is brought by a statutorily designated proxy for the agency as
when the claim is brought by the agency itself. The fundamental character of
the claim as a public enforcement action is the same in both instances.”
(Ibid.)
Four years after Iskanian was decided, the United States Supreme
Court in Epic Systems addressed the FAA’s preemptive effect over a provision
of the National Labor Relations Act (NLRA) that guarantees workers the
right to engage in “concerted activities.” (Epic Systems, supra, 138 S.Ct. at
pp. 1619–1620, citing 29 U.S.C. § 157.) The employees in that case resisted
arbitration on the ground that an arbitration agreement prohibiting class
actions was illegal under the NLRA and therefore unenforceable. (Id. at
p. 1622; see 9 U.S.C. § 2 [under the FAA, courts may refuse to enforce
arbitration agreements “ ‘upon such grounds as exist at law or in equity for
the revocation of any contract’ ”].) The United States Supreme Court
disagreed and declined to “read a right to class actions into the NLRA.” (Id.
at p. 1619.) The Court reiterated that the FAA instructs federal courts to
enforce arbitration agreements according to their terms, and rejected any
NLRA exception to the FAA. (Id. at p. 1624.)
In the last two years since Epic Systems was decided, California courts
have uniformly rejected the argument that Epic Systems overruled Iskanian.
In Correia, supra, 32 Cal.App.5th at pp. 608, 619, the Court of Appeal held a
pre-dispute waiver of PAGA claims was unenforceable and rejected the
employer’s argument that “Iskanian is no longer binding [in light of] . . . Epic

8a
Systems.” Noting that California trial and appellate courts are bound by the
California Supreme Court’s decisions on federal questions unless the United
States Supreme Court has decided the same question differently, the court
stated: “Although the Epic court reaffirmed the broad preemptive scope of
the [FAA], Epic did not address the specific issues before the Iskanian court
involving a claim for civil penalties brought on behalf of the government and
the enforceability of an agreement barring a PAGA representative action in
any forum.” (Id. at p. 609.) The claim at issue in Epic Systems differed
“fundamentally from a PAGA claim” because the employee in Epic Systems
was “asserting claims on behalf of other employees,” whereas a plaintiff who
brings a PAGA action “has been deputized by the state” to act “ ‘as “the proxy
or agent” of the state’ ” to enforce the state’s labor laws. (Correia, supra, at
pp. 619–620.) Because Epic Systems did not “decide the same question
differently,” its “interpretation of the FAA’s preemptive scope [did] not defeat
Iskanian’s holding or reasoning for purposes of an intermediate appellate
court applying the law.” (Ibid.)
Similarly, in Collie v. Icee Company (2020) 52 Cal.App.5th 477, 482
(Collie), the Court of Appeal rejected an employer’s argument that “Iskanian
[was] no longer good law after the United States Supreme Court’s decision in
Epic.” The court noted Epic Systems did not address “the unique nature of a
PAGA claim”—that is, the “ ‘ “ ‘PAGA litigant’s status as “the proxy or agent”
of the state’ and his or her ‘substantive role in enforcing our labor laws on
behalf of state law enforcement agencies.’ ” ’ [Citation.]” (Collie, supra, at
p. 483.) “Epic, therefore, does not undermine Iskanian’s . . .
characterization[] of PAGA claims as law enforcement actions in which
plaintiffs step into the shoes of the state.” (Collie, supra, at p. 483.) The
court held that while Epic Systems “reconfirmed the breadth of the FAA,” a

9a
pre-dispute PAGA waiver remained unenforceable without a showing that
the state—which is the real party in interest in PAGA actions—consented to
the waiver. (Collie, supra, at p. 483; see also Julian v. Glenair, Inc. (2017)
17 Cal.App.5th 853, 869–872 [employee’s pre-dispute agreement to arbitrate
PAGA claims is unenforceable absent a showing the state also consented to
the agreement because the state is the real party in interest]; Betancourt v.
Prudential Overall Supply (2017) 9 Cal.App.5th 439, 445–449 [same].)
Several other Courts of Appeal, including Division Two of our district,
have reached the same conclusion—that Epic Systems did not overrule
Iskanian. (See, e.g., Zakaryan v. The Men’s Wearhouse, Inc. (2019)
33 Cal.App.5th 659, 671 [“Epic Systems did not overrule Iskanian”], overruled
on another ground by ZB, N.A. v. Superior Court (2019) 8 Cal.5th 175, 197,
fn. 8; Provost v. YourMechanic, Inc. (Oct. 15, 2020, No. D076569) 2020 WL
6074632, at pp. *7, 8 [“reaffirm[ing]” the analysis and decision in Correia that
Epic Systems did not overrule Iskanian]; Olson v. Lyft, Inc., supra, 2020 WL
6336102 [Division Two case citing Correia with approval].) DoorDash urges
us not to follow the above cases because “[a] decision of a Court of Appeal is
not binding in the Courts of Appeal,” (quoting Witkin, Cal. Proc. 5th Appeal,
§ 498), and because there are a number of purported flaws with the decisions.
DoorDash asserts, for example, that the Zakaryan case did not include
sufficient analysis and that the Court of Appeal in Correia “did not have the
benefit of complete briefing on the issue” as the employer “devoted only four
paragraphs of its brief to its Epic Systems argument.” We find the Court of
Appeal cases to be thorough and well-reasoned and we join these courts in
concluding Epic Systems did not overrule Iskanian.
DoorDash also attempts to distinguish the cases on the basis that the
arbitration agreement Campbell signed was not mandatory; instead, he

10a
simply “chose not to opt out of” it. DoorDash argues the FAA should apply
“with particular force” to individuals who “voluntarily” choose arbitration.
However, “ ‘Iskanian’s underlying public policy rationale—that a PAGA
waiver circumvents the Legislature’s intent to empower employees to enforce
the Labor Code as agency representatives and harms the state’s interest in
enforcing the Labor Code—does not turn on how the employer and employee
entered into the agreement, or the mandatory or voluntary nature of the
employee’s initial consent to the agreement’ ”; rather, a “ ‘PAGA claim
provides a remedy inuring to the state . . . and the law . . . broadly precludes
private agreements to waive such [] rights.’ ” (Williams v. Superior Court
(2015) 237 Cal.App.4th 642, 647–648, quoting Securitas Security Services
USA, Inc. v. Superior Court (2015) 234 Cal.App.4th 1109; see also Juarez v.
Wash Depot Holdings, Inc. (2018) 24 Cal.App.5th 1197, 1203 [refusing to
enforce a pre-dispute waiver of a representative PAGA claim merely because
the employee had the opportunity to opt out of the waiver].) Accordingly, it is
immaterial whether Campbell voluntarily entered into the arbitration
agreement or did so as a condition of becoming a Dasher for DoorDash.
DISPOSITION
The trial court’s order denying DoorDash’s petition to compel
arbitration and stay proceedings is affirmed. Plaintiff Brandon Campbell
shall recover his costs on appeal.

11a
_________________________
Petrou, J.
WE CONCUR:
_________________________
Siggins, P.J.
_________________________
Simons, J.*

Associate Presiding Justice of the Court of Appeal, First Appellate District,
assigned by the Chief Justice pursuant to article VI, section 6 of the
California Constitution.
*

12a

APPENDIX C

SUPERIOR COURT OF CALIFORNIA
COUNTY OF SAN FRANCISCO
MINUTES

November 07, 2019

Department: 302

BRANDON CAMPBELL

Case Number: CGC-19-575383
PLAINTIFF

VS.

Nature of Cause:
DEFENDANT DOORDASH, INC.'s
Petition To Compel Arbitration And
Stay Proceedings.

DOORDASH, INC., A DELAWARE
CORPORATION et al
DEFENDANT

Present:

Judge: ETHAN P. SCHULMAN
Reporter: Court Reporter: Maria Torreano,
CSR#8600, maria.torreano@gmail.com

Clerk: M. GOODMAN
Bailiff: Deputy Jaime

Appearing for Plaintiff (s):

Appearing for Defendant(s):

John Bickford, Esq. 661-949-2595 of
PARRIS

Michael Holecek, Esq. 213-229-7000 of
Gibson Dunn & Crutcher LLP for Defendant
Door Dash.

Defendant DoorDash Inc.’s petition to compel arbitration is denied. The Court cannot compel
this representative PAGA action to arbitration. In Iskanian v. CLS Transportation Los Angeles,
LLC (2014) 59 Cal.4th 348, our Supreme Court held that “where, as here, an employment
agreement compels the waiver of representative claims under PAGA, it is contrary to public
policy and unenforceable as a matter of state law.” (Id. at 384.) Further, the Court held that
“California’s public policy prohibiting waiver of PAGA claims, whose sole purpose is to
vindicate the [Labor and Workforce Development] Agency’s interest in enforcing the Labor
Code, does not interfere with the FAA’s goal of promoting arbitration as a forum for private
dispute resolution,” and therefore is not preempted by the Federal Arbitration Act. (Id. at 388389; see also ZA, N.A. v. Superior Court (2019) 8 Cal.5th 175, 197 [“Iskanian established an
Case Number: CGC-19-575383
Case Title: BRANDON CAMPBELL VS. DOORDASH, INC., A DELAWARE
CORPORATION ET AL
-1Date: November 07, 2019
Form: C01006

13a
important principle: employers cannot compel employees to waive their right to enforce the
state’s interests when the PAGA has empowered employees to do so.”].)
California courts are bound by Iskanian’s holding that a waiver of an employee’s right to bring a
representative action in any forum violates public policy and that this rule is not preempted by
the FAA. (Correia v. NB Baker Electric, Inc. (2019) 32 Cal.App.5th 602, 616 [“[A] PAGA
claim lies outside the FAA’s coverage because it is not a dispute between an employer and an
employee arising out of their contractual relationship. It is a dispute between an employer and
the state.”]; accord, Davis v. TWC Dealer Group, Inc. (Oct. 30, 2019) ---Cal.Rptr.3d----, 2019
WL 5586867, at *8 [arbitration clause that improperly barred employee from arbitrating any
PAGA claims was substantively unconscionable]; Subcontracting Concepts (CT), LLC v. De
Melo (2019) 34 Cal.App.5th 201, 213 [same].) Although Defendant boldly asserts that Correia
(and, presumably, the other cited cases) are “wrongly decided” (Reply at 8), those decisions are
binding on this court. (Auto Equity Sales, Inc. v. Superior Court (1962) 57 Cal.2d 450, 455;
Correia, 32 Cal.App.5th at 620 [“On federal questions, intermediate appellate courts in
California must follow the decisions of the California Supreme Court, unless the United States
Supreme Court has decided the same question differently”].)
In any event, contrary to Defendant’s argument, Epic Systems Corp. v. Lewis (2018) –U.S.–, 138
S.Ct. 1612 did not overrule Iskanian. “Although the Epic court reaffirmed the broad preemptive
scope of the Federal Arbitration Act, Epic did not address the specific issue before the Iskanian
court involving a claim for civil penalties brought on behalf of the government and the
enforceability of an agreement barring a PAGA representative action in any forum.” (Correia,
32 Cal.App.5th at 609, 619-620; see also ZA, N.A., 8 Cal.5th at 196-197 [“the PAGA authorizes
a representative action only for the purpose of seeking [civil] penalties for Labor Code
violations, and an action to recover civil penalties is fundamentally a law enforcement action, not
one for the benefit of private parties” (citations and internal quotations omitted)].) Furthermore,
there is no evidence that the State consented to any waiver of the employee’s right to bring the
PAGA claim in court. (See id. at 624-625 [“we agree with the California Courts of Appeal that
have held Iskanian’s view of a PAGA representative action necessarily means that this claim
cannot be compelled to arbitration absent some evidence that the state consented to the waiver of
the right to bring the PAGA claim in court.”].)
In the alternative, Defendant requests the Court to stay the action pursuant to Code of Civil
Procedure section 1281.4. The Court denies such request. The mere pendency of another PAGA
action does not bar another plaintiff’s PAGA claims. (Tan v. Grubhub, Inc. (N.D. Cal. 2016)
171 F.Supp.3d 998, 1013 [“Defendants do not cite a single case in which the court held that two
PAGA representatives cannot pursue the same PAGA claims at the same time. The Court
declines to be the first to so hold”]; see also Albert v. Postmates Inc. (N.D. Cal. Mar. 5, 2019)
2019 WL 1045785 at *6 [“PAGA does not itself prohibit concurrent actions by different
plaintiffs or require a stay of subsequent actions. [Citation.] ‘State and federal courts in
California have routinely permitted concurrent PAGA actions to proceed so long as there is only
one PAGA judgment against a defendant for the same or similar claims for a single
timeframe.’”].)
Case Number: CGC-19-575383
Case Title: BRANDON CAMPBELL VS. DOORDASH, INC., A DELAWARE
CORPORATION ET AL
-2Date: November 07, 2019
Form: C01006

14a
Counsel for Plaintiff to submit a proposed order that is verbatim with the Court's ruling and in
compliance with CRC 3.1312.
Judge: Ethan P. Schulman, Clerk: M. Goodman, Court Reporter: Maria Torreano, CSR#8600,
maria.torreano@gmail.com, Reported. =(302/EPS)

Case Number: CGC-19-575383
Case Title: BRANDON CAMPBELL VS. DOORDASH, INC., A DELAWARE
CORPORATION ET AL
-3Date: November 07, 2019
Form: C01006

15a
APPENDIX D
Statutory Provisions Involved
9 U.S.C § 2.
arbitrate

Validity, irrevocability, and enforcement of agreements to

A written provision in any maritime transaction or a contract evidencing a
transaction involving commerce to settle by arbitration a controversy thereafter
arising out of such contract or transaction, or the refusal to perform the whole or
any part thereof, or an agreement in writing to submit to arbitration an existing
controversy arising out of such a contract, transaction or refusal, shall be valid,
irrevocable, and enforceable, save upon such grounds as exist at law or in equity for
the revocation of any contract.
(July 30, 1947, ch. 392, 61 Stat. 670.)
DERIVATION
Act Feb. 12, 1925, ch. 213, § 2, 43 Stat. 883.

16a
California Labor Code § 2699
(a) Notwithstanding any other provision of law, any provision of this code that
provides for a civil penalty to be assessed and collected by the Labor and Workforce
Development Agency or any of its departments, divisions, commissions, boards,
agencies, or employees, for a violation of this code, may, as an alternative, be
recovered through a civil action brought by an aggrieved employee on behalf of
himself or herself and other current or former employees pursuant to the
procedures specified in Section 2699.3.
(b) For purposes of this part, “person” has the same meaning as defined in Section
18.
(c) For purposes of this part, “aggrieved employee” means any person who was
employed by the alleged violator and against whom one or more of the alleged
violations was committed.
(d) For purposes of this part, “cure” means that the employer abates each violation
alleged by any aggrieved employee, the employer is in compliance with the
underlying statutes as specified in the notice required by this part, and any
aggrieved employee is made whole. A violation of paragraph (6) or (8) of subdivision
(a) of Section 226 shall only be considered cured upon a showing that the employer
has provided a fully compliant, itemized wage statement to each aggrieved
employee for each pay period for the three-year period prior to the date of the
written notice sent pursuant to paragraph (1) of subdivision (c) of Section 2699.3.
(e)
(1) For purposes of this part, whenever the Labor and Workforce
Development Agency, or any of its departments, divisions, commissions,
boards, agencies, or employees, has discretion to assess a civil penalty, a
court is authorized to exercise the same discretion, subject to the same
limitations and conditions, to assess a civil penalty.
(2) In any action by an aggrieved employee seeking recovery of a civil penalty
available under subdivision (a) or (f), a court may award a lesser amount
than the maximum civil penalty amount specified by this part if, based on the
facts and circumstances of the particular case, to do otherwise would result in
an award that is unjust, arbitrary and oppressive, or confiscatory.
(f) For all provisions of this code except those for which a civil penalty is specifically
provided, there is established a civil penalty for a violation of these provisions, as
follows:
(1) If, at the time of the alleged violation, the person does not employ one or
more employees, the civil penalty is five hundred dollars ($500).

17a
(2) If, at the time of the alleged violation, the person employs one or more
employees, the civil penalty is one hundred dollars ($100) for each aggrieved
employee per pay period for the initial violation and two hundred dollars
($200) for each aggrieved employee per pay period for each subsequent
violation.
(3) If the alleged violation is a failure to act by the Labor and Workplace
Development Agency, or any of its departments, divisions, commissions,
boards, agencies, or employees, there shall be no civil penalty.
(g)
(1) Except as provided in paragraph (2), an aggrieved employee may recover
the civil penalty described in subdivision (f) in a civil action pursuant to the
procedures specified in Section 2699.3 filed on behalf of himself or herself and
other current or former employees against whom one or more of the alleged
violations was committed. Any employee who prevails in any action shall be
entitled to an award of reasonable attorney’s fees and costs, including any
filing fee paid pursuant to subparagraph (B) of paragraph (1) of subdivision
(a) or subparagraph (B) of paragraph (1) of subdivision (c) of Section 2699.3.
Nothing in this part shall operate to limit an employee’s right to pursue or
recover other remedies available under state or federal law, either separately
or concurrently with an action taken under this part.
(2) No action shall be brought under this part for any violation of a posting,
notice, agency reporting, or filing requirement of this code, except where the
filing or reporting requirement involves mandatory payroll or workplace
injury reporting.
(h) No action may be brought under this section by an aggrieved employee if the
agency or any of its departments, divisions, commissions, boards, agencies, or
employees, on the same facts and theories, cites a person within the timeframes set
forth in Section 2699.3 for a violation of the same section or sections of the Labor
Code under which the aggrieved employee is attempting to recover a civil penalty on
behalf of himself or herself or others or initiates a proceeding pursuant to Section
98.3.
(i) Except as provided in subdivision (j), civil penalties recovered by aggrieved
employees shall be distributed as follows: 75 percent to the Labor and Workforce
Development Agency for enforcement of labor laws, including the administration of
this part, and for education of employers and employees about their rights and
responsibilities under this code, to be continuously appropriated to supplement and
not supplant the funding to the agency for those purposes; and 25 percent to the
aggrieved employees.

18a
(j) Civil penalties recovered under paragraph (1) of subdivision (f) shall be
distributed to the Labor and Workforce Development Agency for enforcement of
labor laws, including the administration of this part, and for education of employers
and employees about their rights and responsibilities under this code, to be
continuously appropriated to supplement and not supplant the funding to the
agency for those purposes.
(k) Nothing contained in this part is intended to alter or otherwise affect the
exclusive remedy provided by the workers’ compensation provisions of this code for
liability against an employer for the compensation for any injury to or death of an
employee arising out of and in the course of employment.
(l)
(1) For cases filed on or after July 1, 2016, the aggrieved employee or
representative shall, within 10 days following commencement of a civil action
pursuant to this part, provide the Labor and Workforce Development Agency
with a file-stamped copy of the complaint that includes the case number
assigned by the court.
(2) The superior court shall review and approve any settlement of any civil
action filed pursuant to this part. The proposed settlement shall be submitted
to the agency at the same time that it is submitted to the court.
(3) A copy of the superior court’s judgment in any civil action filed pursuant
to this part and any other order in that action that either provides for or
denies an award of civil penalties under this code shall be submitted to the
agency within 10 days after entry of the judgment or order.
(4) Items required to be submitted to the Labor and Workforce Development
Agency under this subdivision or to the Division of Occupational Safety and
Health pursuant to paragraph (4) of subdivision (b) of Section 2699.3, shall be
transmitted online through the same system established for the filing of
notices and requests under subdivisions (a) and (c) of Section 2699.3.
(m) This section shall not apply to the recovery of administrative and civil penalties
in connection with the workers’ compensation law as contained in Division 1
(commencing with Section 50) and Division 4 (commencing with Section 3200),
including, but not limited to, Sections 129.5 and 132a.
(n) The agency or any of its departments, divisions, commissions, boards, or
agencies may promulgate regulations to implement the provisions of this part.
(Amended by Stats. 2016, Ch. 31, Sec. 189. (SB 836) Effective June 27, 2016.)

APPENDIX E
GIBSON, DUNN & CRUTCHER LLP
JOSHUA S. LIPSHUTZ, SBN 242557
jlipshutz@gibsondunn.com
555 Mission Street, Suite 3000
San Francisco, CA 94105-0921
Telephone:
415.393.8200
Facsimile:
415.393.8306

19a

ELECTRONICALLY

FILED

Superior Court of California,
County of San Francisco

THEANE EVANGELIS, SBN 243570
tevangelis@gibsondunn.com
MICHAEL HOLECEK, SBN 281034
mholecek@gibsondunn.com
ANDREW WILHELM, SBN 302849
awilhelm@gibsondunn.com
STEPHANIE BALITZER, SBN 316133
sbalitzer@gibsondunn.com
333 South Grand Avenue
Los Angeles, CA 90071-3197
Telephone:
213.229.7000
Facsimile:
213.229.7520

08/16/2019

Clerk of the Court
BY: SANDRA SCHIRO
Deputy Clerk

Attorneys for Defendant DOORDASH, INC.
SUPERIOR COURT OF THE STATE OF CALIFORNIA
CITY AND COUNTY OF SAN FRANCISCO

CASE NO. CGC-19-575383
BRANDON CAMPBELL, in his
representative capacity under the Private
Attorneys General Act (“PAGA”),
Plaintiff,
v.
DOORDASH, INC., a Delaware Corporation;
and DOES 1 through 100, inclusive,
Defendants.

DEFENDANT’S PETITION TO COMPEL
ARBITRATION AND STAY
PROCEEDINGS; MEMORANDUM OF
POINTS AND AUTHORITIES
[Declarations of Stanley Tang, Cody Aughney,
and Joshua Lipshutz; and [Proposed] Order filed
concurrently herewith]
Department 302
Honorable Judge Ethan P. Schulman
FAC Filed: July 18, 2019
Hearing Date: November 1, 2019
Hearing Time: 9:30 a.m.
Reservation ID: 08121101-12
Trial Date: None set

20a

TO ALL PARTIES AND THEIR ATTORNEYS OF RECORD:
PLEASE TAKE NOTICE THAT on November 1, 2019, at 9:30 a.m., or as soon as the
matter may be heard before the Honorable Ethan P. Schulman of the San Francisco County Superior
Court, Department 302, 400 McAllister Street, San Francisco, California 94102, Defendant
DoorDash, Inc. will and hereby does petition, pursuant to Sections 1281.2 and 1281.4 of the Code of
Civil Procedure, for an order: (a) compelling Plaintiff Brandon Campbell to submit his claims to
arbitration as required by the Arbitration Agreement in his Independent Contractor Agreement
(“ICA”); (b) staying the action pending the outcome of this petition; and (c) staying all proceedings
of any non-arbitrable claims.
Plaintiff’s claims arise from his use of DoorDash’s technology, and his claims are within the
scope of the ICA’s Arbitration Agreement, which governs any and all matters arising out of or related
to Plaintiff’s classification as an independent contractor and payment received by Plaintiff for
providing services to consumers. Specifically, the agreement states that Plaintiff and DoorDash agree
“to resolve disputes on an individual basis, to the fullest extent permitted by law, through final and
binding arbitration.”
Because the Arbitration Agreement exists, and because Plaintiff’s claims are governed by the
Arbitration Agreement, the Court should compel arbitration of the claims. (Code Civ. Proc. § 1281.2
[if a party “alleg[es] the existence of a written agreement to arbitrate a controversy and that party
thereto refuses to arbitrate such controversy, the court shall order the petitioner and the respondent to
arbitrate the controversy.”]; 9 U.S.C. § 2.) In addition, a stay of all civil proceedings should also be
entered. (Code Civ. Proc., § 1281.4; 9 U.S.C. § 3.)
This action should also be stayed pending the resolution of overlapping arbitrations and
earlier-filed PAGA actions against DoorDash.
DoorDash’s petition is based on this Notice of Petition and Petition, the accompanying
Memorandum of Points and Authorities, the concurrently filed Declarations of Stanley Tang, Cody
Aughney, and Joshua Lipshutz, any other matters of which the Court may take judicial notice, other
documents on file in this action, and any oral argument of counsel.

Dated: August 16, 2019

21a

GIBSON, DUNN & CRUTCHER LLP

By:

/s/ Joshua Lipshutz
Joshua Lipshutz

Attorneys for Defendant DoorDash, Inc.

22a
TABLE OF CONTENTS
Page
INTRODUCTION ................................................................................................................................ 1
STATEMENT OF RELEVANT FACTS AND PROCEDURAL HISTORY...................................... 2
A.

DoorDash’s Platform Connects Customers, Restaurants, And Delivery
Contractors .................................................................................................................... 2

B.

The Parties’ Independent Contractor Agreement .......................................................... 2

C.

The Marko Plaintiffs File A PAGA Claim Against DoorDash..................................... 4

D.

Hundreds Of Arbitrations Are Pending Against DoorDash Alleging
Misclassification Of All DoorDash Delivery Providers ............................................... 4

E.

Five Additional Contractors File PAGA Claims Against DoorDash ........................... 5

F.

Plaintiff Files This PAGA Lawsuit Notwithstanding His Agreement To
Arbitrate ........................................................................................................................ 5

ARGUMENT ........................................................................................................................................ 5
A.

The Arbitration Agreement Is Governed By The Federal Arbitration Act ................... 5

B.

Plaintiff Should Be Compelled To Arbitrate On An Individual Basis ......................... 7

C.

1.

The FAA Mandates Enforcement Of Plaintiff’s Representative-Action
Waiver ............................................................................................................... 7

2.

The FAA Preempts the Iskanian Rule .............................................................. 9

Alternatively, This Case Must Be Stayed ................................................................... 12
1.

This Action Must Be Stayed Because It Overlaps With Pending
Arbitrations ..................................................................................................... 12

2.

Plaintiff’s PAGA Claim Must Be Stayed Because It Duplicates EarlierFiled PAGA Claims Against DoorDash ......................................................... 14

3.

The Court Should Stay This Action Under Its Inherent Powers ..................... 15

CONCLUSION ................................................................................................................................... 15

23a
TABLE OF AUTHORITIES
Cases

Page(s)

Alakozai v. Chase Inv. Servs. Corp. (C.D.Cal. Mar. 1, 2012)
2012 WL 748584 ...........................................................................................................................14
Allied-Bruce Terminix Cos. v. Dobson (1995)
513 U.S. 265......................................................................................................................................6
Am. Express Co. v. Italian Colors Rest. (2013)
570 U.S. 228....................................................................................................................................11
Arias v. Super. Ct. (2009)
46 Cal.4th 969 .................................................................................................................................14
AT&T Mobility LLC v. Concepcion (2011)
563 U.S. 333......................................................................................................................7, 8, 10, 11
Citizens Bank v. Alafabco, Inc. (2003)
539 U.S. 52........................................................................................................................................6
Coker v. Lowe’s Home Ctrs., LLC (Ventura Cty. Super. Ct. Dec. 8, 2017)
2017 WL 6812894 ..........................................................................................................................12
Cook v. Super. Ct. (1966)
240 Cal.App.2d 880 ........................................................................................................................12
Correia v. NB Baker Elec., Inc. (2019)
32 Cal.App.5th 602 .........................................................................................................................10
Cotter v. Lyft, Inc. (N.D.Cal. 2016)
193 F.Supp.3d 1030 ........................................................................................................................13
Delgado v. Am. Jewish Univ. (L.A. Cty. Super. Ct. June 13, 2017)
2017 WL 2672479 ..........................................................................................................................12
DIRECTV, Inc. v. Imburgia (2015)
136 S.Ct. 463 .....................................................................................................................................6
Dynamex Operations W., Inc. v. Super. Ct. (2018)
4 Cal.5th 903 ...................................................................................................................................14
Edwards v. DoorDash, Inc. (S.D.Tex. Oct. 18, 2017)
2017 WL 5514302 ............................................................................................................................5
Epic Sys. Corp. v. Lewis (2018)
138 S.Ct. 1612 .......................................................................................................1, 6, 7, 8, 9, 10, 11
Franco v. Arakelian Enters., Inc. (2015)
234 Cal.App.4th 947 .......................................................................................................................12
Freiberg v. City of Mission Viejo (1995)
33 Cal.App.4th 1484 .......................................................................................................................15

24a

Garcia v. McCutchen (1997)
16 Cal.4th 469 .................................................................................................................................14
Henning v. Indus. Welfare Comm’n (1988)
46 Cal.3d 1262 ................................................................................................................................14
Henry Schein, Inc. v. Archer & White Sales, Inc. (2019)
139 S.Ct. 524 .....................................................................................................................................8
Heritage Provider Network, Inc. v. Super. Ct. (2008)
158 Cal.App.4th 1146 ...........................................................................................................1, 12, 13
Iskanian v. CLS Transp. L.A., LLC (2014)
59 Cal.4th 348 ...................................................................................................................1, 9, 10, 11
James v. City of Boise (2016)
136 S.Ct. 685 .....................................................................................................................................9
Khalatian v. Prime Time Shuttle, Inc. (2015)
237 Cal.App.4th 651 .........................................................................................................................6
Kindred Nursing v. Clark (2017)
137 S.Ct. 1421 ...................................................................................................................................7
Lamps Plus, Inc. v. Varela (2019)
139 S.Ct. 1407 ...............................................................................................................................8, 9
Magana v. DoorDash, Inc. (N.D.Cal. 2018)
343 F.Supp.3d 891 ........................................................................................................................4, 5
Marcus v. Super. Ct. (1977)
75 Cal.App.3d 204 ..........................................................................................................................12
Mastrobuono v. Shearson Lehman Hutton (1995)
514 U.S. 52........................................................................................................................................6
Mercury Ins. Grp. v. Super. Ct. (1998)
19 Cal.4th 332 ...................................................................................................................................7
Miranda v. Anderson Enters., Inc. (2015)
241 Cal.App.4th 196 .........................................................................................................................9
Montes v. San Joaquin Cmty. Hosp. (E.D.Cal. Jan. 29, 2014)
2014 WL 334912 ..............................................................................................................................6
Moses H. Cone Mem’l Hosp. v. Mercury Constr. Corp. (1983)
460 U.S. 1..........................................................................................................................................6
Nitro-Lift Techs., L.L.C. v. Howard (2012)
133 S.Ct. 500 .....................................................................................................................................9
People v. Ledesma (1988)
204 Cal.App.3d 682 ..........................................................................................................................9
Rodriguez v. Am. Techs. (2006)
136 Cal.App.4th 1110 .......................................................................................................................6

25a

Sakkab v. Luxottica Retail N. Am., Inc. (9th Cir. 2015)
803 F.3d 425 ...................................................................................................................................11
Scott v. Yoho (2016)
248 Cal.App.4th 392 .........................................................................................................................6
Tanguilig v. Bloomingdale’s, Inc. (2016)
5 Cal.App.5th 665 .......................................................................................................................9, 10
Valencia v. Smyth (2010)
185 Cal.App.4th 153 .........................................................................................................................6
Zakaryan v. Men’s Wearhouse, Inc. (2019)
33 Cal.App.5th 659 .........................................................................................................................10
Statutes
9 U.S.C. § 2 .........................................................................................................................................6, 7
Cal. Lab. Code, § 1182.12.....................................................................................................................14
Code Civ. Proc., § 128 ..........................................................................................................................15
Code Civ. Proc., § 527.8, subd. (b)(3) ..................................................................................................13
Code Civ. Proc., § 1281.4 .....................................................................................................................12

26a

INTRODUCTION
Plaintiff Brandon Campbell signed an independent-contractor agreement with Defendant
DoorDash, Inc. to be a delivery provider. Plaintiff alleges that he is really an employee and entitled to
minimum wage. Plaintiff brings this lawsuit under the Private Attorneys General Act (“PAGA”) on
behalf of all DoorDash independent contractors in California. DoorDash disputes Plaintiff’s claims on
the merits, but this case cannot proceed in this Court. It must be arbitrated or, alternatively, stayed.
The Court should compel bilateral arbitration of Plaintiff’s claim. The parties contractually
agreed to individually arbitrate disputes between them, and Plaintiff expressly waived his right to bring
any representative action—such as a PAGA action. California’s Iskanian rule prohibits the pre-dispute
waiver of the right to litigate PAGA claims in any forum (see Iskanian v. CLS Transp. L.A., LLC (2014)
59 Cal.4th 348, 360), but Iskanian does not survive the U.S. Supreme Court’s recent decision in Epic
Systems Corp. v. Lewis (2018) 138 S.Ct. 1612. This Court must follow U.S. Supreme Court decisions
even in the face of contrary California precedent.
In the alternative, this Court should stay any non-arbitrable claim for two reasons. First, this
case would interfere with ongoing arbitrations that (like this case) must resolve the issue of whether
DoorDash misclassifies its delivery providers as independent contractors. Plaintiff brings this case
under Labor Code sections 351 and 353, which apply only to “employers” and “employees.” Thus, for
Plaintiff to succeed, the Court necessarily would have to determine that Plaintiff is an employee rather
than an independent contractor. But the issue of whether DoorDash misclassifies its delivery providers
is currently being decided in hundreds of arbitrations. Code of Civil Procedure section 1281.4 provides
that courts “shall” stay any litigation that overlaps with pending arbitrations. (See Heritage Provider
Network, Inc. v. Super. Ct. (2008) 158 Cal.App.4th 1146, 1154.)
Second, this case overlaps with several earlier-filed PAGA cases that seek to litigate—on behalf
of the State—whether DoorDash misclassifies delivery providers as independent contractors. The
earliest of these cases, Marko v. DoorDash, was filed in 2017 and is still pending. Plaintiff should not
be permitted to leapfrog Marko and litigate the central issue in that case on behalf of the same real
party in interest.
Multiple courts have stayed actions against DoorDash on both of these bases. In Marciano

27a

v. DoorDash, for example, a delivery provider filed a PAGA-only action alleging that DoorDash
misclassifies its delivery providers as independent contractors. This Court (Judge Ulmer) entered a
stay.

Recognizing the “welter of litigation” against DoorDash on “the same central issue” of

classification, Judge Ulmer stayed the case under section 1281.4 and the Court’s inherent powers.
(Lipshutz Decl. Ex. X, at p. 1.) Judge Ulmer explained that other delivery providers were arbitrating
the same classification issue and there was already an earlier-filed PAGA claim in Marko. (Id. at pp. 1–
2.) And in Farran v. DoorDash, the Orange County Superior Court denied leave to add a PAGA claim
against DoorDash because “it would be stayed pending the outcome of the [earlier-filed PAGA]
actions.” (Id. Ex. Z, at p. 3.)
Like Marciano and Farran, this case must be stayed because it overlaps with five PAGA actions
that were filed before this case—all of which seek to litigate the same classification issue on behalf of
all California DoorDash delivery providers.
STATEMENT OF RELEVANT FACTS AND PROCEDURAL HISTORY
A.

DoorDash’s Platform Connects Customers, Restaurants, And Delivery Contractors
DoorDash is a technology company that facilitates food delivery through its online platform.

(Tang Decl. ¶ 4.) The platform connects customers, restaurants, and independent contractor delivery
providers (“contractors”). (Ibid.) Customers can access the platform via the DoorDash website or a
mobile application (“DoorDash app”) on a smartphone. (Ibid.) Contractors typically receive delivery
opportunities via the DoorDash app on their smartphone or other mobile device. (Ibid.)
B.

The Parties’ Independent Contractor Agreement
On November 14, 2018, Plaintiff agreed to DoorDash’s Independent Contractor Agreement

(“ICA”) when he signed up to create an account with the DoorDash platform. (Tang Decl. ¶ 4.) To
sign up for an account with the DoorDash platform, Plaintiff had to enter his email and provide his
phone numbers and zip codes. (Id. ¶ 6.) The sign-up screen provides a box that the user must check
to proceed, which provides “I agree to the Independent Contractor Agreement and have read the
Dasher Privacy Policy.” (Id. ¶ 7 & Ex. B.)
The words “Independent Contractor Agreement” and “Dasher Privacy Policy” were highlighted
in red text and hyperlinked to the ICA and Dasher Privacy Policy so that the user could review those

28a

documents before indicating his or her agreement to them. (Id. ¶ 7.) In order to create a DoorDash
account, the user had to click the box to indicate his or her agreement to the ICA. (Ibid.) In the event
that a user clicked the “Sign Up” button without first checking the box to indicate agreement to the
ICA, the user would be unable to proceed and would receive a message in bold black text and
highlighted in a yellow box: “You must accept this agreement to continue!” (Id. ¶ 8 & Ex. C.)
Plaintiff entered his email, phone number and zip code, clicked the consent box to “agree to the
Independent Contractor Agreement” and then clicked the “Sign Up” button. (Id. ¶¶ 5–10.) Thus,
Plaintiff agreed to the ICA, which became “effective on the date it is accepted.” (Id. Ex. A.)
The ICA includes an arbitration agreement in which Plaintiff and DoorDash mutually agreed
to arbitrate “any and all claims arising out of or relating to … [Plaintiff’s] classification as an
independent contractor, … the payments received by [Plaintiff] for providing services to consumers …
and all other aspects of [Plaintiff’s] relationship with [DoorDash].” (Id. Ex. A at § XI.1.) The parties
further agreed that the Arbitration Agreement would be governed by the FAA. (Ibid.)
The ICA also contains an Arbitration Class Action Waiver providing that both Plaintiff and
DoorDash “waive their right to have any dispute or claim brought, heard or arbitrated as, or to
participate in, a class action, collective action and/or representative action—including but not limited
to actions brought pursuant to the Private Attorney General Act (‘PAGA’).” (Id. § XI.3.) Notably, the
ICA’s Arbitration Agreement contains a delegation clause providing that the arbitrator will decide all
issues of arbitrability, except for the validity of the Arbitration Class Action Waiver. (Ibid.) 1
The ICA also contains numerous provisions designed to make the arbitration cost-effective,
efficient, and fair for both parties. For example, the ICA invokes the American Arbitration Association
(“AAA”) rules and provides a hyperlink that facilitates accessing those rules. (Id. §§ XI.5, XI.7.) The
ICA also allows Plaintiff to demand that the arbitration take place within 45 miles of his residence,
discovery is permitted, and “the Arbitrator may award all remedies to which a party is entitled under

1

The ICA also contains a separate, stand-alone Litigation Class Action Waiver, which is not part of
the Arbitration Agreement, providing that “any proceeding to litigate in court … will be conducted
solely on an individual basis” and not as “a representative action, a collective action, [or] a private
attorney-general action.” Tang Decl. Ex. A, § XII. If the Court finds that any part of Plaintiff’s
claims must be litigated, DoorDash preserves all arguments, including that the Litigation Class
Action Waiver prevents Plaintiff from litigating in court on a representative basis.

29a

applicable law and which would otherwise be available in a court of law ….” (Id. § XI.5.)
The ICA states in bold text that each contractor has a right to opt out of the arbitration provision
within 30 days of the effective date of the ICA by mailing a personally signed letter. (Id. § XI.8.) The
ICA makes clear that any contractor who opts out “will not be subject to any adverse action from
DOORDASH as a consequence of that decision.” (Ibid.)
On November 14, 2018, Plaintiff accepted the ICA when he signed up for a DoorDash account
and clicked “Sign Up” (Tang Decl. ¶ 10), and did not opt out (id. ¶ 12).
C.

The Marko Plaintiffs File A PAGA Claim Against DoorDash
In 2017, Daniel Marko filed a putative class action against DoorDash and later amended his

complaint to add a PAGA claim. (Lipshutz Decl. Ex. A.). The operative Marko complaint asserts
twelve causes of action against DoorDash on behalf of two named plaintiffs (Marko and Corona). (Id.,
Ex. B.) Like this case, Marko seeks to resolve whether DoorDash misclassifies its delivery providers.
DoorDash petitioned to compel arbitration of the Marko case, and the superior court granted the petition
in part. (Id. Ex. C.) The court compelled arbitration on the issue of the Marko plaintiffs’ independent
contractor status and alleged damages. (Ibid.) It stayed resolution of the Marko plaintiffs’ public
injunctive relief claims and PAGA claims pending the resolution of the arbitrations. (Ibid.)
D.

Hundreds Of Arbitrations Are Pending Against DoorDash Alleging Misclassification Of
All DoorDash Delivery Providers
Between May and July 2018, 17 additional arbitrations were filed against DoorDash that (like

this case) seek to resolve whether DoorDash misclassified California delivery providers as independent
contractors. (Lipshutz Decl. ¶¶ 5–21.) For example, in the pending arbitration in Love v. DoorDash,
the plaintiff challenges “DoorDash’s misclassification of him as an independent contractor” and claims
that DoorDash’s violations are part of a “practice” affecting “all other DoorDash delivery drivers.” (Id.
Ex. D.) Further, other delivery providers have filed putative class actions against DoorDash alleging
that all California delivery providers have been misclassified, and those actions have now been
compelled to arbitration. (See Lipshutz Decl. Ex. Z [Farran v. DoorDash, Inc. (O.C. Super. Ct. Mar.
7, 2019)]; Magana v. DoorDash, Inc. (N.D.Cal. 2018) 343 F.Supp.3d 891.)

30a

These arbitrations represent only a fraction of those that have been filed. Indeed, since July
2018, hundreds more overlapping arbitration demands have been filed against DoorDash, seeking to
arbitrate the same misclassification and minimum-wage claims. (See Lipshutz Decl. ¶ 32.)
E.

Five Additional Contractors File PAGA Claims Against DoorDash
Before Plaintiff filed this action, five more contractors brought PAGA claims against

DoorDash, seeking to resolve the classification of all DoorDash delivery providers. In addition to
Marko, PAGA claims were filed in Marciano v. DoorDash, No. CGC-18-567869 (S.F. Super. Ct. July
5, 2018); Brown v. DoorDash, No. BC712973 (L.A. Super. Ct. July 6, 2018); Lowe v. DoorDash,
No. BC715425 (L.A. Super. Ct. July 26, 2018); Roussel v. DoorDash, No. CGC-19-572934 (S.F.
Super. Ct. Mar. 12, 2019); and Goldman-Hull v. DoorDash, No. 19-cv-01513 (N.D. Cal. Mar. 22,
2019). (See Lipshutz Decl. ¶¶ 22–24, 29–30.) Goldman-Hull specifically alleges that DoorDash
misclassifies its employees under Labor Code § 350. (Lipshutz Decl. Ex. CC, ¶ 100.) All of these
PAGA actions remain pending.
F.

Plaintiff Files This PAGA Lawsuit Notwithstanding His Agreement To Arbitrate
Plaintiff filed this PAGA action against DoorDash in April 2019, alleging that DoorDash’s

“minimum pay guarantee” violates Labor Code sections 351 and 353. In July 2019, Plaintiff filed the
operative First Amended Complaint that mirrored the original complaint, but (i) attached various news
articles and (ii) disclaimed any argument that Plaintiff is misclassified as an independent contractor.
ARGUMENT
This case should be sent to bilateral arbitration because Plaintiff agreed to arbitrate all disputes
with DoorDash and waived his right to bring a representative PAGA action. In the alternative, any
non-arbitrable claims should be stayed under section 1281.4 and the Court’s inherent authority.
A.

The Arbitration Agreement Is Governed By The Federal Arbitration Act
Courts unanimously have concluded that the FAA governs DoorDash’s ICA. (See Magana,

supra, 343 F. Supp. 3d at p. 899; Farran (Lipshutz Decl. Ex. Z) at 1; Marko (Lipshutz Decl. Ex. C) at
2; Edwards v. DoorDash, Inc. (S.D.Tex. Oct. 18, 2017) 2017 WL 5514302, at *13; Marciano (Lipshutz
Decl. Ex. X) at 1.) The FAA provides: “A written provision in any ... contract evidencing a transaction
involving commerce to settle by arbitration a controversy thereafter arising ... shall be valid,

31a

irrevocable, and enforceable, save upon such grounds as exist at law or in equity for the revocation of
any contract.” (9 U.S.C. § 2.) If the FAA governs, courts must “move the parties to an arbitrable
dispute out of court and into arbitration as quickly and easily as possible.” (Moses H. Cone Mem’l
Hosp. v. Mercury Constr. Corp. (1983) 460 U.S. 1, 22.)
Here, the Arbitration Agreement is indisputably governed by the FAA for two reasons. First,
the Agreement expressly states that it is governed by the FAA (Tang Decl. Ex. A, § XI.1), which brings
it within the purview of the FAA. (Mastrobuono v. Shearson Lehman Hutton (1995) 514 U.S. 52, 63–
64; DIRECTV, Inc. v. Imburgia (2015) 136 S.Ct. 463, 468–471.) The FAA governs, even absent
evidence of an effect on interstate commerce, if the parties so agree. (See Montes v. San Joaquin Cmty.
Hosp. (E.D.Cal. Jan. 29, 2014) 2014 WL 334912, at *5 [courts honor parties’ contractual agreement to
be bound by the FAA], citing Valencia v. Smyth (2010) 185 Cal.App.4th 153, 179; Rodriguez v. Am.
Techs. (2006) 136 Cal.App.4th 1110, 1116, 1121.) The ICA invokes the FAA twice. (Tang Decl.
Ex. A, § XI.1 [“This arbitration agreement is governed by the [FAA] (9 U.S.C. §§ 1–16)”]; id.
§ XIV.3.) Courts must “enforce arbitration agreements according to their terms.” (Epic Sys., supra,
138 S.Ct. at p. 1619.) And the ICA’s terms are clear: The FAA governs.
Second, the FAA applies because the Agreement “affect[s] commerce.”
Terminix Cos. v. Dobson (1995) 513 U.S. 265, 273–274, 281.)

(Allied-Bruce

“Involving commerce” is

“functional[ly] equivalent” to “affecting commerce,” which “normally signals Congress’ intent to
exercise its Commerce Clause powers to the full.” (Id. at p. 273.) This is so “even if the parties did
not contemplate an interstate commerce connection.” (Id. at p. 281; accord Citizens Bank v. Alafabco,
Inc. (2003) 539 U.S. 52, 56.) Courts regularly apply the FAA where, as here, a contract involves
transactions and communications over email and the Internet.

(See Scott v. Yoho (2016) 248

Cal.App.4th 392, 402; Khalatian v. Prime Time Shuttle, Inc. (2015) 237 Cal.App.4th 651, 658.)
DoorDash “is a technology startup … that facilitates food delivery through its online platform,”
and its “platform connects customers, a broad array of restaurants, and [contractors]. Customers can
access the platform via the DoorDash website or a mobile application on a smartphone. Contractors
typically receive delivery opportunities via the DoorDash app on their smartphone or other mobile
device.” (Tang Decl. ¶ 4; see also Aughney Decl. ¶¶ 4–8 [explaining interstate nature of DoorDash’s

32a

business].) Plaintiff expressly “acknowledge[d]” that DoorDash’s “business … is to provide an online
marketplace connection using web-based technology that connects contractors, restaurants and/or other
businesses, and consumers.” (Tang Decl. Ex. A § III.3.) He agreed to “immediately notify” DoorDash
if he disagreed with this characterization of DoorDash’s business. (Id. § III.7.) He did not do so.
B.

Plaintiff Should Be Compelled To Arbitrate On An Individual Basis
Plaintiff agreed to arbitrate his dispute with DoorDash on an individual basis and waived his

right to bring “representative action[s],” including this PAGA action. The Court, therefore, must
enforce the arbitration agreement according to its terms—including the terms prohibiting representative
actions. To the extent California’s Iskanian rule holds otherwise, the FAA preempts it.
1.

The FAA Mandates Enforcement Of Plaintiff’s Representative-Action Waiver

“The FAA was enacted in 1925 in response to widespread judicial hostility to arbitration
agreements.” (AT&T Mobility LLC v. Concepcion (2011) 563 U.S. 333, 339.) Under the FAA, “[a]
written provision in … a contract evidencing a transaction involving commerce to settle by arbitration
a controversy thereafter arising out of such contract or transaction ... shall be valid, irrevocable, and
enforceable, save upon such grounds as exist at law or in equity for the revocation of any contract.” (9
U.S.C. § 2.) This provision reflects “both a liberal federal policy favoring arbitration and the
fundamental principle that arbitration is a matter of contract.” (Concepcion, supra, 563 U.S. at p. 339,
quotation marks and citations omitted; accord Mercury Ins. Grp. v. Super. Ct. (1998) 19 Cal.4th 332,
342 [California has “strong public policy” favoring arbitration].)
The FAA preempts state-law rules that invalidate arbitration agreements if (a) the rule is not a
generally applicable contract defense, but instead applies only to arbitration or derives its meaning
from the fact that an arbitration agreement is at issue; or (b) the rule stands as an obstacle to the
accomplishment of the FAA’s objectives. (Epic Sys., supra, 138 S.Ct. at p. 1622.) The FAA thus
“preempts any state rule discriminating on its face against arbitration” and “also displaces any rule that
covertly accomplishes the same objective by disfavoring contracts that (oh so coincidentally) have the
defining features of arbitration agreements.” (Kindred Nursing v. Clark (2017) 137 S.Ct. 1421, 1426,
quotation marks omitted.) In Concepcion, the Court “readily acknowledged that the defense [of
unconscionability] formally applied in both the litigation and the arbitration context. But, the Court

33a

held, the defense failed to qualify for protection under the saving clause because it interfered with a
fundamental attribute of arbitration all the same.” (Epic, supra, 138 S.Ct. at p. 1622.)
Courts may not rewrite or invalidate parties’ arbitration agreements, even under the guise of
compliance with state-law rules. In Epic Systems, the plaintiffs agreed to arbitrate individually any
disputes between them and their employer in separate proceedings. (Id. at p. 1619.) After the plaintiffs
sued in federal court, the employer successfully moved to compel arbitration over the plaintiffs’
objection that the requirement of separate proceedings violated the National Labor Relations Act.
(Ibid.) The Supreme Court concluded the plaintiffs “object[ed] to their agreements precisely because
they require individualized arbitration proceedings instead of class or collective ones. And by attacking
(only) the individualized nature of the arbitration proceedings, the employees’ argument seeks to
interfere with one of arbitration’s fundamental attributes.” (Id. at p. 1622.) “Congress has instructed
federal courts to enforce arbitration agreements according to their terms—including terms providing
for individualized proceedings.” (Id. at p. 1619.) The FAA’s “saving clause does not save defenses
that target arbitration either by name or by more subtle methods, such as ‘interfer[ing] with fundamental
attributes of arbitration.’” (Id. at p. 1622, quoting Concepcion, supra, 563 U.S. at p. 344.)
Shortly after Epic Systems, the Supreme Court reiterated courts’ obligation to enforce
arbitration contracts according to their terms. In Henry Schein, Inc. v. Archer & White Sales, Inc.
(2019) 139 S.Ct. 524, 528, the Court unanimously held that “courts must respect the parties’ decision”
to delegate arbitrability questions to the arbitrator “as embodied in the contract,” even if the court
believes the argument for arbitration is “wholly groundless.” The Court stated, “We must interpret the
[Federal Arbitration] Act as written, and the Act in turn requires that we interpret the contract as
written. When the parties’ contract delegates the arbitrability question to an arbitrator, a court may not
override the contract.” (Id. at p. 529, italics added.) The Court held that courts “may not engraft [their]
own exceptions onto the statutory text” even if, “as a practical and policy matter,” such exceptions to
arbitration may be desirable. (Id. at pp. 530–531.)
In Lamps Plus, Inc. v. Varela (2019) 139 S.Ct. 1407, 1419, the Supreme Court held that
“[c]ourts may not infer from an ambiguous agreement that parties have consented to arbitrate on a
classwide basis.” The Court relied heavily on Epic Systems and reaffirmed that “[t]he FAA requires

34a

courts to ‘enforce arbitration agreements according to their terms.’” (Id. at p. 1415, quoting Epic Sys.,
138 S.Ct. at p. 1621.) Under Lamps Plus, courts may not rely on a generally applicable state-law
contract principle to enforce classwide arbitration where the parties did not clearly consent to it. (Ibid.)
Because courts must enforce arbitration agreements by their terms, this Court should enforce
the Arbitration Agreement here. The parties “mutually agree[d] to resolve any justiciable disputes
between them exclusively through final and binding arbitration.” (Tang Decl. Ex. A, § XI.1.) And
they “waive[d] their right to have any dispute or claim brought, heard or arbitrated as, or to participate
in, a class action, collective action and/or representative action—including but not limited to actions
brought pursuant to [PAGA].”

(Id. § XI.3.)

PAGA claims, like class claims, “are forms of

representative actions.” (Miranda v. Anderson Enters., Inc. (2015) 241 Cal.App.4th 196, 200.) Thus,
the Court should enforce the representative-action waiver and compel this case to bilateral arbitration.
2.

The FAA Preempts the Iskanian Rule

The FAA preempts any California law preventing Plaintiff from waiving his right to bring a
representative claim. Iskanian held that “an arbitration agreement requiring an employee as a condition
of employment to give up the right to bring representative PAGA actions in any forum is contrary to
public policy.” (59 Cal.4th at p. 360.) It also held that “the FAA does not preempt a state law that
prohibits waiver of PAGA representative actions in an employment contract.” (Ibid.)
But the U.S. Supreme Court’s interpretation of the FAA—California courts’ interpretation—
governs this dispute because state courts are “bound by [the U.S. Supreme] Court’s interpretation of
federal law.” (James v. City of Boise (2016) 136 S.Ct. 685, 686 (per curiam); Nitro-Lift Techs., L.L.C.
v. Howard (2012) 133 S.Ct. 500, 503 (per curiam).)
Epic Systems constitutes intervening U.S. Supreme Court authority and abrogates Iskanian’s
contrary holding. (See Tanguilig v. Bloomingdale’s, Inc. (2016) 5 Cal.App.5th 665, 673 [“[I]n the
absence of a subsequent contrary decision of the United States Supreme Court, we are bound by the
California Supreme Court’s holding on the issue of federal law that Bloomingdale’s contends was
wrongly decided in Iskanian”], cert. denied, 138 S.Ct. 356 (2017); People v. Ledesma (1988) 204
Cal.App.3d 682, 690 [Court of Appeal “compelled to follow the rule enunciated by the United States
Supreme Court” even though that rule was “rejected by the California Supreme Court”].)

35a

The Court of Appeal has disagreed and held that the Iskanian rule remains good law even after
Epic Systems. (See Correia v. NB Baker Elec., Inc. (2019) 32 Cal.App.5th 602, 609; Zakaryan v. Men’s
Wearhouse, Inc. (2019) 33 Cal.App.5th 659, 671.) But Iskanian does not apply here because (unlike
in Iskanian), Plaintiff had the opportunity to opt out of the Arbitration Agreement. In any event,
Correia and Zakaryan are wrongly decided for the reasons explained below. This Court must follow
U.S. Supreme Court precedent even in the face of a contrary holding by a higher California court. (See
Tanguilig, supra, 5 Cal.App.5th at p. 673.)
Under Epic Systems, the Iskanian rule fails both prongs of the preemption test: The Iskanian
rule is not a rule of general applicability because it derives its meaning from the fact that an arbitration
agreement is at issue; and it stands as an obstacle to the FAA’s objectives.
a.

The Iskanian Rule Is Not A Rule Of General Applicability

The FAA’s savings clause “permits agreements to arbitrate to be invalidated by ‘generally
applicable contract defenses, such as fraud, duress, or unconscionability,’ but not by defenses that apply
only to arbitration or that derive their meaning from the fact that an agreement to arbitrate is at issue.”
(Concepcion, supra, 563 U.S. at p. 339; Epic Sys., supra, 138 S. Ct. at p. 1622.)
Rather than rely on any of Concepcion’s contract defenses, Iskanian invalidated PAGA waivers
based on public policy. (Iskanian, supra, 59 Cal.4th at p. 360.) Even if public policy could be a
generally applicable contract defense, the policy against PAGA waivers here derives its meaning from
the fact that an agreement to arbitrate on an individual basis is at issue. (Id. at p. 384 [PAGA waivers
violate public policy because “whether or not an individual claim is permissible under the PAGA, a
prohibition of representative claims frustrates the PAGA’s objectives.”].) Epic Systems makes clear
that the FAA preempts this method of targeting arbitration. (138 S.Ct. at p. 1622 [“[B]y attacking
(only) the individualized nature of the arbitration proceedings, the employees’ argument seeks to
interfere with one of arbitration’s fundamental attributes.”].) Under Concepcion, too, public policy is
not a valid reason to disregard the FAA: “States cannot require a procedure that is inconsistent with
the FAA, even if it is desirable for unrelated reasons.” (563 U.S. at p. 351.)
Further, Iskanian impermissibly attempted to vindicate state law by striking down PAGA
waivers. (Iskanian, supra, 59 Cal.4th at pp. 388–389 [the “sole purpose” of PAGA claims “is to

36a

vindicate the [LWDA’s] interest in enforcing the [California] Labor Code”].) But the U.S. Supreme
Court has held that any effective-vindication doctrine does not apply to state laws like PAGA. (Am.
Express Co. v. Italian Colors Rest. (2013) 570 U.S. 228, 233.). The so-called “Iskanian rule” cannot
overcome the FAA for the purpose of vindicating a California agency’s policy goals—yet that is
exactly what the California Supreme Court purported to do. The FAA thus preempts Iskanian.
b.

The Iskanian Rule Frustrates The Purposes And Objectives Of The FAA

Even where a state law rule could be construed as one of general applicability, it is preempted
if it stands “as an obstacle to the accomplishment of the FAA’s objectives.” (Concepcion, supra, 563
U.S. at p. 343; see also Epic Sys., supra, 138 S.Ct. at 1622–1623.) Here, the Iskanian rule prevents
courts from “enforc[ing] arbitration agreements according to their terms,” particularly the “terms
providing for individualized proceedings.” (Epic Sys., supra, 138 S.Ct. at p. 1619.) As in Epic Systems,
the Iskanian rule prevents PAGA waivers “precisely because they [would] require[] individualized
arbitration proceedings instead of class or collective ones.” (Id. at p. 1622; Iskanian, supra, 59 Cal.4th
at p. 384 [“a prohibition of representative claims frustrates the PAGA’s objectives.”].) By attacking
(only) the individual nature of the arbitration proceedings, the Iskanian rule interferes with arbitration’s
fundamental attribute. The FAA preempts the Iskanian rule.
Indeed, Epic Systems implicitly approved the dissenting opinion in Sakkab v. Luxottica Retail
N. Am., Inc. (9th Cir. 2015) 803 F.3d 425, which explained why the FAA preempts the Iskanian rule:
[B]y (a) preventing parties from crafting arbitration agreements to limit the arbitration
only to individual claims and (b) allowing ex post demand for the arbitration of
representative PAGA actions, the Iskanian rule forces the parties to lose the benefits of
arbitration and frustrates the purposes of the FAA. The Iskanian rule burdens arbitrations
in the same three ways identified in Concepcion: it makes the process slower, more
costly, and more likely to generate procedural morass; it requires more formal and
complex procedure; and it exposes the defendants to substantial unanticipated risk.
(Id. at p. 444 [dis. op. of Smith, J.].) Echoing Judge Smith’s reasoning, the Supreme Court held that
the FAA preempts state laws that change the “fundamental” nature of “traditional arbitration” by
sacrificing its principal advantages of informality, speed, low cost, and decreased risk. (Epic Sys.,
supra, 138 S.Ct. at 1623.) Epic Systems make clear that a party’s attempt to avoid individual arbitration
is an “attack [on] arbitration itself”; thus, this Court should enforce the representative-action waiver.

C.

37a

Alternatively, This Case Must Be Stayed
Even if Iskanian remains good law, this case must be stayed because: (1) an issue in this case

overlaps with an issue in arbitration; and (2) this case overlaps with several earlier-filed PAGA cases.
1. This Action Must Be Stayed Because It Overlaps With Pending Arbitrations
Under Code of Civil Procedure section 1281.4, this Court is required to stay Plaintiff’s lawsuit
pending the outcome of all overlapping arbitrations—including the two pending Marko arbitrations
and the hundreds of other ongoing arbitrations. The statute provides that the court “shall, upon motion
… stay the action … until the application for an order to arbitrate is determined and, if arbitration of
such controversy is ordered, until the arbitration is had.” (Code Civ. Proc., § 1281.4, italics added.)
The Court of Appeal repeatedly has ordered trial courts to stay cases that overlap with pending
arbitrations. (See Heritage Provider Network, supra, 158 Cal.App.4th at pp. 1148–1151 [reversing
denial of stay where a plaintiff was compelled to arbitrate against some plaintiffs but not others];
Marcus v. Super. Ct. (1977) 75 Cal.App.3d 204, 211–212 [reversing trial court and ordering a stay
because of overlapping issues with pending arbitration]; Franco v. Arakelian Enters., Inc. (2015) 234
Cal.App.4th 947, 966 [ordering stay of misclassification claims because they “might overlap” with
pending arbitration]; Cook v. Super. Ct. (1966) 240 Cal.App.2d 880, 887 [same].)
“The purpose of the statutory stay is to protect the jurisdiction of the arbitrator by preserving
the status quo until arbitration is resolved.” (Heritage, supra, 158 Cal.App.4th at p. 1152, quotation
marks and citation omitted.) “In the absence of a stay, the continuation of the proceedings in the trial
court disrupts the arbitration proceedings and can render them ineffective.” (Ibid., quotation marks
and citation omitted.) Further, “a single overlapping issue”—i.e., any shared “question of law or
fact”—“is sufficient to require imposition of a stay.” (Id. at pp. 1552–1553; see also DirecTV Wage
and Hour Cases, Lipshutz Decl. Ex. DD [stay granted where two plaintiffs were compelled to arbitrate
with only some defendants]; Coker v. Lowe’s Home Ctrs., LLC (Ventura Cty. Super. Ct. Dec. 8, 2017)
2017 WL 6812894, at *1 [stay required where arbitration addressed overlapping issues]; Delgado
v. Am. Jewish Univ. (L.A. Cty. Super. Ct. June 13, 2017) 2017 WL 2672479, at *11 [same].)
This Court recently stayed a PAGA misclassification case on behalf of the same DoorDash
delivery providers. In Marciano v. DoorDash, Inc., Judge Ulmer stayed the case for multiple reasons,

including under section 1281.4.

38a

Because other plaintiffs “are presently arbitrating the same

independent contractor v. employee issue with DoorDash,” section 1281.4 mandated a stay. (Lipshutz
Decl. Ex. X, at p. 1.) The same rule applies here. As in Marciano, Plaintiff seeks (by implication) to
litigate his independent contractor status and the status of all California DoorDash delivery providers.
(See FAC ¶¶ 14–15.) This action thus necessarily interferes with hundreds of arbitrations. (Ante p. 4.)
In each of those arbitrations, the arbitrator will resolve the same classification issue as Plaintiff’s action
here, with respect to many of the same DoorDash delivery providers. Section 1281.4 was designed to
avoid that scenario and mandates a stay. (See Heritage, supra, 158 Cal.App.4th at p. 1152.)
Contrary to Plaintiff’s assertion that he does not allege misclassification (FAC ¶ 28), resolving
whether DoorDash meets the definition of “employer” for purposes of Labor Code sections 351 and
353 necessarily interferes with the pending misclassification arbitrations. 2 The relevant definitions of
“employer” and “employee” appear in section 350, subdivisions (a)–(b).
“Employer” means every person engaged in any business or enterprise in this state that has
one or more persons in service under any appointment, contract of hire, or apprenticeship,
express or implied, oral or written, irrespective of whether the person is the owner of the
business or is operating on a concessionaire or other basis.
“Employee” means every person, including aliens and minors, rendering actual service in any
business for an employer, whether gratuitously or for wages or pay, whether the wages or pay
are measured by the standard of time, piece, task, commission, or other method of calculation,
and whether the service is rendered on a commission, concessionaire, or other basis.
Section 351 claims can “only succeed on the merits if a jury ultimately concluded that
[plaintiffs] are employees rather than independent contractors under California law.” (Cotter v. Lyft,
Inc. (N.D.Cal. 2016) 193 F.Supp.3d 1030, 1039.) And the California Legislature made clear that
“employees” under section 350 do not include independent contractors. Indeed, a separate section of
the Civil Procedure Code defines “employee” as “persons defined in Section 350 of the Labor Code”
plus, “[f]or purposes of this section only, … a volunteer or independent contractor who performs
services for the employer at the employer’s worksite.” (Code Civ. Proc., § 527.8, subd. (b)(3).) The

2

Plaintiff inconsistently alleges misclassification. (Compare FAC ¶¶ 17 (“This definition [of
‘employee’] covers the Dashers.”), and ¶ 22 (“Plaintiff … is … an ‘aggrieved employee.’”), with
¶ 28 (disclaiming misclassification argument).) DoorDash reserves the right to argue that Plaintiff
lacks standing under PAGA because he conceded he is an independent contractor. But even the
issue of standing must be arbitrated. (See Tang Decl. Ex. A, § XI.1.)

39a

fact that the California Legislature had to add “independent contractor” to the definition of “employee”
in section 527.8 demonstrates that section 350 alone does not include independent contractors.
Section 350 does not encompass independent contractors for at least two additional reasons.
First, the Legislature amended section 350’s definition of “gratuity” to clarify that dancers who “may
be incorrectly identified as independent contractors and not employees [are] entitled to keep gratuities.”
(California Bill Analysis, A.B. 2509 Sen., June 28, 2000.) If independent contractors were otherwise
captured in section 350’s definition of “employees,” this amendment would be redundant. (See Garcia
v. McCutchen (1997) 16 Cal.4th 469, 476 [courts should “give effect and significance to every word
and phrase of a statute”].) Second, sections 350 et seq. are intended to prevent employers from crediting
tips toward minimum wage. (Henning v. Indus. Welfare Comm’n (1988) 46 Cal.3d 1262, 1275, 1279.)
But because independent contractors are not subject to minimum wage (see Labor Code, § 1182.12;
Dynamex Operations W., Inc. v. Super. Ct. (2018) 4 Cal.5th 903, 964 fn. 32), including independent
contractors in section 350(b)’s definition of “employee” does not further the statute’s purpose.
Because Plaintiff’s PAGA claim rests on a finding that he is an “employee,” and because the
governing definition of “employees” excludes independent contractors, allowing this case to move
forward would necessarily require a resolution of the same issue currently in arbitration—whether
DoorDash misclassifies delivery providers as independent contractors. A stay is therefore mandatory.
2.

Plaintiff’s PAGA Claim Must Be Stayed Because It Duplicates Earlier-Filed
PAGA Claims Against DoorDash

Plaintiff proposes to bring a PAGA claim on behalf of all other current and former aggrieved
employees of DoorDash who have worked in California. (FAC ¶ 26.) But at least five PAGA actions
predate Plaintiff’s proposed PAGA action and cover the same group of independent contractors,
meaning Plaintiff’s PAGA action could not go forward. (Lipshutz Decl. Exs. U, V, W, BB, CC.)
A PAGA action is brought on behalf of the State of California, and the government is the real
party in interest. (Arias v. Super. Ct. (2009) 46 Cal.4th 969, 934.) The State cannot litigate the same
action in several courtrooms at once, and cannot collect the same penalties for the same alleged
violations with respect to the same workers more than once. (See Alakozai v. Chase Inv. Servs. Corp.
(C.D.Cal. Mar. 1, 2012) 2012 WL 748584, at *6, aff’d, (9th Cir. 2014) 557 F.App’x 658.)

40a

In Farran v. DoorDash, Inc., the Superior Court recently denied leave to add a PAGA claim
because several “PAGA actions predate Plaintiff’s proposed PAGA claim. Thus, even if Plaintiff
added a PAGA claim it would be stayed pending the outcome of the other actions.” (Lipshutz Decl.
Ex. Z, at p. 3.) In Marciano, Judge Ulmer agreed: “[A] PAGA action—Marko v. DoorDash, Inc.—
that makes the same allegations seeking the same penalties for the same group of DoorDash delivery
providers was first-filed in Los Angeles County Superior Court. Thus, the San Francisco PAGA action
should be stayed in favor of the Los Angeles PAGA action.” (Lipshutz Ex. X, at pp. 1–2.)
Like Farran and Marciano, this Court should stay Plaintiff’s PAGA claim. Several earlierfiled PAGA suits raise the same misclassification issues and would cover a longer period of time than
Plaintiff’s proposed PAGA claim. (Lipshutz Decl. Exs. B, U, V, W, BB, CC.) Marko was filed in
2017, and litigation is stayed pending arbitration, making it a more effective vehicle for resolving any
PAGA claims. (See id. Ex. B.) Thus, Plaintiff’s PAGA claim must be stayed pending Marko.
3.

The Court Should Stay This Action Under Its Inherent Powers

The Court should also stay this action because many earlier-filed actions seek to litigate the
same classification issues on behalf of the same DoorDash delivery providers. Courts have inherent
authority to stay actions “in furtherance of justice.” (Code Civ. Proc., § 128; Freiberg v. City of Mission
Viejo (1995) 33 Cal.App.4th 1484, 1489.) Judge Ulmer cited this inherent authority as a basis for
staying Marciano. (Lipshutz Decl. Ex. X.) Judge Ulmer noted the Court’s budget “has been cut by
fifty percent. And L.A. is almost as bad. And you’re saying we should do the same thing in L.A. [in
Marko] at the same time as we do it here?” (Id. at p. 10.) Judge Ulmer thus stayed the action “on
grounds of efficiency and consistency even if not required to do so by statute.” (Id. at p. 2.)
Likewise, it would be inefficient to litigate Plaintiff’s action given the numerous earlier-filed
lawsuits that seek to adjudicate the classification of all DoorDash California delivery providers. (Ante
pp. 4–5.) Those actions necessarily include Plaintiff’s classification status, and they were filed long
before Plaintiff’s Complaint. There is no basis to litigate this duplicative action at this time.
CONCLUSION
The Court should compel arbitration of this dispute, in accordance with the terms of the parties’
agreement, and stay any remaining proceedings.

41a
Dated: August 16, 2019

GIBSON, DUNN & CRUTCHER LLP

By:

/s/ Joshua Lipshutz
Joshua Lipshutz

Attorneys for Defendant DoorDash, Inc.

APPENDIX F
GIBSON, DUNN & CRUTCHER LLP
JOSHUA S. LIPSHUTZ, SBN 242557
jlipshutz@gibsondunn.com
555 Mission Street, Suite 3000
San Francisco, CA 94105-0921
Telephone:
415.393.8200
Facsimile:
415.393.8306

42a

ELECTRONICALLY

FILED

Superior Court of California,
County of San Francisco

THEANE EVANGELIS, SBN 243570
tevangelis@gibsondunn.com
MICHAEL HOLECEK, SBN 281034
mholecek@gibsondunn.com
ANDREW WILHELM, SBN 302849
awilhelm@gibsondunn.com
STEPHANIE BALITZER, SBN 316133
sbalitzer@gibsondunn.com
333 South Grand Avenue
Los Angeles, CA 90071-3197
Telephone:
213.229.7000
Facsimile:
213.229.7520

08/16/2019

Clerk of the Court
BY: SANDRA SCHIRO
Deputy Clerk

Attorneys for Defendant DOORDASH, INC.
SUPERIOR COURT OF THE STATE OF CALIFORNIA
CITY AND COUNTY OF SAN FRANCISCO

CASE NO. CGC-19-575383
BRANDON CAMPBELL, in his
representative capacity under the Private
Attorneys General Act (“PAGA”),
Plaintiff,
v.
DOORDASH, INC., a Delaware Corporation;
and DOES 1 through 100, inclusive,
Defendants.

DECLARATION OF STANLEY TANG IN
SUPPORT OF DEFENDANT’S PETITION
TO COMPEL ARBITRATION AND STAY
PROCEEDINGS
Department 302
Honorable Judge Ethan P. Schulman
Hearing Date: November 1, 2019
Hearing Time: 9:30 a.m.
Reservation ID: 08121101-12
Trial Date: None set

II

DocuSign Envelope ID: 308DD530-9D91-48B5-90C0-F9B08DED9431

I, Stanley Tang, declare as follows:
1.

43a

I am an adult over the age of 18 and a resident of the state of California. The

information set forth herein is true and correct of my own personal knowledge (unless otherwise
stated) and if asked to testify thereto, I would do so competently.
2.

I am currently employed as the Chief Product Officer for DoorDash, Inc.

(“DoorDash”). In that role, I am knowledgeable of contractor-facing aspects of DoorDash’s
business, and I have comprehensive knowledge of DoorDash’s business model and operating
systems. I have been employed by DoorDash or its predecessor entity since 2013.
3.

I make this declaration in support of Defendant DoorDash’s Petition to Compel

Arbitration and Stay Proceedings. I am authorized to make these statements on behalf of DoorDash.
In my position as Chief Product Officer for DoorDash, I have access to and personal knowledge of
the matters and information set forth in this declaration, and if called upon to testify thereto, could
and would competently do so. The data from which the information set forth in this declaration was
determined is maintained in the regular course of DoorDash’s business.
4.

DoorDash is a technology startup headquartered in San Francisco, California that

facilitates food delivery through its online platform. DoorDash’s platform connects customers, a
broad array of restaurants, and independent contractor delivery providers (“contractors”). Customers
can access the platform via the DoorDash website or a mobile application (“DoorDash app”) on a
smartphone. Contractors typically receive delivery opportunities via the DoorDash app on their
smartphone or other mobile device.
5.

DoorDash’s records show that Plaintiff Brandon Campbell (“Plaintiff”) first signed up

to create an account with DoorDash on November 14, 2018.
6.

To sign up for a DoorDash account, contractors such as Plaintiff must enter their email

address, phone number, and zip code on the sign-up screen.
7.

DoorDash uses electronic independent contractor agreements with contractors such as

Plaintiff. DoorDash asks contractors who create an account to review and agree to the applicable
Independent Contractor Agreement (“ICA”) at the time of sign-up. Attached hereto as Exhibit A is a
true and correct copy of the text of the ICA as it existed at the time that Plaintiff created a DoorDash

II

DocuSign Envelope ID: 308DD530-9D91-48B5-90C0-F9B08DED9431

44a

account. The check-box section of the DoorDash sign-up screen asks the contractors to manifest
their assent to the ICA by clicking a box next to the following text: “I agree to the Independent
Contractor Agreement and have read the Dasher Privacy Policy.” The “Independent Contractor
Agreement” and “Dasher Privacy Policy” text is hyperlinked in bright red, and directs potential
contractors to the text of the ICA. Attached hereto as Exhibit B is a true and correct copy of the
appearance of the sign-up page as it existed when Plaintiff signed up to create a DoorDash account.
8.

In the event that a user clicked the “Sign Up” button at the bottom of the sign-up

screen without first checking the box to indicate agreement to the ICA, the user would be unable to
proceed and would receive a message in bold black text and highlighted in a yellow box: “You must
accept this agreement to continue!” Attached hereto as Exhibit C is a true and correct copy of the
message that appears on the sign-up page if a user clicked “Sign Up” without clicking the box
manifesting consent to the ICA as it existed when Plaintiff signed up to create a DoorDash account.
9.

Before creating an account and agreeing to the ICA, Plaintiff was free to scroll

through the ICA at his leisure, on his own terms, and to seek the input of an attorney or trusted
advisor if he so chose. He was equally free not to continue creating an account. If he elected to
proceed, however, Plaintiff had to manifest his consent to the ICA by: (1) clicking the box indicating
“I agree to the Independent Contractor Agreement,” and (2) by clicking “Sign Up.”
10.

Because Plaintiff created his account on November 14, 2018, he necessarily accepted

the ICA attached hereto as Exhibit A on that date.
11.

After agreeing to the ICA, contractors such as Plaintiff have the opportunity to opt out

of the arbitration provision if he/she so desires in the manner described by the arbitration provision.
Contractors may opt out of the arbitration provision within thirty days after agreeing to the ICA by
mailing a signed letter to DoorDash indicating that they wish to opt out. As the Chief Product
Officer, I have access to DoorDash’s business records reflecting the names of those individuals who
have accepted the ICA and have elected to opt out of the arbitration provision. The opt out records
are maintained in an electronic file in the regular course of DoorDash’s business, and are records of
DoorDash’s regularly conducted activity of recording those individuals who have opted out of the

II

DocuSign Envelope ID: 308DD530-9D91-48B5-90C0-F9B08DED9431

45a

arbitration provision. Many contractors have exercised their right to opt out of the arbitration
provision within thirty days of accepting the ICA.
12.

DoorDash’s records reflect that Plaintiff did not opt out of the arbitration provision.

I declare under penalty of perjury pursuant to the laws of the United States of America and the
State of California that the foregoing is true and correct.
Executed at San Francisco, California, on this 28th day of June, 2019.

G
9~t~
DocuSigned by:

54 EOB45666AA453

Stanley Tang

Attorney for Defendant DOORDASH, INC.

DocuSign Envelope ID: 308DD530-9D91-48B5-90C0-F9B08DED9431

46a

EXHIBIT A

DocuSign Envelope ID: 308DD530-9D91-48B5-90C0-F9B08DED9431

INDEPENDENT CONTRACTOR AGREEMENT

47a
This Agreement ("Agreement") is made and entered into by and
between you, the undersigned contractor ("CONTRACTOR"), an
independent contractor engaged in the business of performing the delivery services contemplated by this Agreement, and
DoorDash, Inc. ("DOORDASH" or "COMPANY"). CONTRACTOR may enter this Agreement either as an individual or as a
corporate entity. This Agreement will become effective on the date it is accepted regardless of whether you are eligible to, or
ever do, perform any Contracted Services.
IMPORTANT: PLEASE REVIEW THIS AGREEMENT CAREFULLY. IN PARTICULAR, PLEASE REVIEW THE MUTUAL
ARBITRATION PROVISION IN SECTION XI, AS IT REQUIRES THE PARTIES (UNLESS YOU OPT OUT OF ARBITRATION AS
PROVIDED BELOW) TO RESOLVE DISPUTES ON AN INDIVIDUAL BASIS, TO THE FULLEST EXTENT PERMITTED BY LAW,
THROUGH FINAL AND BINDING ARBITRATION. BY ACCEPTING THIS AGREEMENT, YOU ACKNOWLEDGE THAT YOU HAVE
READ AND UNDERSTOOD ALL OF THE TERMS, INCLUDING SECTION XI, AND HAVE TAKEN THE TIME AND SOUGHT ANY
ASSISTANCE NEEDED TO COMPREHEND THE CONSEQUENCES OF ACCEPTING THIS AGREEMENT.

THE PARTIES
DOORDASH is a company that provides an online marketplace connection using web-based technology that connects
contractors, restaurants and/or other businesses, and consumers ("DOORDASH platform" or "platform"). DOORDASH's software
permits registered users to place orders for food and/or other goods from various restaurants and businesses. Once such orders
are made, DOORDASH software notiﬁes contractors that a delivery opportunity is available and the DOORDASH software
facilitates completion of the delivery. DOORDASH is not a restaurant, food delivery service, or food preparation business.
CONTRACTOR is an independent provider of delivery services, authorized to conduct the delivery services contemplated by this
Agreement in the geographic location(s) in which CONTRACTOR operates. CONTRACTOR possesses all equipment and
personnel necessary to perform the delivery services contemplated by this Agreement in accordance with applicable laws.
CONTRACTOR desires to enter into this Agreement for the right to receive delivery opportunities made available through
DOORDASH'S platform. CONTRACTOR understands and expressly agrees that he/she is not an employee of DOORDASH or any
restaurant, other business or consumer and that he/she is providing delivery services on behalf of him/herself and his/her
business, not on behalf of DOORDASH. CONTRACTOR understands (i) he/she is free to select those times he/she wishes to be
available on the platform to receive delivery opportunities; (ii) he/she is free to accept or reject the opportunities transmitted
through the DOORDASH platform by consumers, and can make such decisions to maximize his/her opportunity to proﬁt; and (iii)
he/she has the sole right to control the manner in which deliveries are performed and the means by which those deliveries are
completed.
In consideration of the above, as well as the mutual promises described herein, DOORDASH and CONTRACTOR (collectively
"the parties") agree as follows:

I. PURPOSE OF THE AGREEMENT
1. This Agreement governs the relationship between DOORDASH and CONTRACTOR, and establishes the parties'
respective rights and obligations. In exchange for the promises contained in this Agreement, CONTRACTOR shall have
the right and obligation to perform the "Contracted Services" as deﬁned herein. However, nothing in this Agreement
requires CONTRACTOR to perform any particular volume of Contracted Services during the term of this Agreement, and
nothing in this Agreement shall guarantee CONTRACTOR any particular volume of business for any particular time period.
2. CONTRACTOR shall have no obligation to accept or perform any particular "Delivery Opportunity" (as that term is deﬁned
herein) offered by DOORDASH. However, once a Delivery Opportunity is accepted, CONTRACTOR shall be contractually
bound to complete the Contracted Services in accordance with all consumer speciﬁcations and the terms laid out in this
Agreement,

II. CONTRACTOR'S OPERATIONS
1. CONTRACTOR represents that he/she operates an independently established enterprise that provides delivery services,
and that he/she satisﬁes all legal requirements necessary to perform the services contemplated by this Agreement. As an
independent contractor/enterprise, CONTRACTOR shall be solely responsible for determining how to operate his/her
business and how to perform the Contracted Services.

2. CONTRACTOR agrees to fully perform the Contracted Services in a timely, eﬃcient, safe, and lawful manner. DOORDASH
shall have no right to, and shall not, control the manner, method or means CONTRACTOR uses to perform the Contracted
Services. Instead, CONTRACTOR shall be solely responsible for determining the most effective, eﬃcient, and safe manner
48athe manner of pickup, delivery, and route selection.
to perform the Contracted Services, including determining
3. As an independent business enterprise, CONTRACTOR retains the right to perform services (whether delivery services or
other services) for others and to hold him/herself out to the general public as a separately established business. The
parties recognize that they are or may be engaged in similar arrangements with others and nothing in this Agreement
shall prevent CONTRACTOR or DOORDASH from doing business with others. DOORDASH does not have the right to
restrict CONTRACTOR from performing services for other businesses, customers or consumers at any time, even if such
business directly competes with DOORDASH, and even during the time CONTRACTOR is logged into the DOORDASH
platform. CONTRACTOR’s right to compete with DOORDASH, or perform services for business that compete with
DOORDASH, will survive even after termination of this Agreement.
4. CONTRACTOR is not required to purchase, lease, or rent any products, equipment or services from DOORDASH as a
condition of doing business with DOORDASH or entering into this Agreement.
5. CONTRACTOR agrees to immediately notify DOORDASH in writing at www.doordash.com/help/ if CONTRACTOR's right to
control the manner or method he/she uses to perform services differs from the terms contemplated in this Section.

DocuSign Envelope ID: 308DD530-9D91-48B5-90C0-F9B08DED9431

III. CONTRACTED SERVICES
1. From time to time, the DOORDASH platform will notify CONTRACTOR of the opportunity to complete deliveries from
restaurants or other businesses to consumers in accordance with orders placed by consumers through the DOORDASH
platform (each of these is referred to as a "Delivery Opportunity"). For each Delivery Opportunity accepted by
CONTRACTOR ("Contracted Service"), CONTRACTOR agrees to retrieve the orders from restaurants or other businesses,
ensure the order was accurately ﬁlled, and deliver the order to consumers in a safe and timely fashion. CONTRACTOR
understands and agrees that the parameters of each Contracted Service are established by the consumer, not
DOORDASH, and represent the end result desired, not the means by which CONTRACTOR is to accomplish the result.
CONTRACTOR has the right to cancel, from time to time, a Contracted Service when, in the exercise of CONTRACTOR's
reasonable discretion and business judgment, it is appropriate to do so. Notwithstanding the foregoing, CONTRACTOR
agrees to maintain both a customer rating and a completion rate found here (http://doordash.squarespace.com/localmarkets) as of the date this Agreement becomes effective. Failure to satisfy this obligation constitutes a material breach of
this Agreement, and DOORDASH shall have the right to terminate this Agreement and/or deactivate CONTRACTOR'S
account.
2. CONTRACTOR acknowledges that DOORDASH has discretion as to which, if any, Delivery Opportunity to offer, just as
CONTRACTOR has the discretion whether and to what extent to accept any Delivery Opportunity.
3. CONTRACTOR acknowledges that CONTRACTOR is engaged in CONTRACTOR’s own business, separate and apart from
DOORDASH’S business, which is to provide an online marketplace connection using web-based technology that connects
contractors, restaurants and/or other businesses, and consumers.
4. CONTRACTOR authorizes DOORDASH, during the course of a Contracted Service, to communicate with CONTRACTOR,
consumer, and/or restaurant or other business to assist CONTRACTOR, to the extent permitted by CONTRACTOR, in
facilitating deliveries. However, under no circumstances shall DOORDASH be authorized to control the manner or means
by which CONTRACTOR performs delivery services. This includes, but is not limited to, the following:
0
DOORDASH does not require any speciﬁc type, or quality, of CONTRACTOR’s choice of transportation.
0
CONTRACTOR does not have a supervisor or any individual at DOORDASH to whom they report.
0
CONTRACTOR is not required to use any signage or other designation of DOORDASH on his or her vehicle or
person at any point in their use of the platform to perform the Contracted Services.
0
DOORDASH has no control over CONTRACTOR’s personal appearance
0
CONTRACTOR does not receive regular performance evaluations by DOORDASH
5. CONTRACTOR may use whatever payment method he/she chooses to purchase items to be delivered to consumers,
including, but not limited to CONTRACTOR's personal credit or debit card, cash or a prepaid card. CONTRACTOR may
use, for CONTRACTOR's convenience, the prepaid card solely for purchasing items to be delivered to consumers. If
CONTRACTOR chooses to use his/her personal credit or debit card or cash, CONTRACTOR shall invoice DOORDASH on
a weekly basis and DOORDASH agrees to pay all invoices within 10 days of receipt.

6. In the event CONTRACTOR fails to fully perform any Contracted Service (a "Service Failure") due to CONTRACTOR's
action or omission, CONTRACTOR shall forfeit all or part of the agreed upon fee for that service. If CONTRACTOR
disputes responsibility for a Service Failure, the dispute shall be resolved pursuant to the "Payment Disputes" provision
49a
below.
7. CONTRACTOR agrees to immediately notify DOORDASH in writing by submitting a Support inquiry through
https://help.doordash.com/consumers/s/contactsupport if CONTRACTOR's services or scope of work differ in any way
from what is contemplated in this Section.

DocuSign Envelope ID: 308DD530-9D91-48B5-90C0-F9B08DED9431

IV. RELATIONSHIP OF PARTIES
1. The parties acknowledge and agree that this Agreement is between two co-equal, independent business enterprises that
are separately owned and operated. The parties intend this Agreement to create the relationship of principal and
independent contractor and not that of employer and employee. The parties are not employees, agents, joint venturers, or
partners of each other for any purpose. Neither party shall have the right to bind the other by contract or otherwise except
as speciﬁcally provided in this Agreement.
2. DOORDASH shall not have the right to, and shall not, control the manner or the method of accomplishing Contracted
Services to be performed by CONTRACTOR. The parties acknowledge and agree that those provisions of the Agreement
reserving ultimate authority in DOORDASH have been inserted solely for the safety of consumers and other
CONTRACTORS using the DOORDASH platform or to achieve compliance with federal, state, or local laws, regulations,
and interpretations thereof.
3. DOORDASH shall report all payments made to CONTRACTOR on a calendar year basis using an appropriate IRS Form
1099, if the volume of payments to CONTRACTOR qualify. CONTRACTOR agrees to report all such payments and any
cash gratuities to the appropriate federal, state and local taxing authorities.

V. PAYMENT FOR SERVICES
1. Unless notiﬁed otherwise by DOORDASH in writing or except as provided herein, CONTRACTOR will receive payment per
accurate Contracted Service completed in an amount consistent with the publicly provided pay model, which you can
view here (http://doordash.squarespace.com/local-markets). From time to time, DOORDASH may offer opportunities for
CONTRACTOR to earn more money for performing Contracted Services at speciﬁed times or in speciﬁed locations.
Nothing prevents the parties from negotiating a different rate of pay, and CONTRACTOR is free to accept or deny any
such opportunities to earn different rates of pay.
2. DOORDASH's online credit card software may permit consumers to add a gratuity to be paid to CONTRACTOR, and
consumers can also pay a gratuity to CONTRACTOR in cash. CONTRACTOR shall retain 100% of any gratuity paid by the
consumer, whether by cash or credit card. DOORDASH acknowledges it has no right to interfere with the amount of
gratuity given by the consumer to the CONTRACTOR.
3. DOORDASH will process payments made by consumers and transmit to CONTRACTOR. Payments for all deliveries
completed in a given week will be transferred via direct deposit on no less than a weekly basis unless it notiﬁes
CONTRACTOR otherwise in writing.
4. Notwithstanding the terms of Section V(1) – (3), fulﬁllment orders placed directly with merchants rather than through the
App or doordash.com ("Fulﬁllment Orders") may be subject to a different payment model. The current pay schedules
offered for Fulﬁllment Orders in the relevant markets are reﬂected here (https://doordash.squarespace.com/doordashdrive/). Nothing prevents the parties from negotiating a different rate of pay for a Fulﬁllment Order, and the CONTRACTOR
is free to accept or reject Fulﬁllment Order opportunities. As with all Delivery Opportunities, CONTRACTOR shall retain
100% of any gratuity paid by the consumer for a Fulﬁllment Order. DoorDash's software may not always include an option
to add gratuity for Fulﬁllment Orders; however, consumers can pay a gratuity to CONTRACTOR in cash.
5. From time to time, DOORDASH may offer various Dasher promotions or referral programs. CONTRACTOR agrees that he
or she will not manipulate or abuse the referral programs or Dasher promotions by, among other things: (a) tampering with
the location feature on his or her mobile phone; (b) collecting incentive or promotional pay when not eligible to receive
such pay under relevant policies; or, (c) creating multiple Dasher or consumer accounts. CONTRACTOR understands that
engaging in this type of manipulation or abuse constitutes a material breach of this Agreement and may lead to
deactivation of his or her account.

VI. PAYMENT DISPUTES

1. CONTRACTOR's Failure: In the event there is a Service Failure, CONTRACTOR shall not be entitled to payment as
described above (as determined in DOORDASH's reasonable discretion). Any withholding of payment shall be based
upon proof provided by the consumer, restaurant or other business, CONTRACTOR, and any other party with information
50a
relevant to the dispute. DOORDASH shall make the initial
determination as to whether a Service Failure was the result of
CONTRACTOR's action/omission. CONTRACTOR shall have the right to challenge DOORDASH's determination through
any legal means contemplated by this Agreement; however, CONTRACTOR shall notify DOORDASH in writing at
www.doordash.com/help/ of the challenge and provide DOORDASH the opportunity to resolve the dispute.
CONTRACTOR should include any documents or other information in support of his/her challenge.
2. DOORDASH's Failure: In the event DOORDASH fails to remit payment in a timely or accurate manner, CONTRACTOR shall
have the right to seek proper payment by any legal means contemplated by this Agreement and, should CONTRACTOR
prevail, shall be entitled to recover reasonable costs incurred in pursuing proper payment, provided, however,
CONTRACTOR shall ﬁrst inform DOORDASH in writing at www.doordash.com/help/ of the failure and provide a reasonable
opportunity to cure it.

DocuSign Envelope ID: 308DD530-9D91-48B5-90C0-F9B08DED9431

EQUIPMENT AND EXPENSES
1. CONTRACTOR represents that he/she has or can lawfully acquire all equipment, including vehicles and food hot bags
("Equipment") necessary for performing contracted services, and CONTRACTOR is solely responsible for ensuring that the
vehicle used conforms to all vehicle laws pertaining to safety, equipment, inspection, and operational capability.
2. CONTRACTOR agrees that he/she is responsible for all costs and expenses arising from CONTRACTOR's performance of
Contracted Services, including, but not limited to, costs related to CONTRACTOR's Personnel (deﬁned below) and
Equipment. Except as otherwise required by law, CONTRACTOR assumes all risk of damage or loss to its Equipment.

VIII. PERSONNEL
1. In order to perform any Contracted Services, CONTRACTOR must, for the safety of consumers on the DOORDASH
platform, pass a background check administered by a third-party vendor, subject to CONTRACTOR's lawful consent.
CONTRACTOR is not required to perform any Contracted Services personally, but may, to the extent permitted by law and
subject to the terms of this Agreement, hire or engage others (as employees or subcontractors of CONTRACTOR) to
perform all or some of the Contracted Services, provided any such employees or subcontractors meet all the
requirements applicable to CONTRACTOR including, but not limited to, the background check requirements that
CONTRACTOR must meet in order to perform Contracted Services. To the extent CONTRACTOR furnishes his/her own
employees or subcontractors (collectively "Personnel"), CONTRACTOR shall be solely responsible for the direction and
control of the Personnel it uses to perform all Contracted Services.
2. CONTRACTOR assumes full and sole responsibility for the payment of all amounts due to his/her Personnel for work
performed in relation to this Agreement, including all wages, beneﬁts and expenses, if any, and for all required state
and federal income tax withholdings, unemployment insurance contributions, and social security taxes as to
CONTRACTOR and all Personnel employed by CONTRACTOR in the performance of Contracted Services under this
Agreement. DOORDASH shall have no responsibility for any wages, beneﬁts, expenses, or other payments due
CONTRACTOR's Personnel, nor for income tax withholding, social security, unemployment insurance contributions, or
other payroll taxes relating to CONTRACTOR or his/her Personnel. Neither CONTRACTOR nor his/her Personnel shall
receive any wages, including vacation pay or holiday pay, from DOORDASH, nor shall they participate in or receive
any other beneﬁts, if any, available to DOORDASH's employees.
3. Unless mandated by law, DOORDASH shall have no authority to withhold state or federal income taxes, social
security taxes, unemployment insurance taxes/contributions, or any other local, state or federal tax on behalf of
CONTRACTOR or his/her Personnel.
4. CONTRACTOR and his/her Personnel shall not be required to wear a uniform or other clothing of any type bearing
DOORDASH's name or logo.
5. If CONTRACTOR uses the services of any Personnel to perform the Contracted Services, CONTRACTOR's Personnel must
satisfy and comply with all of the terms of this Agreement, which CONTRACTOR must make enforceable by written
agreement between CONTRACTOR and such Personnel. A copy of such written agreement must be provided to
DOORDASH at least 7 days in advance of such Personnel performing the Contracted Services. The parties acknowledge
that the sole purpose of this requirement is to ensure CONTRACTOR's compliance with the terms of this Agreement.

IX. INSURANCE

1. CONTRACTOR agrees, as a condition of doing business with DOORDASH, that during the term of this Agreement,
CONTRACTOR will maintain current insurance, in amounts and of types required by law to provide the Contracted
Services, at his/her own expense. CONTRACTOR acknowledges that failure to secure or maintain satisfactory insurance
51a and shall result in the termination of the Agreement and
coverage shall be deemed a material breach of this Agreement
the loss of CONTRACTOR's right to receive Delivery Opportunities.
2. NOTIFICATION OF COVERAGE: CONTRACTOR agrees to deliver to DOORDASH, upon request, current certiﬁcates of
insurance as proof of coverage. CONTRACTOR agrees to provide updated certiﬁcates each time CONTRACTOR
purchases, renews, or alters CONTRACTOR's insurance coverage. CONTRACTOR agrees to give DOORDASH at least
thirty (30) days' prior written notice before cancellation of any insurance policy required by this Agreement.
3. WORKERS' COMPENSATION/OCCUPATIONAL ACCIDENT INSURANCE: CONTRACTOR agrees that CONTRACTOR will
not be eligible for workers' compensation beneﬁts through DOORDASH, and instead, will be responsible for providing
CONTRACTOR's own workers' compensation insurance or occupational accident insurance, if permitted by law.

DocuSign Envelope ID: 308DD530-9D91-48B5-90C0-F9B08DED9431

X. INDEMNITY
1. DOORDASH agrees to indemnify, protect and hold harmless CONTRACTOR from any and all claims, demands, damages,
suits, losses, liabilities and causes of action arising directly from DOORDASH's actions arranging and offering the
Contracted Services to CONTRACTOR.
2. CONTRACTOR agrees to indemnify, protect and hold harmless DOORDASH, including all parent, subsidiary and/or
aﬃliated companies, as well as its and their past and present successors, assigns, oﬃcers, owners, directors, agents,
representatives, attorneys, and employees, from any and all claims, demands, damages, suits, losses, liabilities and
causes of action arising directly or indirectly from, as a result of or in connection with, the actions of CONTRACTOR and/or
his/her Personnel arising from the performance of delivery services under this Agreement, including personal injury or
death to any person (including to CONTRACTOR and/or his/her Personnel), as well as any liability arising from
CONTRACTOR's failure to comply with the terms of this Agreement. CONTRACTOR's obligations hereunder shall include
the cost of defense, including attorneys' fees, as well as the payment of any ﬁnal judgment rendered against or settlement
agreed upon by DOORDASH or its parent, subsidiary and/or aﬃliated companies.
3. CONTRACTOR agrees to indemnify, protect and hold harmless DOORDASH, including all parent, subsidiary, and/or
aﬃliated companies, as well as its and their past and present successors, assigns, oﬃcers, owners, directors, agents,
representatives, attorneys, and employees, from any and all tax liabilities and responsibilities for payment of all federal,
state and local taxes, including, but not limited to all payroll taxes, self-employment taxes, workers compensation
premiums, and any contributions imposed or required under federal, state and local laws, with respect to CONTRACTOR
and CONTRACTOR's Personnel.
4. CONTRACTOR shall be responsible for, indemnify and hold harmless DOORDASH, including all parent, subsidiary, and/or
aﬃliated companies, as well as its and their past and present successors, assigns, oﬃcers, owners, directors, agents,
representatives, attorneys, and employees, from all costs of CONTRACTOR's business, including, but not limited to, the
expense and responsibility for any and all applicable insurance, local, state or federal licenses, permits, taxes, and
assessments of any and all regulatory agencies, boards or municipalities.

XI. MUTUAL ARBITRATION PROVISION
1. CONTRACTOR and DOORDASH mutually agree to this arbitration agreement, which is governed by the Federal
Arbitration Act (9 U.S.C. §§ 1-16) ("FAA") and shall apply to any and all claims arising out of or relating to this Agreement,
CONTRACTOR's classiﬁcation as an independent contractor, CONTRACTOR's provision of Contracted Services to
consumers, the payments received by CONTRACTOR for providing services to consumers, the termination of this
Agreement, and all other aspects of CONTRACTOR's relationship with DOORDASH, past, present or future, whether
arising under federal, state or local statutory and/or common law, including without limitation harassment, discrimination
or retaliation claims and claims arising under or related to the Civil Rights Act of 1964 (or its state or local equivalents),
Americans With Disabilities Act (or its state or local equivalents), Age Discrimination in Employment Act (or its state or local
equivalents), Family Medical Leave Act (or its state or local equivalents), Federal Credit Reporting Act (or its state or local
equivalents), Telephone Consumer Protection Act (or its state or local equivalents), or Fair Labor Standards Act (or its state
or local equivalents), state and local wage and hour laws, state and local statutes or regulations addressing the same or
similar subject matters, and all other federal, state or local claims arising out of or relating to CONTRACTOR's relationship
or the termination of that relationship with DOORDASH. The parties expressly agree that this Agreement shall be

governed by the FAA even in the event CONTRACTOR and/or DOORDASH are otherwise exempted from the FAA. Any
disputes in this regard shall be resolved exclusively by an arbitrator. In the event, but only in the event, the arbitrator
determines the FAA does not apply, the state law governing arbitration agreements in the state in which the
52a
CONTRACTOR operates shall apply.

DocuSign Envelope ID: 308DD530-9D91-48B5-90C0-F9B08DED9431

2. If either CONTRACTOR or DOORDASH wishes to initiate arbitration, the initiating party must notify the other party in
writing via certiﬁed mail, return receipt requested, or hand delivery within the applicable statute of limitations period. This
demand for arbitration must include (1) the name and address of the party seeking arbitration, (2) a statement of the legal
and factual basis of the claim, and (3) a description of the remedy sought. Any demand for arbitration by CONTRACTOR
must be delivered to General Counsel, 901 Market Street, 6th Floor, San Francisco, California 94103.
3. Arbitration Class Action Waiver. CONTRACTOR and DOORDASH mutually agree that by entering into this agreement to
arbitrate, both waive their right to have any dispute or claim brought, heard or arbitrated as, or to participate in, a class
action, collective action and/or representative action—including but not limited to actions brought pursuant to the Private
Attorney General Act (“PAGA”), California Labor Code section 2699 et seq., and any request seeking a public injunction—
and an arbitrator shall not have any authority to hear or arbitrate any class, collective or representative action, or to award
relief to anyone but the individual in arbitration ("Arbitration Class Action Waiver"). Notwithstanding any other clause
contained in this Agreement or the AAA Rules, as deﬁned below, any claim that all or part of this Arbitration Class Action
Waiver is unenforceable, unconscionable, void or voidable may be determined only by a court of competent jurisdiction
and not by an arbitrator. In any case in which (1) the dispute is ﬁled as a class, collective, or representative action and (2)
there is a ﬁnal judicial determination that all or part of the Arbitration Class Action Waiver is unenforceable, the class,
collective and/or representative action to that extent must be litigated in a civil court of competent jurisdiction, but the
portion of the Arbitration Class Action Waiver that is enforceable shall be enforced in arbitration. Notwithstanding any
other clause contained in this Agreement or the AAA Rules, as deﬁned below, any claim that all or part of this Arbitration
Class Action Waiver is unenforceable, unconscionable, void or voidable may be determined only by a court of competent
jurisdiction and not by an arbitrator. All other disputes with respect to whether this Mutual Arbitration Provision is
unenforceable, unconscionable, applicable, valid, void or voidable shall be determined exclusively by an arbitrator, and
not by any court.
4. CONTRACTOR agrees and acknowledges that entering into this arbitration agreement does not change CONTRACTOR's
status as an independent contractor in fact and in law, that CONTRACTOR is not an employee of DOORDASH or its
customers and that any disputes in this regard shall be subject to arbitration as provided in this agreement.
5. Any arbitration shall be governed by the American Arbitration Association Commercial Arbitration Rules ("AAA Rules"),
except as follows:
a. The arbitration shall be heard by one arbitrator selected in accordance with the AAA Rules. The Arbitrator shall be
an attorney with experience in the law underlying the dispute.
b. If the parties cannot otherwise agree on a location for the arbitration, the arbitration shall take place within 45 miles
of CONTRACTOR's residence as of the effective date of this Agreement.
c. Unless applicable law provides otherwise, in the event that DOORDASH and CONTRACTOR have agreed to this
Mutual Arbitration Provision, DOORDASH and CONTRACTOR shall equally share ﬁling fees and other similar and
usual administrative costs, as are common to both court and administrative proceedings. DOORDASH shall pay any
costs uniquely associated with arbitration, such as payment of the costs of AAA and the Arbitrator, as well as room
rental.
d. The Arbitrator may issue orders (including subpoenas to third parties) allowing the parties to conduct discovery
suﬃcient to allow each party to prepare that party's claims and/or defenses, taking into consideration that
arbitration is designed to be a speedy and eﬃcient method for resolving disputes.
e. Except as provided in the Arbitration Class Action Waiver, the Arbitrator may award all remedies to which a party is
entitled under applicable law and which would otherwise be available in a court of law, but shall not be empowered
to award any remedies that would not have been available in a court of law for the claims presented in arbitration.
The Arbitrator shall apply the state or federal substantive law, or both, as is applicable.
f. The Arbitrator may hear motions to dismiss and/or motions for summary judgment and will apply the standards of
the Federal Rules of Civil Procedure governing such motions.
g. The Arbitrator's decision or award shall be in writing with ﬁndings of fact and conclusions of law.
h. The Arbitrator may issue orders to protect the conﬁdentiality of proprietary information, trade secrets, or other
sensitive information. Subject to the discretion of the Arbitrator or agreement of the parties, any person having a

direct interest in the arbitration may attend the arbitration hearing. The Arbitrator may exclude any non-party from
any part of the hearing.
i. Either CONTRACTOR or DOORDASH may apply to a court of competent jurisdiction for temporary or preliminary
53a the arbitration provided in this paragraph may be rendered
injunctive relief on the ground that without such relief
ineffectual.

DocuSign Envelope ID: 308DD530-9D91-48B5-90C0-F9B08DED9431

6. Nothing in this Mutual Arbitration Provision prevents you from making a report to or ﬁling a claim or charge with the Equal
Employment Opportunity Commission, U.S. Department of Labor, U.S. Securities and Exchange Commission, National
Labor Relations Board, or Oﬃce of Federal Contract Compliance Programs. Nothing in this Mutual Arbitration Provision
prevents the investigation by a government agency of any report, claim or charge otherwise covered by this Mutual
Arbitration Provision. This Mutual Arbitration Provision also does not prevent federal administrative agencies from
adjudicating claims and awarding remedies based on those claims, even if the claims would otherwise be covered by this
Mutual Arbitration Provision. Nothing in this Mutual Arbitration Provision prevents or excuses a party from satisfying any
conditions precedent and/or exhausting administrative remedies under applicable law before bringing a claim in
arbitration. DOORDASH will not retaliate against CONTRACTOR for ﬁling a claim with an administrative agency or for
exercising rights (individually or in concert with others) under Section 7 of the National Labor Relations Act. Disputes
between the parties that may not be subject to predispute arbitration agreement, including as provided by an Act of
Congress or lawful, enforceable Executive Order, are excluded from the coverage of this Mutual Arbitration Provision.
7. The AAA Rules may be found at www.adr.org or by searching for "AAA Commercial Arbitration Rules" using a service such
as www.google.com or www.bing.com or by asking DOORDASH's General Counsel to provide a copy.
8. CONTRACTOR's Right to Opt Out of Arbitration Provision. Arbitration is not a mandatory condition of
CONTRACTOR's contractual relationship with DOORDASH, and therefore CONTRACTOR may submit a statement
notifying DOORDASH that CONTRACTOR wishes to opt out and not be subject to this MUTUAL ARBITRATION
PROVISION. In order to opt out, CONTRACTOR must notify DOORDASH in writing of CONTRACTOR's intention to opt out
by sending a letter, by First Class Mail, to DoorDash, Inc., 901 Market Street, Suite 600, San Francisco, CA, 94131. Any
attempt to opt out by email will be ineffective. The letter must state CONTRACTOR's intention to opt out. In order to be
effective, CONTRACTOR's opt out letter must be postmarked within 30 days of the effective date of this Agreement. The
letter must be signed by CONTRACTOR himself/herself, and not by any agent or representative of CONTRACTOR. The
letter may opt out, at most, only one CONTRACTOR, and letters that purport to opt out multiple CONTRACTORS will not
be effective as to any. No CONTRACTOR (or his or her agent or representative) may effectuate an opt out on behalf of
other CONTRACTORS. If CONTRACTOR opts out as provided in this paragraph, CONTRACTOR will not be subject to any
adverse action from DOORDASH as a consequence of that decision and he/she may pursue available legal remedies
without regard to this Mutual Arbitration Provision. If CONTRACTOR does not opt out within 30 days of the effective date
of this Agreement, CONTRACTOR and DOORDASH shall be deemed to have agreed to this Mutual Arbitration Provision.
CONTRACTOR has the right to consult with counsel of CONTRACTOR's choice concerning this Mutual Arbitration
Provision (or any other provision of this Agreement.
9. This Mutual Arbitration Provision is the full and complete agreement relating to the formal resolution of disputes covered
by this Mutual Arbitration Provision. In the event any portion of this Mutual Arbitration Provision is deemed unenforceable,
the remainder of this Mutual Arbitration Provision will be enforceable. The award issued by the Arbitrator may be entered
in any court of competent jurisdiction.

XII. LITIGATION CLASS ACTION WAIVER
1. To the extent allowed by applicable law, separate and apart from the Mutual Arbitration Provision found in Section XI,
CONTRACTOR agrees that any proceeding to litigate in court any dispute arising out of or relating to this Agreement,
whether because CONTRACTOR opted out of the Arbitration Provision or any other reason, will be conducted solely on
an individual basis, and CONTRACTOR agrees not to seek to have any controversy, claim or dispute heard as a class
action, a representative action, a collective action, a private attorney-general action, or in any proceeding in which
CONTRACTOR acts or proposes to act in a representative capacity (“Litigation Class Action Waiver”). CONTRACTOR
further agrees that no proceeding will be joined, consolidated, or combined with another proceeding, without the prior
written consent of all parties to any such proceeding. If a court of competent jurisdiction determines that all or part of this
Litigation Class Action Waiver is unenforceable, unconscionable, void or voidable, the remainder of this Agreement shall
remain in full force and effect.

XIII. TERMINATION OF AGREEMENT

DocuSign Envelope ID: 308DD530-9D91-48B5-90C0-F9B08DED9431

1. CONTRACTOR may terminate this Agreement upon seven (7) days written notice. DOORDASH may terminate this
Agreement and deactivate CONTRACTOR’S Dasher account only for the reasons set forth in the
54a
DOORDASH Deactivation Policy (http://www.doordash.com/deactivationpolicy), or for a material breach of this
Agreement. Notwithstanding any other provision in this Agreement, DoorDash reserves the right to modify the
Deactivation Policy if, in DoorDash’s good faith and reasonable discretion, it is necessary to do so for the safe and/or
effective operation of the DoorDash platform. DOORDASH shall provide notice of any such changes to CONTRACTOR via
e-mail. Changes to the Deactivation Policy shall be effective and binding on the parties upon CONTRACTOR’s continued
use of the DOORDASH platform following DOORDASH’s e-mail notice of such modiﬁcations. Nothing will prevent
CONTRACTOR from attempting to negotiate an exemption from any modiﬁcation to the Deactivation Policy.
2. CONTRACTOR's and DOORDASH's obligations and rights arising under the Mutual Arbitration Provision of this Agreement
shall survive termination of this Agreement. Notwithstanding any other provision in this Agreement, the Deactivation
Policy is subject to change; such changes shall be effective and binding on the parties upon DOORDASH’S provision of
notice to CONTRACTOR via e-mail.

XIV. ENTIRE AGREEMENT, TRANSFERABILITY, AND WAIVER
1. This Agreement shall constitute the entire agreement and understanding between the parties with respect to the subject
matter of this Agreement and shall not be modiﬁed, altered, changed or amended in any respect, unless in writing and
signed by both parties. Before accepting any modiﬁcations, alterations, changes or amendments, CONTRACTOR shall
have the right to discuss any proposed changes with DOORDASH and consider whether to continue his/her contractual
relationship with DOORDASH. This Agreement supersedes any prior contract between the parties. To the extent
DOORDASH's consumer facing Terms and Conditions Agreement (or updated consumer facing Terms and Conditions
Agreement, if applicable) is inconsistent or conﬂicts with this Agreement, this Agreement controls. However, the decision
to opt-out of the Mutual Arbitration Provision in this Agreement does not affect the enforceability of any arbitration
agreement in the consumer facing Terms and Conditions Agreement to which Contractor may be bound (and vice versa).
This Agreement may not be assigned by either party without written consent of the other and shall be binding upon the
parties hereto, including their heirs and successors, provided, however, that DOORDASH may assign its rights and
obligations under this Agreement to an aﬃliate of DOORDASH or any successor(s) to its business and/or purchaser of
substantially all of its stock or assets. References in this Agreement to DOORDASH shall be deemed to include such
successor(s).
2. The failure of DOORDASH or CONTRACTOR in any instance to insist upon a strict performance of the terms of this
Agreement or to exercise any option herein, shall not be construed as a waiver or relinquishment of such term or option
and such term or option shall continue in full force and effect.

XV. MISCELLANEOUS
1. CAPTIONS: Captions appearing in this Agreement are for convenience only and do not in any way limit, amplify, modify, or
otherwise affect the terms and provisions of this Agreement.
2. SEVERABILITY Clause: Except as speciﬁcally provided in Section XI, if any part of this Agreement is declared unlawful or
unenforceable, the remainder of this Agreement shall remain in full force and effect.
3. GOVERNING LAW: Except for the Mutual Arbitration Provision above, which is governed by the Federal Arbitration Act, the
choice of law for interpretation of this Agreement, and the right of the parties hereunder, as well as substantive
interpretation of claims asserted pursuant to Section XI, shall be the rules of law of the state in which CONTRACTOR
performs the majority of the services covered by this Agreement.
4. NOTICE AND OPPORTUNITY TO CURE: CONTRACTOR agrees to notify DOORDASH in writing at
https://www.doordash.com/help/ (https://www.doordash.com/help/) of any breach or perceived breach of this Agreement,
of any claim arising out of or related to this Agreement, or of any claim that CONTRACTOR's services or scope of work
differ in any way from what is contemplated in this Agreement, including but not limited to the terms in Sections II
(Contractor's Operations) and III (Contractor's Services), or if the relationship of the parties differs from the terms
contemplated in Section IV (Relationship of Parties).
5. PRIVACY POLICY: CONTRACTOR represents and warrants that he or she has reviewed and understands DOORDASH'S
Dasher Privacy Statement, which can be found here (http://www.doordash.com/dasherprivacypolicy). By using the Dasher

Services, you consent to all actions taken by DOORDASH with respect to your information in accordance with the Dasher
Privacy Statement.

DocuSign Envelope ID: 308DD530-9D91-48B5-90C0-F9B08DED9431

55a

/s/Cody Aughney

Cody Aughney, authorized representative for DoorDash, Inc.
About (/about/) • Blog (http://blog.doordash.com) • Careers (/careers/) • Terms (/terms/) • Privacy (/privacy/) • Accessibility
(/accessibility/) • Delivery Locations (/food-delivery/) • Help & Support (/help/) • Become a Merchant (/merchant/apply/) • Become
a Dasher (/driver/apply/)
 (http://twitter.com/doordash) 
 (http://facebook.com/doordash) 
 (http://instagram.com/doordash)

© 2017 DoorDash

DocuSign Envelope ID: 308DD530-9D91-48B5-90C0-F9B08DED9431

56a

EXHIBIT B

DocuSign Envelope ID: 308DD530-9D91-48B5-90C0-F9B08DED9431

57a

Get your first check this week
Email

_ P_h_o_n_e_N
_u
_m
_ b_e_r_ _ _ _]

D

I Your ZIP/ Postal Code

I consent to rece ive emails, cal ls, or SMS messages inclu di ng by

automat ic te lephone d ialing system from Doo rDash to my ema il or
phone nu m1ber(s) above for info rmat iona l! and / or market ing purposes .
Consent to receive messages is not a cond it ion to make a purchase or
sign up. I agree to the Independent Contractor Agreement and have
read the Dasher Privacy Policy.

Sign Up

Already started s·gning up?

DocuSign Envelope ID: 308DD530-9D91-48B5-90C0-F9B08DED9431

58a

EXHIBIT C

DocuSign Envelope ID: 308DD530-9D91-48B5-90C0-F9B08DED9431

59a

Get your first check this week
[ xyz@ya_h_o_o_.c_o_
•m
_ _ _ _ _ _ _ _ _ _ _ _ _ _ _ ____

[..______
(4~1-5)_3_9_3 -_s_2 0_0_____]
1

1

9410 s

San Francisco, CA

D

I consent to rece ive ema il s, ca lls, or SMS messages including by

automat ic telephone d ial in g system from DoorDash to my ema il or
phone number(s) above for informationa l and / or mar eting purposes .
Consent t o receive messages is not a cond it ion to make a purchase or
sign u p. I agree t o the Independent Contractor Agreement and have
read the Dasher Privacy Policy.
You must accept this agreement to continue!

Sign Up
Already started signing up?

60a
1
2
3
4
5
6
7

R. Rex Parris (SBN 96567)
Kitty K. Szeto (SBN 258136)
John M. Bickford (SBN 280929)
Ryan A. Crist (SBN 316653)
PARRIS LAW FIRM
43364 10th Street West
Lancaster, California 93534
Telephone:
(661) 949-2595
Facsimile:
(661) 949-7524

APPENDIX G

Attorneys for Plaintiff BRANDON CAMPBELL
and the Aggrieved Employees

8

SUPERIOR COURT OF THE STATE OF CALIFORNIA

9

FOR THE COUNTY OF SAN FRANCISCO

10
11
12
13
14
15
16
17
18
19
20

BRANDON CAMPBELL, in his representative
capacity under the Private Attorney General Act
(“PAGA”),

)
)
)
)
)
Plaintiff,
)
)
v.
)
)
)
DOORDASH, INC., a Delaware Corporation; and )
DOES 1 through 100, inclusive,
)
)
)
Defendants.
)
)
)
)
)

Case No.: CGC-19-575383
[Assigned for all purposes to the Honorable
Ethan P. Schulman, Dept. 302]
PLAINTIFF’S OPPOSITION TO
DEFENDANT’S PETITION TO COMPEL
ARBITRATION
Date: November 1, 2019
Time: 9:30 a.m.
Place: 302
Complaint Filed:
Trial Date:

April 19, 2019
None Set

21
22
23
24
25
26
27
28

___________________________________________________________________________
PLAINTIFF’S OPPOSITION TO DEFENDANT’S PETITION TO COMPEL ARBITRATION

61a
1

TABLE OF CONTENTS

2

PAGE

3

TABLE OF AUTHORITIES ...................................................................................................................... ii

4

INTRODUCTION .......................................................................................................................................1

5

FACTS .........................................................................................................................................................1

6

A.

DoorDash is a food delivery company..........................................................................................1

7

B.

DoorDash uses customers’ tips to satisfy its workers’ guaranteed minimum pay. ......................2

8

C.

Customers don’t realize their tips are being used to subsidize the Dasher’s

9
10

promised minimum payment. .......................................................................................................2
D.

Plaintiff files a PAGA claim, alleging DoorDash’s tipping policy violates

11

California tipping law. ..................................................................................................................3

12

ARGUMENT ...............................................................................................................................................5

13

I.

THE PAGA WAIVER IS UNENFORCEABLE. .........................................................................5

14

A.

A PAGA claim is a type of qui tam action. .........................................................................5

15

B.

Iskanian holds PAGA waivers violate public policy and are

16

unenforceable despite the FAA. ...........................................................................................6

17

C.

Iskanian is neither overruled nor distinguishable. ...............................................................8

18

1.

The court must follow Iskanian. .................................................................................8

19

2.

Iskanian is not distinguishable. ...................................................................................9

20
21

II.

THE CASE SHOULD NOT BE STAYED. ...............................................................................10
A.

22
23

arbitrations against DoorDash............................................................................................10
B.

24
25
26

This PAGA case does not overlap with the “hundreds” of individual misclassification

DoorDash misconstrues Plaintiff’s allegations in order to avoid having
to litigate this case. .............................................................................................................11

C.

In any event, the first-to-file rule does not apply to PAGA actions. .................................12

CONCLUSION ..........................................................................................................................................13

27
28
i
PLAINTIFF’S OPPOSITION TO DEFENDANT’S PETITION TO COMPEL ARBITRATION

62a
1

TABLE OF AUTHORITIES

2

PAGE

3

Cases

4

Alakozai v. Chase Investment Services Corp.

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

(C.D.Cal. Mar. 1, 2012, No. CV 11-09178 SJO (JEMx)), 2012 WL 748584 ...................................... 12
Albert v. Postmates Inc.
(N.D.Cal. Mar. 5, 2019, No. 18-cv-07592-JCS) 2019 WL 1045785, at *6.................................... 11, 12
Alicia T v. County of Los Angeles
(1990) 222 Cal.App.3d 869 .................................................................................................................. 12
Auto Equity Sales, Inc. v. Superior Court
(1962) 57 Cal.2d 450 .............................................................................................................................. 8
Correia v. N.B. Baker Electric, Inc.
(2019) 32 Cal.App.5th 603 ..................................................................................................................... 8
Epic Systems Corp. v. Lewis
(2018) 138 S.Ct. 1612 ................................................................................................................. 1, 5, 8, 9
Gonzalez v. CoreCivic of Tennessee, LLC
(E.D.Cal. July 31, 2018, No. 16-cv-01891-DAD-JLT), 2018 WL 3689564, at *4 .............................. 12
Iskanian v. CLS Transportation Los Angeles, LLC
(2014) 59 Cal.4th 348 .................................................................................................................... passim
O’Connor v. Uber Technologies, Inc.
(N.D.Cal. Feb. 4, 2016, No. 13-cv-03826-EMC) 2016 WL 11556426, at *1 ...................................... 12
People v. Williams
(2009) 176 Cal.App.4th 1521 ............................................................................................................... 12
Sakkab v. Luxottica Retail North America, Inc.
(9th Cir. 2015) 803 F.3d 425 .................................................................................................................. 6
Salazar v. McDonalds Corp.
(9th Cir. Oct. 1, 2019, No. 17-15673) ___ F.3d ___, ___ [2019 WL 4782760, at *3 ............................ 4

28
ii
PLAINTIFF’S OPPOSITION TO DEFENDANT’S PETITION TO COMPEL ARBITRATION

63a
1
2
3
4
5
6
7
8
9
10

Securitas Security Services USA, Inc. v. Superior Court
(2015) 234 Cal.App.4th 1109 ........................................................................................................... 9, 10
Tan v. Grubhub, Inc.
(N.D.Cal. 2016) 171 F.Supp.3d 998 ..................................................................................................... 12
Truly Nolen of America v. Superior Court
(2012) 208 Cal.App.4th 487 ................................................................................................................... 1
Williams v. Superior Court
(2015) 237 Cal.App.4th 642 ................................................................................................................. 10
Williams v. Superior Court
(2017) 3 Cal.5th 531 ........................................................................................................................... 5, 6

11

Statutes

12

Civil Code section 1668 .......................................................................................................................... 6, 7

13

Labor Code section 350 ........................................................................................................................ 4, 11

14

Labor Code section 351 ........................................................................................................................ 3, 11

15

Labor Code section 353 .................................................................................................................... 3, 4, 11

16

Labor Code section 355 .............................................................................................................................. 4

17

Rules

18

California Rules of Court, rule 8.115........................................................................................................ 12

19
20
21
22
23
24
25
26
27
28
iii
PLAINTIFF’S OPPOSITION TO DEFENDANT’S PETITION TO COMPEL ARBITRATION

64a
1

INTRODUCTION

2

Defendant DoorDash, Inc. (“DoorDash”) is asking this court to ignore the California Supreme

3

Court’s decision in Iskanian v. CLS Transportation Los Angeles, LLC (2014) 59 Cal.4th 348 (Iskanian)

4

holding Private Attorney Genera Act (“PAGA”) waivers are unenforceable and this rule is not preempted

5

by the Federal Arbitration Act (“FAA”). According to it, the United States Supreme Court’s decision in

6

Epic Systems Corp. v. Lewis (2018) 138 S.Ct. 1612 (Epic Systems) implicitly overruled Iskanian. But

7

Epic Systems dealt with whether the NLRA prohibits class waivers in employment agreements. It said

8

nothing about the enforceability of PAGA waivers, nor did it discuss any other representative claim. Since

9

this court is “absolutely bound to follow the decisions of the California Supreme Court, unless the United

10

States Supreme Court has decided the same question differently,” Defendant’s motion to compel arbitration

11

must be denied. (Truly Nolen of America v. Superior Court (2012) 208 Cal.App.4th 487, 507 (Truly Nolen),

12

italics in original.)

13

Additionally, there is no reason to stay this case. Unlike the “hundreds” of individual arbitrations

14

and five PAGA claims alleging DoorDash misclassifies its Dashers as independent contractors, Plaintiff is

15

claiming California’s tipping laws apply to independent contractors, at least in this case. It would make little

16

sense to stay a case pending the outcome of a case based on an entirely different legal theory. Moreover,

17

even if the cases were the same, there is no rule prohibiting an employer from facing multiple arbitrations

18

and PAGA claims at one time. Accordingly, the petition should be denied.

19
20

FACTS
A.

DoorDash is a food delivery company.

21

DoorDash is an on-demand delivery company that enables customers to order food from local

22

restaurants and stores and have it delivered to them for a fee. (FAC, ¶ 10.) To make an order, customers

23

use DoorDash’s smartphone app to place an order from a participating business. (Ibid.) When an order

24

is placed, the price is shown and charged to the customer’s credit card. (Ibid.) Besides the cost of the

25

food, the price includes a service/delivery fee. (Ibid.) The order is then picked up and delivered by

26

delivery drivers, called “Dashers,” which DoorDash classifies as independent contractors. (Ibid.) Once

27

the food is delivered, the customer may tip the Dasher through the app. (Ibid.)

28

////
1
PLAINTIFF’S OPPOSITION TO DEFENDANT’S PETITION TO COMPEL ARBITRATION

65a
1

B.

DoorDash uses customers’ tips to satisfy its workers’ guaranteed minimum pay.

2

Each delivery has a guaranteed minimum pay the Dashers are promised to receive for each

3

delivery, which varies based on order size, distance, traffic, and other factors relating to the logistics of

4

the delivery. (FAC, ¶ 11.) Earlier this year, controversy arose when reporters discovered that DoorDash

5

had been using its customers’ tips to satisfy the Dasher’s guaranteed minimum pay since at least 2017.

6

(See id., Ex. D at p. 2.) The policy works like this: DoorDash pays out a base fee of $1 per order and

7

then counts a customer’s tip, if they leave one, toward the guaranteed pay amount. (Id., Ex. H at p. 2.) If

8

the value of the tip falls short of the guaranteed pay amount, DoorDash pays the difference. (Ibid.) If the

9

tip exceeds the guaranteed pay amount, then DoorDash only pays $1 and the tip makes up the rest of the

10

pay. (Ibid.)

11

Consider the following three order examples, all with a hypothetical guaranteed minimum pay of

12

$10. In the first example, the customer tips nothing, so DoorDash pays the $1 base plus an additional $9.

13

(FAC, Ex. J at p. 2.) In the second example, the customer tips $5, so DoorDash pays the $1 base plus an

14

additional $4. (Ibid.) In the third example, the customer tips $9, so DoorDash pays only the $1 base.

15

(Ibid.)

16

In any of these cases, the outcome for the worker is the same: They get $10.

17

So long as [the customers’] tip counts toward the guaranteed order

18

minimum set by the company, it doesn’t matter to the worker whether [the

19

customer] left [a tip] or not; they get paid the same. . . . But it matters to

20

DoorDash, because if [a customer doesn’t] leave a tip, the company has to

21

cover the entire cost of the guaranteed minimum it promises to take on a

22

job.

23

(Ibid.)

24

C.

Customers don’t realize their tips are being used to subsidize the Dasher’s promised

25

minimum payment.

26

DoorDash’s policy of “[a]djusting [its] contribution, depending on the tip, flies in the face of how

27

customers have traditionally viewed the act of tipping: as a bonus that’s in addition to a set, if low, base

28

salary from the company.” (FAC, Ex. D at p. 3.) “When people add additional tips to their delivery
2
PLAINTIFF’S OPPOSITION TO DEFENDANT’S PETITION TO COMPEL ARBITRATION

66a
1

service tab, they reasonably assume they are tipping the delivery person—rather than the company.” (Id.,

2

Ex. E at p. 1.) “ ‘Customers are basically subsidizing a promised minimum payment, and it’s extremely

3

deceptive.’ ” (Id., Ex. B at p. 1.; id., Ex. H at p. 4 [“ ‘If the customers really knew what was going on, I

4

don’t think they would be happy because tips are supposed to be on top of base pay.’ ”].)

5

The only way a customer can ensure their tip is being used properly is by tipping in cash.

6

Let’s revisit that hypothetical order with the $10 guarantee. If [a customer]

7

leave[s] zero tip in the app, but [gives the] delivery worker $5 in cash, then

8

guess what?

9

minimum, and they also get [the customer’s] $5 tip, for a total of $15. When

10

[a customer] leave[s] the same $5 tip in the app, DoorDash counts it against

11

the order guarantee and the worker only get $10. The cost to [the customer]

12

in both cases is $5, but when the [customer] tips in cash the worker gets that

13

money on top of the order minimum, rather than as part of it.

14

(FAC, Ex. J. at p. 3.)

15

D.

DoorDash pays them the $1 base plus $9 to meet that

Plaintiff files a PAGA claim, alleging DoorDash’s tipping policy violates California tipping

16

law.

17

On April 19, 2019, Plaintiff filed a PAGA complaint, alleging DoorDash’s tipping policy violates

18

Labor Code section 351 and 353. Labor Code section 351 states, in part:

19

No employer or agent shall collect, take, or receive any gratuity or a part

20

thereof that is paid, given to, or left for an employee by a patron, or deduct

21

any amount from wages due an employee on account of a gratuity, or

22

require an employee to credit the amount, or any part thereof, of a gratuity

23

against and as a part of the wages due the employee from the employer.

24

Every gratuity is hereby declared to be the sole property of the employee or

25

employees to whom it was paid, given, or left for.

26

(Labor Code, § 351.) Labor Code section 353 states: “Every employer shall keep accurate records of all

27

gratuities received by him, whether received directly from the employee or indirectly by means of

28
3
PLAINTIFF’S OPPOSITION TO DEFENDANT’S PETITION TO COMPEL ARBITRATION

67a
1

deductions from the wages of the employee or otherwise. Such records shall be open to inspection at all

2

reasonable hours by the department.” (Id., § 353.)

3

The stated public purpose of these statutes “is to prevent fraud upon the public in connection with

4

the practice of tipping.” (Labor Code, § 355.) The statutes “cannot be contravened by private agreement.”

5

(Ibid.)

6

Notably, these statutes do not rely on the commonly-used definitions of employer and employee.

7

(See Labor Code, § 350; see also Salazar v. McDonalds Corp. (9th Cir. Oct. 1, 2019, No. 17-15673) ___

8

F.3d ___, ___ [2019 WL 4782760, at *3] [The California Supreme Court has provided three alternative

9

definitions for what it means for a person or entity to ‘employ[ ]’ someone: ‘(a) to exercise control over

10

the wages, hours or working conditions, or (b) to suffer or permit to work, or (c) to engage, thereby creating

11

a common law relationship.’ ” (alteration in original)].) Rather, California’s tipping laws have their own

12

definitions, which are much broader:

13

(a)

“Employer” means every person engaged in any business or enterprise in

14

this state that has one or more persons in service under any appointment,

15

contract of hire, or apprenticeship, express or implied, oral or written,

16

irrespective of whether the person is the owner of the business or is

17

operating on a concessionaire or other basis.

18

(b)

“Employee” means every person, including aliens and minors, rendering

19

actual service in any business for an employer, whether gratuitously or for

20

wages or pay, whether the wages or pay are measured by the standard of

21

time, piece, task, commission, or other method of calculation, and whether

22

the service is rendered on a commission, concessionaire, or other basis.

23
24
25

(c)

“Employing” includes hiring, or in any way contracting for, the services of
an employee.

(Labor Code, § 350, italics added.)

26

Plaintiff has clarified that he is not alleging he and the other aggrieved employees are misclassified

27

as independent contractors under the commonly used definitions of employer and employee. (FAC, ¶ 28.)

28

Instead, he is alleging that the Dashers, despite being classified as independent contractors, fall within the
4
PLAINTIFF’S OPPOSITION TO DEFENDANT’S PETITION TO COMPEL ARBITRATION

68a
1

definition of employee, and DoorDash falls within the definition of employer, as defined by California’s

2

tipping laws. Consequently, DoorDash’s tipping policy is unlawful.

3
4

ARGUMENT
I.

THE PAGA WAIVER IS UNENFORCEABLE.

5

DoorDash argues “this case should be sent to bilateral arbitration because Plaintiff agreed to

6

arbitrate all disputes with DoorDash and waived his right to bring a representative PAGA claim.” (Mot.

7

at 5:5:20–21.) But it is well established that PAGA claims cannot be waived, nor can they be compelled

8

to arbitration.

9

Corp. v. Lewis (2018) 138 S.Ct. 1612 (“Epic Systems”). The petition must be denied.

This remains true despite the United States Supreme Court’s decision in Epic Systems

10

A.

11

PAGA “authorizes an employee to bring an action for civil penalties on behalf of the state against

12

his or her employer for Labor Code violations committed against the employee and fellow employees,

13

with most of the proceeds of that litigation going to the state.” (Iskanian v. CLS Transportation Los

14

Angeles, LLC (2014) 59 Cal.4th 348, 360 (Iskanian).) It was enacted

A PAGA claim is a type of qui tam action.

15

to remedy systemic underenforcement of many worker protections. This

16

underenforcement was a product of two related problems. First, many

17

Labor Code provisions contained only criminal sanctions, and district

18

attorneys often had higher priorities. Second, even when civil sanctions

19

were attached, the government agencies with existing authority to ensure

20

compliance often lacked adequate staffing and resources to police labor

21

practices throughout an economy the size of California’s. [Citations.] The

22

Legislature addressed these difficulties by adopting a schedule of civil

23

penalties ‘ “significant enough to deter violations” ’ for those provisions

24

that lacked existing noncriminal sanctions, and by deputizing employees

25

harmed by labor violations to sue on behalf of the state and collect penalties,

26

to be shared with the state and other affected employees.

27

(Williams v. Superior Court (2017) 3 Cal.5th 531, 545 (Williams).)

28

////
5
PLAINTIFF’S OPPOSITION TO DEFENDANT’S PETITION TO COMPEL ARBITRATION

69a
1

PAGA was passed “with the understanding that labor law enforcement agencies were to retain

2

primacy over private enforcement efforts.” (Iskanian, supra, 59 Cal.4th at p. 379, internal quotation marks

3

omitted.) Thus, an aggrieved employee must first “provide notice to the employer and the responsible

4

state agency ‘of the specific provisions of [the Labor Code] alleged to have been violated, including the

5

facts and theories to support the alleged violation.’ [Citations.] If the agency elects not to investigate, or

6

investigates without issuing a citation, the employee may then bring a PAGA action.” (Williams, supra,

7

3 Cal.5th at p. 545.) “Of the civil penalties recovered, 75 percent goes to the Labor and Workforce

8

Development Agency [LWDA], leaving the remaining 25 percent for the ‘aggrieved employees.’ ”

9

(Iskanian, at p. 380, internal quotation marks omitted.)

10

A PAGA action is therefore “fundamentally a law enforcement action designed to protect the

11

public and not to benefit private parties.” (Iskanian, supra, 59 Cal.4th at p. 381, internal quotation marks

12

omitted.) An employee “suing . . . under the [PAGA] does so as a proxy or agent of the state’s labor law

13

enforcement agencies. . . . In a lawsuit brought under the act, the employee plaintiff represents the same

14

legal right and interest as state labor law enforcement agencies—namely, recovery of civil penalties that

15

otherwise would have been assessed and collected by the Labor Workforce Development Agency.” (Id.

16

at p. 380, alterations in original, internal quotation marks omitted.) Put differently, a PAGA action is “a

17

type of qui tam action,” except “a portion of the penalty goes not only to the citizen bringing the suit but

18

to all employees affected by the Labor Code violation.” (Id. at p. 382; accord, Sakkab v. Luxottica Retail

19

North America, Inc. (9th Cir. 2015) 803 F.3d 425, 429 (Sakkab) [“An action brought under the PAGA is

20

a type of qui tam action.”].)

21
22

B.

Iskanian holds PAGA waivers violate public policy and are unenforceable despite the
FAA.

23

In Iskanian, the California Supreme Court examined two related questions regarding the predispute

24

waiver of PAGA claims: (1) whether arbitration agreements requiring employees to waive their right to

25

bring PAGA actions are unenforceable under state law, and if so, (2) whether the FAA preempts that rule.

26

(Iskanian, supra, 59 Cal.4th at p. 378.) The court began by holding that two state statutes prohibited the

27

enforcement of PAGA waivers. The first, Civil Code section 1668, codifies the general principle that

28

agreements exculpating a party for violations of the law are unenforceable. The court observed that
6
PLAINTIFF’S OPPOSITION TO DEFENDANT’S PETITION TO COMPEL ARBITRATION

70a
1

allowing employees to waive the right to bring PAGA actions would “disable one of the primary

2

mechanisms for enforcing the Labor Code.” (Id. at p. 383.) Because a PAGA waiver “has as its

3

‘object, . . . indirectly, to exempt [the employer] from responsibility for [its] own . . . violation of law,’ it

4

is against public policy and may not be enforced.” (Ibid., alterations in original, quoting Civ. Code,

5

§ 1668.) The court also found PAGA waivers violated Civil Code section 3513, which codifies the general

6

principle that a law established for a public reason may not be contravened by private agreement. The

7

court concluded that “agreements requiring the waiver of PAGA rights would harm the state’s interests in

8

enforcing the Labor Code and in receiving the proceeds of civil penalties used to deter violations.” (Ibid.)

9

The California Supreme Court further held this rule is not preempted by the FAA. This is because

10

“the FAA aims to ensure an efficient forum for the resolution of private disputes, whereas a PAGA action

11

is a dispute between an employer and the state Labor and Workforce Development Agency.” (Iskanian,

12

supra, 59 Cal.4th at p. 384.) “[A] PAGA claim lies outside the FAA’s coverage because it is not a dispute

13

between an employer and an employee arising out of their contractual relationship. It is a dispute between

14

an employer and the state, which alleges directly or through its agents—either the Labor and Workforce

15

Development Agency or aggrieved employees—that the employer has violated the Labor Code.” (Id. at

16

pp. 386–387, italics in original.)

17

Nothing in the text or legislative history of the FAA nor in the Supreme

18

Court’s construction of the statute suggest that the FAA was intended to

19

limit the ability of states to enhance their public enforcement capabilities by

20

enlisting willing employees in qui tam actions. Representative actions

21

under PAGA, unlike class action suits for damages, do not displace the

22

bilateral arbitration of private disputes between employers and employees

23

over their respective rights and obligations toward each other. Instead, they

24

directly enforce the state’s interest in penalizing and deterring employers

25

who violate California’s labor laws.

26

(Id. at p. 387.) “In sum, the FAA aims to promote arbitration of claims belonging to the private parties to

27

an arbitration agreement. It does not aim to promote arbitration of claims belonging to a government

28

agency.” (Id. at p. 388.) This “is no less true when such a claim is brought by a statutorily designated
7
PLAINTIFF’S OPPOSITION TO DEFENDANT’S PETITION TO COMPEL ARBITRATION

71a
1

proxy for the agency as when the claim is brought by the agency itself. The fundamental character of the

2

claim as a public enforcement action is the same in both instances.” (Id. at p. 389.)

3

C.

4

DoorDash recognizes Iskanian, but claims the United States Supreme Court’s reasoning in Epic

5

Systems requires this court to overrule it. It also claims Iskanian is distinguishable because Plaintiff had

6

an opportunity to opt out of the Arbitration Agreement. Neither of these arguments have merit.

7

Iskanian is neither overruled nor distinguishable.

1.

The court must follow Iskanian.

8

First, the court has no choice but to follow Iskanian. “On federal questions, intermediate appellate

9

courts in California”—along with trial courts—“must follow the decisions of the California Supreme

10

Court, unless the United States Supreme Court has decided the same question differently.” (Correia v.

11

N.B. Baker Electric, Inc. (2019) 32 Cal.App.5th 603, 619 (Correia), italics in original.)

12

Iskanian held a ban on bringing PAGA actions in any forum violates public

13

policy and that this rule is not preempted by the FAA because the claim is

14

a governmental claim. [Citation.] Epic did not consider this issue and thus

15

did not decide the same question differently. [Citation.] Epic addressed a

16

different issue pertaining to the enforceability of an individualized

17

arbitration requirement against challenges that such enforcement violated

18

the NRLA. [Citation.]

19

(Ibid., italics in original.)

20

The court is also bound by Correia. (See Auto Equity Sales, Inc. v. Superior Court (1962) 57

21

Cal.2d 450, 455 [“Decisions of every division of the District Courts of Appeal are binding upon all the

22

justice and municipal courts and upon all the superior courts of this state . . . .”].) There, the Court of

23

Appeal recognized “Epic did not reach the issue regarding whether a governmental claim of this nature is

24

governed by the FAA, or consider the implications of a complete ban on a state law enforcement action.”

25

(Correia, supra, 32 Cal.App.5th at p. 620.) It therefore held it “remain[ed] bound by the California

26

Supreme Court’s decision.” (Ibid.)

27

Moreover, even if the court weren’t bound by higher courts, nothing in Epic Systems suggests

28

Iskanian is incorrect. According to DoorDash, Epic Systems’ “intervening law” was its declaration that
8
PLAINTIFF’S OPPOSITION TO DEFENDANT’S PETITION TO COMPEL ARBITRATION

72a
1

courts must “ ‘enforce arbitration agreements according to their terms—including terms providing for

2

individualized proceedings.’ ” (Pet. at p. 8:11–13, quoting Epic Systems Corp. v. Lewis (2018) 138 S.Ct.

3

1612, 1619.) This isn’t new or revolutionary; it’s just another reiteration of the Court’s post-Concepcion

4

holdings. And Iskanian considered this rule and held it did not apply to public actions brought on behalf

5

of the state:

6

Our opinion today would not permit a state to circumvent the FAA by, for

7

example, deputizing employee A to bring a suit for the individual damages

8

claims of employees B, C, and D. This pursuit of victim-specific relief by

9

a party to an arbitration agreement on behalf of other parties to an arbitration

10

agreement would be tantamount to a private class action, whatever the

11

designation given by the Legislature. Under Concepcion, such an action

12

could not be maintained in the face of a class waiver. Here, importantly, a

13

PAGA litigant’s status as “the proxy or agent” of the state [citation] is not

14

merely semantic; it reflects a PAGA litigant’s substantive role in enforcing

15

our labor laws on behalf of state law enforcement agencies. Our FAA

16

holding applies specifically to a state law rule barring predispute waiver of

17

an employee’s right to bring an action that can only be brought by the state

18

or its representatives, where any resulting judgment is binding on the state

19

and any monetary penalties largely go to state coffers.

20
21
22
23

(Iskanian, supra, 59 Cal.4th at pp. 387–388.)
2.

Iskanian is not distinguishable.

Second, DoorDash claims Iskanian is distinguishable because Plaintiff allegedly “had the
opportunity to opt out of the Arbitration Agreement.” (Pet. at 10:4.) But

24

this same argument was raised and rejected in Securitas Security Services

25

USA, Inc. v. Superior Court (2015) 234 Cal.App.4th 1109. There, the

26

appellate court held that an agreement’s PAGA waiver violated public

27

policy, notwithstanding that the employee was not required to enter into it

28

as a condition of employment.

[Citation.]

As the court explained,

9
PLAINTIFF’S OPPOSITION TO DEFENDANT’S PETITION TO COMPEL ARBITRATION

73a
1

“Iskanian’s underlying public policy rationale—that a PAGA waiver

2

circumvents the Legislature’s intent to empower employees to enforce the

3

Labor Code as agency representatives and harms the state’s interest in

4

enforcing the Labor Code—does not turn on how the employer and

5

employee entered into the agreement, or the mandatory or voluntary nature

6

of the employee’s initial consent to the agreement.” [Citation.] The reason

7

is that “[a] PAGA claim provides a remedy inuring to the state and the

8

public, and the law . . . broadly precludes private agreements to waive such

9

public rights.” [Citation].

10

(Williams v. Superior Court (2015) 237 Cal.App.4th 642, 648–649; see also id. at p. 649 [We agree with

11

the Securitas court.”].)

12

II.

THE CASE SHOULD NOT BE STAYED.

13

Alternatively, DoorDash argues this case could be stayed because there are “hundreds” of

14

individual arbitrations and five PAGA claims pending, alleging Dashers are misclassified as independent

15

contractors. But this case is not claiming Dashers are misclassified as independent contractors. (See FAC,

16

¶ 28.) Rather, Plaintiff is alleging that Dashers—despite being classified as independent contractors—fall

17

within the definition of employee, and DoorDash falls within the definition of employer, as defined by

18

California’s tipping laws. Additionally, even these other arbitrations and PAGA claims were the same, it

19

would not prevent Plaintiff from asserting his PAGA claim here.

20
21

A.

This PAGA case does not overlap with the “hundreds” of individual misclassification
arbitrations against DoorDash.

22

First, DoorDash claims this case must be stayed because there are allegedly “hundreds” of

23

arbitrations pending against DoorDash on whether Dashers are properly classified as independent

24

contractors. But as explained above,

25

a “PAGA action is brought on behalf of the State of California, and state

26

law treats the government—not the private plaintiff—as the real party in

27

interest.” [Citation.] [DoorDash] has presented no persuasive reason why

28

California should have its interest in the enforcement of its laws delayed by
10
PLAINTIFF’S OPPOSITION TO DEFENDANT’S PETITION TO COMPEL ARBITRATION

74a
1

other private plaintiffs’ complications related to arbitration, nor why

2

proceeding with this case while others are stayed would cause judicial

3

inefficiency.

4

(Albert v. Postmates Inc. (N.D.Cal. Mar. 5, 2019, No. 18-cv-07592-JCS) 2019 WL 1045785, at *6.)

5

Additionally, “[e]ven if the arbitrations involve similar issues of classification, it is not clear why the

6

state’s interest in enforcing its laws should wait for the conclusion of those arbitrations, each of which—

7

by the terms of [DoorDash’s arbitration agreement]—can only resolve the claims of a single [Dasher].”

8

(Ibid.)

9

B.

10

DoorDash misconstrues Plaintiff’s allegations in order to avoid having to litigate this
case.

11

Additionally, Plaintiff has made it clear that he is not alleging he and the other aggrieved

12

employees are misclassified as independent contractors under the commonly used definitions of

13

employer/employee. (FAC, ¶ 28.) He also expressly states this case is not about his entitlement to

14

minimum wage, overtime, and meal and rest breaks. (Ibid.) Rather, his allegations are related solely to

15

the definitions contained Labor Code section 350, and whether he and the other Dashers are included

16

within the protections of Labor Code sections 351 and 353.

17

DoorDash ignores this, and instead argues that “Plaintiff alleges that he is really an employee and

18

entitled to minimum wage” (Pet. at p. 1:3–4), and therefore is the same as the hundreds of pending

19

arbitration and five PAGA claims. But DoorDash has failed to provide any evidence that any of these

20

cases involve the question of whether DoorDash’s policy of using customers’ tips to subsidize its labor

21

costs violates the California Labor Code. Nor could it, since it was only early this year when this practice

22

was first discovered.

23

Finally, DoorDash’s claim that it will prevail on the merits of Plaintiff’s claim, and therefore the

24

case should be stayed, makes little sense. If DoorDash is confident that independent contractors—as a

25

matter of law—are not covered by California’s tipping laws, it should just file a demurrer, not request a

26

stay. The issue can be decided quickly, and the case can be resolved. Indefinitely staying this action

27

because of unrelated cases makes little sense.

28

////
11
PLAINTIFF’S OPPOSITION TO DEFENDANT’S PETITION TO COMPEL ARBITRATION

75a
1

C.

2

Additionally, even if the other PAGA claims were the same as this case, there is no rule that

3

multiple PAGA claim cannot proceed against an employer at the same time. Contrary to DoorDash’s

4

claim, the first-to-file rule generally does not apply to PAGA actions. (Gonzalez v. CoreCivic of

5

Tennessee, LLC (E.D.Cal. July 31, 2018, No. 16-cv-01891-DAD-JLT), 2018 WL 3689564, at *4 [“[T]he

6

court is unpersuaded that California’s PAGA statute contains a first-to-file rule.”]; O’Connor v. Uber

7

Technologies, Inc. (N.D.Cal. Feb. 4, 2016, No. 13-cv-03826-EMC) 2016 WL 11556426, at *1 (O’Connor)

8

[“[T]he Court finds that the PAGA statute does not require the stay or dismissal of duplicative PAGA

9

claims.”]; Tan v. Grubhub, Inc. (N.D.Cal. 2016) 171 F.Supp.3d 998, 1013 (“Tan”) [rejecting first to file

10

rule and allowing subsequent PAGA claim to proceed]; see also Albert, supra, 2019 WL 1045785 at p. *6

11

[“The parties agree that PAGA does not in itself prohibit concurrent actions by different plaintiffs or

12

require a stay of subsequent actions.”].)

In any event, the first-to-file rule does not apply to PAGA actions.

13

In Tan v. Grubhub, Inc., for example, the court explained that PAGA explicitly “bars an employee

14

from bringing a PAGA action when the LWDA has cited an employer. But the statute is silent with respect

15

to whether an employee may bring a PAGA action when another private plaintiff brings suit against the

16

employer in a representative capacity.” (See Tan, supra, 171 F.Supp.3d at p. 1012.) Considering that

17

statutory silence, the court in O’Connor held that there is no reason “why [PAGA] should be read to

18

include deferring to a suit brought by private plaintiffs (as opposed to the LWDA) when the statutory

19

language makes no such provision.” (O’Connor, supra, 2016 WL 11556426 at p. *1.)

20

DoorDash’s authority for the alternative position is far more limited. Its lone citable case, Alakozai

21

v. Chase Investment Services Corp. (C.D.Cal. Mar. 1, 2012, No. CV 11-09178 SJO (JEMx)), 2012 WL

22

748584, relies on federal procedural doctrine rather than specifically interpreting the PAGA statute and

23

predates the cases cited above that reach the opposite conclusion. DoorDash’s citation to unpublished

24

California state trial court authority is improper and potentially sanctionable. (See Cal. Rules of Court,

25

rule 8.115; accord, People v. Williams (2009) 176 Cal.App.4th 1521, 1529 [“persistent use of unpublished

26

authority may be cause for sanctions”]; Alicia T v. County of Los Angeles (1990) 222 Cal.App.3d 869,

27

885–886.) Plaintiff is aware of no authority that permits parties to make an end-run around this rule by

28

attaching unpublished orders to a declaration and then citing the declaration.
12
PLAINTIFF’S OPPOSITION TO DEFENDANT’S PETITION TO COMPEL ARBITRATION

76a
1
2

CONCLUSION
The court should deny DoorDash’s petition to compel arbitration and stay proceedings.

3
4

Date: October 21, 2019

PARRIS LAW FIRM

5
6

By:

7

John M. Bickford

8

Attorneys for Plaintiff BRANDON
CAMPBELL and the Aggrieved Employees

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
13
PLAINTIFF’S OPPOSITION TO DEFENDANT’S PETITION TO COMPEL ARBITRATION

77a
1

PROOF OF SERVICE
1013A(3) CCP Revised 5/l/88

2

STATE OF CALIFORNIA, COUNTY OF LOS ANGELES

3

I am employed in the County of Los Angeles, State of California. I am over the age of 18 and not
a party to the within action, my business address is 43364 10th Street West, Lancaster, California 93534.

4
5
6
7
8
9
10
11
12
13
14
15
16
17
18

On October 21, 2019, I served the foregoing document described as PLAINTIFF’S
OPPOSITION TO DEFENDANT’S PETITION TO COMPEL ARBITRATION by placing a true
copy thereof enclosed in sealed envelopes addressed as follows:
Joshua S. Lipshutz, Esq.
jlipshutz@gibsondunn.com
GIBSON, DUNN & CRUTCHER LLP
555 Mission Street, Suite 3000
San Francisco, CA 94105
Telephone:
415-393-8200
Facsimile:
415-393-8306

Counsel for Defendant Doordash, Inc.

Theane Evangelis, Esq.
tevangelis@gibsondunn.com
Michael Holecek, Esq.
mholecek@gibsondunn.com
Andrew Wilhelm, Esq.
awilhelm@gibsondunn.com
Stephanie Baltizer, Esq.
sbalitzer@gibsondunn.com
GIBSON, DUNN & CRUTCHER LLP
333 South Grand Avenue
Los Angeles, CA 90071
Telephone:
213-229-7000
Facsimile:
213-229-7520

Counsel for Defendant Doordash, Inc.

[X]

BY ELECTRONIC SERVICE as follows: Based on a court order, or an agreement of the parties
to accept service by electronic transmission, I caused the documents to be sent to the persons at
the electronic notification addressed listed on the attached Service List.

[X]

BY OVERNIGHT MAIL as follows:
I placed such envelope in a Golden State Overnight
Mailer addressed to the above party or parties at the above address(es), with delivery fees fully
pre-paid for next-business-day delivery, and delivered it to a Golden State Overnight pick-up
driver before 4:00 p.m. on the stated date.

19
20
21
22
23
24
25
26

Executed on October 21, 2019, at Lancaster, California.
[X]

I declare under penalty of perjury under the laws of the State of California that the above is true
and correct.
___________________________
Sommer Jordan

27
28
PLAINTIFF’S OPPOSITION TO DEFENDANT’S PETITION TO COMPEL ARBITRATION

APPENDIX H
GIBSON, DUNN & CRUTCHER LLP
JOSHUA S. LIPSHUTZ, SBN 242557
jlipshutz@gibsondunn.com
555 Mission Street, Suite 3000
San Francisco, CA 94105-0921
Telephone:
415.393.8200
Facsimile:
415.393.8306

78a

ELECTRONICALLY

FILED

Superior Court of California,
County of San Francisco

THEANE EVANGELIS, SBN 243570
tevangelis@gibsondunn.com
MICHAEL HOLECEK, SBN 281034
mholecek@gibsondunn.com
ANDREW WILHELM, SBN 302849
awilhelm@gibsondunn.com
STEPHANIE BALITZER, SBN 316133
sbalitzer@gibsondunn.com
333 South Grand Avenue
Los Angeles, CA 90071-3197
Telephone:
213.229.7000
Facsimile:
213.229.7520

08/16/2019

Clerk of the Court
BY: SANDRA SCHIRO
Deputy Clerk

Attorneys for Defendant DOORDASH, INC.
SUPERIOR COURT OF THE STATE OF CALIFORNIA
CITY AND COUNTY OF SAN FRANCISCO

CASE NO. CGC-19-575383
BRANDON CAMPBELL, in his
representative capacity under the Private
Attorneys General Act (“PAGA”),
Plaintiff,
v.
DOORDASH, INC., a Delaware Corporation;
and DOES 1 through 100, inclusive,
Defendants.

DECLARATION OF JOSHUA LIPSHUTZ
IN SUPPORT OF DEFENDANT’S
PETITION TO COMPEL ARBITRATION
AND STAY PROCEEDINGS
Department 302
Honorable Judge Ethan P. Schulman
Hearing Date: November 1, 2019
Hearing Time: 9:30 a.m.
Reservation ID: 08121101-12
Trial Date: None set

79a

I, Joshua Lipshutz, declare as follows:
1.

I am an attorney admitted to practice law before this Court and all of the Courts of the

State of California. I am a partner at the law firm of Gibson, Dunn & Crutcher LLP, counsel of
record for Defendant DoorDash, Inc. (“DoorDash” or “Defendant”) in the above-captioned action. I
offer this declaration in support of DoorDash’s Petition to Compel Arbitration and Stay Proceedings.
I have personal knowledge of the facts set forth in this declaration (unless otherwise noted), and, if
called to testify, I could and would competently testify to them.
2.

Attached hereto as Exhibit A is a true and correct copy of the Complaint filed in

Marko v. DoorDash, Inc. No. BC659841 (L.A. Super. Ct. May 2, 2017).
3.

Attached hereto as Exhibit B is a true and correct copy of the First Amended Class

Action Complaint filed in Marko v. DoorDash, Inc., No. BC659841 (L.A. Super. Ct. Aug. 15, 2017).
4.

Attached hereto as Exhibit C is a true and correct copy of the Order Granting in Part

Defendant DoorDash, Inc.’s Petition to Compel Arbitration in Marko v. DoorDash, Inc., No.
BC659841 (L.A. Super. Ct. May 29, 2018).
5.

Attached hereto as Exhibit D is a true and correct copy of the arbitration demand filed

in Love v. DoorDash, Inc. on May 11, 2018.
6.

Attached hereto as Exhibit E is a true and correct copy of the arbitration demand filed

in Van Buren v. DoorDash, Inc. on May 21, 2018.
7.

Attached hereto as Exhibit F is a true and correct copy of the arbitration demand filed

in Beatleston v. DoorDash, Inc. on May 31, 2018.
8.

Attached hereto as Exhibit G is a true and correct copy of the arbitration demand filed

in Borantes v. DoorDash, Inc. on May 31, 2018.
9.

Attached hereto as Exhibit H is a true and correct copy of the arbitration demand filed

in Evans v. DoorDash, Inc. on May 31, 2018.
10.

Attached hereto as Exhibit I is a true and correct copy of the arbitration demand filed

in Goldstein v. DoorDash, Inc. on May 31, 2018.
11.

Attached hereto as Exhibit J is a true and correct copy of the arbitration demand filed

in Jones v. DoorDash, Inc. on May 31, 2018.

12.

80a

Attached hereto as Exhibit K is a true and correct copy of the arbitration demand filed

in Lee v. DoorDash, Inc. on May 31, 2018.
13.

Attached hereto as Exhibit L is a true and correct copy of the arbitration demand filed

in Beck v. DoorDash, Inc. on July 18, 2018.
14.

Attached hereto as Exhibit M is a true and correct copy of the arbitration demand

filed in Cole v. DoorDash, Inc. on July 18, 2018.
15.

Attached hereto as Exhibit N is a true and correct copy of the arbitration demand filed

in Denham v. DoorDash, Inc. on July 18, 2018.
16.

Attached hereto as Exhibit O is a true and correct copy of the arbitration demand filed

in Erickson v. DoorDash, Inc. on July 18, 2018.
17.

Attached hereto as Exhibit P is a true and correct copy of the arbitration demand filed

in Fogg v. DoorDash, Inc. on July 18, 2018.
18.

Attached hereto as Exhibit Q is a true and correct copy of the arbitration demand filed

in Hseih v. DoorDash, Inc. on July 18, 2018.
19.

Attached hereto as Exhibit R is a true and correct copy of the arbitration demand filed

in Mendoza v. DoorDash, Inc. on July 18, 2018.
20.

Attached hereto as Exhibit S is a true and correct copy of the arbitration demand filed

in Teitelbaum v. DoorDash, Inc. on July 18, 2018.
21.

Attached hereto as Exhibit T is a true and correct copy of the arbitration demand filed

in Xayavongsa v. DoorDash, Inc. on July 18, 2018.
22.

Attached hereto as Exhibit U is a true and correct copy of the complaint filed in

Marciano v. DoorDash, Inc., No. CGC-15-548101 (S.F. Super. Ct. Sept. 23, 2015).
23.

Attached hereto as Exhibit V is a true and correct copy of the complaint filed in

Brown v. DoorDash, Inc., Case No. BC712973 (L.A. County Super. Ct. July 6, 2018).
24.

Attached hereto as Exhibit W is a true and correct copy of the complaint filed in Lowe

v. DoorDash, Inc., Case No. BC715425 (L.A. County Super. Ct. July 26, 2018).
25.

Attached hereto as Exhibit X is a true and correct copy of order Granting Motion to

Stay in Marciano v. DoorDash, Inc. No. CGC-18-567869 (S.F. County Super. Ct. Dec. 7, 2018).

81a
26.

1

Attached hereto as Exhibit Y is a true and correct copy of the Order re: Motion to

2

Compel Arbitration in Brown v, DoorDash, Inc. No. BC712973 (L.A. County Super. Ct. Dec. 13,

3

2018).
27.

4
5

V. DoorDash, Inc., No. 30-2018-00992677-CU-OE-CSC (o.c. County Super. Ct. Mar. 7, 2019).
28.

6
7

10
11
12
13

Attached hereto as Exhibit AA is a true and correct copy of the order staying

proceedings in Lowe V. DoorDash, Inc.,}io. BC715425 (L.A. County Super. Ct. Api'. 18, 2019).
29.

8

9

Attached hereto as Exhibit Z is a true and correct copy of Minute Order in Farran

Attached hereto as Exhibit BB is a true and correct copy of the First Amended

Complaint filed in Roussel v. DoorDash, Inc., No. CGC-19-572934 (S.F. Cty. Super. Ct. Mar. 12,
2019.)
30.

Attached hereto as Exhibit CC is a true and correct copy of the complaint filed in

Goldman-Hull V. DoorDash, Inc., No. 19-CV-01513 (N.D. Cal. Mar. 22, 2019).
31.

Attached hereto as Exhibit DD is a true and correct copy of the Santa Clara Superior

14

Court’s Order After Flearing on March 17, 2017 issued in DirecTV Wage and Hour Cases, No. JCCP

15

4850 (Santa Clara Super. Ct. Mar. 24, 2017).

16
17

32.

Since July 2018, hundreds of overlapping arbitration demands have been filed against

DoorDash seeking to arbitrate misclassification and minimum-wage claims.

18

19
20
21

I declare under penalty of perjury pursuant to the laws of the United States of America and the
State of California that the foregoing is true and correct.
Executed at Washington, D.C. on this 16th day of August, 2019.

22

OqnWov. LtfiJ)

23

‫ﻟﻤﻦ ا‬

24

Attorney for Defendant DOORDASH, INC.

25
26
27
28
Gibson, Dunn &
Crutcher LLP

3
DECLARATION OF JOSHUA L1PSHUTZ ISO
DOORDASH’S PETITION TO COMPEL ARBITRATION AND STAY PROCEEDINGS

CASE NO. CGC-19-57S383

82a

EXHIBIT A

\

ORlilNAL

83aJi

\

cr-~~f

Todd JvL Friedman (SBN 216752)
1 Adrian R. Bacon (SBN 280332)
Law Offices of Todd M. Friedman, P.C.
2
21550 Oxnard St., Suite 780
3 Woodland Hills, CA 91367
Phone: 877-206-4741
4 Fax: 866-633-0228
tfriedman@toddflaw.com
5 abacon@toddflaw.com

6

~

FILED

SUPERIOR COURT Ol'CAW'OQNi
· COUNTY OF LOSANGEUS A

MAYO 2 2017
Shmi R. ~ u t i v e Officer/Clerk
BY.
.Deputy
ya

den

Attorneys for Plaintiff,

7 DANIEL MARKO
8

SUPERIOR COURT OF CALIFORNIA

9

COUNTY OF LOS ANGELES

10
11

DANIEL MARKO, individually and on
behalf of all others similarly situated,

12
vs.

14 DOORDASH, INC.; and DOES 1 to 50,
inclusive,

15

)

.

CLASS ACTrBrC

6

4
5 9 8 1.~ ~ g ~

'(") < -i n
mm
:::::: m 111
.....
.....

.

H; 8

:i;, -i

~--,.

<Z-0-0

CLASS ACTION COMP££li~R4 ~ -1 ~
DAMAGES
~ ~ ~ ~ .. · :?' '::' "'Tl·t
uG)oA

,,,

..

.fit

l>

ffi
..

i

- UI,::, ("),:-:, )> .''

'A

0 .... ·-0
0 -.J

+it

~

0:,
<)

0000

! ·.i::..

i))

....

,::,

.

,_

....
,_.

!I '

-

£A

l

IUI

Plaintiff DANIEL MARKO (hereinafter "Plaintiff'), on behalf of+nhwi~i: and
·

(,-.

o--._::c
oo
.i::..)(':'·"'
r_ll
,::::, t,..:, ,,..
·..c.,
• w...... ,...r,
\ t))

JURY DEMAI\1D

)
)

17
18

)
)
)

)
Defendants.

16

CASE NO.:

)
)

Plaintiff,

13

)
)
)

;liJ.

j

thosel ·

~

,

19

similarly situated, alleges the following as and for a complaint against De~rg~~DO~RDASH,I _

20

INC., a Delaware corporation that is headquartered in California, and DOES 1 through 50 (hereinaft~r, ·

21

sometimes collectively referred to as "Defendants").

22

I
'l
Plaintiff brings this Class Action against Defendants, and each of them, pursuant to California!

rr.
rm

::u-oo=u

111 x, :r,,

m

23 Code of Civil Procedure § 382. All allegations in this Class Action Complaint ("Ct!~~ art ?i
·~~
,.,r

~ ffie&f>~~i~._. ~-n1imeci
AJ :x:, t)) m ••
•'/ :o•
24 based upon information and belief, except for those allegations which pertai£
O:Z::C("')
1.

,~;;:

25 , herein and his counsel. Plaintiffs information and beliefs are based upon, inte·r &tci, ffi.e ii~jfi~ationj •

·~.

"~....

; conducted to date by Plaintiff and his counsel. Each allegation in this Complaint either has ;1Jtiaryl .

,~:;:

26

"•,

27 i support or is likely to have evidentiary support after a reasonable opportunity for further inve~i,tion! ·

1,~

,,_

28 and discovery.

+it
.i::..
-1:t't ~ 4ft ,:,~
,::, ,::, ,::::, (JI

CLASS ACTION CO:rvrPLAINT

I

~~

\

::
(.11

tJ·.

~

t,..)

I

_:,

'1

.

I
\ .
a

•

84a
INTRODUCTION

1

2

1.

This action is ,vi.thin the Court's jurisdiction pursuant to the provisions of Califomia'i
f
i

3 Labor Code §§ 201-204, 226, 226.7, 510,. 1194, 1194.2 and 1199, and California Business and::
4 Professions Code §§ 17200, et seq.
2.

5

This Complaint challenges systemic illegal employment practices resulting inlI
I

'

6 violations of the California Labor Code, Business and Profes.sions Code, and applicable Industrial(

!

7 Welfare Commission ("IWC") wage order against employees of Defendants.
3.

8

l

Plaintiff is informed and believes and based thereon alleges that Defendants, jointly;

i

9 and severally, have acted intentionally and with deliberate indifference and conscious disregard of the[ .
I;

10 rights of all employees in, among other things, failing to provide the statutorily required meal and rest
j

11 periods and failing to pay the statutorily required meal period and rest period premium wages whenJ' .
12 not provided, failing to pay all minimum, regular and overtime wages due, failing to pay wages in al, :
1

13 timely fashion, including at the end of employment, mis-classifying employees so as to avoid payment; ·
14 of wages, failing to indemnify employees for business expenses, and failing to keep statutorily~ .
•

15 required payroll records.
4.

16

I:

Plaintiff is informed and believes and based thereon alleges that Defendants havelI .
I'

17 engaged in, among other things, a system of willful violations of the California Labor Code, Business(

18 and Professions Code, and applicable IWC wage order, including, but not limited to, Labor Code §'§
19 201-203, 221,222.5, 223,226.8, 226.3, 226.7, 400-410, 450,510,512, 1182, 1174, 1194, 1197,:

!

20 1197.1, and 2802; California Code of Regulations, Title 8 §11090 section 7 & 11-12; California Wage)

Order No. 1-2001 (8 Cal. Code R~g., § 11090); and Industrial Wage Commission'Wage (hereinafter)

21

I

22 "IWC") Order No. 9. Specifically, Plaintiff challenges Defendants' ;cts of creating and maintaining!
I

.

I

23 policies, practices and customs of: (1) classifying Dashers as independent contractors instead of(
";:::

24 employees; (2) failing to reimburse Plaintiff and the Class for reasonable business expenses; (3))

1..r

I

·-.

,::c
t,.
•,,

"·

,~;:

•·~
'!t ..,

'

25 making deductions from Plaintiffs and the Class' wages; (4) requiring Plaintiff and the Class to payf
'

26 for pre-employment medical and physical examinations; (5) coercing or compelling Plaintiff and the!
i

I

27 Class to purchase things of value from Defendants; (6) failing to provide, authorize, permit and/or: ,
I

28 make available meal and rest periods to· Plaintiff and the Class as required by California law; (7)1
?
'
i
-

CLASS ACTION CO:MPLAINT

l

•

•

85a

!Ij!
·i

t·
i'

1 denying Plaintiff and the Class full compensation for all hours worked; (8) failing to pay Plaintiff and:
i

2

the Class minimum wage; (9) failing to pay Plaintiff and the Class overtime and double time; (10) :I
t
j

3

failing to provide Plaintiff and the Class with accurate, itemized wage statements; (11) failing to timely!
I

4 pay Plaintiff and the Class full wages upon termination or resignation; and (12) engaging in a pattern)
'i
5

or practice of \Villfully misclassifying employees as independent contractors. Plaintiff seeks;

6

9

compensation, damages, pena~ties and interest to the full extent permitted by th~ Labor Code and IWC j
l
l
Wage Orders.
!
i
The policies, practices and customs of Defendants described above and below havei!
. 5.
I
resulted in the unjust enrichment of Defendants and an unfair business advantage over businesses that!

10

routinely adhere to the strictures of the California labor Code and the Business and Professions Code.!

11

JURJSDICTION AND VENUE

i
'·

7
8

f

I
12

6.

!

i

This Court has jurisdiction over the alleged violations of the California Labor Codef

I

13

§§ 201-204, 226,226.7, 510, 512, 1194, 1194.2, 1197.1, 1198 and 1199, and Czjifomia Business and!

14 Professions Code§§ 17200, et seq.
I

15

7.

This case is subject to the jurisdiction of this Court pursuant to California Labor Code, f
.r

I.

16

California Business and Professions Code, California Code of Civil Procedure, and the California:

i

17 Department oflndustrial Relations. On information and belief, and at all times relevant, Defendants;

18 operate and are doing business under the brand name ofDOORDASH, INC. Defendants, and each of; ,
19 .them, do business throughout the State of California. Further, Defendants' principle place ofbusinessf.
I

20 and corporate headquarters is in San Francisco, California.

(
t

21

(~;:;
•"=r

,;:;;;
1·,_

•,
t,..,
,:~;::
~

...

-..,

8.

The unlawful acts alleged herein have a dir_ect effect on Plaintiff and other employe~s/
1

22

similarly situated within the State of California. Plaintiff and the Class Members have suffered

23

damages and will continue to suffer the same harm as the Representative Plaintiff as a result 0£ .

24 Defendants', and each Defendant's, wrongful conduct unless the relief requested herein is granted.
PARTIES

25

26

9.

;.

Plaintiff is informed and believes and based thereon alleges that Defendant: •

l
27 DOORDASH, INC. is a Delavvare corporation, which regularly does business throughout the State off

28

California. Further, Defendants' principle place of business and corporate headquarters is in Sanf

!

3

CLASS ACTION COMPLAINT

j

-------

•

~

r:·

86a

'

1 · Francisco California. Plaintiff is informed and believes and thereon alleges that Defendants, at all
2

3
4

5

times herein mentioned, is and was doing business in the County of Los Angeles, State of California.
10.

Whenever in this Complaint reference is made to "DoorDash," such allegations

collectivel_y mean and refer to Defendants DOORDASH, INC., and its subsidiaries and divisions.

11.

Plaintiff DANIEL MARKO is, and at relevant times herein was, a resident of the

6 County of Los Angeles, California. Plaintiff is currently a D_asher (kno,vn as a "Dasher") employed :
i

i

7

by Defendants. Plaintiff was employed as an independent contractor Dasher, and worked throughout 1
,
.

I

ij

8 Los Angeles County, California.

9

12.

Although Plaintiff was classified as an independent contractor, and not classified as

anli

I!t'
1O employee, Plaintiff's employment nonetheless was subject to substantial control by Defendants over(
i·

11

~·j':

his ,vages, hours, and working conditions.

)·

.

12

13.

Plaintiff is informed and believes and based thereon alleges that at all times herein):
);
j:

13

mentioned Defendants are and were corporations, business entities,. individuals, and partnersh.ips,'l;

14

licensed to do business and actually doing business in the State of California.

15
16

/t

n.

14.

Plaintiff does not know the true names or capacities, vvhether individual, partner or;'.
::.
corporate, of the Defendants sued herein as DOES 1 through 50, inclusive, and for that reason, said!;
,r

1;

,;l

17

Defendants are sued under such fictitious names. Plaintiff prays for leave to amend this Complaint!

18

when the true names and capacities of said Doe Defendants become known to Plaintiff. Plaintiff isH

19

informed and believes and thereon alleges that each of said fictitious Defendants ·were responsible inf .

20

some way for the matters alleged herein, and proximately caused Plaintiff, as well as members of the

21

Class and members of the general public, damages as more specifically identified below.

I

·

lH

22

15.

At all times herein mentioned, each of said Defendants participated in the doing of theH
.

23
24

;I

1:

.

,:;;;
•.~r

\(

acts hereinafter alleged to have been done by the named Defendants; and, furthermore, the Defendants,;!
l:

'1-

and each of them, were the agents, servants and employees of each of the other Defendants, as well as;:
\

25

the agents of all Defendants, and at all times herein mentioned were acting withip the course and scope\i

26

of said agency and employment.

,;

t, • .,,

27
28

16.

Plaintiff is informed and believes and based thereon alleges that at all times materia1jj

hereto, each of the Defendants named herein \.Vas the agent, employee, alter ego and/or joint venturer~!

4
CLASS ACTION COMPLAINT

;

!

•

87a

e

1 of, or working in concert \Vith, each of the other co-Defendants and was acting within the course and;

2 scope of such agency, employment, joint venture, or concerted activity. To the extent said acts, i

3

:
conduct, and omissions were perpetrated by certain Defendants, each of the remaining Defendants:

4

confirmed and ratified said acts, conduct, and omissions of the acting Defendants.

j

j
i

5

17.

At all times herein mentioned, Defendants, and each of them, were members of, and 1

.

I

6 engaged in, a joint venture, partnership and common enterprise, and acted within the course and scope/

7 of, and in pursuance of, said joint venture, partnership and common enterprise.
8

18.

;

i
Plaintiff is further informed and believes and based thereon alleges, at all times herein)

1

9 material, each Defendants were completely dominated and controlled by its Co-Defendants, and each!

i

10 was the alter ego of the other. Whenever and wherever reference is made in this Complaint to any j
11

.

I

conduct by Defendants or Defendants, such allegations and references shall also be deemed to mean/

I

i

12 the conduct of each of the Defendants, acting individually, jointly, and severally. Whenever and l
I

13 wherever reference is made to individuals ,,,vho are not named as Defendants in this Complaint, buti
I

agents of Defendants, such individuals at all relevant times acted on behalf of:I
14 v.,rere employees and/or
.

15 Defendants.named in this Complaint within the scope of their respective employments.
16

17

I

I

At all times herein mentioned, the acts and omissions of various Defendants, and each t
!
~f them, concurred and contributed to the various acts and omissions of each and all of the other\

19.

I

18 Defendants in proximately causing the injuries and damages as herein alleged. At all times herein!
I
19 mentioned, Defendants, and each of them, ratified each and every act or omission complained of1

20 herein. At all times herein mentioned, the Defendants, and each of them, aided and abetted the acts!!
.I

21 and omissions of each and all of the other Defendants in proximately causing the damages as herei.p.!
I

;

·

I

i

22 alleged.

I

i

23
,:;::
,,r

,~::

24

FACTUAL ALLEGATIONS

20.

At all times herein mentioned, Class Members, including Plaintiff, were employees of;

25 Defendants in the State of California, and Defendants were and are employers employing persons in).

t-~

·,
r-~

r~::
,.._
··,

26 the State of California. As such, Class Members, including Plaintiff, \Vere the type of persons
27 contemplated to be protected by the California Labor Code and the \.Vage Order, and said laws an?
28 regulations were intended to apply to Defendants and to prevent the type qf injury and damage herein.
5
CLASS ACTION CO:MPLAINT

•

•

88a

;

1

Plaintiff is informed .and believes and based thereon alleges that Defendants are and f

21.

2

were advised bv skilled lawyers and other professionals, employees, and advisors with knowledge

3

the requirements of California's wage and hour laws.

4

•

of!l
!I

During the relevant time period of this action, Defendants have employed, and cont.inue !

22.

l

i

5

to employ, Plaintiff and other similarly situated individuals ("Dashers") to provide delivery services j

6

for its customers. Defendants' entire business model is premised on outsourcing its core business 1
,
I

7

function onto Dashers as independent contractors, as a method of cutting costs in the delivery services 1
l
!
market, a.'1d thereby gain a competitive advantage.
j

8
9

.,

f

Defendants has devised_ an elaborate scheme to skirt the requirements under the r

23.

.,

1O California Labor Code, by misclassifying its Dashers as independent contractors rather than i
l
11 employees, denying them the benefits of employment, and shifting the vast majority of the cost ofi

'

l

12

doing business onto the employees who cany out the day to day customer service duties fon

13

Defendants, in fulfillment of their core business function of food delivery.

14

l

Defendants characterize its Dashers as independent contractors who merely utilize

24.

15

Defendants' logistics software to independently proviae Delivery services to facilitate private 1

16

transactions between private vehicle drivers and food service patrons.

'·

In fact, these Dashers are/
.!

17

subject to high levels of control by Defendants over their wages, hours, and working conditions, such

i

18 .that the conditions of their employment are in fact dominated and controlled in every material aspect;
19
20
21

I

by Defendants.
25.

j
1

Defendants' control over Plaintiffs and Class Members' wages, hours, and working!

conditions begins with Defendants' requirement that each Dasher enter into a written agreement with

I
I

,,r

22

Defendants as to the terms of their employment. This agreement specifies that Dashers must adherel

23

to strict rules and regulations put in place at Defendants' sole discretion.

24

26.

\

Defendants maintain sole discretion over the terms of the independent contractorj
!

25

agreement, and require applicants to sigri these agreements vvith no ability to negotiate the terms, but[

26

rather as a condition of employment.

....
........

!

'I

27

27 .

The Agreements are drafted exclusively by Defendants and/or its legal counsel.

28
6
CLASS ACTION co:MPLAINT

•
1

28.

-

89a

The Agreement purports to classify Dashers as independent contractors so as to conceal

2 the true nature of the relationship between Defendants and their Dashers: that of employer and
3 employees. ·
4

29.

Defendants retain the right to terminate Dashers without notice if they fail to adhere to 1
!

5 any part of the Agreement. Defendants require Dashers to comply with their numerous policies and!

I

6 procedures, or face possible termination
7

30.

I
i

Defendants maintain exclusive control over the rates of pay that Dashers will receive,

8 \Vhich is based on an hourly rate and other factors, determined at the sole dis~retion of Defendants.!
l

9 Defendants reserve the right to make adjustments to their rates of pay, at any time, 1vvithout notice to;
I

I

IO Dashers directly impacting the wages earned by Plaintiff and Class 1\/iembers.

i

11

31.

Dashers are required to agree to Defendants' pay schedule, which is subject to change,'t

12 in order to activate Defendants' application on their Smartphone devices and accept fares from/
13

14

Defendants' customers.
32.

Defendants' managers also supervise and oversee the ·work performed by Dashers, and]
I

'

15 are in regular email and telephone communication v,iith Dashers about Defendants' policies and]

I

16 procedures, and about the job duties of Dashers.
17

33.

II

Defendants perform background and DMV checks on prospective Dashers.

I
Dashers must utilize Defendants' Smartphone application in order to access;
I
19 Defendants' network of customers. Defendants' application place serious limitations and!

18

34.

20 requirements on Dashers in how they are required to carry out their job duties. Having a Smartphonei
21
22
23
,::;:;
1.,r

35.

Defendant also monitors Dashers through use of the GPS devise in Dashers' j

Smartphones, and by using Defendant's application, which must be loaded onto Dashers' devices

24 a condition of their ~mploy~~nt.

..

•,,

,;:i:
r,_
•,,

""i::t:
h•~

.......

25

II

is a condition of employment with Defendants as a Dashers.

36.

.

as!
I
.

I

Despite requmng a smartphone as a cond1t1on of employment, Defendants do n~tl

26 i indemnify Dashers for these business expenses.
I

Defendants also require Dashers to utilize their personal vehicles for business purposes, i
27
I
28 including to transport company marketing material between different zones throughout the city at the!
7
l
37.

CLASS ACTION COrvr.PLAfNT

•

e

90a

1 benefit of the Defendants, yet fails to indemnify these business expenses.
2

Defendants do not j

compensate Dashers in any fashion for these services.
~

3
4

5

'

38.

Defendants require Valet to wear a company uniform, including a red Door Dash t-'

shirt.
39.

Defendants require Dashers to utilize motor vehicles in order to expedite the Dasher.

6 process, so that they can more quickly travel between a food pickup location, and the customer delivef)'}
7

location, and Defendants allow Dashers to forego use of a motor vehicle and use a bicycle or walk;

8 only in select "markets" determined entirely by Defendants.·

9

40.

Furthermore, Defendants do not indemnify Dashers for any kind of damage sustained)
t

1O by their motor vehicles.· Moreover, Defendants require, as an express material condition of:
!

11

employment, Dashers to have and maintain their

12

do not reimburse Dashers.

O'-VTI

motor vehicle insura.11ce for which Defendants;
!.
(

I:

Defendants determine where Dashers are required to work, when they are required to: •
r
14 work, and how they are required to work. Specifically, Defendants will set Dasher work schedules,:

13

41.

'

15
16

which instruct them where and vvhen to work.
42.

i

! .

Defendants require Dasher.to log in to the attendant application on their srnartphone(
.

I

17 devices in order to start and end their shifts. Defendants maintain attendance records, and have the! ·

I
18

19

j.

ability to maintain accurate time records for all hours worked by Dashers.
43.

Defendants secure Dashers contracts with an underlying $10 per hour wage. However,; :
i

20 Defendants fail to account for all time worked by Dashers, and fail to fully compensate Dashers for:
21

all working time. Further, where Dashers work more than 40 hours in a week or 8 hours in a day.I
•

!

;

22 Defendants fail to pay Dashers overtime wages, including by not paying for all compensable hours,:
23

and by using an improper regular rate of pay for purposes of said calculations.

j
J

J~~

24

44. ·

Defendants provide Dashers with no meal or rest breaks, and do not provide Dashers 1

i.r

,~;.:

25

with any of the other benefits of employment.

i

t•,.,

""
l'~i::
,..~
':'..

...,

i
1.

26

45.

Defendant fails to provide breaks, provides them late, does not provide breaks that are'

f

27 duty free, and otherwise provides non-compliant breaks, such that a compliant meal break is the/ ·
28

8
CLASS ACTION CON.IJ>LAINT

l
.J

•

,!
,'

91a

1 exception rather than the norm. Further, Defendant fails to maintain accurate time records regarding

I

2 meal breaks for Dashers.

i

3

46.

j

Defendants also require Plaintiff and other Class Member Dashers to utilize their/
1

i

4 cellular phones for business purposes, in order to perform and carry out their \VOrk duties, atl

I

1

5 considerable personal expense.

6

47.

!

Defendants do not issue pay stubs of any kind to Plaintiff and other Class Members.}

7 Rather these employees are paid via direct deposit.

8

48.

I

Plaintiff is informed and believes and based thereon alleges that Defendants

knO\v,t

9 should know, knew or should have knovm that Class Members, including Plaintiff, were entitled to!

.

I
l

10 receive duty-free meal periods within the fast five (5) hours of any shift of six (6) or more hours/
;
·'.
11 worked, and that any failure to do so requires Defendants to pay Class Members one (1) hour of wages; ·
I
i

12 per day for untimely, missed, or on-duty meal periods.
13

49.

l

Plaintiff is informed and believe and based thereon allege that, during the Class Period,! .
: .
I

14 Defendants had a consistent policy or practice of requiring Class Members, including Plaintiff, toj

15 continue \Vorking through meal periods, or were required to stay on the premises during their meal! ·
I.

16 periods, or were interrupted during their meal periods, or Defendants otherwise failing to provide a! :

!

17 duty-free meal period within the first five (5) hours of any shift of six (6) or more hours worked.

18

50.

I

Plaintiff is informed and believes and based thereon alleges, during the Class Period, !

19 Defendants had a consistent policy or practice of failing to compensate Class Members, including 1
l
1

20 Plaintiff, for duty-free meal periods that were not provided within the first five (5) hours of any shift!
21

of six (6) or more hours worked, and for on-duty meal periods.

:

I

! l

; i

22

51.

Plaintiff is informed and believes and based thereon alleges that Defendants knO\V,i

23 should knO\V, knew or should have known that Class Members, includin~ Plaintiff, were and are[
(,~

24 entitled to one (1) ten (10) minute rest break for each shift of four (4) hours or more, and that anyi
'

\,r

·~

1;:r.;

.

25 failure to allow said breaks requires Defendants to pay Class Members, including Plaintiff, one (1)/

~~
''t-1

t,,,

i::~
~

...

... ..,,

I

j
j.

26 hour of v,1ages per day for missed or on-duty rest breaks.

j.

I

I

27

.I
:!:

28
9
CLASS ACTION COMPLAINT

•·

92a

1

52.

r··.
1·

.,

{

Plaintiff is infonned and believes and based thereon alleges that during the Class J
j

2 Period, Defendants had a consistent policy or practice of failing to provide to Class Members, j
j

:

3 including Plaintiff, one (1) ten (10) minute break for each shift of four (4) hours or more worked.
4

53.

i

i

Plaintiff is informed and believes and based thereon alleges that, during the Class J
)

5 Period, Defendants had a consistent policy or practice of failing to compensate Class Members,j

'

6 including Plaintiff, for missed rest breaks that ,vere not provided within each four (4) hours of a shift. {

7

54.

Plaintiff is informed and believe and based thereon allege that, during the Class Period,}

.

.!

8 Defendants had a consistent policy or practice of failing to compensate Class Members, including!
I

9 Plaintiff, overtime pay for all overtime hours, and regular pay for any regular hours worked, and at/

i.

l

10 least minimum wage for all hours worked.

I

Plaintiff is informed and believes and based thereon alleges that, during the Class .
1
12 Period, Defendants had a consistent policy or practice of failing to provide Class Members, including; ·

11

55.

I
13 Plaintiff, with accurate wage statements reflecting the true ~umber ofhours worked due to Defendants'!.t.·

'

14 failure to provide lawful, timely, and duty-free meal and rest periods and failure to document all hours 1!
·1

15 worked.

CLASS ALLEGATIONS

16
17

56.

Plaintiff brings this action individually, as well as on behalf of each and all other) :

18 persons similarly situated and, thus, seek class certification under California Code of Civil Procedur}I
19 § 382.
20
21

22
23

57.

l

l

authorized by California Jaw.
58.

1

All claims alleged herein arise under California lav-,r for which Plaintiff seeks relief
:
'
.

'
f
I·

The "Class Period" is designated as the time from four years prior to the filing of th~sl

Complaint, to the trial date, based upon the allegation that the violations of California's wage and hourl j

"
I

24 laws, as described more fi~lly below, have been ongoing for at least the four years prior to the filing ofi:
~

,,r

25 this Complaint.

it

.
26

•·~

:

J:

59.

j.

Pursuant to California Code of Civil Procedure § 382, Plaintiff brings this action on::

27 behalf of the follmving class:

28

'

10
CLASS ACTION COlvIPLAINT

,ti'
j

.

•

•

93a

1

All persons who have been, or currently are, employed by Defendants and who

2

performed at least one delivery service in California for Defendants as an independent

3

contractor Dasher during the Class Period and who held, or hola, the position of Dasher.

4

This definition includes any and all prior job titles assigned to this position during the

5

Class Period (collectively, the "Class" or "Class Members"). Excluded from the Class

6

are all persons who were employed by Defendants as Managers, or in managerial or

7

corporate positions equal, or superior, to Managers, during the Class Period.

The Class seeks unpaid wages for meal period and rest periods, regular hours and:
't
overtime
hours
worked,
penalties,
equitable
relief,
interest,
and
reasonabie
attorneys'
fees
and
costs,[
9

8

60.

l

10 for failure to comply with applicable sections of the California Labor Code, Industrial Welfarei

}

11

12
13

Commission Wage Order No. 7-2001 ("Wage Order"), California Business and Professions Code[
i
I.
§§ 17200, et seq., and California Code of Civil Procedure§ 1021.5.

61.

I
I

This action is also brought by Plaintiff on behalf of a sub-class, as follows:

14 All Class Members whose employment ended at any time during the Class Period (coilectively, th~

i

15 "Former Employee Sub-Class" or "Former Employee Sub-Class Members").

i

!.

16

62.

The Former Employee Sub-Class Members seek waiting time penalties of up to thirty;

17 (30) days .vvages each, pursuant to California Labor Code § 203, due to Defendants' failure to pay all\
1

18 wages due and ovving at the time of termination of the employment relationship.

i

.i

'
Urider California Business and Professions Code §§ 17200, et seq. ("Unfair Practic~sl
.
. I

19

63.

20 Act"), and pursuant to both the class action and representative action procedures provided for in these! ·
21 statutes, Plaintiff, on behalf of himself and the proposed Class Members, also seeks restitution of all!
22

23

benefits Defendants have received from its unlawful actions as alleged herein.
64.

I

i
! ;
i

, !I

During Plaintiffs and Class Members' employment with Defendants, Defendants did!

I.
I

<~

24 not provide meal or rest periods in compliance with California law, and did not compensate Plaintiff/

(;'.:

25 and members of the Class for all regular hours worked, for all overtime hours worked, or for meal or~

,,r

t•.

,,_
,::::

•-~....
~~

t
t

26 rest periods that did not comply with California law (including, but not limited to, missed meal andt!

27 rest periods). Plain.tiff and the Class Members he seeks to represent did not voluntarily or willfully/

!

28 waive their meal or rest periods. Defendants maintained and implemented a course of conduct'. ·
11

CLASS ACTION COlvIPLAINT

j.

I.

•

94a

•

1

requiring Plaintiff and Class Members to invoiuntarily waive their meal or rest periods as a condition!

2

of employment and failed to obtain uncoerced waivers.

'
·,

65.

3

During Plaintiff's and Class Members' employment with Defendants, Defendants didl

4 not reimburse Dashers for business expenses incurred in the course of their employment, in violation!

j

of California Labor Code §§ 2800 et. seq.

5

[
!

66.

6

Defendants did not keep accurate records of the hours worked by Plaintiff and members:

7 of the Class, or of the amount of wages due to them. Plaintiff was and is a victim of the policies,\r
'

8 practices and customs of Defendants complained of in this action in ways that have deprived them of!

i

9 the rights guaranteed by California Labor Code §§ 201-204, 226, 226.7, 510, 512, 1194, 1194.2,l
10 1197.1, 1198 and 1199, and California Business and Professions Code §§ 17200, et seq. (Unfair!
I
I

Practices Act).

11

12

l

As such, and based upon all the facts and circumstances incident to Defendants' l

67.

.

I

13

business in California, Defendants are subject to California Labor Code§§ 201-204, 226,226.7, 227.3,!

14

1194, 1194.2 and 2802, and California Business and Professions Code §§ 17200, et seq. (Unfair'.

15

Practices Act).

I

16

68.

j

This action is brought, and may properly be maintained, as a Class Action under!l

!

17 California Code of Civil Procedure § 3 82 because there is a well-defined community of interest in the\.!
I

l

18 litigation and the proposed Class is easily ascertainable. This action satisfies the predominance,;

I

I

'

19 ; typicality, numerosity, superiority, and adequacy requirements of these provisions.

20
21

69.

.

Nu~ero~ity: T~e me~bers of the .Clas~ are so numerous thatjoinder of all.membe~s,

would be 1mpract1cal, 1f not 1mposs1ble.

The 1dent1ty of the members of the Class 1s readilyi
.

'

22 ascertainable by review of Defendants' records, including payroll records. Plaintiff is informed and(

23
,~;:

,,r

believes and based thereon alleges that: (a) Class Members regularly were denied payment of an!

)

24 regular and overtime wages due and denied payment of overtime wages at the proper rate of overtime [

I

.,

·~==
"".,

""

,:::::
,__
~~1..

25

pay; (b) Class Members were not provided meal periods or rest periods in compliance ,vith California{ .

.

26 Labor Code §§

I

226. 7 and 512 and the applicable IWC wage order, and were not paid all meal period)
l

27 or rest period premium wages for non-compliant periods; (c) Class Members ,vere not reimbursed for/
I

28

business expenses incurred in the course of their employment, in violation of California Labor Code

12
CLASS ACTION CO:tv!PLAINT

I'.•
i

•

e

95a
'f

1 §§ 2800 et. seq.; (d) Class Members were not paid all wages in a timely fashion, including all wages (
!

2 at the end of employment based on Defendants' ovm records; and (e) Defendants did not maintain/I
[

3 accurate records and provide accurate wage statements to Class Members, pursuant to California'.
4

I

Labor Code § 226. Based on information and belief, there are more than 100 persons who are/

I

i

5 potentially Class Members.

6

70.

Adequacy of Representation: The named Plaintiff is fully prepared to take a1·1I

I

7 necessary steps to represent fairly and adequately the interests of the Class defined above with whom!;

8 they have a well-defined community of interests and typicality of claims as demonstrated herein. l ·
l

9 Plaintiffs attorneys are ready; willing and able to fully and adequately represent the Class and thel
l

10 representative Plaintiff. Plaintiff's attorneys have prosecuted and settled wage-and-hour class actions[
/

11 in the past and currently have a number of wage-and-h~ur class actions pending in California courts.I
12 Further, Plaintift's counsel is competent and experienced in litigation class actions involving!
13

!

California Business and Professions Code §§ 17200, et seq.
.

14

71.

l

Defendants uniformly administered corporate policies and practices that did not afford! :

I
15 Plaintiff and Class Members proper meal and rest periods, as required by California Labor Code §§l ·
16 226.7 and 512

and the applicable IWC \Vage order, that failed to pay all earned regular and overtime! :
t

17 wages, minimum wages, and all wages owed, and that uniformly paid their employees late wages.j •
18 Plaintiff is informed and believes and based thereon alleges that this corporate conduct was/ ·

I,

19 accomplished \Vith the advance knowledge and designed intent to willfully withhold appropriate! .
20 wages for work performed by Class Members.
21

72.

Plaintiff is informed and believes and based thereon alleges that Defendants, in

.
1

i

22 violation of California Labor Code §§ 201 through 203, had a consistent and uniform policy,/ ·
i.

23 procedure and practice of willfully failing to pay Plaintiff and Sub-Class Members all wages due them; :
,~;::

'·•,,~'
r.:;;:

"'.,.·
1,~

,::(
i,.-

.......

24

i
upon termination. Plaintiff and other Sub-Class Members did not secret or absent themselves from;

'I

25 Defendants, nor refuse to accept the e~rned and unpaid wages from Defendants upon termination.I

26 Accordingly, Defendants are liable for waiting time compensation for the unpaid wages to the Sub-)

;

27

Class Members pursuant to California Labor Code § 203.
j:

l;

28

13
CLASS ACTION CO:tvlPLAINT

••
1

73.

•

96a

,...T-:
\..

In addition, Defendants uniformly administered a corporate policy, procedure and'

2 ?ractice of not maintaining accurate records, and failing to provide true and accurate wage statements, (
3
4.

as required by California Labor Code § 226.
74.

.

Plaintiff is informed and believes and based thereon alleges that the foregoing corporate

I

5 ,conduct was accomplished with the advance knowledge and designed intent to willfully andj

I

6 intentionally faii to accurately record proper rates of pay, hours worked, net wages, and deductions:

I

7

75.

As a pattern and practice and matter of corporate policy, in violation of thei

8 aforementioned labor laws, Defendants committed unfair practices based on the claims alleged in the::
t

!

9 preceding paragraphs.

10

76.

j

Common Question of Law and Fact: There are predominant common questions ofi
i

11

la,v and fact and a community of interest among Plaintiff and the Class Members concerning whether: i
I

I

12

a) Class Members are independent contractors or employees under applicable law;

13

b) Defendants have the right to control the manner and means by which the Dashers performj
!
I

14
15

c) Defendants direct and/or supervise the work that the Dashers perform;

16

d) Defendants' policy manuals and handbooks instruct the Dashers on how to conducti

17

,.. r

·~==

1,,.
•,,

"~
,:;;::
~n,,

"'"'·

I
I
I

themselves and perform their work;

18

e) The Dashers use and receive fonns and materials provided by Defendants;

19

f) The Dashers attend meetings or training conducted by Defendants regarding their wor~j

20

,::;;:

their work;

t

!

I

assignments and performance;

:I

21

g) Defendants assign the Dashers schedules and routes;

22

h) Defendants exercise control, directly or indirectly, over Class Members' work hours;

23

i) Defendants exercise control, directly or indirectly, over Class Members' working

24
25

conditions;

t

I

l

26

j) Defendants exercise control, directly or indirectly, over the kinds equipment the Dashers
.
!
use;

27

k) Dashers wear uniforms as specified by Defendants;

28

1) Defendants' logos and/or names are affixed on the Dashers' uniforms;

14

CLASS ACTION COMPLAINT

·_::

1

•

97a

·;-~

.

1

m) Dashers need special training, skills or education to perform their work;

2

n) Defendai"lts supply tools and equipment to the Dashers;

3

o) The Dasher work is part of the regular business of Defendants;

4

p) The method by which Defendants pay the Dashers;

5

q) The Dasher tenure with the company is indefinite and/or whether the contracts signed by!

·)
l
I

\

i

'

iI

the Dasher contain automatic renevval clauses and can be terminated by either party;

6

l
j

r) Defendants have the authority to discipline and/or terminate a Dasher;

7

I

'

s) The Class Members are entitled to be reimbursed for Defendants' business expenses andl

8

'

9

'!

deductions;
t)

10

j

Defendants failed to provide Plaintiff and the Class Members with meal and rest periods!

!
'.

in compliance with California law;

11
12

I

u) Defendants failed to pay. Plaintiff and the Class Members statutory meal and
rest period)I
•

13

premium wages for non-compliant meal and rest periods;

15

l.
v) Plaintiff and the Class Members regularly were denied payment of all overtime wages due:
!
for overtime hours worked;
)

16

w) Plaintiff and the Class :tviembers regularly were denied payment of all regular wages duej

14

I

17

18

! .

l

x) Plaintiff and the Class Members regularly were denied pairment of at least minimum wage;

19

,::;:;

I·

for regular hours worked;

II

for all hours worked;

20

y) Defendants failed to pay all wages due in a timely fashion under California law;

21

z) Waiting time penalties are owed to Plaintiff and the Class Members;

22

aa) Defendants failed to maintain accurate records of hours worked by Plaintiff and the Cl~si

23

Members, and failed to provided accurate wage statements that comply with California·

24

Labor Code § 226; and

.,

.;

i

I

'·~fl

,::;:

"'h

t•,.,

25

bb) Defendants' employment practices towards Plaintiff and Class Members constitute unfair; ·
.

26

i

business practices pursuant to California Business and Prafessians Cade §§ 17200, et seq.I

r.;i'.;
~

.

...

~'\-.

27

77 .

Typicality: The claims of Plaintiff are typical of the claims of all members of the!
r

28 Class. Plaintiff is a member of the Class and have suffered harm as a result of the violations of the/
1)-

CLASS ACTION CO:MPLAINT

Ii

;~

e

98a

e
.!

l'

1 Wage Order and California Labor Code alleged herein, including but not limited to California Labor i
2
3

j

Code§§ 201-204, 226,226.7, 227.3, 1194, 1194.2 and 2802.
78.

The Wage Order and the California Labor Code upon which Plaintiff bases these clairnsl
;

4
5

:;ontain provisions that are broadly remedial in nature. These laws and labor standards serve an!
j
important public interest in establishing minimum working conditions and standards in California.!
1

6 These laws and labor standards protect the average working employee from exploitation by employers 1
7

who may seek to take advantage of superior economic and bargaining power by establishing onerous

j

8 terms and conditions of employment.

9

79.

The nature of this action and the format of laws available to Plaintiff and members ofi

!

10 the Class identified herein make the Class Action format a particularly efficient and appropriate: ·

I

11 procedure to redress the wrongs alleged herein. If each employee were required to file an individual!
12 lawsuit, the corporate Defendants would necessarily gain an unconscionable advantage since they;
j

13 would be able to exploit and overwhelm the limited resources of each individual Plaintiff with their!

14 /vastly superior financial and legal resources. Requiring each Class Member to pursue an individual/
I

15 remedy would also discourage the assertion of lawful claims by current employees for fear of!

I

16 retaliation, and even by former employees, for ;ear of retaliation within the industry.

17

80.

The prosecution of separate actions by the individual Class Members, even if possible,!

18 would create a substantial risk of (a) inconsistent or varying adjudi~ations with respect to individual! .
I

19 Class Members against the Defendants, which would establish potentially incompatible standards

I

~fj

I

20 conduct for the Defendants, and/or (b) adjudications with respect to individual Class Members which!I
.'

'I

21 would, as a practical matter, be dispositive of the interests of the other Class Members not parties tol
I

22 the adjudications, or vvhich would substantially impair or impede the ability of the Class Members to!

I

23 protect their interests. Further, the claims of the individual members of the Class are not sufficiently:
!

,:;;;
,.,r

24 large to warrant vigorous individual prosecution considering all of the concomitant costs and expenses.i.

,~;:

25

....

"~..,
hl-:

,;:t::
h,...

.....

i

:

81.

Such a pattern, practice and uniform administration of corporate policy regarding!

26 illegal employee compensation described herein is unlawful and creates an ·entitlement to recovery by(
27 the Plaintiff and the Class identified herein, in a civil action, for the unpaid balance of the full amountj.
j

28 of unpaid wages, overtime and vacation wages, including interest thereon, applicable penalties,}
16
CLASS ACTION COJvIPLAINT

e

99a

1 :-easonable attorney's fees, and costs of suit according to the mandate of California Labor 'Code §§:
2 218.6, 226, 226. 7, 227.3, & 1194, 1194.2 and 2802, California Code of Civil Procedure § 1021.5, and
1

3

applicable IWC wage order.
82.

4

Proof of a common business practice or factual pattern, which the named Plaintiffj

'

.

I

5 experienced and is representative of, 1vvill establish the right of each of the Class Members to recoveryj

1
1.·

6 on the causes of action alleged herein. .
7

83.

I

The Class Members are commonly entitled to a specific fund with respect to thej

8 compensation illegally and unfairly retained by Defendants. The Class· Members are commonly}
l

9 entitled to restitution of those funds being improperly vvithheld by Defendants. This action is broughtj

l

!

10 for the benefit of the entire Class and will result in the creation of a common fund.

j

11

FIRST CAUSE OF ACTION

12

Unpaid Overtime \Vages

13

(California Labor Code §§ 510, 1194 and 1198,

14

and Industrial Welfare Commission 'Wage Order No. 9)

15

-By Plaintiff and Class Members Against All Defendants-

16

84.

i.

Plaintiff re-alleges and incorporates herein by reference each and every allegationt
I

l

17 contained in the preceding paragraphs of this Complaint as though fully set forth herein.

I

18

85.

This action is brought, in part, pursuant to the Wage Order and California Labor CodelI
'

19

l.

§§ 510, 1194 and 1198. Under the Wage Order and California Labor Code § 510, Defendants werel ;

20 required to compensate Plaintiff and all Class Members for all overtime, calculated at one and one- 1

Ihalf (1-Yi) times the regular rate of pay for hours worked in excess of eight (8) hours per day and/~rlI.
!

21

-

.

.

:I

22 forty (40) hours per week, two (2) times the regular rate of pay for hours worked m excess of twel v·e!
: I -

23 (12) hours per day, and two (2) times the regular rate of pay for hours worked in excess of eight (8))
·~~

24 hours on the seventh (7 1h) day of work.

I

J

,.,f'

·~

1~::

25

86.

While employed by Defendants, Plaintiff and the Class Members were required to work!

1,~

"~

26 more than eight (8) hours in a day or forty (40) hours in a week. Regardless of the number of actual/

...

27 hours worked, and even though Plaintiff and all Class Members are not exempt from California;

l

,:;i;
~

"•1-,

28 overtime laws, Plaintiff and all Class Members v,1ere not and are not afforded overtime compensation!
17
CLASS ACTION COMPLAINT

I

100a
1 for any hours in excess of eight (8) hours in a workday and/or forty (40) hours per week. By failing
2 to compensate Plaintiff and all Class Members for the hours actually worked, Defendants have failed
3 and continue to fail to pay the overtime compensation owed to Plaintiff and all Class Members
4 pursuant to the Wage Order and the California Labor Code.

s

87.

Plaintiff is informed and believes and based thereon alleges that Defendants' policy

6 and practice of requiring overtime work and not paying for said work according to the overtime
7 mandates of California law is, and at all times herein mentioned \Vas, in violation of California Labor
. 8 Code § 1194, applicable regulations, and the Wage Order. Defendants' employment policies and
9 practices wrongfully and illegally failed to compensate Plaintiff and Class Members for overtime
10 compensation earned as required by California law.
88.

11

The conduct of Defendants and their agents and employees as described herein was

12 willful and intentional and part of a corporate policy, procedure and practice. Furthermore, Defendants
13 willfully failed to pay Plaintiff and Class Members proper compensation for all overtime hours worked ·
14 at the appropriate rate of overtime pay.

89.

15

I
1

Plaintiff is informed and believes and based thereon alleges that Defendants' willful

16 failure to provide all overtime ,vages due and owing them upon separation from employment results!
17 in a continued payment of wages up to thirty (30) days from the time the wages were due. Therefore,I
.

j

18 Plaintiff and other members of the Class who have separated from employment are entitled to

j

19 compensation pursuant to California Labor Code § 203.

j

.

20
21

90.

I

Such a pattern, practice and uniform administration of unlawful corporate policy!

regarding employee compensation as described herein creates an entitlement to recovery by Plaintiff!

22 and each Class Member for damages and wages owed, and for penalties, interest, costs and attorney'.sf
23 fees, in an amount to be proven at time of trial.
•,r

.,,

.,,

24 , Ill

,I

I
i
'f

25 Ill
26 Ill

27 Ill
28,
18
CLASS ACTION COMPLAINT

101a

•

SECOND CAUSE OF ACTION

1

···--···----·: .

l

j
J

2

Failure to Pay All Regular Wages

3

(California Lab01: Code§ 204)

f

4

-By Plaintiff and Class Members Against All Defendants-

1
I
j

6

!

~ontained in the preceding paragraphs of this Complaint as though fully set forth herein.

7

'

Plaintiff re-alleges and incorporates herein by reference each and every allegation!

91.

5

t

I

i
j

At all times relevant herein, Defendants were required, by California Labor Code!) .

92.

i

§ 204, to compensate Plaintiff and Class Members correct and proper regular wages for all regular 1
j

8

9 hours worked, .
As a pattern and practice, Defendants regularly required Plaintiff and Class Members!

93.

10

i

11

to work more than eight (8) hours in a day, and forty (40) hours in a week; and required Plaintiff and/ •
'

!

12 Class Members to work through meal and rest breaks. Regardless of the number of hours worked,!

l

Plaintiff and Class t'1embers received the same pay, \Vithout payment of wages fo~ all hours actuallyf

13

Ii.

14 worked.

15

94.

i.
As a pattern and practice, Defendants regularly failed to pay Plaintiff and Class)
i

16 Members the proper wages fo·r all hours worked
95.

17

'

l

Plaintiff is informed and believes and based thereon alleges that Defendants willfully[

J

j.

18 failed to pay Plaintiff and Class Members all regular wages for all hours worked. Plaintiff is informed/
19 and believes and based thereon alleges that Defendants' willful failure to provide all regular wagesl
20

due and owing upon separation from employment results in a continued payment of wages up to thirty] .

21

(30) days from the time the wages were due. Therefore, Plaintiff and Sub-Class Members are entitled; .

i'
(

22 to compensation pursuant to California Labor Code § 203.
23

I

96.

'f

Such a pattern, practice and uniform administration of unlawful corporate policy)
I

24 regarding employee compensation as described herein creates an entitlement to recovery by Plaintiff,:
....

25

Class M~mbers and Sub-Class Members for damages and wages owed, and for penalties, interest,/

26

l

i

costs and attorney's fees.

!

27 ///

28
19
CLASS ACTION COMPLAINT

e

•

102a

THIRD CAUSE OF ACTION

1

2

Failure to Pay Minimum ·wages

3

(California Labor Code§ 1194, 11.942 and 1197.1)

4

-By Plaintiff and Class Members Against All Defendants1

5
6

97.

Plaintiff re-alleges and incorporates herein by reference each and every allegation!

contained in the preceding paragraphs of this Complaint as though fully set forth herein.
·1
I

7

This cause of action is brought pursuant to California Labor Code § 1194, which\

98.

8 provides that non-exempt employees are entitled to the statutory hourly minimum wage for work 1
.

.

I

!

9

performed.

10

99.

i·

At all times relevant herein, Defenda11ts were required to compensate Plaintiff and]

11 Class Members at least the statutorily mandated minimum wage for all regular hours worked.

12

i

As a pattern and practice, Defendants regularly required Plaintiff and Class Members (

100.

13 to work without recording the time worked in any capacity, due to the misclassification of Dashers as

14 independent contractors.
15

101.

As a result~ Defendants regularly failed to pay Plaintiff and Class Members the!

16 statutorily required minimum wage for all hours worked.
17

'

Defendants' conduct as alleged herein is in violation of California Labor Code § 1194 l

102.

l

18 and the Wage Order. Defendants' employment policies and practices wrongfully and illegally faiied j
'

19 to compensate Plaintiff and Class 1vfembers for all hours \\1orked at minimum wages as required by/

20
21

!

California law.
103.

Plaintiff is informed and believes and based thereon alleges that Defendants ,:villfully

22 failed to pay Plaintiff and Class_ Members minimum wages for all ho,urs worked. Plaintiff is informe?

!

23 and believes and based thereon alleges that Defendants' willful failure to provide wages due and owing!
,::::
,,r

.,
,~t

24 upon separation from employment results in a continued payment of wages up to thirty (30) days from

I

25 the time the wages were due. Therefore, Plaintiff and Sub-Class Members \Vho have separated from

r,.

•,
r,._

i:::::
,._

-.,

26 employment are entitled to compensation pursuant to California Labor Code § 103.
27

104.

Such a pattern, practice and uniform administration of unlawful corporate policy

28 regarding employee compensation as described herein creates an entitlement to recovery by Plaintiff,!

20
CLASS ACTION COMPLAINT

I'
'

•

103a

1 Class Members and Sub-Class Members for damages and ,,,vages owed, and for liquidated damages, i
I

2

!

penalties, interest, costs and attorney's fees.

FOURTH CAUSE OF ACTION

3
4

Failure to Pay AU Regular Wages

5

(California Labor Code§§ 1197.1 and 1199, and the Wage Order)

6

-By Plaintiff and Class Members Against All Defendants-

7

105.

Plaintiff re-alleges and incorporates herein by reference each and every allegationj
\

8 contained in the preceding paragraphs ofthis Complaint as though fully set forth herein.
106.

9

I

At all times relevant herein,. Defendants were required by California Labor Code!
l
•

I

10

§§ 1197.1 and 1199 and the Wage Order to compensate Plaintiff and Class Members correct and[

11

proper vvages for all hours worked.
I

107.

12
13

As a pattern and practice, Defendants regularly failed to pay Plaintiff and Class\
I

Iviembers for all hours worked in excess of eight (8) hours in one day or forty (40) hours in a week.

14

108.

/

I

Plaintiff is informed and believes and based thereon alleges that Defendants vvillfullyi
'

15

failed to pay Plaintiff and Class Members wages for all hours worked. Plaintiff is informed and

16

believes and based thereon alleges that Defendants' willful failure to provide all wages due and ovving .

17

upon separation from employment resul~s in a continued payment of wages up to thirty (30) days from

18 the time the vvages were due. Therefore, Plaintiff and Sub-Class Members are entitled to compensation
19

20
21

I,.

pursuant to California Labor Code § 203.
109.

Such a pattern, practice and uniform administration of unlawful corporate policy!·

regarding employee compensation as described herein creates an entitlement to recovery by Plaintiff,!

'

.
22 Class Members and Sub-Class Members for damages and ·wages owed, and for penalties, interest)
23

costs and attorney's fees, in an amount according to proof.

f

'.

r

1:·

,~;:

r,,.

24 Ill

f

1:.r

.,

<::
t-,,
.,
t,,

.,~;::_
~,

25

·1

Ill

i.

!

I·

1·

26 Ill

I
'j

!

I,.

27 Ill

i
![

;·

28
21

CLASS ACTION CON.IPLAINT

! t

104a

FIFTH CAUSE OF ACTION

1

2

Failure to Allow or Pay for Meal Periods

3

(California Labor Code§§ 226.7 and 512)

4

-By :Plaintiff and Class Members Against All Defendants-

5
6

7
8

Plaintiff re-alleges and incorporates herein by reference each and every allegation ·

110 ..

contained in the preceding paragraphs of this Complaint as though fully set forth herein.
At all times relevant herein, Defendants were required to provide Plaintiff and Class .

111.

Members ,vith meal periods that comply with the California Labor Code and applicable regulations I

9 and the Wage Order, including California Labor Code§§ 226.7 and 512.

10
11

Consistent with Defendants' corporate policy, practice and pattern, Defendants '

112.

regularly failed to provide, and in fact denied, Plaintiffs and Class Members' statutorily compliant :

12 meal periods.

13

113.

Consistent with Defendants' policy, practice and pattern, Defendants regularly failed •

14 to provide any breaks to Dashers, all0vv Plaintiff and Class Members to take or timely take :
15

uninterrupted, duty-free meal periods. As a pattern and practice, Defendants regularly faile9 to··!

16

accurately record meal periods.

17

Plaintiff is informed and believes and based thereon alleges that Defendants willfully

i
1

failed to pay Plaintiff and Class Members proper meal period premium wages for all non-compliant

!

114.

I

18

I

19 or missed meal periods. Plaintiff re informed and believes and based thereon alleges that Defendants' f
20

willful failure to provide all such meal period wages due and owing to Sub-Class 1v1embers uponj
.

: ...

21 , separation from employment results in a continued payment of wages up to thirty (30) days from th~f
22
23

24

~ time the wages were due.

Therefore, Sub-Class Members are entitled to compensation purs~ant tof J

=q
·

California Labor Code·§ 203.

115.

· Such a pattern, practice and uniform administration of unlawful corporate policy •

25

regarding employee compensation as described herein creates an entitlement to recovery by Plaintiff, ·

26

Class Members and Sub-Class Members for damages and wages owed, and for penalties, interest, '

27

costs and attorney's fees.

28
22

CLASS ACTION COMPLAINT

e

105a

e

i:

\

:

~

t:
1·
,,
r,

1;

1

116.

Accordingly, Plaintiff and all members of the Class are entitled to one (1) hour of(
!:

}:

2

compensation at their regular hourly rate for each workday that the proper meal periods were not;:

3

provided and one (1) hour of c~mpensation at their regular hourly rate for each workday that the proper

4

meal periods were not provided in penalty vvages pursuant to California Labor Code § 226.7 and the j,

1,.

5 Wage Order.

6

11 7.

r

· Plaintiff and Class Members are further entitled to civil penalties under California t

7 Labor Code§ 558 as follows: For the initial violation, Fifty Dollars ($50.00) for each pay period fort
8
9

which the employee was underpaid, in addition to any a:.'11.ount sufficient to recover underpaid wages;;;
j:
and, for each subsequent violation, One Hundred Dollars ($100.00) for each pay period for which the I
J."

1O employee was underpaid, in addition to any amount sufficient to recover underpaid wages.

r.
I

12

Failure to Allow or Pay For Rest Periods

I
L
'

13

(California Labor Code §226. 7)

!

SIXTH CAUSE OF ACTION

11

16

t.

'

-By Plaintiff and Class Members Against All Defendants-

14

15

'

118.

t

i

Plaintiff re-alleges and incorporates herein by reference each and every allegation':
ti

contained in the preceding paragraphs of this Complaint as though fully set forth herein.

!

/:

17

119.

At all times relevant herein, Defendants vvere required to provide Plaintiff and Class\\
ii

18 Members with rest periods that comply with the California Labor Code and applicable regulations and i\

I;

19 IWC wage order, including California Labor Code§ 226.7.
20
21

120.

. Jj

!

Consistent \Vith Defendants' corporate policy, practice and pattern, Defendants 1

regularly failed to provide, and in fact denied, Plaintiff and Class Members statutorily compliant rest'!

22 periods.

: _:j
.

23
24

121.

I

Consistent with Defendants' corporate policy, practice and pattern, Defendants failed[

to provide or allow Plaintiff and Class Members to take or timely take mandated rest periods due to!

•.• r

·~

25 . their misclassification as independent contractors.

26

122.

Plaintiff is informed and believe and based thereon allege that Defendants vvillfully

!
'

''•\.,

27 failed to pay Plaintiff and Class Members proper rest period
premium wages for all non-compliant or i
.
J
28

missed rest periods. Plaintiff is informed an9- believe and based thereon alleges that Defendants'

23
CLASS ACTION COMPLAINT

I
i-

106a

•

1 willful failure to pro~1ide all such rest period wages due and owing upon separation from employment:
2

results in a continued payment of wages up to thirty (30) days from the time the wages were due ..i
I

i

3

Therefore, members of the Sub-Class who have separated from employment are entitled to !

4

.!

1I

compensation pursua.'1t to California Labor Code § 203.

i

l

5

123.

'
. Such a pattern, practice and unifonn administration of unlavvful corporate policy ;

6

regarding employee compensation as described herein creates an entitlement to recovery by Plaintiff, 1

7

Class Members and Sub-Class Members for damages and v,,ages owed, and for penalties, interest,:

8

costs and attorney's fees.

.

9

124.

I

Plaintiff and all members of the Class were regularly scheduled as a matter of uniform ·

10 company policy to work, and in fact vvorked, \Vithout rest breaks in violation of California Labor Code:
11

§§ 226.7 and 512 and the Wage Order, in that they are not and were not permitted to take one (1) ten/
i
I

12 (10) minute rest break for every four (4) hours worked.

\
I

13

125.

Accordingly, Plaintiff and all members of the Class are entitled to one (1) hour ofj
I

14 compensation at their regular hourly rate for each workday that the proper rest periods were not)

l

15 provided and one (1) hour of compensation at their regular hourly rate for each workday that the proper i

16 rest periods \Vere not provided in penalty wages pursuant to California Labor Code § 226.7 and the

1·

17 Wage Order.

I

18

126.

i

Plaintiff and Class Members are further entitled to civil penalties under California I

i

19 Labor Code § 558 as follO\vs: For the initial violation, Fifty Dollars ($50.00) for each pay period for [
I

20 which the employee was underpaid, in addition to any amount sufficient to recover underpaid wages;
21 and, for each subsequent violation, One Hundred Dollars ($100.00) for each pay period for which th~,

i

22 employee was underpaid, in addition to any amount sufficient to recover.

(~;;:
i••

r

'',

·~~

..,
,:::::
"'"

23

SEVENTH CAUSE OF ACTION

24

·waiting Time Penalties

25

(California Labor Code§§ 201-203)

26

-By Plaintiff and Sub-Class Members Against All Defendants-

I' •

f,~

......

27

127.

Plaintiff re-alleges and incorporates herein by reference each and every allegation

28 contained in the preceding paragraphs of this Complaint as though fully set forth herein.
24
CLASS ACTION COMJ>LAINT

!

•

107a

1

128.

At all times relevant herein, Defendai.1.ts were required to pay their employees all wages

2

owed in a timely fashion during and at the end of their employment, pursuant to California Labor

3

Code§§ 201 through 203.

4

129.

As a pattern and practice, Defendants regularly failed to pay Plaintiff and Sub-Class

5 Members their final wages pursuant to California Labor Code §§ 201 through 203, and accordingly

6
7

O\Ve waiting time penalties pursuant to California Labor Code§ 203.
130.

The conduct of Defendants and their agents and managerial employees as described

8 herein was willful, and in violation of the rights of Plaintiff and the Sub-qass Members.
9

10

131.

Plaintiff is informed and believes and based thereon alleges that Defendants' willful

failure to pay wages due and owing to Sub-Class Members upon separation from employment results

11 in a continued payment of_wages up to thirty (30) days from the time the wages \Vere due. Therefore,
12

-Sub-Class Members are entitled to compensation
pursuant to California Labor Code § 203.
EIGHTH CAUSE OF ACTION

13

14

Failure to Provide Accurate Itemized \Vage Statements

15

(California Labor Code§ 226(a))

16

-By Plaintiff and Class Members Against All Defendants-

17

132.

Plaintiff re-alleges and incorporates herein by reference each and every allegation

18 contained in the preceding paragraphs of this Complaint as though fully set forth herein.
19

133.

At all times relevant hereto, California Labor Code§ 226(a) provides, and.provided,

20

that every employer shall furnish each ofits employees an accurate itemized wage statement in writing

21

showing nine (9) pieces of information, including: (1) gross wages earned, (2) total hours \Vorked by

22 the employee, (3) the number of piece-rate units earned and any applicable piece rate if the employee

t.:;.":

,.. r

·~

,~;:;

23

is paid on a piece-rate basis, (4) all deductions, provided that all deductions made on written orders of

24

the employee may be aggregated and shown as one item, (5) net wages earned, (6) the inclusive dates

25

of the period for which the employee is paid, (7) the name of the employee and the last four digits of

26

his or her social security number or an employee identification number other than a social security

t·~

.,_

"~
q:

,.._
......

27 number, (S) the name and address of the legal entity that is the employer, and (9) all applicable hourly
28
,

25

CLASS ACTION COrvIPLAINT

e

108a

•

1j

l

1 rates in effect during the pay period and the corresponding number of hours worked at each hourly.•

l

2

rate by the employee.

3
4

Defendants failed and continue to fail in their affirmative obligation to keep accurate:
i
payroll records reflecting the actual hours worked, and the amount of compensation due to their [

5

California employees. Defendants, as a matter of policy and practice, did not maintain accurate records!

6

in violation of California Laf?or Code § 226.

134.

i
1

7

135.

!

For example, as a matter of policy and practice, among the violations of California i
;

8

Labor Code § 226, Defendants failed to keep accurate records reflecting total number of hours vvorked, [

9

rates of pay, rates of overtime pay (as a result of Defendants' failure to record proper overtime hours [

10

worked, and to properly calculate the overtime rate of pay), and daily qr weekly overtime pay. As a j

11

result, Defendants failed to provide true and accurate wage statements to Plaintiff and Class Members, i

j

\
!

i

!

12 as required by California Labor Code § 226.

13

136.

l

Such a pattern, practice and uniform administration of corporate policy as described'.

14

herein is unlawful and creates an entitlement to recovery by Plaintiff and the Class Members in a civil (

15

action fm all damages and/or penalties pursuant to California Labor Code § 226, including interest (

16

thereon, penalties, reasonable attorney's fees, and costs of suit according to the mandate of California!

1

'

I

Labor Code § 226, in amount according to proof.

17
18

13 7.

\

Class Members, including Plaintiff, are entitled to recover from Defendants the greater r
·1

19

of their actual damages caused by Defendants' failure to comply vvith California Labor Code§ 226(a), i

20

. I

!

or an aggregate penalty not exceeding Four Thousand Dollars ($4,000.00) per employee.

I

. I

,
I

NINTH CAUSE OF ACTION

21

•.r

22

Failure to Reimburse Business Expenses

23

(California Labor Code § 2800, and 2802)

24

-By Plaintiff and Class Members Against All Defendants-

138.

25
'>,

26

.

,I
f

I

27

i

28

lthem, Plaintiff and putative class members incurred work-related expenses.
l

'i

Plaintiff re-alleges and incorporates herein by reference each and every allegation:

contained in the preceding paragraphs of this Complaint as though fully set forth herein.
13 9.

\

While acting on the direct instruction of Defendants and discharging his duties for

26
CLASS ACTION CO:MPLAINT

I

I

l

e
1

140..

•

109a

Such expenses include but are not limited to the costs associated with travel, including

2 fuel, maintenance, vehicle depreciation, and others, as well as the cost of maintaining a personal cell
3 phone for purposes of using for Defendants' business. Plaintiff necessarily incurred these substantial

4 expenses and losses as a direct result of performing their job duties for Defendants.
5

141.

Defendants have failed to indemnify
or in any manner reimburse Plaintiff for these jj
.

6 expenditures and losses. By requiring Plaintiff to pay expenses and cover losses that he incurred in~
'

7 direct consequence of the discharge of his duties for Defendants and/or in obedience to Defendants' f
'
t

8 direction, Defendants have violated Cal. Labor Code § 2802
9

142.

j
i

As a direct and proximate result of Defendants' conduct, Plaintiff has suffered l
t

10 substantial losses according to proof, as well as pre-judgment interest, costs, and attorney fees for the

1

11 prosecution of this action.

r

12

143.

I

\

The conduct of Defendants and their agents and managerial employees as described it
~

13 herein was ,willful, and in violation of the rights of Plaintiff and the Sub-Class Members.

14

144.

15

Plaintiff requests relief as described below.
TENTH CAUSE OF ACTION

16

Willful Misclassification oflndividual as Independent Contractor

17

(California Labor Code § 226.8)

(i"
f

19

!

-By Plaintiff and Class Members Against All Defendants-

18
145.

Plaintiff re-alleges and incorporates herein by reference each and every allegation

I

20 contained in the preceding paragraphs of this Complaint as though fully set forth herein.
21

146.

Defendants intentionally and willfully characterized Plaintiff and members of the Clas.s

22 as independent contractors rather than employees in violation of Labor Code §226.8.
23
f,;~
I,~

14 7.

,;:;:

148.

1

i

.

25

i

Defendants have been engaging in a pattern and practice of misclassifying employees/

l

l

24 as independent contractors for their own financial benefit.

S"

I

:I

.

l

As a direct and proximate result of the uniawful acts and/or omissions of Defendants,)

I',,
•,,
t-~

.

26 Plaintiff and Class Members are entitled to recover damages in an amount to be determined at trial,\

I~~
~

-.~

27 civil penalties, plus interest thereon, and attorneys' fees, and costs of suit pursuant to Labor Code § 1
l

l

28 226.8.
27
CLASS ACTION CO:rv.tPLAINT

(
l

;; ....

.e
I

149.

!

110a

Defendants have engaged in or are engaging in a pattern or.practice of misclassifying .

2

the Dashers, and Plaintiff seeks recovery for civil penaJties of not less than ten thousand dollars .

3

($10,000) and not more than twenty-five thousand dollars ($25,000) for each violation, in addition to

4

any other penalties or fines pem1itted by law.

5

150.

Plaintiff realleges and incorporates herein by reference each and every allegation '.

6 contained in the preceding paragraphs of this Complaint as though fully set forth herein.

ELEVENTH CAUSE OF ACTION

7

8

Unfair Business Practices

9

(California Business and Professions Code §§ 17200, et seq.)

10

-By Plaintiff and Class Members Against All Defendants-

11

151.

Plaintiff re-alleges

ai1d

incorporates herein by reference each and every allegation )

12 contained in the preceding paragraphs of this Complaint as though fully set forth herein.
.
i:
13
152.
Defendants, and each of them, have engaged in unfair business practices in California'.
1:

14 by practicing, employing and utilizing the employment practices outlined above, including but notll
.

jl.

15 limited· to, requiring Class Members to perform the labor complained of herein without overtime l:
I,

16 compensation, regular compensation or minimum wage for all hours ,;, orked, failing to provide meal 1
1

J·

17 and rest breaks, failing to reimburse/indemnify business expenses, and failing to provide itemizedi;
L

18 wage statements.

Defendants' utilization of such unfair business practices constitutes unfair

n
i~

~:'i!

19 competition and provides an unfair advantage over Defendants' competitors.
20

153.

i
I

Plaintiff and the Class Members, and other similarly situated members of the general ·t

21 public, see~ full restitution and disgorgernent of monies, as necessary and according to proof, to rester~
22 any and all monies withheld, acquired and/or converted by the Defendants by means of the

I

urifa)!

23 i practices complained of herein. Plaintiff ~eeks, on their own behalf and on behalf of the Class Members ;
·~~

24 and general public, the appointment of a receiver, as necessary. The acts complained of herein j

V

·~~

.
'

25

occurred, at least in part, within the last four (4) years preceding the filing of the original complaint in

26

this action.'

27

154.

28

Plaintiff is informed and believes and on that basis alleges that, at all times herein

mentioned, Defendants have engaged in unlawful, deceptive and unfair business practices, as

28
CLASS ACTION CO:tv1PLAINT

i
I

e

111a

1 proscribed by California Business and Professions Code §§ 17200, et seq., as set forth above, thereby j

2 depriving Plaintiff, Class Members, and other members of the general public the minimum working

l

l

~.

3 condition standards and conditions due to them under the California labor laws and the Wage Order

!

as specifically described herein.

4

I

I

Plaintiff, Class Members, and all persons similarly situated, are further entitled to and!
t
6 ::lo seek a declaration that the above-described business practices are unfair, unlawful and/or:

155.

5

7 fraudulent.

PRAYER FOR RELIEF

8

WHEREFORE, Plaintiff prays for judgment for themselves and all others on whose behalf this'

9

I

I

10 suit is brought against Defendants, jointly and severally, as follows:

·,'

'i

11

a) That the Court determine that this action may be maintained as a class action under Code of

12

Civil Procedure§ 382;

13

b) That the Plaintiff be appointed as the representatives of the Class;

14

c) That counsel for Plaintiff be appointed as Class Counsel;

15

d) That the Court find that Defendants have been in violation of applicable provisions of ther

16

California Labor Code by failing to pay each member.of the proposed Classes for all hours'.

17

worked, including minimum wage;

18

e) That the Court find that Defendants have been in violation of applicable provisions of the:

1°9

California Labor Code §§510, 1194 et seq., and IWC Wage Order by failing to pay overtimJ

20

wages to Plaintiff and members of the Class;

21

f) That the Court find that Defendants have been in violation of California Labor Code §§226)

22

and 512 by failing to provide Plaintiff and members of the Class with meal periods and therefote.

23

owe compensation under California Labor Code §226.7(b);

i

.

t

t

!
1,

f

i::;:

24

I

g)· That the Court find that Defendants have been in violation of California Labor Code §§226.

1..,r

,::i:
t,,_

J

by failing to authorize and permit rest periods for Plaintiff and members of the Class, and·

26

therefore owe compensation under California Labor Code §226.7(b);

27

h) That the Court find that Defendants have been in violation of California Labor Code § 2802,!

28

by failing to reimburse the Plaintiff and the Class reasonable business expenses and losses;

1~!;:
i,,~~\-.

1;

25

I',.,

....

r1

I
j

l

29
CLASS ACTION C01v1PLAINT

•

112a

1

i) That the Court find that Defendants have violated the recordkeeping provisions of California'.

2

Labor Code§§ 1174 and 1174.5 as to Plaintiff and the Class;

3

j) That the Court find that Defendants have. been in violation of California Labor Code § 226;

4

by failing to timely furnish Plaintiff and members of the Class with itemized statements

5

accurately showing the total hours worked, vacation benefits, bonus benefits, and wages earned:

6

by each of them during each pay period;

7

I) That the Court find that Defendants have been.in violation of California Labor Code §§2011

8

and 202 and therefore owe waiting time penalties under California Labor Code §203 for vvillfu~

9
10

failure to pay all compensation owed at the time oftem1ination of employment to Plaintiff an4
'I
other formerly employed members·of the Class;

11

m) That the Court find that Defendants have been in violation of California Labor Code §226.s;

f
t

'

!
!

I

I

j

.

\'

I'

i

I
I

12

and therefore owe civil penalties under California Labor Code §216.8 and all damageJ

13

proximately caused by Defendants' wrongful conduct of engaging in a pattern or practice of

14

willfully misclassifying Dasher as independent contractors;

1

i

I
i

15

n) That the Court find that Defendants have committed unfair and unlawful business practicesJ

16

in violation of California Business and Professions Code §17200, et seq., by their violations of

17

the Labor Code and Wage Orders as described above;

18

'
o) That the Court find that Defendants' violations of the California Labor Code described herein'

19

have been willful;

20

p) That the Court av,1ard to Plaintiff and the proposed Class Members restitution for

I

I

I
t

I

thJ

21

.
:I
reasonable business expenses and deductions incurred by Dashers, including interest thereoh,!

22

liquidated damages and/or statutory penalties and other statutory penalties in amounts subje~~

23

to proof at trial;

24

q) That the Court award to Plaintiff and the proposed Class Members restitution for the amounts:

25

of unpaid wages, including interest thereon, liquidated damages and/or statutory penalties for:

1

l
)

·~;:;
,.• r .
",

.t

•::i~
I'.,.

1

26

failure to timely furnish accurate itemized wage statements, and waiting time and other statutory
I

1·,...,

,~:::
j,~

.

., ...,

I

27

penalties in amounts subject to proof at trial;

I
.,.

28
30
CLASS ACTION CO'MPLAINT

•

113a

..,.

1

r) That Defendants be ordered and enjoined to pay restitution and penalties to Plaintiff and th~·

2

proposed Class Members due to Defendants' unlav.rful and/or unfair activities, pursuant t~

3'

Business and Professions Code §§ 17200-17205;

4

s) That Defendants further be enjoined to cease and desist from unlav;,fu} and/or unfair activities'.

5

in violation of Business and Professions Code §17200, pursuant to §17203;

6

t) That Plaintiff and the Class be awarded reasonable attorneys'
fees and costs pursuant to Labof!
.

7

Code§§ 203,225.5, 226, 1194, 1197, and 2804, Code of Civil Procedure§ 1021.5, and/or otheJ

8

applicable law;

9

u) That the Court award any other relief this Court deems just, equitable, and proper;

i
f.

1

I

I
!
r
'

!

I

I
i
j

10

v) That these Defendants be ordered to refrain from retaliating against any Class Members wh6

11

are current employees;

12

w) Any and all other applicable statutory penalties, as provided by law; and

13

x) Any other and further relief the Court deems just and proper.

14

15
I

DEMAND FOR JURY TRIAL

16
17

Plaintiff requests a trial by jury on all applicable claims.

I

I.

j

18

19 Dated: May 1, 2017
Law Offices of Todd M. Friedman,·P.C.

20
21

Todd M. Friedma.11

22

Adrian R. Bacon, Esq.

23
·~~
,,,r

,,_~:;:

·~.

. I'.

.

24
25

26

1::::
~

· ·~.

27

28
31

CLASS ACTION COMPLAINT

I
i

!· .

;

J.
ATIORNEY OR PARTY V'~THOUT ATTORNEY (Name,

Todd M. Friedman, Esq. SBN 216752
Law Offices of Todd i'vf. Friedman
21550 Oxnard St., Suite 780
Woodland Hills, CA 91367

re Bar number, and address);

---.-.,..

IN.AL

114a

CM-010

FOR COURT USE ONLY

s

877-206-4741
FAXNO.: 866-633-0228
Plaintiff, Daniel Marko
suPERIOR couRT oF cAL1FORN1A, couNTY oF Los Angeles
STREET ADDRESS: 111 N Hill St
MAILINGADDR:SS: 111 N Hill St
c1TYAN021Pcooe: Los AnoeJes 90012
BRANCH NAME:

~

{

j,
':

l1;

· R. ~utive Officer/Clerk
Y.
.Deputy

L:I•

ya olden

Stanle I\1osk Courthouse

I!
l

ERIOR. COURT OF CALIFORNIA
COUNTY OF LOS ANGELES

MAYO 2 2017
s

·,

il

FILED

TEL:PHONENO.:

ATIORNEY FOR /NameJ:

:,'

CASE NAME:

Daniel Marko, et al. v. DoorDash, Inc., et al.
CIVIL CASE COVER SHEET

[ZJ

><

<t

LL

>
m

D

D

Unlimited
(Amount
demanded
exceeds $25,000)

CASE NUM9ER:

Complex Case Designation

D

Limited
Counter
Joinder
(Amount
JUDGE:
demanded is
Filed with first appearance by defendant
$25,000 or Jess)
(Cal. Rules of Court, rule 3.402)
DEPT:
Items 1-6 below must be completed (see instructions on page 2).
1. Check one box below for the case type that best describes this case:
Contract

Auto Tort

D Auto(22)
D ·Uninsured motorist (45)
Other Pl/PD/WO (Personal Injury/Property
Damage/Wrongful Death) Tort

D
D
D
D

Asbestos (04)
Product liability (24)
Medical malpractice (45)
Other Pl/PD/WO (23)

Non-Pl/PD/WO (Other) Tort

D Business tort/unfair business practice (07)
D Civil rights (08)
D Defamation (13)
D Fraud (16)
D Intellectual property (19)
D Professional negligence (25)
D Other non-Pl/PD/WO tort (35)
Employment
D Wrongful termination (36)
W Other employment (15)

D
D
D
D
D

Breach of contracVwarranty (06)
Rule 3.740 collections (09)
Othercollect:ons (09)
Insurance coverage (18)
Other contract (37)

Real Property
Eminent domain/Inverse
condemnation (14)

D
D
D

Provisionally Complex Civil Litiga.tion
(Cal. Rules of Court, rules 3.400-3.403)

D
D
D
D
D
D

Wrongful eviction (33)
Other real property (26)

Unlawful Detainer

D Commercial (31)
D Residential (32)
D Drugs (38) ·
Judicial Review
D Asset forfeiture (05)
D Petition re: arbitration award (11)
D Writ of mandate (02)
D Other judicial review (39)

Anlltrusl/Trade regulation (03)
Construction defect (1 O)
Mass tort (40)

i
: I
;I

Securities litigation (28)
EnvironmentalfToxic tort (30)
Insurance coverage claims arising from the
above listed provisionally complex case
types(41)

Enforcement of Judgment

D
D

I

i Ij
I

i

l

~

1

i:

;
1

.

,·:.

Enforcement of judgment (20)

~

Miscellaneous Civil Complaint

0

I·'

J'

j•

RIC0(27)
Other complaint (not specified above) (42)

Miscellaneous Civil Petition

D
D

Partnership and corporate governance (21)
other petilion-(not specified above) (43)

2. This case LLJ is
LJ is not complex under rule 3.400 of the California Rules of Court. If the case is complex, mark the
factors requiring exceptional judicial management:
d.
Large number of witnesses
a.
Large number of separately represented parties
Coordination with related actions pending in one or more courts · 1·
Extensive motion practice raising difficult or novel. e.
in other counties, states. or countries. or in a federal court
t:
issues that will be time-consuming to resolve
f.
Substantial postjudgment judicial supervision
c.
Substantial amount of documentary evidence

D
D

D
b.D

D
b. W nonmonetary; declaratory or injunctive relief

D

3.
4.
5.
6.

Remedies sought (check all that apply): a.[ZI monetary
Number of causes of action (specify): 11
This case [2J is
is not a class action suit.
If there are any known related cases, file and serve a notice of related case. (You may use form

c. [2J punitive

D

Date: May I, 2017
Todd M. Friedman
(TYPE OR PRINT NAME)

NOTICE
• Plaintiff must file this cover sheet with the first paper filed in the action or proceeding (except small claims cases or cases filed
under the Probate Code, Family Code, or Welfare and Institutions Code). (Cal. Rules of Court, rule 3.220.) Failure to file may result
in sanctions.
• File this cover sheet in addition to any cover sheet required by local court ruie.
• If this case is complex under rule 3.400 et seq. of the California Rules of Court, you must serve a copy of this cover sheet on all
other parties to the action or proceeding.
• Unless this is a collections case under rule 3.740 or a complex case, this cover sheet will.be used for statistical purposes onlv.

l'a e 1 of 2

Form Adopted for Mandatory Use
Judicial Council of Cantornia
CM-010 {Rev. July 1, 2007]

CIVIL CASE COVER SHEET

ca1.Ruresoreou,1.rures2.Jo,J.220,J.4oo-J.4oJ,3.740:
Cal. Standards of Judicial Administration, sld. 3.10
www.courtinfa.ca.gov
American LegalNel, Inc.
www.FormsWo11<t1ow.com

-··~

•

115a

e

CM-010

INSTRUCTIONS ON HOW TO COMPLETE THE COVER SHEET

To Plaintiffs and Others Filing First Papers. If you are filing a first paper (for example, a complaint) in a civil case, you must
complete and file, along with your first paper, the Civil Case Cover Sheet contained on page 1. This information will be used to compile
statistics about the types and numbers of cases filed. You must complete items 1 through 6 on the sheet. In item 1, you must check
one box for the case type that best describes the case. If the case fits both a general and a more specific type of case listed in item 1,
check the more specific one. If the case has multiple causes of action, check the box that best indicates the primary cause of action.
To assist you in completing the sheet, examples of the cases that belong under each case type in item 1 are provided below. A cover
sheet must be filed only with your initial paper. Failure to file a cover sheet with the first paper filed in a civil case may subject a party,
its counsel, or both to sanctions under rules 2.30 and 3.220 of the California Rules of Court.
To Parties in Rule 3.740 Collections Cases. A "collections case" under rule 3.740 is defined as an action for recovery of money
owed in a sum stated to be certain that is not more than $25,000, exclusive of interest and attorney's fees, arising from a transaction in
which property, services, or money was acquired on credit. A collections case does not include an action seeking the following: (1) tort
damages, (2) punitive damages, (3) recovery of real property, (4) recovery of personal property, or (5) a prejudgment writ of
attachment. The identification of a· case as a rule 3.740 collections case on this form means that it will be exempt from the general
time-for-service requirements and case management rules, unless a defendant files a responsive pleading. A rule 3.740 collections
case will be subject to the requirements for service and obtaining a judgment in rule 3.740.
To Parties in Complex Cases. In complex cases only, parties must also use the Civil Case Cover Sheet to designate whether the
case is complex. If a plaintiff believes the case is complex under rule 3.400 of the California Rules of Court, this must be indicated by
completing the appropriate boxes in items 1 and 2. If a piaintiff designates a case as complex, the cover sheet must be served with the
complaint on ali parties to the action. A defendant may file and serve no later than the time of its first appearance a joinder in the
plaintiffs designation, a counter-designation thafthe case is not complex, or, if the plaintiff has made no designation, a designation that
the case is complex.
Auto Tort
Auto (22)-Personal Injury/Property
Damage/\Nrongful Death
Uninsured Motorist (46) (if the
case involves an uninsured
motorist claim subject to
arbitration, check this item
instead of Auto)

,.• r

1,~

Other PI/PD/WD (Personal Injury/
Property Damage/Wrongful Death)
Tort
Asbestos (04)
Asbestos Property Damage
Asbestos Personal Injury/
Wrongful Death
Product Liability (not asbestos or
toxic/environmental) (24)
Medical Malpractice (45)
Medical MalpracticePhysicians & Surgeons
Other Professional Health Care
Malpractice
Other PI/PD/WD (23)
Premises Liability (e.g., slip
and fall)
Intentional Bodily Injury/PD/WO
(e.g., assault, vandalism)
Intentional Infliction of
Emotional Distress
Negligent Infliction of
Emotion al Distress
Other Pl/PD/WO
Non-Pl/PD/WO (Other) Tort
Business Tort/Unfair Business
Practice (07)
Civil Rights (e.g., discrimination,
false arrest) (not civil
harassment) (08)
Defamation (e.g., slander, libel)
(13)
Fraud (16)
Intellectual Property (19)
Professional Negligence (25)
Legal Malpractice
Other Professional Malpractice
t
d. I I I'
(no me ,ca or ega'
Other Non-Pl/PD/WO Tort (35)
Employment
Wrongful Termination {36)
Other Employment (15)

CM-0,10 [Rev. July 1, 2007)

CASE TYPES AND EXAMPLES
Contract
Breach of ContractNVarranty (06)
Breach of Rental/Lease
Contract (not unlawful detainer
or wrongful eviction)

ContractNVarranty Breach-Seller
Plaintiff (not fraud or negligence)
Negligent Breach of Contract/
Warranty
Other Breach of Contract/Warranty
Collections (e.g., money owed, open
book accounts) (09)
Collection Case-Seller Plaintiff
Other Promissory Note/Collections
Case
Insurance Coverage (not provisionally
complex) (18)
Auto Subrogation
Other Coverage
Other Contract (37)
Contractual Frnud
Other Contract Dispute
Real Property
Eminent Domain/Inverse
Condemnation (14)
Wrongful Eviction (33)
Other Real Property (e.g., quiet title) (26)
Writ of Possession of Real Property
Mortgage Foreclosure
Quiet Title
Other Real Property (not eminent
domain, landlord/tenant, or
foreclosure)

Unlawful Detainer
.
Commercial (31 )
Residential (32)
Drugs (38) (if the case involves illegal
drugs, check this item; otherwise,
report as Commercial or Residential)

Judicial Review
Asset Forfeiture (05)
Petition Re: Arbitration Award (11)
Writ of Mandate (02)
Writ-Administrative Mandamus
Writ-Mandamus on Limited Court
Case Matter
Writ-Other Limited Court Case
Review
Other Judicial Review (39)
Review of Health Officer Order
Notice of Appeal-Labor
Commissioner Appeals

CIVIL CASE COVER SHEET

. .
Prov1s1onally Complex Civil Litigation (Cal.
Rules of Court Rules 3.400-3.403)
AntitrusVTrade Regulation (03)
Construction Defect (10)
Claims Involving Mass Tort (40)
Securities Litigation (28)
Environmental/Toxic Tort (30)
Insurance Coverage Claims

'
[:

!i1·.
i
J·

i'
I:
i

!

!•
'
j
/

I
j

t1I

1·

I ..

iI

;I
,·
· t;
'.;

(arising from provisionally complex
case type listed above) (41)

Enforcement of Judgment
Enforcement of Judgment (20)
. Abstract of Judgment (Out of
County)
Confession of Judgment (nondomestic relations)

Sister State Judgment
Administrative Agency Award
(not unpaid taxes)

Petition/Certification of Entry of
Judgment on Unpaid Taxes
Other Enforcement of Judgment
Case
Miscellaneous Civil Complaint
RICO (27)
Other Complaint (not specified
2
above) (4 )
Declaratory Relief Only
Injunctive Relief Only (nonharassment)

Mechanics Lien
Other Commercial Complaint
Case (non-tort/non-complex)
other Civil Complaint
(non-torllnon-complex)
Miscellaneous Civil Petition
Partnership and Corporate
Governance (21 )
Other Petition (not specified
above) (43)
Civil Harassment
Workplace Violence
Elder/Dependent Adult
Abuse
Election Contest
Petition for Name Change
Petition for Reltef From Late
Claim

o

t

/·

t.
i

r
Ii·

i
.Ifl
i

L

L

·

).her Civil Petition

! '

Page 2 or 2

e

•
SHORT TiTLE·

116a
CASE NUMBER

.

Daniel Marko, et al. v. DoorDash, Inc., et al.

CIVIL CASE COVER SHEET ADDENDUM AND
STATEMENT OF LOCATION
(CERTIFICATE OF GROUNDS FOR ASSIGNMENT TO COURTHOUSE LOCATION)
This form is required pursuant to Local Rule 2.3 in all new civil case filings in the Los Angeles Superior Court.

Step 1: After completing the Civil Case Cover Sheet (Judicial Council form CM-010), find the exact case type in
Column A that corresponds to the case type indicated in the Civil Case Cover Sheet.

Step 2: In Column B, check the box for the type of action that best describes the nature of the case.
Step 3: In Column C, circle the number which explains the reason for the court filing location you have
chosen.
Applicable Reasons for Choosing Court Filing Location (Column C)

I

• I

1. Class actions must be filed In the Stanley Mask Courthouse, Central District.

7. Location where petitioner resides.

2. Permissive :iling in central district.

8. Location wherein defendanUrespondent functions wholly.

3. Location where cause of action arose.

9. Location where one or more of the parties reside.

4. Mandatory personal injury filing in North District.

10. Location of Labor .Commissioner Office.

5. Location where perfonnance required or defendant resides.

11. Mandatory filing location (Hub Cases - unlawful detainer, limited
non-coll_ection, limited collection, or persona! injury).

j

j·
i·,.

6. Location of property or pennanently garaged vehicle.
l

L

.-------------,--,,----,,.,-,,.,,--,-------,.....,...-------:-----,---,--.,-,-----~~------~l
·.....
. ,A
.; JY.p(of A.~<?.h;;.'. >: . ·' .. ·
......... ,.... ::, ...... :.)'28ir~:~:?.P.1YM~~:_')::_: i· .:;

·Civil.Case :cover Sheet •·
.. :. Category Ne{: .••: •· .: .
Auto (22)

D A7100 Motor Vehicle· Personal Injury/Property DamageNVrongful Death

1, 4, 11

.8 t:

:::, 0
<( I-

i==U=n=in=su=re=d=/v=lo=to=r=is=t(=4=6)==,=o==A=7=11=0=P=er=so=n=a=ll=nj=ury=/=P=ro=p=erty=D=a=m=a=ge=NV=ro=n=g=fu=ID=e=a=th=-=U=n=in=s=ur=ed=M=ot=o=ris=t:::;:=1,=4=,=11=====
D A6070 Asbestos Property Damage

Asbestos (04)
D

~t:
"'

0

A7221 Asbestos - Personal lnjuryNVrongful Death

1, 11
1, 11

I;
I

!

I

;,--~~~~~~---;~~~~~~~~~~~~~~~~~~~~+-~~~~~!.

a. l-

Product Liability (24)

D A7260 Product Liability (not asbestos or toxic/environmental)

11
a:o ..r:ca r - - - - - - - t - - - - - - - - - - - - + - - - - - - -1,'4,- 1 1I,
~o"'

-·22
-

-;;;C: ...g
0

~
a..
...

~

Qi

Ol
rtl

"' E
..c
rtl

.,,

Medical Malpractice (45)

Ol

50

0

A7210 Medical Malpractice - Physicians & Surgeons

1, 4, 11

0

A7240 Other Professional Health Care Malpractice

1, 4, 11

0

A7250 Premises Liability (e.g., slip and fall)

0

A7230 Intentional Bodily Injury/Property DamageNVrongful Death (e.g.,
assault, vandalism, etc.)

0

A7270 Intentional Infliction of Emotional Distress

\.

j

;I
Other Personal
Injury Property
Damage Wrongful
Death (23)

0

A7220 Other Personal Injury/Property Damage/Vl/rongful Death

1, 4, 11
1, 4, 11
1, 4, 11

1, 4, 11
I

.I

LACIV 109 (Rev 2/16)
LASC Approved 03-04

CIVIL CASE COVER SHEET ADDENDUM
AND STATEMENT OF LOCATION

i
Local Rule 2.3
Page 1 of 4

I

l'

I

I

•

•

117a

l

r--SH_O_R_TT_IT_L_E:_ _ _ _ _ _....,..._ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _TI-C-AS_E_N_U_MB_E_R----------------,1

Daniel Marko, et al. v. DoorDash, Inc., et al.

l

.

,:

.

..

. ··· .... · ····· :;::-/::: .-:::a:Yi}:··':<::·•,: ..: . :,

' .

. . . .. ' : .: :A.·. :: .. _·:·:·-:::·
· · : ·: Clvil Case'Cover-Sheet ,:.. _.
·.· ·. caiegoi:y No\ : : · , .
.:-

...

l ·:··. Type•ri(Ai:;tibri;; · ·

·•::::<•· :•

.... ::-···

(Chet~?nlyoni~) :;:,:::: ·:': ···

.·

.. ..

D A6029 Other Commercial/Business Tort (not fraud/breach of contract)

1, 2, 3

Civil Rights (08)

D A6005 Civil Rights/Discrimination

1, 2, 3

Defamation (13)

D A6010 Defamation (slander/libel)

1. 2, 3

D · A6013 Fraud (no contract)

1,2, 3

Business Tort (07)

Fraud (16)

•·.·-··

~---------+---------------------------+--------,~
Professional Negligence (25)

Other (35)

t:

Wrongful Termination (36)

D A6017 Legal Malpractice

1, 2, 3

D A6050 Ot'ier Professional Malpractice (not medical or legal)

1. 2, 3

CJ A6025 Other Non-Personal Injury/Property Damage tort

1, 2, 3

D A6037 Wrongful Tennlnation

1, 2, 3

Q)

E

>,
0

0..

Other Employment (15)

E

IJ A6024 Other Employment Complaini Case

1, 2, 3

D A6109 Labor Commissioner Appeals

10

D A6004 Breach of Rental/Lease Contract (not unlawful detainer or wrongful
eviction)

2,5

lJ.J

Breach of Coniract/ Warranty
(06)
(noi insurance)

D A6008 Contract/Warranty Breach -Seller Plaintiff (no fraud/negligence)
D A6019 Negligent Breach of Contracl/V'/arranty (no fraud)
D A6028 Other Breach of Contract/Warranty (not fraud or negligence)

ti

~
,:;

D A6002 Collections Case-Seller Plaintiff

Collections (09)

0

u
Insurance Coverage (18)

Other Contract (37)

Eminent Domain/Inverse
Condemnation (14)
Wrongful Eviction (33)

Other Real Property (26)

1, 2, 5

1, 2, 5

5,6, 11

D A6012 Other Promissory Note/Collections Case
D

2, 5

5, 11

A6034 Collections Case-Purchased Debt (Charged Off Consumer Debt
Purchased on or after January 1, 2014)

D A6015 Insurance Coverage (not complex)

5, 6, 11
1, 2, 5, 8

D A6009 Contractual Fraud

1,2, 3, 5

D A6031 Tortious Interference

1,2, 3,5

D A6027 Other Contract Dispute(not breach/insurance/fraud/negligence)

1,2, 3,8, 9

D A7300 Eminent Domain/Condemnation

Number of parcels _ _

D A6023 Wrongful Eviction Case

2, 6
2,6

D A6018 Mortgage Foreclosure

2,6

D A6032 Quiei Title

2, 6

'==========:;:::D=A=6=0=6=0=0=th=e=rR=e=a=t=P=ro=p=erty=(=n=ot=e=m=in=e=n=td=o=m=a=ln=,=la=n=dl=or=d=/te=n=a=n=t,=fo=re=c=lo=s=ur=e=)::::;::2,=6======l

,,r
•,,

.,.,

Unlawful Detainer-Commercial
( )
31

O A6021 Unlawful Detainer-Commercial (not drugs or wrongful eviction)

6, 11

Unlawful Detainer-Residential
(32)

D A6020 Unlawful Detainer-Residential (not drugs or wrongful eviction)

6, 11

D A6020F Unlawful Detainer-Post-Foreclosure

2, 6, 11

D A6022 Unlawful Detainer-Drugs

2,6, 11

Unlawful DetainerPost-Foreclosure (34l
Unlawful Detainer-Drugs (38)

LACIV 109 (Rev 2/16)
LASC Approved 03-04

CIVIL CASE COVER SHEET ADDENDUM
AND STATEMENT OF LOCATION

local Rule 2.3
Page 2 of4

SHORT TITLE:

•

118a

Asset Forfeiture (05)
Peiition re Arbitration (11)

3::

•

CASE NUMBER

Daniel Marko, et al. v. DoorDash, Inc., et al.

D A6108 Asset Forfeiture Case

2,3, 6

D A6115 Petition to Compel/ConfirmNacate Arbitration

2,5

QI

'>

QI

D A6151 Writ - Administrative Mandamus

2, B

D A6152 Writ - Mandamus on Limited Court Case Matter

2

D A6153 Writ- Other Limited Court Case Review

2

Other Judicial Review (39)

D A6150 Other Writ /Judicial Review

2,8

Antitrust/Trade Regulation (03)

D A6003 Antitrust/Trade Regulation

1, 2, B

et::

:~"'

Writ of Mandate (02)

"O
::::,

-,

C:

.2

._g>

~----------+---------------------------+-----------11
Claims Involving Mass Tort

to

:::i
)(

Construction Defect (10)

(1>

ci.

E

0

(.)

~

(40)

'>0

--

D A6035 Securities Litigation Case

1, 2,8

Toxic Tort
Environmental (30)

D A6036 Toxic Tort/Environmental

1, 2, 3, 8

D A6014 Insurance Coverage/Subrogation (complex case only)

1, 2, 5, 8

QI

Enforcement
of Judgment (20)

"O
::::,

0 -,
0

cw

RICO (27)
::::,
0
QI

C

c"'
'iii
Other Complaints
(Not Specified Above) (42)

rn

'>
:E u

,~;;
'·~r
•,

,~:::
1,~

.,_,
t·~

,;:;::

2,6

D A6107 Confession of Judgment (non-domestic relations)

2,9

D A6140 Administrative Agency Award (not unpaid taxes)

2, 8

D A6114 Petition/Certificate for Entry of Judgment on Unpaid Tax

2,8

D A6112 Other Enforcement of Judgment Case

2, 8, 9

D A6033 Racketeering (RICO) Case

1, 2, 8

D A6030 Declaratory Relief Only.

1, 2, 8

D A6040 Injunctive Re.lief Only (not domestic/harassment)

2,8

D A6011 Other Commercial Complaint Case (non-tort/non-complex)

1, 2, 8

i-

!!

:~

:E u

1, 2, 8
:'

!-

2,8

D A6121 Civil Harassment

2,3,9

D A6123 Workplace Harassment

2, 3, 9

D A6124 Elder/Dependent Adult Abuse Case

2,3,9

D A6190 Election Contest

2

I

D A6110 Petition for Change of Name/Change of Gender

I

2, 7

D A6170 Petition for Relief from Late Claim Law

'

2, 3, 8

i

D A6100 Other Civil Petition

2,9

E
ai

a; c..
u
rn

A6000 Other Civil Complaint (non-tort/non-complex)

D A6113 Partnership and Corporate Governance Case

"'::::,0 "'C:
C

2, 5, 11

D A6160 Ab~tract of Judgment

0

Partnership Corporation
Governance (21)

~

========================;:::======~.,

D A6141 Sister State Judgment

C.

"' E0
a;
u u

(.)

i

C:

E
E
Q)
C)

u

1, 2, 8

Securities Litigation (28)

Insurance Coverage Claims
from Complex Case (41)

ct

Q)

D A6006 Claims Involving Mass Tort

1, 2, 3

I
I------------+---------------------------+--------,,-

"'C:

C:

D A6007 Construction Defect

1------------+---------------------------+---------,,-

.2
en

rn

'

1----------------------------------+-------;l

!

Other Petitions (Not
Specified Above) (43)

I
'

i

I
f
!

f

i..~

......,
LACIV 109 (Rev 2/16)
LASC Approved 03-04

CIVIL CASE COVER SHEET ADDENDUM
AND STATEMENT OF LOCATION

Local Rule 2.3
Page 3 of 4

[
j

1

e

•

119a

IT !

~---------------'-------=----------,-----------------,,
CASE NUMBER
SHORTTITLE:
Daniel Marko, et al. v. DoorDash, Inc., et al.

Step 4:

Statement of Reason and Address: Check the appropriate boxes for the numbers shown under Column C for the j
type of action that you have selected. Enter the address which is the basis for the filing location, including zip code. :
(No address required for class action cases).
·
ADDRESS:

REASON:

111 N Hill St

0 1. D 2. D 3: D 4. D 5. 0 6. D 7. D 8. D 9. D 10. D 1i.
;
I

I

:I

CITY:

STAT~:

ZIP CODE:

Los Angeles

CA

90012

Step 5:

·f

I

Certification of Assignment: I certify that this case is properly filed in the Central
District of :
the Superior Court of California, County of Los Angeles [Code Civ. Proc., §392 et seq., and Local Rule 2.3{a)(l)(E)J.
'
t·
;·

Dated: 1 May 2017
(SIGNATURE OF ATTORNEY/FILING PARTY}

I

PLEASE HAVE THE FOLLOWING ITEMS COMPLETED AND READY TO BE FILED IN ORDER TO PRO PERL y
COMMENCE YOUR NEW COURT CASE:

1.

Orig in al Complaint or Petition.

2.

If filing a Complaint, a completed Summons form for issuance by the Clerk.

3.

Civil Case Cover Sheet, Judicial Council form CM-010.

4.

Civil Case Cover Sheet Addendum and Statement of Location form, LACIV 109, LASC Approved 03-04 (Rev.
02/16).
·

5.

Payment in full of the filing fee, unless there is court order for waiver,.partial or scheduled payments.

6.

A signed order appointing the Guardian ad Litem, Judicial Council form CIV-010, if the plaintiff or petitioner is a
minor under 18 years of age will be required by Court in order to issue a summons.

7.

Additional copies of documents to be conformed by the Clerk. Copies of the cover sheet and this addendum
must be served along with the summons and complaint, or other initiating pleading in the case.

I
I

:!

r

[
l

LACIV 109 (Rev 2/i 6)
LASC Approved 03-04

CIVIL CASE COVER SHEET ADDENDUM
AND STATEMENT OF LOCATION

Local Rule 2.3
Page 4 of 4

120a

EXHIBIT B

121a
Todd M. Friedman (SBN 216752)
Adrian R. Bacon (SBN 280332)
Law Offices of Todd M. Friedman, P.C.
21550 Oxnard St., Suite 780
Woodland Hills, CA 91367
Phone: 877-206-4741
Fax: 866-633-0228
tfriedman@toddflaw.com
abacon@toddflaw.com
Attorneys for Plaintiff,
DANIEL MARKO
SUPERIOR COURT OF CALIFORNIA
COUNTY OF LOS ANGELES
DANIEL MARKO, BROCK BAKER and
JESUS CORONA, individually and on
behalf of all others similarly situated,
vs.

Plaintiff,

DOORDASH, INC.; and DOES 1 to 50,
inclusive,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)

CASE NO.: BC659481
CLASS ACTION
FIRST AMENDED CLASS ACTION
COMPLAINT FOR DAMAGES
JURY DEMAND

Plaintiffs DANIEL MARKO, BROCKBAKER and JESUS CORONA (hereinafter
“Plaintiffs”), on behalf of themselves and all those similarly situated, alleges the following as and for
a complaint against Defendants DOORDASH, INC., a Delaware corporation that is headquartered in
California, and DOES 1 through 50 (hereinafter sometimes collectively referred to as “Defendants”).
Plaintiffs brings this Class Action against Defendants, and each of them, pursuant to California
Code of Civil Procedure § 382. All allegations in this Class Action Complaint (“Complaint”) are
based upon information and belief, except for those allegations which pertain to the Plaintiffs named
herein and his counsel. Plaintiffs’ information and beliefs are based upon, inter alia, the investigation
conducted to date by Plaintiffs and their counsel. Each allegation in this Complaint either has
evidentiary support or is likely to have evidentiary support after a reasonable opportunity for further
investigation and discovery.

122a
INTRODUCTION
1.

This action is within the Court’s jurisdiction pursuant to the provisions of California

Labor Code §§ 201-204, 226, 226.7, 510, 1194, 1194.2 and 1199, and California Business and
Professions Code §§ 17200, et seq.
2.

This Complaint challenges systemic illegal employment practices resulting in

violations of the California Labor Code, Business and Professions Code, and applicable Industrial
Welfare Commission (“IWC”) wage order against employees of Defendants.
3.

Plaintiffs are informed and believe and based thereon alleges that Defendants, jointly

and severally, have acted intentionally and with deliberate indifference and conscious disregard of the
rights of all employees in, among other things, failing to provide the statutorily required meal and rest
periods and failing to pay the statutorily required meal period and rest period premium wages when
not provided, failing to pay all minimum, regular and overtime wages due, failing to pay wages in a
timely fashion, including at the end of employment, mis-classifying employees so as to avoid payment
of wages, failing to indemnify employees for business expenses, and failing to keep statutorily
required payroll records.
4.

Plaintiffs are informed and believe and based thereon alleges that Defendants have

engaged in, among other things, a system of willful violations of the California Labor Code, Business
and Professions Code, and applicable IWC wage order, including, but not limited to, Labor Code §§
201-203, 221, 222.5, 223, 226.8, 226.3, 226.7, 400-410, 450, 510, 512, 1182, 1174, 1194, 1197,
1197.1, and 2802; California Code of Regulations, Title 8 §11090 section 7 & 11-12; California Wage
Order No. 1-2001 (8 Cal. Code Reg., § 11090); and Industrial Wage Commission Wage (hereinafter
“IWC”) Order No. 9. Specifically, Plaintiffs challenge Defendants’ acts of creating and maintaining
policies, practices and customs of: (1) classifying Dashers as independent contractors instead of
employees; (2) failing to reimburse Plaintiffs and the Class for reasonable business expenses; (3)
making deductions from Plaintiffs’ and the Class’ wages; (4) requiring Plaintiffs and the Class to pay
for pre-employment medical and physical examinations; (5) coercing or compelling Plaintiffs and the
Class to purchase things of value from Defendants; (6) failing to provide, authorize, permit and/or
make available meal and rest periods to Plaintiffs and the Class as required by California law; (7)

123a
denying Plaintiffs and the Class full compensation for all hours worked; (8) failing to pay Plaintiffs
and the Class minimum wage; (9) failing to pay Plaintiffs and the Class overtime and double time;
(10) failing to provide Plaintiffs and the Class with accurate, itemized wage statements; (11) failing to
timely pay Plaintiffs and the Class full wages upon termination or resignation; and (12) engaging in a
pattern or practice of willfully misclassifying employees as independent contractors. Plaintiffs seek
compensation, damages, penalties and interest to the full extent permitted by the Labor Code and IWC
Wage Orders.
5.

The policies, practices and customs of Defendants described above and below have

resulted in the unjust enrichment of Defendants and an unfair business advantage over businesses that
routinely adhere to the strictures of the California Labor Code and the Business and Professions Code.
JURISDICTION AND VENUE
6.

This Court has jurisdiction over the alleged violations of the California Labor Code

§§ 201-204, 226, 226.7, 510, 512, 1194, 1194.2, 1197.1, 1198 and 1199, and California Business and
Professions Code §§ 17200, et seq.
7.

This case is subject to the jurisdiction of this Court pursuant to California Labor Code,

California Business and Professions Code, California Code of Civil Procedure, and the California
Department of Industrial Relations. On information and belief, and at all times relevant, Defendants
operate and are doing business under the brand name of DOORDASH, INC. Defendants, and each of
them, do business throughout the State of California. Further, Defendants’ principle place of business
and corporate headquarters is in San Francisco, California.
8.

The unlawful acts alleged herein have a direct effect on Plaintiffs and other employees

similarly situated within the State of California. Plaintiffs and the Class Members have suffered
damages and will continue to suffer the same harm as the Representative Plaintiffs as a result of
Defendants’, and each Defendant’s, wrongful conduct unless the relief requested herein is granted.
PARTIES
9.

Plaintiffs are informed and believe and based thereon alleges that Defendant

DOORDASH, INC. is a Delaware corporation, which regularly does business throughout the State of
California. Further, Defendants’ principle place of business and corporate headquarters is in San

124a
Francisco California. Plaintiffs are informed and believe and thereon alleges that Defendants, at all
times herein mentioned, is and was doing business in the County of Los Angeles, State of California.
10.

Whenever in this Complaint reference is made to “DoorDash,” such allegations

collectively mean and refer to Defendants DOORDASH, INC., and its subsidiaries and divisions.
11.

Plaintiff DANIEL MARKO is, and at relevant times herein was, a resident of the

County of Los Angeles, California. Plaintiff is currently a Dasher (known as a “Dasher”) employed
by Defendants. Plaintiff was employed as an independent contractor Dasher, and worked throughout
Los Angeles County, California.
12.

Plaintiff BROCK BAKER is, and at relevant times herein was, a resident of the County

of Los Angeles, California. Plaintiff is currently a Dasher (known as a “Dasher”) employed by
Defendants. Plaintiff was employed as an independent contractor Dasher, and worked throughout Los
Angeles County, California.
13.

Plaintiff JESUS CORONA is, and at relevant times herein was, a resident of the County

of Los Angeles, California. Plaintiff is currently a Dasher (known as a “Dasher”) employed by
Defendants. Plaintiff was employed as an independent contractor Dasher, and worked throughout Los
Angeles County, California.
14.

Although Plaintiffs were classified as an independent contractor, and not classified as

an employee, Plaintiffs’ employment nonetheless was subject to substantial control by Defendants
over his wages, hours, and working conditions.
15.

Plaintiffs are informed and believe and based thereon alleges that at all times herein

mentioned Defendants are and were corporations, business entities, individuals, and partnerships,
licensed to do business and actually doing business in the State of California.
16.

Plaintiffs do not know the true names or capacities, whether individual, partner or

corporate, of the Defendants sued herein as DOES 1 through 50, inclusive, and for that reason, said
Defendants are sued under such fictitious names. Plaintiffs pray for leave to amend this Complaint
when the true names and capacities of said Doe Defendants become known to Plaintiffs. Plaintiffs are
informed and believe and thereon alleges that each of said fictitious Defendants were responsible in

125a
some way for the matters alleged herein, and proximately caused Plaintiffs, as well as members of the
Class and members of the general public, damages as more specifically identified below.
17.

At all times herein mentioned, each of said Defendants participated in the doing of the

acts hereinafter alleged to have been done by the named Defendants; and, furthermore, the Defendants,
and each of them, were the agents, servants and employees of each of the other Defendants, as well as
the agents of all Defendants, and at all times herein mentioned were acting within the course and scope
of said agency and employment.
18.

Plaintiffs are informed and believe and based thereon alleges that at all times material

hereto, each of the Defendants named herein was the agent, employee, alter ego and/or joint venturer
of, or working in concert with, each of the other co-Defendants and was acting within the course and
scope of such agency, employment, joint venture, or concerted activity. To the extent said acts,
conduct, and omissions were perpetrated by certain Defendants, each of the remaining Defendants
confirmed and ratified said acts, conduct, and omissions of the acting Defendants.
19.

At all times herein mentioned, Defendants, and each of them, were members of, and

engaged in, a joint venture, partnership and common enterprise, and acted within the course and scope
of, and in pursuance of, said joint venture, partnership and common enterprise.
20.

Plaintiffs are further informed and believe and based thereon alleges, at all times herein

material, each Defendants were completely dominated and controlled by its Co-Defendants, and each
was the alter ego of the other. Whenever and wherever reference is made in this Complaint to any
conduct by Defendants or Defendants, such allegations and references shall also be deemed to mean
the conduct of each of the Defendants, acting individually, jointly, and severally. Whenever and
wherever reference is made to individuals who are not named as Defendants in this Complaint, but
were employees and/or agents of Defendants, such individuals at all relevant times acted on behalf of
Defendants named in this Complaint within the scope of their respective employments.
21.

At all times herein mentioned, the acts and omissions of various Defendants, and each

of them, concurred and contributed to the various acts and omissions of each and all of the other
Defendants in proximately causing the injuries and damages as herein alleged. At all times herein
mentioned, Defendants, and each of them, ratified each and every act or omission complained of

126a
herein. At all times herein mentioned, the Defendants, and each of them, aided and abetted the acts
and omissions of each and all of the other Defendants in proximately causing the damages as herein
alleged.
FACTUAL ALLEGATIONS
22.

At all times herein mentioned, Class Members, including Plaintiffs, were employees of

Defendants in the State of California, and Defendants were and are employers employing persons in
the State of California. As such, Class Members, including Plaintiffs, were the type of persons
contemplated to be protected by the California Labor Code and the Wage Order, and said laws and
regulations were intended to apply to Defendants and to prevent the type of injury and damage herein.
23.

Plaintiffs are informed and believe and based thereon alleges that Defendants are and

were advised by skilled lawyers and other professionals, employees, and advisors with knowledge of
the requirements of California’s wage and hour laws.
24.

During the relevant time period of this action, Defendants have employed, and continue

to employ, Plaintiffs and other similarly situated individuals (“Dashers”) to provide delivery services
for its customers. Defendants’ entire business model is premised on outsourcing its core business
function onto Dashers as independent contractors, as a method of cutting costs in the delivery services
market, and thereby gain a competitive advantage.
25.

Defendants has devised an elaborate scheme to skirt the requirements under the

California Labor Code, by misclassifying its Dashers as independent contractors rather than
employees, denying them the benefits of employment, and shifting the vast majority of the cost of
doing business onto the employees who carry out the day to day customer service duties for
Defendants, in fulfillment of their core business function of food delivery.
26.

Defendants characterize its Dashers as independent contractors who merely utilize

Defendants’ logistics software to independently provide Delivery services to facilitate private
transactions between private vehicle drivers and food service patrons.

In fact, these Dashers are

subject to high levels of control by Defendants over their wages, hours, and working conditions, such
that the conditions of their employment are in fact dominated and controlled in every material aspect
by Defendants.

127a
27.

Defendants’ control over Plaintiffs’ and Class Members’ wages, hours, and working

conditions begins with Defendants’ requirement that each Dasher enter into a written agreement with
Defendants as to the terms of their employment. This agreement specifies that Dashers must adhere
to strict rules and regulations put in place at Defendants’ sole discretion.
28.

Defendants maintain sole discretion over the terms of the independent contractor

agreement, and require applicants to sign these agreements with no ability to negotiate the terms, but
rather as a condition of employment.
29.

The Agreements are drafted exclusively by Defendants and/or its legal counsel.

30.

The Agreement purports to classify Dashers as independent contractors so as to conceal

the true nature of the relationship between Defendants and their Dashers: that of employer and
employees.
31.

Defendants retain the right to terminate Dashers without notice if they fail to adhere to

any part of the Agreement. Defendants require Dashers to comply with their numerous policies and
procedures, or face possible termination
32.

Defendants maintain exclusive control over the rates of pay that Dashers will receive,

which is based on an hourly rate and other factors, determined at the sole discretion of Defendants.
Defendants reserve the right to make adjustments to their rates of pay, at any time, without notice to
Dashers directly impacting the wages earned by Plaintiffs and Class Members.
33.

Dashers are required to agree to Defendants’ pay schedule, which is subject to change,

in order to activate Defendants’ application on their Smartphone devices and accept fares from
Defendants’ customers.
34.

Defendants’ managers also supervise and oversee the work performed by Dashers, and

are in regular email and telephone communication with Dashers about Defendants’ policies and
procedures, and about the job duties of Dashers.
35.

Defendants perform background and DMV checks on prospective Dashers.

36.

Dashers must utilize Defendants’ Smartphone application in order to access

Defendants’ network of customers.

Defendants’ application place serious limitations and

128a
requirements on Dashers in how they are required to carry out their job duties. Having a Smartphone
is a condition of employment with Defendants as a Dashers.
37.

Defendant also monitors Dashers through use of the GPS devise in Dashers’

Smartphones, and by using Defendant’s application, which must be loaded onto Dashers’ devices as
a condition of their employment.
38.

Despite requiring a smartphone as a condition of employment, Defendants do not

indemnify Dashers for these business expenses.
39.

Defendants also require Dashers to utilize their personal vehicles for business purposes,

including to transport company marketing material between different zones throughout the city at the
benefit of the Defendants, yet fails to indemnify these business expenses. Defendants do not
compensate Dashers in any fashion for these services.
40.

Defendants require Valet to wear a company uniform, including a red Door Dash t-

shirt.
41.

Defendants require Dashers to utilize motor vehicles in order to expedite the Dasher

process, so that they can more quickly travel between a food pickup location, and the customer delivery
location, and Defendants allow Dashers to forego use of a motor vehicle and use a bicycle or walk
only in select “markets” determined entirely by Defendants.
42.

Furthermore, Defendants do not indemnify Dashers for any kind of damage sustained

by their motor vehicles. Moreover, Defendants require, as an express material condition of
employment, Dashers to have and maintain their own motor vehicle insurance for which Defendants
do not reimburse Dashers.
43.

Defendants determine where Dashers are required to work, when they are required to

work, and how they are required to work. Specifically, Defendants will set Dasher work schedules,
which instruct them where and when to work.
44.

Defendants require Dasher to log in to the attendant application on their smartphone

devices in order to start and end their shifts. Defendants maintain attendance records, and have the
ability to maintain accurate time records for all hours worked by Dashers.

129a
45.

Defendants secure Dashers contracts with an underlying $10 per hour wage. However,

Defendants fail to account for all time worked by Dashers, and fail to fully compensate Dashers for
all working time. Further, where Dashers work more than 40 hours in a week or 8 hours in a day,
Defendants fail to pay Dashers overtime wages, including by not paying for all compensable hours,
and by using an improper regular rate of pay for purposes of said calculations.
46.

Defendants provide Dashers with no meal or rest breaks, and do not provide Dashers

with any of the other benefits of employment.
47.

Defendant fails to provide breaks, provides them late, does not provide breaks that are

duty free, and otherwise provides non-compliant breaks, such that a compliant meal break is the
exception rather than the norm. Further, Defendant fails to maintain accurate time records regarding
meal breaks for Dashers.
48.

Defendants also require Plaintiffs and other Class Member Dashers to utilize their

cellular phones for business purposes, in order to perform and carry out their work duties, at
considerable personal expense.
49.

Defendants do not issue pay stubs of any kind to Plaintiffs and other Class Members.

Rather these employees are paid via direct deposit.
50.

Plaintiffs are informed and believe and based thereon alleges that Defendants know,

should know, knew or should have known that Class Members, including Plaintiffs, were entitled to
receive duty-free meal periods within the first five (5) hours of any shift of six (6) or more hours
worked, and that any failure to do so requires Defendants to pay Class Members one (1) hour of wages
per day for untimely, missed, or on-duty meal periods.
51.

Plaintiffs are informed and believe and based thereon allege that, during the Class

Period, Defendants had a consistent policy or practice of requiring Class Members, including
Plaintiffs, to continue working through meal periods, or were required to stay on the premises during
their meal periods, or were interrupted during their meal periods, or Defendants otherwise failing to
provide a duty-free meal period within the first five (5) hours of any shift of six (6) or more hours
worked.

130a
52.

Plaintiffs are informed and believe and based thereon alleges, during the Class Period,

Defendants had a consistent policy or practice of failing to compensate Class Members, including
Plaintiffs, for duty-free meal periods that were not provided within the first five (5) hours of any shift
of six (6) or more hours worked, and for on-duty meal periods.
53.

Plaintiffs are informed and believe and based thereon alleges that Defendants know,

should know, knew or should have known that Class Members, including Plaintiffs, were and are
entitled to one (1) ten (10) minute rest break for each shift of four (4) hours or more, and that any
failure to allow said breaks requires Defendants to pay Class Members, including Plaintiffs, one (1)
hour of wages per day for missed or on-duty rest breaks.
54.

Plaintiffs are informed and believe and based thereon alleges that during the Class

Period, Defendants had a consistent policy or practice of failing to provide to Class Members,
including Plaintiffs, one (1) ten (10) minute break for each shift of four (4) hours or more worked.
55.

Plaintiffs are informed and believe and based thereon alleges that, during the Class

Period, Defendants had a consistent policy or practice of failing to compensate Class Members,
including Plaintiffs, for missed rest breaks that were not provided within each four (4) hours of a shift.
56.

Plaintiffs are informed and believe and based thereon allege that, during the Class

Period, Defendants had a consistent policy or practice of failing to compensate Class Members,
including Plaintiffs, overtime pay for all overtime hours, and regular pay for any regular hours worked,
and at least minimum wage for all hours worked.
57.

Plaintiffs are informed and believe and based thereon alleges that, during the Class

Period, Defendants had a consistent policy or practice of failing to provide Class Members, including
Plaintiffs, with accurate wage statements reflecting the true number of hours worked due to
Defendants’ failure to provide lawful, timely, and duty-free meal and rest periods and failure to
document all hours worked.
CLASS ALLEGATIONS
58.

Plaintiffs bring this action individually, as well as on behalf of each and all other

persons similarly situated and, thus, seek class certification under California Code of Civil Procedure
§ 382.

131a
59.

All claims alleged herein arise under California law for which Plaintiffs seek relief

authorized by California law.
60.

Plaintiffs seek only class-wide injunctive relief, and do not seek monetary relief on

behalf of the Class.
61.

On April 6, 2017 in McGill v. Citibank, N.A., 2 Cal. 5th 945 (2017), the California

Supreme Court ruled that any contract that waives the statutory remedy of public injunctive relief
under the Unfair Competition Law, False Advertising Law, and Consumers Legal Remedies Act is
contrary to California public policy and thus unenforceable under California Law. Plaintiffs seek
injunctive relief under the Unfair Competition Law, Cal. Bus. & Prof. C. § 17200 et. seq., and various
provisions of the California Labor Code that have been violated due to Defendant’s misclassification
of Dashers as Independent Contractors. Plaintiffs seek to enjoin Defendant’s illegal collection
practices misclassifying its Dashers in California. The arbitration agreement Defendant seeks to
enforce explicitly waives the statutory remedy of public injunctive relief as it requires all claims to be
submitted to arbitration and bars the arbitrator from awarding relief on behalf of any person not named
party to the arbitration. Plaintiff alleges this provision of the agreement to be unenforceable, per the
instructions of the California Supreme Court in McGill.
62.

The “Class Period” is designated as the time from four years prior to the filing of this

Complaint, to the trial date, based upon the allegation that the violations of California’s wage and hour
laws, as described more fully below, have been ongoing for at least the four years prior to the filing of
this Complaint.
63.

Pursuant to California Code of Civil Procedure § 382, Plaintiffs bring this action on

behalf of the following class:
All persons who have been, or currently are, employed by Defendants and who
performed at least one delivery service in California for Defendants as an
independent contractor Dasher during the Class Period and who held, or hold, the
position of Dasher. This definition includes any and all prior job titles assigned to
this position during the Class Period (collectively, the “Class” or “Class
Members”). Excluded from the Class are all persons who were employed by

132a
Defendants as Managers, or in managerial or corporate positions equal, or superior,
to Managers, during the Class Period.
64.

The Class seeks declaratory and injunctive relief that Defendant has violated the Labor

Code, specifically with respect to owing Dashers unpaid wages for meal period and rest periods,
regular hours and overtime hours worked, penalties, equitable relief, interest, and reasonable
attorneys’ fees and costs, for failure to comply with applicable sections of the California Labor Code,
Industrial Welfare Commission Wage Order No. 7-2001 (“Wage Order”), California Business and
Professions Code §§ 17200, et seq., and California Code of Civil Procedure § 1021.5. The Class does
not seek damages,
65.

This action is also brought by Plaintiffs on behalf of a sub-class, as follows:
All Class Members whose employment ended at any time during the Class Period
(collectively, the “Former Employee Sub-Class” or “Former Employee Sub-Class
Members”).

66.

The Former Employee Sub-Class Members seek waiting time penalties of up to thirty

(30) days wages each, pursuant to California Labor Code § 203, due to Defendants’ failure to pay all
wages due and owing at the time of termination of the employment relationship.
67.

Under California Business and Professions Code §§ 17200, et seq. (“Unfair Practices

Act”), and pursuant to both the class action and representative action procedures provided for in these
statutes, Plaintiffs, on behalf of himself and the proposed Class Members, also seeks restitution of all
benefits Defendants have received from its unlawful actions as alleged herein.
68.

During Plaintiffs’ and Class Members’ employment with Defendants, Defendants did

not provide meal or rest periods in compliance with California law, and did not compensate Plaintiffs
and members of the Class for all regular hours worked, for all overtime hours worked, or for meal or
rest periods that did not comply with California law (including, but not limited to, missed meal and
rest periods). Plaintiffs and the Class Members he seeks to represent did not voluntarily or willfully
waive their meal or rest periods. Defendants maintained and implemented a course of conduct
requiring Plaintiffs and Class Members to involuntarily waive their meal or rest periods as a condition
of employment and failed to obtain uncoerced waivers.

133a
69.

During Plaintiffs’ and Class Members’ employment with Defendants, Defendants did

not reimburse Dashers for business expenses incurred in the course of their employment, in violation
of California Labor Code §§ 2800 et. seq.
70.

Defendants did not keep accurate records of the hours worked by Plaintiffs and

members of the Class, or of the amount of wages due to them. Plaintiffs were and is a victim of the
policies, practices and customs of Defendants complained of in this action in ways that have deprived
them of the rights guaranteed by California Labor Code §§ 201-204, 226, 226.7, 510, 512, 1194,
1194.2, 1197.1, 1198 and 1199, and California Business and Professions Code §§ 17200, et seq.
(Unfair Practices Act).
71.

As such, and based upon all the facts and circumstances incident to Defendants’

business in California, Defendants are subject to California Labor Code §§ 201-204, 226, 226.7, 227.3,
1194, 1194.2 and 2802, and California Business and Professions Code §§ 17200, et seq. (Unfair
Practices Act).
72.

This action is brought, and may properly be maintained, as a Class Action under

California Code of Civil Procedure § 382 because there is a well-defined community of interest in the
litigation and the proposed Class is easily ascertainable. This action satisfies the predominance,
typicality, numerosity, superiority, and adequacy requirements of these provisions.
73.

Numerosity: The members of the Class are so numerous that joinder of all members

would be impractical, if not impossible. The identity of the members of the Class is readily
ascertainable by review of Defendants’ records, including payroll records. Plaintiffs are informed and
believe and based thereon alleges that: (a) Class Members regularly were denied payment of all regular
and overtime wages due and denied payment of overtime wages at the proper rate of overtime pay; (b)
Class Members were not provided meal periods or rest periods in compliance with California Labor
Code §§ 226.7 and 512 and the applicable IWC wage order, and were not paid all meal period or rest
period premium wages for non-compliant periods; (c) Class Members were not reimbursed for
business expenses incurred in the course of their employment, in violation of California Labor Code
§§ 2800 et. seq.; (d) Class Members were not paid all wages in a timely fashion, including all wages
at the end of employment based on Defendants’ own records; and (e) Defendants did not maintain

134a
accurate records and provide accurate wage statements to Class Members, pursuant to California
Labor Code § 226. Based on information and belief, there are more than 100 persons who are
potentially Class Members.
74.

Adequacy of Representation: The named Plaintiffs are fully prepared to take all

necessary steps to represent fairly and adequately the interests of the Class defined above with whom
they have a well-defined community of interests and typicality of claims as demonstrated herein.
Plaintiffs’ attorneys are ready, willing and able to fully and adequately represent the Class and the
representative Plaintiffs. Plaintiffs’ attorneys have prosecuted and settled wage-and-hour class actions
in the past and currently have a number of wage-and-hour class actions pending in California courts.
Further, Plaintiffs’ counsel is competent and experienced in litigation class actions involving
California Business and Professions Code §§ 17200, et seq.
75.

Defendants uniformly administered corporate policies and practices that did not afford

Plaintiffs and Class Members proper meal and rest periods, as required by California Labor Code §§
226.7 and 512 and the applicable IWC wage order, that failed to pay all earned regular and overtime
wages, minimum wages, and all wages owed, and that uniformly paid their employees late wages.
Plaintiffs are informed and believe and based thereon alleges that this corporate conduct was
accomplished with the advance knowledge and designed intent to willfully withhold appropriate
wages for work performed by Class Members.
76.

Plaintiffs are informed and believe and based thereon alleges that Defendants, in

violation of California Labor Code §§ 201 through 203, had a consistent and uniform policy,
procedure and practice of willfully failing to pay Plaintiffs and Sub-Class Members all wages due
them upon termination. Plaintiffs and other Sub-Class Members did not secret or absent themselves
from Defendants, nor refuse to accept the earned and unpaid wages from Defendants upon termination.
Accordingly, Defendants are liable for waiting time compensation for the unpaid wages to the SubClass Members pursuant to California Labor Code § 203.
77.

In addition, Defendants uniformly administered a corporate policy, procedure and

practice of not maintaining accurate records, and failing to provide true and accurate wage statements,
as required by California Labor Code § 226.

135a
78.

Plaintiffs are informed and believe and based thereon alleges that the foregoing

corporate conduct was accomplished with the advance knowledge and designed intent to willfully and
intentionally fail to accurately record proper rates of pay, hours worked, net wages, and deductions.
79.

As a pattern and practice and matter of corporate policy, in violation of the

aforementioned labor laws, Defendants committed unfair practices based on the claims alleged in the
preceding paragraphs.
80.

Common Question of Law and Fact: There are predominant common questions of

law and fact and a community of interest among Plaintiffs and the Class Members concerning whether:
a) Class Members are independent contractors or employees under applicable law;
b) Defendants have the right to control the manner and means by which the Dashers perform
their work;
c) Defendants direct and/or supervise the work that the Dashers perform;
d) Defendants’ policy manuals and handbooks instruct the Dashers on how to conduct
themselves and perform their work;
e) The Dashers use and receive forms and materials provided by Defendants;
f) The Dashers attend meetings or training conducted by Defendants regarding their work
assignments and performance;
g) Defendants assign the Dashers schedules and routes;
h) Defendants exercise control, directly or indirectly, over Class Members’ work hours;
i) Defendants exercise control, directly or indirectly, over Class Members’ working
conditions;
j) Defendants exercise control, directly or indirectly, over the kinds equipment the Dashers
use;
k) Dashers wear uniforms as specified by Defendants;
l) Defendants’ logos and/or names are affixed on the Dashers’ uniforms;
m) Dashers need special training, skills or education to perform their work;
n) Defendants supply tools and equipment to the Dashers;
o) The Dasher work is part of the regular business of Defendants;

136a
p) The method by which Defendants pay the Dashers;
q) The Dasher tenure with the company is indefinite and/or whether the contracts signed by
the Dasher contain automatic renewal clauses and can be terminated by either party;
r) Defendants have the authority to discipline and/or terminate a Dasher;
s) The Class Members are entitled to be reimbursed for Defendants’ business expenses and
deductions;
t) Defendants failed to provide Plaintiffs and the Class Members with meal and rest periods
in compliance with California law;
u) Defendants failed to pay Plaintiffs and the Class Members statutory meal and rest period
premium wages for non-compliant meal and rest periods;
v) Plaintiffs and the Class Members regularly were denied payment of all overtime wages due
for overtime hours worked;
w) Plaintiffs and the Class Members regularly were denied payment of all regular wages due
for regular hours worked;
x) Plaintiffs and the Class Members regularly were denied payment of at least minimum wage
for all hours worked;
y) Defendants failed to pay all wages due in a timely fashion under California law;
z) Waiting time penalties are owed to Plaintiffs and the Class Members;
aa) Defendants failed to maintain accurate records of hours worked by Plaintiffs and the Class
Members, and failed to provide accurate wage statements that comply with California
Labor Code § 226; and
bb) Defendants’ employment practices towards Plaintiffs and Class Members constitute unfair
business practices pursuant to California Business and Professions Code §§ 17200, et seq.
81.

Typicality: The claims of Plaintiffs are typical of the claims of all members of the

Class. Plaintiff are members of the Class and have suffered harm as a result of the violations of the
Wage Order and California Labor Code alleged herein, including but not limited to California Labor
Code §§ 201-204, 226, 226.7, 227.3, 1194, 1194.2 and 2802.

137a
82.

The Wage Order and the California Labor Code upon which Plaintiffs base these claims

contain provisions that are broadly remedial in nature. These laws and labor standards serve an
important public interest in establishing minimum working conditions and standards in California.
These laws and labor standards protect the average working employee from exploitation by employers
who may seek to take advantage of superior economic and bargaining power by establishing onerous
terms and conditions of employment.
83.

The nature of this action and the format of laws available to Plaintiffs and members of

the Class identified herein make the Class Action format a particularly efficient and appropriate
procedure to redress the wrongs alleged herein. If each employee were required to file an individual
lawsuit, the corporate Defendants would necessarily gain an unconscionable advantage since they
would be able to exploit and overwhelm the limited resources of each individual Plaintiffs with their
vastly superior financial and legal resources. Requiring each Class Member to pursue an individual
remedy would also discourage the assertion of lawful claims by current employees for fear of
retaliation, and even by former employees, for fear of retaliation within the industry.
84.

The prosecution of separate actions by the individual Class Members, even if possible,

would create a substantial risk of (a) inconsistent or varying adjudications with respect to individual
Class Members against the Defendants, which would establish potentially incompatible standards of
conduct for the Defendants, and/or (b) adjudications with respect to individual Class Members which
would, as a practical matter, be dispositive of the interests of the other Class Members not parties to
the adjudications, or which would substantially impair or impede the ability of the Class Members to
protect their interests. Further, the claims of the individual members of the Class are not sufficiently
large to warrant vigorous individual prosecution considering all of the concomitant costs and expenses.
85.

Such a pattern, practice and uniform administration of corporate policy regarding

illegal employee compensation described herein is unlawful and creates an entitlement to recovery by
the Plaintiffs and the Class identified herein, in a civil action, for the unpaid balance of the full amount
of unpaid wages, overtime and vacation wages, including interest thereon, applicable penalties,
reasonable attorney’s fees, and costs of suit according to the mandate of California Labor Code §§

138a
218.6, 226, 226.7, 227.3, & 1194, 1194.2 and 2802, California Code of Civil Procedure § 1021.5, and
applicable IWC wage order.
86.

Proof of a common business practice or factual pattern, which the named Plaintiffs

experienced and is representative of, will establish the right of each of the Class Members to recovery
on the causes of action alleged herein.
87.

The Class Members are commonly entitled to a specific fund with respect to the

compensation illegally and unfairly retained by Defendants. The Class Members are commonly
entitled to restitution of those funds being improperly withheld by Defendants. This action is brought
for the benefit of the entire Class and will result in the creation of a common fund.
FIRST CAUSE OF ACTION
Unpaid Overtime Wages
(California Labor Code §§ 510, 1194 and 1198,
and Industrial Welfare Commission Wage Order No. 9)
-By Plaintiffs and Class Members Against All Defendants88.

Plaintiffs re-allege and incorporates herein by reference each and every allegation

contained in the preceding paragraphs of this Complaint as though fully set forth herein.
89.

This action is brought, in part, pursuant to the Wage Order and California Labor Code

§§ 510, 1194 and 1198. Under the Wage Order and California Labor Code § 510, Defendants were
required to compensate Plaintiffs and all Class Members for all overtime, calculated at one and onehalf (1-½) times the regular rate of pay for hours worked in excess of eight (8) hours per day and/or
forty (40) hours per week, two (2) times the regular rate of pay for hours worked in excess of twelve
(12) hours per day, and two (2) times the regular rate of pay for hours worked in excess of eight (8)
hours on the seventh (7th) day of work.
90.

While employed by Defendants, Plaintiffs and the Class Members were required to

work more than eight (8) hours in a day or forty (40) hours in a week. Regardless of the number of
actual hours worked, and even though Plaintiffs and all Class Members are not exempt from California
overtime laws, Plaintiffs and all Class Members were not and are not afforded overtime compensation
for any hours in excess of eight (8) hours in a workday and/or forty (40) hours per week. By failing

139a
to compensate Plaintiffs and all Class Members for the hours actually worked, Defendants have failed
and continue to fail to pay the overtime compensation owed to Plaintiffs and all Class Members
pursuant to the Wage Order and the California Labor Code.
91.

Plaintiffs are informed and believe and based thereon alleges that Defendants’ policy

and practice of requiring overtime work and not paying for said work according to the overtime
mandates of California law is, and at all times herein mentioned was, in violation of California Labor
Code § 1194, applicable regulations, and the Wage Order. Defendants’ employment policies and
practices wrongfully and illegally failed to compensate Plaintiffs and Class Members for overtime
compensation earned as required by California law.
92.

The conduct of Defendants and their agents and employees as described herein was

willful and intentional and part of a corporate policy, procedure and practice. Furthermore, Defendants
willfully failed to pay Plaintiffs and Class Members proper compensation for all overtime hours
worked at the appropriate rate of overtime pay.
93.

Plaintiffs are informed and believe and based thereon alleges that Defendants’ willful

failure to provide all overtime wages due and owing them upon separation from employment results
in a continued payment of wages up to thirty (30) days from the time the wages were due. Therefore,
Plaintiffs and other members of the Class who have separated from employment are entitled to
compensation pursuant to California Labor Code § 203.
94.

Such a pattern, practice and uniform administration of unlawful corporate policy

regarding employee compensation as described herein creates an entitlement to recovery by Plaintiffs
and each Class Member for damages and wages owed, and for penalties, interest, costs and attorney’s
fees, in an amount to be proven at time of trial.
SECOND CAUSE OF ACTION
Failure to Pay All Regular Wages
(California Labor Code § 204)
-By Plaintiffs and Class Members Against All Defendants95.

Plaintiffs re-allege and incorporates herein by reference each and every allegation

contained in the preceding paragraphs of this Complaint as though fully set forth herein.

140a
96.

At all times relevant herein, Defendants were required, by California Labor Code

§ 204, to compensate Plaintiffs and Class Members correct and proper regular wages for all regular
hours worked.
97.

As a pattern and practice, Defendants regularly required Plaintiffs and Class Members

to work more than eight (8) hours in a day, and forty (40) hours in a week; and required Plaintiffs and
Class Members to work through meal and rest breaks. Regardless of the number of hours worked,
Plaintiffs and Class Members received the same pay, without payment of wages for all hours actually
worked.
98.

As a pattern and practice, Defendants regularly failed to pay Plaintiffs and Class

Members the proper wages for all hours worked
99.

Plaintiffs are informed and believe and based thereon alleges that Defendants willfully

failed to pay Plaintiffs and Class Members all regular wages for all hours worked. Plaintiffs are
informed and believe and based thereon alleges that Defendants’ willful failure to provide all regular
wages due and owing upon separation from employment results in a continued payment of wages up
to thirty (30) days from the time the wages were due. Therefore, Plaintiffs and Sub-Class Members
are entitled to compensation pursuant to California Labor Code § 203.
100.

Such a pattern, practice and uniform administration of unlawful corporate policy

regarding employee compensation as described herein creates an entitlement to recovery by Plaintiffs,
Class Members and Sub-Class Members for damages and wages owed, and for penalties, interest,
costs and attorney’s fees.
THIRD CAUSE OF ACTION
Failure to Pay Minimum Wages
(California Labor Code § 1194, 11.942 and 1197.1)
-By Plaintiffs and Class Members Against All Defendants101.

Plaintiffs re-allege and incorporates herein by reference each and every allegation

contained in the preceding paragraphs of this Complaint as though fully set forth herein.

141a
102.

This cause of action is brought pursuant to California Labor Code § 1194, which

provides that non-exempt employees are entitled to the statutory hourly minimum wage for work
performed.
103.

At all times relevant herein, Defendants were required to compensate Plaintiffs and

Class Members at least the statutorily mandated minimum wage for all regular hours worked.
104.

As a pattern and practice, Defendants regularly required Plaintiffs and Class Members

to work without recording the time worked in any capacity, due to the misclassification of Dashers as
independent contractors.
105.

As a result, Defendants regularly failed to pay Plaintiffs and Class Members the

statutorily required minimum wage for all hours worked.
106.

Defendants’ conduct as alleged herein is in violation of California Labor Code § 1194

and the Wage Order. Defendants’ employment policies and practices wrongfully and illegally failed
to compensate Plaintiffs and Class Members for all hours worked at minimum wages as required by
California law.
107.

Plaintiffs are informed and believe and based thereon alleges that Defendants willfully

failed to pay Plaintiffs and Class Members minimum wages for all hours worked. Plaintiffs are
informed and believe and based thereon alleges that Defendants’ willful failure to provide wages due
and owing upon separation from employment results in a continued payment of wages up to thirty (30)
days from the time the wages were due. Therefore, Plaintiffs and Sub-Class Members who have
separated from employment are entitled to compensation pursuant to California Labor Code § 203.
108.

Such a pattern, practice and uniform administration of unlawful corporate policy

regarding employee compensation as described herein creates an entitlement to recovery by Plaintiffs,
Class Members and Sub-Class Members for damages and wages owed, and for liquidated damages,
penalties, interest, costs and attorney’s fees.
///
///
///
///

142a
FOURTH CAUSE OF ACTION
Failure to Pay All Regular Wages
(California Labor Code §§ 1197.1 and 1199, and the Wage Order)
-By Plaintiffs and Class Members Against All Defendants109.

Plaintiffs re-allege and incorporates herein by reference each and every allegation

contained in the preceding paragraphs of this Complaint as though fully set forth herein.
110.

At all times relevant herein, Defendants were required by California Labor Code

§§ 1197.1 and 1199 and the Wage Order to compensate Plaintiffs and Class Members correct and
proper wages for all hours worked.
111.

As a pattern and practice, Defendants regularly failed to pay Plaintiffs and Class

Members for all hours worked in excess of eight (8) hours in one day or forty (40) hours in a week.
112.

Plaintiffs are informed and believe and based thereon alleges that Defendants willfully

failed to pay Plaintiffs and Class Members wages for all hours worked. Plaintiffs are informed and
believe and based thereon alleges that Defendants’ willful failure to provide all wages due and owing
upon separation from employment results in a continued payment of wages up to thirty (30) days from
the time the wages were due.

Therefore, Plaintiffs and Sub-Class Members are entitled to

compensation pursuant to California Labor Code § 203.
113.

Such a pattern, practice and uniform administration of unlawful corporate policy

regarding employee compensation as described herein creates an entitlement to recovery by Plaintiffs,
Class Members and Sub-Class Members for damages and wages owed, and for penalties, interest,
costs and attorney’s fees, in an amount according to proof.
FIFTH CAUSE OF ACTION
Failure to Allow or Pay for Meal Periods
(California Labor Code §§ 226.7 and 512)
-By Plaintiffs and Class Members Against All Defendants114.

Plaintiffs re-allege and incorporates herein by reference each and every allegation

contained in the preceding paragraphs of this Complaint as though fully set forth herein.

143a
115.

At all times relevant herein, Defendants were required to provide Plaintiffs and Class

Members with meal periods that comply with the California Labor Code and applicable regulations
and the Wage Order, including California Labor Code §§ 226.7 and 512.
116.

Consistent with Defendants’ corporate policy, practice and pattern, Defendants

regularly failed to provide, and in fact denied, Plaintiffs’ and Class Members’ statutorily compliant
meal periods.
117.

Consistent with Defendants’ policy, practice and pattern, Defendants regularly failed

to provide any breaks to Dashers, allow Plaintiffs and Class Members to take or timely take
uninterrupted, duty-free meal periods. As a pattern and practice, Defendants regularly failed to
accurately record meal periods.
118.

Plaintiffs are informed and believe and based thereon alleges that Defendants willfully

failed to pay Plaintiffs and Class Members proper meal period premium wages for all non-compliant
or missed meal periods. Plaintiffs re informed and believe and based thereon alleges that Defendants’
willful failure to provide all such meal period wages due and owing to Sub-Class Members upon
separation from employment results in a continued payment of wages up to thirty (30) days from the
time the wages were due. Therefore, Sub-Class Members are entitled to compensation pursuant to
California Labor Code § 203.
119.

Such a pattern, practice and uniform administration of unlawful corporate policy

regarding employee compensation as described herein creates an entitlement to recovery by Plaintiffs,
Class Members and Sub-Class Members for damages and wages owed, and for penalties, interest,
costs and attorney’s fees.
120.

Accordingly, Plaintiffs and all members of the Class are entitled to one (1) hour of

compensation at their regular hourly rate for each workday that the proper meal periods were not
provided and one (1) hour of compensation at their regular hourly rate for each workday that the proper
meal periods were not provided in penalty wages pursuant to California Labor Code § 226.7 and the
Wage Order.
121.

Plaintiffs and Class Members are further entitled to civil penalties under California

Labor Code § 558 as follows: For the initial violation, Fifty Dollars ($50.00) for each pay period for

144a
which the employee was underpaid, in addition to any amount sufficient to recover underpaid wages;
and, for each subsequent violation, One Hundred Dollars ($100.00) for each pay period for which the
employee was underpaid, in addition to any amount sufficient to recover underpaid wages.
SIXTH CAUSE OF ACTION
Failure to Allow or Pay For Rest Periods
(California Labor Code §226.7)
-By Plaintiffs and Class Members Against All Defendants122.

Plaintiffs re-allege and incorporates herein by reference each and every allegation

contained in the preceding paragraphs of this Complaint as though fully set forth herein.
123.

At all times relevant herein, Defendants were required to provide Plaintiffs and Class

Members with rest periods that comply with the California Labor Code and applicable regulations and
IWC wage order, including California Labor Code § 226.7.
124.

Consistent with Defendants’ corporate policy, practice and pattern, Defendants

regularly failed to provide, and in fact denied, Plaintiffs and Class Members statutorily compliant rest
periods.
125.

Consistent with Defendants’ corporate policy, practice and pattern, Defendants failed

to provide or allow Plaintiffs and Class Members to take or timely take mandated rest periods due to
their misclassification as independent contractors.
126.

Plaintiffs are informed and believe and based thereon allege that Defendants willfully

failed to pay Plaintiffs and Class Members proper rest period premium wages for all non-compliant or
missed rest periods. Plaintiffs are informed and believe and based thereon alleges that Defendants’
willful failure to provide all such rest period wages due and owing upon separation from employment
results in a continued payment of wages up to thirty (30) days from the time the wages were due.
Therefore, members of the Sub-Class who have separated from employment are entitled to
compensation pursuant to California Labor Code § 203.
127.

Such a pattern, practice and uniform administration of unlawful corporate policy

regarding employee compensation as described herein creates an entitlement to recovery by Plaintiffs,

145a
Class Members and Sub-Class Members for damages and wages owed, and for penalties, interest,
costs and attorney’s fees.
128.

Plaintiffs and all members of the Class were regularly scheduled as a matter of uniform

company policy to work, and in fact worked, without rest breaks in violation of California Labor Code
§§ 226.7 and 512 and the Wage Order, in that they are not and were not permitted to take one (1) ten
(10) minute rest break for every four (4) hours worked.
129.

Accordingly, Plaintiffs and all members of the Class are entitled to one (1) hour of

compensation at their regular hourly rate for each workday that the proper rest periods were not
provided and one (1) hour of compensation at their regular hourly rate for each workday that the proper
rest periods were not provided in penalty wages pursuant to California Labor Code § 226.7 and the
Wage Order.
130.

Plaintiffs and Class Members are further entitled to civil penalties under California

Labor Code § 558 as follows: For the initial violation, Fifty Dollars ($50.00) for each pay period for
which the employee was underpaid, in addition to any amount sufficient to recover underpaid wages;
and, for each subsequent violation, One Hundred Dollars ($100.00) for each pay period for which the
employee was underpaid, in addition to any amount sufficient to recover.
SEVENTH CAUSE OF ACTION
Waiting Time Penalties
(California Labor Code §§ 201-203)
-By Plaintiffs and Sub-Class Members Against All Defendants131.

Plaintiffs re-alleges and incorporates herein by reference each and every allegation

contained in the preceding paragraphs of this Complaint as though fully set forth herein.
132.

At all times relevant herein, Defendants were required to pay their employees all wages

owed in a timely fashion during and at the end of their employment, pursuant to California Labor
Code §§ 201 through 203.
133.

As a pattern and practice, Defendants regularly failed to pay Plaintiffs and Sub-Class

Members their final wages pursuant to California Labor Code §§ 201 through 203, and accordingly
owe waiting time penalties pursuant to California Labor Code § 203.

146a
134.

The conduct of Defendants and their agents and managerial employees as described

herein was willful, and in violation of the rights of Plaintiffs and the Sub-Class Members.
135.

Plaintiffs are informed and believe and based thereon alleges that Defendants’ willful

failure to pay wages due and owing to Sub-Class Members upon separation from employment results
in a continued payment of wages up to thirty (30) days from the time the wages were due. Therefore,
Sub-Class Members are entitled to compensation pursuant to California Labor Code § 203.
EIGHTH CAUSE OF ACTION
Failure to Provide Accurate Itemized Wage Statements
(California Labor Code § 226(a))
-By Plaintiffs and Class Members Against All Defendants136.

Plaintiffs re-alleges and incorporates herein by reference each and every allegation

contained in the preceding paragraphs of this Complaint as though fully set forth herein.
137.

At all times relevant hereto, California Labor Code § 226(a) provides, and provided,

that every employer shall furnish each of its employees an accurate itemized wage statement in writing
showing nine (9) pieces of information, including: (1) gross wages earned, (2) total hours worked by
the employee, (3) the number of piece-rate units earned and any applicable piece rate if the employee
is paid on a piece-rate basis, (4) all deductions, provided that all deductions made on written orders of
the employee may be aggregated and shown as one item, (5) net wages earned, (6) the inclusive dates
of the period for which the employee is paid, (7) the name of the employee and the last four digits of
his or her social security number or an employee identification number other than a social security
number, (8) the name and address of the legal entity that is the employer, and (9) all applicable hourly
rates in effect during the pay period and the corresponding number of hours worked at each hourly
rate by the employee.
138.

Defendants failed and continue to fail in their affirmative obligation to keep accurate

payroll records reflecting the actual hours worked, and the amount of compensation due to their
California employees. Defendants, as a matter of policy and practice, did not maintain accurate records
in violation of California Labor Code § 226.

147a
139.

For example, as a matter of policy and practice, among the violations of California

Labor Code § 226, Defendants failed to keep accurate records reflecting total number of hours worked,
rates of pay, rates of overtime pay (as a result of Defendants’ failure to record proper overtime hours
worked, and to properly calculate the overtime rate of pay), and daily or weekly overtime pay. As a
result, Defendants failed to provide true and accurate wage statements to Plaintiffs and Class
Members, as required by California Labor Code § 226.
140.

Such a pattern, practice and uniform administration of corporate policy as described

herein is unlawful and creates an entitlement to recovery by Plaintiffs and the Class Members in a civil
action for all damages and/or penalties pursuant to California Labor Code § 226, including interest
thereon, penalties, reasonable attorney’s fees, and costs of suit according to the mandate of California
Labor Code § 226, in amount according to proof.
141.

Class Members, including Plaintiffs, are entitled to recover from Defendants the greater

of their actual damages caused by Defendants’ failure to comply with California Labor Code § 226(a),
or an aggregate penalty not exceeding Four Thousand Dollars ($4,000.00) per employee.
NINTH CAUSE OF ACTION
Failure to Reimburse Business Expenses
(California Labor Code § 2800, and 2802)
-By Plaintiffs and Class Members Against All Defendants142.

Plaintiffs re-alleges and incorporates herein by reference each and every allegation

contained in the preceding paragraphs of this Complaint as though fully set forth herein.
143.

While acting on the direct instruction of Defendants and discharging his duties for

them, Plaintiffs and putative class members incurred work-related expenses.
144.

Such expenses include but are not limited to the costs associated with travel, including

fuel, maintenance, vehicle depreciation, and others, as well as the cost of maintaining a personal cell
phone for purposes of using for Defendants’ business. Plaintiffs necessarily incurred these substantial
expenses and losses as a direct result of performing their job duties for Defendants.
145.

Defendants have failed to indemnify or in any manner reimburse Plaintiffs for these

expenditures and losses. By requiring Plaintiffs to pay expenses and cover losses that he incurred in

148a
direct consequence of the discharge of his duties for Defendants and/or in obedience to Defendants’
direction, Defendants have violated Cal. Labor Code § 2802
146.

As a direct and proximate result of Defendants’ conduct, Plaintiffs have suffered

substantial losses according to proof, as well as pre-judgment interest, costs, and attorney fees for the
prosecution of this action.
147.

The conduct of Defendants and their agents and managerial employees as described

herein was willful, and in violation of the rights of Plaintiffs and the Sub-Class Members.
148.

Plaintiffs request relief as described below.
TENTH CAUSE OF ACTION
Willful Misclassification of Individual as Independent Contractor
(California Labor Code § 226.8)
-By Plaintiffs and Class Members Against All Defendants-

149.

Plaintiffs re-allege and incorporates herein by reference each and every allegation

contained in the preceding paragraphs of this Complaint as though fully set forth herein.
150.

Defendants intentionally and willfully characterized Plaintiffs and members of the

Class as independent contractors rather than employees in violation of Labor Code §226.8.
151.

Defendants have been engaging in a pattern and practice of misclassifying employees

as independent contractors for their own financial benefit.
152.

As a direct and proximate result of the unlawful acts and/or omissions of Defendants,

Plaintiffs and Class Members are entitled to recover damages in an amount to be determined at trial,
civil penalties, plus interest thereon, and attorneys’ fees, and costs of suit pursuant to Labor Code §
226.8.
153.

Defendants have engaged in or are engaging in a pattern or practice of misclassifying

the Dashers, and Plaintiffs seek recovery for civil penalties of not less than ten thousand dollars
($10,000) and not more than twenty-five thousand dollars ($25,000) for each violation, in addition to
any other penalties or fines permitted by law.
154.

Plaintiffs reallege and incorporates herein by reference each and every allegation

contained in the preceding paragraphs of this Complaint as though fully set forth herein.

149a
ELEVENTH CAUSE OF ACTION
Unfair Business Practices
(California Business and Professions Code §§ 17200, et seq.)
-By Plaintiffs and Class Members Against All Defendants155.

Plaintiffs re-allege and incorporates herein by reference each and every allegation

contained in the preceding paragraphs of this Complaint as though fully set forth herein.
156.

Defendants, and each of them, have engaged in unfair business practices in California

by practicing, employing and utilizing the employment practices outlined above, including but not
limited to, requiring Class Members to perform the labor complained of herein without overtime
compensation, regular compensation or minimum wage for all hours worked, failing to provide meal
and rest breaks, failing to reimburse/indemnify business expenses, and failing to provide itemized
wage statements.

Defendants’ utilization of such unfair business practices constitutes unfair

competition and provides an unfair advantage over Defendants’ competitors.
157.

Plaintiffs and the Class Members, and other similarly situated members of the general

public, seek full restitution and disgorgement of monies, as necessary and according to proof, to restore
any and all monies withheld, acquired and/or converted by the Defendants by means of the unfair
practices complained of herein. Plaintiffs seek, on their own behalf and on behalf of the Class Members
and general public, the appointment of a receiver, as necessary. The acts complained of herein
occurred, at least in part, within the last four (4) years preceding the filing of the original complaint in
this action.
158.

Plaintiffs are informed and believe and on that basis alleges that, at all times herein

mentioned, Defendants have engaged in unlawful, deceptive and unfair business practices, as
proscribed by California Business and Professions Code §§ 17200, et seq., as set forth above, thereby
depriving Plaintiffs, Class Members, and other members of the general public the minimum working
condition standards and conditions due to them under the California labor laws and the Wage Order
as specifically described herein.

150a
159.

Plaintiffs, Class Members, and all persons similarly situated, are further entitled to and

do seek a declaration that the above-described business practices are unfair, unlawful and/or
fraudulent.
TWELFTH CAUSE OF ACTION
REMEDIES UNDER CALIFORNIA PRIVATE ATTORNEYS GENERAL ACT OF 2004
(CALIFORNIA LABOR CODE §§ 2698, et seq.)
Plaintiffs Individually and on Behalf of the Class Against Defendants
160.

Plaintiff incorporate all preceding paragraphs as though fully set forth herein.

161.

Under Labor Code § 2699, any employee aggrieved by an employer’s violation of the

Labor Code has the right to file an action on behalf of all aggrieved employees for the penalties
established by § 2699 and/or other Labor Code sections.
162.

The aforementioned wrongful acts and omissions of Defendants were violations of the

Labor Code, as set forth herein. Plaintiff is an employee who was aggrieved by Defendants’ violations
of the aforementioned Labor Code provisions.
163.

Plaintiff claims herein all penalties permitted by the Private Attorneys General Act of

2004 (PAGA), Labor Code § 2698, et seq., and have complied with the procedures for bringing suit
specified by Labor Code § 2699.3. By letter dated May 1, 2017, Plaintiffs gave written notice by
certified mail to the Labor and Workforce Development Agency (“LWDA”), and Defendants, of the
specific provisions of the Labor Code alleged to have been violated, including the facts and theories
to support the alleged violations. At least 60 days have elapsed since the notice to the LWDA and no
action has been taken by the LWDA.
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs pray for judgment for themselves and all others on whose behalf this
suit is brought against Defendants, jointly and severally, as follows:
a) That the Court determine that this action may be maintained as a class action under Code of
Civil Procedure § 382;
b) That the Plaintiffs be appointed as the representatives of the Class;

151a
c) That counsel for Plaintiffs be appointed as Class Counsel;
d) That the Court find that Defendants have been in violation of applicable provisions of the
California Labor Code by failing to pay each member of the proposed Classes for all hours
worked, including minimum wage;
e) That the Court find that Defendants have been in violation of applicable provisions of the
California Labor Code §§510, 1194 et seq., and IWC Wage Order by failing to pay overtime
wages to Plaintiffs and members of the Class;
f) That the Court find that Defendants have been in violation of California Labor Code §§226.7
and 512 by failing to provide Plaintiffs and members of the Class with meal periods and
therefore owe compensation under California Labor Code §226.7(b);
g) That the Court find that Defendants have been in violation of California Labor Code §§226.7
by failing to authorize and permit rest periods for Plaintiffs and members of the Class, and
therefore owe compensation under California Labor Code §226.7(b);
h) That the Court find that Defendants have been in violation of California Labor Code § 2802,
by failing to reimburse the Plaintiffs and the Class reasonable business expenses and losses;
i) That the Court find that Defendants have violated the recordkeeping provisions of California
Labor Code §§ 1174 and 1174.5 as to Plaintiffs and the Class;
j) That the Court find that Defendants have been in violation of California Labor Code § 226
by failing to timely furnish Plaintiffs and members of the Class with itemized statements
accurately showing the total hours worked, vacation benefits, bonus benefits, and wages earned
by each of them during each pay period;
l) That the Court find that Defendants have been in violation of California Labor Code §§201
and 202 and therefore owe waiting time penalties under California Labor Code §203 for willful
failure to pay all compensation owed at the time of termination of employment to Plaintiffs and
other formerly employed members of the Class;
m) That the Court find that Defendants have been in violation of California Labor Code §226.8
and therefore owe civil penalties under California Labor Code §226.8 and all damages

152a
proximately caused by Defendants’ wrongful conduct of engaging in a pattern or practice of
willfully misclassifying Dasher as independent contractors;
n) That the Court find that Defendants have committed unfair and unlawful business practices,
in violation of California Business and Professions Code §17200, et seq., by their violations of
the Labor Code and Wage Orders as described above;
o) That the Court find that Defendants’ violations of the California Labor Code described herein
have been willful;
p) That the Court award to Plaintiffs individually restitution for the reasonable business
expenses and deductions incurred by Dashers, including interest thereon, liquidated damages
and/or statutory penalties and other statutory penalties in amounts subject to proof at trial;
q) That the Court award to Plaintiffs individually restitution for the amounts of unpaid wages,
including interest thereon, liquidated damages and/or statutory penalties for failure to timely
furnish accurate itemized wage statements, and waiting time and other statutory penalties in
amounts subject to proof at trial;
r) That Defendants be ordered and enjoined to reclassify its Dashers as employees, including
reclassifying Plaintiffs and the proposed Class Members, due to Defendants’ unlawful and/or
unfair activities, pursuant to Business and Professions Code §§17200-17205;
s) That Defendants further be enjoined to cease and desist from unlawful and/or unfair activities
in violation of Business and Professions Code §17200, pursuant to §17203;
t) That Plaintiffs and the Class be awarded reasonable attorneys’ fees and costs pursuant to
Labor Code §§ 203, 225.5, 226, 1194, 1197, and 2804, Code of Civil Procedure § 1021.5, and/or
other applicable law;
u) That the Court award any other relief this Court deems just, equitable, and proper;
v) That these Defendants be ordered to refrain from retaliating against any Class Members who
are current employees; and
x) Any other and further relief the Court deems just and proper.

153a

1
2

DEMAND FOU JURY TRIAL
Plaintiffs request a trial by jury on all applicable daims.

3
4 Dated: August 15, 2017

By:

5

Law Offices of Todd M. Friedman, P.C.

6
7

Todd M. Friedman
Adrian R. Bacon, Esq.

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
CLASS AC TION COMPLAINT

154a

PROOF OF SERVJCE

1
2 STATE OF CALIFORNIA,

)

3 COUNTY OF LOS ANGELES

) SS.
)

4

I am a citizen (١٢ the United States, over tlie age of 18 years, employed in the County of
5 Los Attgeles in tlte office at wltosc direction sucli service was made. I am not a party to the
witilin action. My business address is 21550 Oxnard St., Suite 780, Woodland Hills, CA
6
91367
7
On August 2, 2017,1 caused the foregoing document(s) described as FIRST
8 AMENDED COMPLAINT (“Document(s)”) to be served on the interested parties in this
interested parties as stated in the following:
9 case at the office address as last given by such

10

(BY E-MAIL OR ELECTRONIC TRANSMISSION): Based on a court order or an
II
agreement of the parties to accept service by e-mail or electronic transmission, I caused the
12 document(s) to be sent from Case Anywhere to the persons at the e-mail addresses listed in
the Service List. I did not receive, within a reasonable time after the transmission, any
13 electronic message or other indication that the transmission was unsuccessful.
1Z1

14
15
16

SOPHIA BEHNIA, Bar No. 289318
sbehniiKfitittler.poni
LITTLER MENDELSON, PC.

17
18
19

(State) I declare, under penalty of perjury under the laws of the State of California that
:irorma.
the foregoing is true and correct. Executed on August 15, 201 Tj^afOrange

12

20
21
22

T/2

Adrian R Bacon

23
24
25
26
27
28
34
CLASS ACTION COMPLAINT

155a

EXHIBIT C

.·~
156a
2
3
4
5
6
7
8
9

lO

ANDREW M. SPURCHISE, Bar No. 245998
aspurchise@ littler.com
LITTLER MENDELSON, P.C.
900 Thi rd A venue
New York, NY 10022.3298
Telephone:
2 12 .583 .9600
Fax No.:
2 12.832.27 19

CONFORMED COPY

ORIGINAL FILED
Superior Court of California
County of Los Angeles

MAY 2 9 2018

SOPHIA BEHN IA, Bar No. 2893 18
sbehnia@littler.com
BLA IR A . COPPLE, Bar No. 313580
bcopple@ littler.com
LITTLER MENDELSON, P.C.
333 Bush Street, 34th Floor
San Francisco, CA 94105
Telephone:
415.433. 1940
Fax No.:
4 15.399.8940

Sherri A. Carter, Executive Officer/Clerk
By: Benigno Del Barrio, Deputy

Attorneys for Defendant
DOORDASH, INC.

11
12

SUP ERIOR COURT OF THE STATE OF CALIFORN IA

13

COUNTY OF LOS ANGELES

14
15

DAN IEL MARKO, BROCK BAKER, and
JESUS CORONA, ind ividually and on
behalf of all others similarly situated,

16
17
18

[llll0P0SEBJ ORDER GRANTING IN
PART DEFENDANT DOORDASH, INC. 'S
PETITION TO COMPEL ARBITRATION

V.

DOORDASH, INC.; and DOES 1 to 50,
inclus ive,
Defendant.

21

ASS IGNED FOR ALL PURPOSES TO HON .
WILLIAM HIGHBERGER- DEPT. 322

P laint iffs,

19
20

Case No. BC65984 I

Date: March 2 1, 20 18
Time: 9:30 a.m.
Dept. : 322 (now Dept. 10)
Complaint Fi led: May 2, 20 17
FAC fi led: August 15, 20 17

22
23
24

RECEIVED

25

LOS ANGELES SUPERIOR COURT

26

APR 2 3 2018

27

A. NAZARYAN

28
UTTLER ~lEIIDELSOll P.C.
900 lhrd Avenue
New Ya~ NY 10022.3298
212.583 9600

l.
~PRffl'oSEbj"t>RDER GRANTIN G IN PART DEFENDANT'S PETITION TO COMPEL ARBITRATION

157a
Defendant Doordash, Inc.' s Petition to Compel Arbitration ("Petition") was heard on March

.

2

21, 2018 at 9:30 a.m. in Department 322 of the Superior Court of California, County of Los Angeles.

3

All parties were represented by counsel of record. The Court, having considered the supporting and

4

opposing papers to Defendant's Petition, the papers and pleadings on file in this matter, and having

5

heard and considered the oral arguments of counsel, and good cause appearing therefrom, ORDERS

6

as follows:

7

Defendant's Petition to Compel Arbitration is GRANTED, in part.

8

As required by the Federal Arbitration Act ("FAA") and the California Code of Civil

9

Procedure sections 1281.2 and I 281.4, and in light of the arbitration agreement entered into between

10

Plaintiffs and Defendant, Plaintiffs shall arbitrate their independent contractor status and claims for

II

damages on an individual basis, rather than on a class basis, in accordance with the Independent

12

Contractor Agreement accepted by each of them. Defendant's request to enforce the class action

13

waiver as to Plaintiffs' claim for injunctive relief is DENIED without prejudice, and Plaintiffs' claim

14

for injunctive relief is STA YEO pending arbitration. The Court will renew its consideration of the

15

parties' arguments as to whether Plaintiffs' claim for injunctive relief qualifies as public injunctive

16

relief pursuant to McGill v. Citibank, 2 Cal. 5th 945 (2017) once arbitration is complete. Plaintiffs'

17

claims for civil penalties under the Private Attorneys General Act are also hereby STAYEO.

18

Further, the parties have met and conferred regarding the selection of neutral arbitrators and

19

agreed upon the following individuals: Hon. Louis M. Meisinger (Ret.), Hon. Layn R. Phillips

20

(Ret.), and Hon Margaret A. Nagle (Ret.). Each arbitrator shall be assigned to hear one Plaintiffs

21

claims.

22
23

A non-appearance case review is set for October 12, 2018 at 9:00 a.m. for a status report on
the three arbitrations, with a joint report due on October 9,2018.

24
25

IT IS SO ORDERED.

Dated:

~~

,2018

26

WILLIAM F. HIGHBERGER, JUDGE

27

HONORABLE WILLIAM HIGHBERGER
Judge of the Superior Court

28
LITTLER MENDaSON, P.C.
900 Third Avenue
New YOik, NY 10022.3298
212.583.9600

2.

Case No. BC659841

[PROPOSED] ORDER GRANTING IN PART DEFENDANT'S PETITION TO COMPEL ARBJTRA TION

158a

EXHIBIT D

LICHTEN

& LISS-RIORDAN,
P. C.
159a
A1TORNEYS AT LAW

HAROLD L. LICHTEN^
SHANNON LISS-RIORDAN،0،‫؛‬
BENJAMIN J. WEBER،0
PETER M. DELANO،
MATTHEW W. THOMSON،
JILL S. KAHN،0
ADELAIDE H. PAGANO،
THOMAS P. FOWLER،0
OLENA SAVYTSKA،

WWW.LLRLAW.COM

729 BOYLSTON STREET, SUITE 2000
BOSTON, MASSACHUSETTS 02116
TELEPHONE 617-994-5800
FACSIMILE 617-994-5801

* ADMITTED IN MASSACHUSETTS
٥ ADMITTED IN CAI.1PORNIA
0 ADMITTED IN NEW YORK
t ADMITTED IN MAINE
o ADMITTED IN TENNESSEE

MATTHEW D. CARLSON،‫؛‬
OF COUNSEL

May 11,2018
VIA CERTIFIED MAIL, RETURN RECEIPT REQUESTED
901 Market St.
6th Floor
San Francisco, CA 94105
Re:

Arbitration Demands:
Brian Love v. Doordash, Inc.

Dear Sir or Madam:
Enclosed please find an arbitration demand for Brian Love. Thank you for your attention to this
matter.
Kind regards,

William Heikkinen
Paralegal

Enel.

DEMAND FOR ARBITRATION
CONSUMER ARBITRATION RULES

American Arbitration Association® 160a

Compiete this form to start arbitration under an arbitration agreement in a contract.
1. Which party is sending in the filing documents? (check one) 0 Consumer O Business
2. Briefly explain the dispute:

See Exhibit A.

3. Specify the amount of money in dispute, if any: $ TBD
4. State any other relief you are seeking:
Attorney Fees ®Interest 0 Arbitration Costs 0 Other; explain: See Exhibit A.
5. Identify the requested city and state for the hearing if an in-person hearing is held:

los

Angeles, CA

6. Please provide contact information for both the Consumer and the Business. Attach additional sheets or forms as needed.
Consumer:

Business:

Name: Brian Love

Name: DoorDash, Inc.

Address:

Address:

Brian Love c/o Lichten & Liss-Riordan, p.c.
729 Boyiston St., STE. 2000

City: Boston

State: MA

Telephone: 617٠994٠580٥

Fax: 617-994-5801

Zip Code: 021‫؛‬6

901 Market St.) 6th Floor

City: San Francisco

State: CA

Telephone:

Fax:

Email Address:

Email Address:

Consumer's Representative (if known):

Business' Representative (if known):

Name: Shannon Liss-Riordan & Anne Kramer

Name:

Firm: Lichten & Liss-Riordan, p.c.

Firm:

Address:

Address:

729 Boylston St., STE. 2000

City: Boston

State: MA

Telephone: 617-994-5800

Fax: 617-994-5801

Zip Code: 02116

Email Address: sliss@llrlaw.com‫ ؛‬akramcr@llrlaw.com

City:

State:

Telephone:

Fax:

Zip Code: 03‫او‬

Zip Code:

Email Address:

Date: 5/11/18
7. Send a copy of this completed form to the AAA together with:
•

A clear, legible copy of the contract containing the parties' agreement
to arbitrate disputes;

•

The proper filing fee (filing fee information can be found in the
Costs of Arbitration section of the Consumer Arbitration Rules); and
A copy of the court order, if arbitration is court-ordered.

٠

8. Send a copy of the completed form and any attachments to all
parties and retain a copy of the form for your records.
Cases may be filed with the AAA by mail, facsimile, email, or on-line.
To file by mail send the initial filing documents and the filing fee to:
AAA Case Filing Services, 1101 Laurel Oak Road, Suite 100, Voorhees, NJ
08043. To file via fax send the initial filing documents and a completed

charge card authorization form for the filing fee to 877-304-8457. To file by
email send the filing documents and a check or a completed charge card
authorization form for the filing fee to CaseFlllng@adr.org. charge card
authorization forms are available at -.adr.orgfServicesfForms. To file
on-line via AAA WebFile, visit-.adr.org and click on File & Manage a
Case and follow directions to register. To avoid the creation of duplicate
filings, the AAA requests that the filing documents and payment be
submitted together. When filing electronically no hard copies are required.
Pursuant to Section 1284.3 of the California Code of Civil Procedure, consumers
with a gross monthly income of less than 300% of the federal poverty guidelines
are entitled to a waiver of arbitration fees and costs, exclusive of arbitrator fees.
This law applies to all consumer agreements subject to the California Arbitration
Act, and to all consumer arbitrations conducted in California. If you believe that
you meet these requirements, you must submit to a completed Affidavit for
Waiver of Fees, available on our website.

American Arbitration Association, Case Filing Services, 1101 Laurel Oak Road, Suite 100, Voorhees, NJ 08043
AAA WebFile: https://www.adr.org | AAA Customer Service 1-800-778-7879

161a

EXHIBIT A

162a
Arbitration Demand
Claimant Brian Love brings this claim against DoorDash, Inc. (“DoorDash”)
challenging DoorDash’s misclassification of him as an independent contractor and its
resulting wage violations.
DoorDash provides on-demand food delivery se^ices to customers at their
homes and businesses through its mobile phone application and website. To use
DoorDash) a customer orders takeout food from a list of restaurants on DoorDash’s
phone application or website) and a nearby DoorDash delivery driver is notified. Once
the delivery driver accepts the request by tapping a button on their phone, he or she
drives to the restaurant to pick up the customer’s order and then drives to the
customer's location to deliver it. After the delivery, DoorDasli collects the payment from
the customer, takes its fee, and then distributes the remainder to the delivery driver.
Delivery drivers must provide or pay for their own smartphone and car. DoorDash
delivery drivers do not need special qualifications or experience apart from a valid
driver's license.
Delivery drivers receive customer ratings in the form of “star ratings” at the end of
every delivery. These ratings are out of 5 stars, with 5 stars being the highest rating
and 1 star being the lowest. DoorDash utilizes this real-time customer feedback about
delivery drivers to monitor drivers and decide when a delivery driver may need to be
issued a warning or terminated. DoorDash also tracks otlier metrics for delivery drivers
such as their acceptance rates and may suspend or terminate delivery drivers wliose
ratings it deems to be too low. When delivery drivers refuse too many orders,
DoorDash may end tlieir shifts.

1

163a
Brian Love worked as a DoorDash delivery driver from approximately June 2016
to March 2018 in the Venice, California area. Like all other DoorDash delivery drivers
he was subject to a standard form contract, provided by DoorDash, which drivers were
not able to negotiate. Throughout his time working for DoorDash, Claimant was
classified as an independent contractor rather than an employee. By misclassifying
workers like Claimant, DoorDash has required them to pay necessary business
expenses (such as for their vehicles, gas, smartphone, and data plan expenses). In
addition, Claimant has not been paid minimum wage for all hours worked.
Brian Love regularly worked in excess of forty hours per week, but was not paid
at time-and-a-half for the hours in excess of forty. Moreover, Claimant was not paid
time-and-a-half for working more than eight hours in a day, or twice his regular hourly
rate for working more than twelve hours in a day.
Claimant brings this claim to challenge his classification as an independent
contractor, rather than an employee under California law, and the resulting violations of
the California Labor Code stemming from that practice including: (1) violation of Cal.
Lab. Code § 2802 for failure to reimburse necessary business expenses; (2) violation of
Cal. Lab. Code §§1197 and 1194 for failure to pay minimum wage forali hours worked;
& (3) violation of Cal. Lab. Code §§ 1194,1198, 510, and 554 for failure to pay the
appropriate overtime premium for overtime hours worked.

2

‫؛‬

164a

EXHIBIT B

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

165a

3. CONTRACTOR agrees to indemnify, protect and hold harmless DOORDASH, including all parent, subsidiary,
and/or affiliated companies, as well as its and their past and present successors, assigns, officers, owners,
directors, agents, representatives, attorneys, and employees, from any and all tax liabilities and
responsibilities for payment of all federal, state and local taxes, including, but not limited to all payroll taxes,
self-employment taxes, workers compensation premiums, and any contributions imposed or required under
federal, state and local laws, with respect to CONTRACTOR and CONTRACTOR'S Personnel.
4. CONTRACTOR shall be responsible for, indemnify and hold harmless DOORDASH, including all parent,
subsidiary, and/or affiliated companies, as well as its and their past and present successors, assigns, officers,
owners, directors, agents, representatives, attorneys, and employees, from all costs of CONTRACTOR'S
business, including, but not limited to, the expense and responsibility for any and all applicable insurance,
local, state or federal licenses, permits, taxes, and assessments of any and all regulatory agencies, boards or
municipalities.

XL MUTUAL ARBITRATION PROVISION
1. CONTRACTOR and DOORDASH mutually agree to resolve anyjusticiable disputes between them exclusively
through final and binding arbitration instead of filing a lawsuit in court. This arbitration agreement is governed
by the Federal Arbitration Act (9 U.S.C. §§ 1-16) ("FAA") and shall apply to any and all claims arising out of or
relating to this Agreement, CONTRACTOR'S classification as an independent contractor, CONTRACTOR'S
provision of Contracted Services to consumers, the payments received by CONTRACTOR for providing
services to consumers, the termination of this Agreement, and all other aspects of CONTRACTOR'S
relationship with DOORDASH, past, present or future, whether arising under federal, state or local statutory
and/or common law, including without limitation harassment, discrimination or retaliation claims and claims
arising under or related to the Civil Rights Act of 1964 (or its state or local equivalents), Americans With
Disabilities Act (or its state or local equivalents), Age Discrimination in Employment Act (or its state or local
equivalents), Family Medical Leave Act (or its state or local equivalents), or Fair Labor Standards Act (or its
state or local equivalents), state and local wage and hour laws, state and local statutes or regulations
addressing the same or similar subject matters, and all other federal, state or local claims arising out of or
relating to CONTRACTOR'S relationship or the termination of that relationship with DOORDASH. The parties
expressly agree that this Agreement shall be governed by the FAA even in the event CONTRACTOR and/or
DOORDASH are otherwise exemptedfrom the FAA. Any disputes in this regard shall be resolved exclusively
by an arbitrator. In the event, but only in the event, the arbitrator determines the FAA does not apply, the state
law governing arbitration agreements in the state in which the CONTRACTOR operates shall apply.
2. If either CONTRACTOR or DOORDASH wishes to initiate arbitration, the initiating party must notify the other
party in writing via certified mail, return receipt requested, or hand delivery within the applicable statute of
limitations period. This demand for arbitration must include (1) the name and address of the party seeking
arbitration, (2) a statement of the legal and factual basis of the claim, and (3) a description of the remedy
sought. Any demand for arbitration by CONTRACTOR must be delivered to General Counsel, 901 Market
Street, 6th Floor, San Francisco, California 94103.
3. Class Action Waiver. CONTRACTOR and DOORDASH mutually agree that by entering into this agreement to
arbitrate, both waive their right to have any dispute or claim brought, heard or arbitrated as, or to participate
in, a class action, collective action and/or representative action, and an arbitrator shall not have any authority
to hear or arbitrate any class, collective or representative action ("Class Action Waiver"). Notwithstanding any
other clause contained in this Agreement or the AAA Rules, as defined below, any claim that all or part of this
Class Action Waiver is unenforceable, unconscionable, void or voidable may be determined only by a court of
competent jurisdiction and not by an arbitrator. In any case in which (1) the dispute is filed as a class,
collective, or representative action and (2) there is a final judicial determination that all or part of the Class
Action Waiver is unenforceable, the class, collective and/or representative action to that extent must be
litigated in a civil court of competent jurisdiction, but the portion of the Class Action Waiver that is enforceable
https://www.doordash.com/dasher/us/ica/

6/9

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

5/9/2018

166a

shall be enforced in arbitration. Notwithstanding any other clause contained in this Agreement or the AAA
Rules, as defined below, any claim that all or part of this Class Action Waiver is unenforceable,
unconscionable, void or voidable may be determined only by a court of competent jurisdiction and not by an
arbitrator. All other disputes with respect to whether this Mutual Arbitration Provision is unenforceable,
unconscionable, applicable, valid, void or voidable shall be determined exclusively by an arbitrator, and not
by any court.
4. CONTRACTOR agrees and acknowledges that entering into this arbitration agreement does not change
CONTRACTOR'S status as an independent contractor in fact and in law, that CONTRACTOR is not an
employee of DOORDASH or its customers and that any disputes in this regard shall be subject to arbitration
as provided in this agreement.
5. Any arbitration shall be governed by the American Arbitration Association Commercial Arbitration Rules ("AAA
Rules"), except as follows:
a. The arbitration shall be heard by one arbitrator selected in accordance with the AAA Rules. The
Arbitrator shall be an attorney with experience in the law underlying the dispute.
b. If the parties cannot otherwise agree on a location for the arbitration, the arbitration shall take place
within 45 miles of CONTRACTOR'S residence as of the effective date of this Agreement.
c. Unless applicable law provides otherwise, as determined by the Arbitrator, the parties agree that
DOORDASH shall pay all of the Arbitrator's fees and costs.
d. The Arbitrator may issue orders (including subpoenas to third parties) allowing the parties to conduct
discovery sufficient to allow each party to prepare that party’s claims and/or defenses, taking into
consideration that arbitration is designed to be a speedy and efficient method for resolving disputes.
e. Except as provided in the Class Action Waiver, the Arbitrator may award all remedies to which a party is
entitled under applicable law and which would otherwise be available in a court of law, but shall not be
empowered to award any remedies that would not have been available in a court of law for the claims
presented in arbitration. The Arbitrator shall apply the state or federal substantive law, or both, as is
applicable.
f. The Arbitrator may hear motions to dismiss and/or motions for summary judgment and will apply the
standards of the Federal Rules of Civil Procedure governing such motions.
g. The Arbitrator's decision or award shall be in writing with findings of fact and conclusions of law.
h. The Arbitrator may issue orders to protect the confidentiality of proprietary information, trade secrets,
or other sensitive information. Subject to the discretion of the Arbitrator or agreement of the parties,
any person having a direct interest in the arbitration may attend the arbitration hearing. The Arbitrator
may exclude any non-party from any part of the hearing.
i. Either CONTRACTOR or DOORDASH may apply to a court of competent jurisdiction for temporary or
preliminary injunctive relief on the ground that without such relief the arbitration provided in this
paragraph may be rendered ineffectual.
6. Nothing in this Mutual Arbitration Provision prevents you from making a report to or filing a claim or charge
with the Equal Employment Opportunity Commission, U.S. Department of Labor, U.S. Securities and Exchange
Commission, National Labor Relations Board, or Office of Federal Contract Compliance Programs. Nothing in
this Mutual Arbitration Provision prevents the investigation by a government agency of any report, claim or
charge otherwise covered by this Mutual Arbitration Provision. This Mutual Arbitration Provision also does
not prevent federal administrative agencies from adjudicating claims and awarding remedies based on those
claims, even if the claims would otherwise be covered by this Mutual Arbitration Provision. Nothing in this
Mutual Arbitration Provision prevents or excuses a party from satisfying any conditions precedent and/or
exhausting administrative remedies under applicable law before bringing a claim In arbitration. DOORDASH
will not retaliate against CONTRACTOR for filing a claim with an administrative agency or for exercising rights
(individually or in concert with others) under Section 7 of the National Labor Relations Act. Disputes between
the parties that may not be subject to predispute arbitration agreement, including as provided by an Act of
fittps://-.d٥o٢dash.c٥m/dasfier/us/!ca/

71‫لأ‬

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

167a

Congress or lawful, enforceable Executive Order, are excluded from the coverage of this Mutual Arbitration
Provision.

7. The AAA Rules may be found at www.adr.ora or by searching for "AAA Commercial Arbitration Rules" using a
service such as www.aooale.com or www.bina.com or by asking DOORDASH's General Counsel to provide a
copy.
8. CONTRACTOR'S Right to Opt Out of Arbitration Provision. Arbitration is not a mandatory condition of
CONTRACTOR'S contractual relationship with DOORDASH, and therefore CONTRACTOR may submit a
statement notifying DOORDASH that CONTRACTOR wishes to opt out and not be subject to this MUTUAL
ARBITRATION PROVISION. In order to opt out, CONTRACTOR must notify DOORDASH of CONTRACTOR'S
intention to opt out by sending an email to dasheroptout@doordash.com stating CONTRACTOR'S intention to
opt out. In order to be effective, CONTRACTOR'S opt out notice must be provided within 30 days of the
effective date of this Agreement. If CONTRACTOR opts out as provided in this paragraph, CONTRACTOR will
not be subject to any adverse action from DOORDASH as a consequence of that decision and he/she may
pursue available legal remedies without regard to this Mutual Arbitration Provision. If CONTRACTOR does not
opt out within 30 days of the effective date of this Agreement, CONTRACTOR and DOORDASH shall be
deemed to have agreed to this Mutual Arbitration Provision. CONTRACTOR has the right to consult with
counsel of CONTRACTOR'S choice concerning this Mutual Arbitration Provision (or any other provision of this
Agreement.
9. This Mutual Arbitration Provision is the fuli and complete agreement relating to the formal resolution of
disputes covered by this Mutual Arbitration Provision. In the event any portion of this Mutual Arbitration
Provision is deemed unenforceable, the remainder of this Mutual Arbitration Provision will be enforceable.
The award issued by the Arbitrator may be entered in any court of competent jurisdiction.

XII. TERMINATION OF AGREEMENT
1. CONTRACTOR may terminate this Agreement upon seven (7) days written notice. DOORDASH may terminate
this Agreement and deactivate CONTRACTOR’S Dasher account only for the reasons set forth in the
DOORDASH Deactivation Policy (http://www.doordash.com/deactivationpolicy), or for a material breach of this
Agreement. Notwithstanding any other provision in this Agreement, DoorDash reserves the right to modify
the Deactivation Policy if, in DoorDash’s good faith and reasonable discretion, it is necessary to do so for the
safe and/or effective operation of the DoorDash platform. DOORDASH shall provide notice of any such
changes to CONTRACTOR via e-mail. Changes to the Deactivation Policy shall be effective and binding on
the parties upon CONTRACTOR’S continued use ofthe DOORDASH platform following DOORDASH’s e-mail
notice of such modifications. Nothing will prevent CONTRACTOR from attempting to negotiate an exemption
from any modification to the Deactivation Policy.
2. CONTRACTOR'S and DOORDASH's obligations and rights arising under the Mutual Arbitration Provision of
this Agreement shall survive termination of this Agreement. Notwithstanding any other provision in this
Agreement, the Deactivation Policy is subject to change; such changes shall be effective and binding on the
parties upon DOORDASH’S provision of notice to CONTRACTOR via e-mail.

XIII. ENTIRE AGREEMENT TRANSFERABILITY, AND WAIVER
1. This Agreement shall constitute the entire agreement and understanding between the parties with respect to
the subject matter of this Agreement and shall not be modified, altered, changed or amended in any respect,
unless in writing and signed by both parties. Before accepting any modifications, alterations, changes or
amendments, CONTRACTOR shall have the right to discuss any proposed changes with DOORDASH and
consider whether to continue his/her contractual relationship with DOORDASH. This Agreement supersedes
any prior contract between the parties. To the extent DOORDASH's consumer facing Terms and Conditions
Agreement (or updated consumer facing Terms and Conditions Agreement, if applicable) is inconsistent or
conflicts with this Agreement, this Agreement controls. However, the decision to opt-out ofthe Mutual
Arbitration Provision in this Agreement does not affect the enforceability of any arbitration agreement in the
https://www.doordash.com/dasher/us/ica/

8/9

168a

EXHIBIT E

DEMAND FOR ARBITRATION
CONSUMER ARBITRATION RULES

169a

Complete this form to start arbitration under an arbitration agreement in a contract.
1. Which party is sending in the filing documents? (check one)

Consumer

Business

2. Briefly explain the dispute:

See Exhibit A.

3. Specify the amount of money in dispute, if any: $ TBD
4. State any other relief you are seeking:
Attorney Fees

Interest

Arbitration Costs

Other; explain: See Exhibit A.

5. Identify the requested city and state for the hearing if an in-person hearing is held: San Francisco, CA
6. Please provide contact information for both the Consumer and the Business. Attach additional sheets or forms as needed.
Consumer:

Business:

Name: Theo Van Buren

Name: DoorDash, Inc.

Address:

Address:

c/o Lichten & Liss-Riordan, P.C.
729 Boylston Street, Suite 2000

City: Boston

State: MA

Zip Code:

Telephone: 617-994-5800

Fax: 617-994-5801

02116

901 Market St. 6th Floor

City: San Francisco

State: CA

Telephone:

Fax:

Email Address:

Email Address:

Consumer’s Representative (if known):

Business’ Representative (if known):

Name: Shannon Liss-Riordan & Anne Kramer

Name:

Firm: Lichten & Liss-Riordan, P.C.

Firm:

Address:

Address:

729 Boylston Street, Suite 2000

City: Boston

State: MA

Zip Code:

Telephone: 617-994-5800

Fax: 617-994-5801

02116

Email Address: sliss@llrlaw.com; akramer@llrlaw.com

City:

State:

Telephone:

Fax:

Zip Code:

94103

Zip Code:

Email Address:

Date: 5/21/18
7. Send a copy of this completed form to the AAA together with:
•
•
•

A clear, legible copy of the contract containing the parties’ agreement
to arbitrate disputes;
The proper filing fee (filing fee information can be found in the
Costs of Arbitration section of the Consumer Arbitration Rules); and
A copy of the court order, if arbitration is court-ordered.

8. Send a copy of the completed form and any attachments to all
parties and retain a copy of the form for your records.
Cases may be filed with the AAA by mail, facsimile, email, or on-line.
To file by mail send the initial filing documents and the filing fee to:
AAA Case Filing Services, 1101 Laurel Oak Road, Suite 100, Voorhees, NJ
08043. To file via fax send the initial filing documents and a completed

charge card authorization form for the filing fee to 877-304-8457. To file by
email send the filing documents and a check or a completed charge card
authorization form for the filing fee to CaseFiling@adr.org. Charge card
authorization forms are available at www.adr.org/Services/Forms. To file
on-line via AAA WebFile, visit www.adr.org and click on File & Manage a
Case and follow directions to register. To avoid the creation of duplicate
filings, the AAA requests that the filing documents and payment be
submitted together. When filing electronically no hard copies are required.
Pursuant to Section 1284.3 of the California Code of Civil Procedure, consumers
with a gross monthly income of less than 300% of the federal poverty guidelines
are entitled to a waiver of arbitration fees and costs, exclusive of arbitrator fees.
This law applies to all consumer agreements subject to the California Arbitration
Act, and to all consumer arbitrations conducted in California. If you believe that
you meet these requirements, you must submit to a completed Affidavit for
Waiver of Fees, available on our website.

American Arbitration Association, Case Filing Services, 1101 Laurel Oak Road, Suite 100, Voorhees, NJ 08043
AAA WebFile: https://www.adr.org | AAA Customer Service 1-800-778-7879

170a

EXHIBIT A

171a
Arbitration Demand
Claimant Theo Van Buren brings this claim against DoorDash, Inc. (“DoorDash”)
challenging DoorDash’s misclassification of him as an independent contractor and its
resulting wage violations.
DoorDash provides on-demand food delivery services to customers at their
homes and businesses through its mobile phone application and website. To use
DoorDash, a customer orders takeout food from a list of restaurants on DoorDash’s
phone application or website, and a nearby DoorDash delivery driver is notified. Once
the delivery driver accepts the request by tapping a button on their phone, he or she
drives to the restaurant to pick up the customer’s order and then drives to the
customer’s location to deliver it. After the delivery, DoorDash collects the payment from
the customer, takes its fee, and then distributes the remainder to the delivery driver.
Delivery drivers must provide or pay for their own smartphone and car. DoorDash
delivery drivers do not need special qualifications or experience apart from a valid
driver’s license.
Delivery drivers receive customer ratings in the form of “star ratings” at the end of
every delivery. These ratings are out of 5 stars, with 5 stars being the highest rating
and 1 star being the lowest. DoorDash utilizes this real-time customer feedback about
delivery drivers to monitor drivers and decide when a delivery driver may need to be
issued a warning or terminated. DoorDash also tracks other metrics for delivery drivers
such as their acceptance rates and may suspend or terminate delivery drivers whose
ratings it deems to be too low. When delivery drivers refuse too many orders,
DoorDash may end their shifts.

172a
Theo Van Buren has worked as a DoorDash delivery driver since approximately
August 2017 in the San Francisco, California area. Like all other DoorDash delivery
drivers, he was subject to a standard form contract, provided by DoorDash, which
drivers were not able to negotiate. Throughout his time working for DoorDash, Claimant
was classified as an independent contractor rather than an employee. By misclassifying
workers like Claimant, DoorDash has required them to pay necessary business
expenses (such as for their vehicles, gas, smartphone, and data plan expenses). In
addition, Claimant has not been paid minimum wage for all hours worked.
Claimant brings this claim to challenge his classification as an independent
contractor, rather than an employee under California law, and the resulting violations of
the California Labor Code stemming from that practice including: (1) violation of Cal.
Lab. Code § 2802 for failure to reimburse necessary business expenses; & (2) violation
of Cal. Lab. Code §§ 1197 and 1194 for failure to pay minimum wage for all hours
worked.

173a

EXHIBIT B

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTFiACTOR AGREEMENT

3. CONTRACTOR agrees to indemnify, protect and hold harmless DOORDASH, including all parent, subsidiary,
174a
and/or affiliated companies, as well as its and their
past and present successors, assigns, officers, owners,
directors, agents, representatives, attorneys, and employees, from any and all tax liabilities and
responsibilities for payment of all federal, state and local taxes, including, but not limited to all payroll taxes,
self-employment taxes, workers compensation premiums, and any contributions imposed or required under
federal, state and local laws, with respect to CONTRACTOR and CONTRACTOR'S Personnel.
4. CONTRACTOR shall be responsible for, indemnify and hold harmless DOORDASH, Including all parent,
subsidiary, and/or affiliated companies, as well as its and their past and present successors, assigns, officers,
owners, directors, agents, representatives, attorneys, and employees, from all costs of CONTRACTOR'S
business, including, but not limited to, the expense and responsibility for any and all applicable insurance,
local, state or federal licenses, permits, taxes, and assessments of any and all regulatory agencies, boards or
municipalities.

XI. MUTUAL ARBITRATION PROVISION
1. CONTRACTOR and DOORDASH mutually agree to resolve any justiciable disputes between them exclusively
through final and binding arbitration instead of filing a lawsuit in court. This arbitration agreement is governed
by the Federal Arbitration Act (9 U.S.C. §§ 1-16) ("FAA") and shall apply to any and all claims arising out of or
relating to this Agreement, CONTRACTOR'S classification as an independent contractor, CONTRACTOR'S
provision of Contracted Services to consumers, the payments received by CONTRACTOR for providing
services to consumers, the termination of this Agreement, and all other aspects of CONTRACTOR'S
relationship with DOORDASH, past, present or future, whether arising under federal, state or local statutory
and/or common law, including without limitation harassment, discrimination or retaliation claims and claims
arising under or related to the Civil Rights Act of 1964 (or its state or local equivalents), Americans With
Disabilities Act (or its state or local equivalents), Age Discrimination in Employment Act (or its state or local
equivalents), Family Medical Leave Act (or its state or local equivalents), or Fair Labor Standards Act (or its
state or local equivalents), state and local wage and hour laws, state and local statutes or regulations
addressing the same or similar subject matters, and all other federal, state or local claims arising out of or
relating to CONTRACTOR'S relationship or the termination of that relationship with DOORDASH. The parties
expressly agree that this Agreement shall be governed by the FAA even in the event CONTRACTOR and/or
DOORDASH are otherwise exemptedfrom the FAA. Any disputes in this regard shall be resolved exclusively
by an arbitrator. In the event, but only in the event, the arbitrator determines the FAA does not apply, the state
law governing arbitration agreements in the state in which the CONTRACTOR operates shall apply.
2. If either CONTRACTOR or DOORDASH wishes to initiate arbitration, the initiating party must notify the other
party in writing via certified mail, return receipt requested, or hand delivery within the applicable statute of
limitations period. This demand for arbitration must include (1) the name and address of the party seeking
arbitration, (2) a statement of the legal and factual basis of the claim, and (3) a description of the remedy
sought. Any demand for arbitration by CONTRACTOR must be delivered to General Counsel, 901 Market
Street, 6th Floor, San Francisco, California 94103.
3. Class Action Waiver. CONTRACTOR and DOORDASH mutually agree that by entering into this agreement to
arbitrate, both waive their right to have any dispute or claim brought, heard or arbitrated as, or to participate
in, a class action, collective action and/or representative action, and an arbitrator shall not have any authority
to hear or arbitrate any class, collective or representative action ("Class Action Waiver"). Notwithstanding any
other clause contained in this Agreement or the AAA Rules, as defined below, any claim that all or part of this
Class Action Waiver is unenforceable, unconscionable, void or voidable may be determined only by a court of
competent jurisdiction and not by an arbitrator. In any case in which (1) the dispute is filed as a class,
collective, or representative action and (2) there is a final judicial determination that all or part of the Class
Action Waiver is unenforceable, the class, collective and/or representative action to that extent must be
litigated in a civil court of competent jurisdiction, but the portion of the Class Action Waiver that is enforceable
https://www.doordash.com/dasher/us/ica/

6/9

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTFiACTOR AGREEMENT

shall be enforced In arbitration. Notwithstanding any other clause contained In this Agreement or the AAA
Rules, as defined below, any claim that all or part175a
of this Class Action Waiver Is unenforceable,
unconscionable, void or voidable may be determined only by a court of competent jurisdiction and not by an
arbitrator. All other disputes with respect to whether this Mutual Arbitration Provision Is unenforceable,
unconscionable, applicable, valid, void or voidable shall be determined exclusively by an arbitrator, and not
by any court.
4. CONTRACTOR agrees and acknowledges that entering into this arbitration agreement does not change
CONTRACTOR'S status as an Independent contractor In fact and In law, that CONTRACTOR Is not an
employee of DOORDASH or its customers and that any disputes In this regard shall be subject to arbitration
as provided In this agreement.
5. Any arbitration shall be governed by the American Arbitration Association Commercial Arbitration Rules ("AAA
Rules"), except as follows:
a. The arbitration shall be heard by one arbitrator selected In accordance with the AAA Rules. The
Arbitrator shall be an attorney with experience In the law underlying the dispute.
b. If the parties cannot otherwise agree on a location for the arbitration, the arbitration shall take place
within 45 miles of CONTRACTOR'S residence as of the effective date of this Agreement.
c Unless applicable law provides otherwise, as determined by the Arbitrator, the parties agree that
DOORDASH shall pay all of the Arbitrator's fees and costs.
d. The Arbitrator may Issue orders (Including subpoenas to third parties) allowing the parties to conduct
discovery sufficient to allow each party to prepare that party's claims and/or defenses, taking Into
consideration that arbitration is designed to be a speedy and efficient method for resolving disputes.
e. Except as provided In the Class Action Waiver, the Arbitrator may award all remedies to which a party Is
entitled under applicable law and which would otherwise be available in a court of law, but shall not be
empowered to award any remedies that would not have been available In a court of law for the claims
presented in arbitration. The Arbitrator shall apply the state or federal substantive law, or both, as is
applicable.
f. The Arbitrator may hear motions to dismiss and/or motions for summary judgment and will apply the
standards of the Federal Rules of Civil Procedure governing such motions.
g. The Arbitrator's decision or award shall be In writing with findings of fact and conclusions of law.
h. The Arbitrator may Issue orders to protect the confidentiality of proprietary information, trade secrets,
or other sensitive Information. Subject to the discretion of the Arbitrator or agreement of the parties,
any person having a direct Interest In the arbitration may attend the arbitration hearing. The Arbitrator
may exclude any non-party from any part of the hearing.
i. Either CONTRACTOR or DOORDASH may apply to a court of competent jurisdiction for temporary or
preliminary injunctive relief on the ground that without such relief the arbitration provided in this
paragraph may be rendered Ineffectual.
6. Nothing In this Mutual Arbitration Provision prevents you from making a report to or filing a claim or charge
with the Equal Employment Opportunity Commission, U.S. Department of Labor, U.S. Securities and Exchange
Commission, National Labor Relations Board, or Office of Federal Contract Compliance Programs. Nothing in
this Mutual Arbitration Provision prevents the investigation by a government agency of any report, claim or
charge otherwise covered by this Mutual Arbitration Provision. This Mutual Arbitration Provision also does
not prevent federal administrative agencies from adjudicating claims and awarding remedies based on those
claims, even if the claims would otherwise be covered by this Mutual Arbitration Provision. Nothing in this
Mutual Arbitration Provision prevents or excuses a party from satisfying any conditions precedent and/or
exhausting administrative remedies under applicable law before bringing a claim in arbitration. DOORDASH
will not retaliate against CONTRACTOR for filing a claim with an administrative agency or for exercising rights
(Individually or In concert with others) under Section 7 of the National Labor Relations Act. Disputes between
the parties that may not be subject to predispute arbitration agreement, including as provided by an Act of
https://www.doordash.com/dasher/us/ica/

7/9

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTFiACTOR AGREEMENT

Congress or lawful, enforceable Executive Order, are excluded from the coverage of this Mutual Arbitration
176a
Provision.
7. The AAA Rules may be found at www.adr.ora or by searching for "AAA Commercial Arbitration Rules" using a
service such as www.aooale.com or www.bina.com or by asking DOORDASH's General Counsel to provide a
copy.
8. CONTRACTOR'S Right to Opt Out of Arbitration Provision. Arbitration is not a mandatory condition of
CONTRACTOR'S contractual relationship with DOORDASH, and therefore CONTRACTOR may submit a
statement notifying DOORDASH that CONTRACTOR wishes to opt out and not be subject to this MUTUAL
ARBITRATION PROVISION. In order to opt out, CONTRACTOR must notify DOORDASH of CONTRACTOR'S
Intention to opt out by sending an email to dasheroptout@doordash.com stating CONTRACTOR'S intention to
opt out. In order to be effective, CONTRACTOR'S opt out notice must be provided within 30 days of the
effective date of this Agreement. If CONTRACTOR opts out as provided in this paragraph, CONTRACTOR will
not be subject to any adverse action from DOORDASH as a consequence of that decision and he/she may
pursue available legal remedies without regard to this Mutual Arbitration Provision. If CONTRACTOR does not
opt out within 30 days of the effective date of this Agreement, CONTRACTOR and DOORDASH shall be
deemed to have agreed to this Mutual Arbitration Provision. CONTRACTOR has the right to consult with
counsel of CONTRACTOR'S choice concerning this Mutual Arbitration Provision (or any other provision of this
Agreement.
9. This Mutual Arbitration Provision is the full and complete agreement relating to the formal resolution of
disputes covered by this Mutual Arbitration Provision. In the event any portion of this Mutual Arbitration
Provision is deemed unenforceable, the remainder of this Mutual Arbitration Provision will be enforceable.
The award issued by the Arbitrator may be entered in any court of competent jurisdiction.

XII. TERMINATION OF AGREEMENT
1. CONTRACTOR may terminate this Agreement upon seven (7) days written notice. DOORDASH may terminate
this Agreement and deactivate CONTRACTOR’S Dasher account only for the reasons set forth in the
DOORDASH Deactivation Policy (http://www.doordash.com/deactivationpolicy), or for a material breach of this
Agreement. Notwithstanding any other provision in this Agreement, DoorDash reserves the right to modify
the Deactivation Policy if, in DoorDash’s good faith and reasonable discretion, it is necessary to do so for the
safe and/or effective operation of the DoorDash platform. DOORDASH shall provide notice of any such
changes to CONTRACTOR via e-mail. Changes to the Deactivation Policy shall be effective and binding on
the parties upon CONTRACTOR’S continued use of the DOORDASH platform following DOORDASH’s e-mail
notice of such modifications. Nothing will prevent CONTRACTOR from attempting to negotiate an exemption
from any modification to the Deactivation Policy.
2. CONTRACTOR'S and DOORDASH's obligations and rights arising under the Mutual Arbitration Provision of
this Agreement shall survive termination of this Agreement. Notwithstanding any other provision in this
Agreement, the Deactivation Policy is subject to change; such changes shall be effective and binding on the
parties upon DOORDASH’S provision of notice to CONTRACTOR via e-mail.

XIII. ENTIRE AGREEMENT, TRANSFERABILITY, AND WAIVER
1. This Agreement shall constitute the entire agreement and understanding between the parties with respect to
the subject matter of this Agreement and shall not be modified, altered, changed or amended in any respect,
unless in writing and signed by both parties. Before accepting any modifications, alterations, changes or
amendments, CONTRACTOR shall have the right to discuss any proposed changes with DOORDASH and
consider whether to continue his/her contractual relationship with DOORDASH. This Agreement supersedes
any prior contract between the parties. To the extent DOORDASH's consumer facing Terms and Conditions
Agreement (or updated consumer facing Terms and Conditions Agreement, if applicable) is inconsistent or
conflicts with this Agreement, this Agreement controls. However, the decision to opt-out of the Mutual
Arbitration Provision in this Agreement does not affect the enforceability of any arbitration agreement in the
https://www.doordash.com/dasher/us/ica/

8/9

177a

EXHIBIT F

American Arbitration Association
®
178a

EMPLOYMENT ARBITRATJON RULES
DEMAND FOR ARBITRATION

To ensure your demand is processed promptly, please include a copy of the Arbitration Agreement, Plan or Contract.
Mediation: If you would like the AAA to contact the other parties and attempt to arrange mediation, please check this box ٥ .

Parties (Claimant)
Name of Claimant: Chrisline Beatleston

Representatives Name (if known): Shannon Liss-Riordan, Anne Kramer

Address:

Firm (if applicable): Lichten & Liss-Rlordan, p.c.

c/o Lichten & Liss-Riordan, p.c.

Representatives Address:

729 Boylston Street, Suite 2000

729 Boylston Street, Suite 2000
City: Boston

State: MA

Phone No.: 617-994-5800

Fax No,: 6Î7-994-5801

Zip Code: 02‫ئ‬

Email Address:

City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.: 617-994-5801

Zip Code: 02‫ﻻ‬

Email Address: sliss@llrlaw.com; akramer@llrlaw.com

Parties (Respondent)
Name of Respondent: DoorDash, Inc,

Representative's Name (if known):

Address:

Firm (if applicable):

901 Market St., 6th Floor

Representatives Address:

City: San Francisco

State: CA

Phone No.:

Fax No.:

Zip Code: 9٠

Email Address:

City:

State:

Phone No.:

Fax No.:

Zip Code:

Email Address:

Claim: What was/is the employee/worker's annual wage range? H Less than $100,000 Eli $100,000-$250,000 ٥ Over $250,000
Note: This question is required by California (aw.
Amount of Claim:

Claim involves: [Zi Statutorily Protected Rights D Non-Statutorily
Protected Rights

In detail, please describe the nature of each claim. You may attach additional pages if necessary:
Sec Exhibit A

Other Relief Sought: ،2 Attorneys Fees H Interest 1ZI Arbitration Costs ٥ Punitive/Exemplary ٥ Other
Please describe the qualifications for arbitrator(s) to hear this dispute:

Hearing: Estimated time needed for hearings overall:
Hearing Locale:

Sail Francisco, CA

hours or

days

□ Requested by Claimant H Locale provision included in the contract

Filing Fee requirement or $300 (max amount per AAA)
Filing by Company: ٥ $2,200 single arbitrator ٥ $2,800 three arbitrator panel
Notice: To begin proceedings, please send a copy of this Demand and the Arbitration Agreement, along with filing fee as provided for in the Rules, to:
American Arbitration Association, Case Filing Sewices, 1101 Laurel Oak Road, Suite 100, Voorhees, NJ 08043. Send the original Demand to the Respondent.
Signatur? (fnay be signed by a representative

ML

Date:
5/31/2018

Pursuant to Section 1284.3 of the California Code of Civil Procedure, consumers with a gross monthly income of less than 300% of the federal poverty guidelines are
entitled to a waiver of arbitration fees and costs, exclusive of arbitrator fees. This law applies to all consumer agreements subject to the California Arbitration Act, and to
all consumer arbitrations conducted in California. Only those disputes arising out of employer plans are included in the consumer definition. If you believe that you meet
these requirements, you must submit to the AAA a declaration under oath regarding your monthly income and the number of persons in your household. Please contact
the AAA's Western Case Management Center atl-800-778-7879. !f you have any questions regarding the waiver of administrative fees, AAA Case Filing Services can be
reached at 877-495-4185. Please visit our website at www.adr.org if you would like to file this case online. AAA Customer Service can be reached at 800-778-7879.

179a

EXHIBIT A

180a
Arbitration Demand
Gaimant Christine Beatieson brings this claim against DoorDash, Inc.
("DoorDash") challenging DoorDash’s misclassification of her as an independent
contractor and its resulting wage violations.
DoorDash provides on-demand food delivery services to customers at their
homes and businesses through its mobile phone application and website. To use
DoorDash, a customer orders takeout food from a list of restaurants on DoorDash's
phone application or website, and a nearby DoorDash deliver driver is notified. Once
the delivery driver accepts the request by tapping a button on their phone, he or she
drives to the restaurant to pick up the customer’s order and then drives to the
customer’s location to deliver it. After the deliver, DoorDasli collects the payment from
the customer, takes its fee, and then distributes the remainder to the delivery driver.
Delivery drivers must provide or pay for their own smartphone and car. DoorDash
deliver drivers do not need special qualifications or experience apart from a valid
driver’s license.
Delivery drivers receive customer ratings in the form of “star ratings” at the end of
every delivery. These ratings are out of 5 stars, with 5 stars being the highest rating
and 1 star being the lowest. DoorDash utilizes this real-time customer feedback about

delivery drivers to monitor drivers and decide when a delivery driver may need to be
issued a warning or terminated. DoorDash also tracks other metrics for deliver drivers
such as their acceptance rates and may suspend or terminate delivery drivers whose
ratings it deems to be too low. When delivery drivers refuse too many orders,
DoorDash may end their shifts.

1

181a
Christine Beatleson W0٢ked as a Doo٢Dash delive٢y driver from approximately
April 2016 to Januaty 2017 in the San Francisco, California area. Like all other
DoorDash delivery drivers, she was subject to a standard form contract, provided by
DoorDash, which drivers were not able to negotiate. Throughout her time working for
DoorDash, Claimant was classified as an independent contractor rather than an
employee. By misclassifying workers like Claimant, DoorDash has required them to pay
necessaty business expenses (such as for their vehicles, gas, smartphone, and data
plan expenses). In addition, Claimant has not been paid minimum wage for all hours
worked.
Christine Beatleson regularly worked in excess of forty hours per week, but was
not paid at time-and-a-half for the hours in excess of forty. Moreover, Claimant was not
paid time-and-a-half for working more than eight hours in a day, or twice her regular
hourly rate for working more than twelve hours in a day.
Claimant brings this claim to challenge her classification as an independent
contractor, ratlier than an employee under California law, and the resulting violations of
the California Labor Code stemming from that practice including: (1) violation of Cal.
Lab. Code § 2802 for failure to reimburse necessary business expenses; (2) violation of
Cal. Lab. Code §§1197 and 1194 for failure to pay minimum wage for all hours worked;
& (3) violation of Cal. Lab. Code §§ 1194,1198, 510, and 554 for failure to pay the

appropriate overtime premium for overtime hours worked.

2

182a

EXHIBIT B

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

5/9/2018

183a

3. CONTRACTOR agrees to indemnify, protect and hold harmless DOORDASH, including all parent, subsidiary,
and/or affiliated companies, as well as its and their past and present successors, assigns, officers, owners,
directors, agents, representatives, attorneys, and employees, from any and all tax liabilities and
responsibilities for payment of all federal, state and local taxes, including, but not limited to all payroll taxes,
self-employment taxes, workers compensation premiums, and any contributions imposed or required under
federal, state and local laws, with respect to CONTRACTOR and CONTRACTOR'S Personnel.
4. CONTRACTOR shall be responsible for, indemnify and hold harmless DOORDASH, including all parent,
subsidiary, and/or affiliated companies, as well as its and their past and present successors, assigns, officers,
owners, directors, agents, representatives, attorneys, and employees, from all costs of CONTRACTOR'S
business, including, but not limited to, the expense and responsibility for any and all applicable insurance,
local, state orfederal licenses, permits, taxes, and assessments of any and ail regulatory agencies, boards or
municipalities.

XI. MUTUAL ARBITRATION PROVISION
1. CONTRACTOR and DOORDASH mutually agree to resolve anyjusticiabie disputes between them exclusively
through final and binding arbitration instead of filing a lawsuit in court. This arbitration agreement is governed
by the Federal Arbitration Act (9 U.S.C. §§ 1-16) ("FAA") and shall apply to any and all claims arising out of or
relating to this Agreement, CONTRACTOR'S classification as an independent contractor, CONTRACTOR'S
provision of Contracted Services to consumers, the payments received by CONTRACTOR for providing
services to consumers, the termination of this Agreement, and all other aspects of CONTRACTOR'S
relationship with DOORDASH, past, present or future, whether arising under federal, state or local statutory
and/or common law, including without limitation harassment, discrimination or retaliation claims and claims
arising under or related to the Civil Rights Act of 1964 (or its state or local equivalents), Americans With
Disabilities Act (or its state or local equivalents), Age Discrimination in Employment Act (or its state or local
equivalents), Family Medical Leave Act (or its state or local equivalents), or Fair Labor Standards Act (or its
state or local equivalents), state and local wage and hour laws, state and local statutes or regulations
addressing the same or similar subject matters, and all other federal, state or local claims arising out of or
relating to CONTRACTOR'S relationship or the termination of that relationship with DOORDASH. The parties
expressly agree that this Agreement shall be governed by the FAA even in the event CONTRACTOR and/or
DOORDASH are otherwise exemptedfrom the FAA. Any disputes in this regard shall be resolved exclusively
by an arbitrator. In the event, but only in the event, the arbitrator determines the FAA does not apply, the state
law governing arbitration agreements in the state in which the CONTRACTOR operates shall apply.
2. If either CONTRACTOR or DOORDASH wishes to initiate arbitration, the initiating party must notify the other
party in writing via certified mail, return receipt requested, or hand delivery within the applicable statute of
limitations period. This demand for arbitration must include (1) the name and address of the party seeking
arbitration, (2) a statement ofthe legal and factual basis of the claim, and (3) a description of the remedy
sought. Any demand for arbitration by CONTRACTOR must be delivered to General Counsel, 901 Market
Street, 6th Floor, San Francisco, California 94103.
3. Class Action Waiver. CONTRACTOR and DOORDASH mutually agree that by entering into this agreement to
arbitrate, both waive their right to have any dispute or claim brought, heard or arbitrated as, or to participate
in, a class action, collective action and/or representative action, and an arbitrator shall not have any authority
to hear or arbitrate any class, collective or representative action ("Class Action Waiver"). Notwithstanding any
other clause contained in this Agreement or the AAA Rules, as defined below, any claim that all or part of this
Class Action Waiver is unenforceable, unconscionable, void or voidable may be determined only by a court of
competent jurisdiction and not by an arbitrator. In any case in which (1) the dispute is filed as a class,
collective, or representative action and (2) there is a final judicial determination that all or part of the Class
Action Waiver is unenforceable, the class, collective and/or representative action to that extent must be
litigated in a civil court of competent jurisdiction, but the portion ofthe Class Action Waiver that is enforceable
https://ww.doordash.com/dasher/us/ica/

٠

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

5/9/2018

184a

shall be enforced in arbitration. Notwithstanding any other clause contained in this Agreement or the AAA
Rules, as defined below, any claim that all or part of this Class Action Waiver is unenforceable,
unconscionable, void or voidable may be determined only by a court of competent jurisdiction and not by an
arbitrator. All other disputes with respect to whether this Mutual Arbitration Provision is unenforceable,
unconscionable, applicable, valid, void or voidable shall be determined exclusively by an arbitrator, and not
by any court.
4, CONTRACTOR agrees and acknowledges that entering into this arbitration agreement does not change
CONTRACTOR'S status as an independent contractor in fact and in law, that CONTRACTOR is not an
employee of DOORDASH or its customers and that any disputes in this regard shall be subject to arbitration
as provided in this agreement.
5. Any arbitration shall be governed by the American Arbitration Association Commercial Arbitration Rules ("AAA
Rules"), except as follows:
a. The arbitration shall be heard by one arbitrator selected in accordance with the AAA Rules. The
Arbitrator shall be an attorney with experience in the law underlying the dispute.
b. If the parties cannot otherwise agree on a location for the arbitration, the arbitration shall take place
within 45 miles of CONTRACTOR'S residence as of the effective date of this Agreement.
c. Unless applicable law provides otherwise, as determined by the Arbitrator, the parties agree that
DOORDASH shall pay all of the Arbitrator's fees and costs.
d. The Arbitrator may issue orders (including subpoenas to third parties) allowing the parties to conduct
discovery sufficient to allow each party to prepare that party's claims and/or defenses, taking into
consideration that arbitration is designed to be a speedy and efficient method for resolving disputes.
e. Except as provided in the Class Action Waiver, the Arbitrator may award all remedies to which a party is
entitled under applicable law and which would otherwise be available in a court of law, but shall not be
empowered to award any remedies that would not have been available in a court of law for the claims
presented in arbitration. The Arbitrator shall apply the state or federal substantive law, or both, as is
applicable.
f. The Arbitrator may hear motions to dismiss and/or motions for summaryjudgment and will apply the
standards of the Federal Rules of Civil Procedure governing such motions.
g. The Arbitrator's decision or award shall be in writing with findings of fact and conclusions of law.
h. The Arbitrator may issue orders to protect the confidentiality of proprietary information, trade secrets,
or other sensitive information, Subject to the discretion of the Arbitrator or agreement of the parties,
any person having a direct interest in the arbitration may attend the arbitration hearing. The Arbitrator
may exclude any non-party from any part of the hearing.
i. Either CONTRACTOR or DOORDASH may apply to a court of competent jurisdiction for temporary or
preliminary injunctive relief on the ground that without such relief the arbitration provided in this
paragraph may be rendered ineffectual.
6. Nothing in this Mutual Arbitration Provision prevents you from making a report to or filing a claim or charge
with the Equal Employment Opportunity Commission, U.S. Department of Labor, U.S. Securities and Exchange
Commission, National Labor Relations Board, or Office of Federal Contract Compliance Programs. Nothing in
this Mutual Arbitration Provision prevents the investigation by a government agency of any report, claim or
charge otherwise covered by this Mutual Arbitration Provision. This Mutual Arbitration Provision also does
not prevent federal administrative agencies from adjudicating claims and awarding remedies based on those
claims, even if the claims would otherwise be covered by this Mutual Arbitration Provision. Nothing in this
Mutual Arbitration Provision prevents or excuses a party from satisfying any conditions precedent and/or
exhausting administrative remedies under applicable law before bringing a claim In arbitration. DOORDASH
will not retaliate against CONTRACTOR for filing a claim with an administrative agency or for exercising rights
(individually or in concert with others) under Section 7 of the National Labor Relations Act. Disputes between
the parties that may not be subject to predispute arbitration agreement, including as provided by an Act of
https://vww.doordash.com/dasher/us/ica/

7/9

5/9/20‫أ‬8

DoorDash Food Delivery [ INDEPENDENT CONTRACTOR AGREEMENT

185a

Congress or lawful, enforceable Executive Order, are excluded from the coverage of this Mutual Arbitration
Provision.

7. The AAA Rules may be found at www.adr.ora or by searching for 'AAA Commercial Arbitration Rules" using a
service such as www.aooale.com or www.bina.com or by asking DOORDASH's General Counsel to provide a
copy.
8. CONTRACTOR'S Right to Pot Out of Arbitration Provision. Arbitration is not a mandatory condition of
CONTRACTOR'S contractual relationship with DOORDASH, and therefore CONTRACTOR may submit a
statement notifying DOORDASH that CONTRACTOR wishes to opt out and not be subject to this MUTUAL
ARBITRATION PROVISION. In order to opt out, CONTRACTOR must notify DOORDASH of CONTRACTOR'S
intention to opt out by sending an email to dasheroptout@doordash.com stating CONTRACTOR’S intention to
opt out. In order to be effective, CONTRACTOR'S opt out notice must be provided within 30 days of the
effective date of this Agreement. If CONTRACTOR opts out as provided in this paragraph, CONTRACTOR will
not be subject to any adverse action from DOORDASH as a consequence of that decision and he/she may
pursue available legal remedies without regard to this Mutual Arbitration Provision. If CONTRACTOR does not
opt out within 30 days of the effective date of this Agreement, CONTRACTOR and DOORDASH shall be
deemed to have agreed to this Mutual Arbitration Provision. CONTRACTOR has the right to consult with
counsel of CONTRACTOR'S choice concerning this Mutual Arbitration Provision (or any other provision of this
Agreement.
9. This Mutual Arbitration Provision is the full and complete agreement relating to the formal resolution of
disputes covered by this Mutual Arbitration Provision, in the event any portion of this Mutual Arbitration
Provision is deemed unenforceable, the remainder of this Mutual Arbitration Provision will be enforceable.
The award issued by the Arbitrator may be entered in any court of competent jurisdiction.

XII TERMINATION OF AGREEMENT
1. CONTRACTOR may terminate this Agreement upon seven (7) days written notice. DOORDASH may terminate
this Agreement and deactivate CONTRACTOR’S Dasher account only for the reasons set forth in the
DOORDASH Deactivation Policy (http://www.doordash.com/deactivationpolicy), or for a material breach of this
Agreement. Notwithstanding any other provision in this Agreement, DoorDash reserves the right to modify
the Deactivation Policy if, in DoorDash’s good faith and reasonable discretion, it is necessary to do so for the
safe and/or effective operation of the DoorDash platform. DOORDASH shall provide notice of any such
changes to CONTRACTOR via e-mail. Changes to the Deactivation Policy shall be effective and binding on
the parties upon CONTRACTOR’S continued use of the DOORDASH platform following DOORDASH's e-mail
notice of such modifications. Nothing will prevent CONTRACTOR from attempting to negotiate an exemption
from any modification to the Deactivation Policy.
2. CONTRACTOR'S and DOORDASH's obligations and rights arising under the Mutual Arbitration Provision of
this Agreement shall survive termination of this Agreement. Notwithstanding any other provision in this
Agreement, the Deactivation Policy is subject to change: such changes shall be effective and binding on the
parties upon DOORDASH’S provision of notice to CONTRACTOR via e-mail.

Xll!. ENTIRE AGREEMENT, TRANSFERABILITY, AND WAIVER
1. This Agreement shall constitute the entire agreement and understanding between the parties with respect to
the subject matter of this Agreement and shall not be modified, altered, changed or amended in any respect,
unless in writing and signed by both parties. Before accepting any modifications, alterations, changes or
amendments, CONTRACTOR shall have the right to discuss any proposed changes with DOORDASH and
consider whether to continue his/her contractual relationship with DOORDASH. This Agreement supersedes
any prior contract between the parties. To the extent DOORDASH's consumer facing Terms and Conditions
Agreement (or updated consumer facing Terms and Conditions Agreement, if applicable) is inconsistent or
conflicts with this Agreement, this Agreement controls. However, the decision to opt-out of the Mutual
Arbitration Provision in this Agreement does not affect the enforceability of any arbitration agreement in the
https://www.doordash.com/dasher/us/ica/

8/9

186a

EXHIBIT G

@

American Arbitration Association
®
187a

EMPLOYMENT ARBITRATION RULES
DEMAND FOR ARBITRATION

To ensure your demand is processed promptly, please include a copy of the Arbitration Agreement, Plan or Contract.
Mediation: If you would like the AAA to contact the other parties and attempt to arrange mediation, please check this box ٥ .
Parties (Claimant)

Name of Claimant: Eduardo Botantes

Representative's Name (if known): Shannon Liss-Riordan, Anne Kramer

Address:

Firm (if applicable): Lichten ،fe Liss-Riordan, P.C.

c/o Lichten & Liss-Riordan, P.C.
729 Boylston Street, Suite 2000

Representative's Address:

729 Boylston Street, Suite 2000
City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.: 617-994-5801

Zip Code: 0٩‫|؛‬

Email Address:

City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.: 617-994-5801

Zip Code: 02،‫؛‬

Email Address: sl‫؛‬ss@llrlaw.com; akramer@llrlaw.com

Parties (Respondent)

Name of Respondent: DoorDash, Inc.

Representative's Name (if known):

Address:

Firm (if applicable):

901 Market St, 6th Floor

Representative's Address:

City: San Francisco

State: CA

Phone No.:

Fax No.:

Zip Code: 94٥

Email Address:

City:

State:

Phone No.:

Fax No.:

Zip Code:

Email Address:

Claim: What was/is the employee/worker's annual wage range? H Less than $100,000 ٥ $100,000-$250,000 ٥ Over $250,000
Note: This question is required by California law.
Amount of Claim:

Claim involves: Sü Statutorily Protected Rights ٥ Non-Statutorily
Protected Rights

In detail, please describe the nature of each claim. You may attach additional pages if necessary:

See Exhibit A

Other Relief Sought: 12 Attorneys Fees 0 Interest 0 Arbitration Costs٥ Punitive/ Exemplary ٥ Other
Please describe the qualifications for arbitrator(s) to hear this dispute:

blearing: Estimated time needed for hearings overall:

Hearing Locale: San Francisco, CA

hours or

days

□ Requested by Claimant 0 Locale provision included in the contract

Filing Fee requirement or $300 (max amount per AAA)
Filing by Company: ٥ $2,200 single arbitrator ٥ $2,800 three arbitrator panel
Notice: To begin proceedings, please send a copy of this Demand and the Arbitration Agreement, along with filing fee as provided for in the Rules, to:
American Arbitration Association, Case Filing Services, 1101 Laurel Oak Road, Suite 100, Voorhees, NJ 08043. Send the original Demand to the Respondent.
Signature (‫؛‬nay be signed by a representative):

Date:

5/31/2018
Pursuant to Section 1284.3 of the California Code of Civil Procedure, consumers with a gross monthly income of less than 300% of the federal poverty guidelines are
entitled to a waiver of arbitration fees and costs, exclusive of arbitrator fees. This law applies to all consumer agreements subject to the California Arbitration Act, and to
all consumer arbitrations conducted in California. Only those disputes arising out of employer plans are included in the consumer definition. If you believe that you meet
these requirements, you must submit to the AAA a declaration under oath regarding your monthly income and the number of persons in your household. Please contact
the AAA's Western Case Management Center at1-800-778-7879. If you have any questions regarding the waiver of administrative fees, AAA Case Filing Services can be
reached at 877-495-4185. Please visit our website at www.adr.org if you would like to file this case online. AAA Customer Service can be reached at 800-778-7879.

188a

EXHIBIT A

189a
Arbitration Demand
Claimant Eduardo Borantes brings this claim against DoorDash, Inc.
(“DoorDash”) challenging DoorDash’s misclassification of him as an independent
-

contractor and its resulting wage violations.
DoorDash provides on-demand food delivery services to customers at their
homes and businesses through its mobile phone application and website. To use
DoorDash, a customer orders takeout food from a list of restaurants on DoorDash’s
phone application or website, and a nearby DoorDash delivery driver is notified. Once
the delivery driver accepts the request by tapping a button on their phone, he or she
drives to the restaurant to pick up the customer’s order and then drives to the
customer’s location to deliver it. After the delivery, DoorDash collects the payment from
the customer, takes its fee, and then distributes the remainder to the delivery driver.
Delivery drivers must provide or pay for their own smartphone and car. DoorDash
delivery drivers do not need special qualifications or experience apart from a valid
driver’s license.
Delivery drivers receive customer ratings in the form of “star ratings” at the end of
every delivery. These ratings are out of 5 stars, with 5 stars being the highest rating
and 1 star being the lowest. DoorDash utilizes this real-time customer feedback about
delivery drivers to monitor drivers and decide when a delivery driver may need to be
issued a warning or terminated. DoorDash also tracks other metrics for delivery drivers
such as their acceptance rates and may suspend or terminate delivery drivers whose
ratings it deems to be too low. When delivery drivers refuse too many orders,
DoorDash may end their shifts.

1

-

190a
Eduardo Borantes has worked as a DoorDash delivery driver since
approximately September 2016 in the San Francisco, California area. Like all other
DoorDash delivery drivers, he was subject to a standard form contract, provided by
DoorDash, which drivers were not able to negotiate. Throughout his time working for
DoorDash, Claimant was classified as an independent contractor rather than an
employee. By misclassifying workers like Claimant, DoorDash has required them to pay
necessary business expenses (such as for their vehicles, gas, smartphone, and data
plan expenses). In addition, Claimant has not been paid minimum wage for all hours
worked.
Eduardo Borantes regularly worked in excess of forty hours per week, but was
not paid at time-and-a-half for the hours in excess of forty. Moreover, Claimant was not
paid time-and-a-half for working more than eight hours in a day, or twice his regular
hourly rate for working more than twelve hours in a day.
Claimant brings this claim to challenge his classification as an independent
contractor, rather than an employee under California law, and the resulting violations of
the California Labor Code stemming from that practice including: (1) violation of Cal.
Lab. Code § 2802 for failure to reimburse necessary business expenses; (2) violation of
Cal. Lab. Code §§1197 and 1194 for failure to pay minimum wage for all hours worked;
& (3) violation of Cal. Lab. Code §§ 1194,1198, 510, and 554 for failure to pay the
appropriate overtime premium for overtime hours worked.

2

191a

EXHIBIT В

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

192a

3. CONTRACTOR agrees to indemnify, protect and hold harmless DOORDASH, including all parent, subsidiary,
and/or affiliated companies, as well as its and their past and present successors, assigns, officers, owners,
directors, agents, representatives, attorneys, and employees, from any and all tax liabilities and
responsibilities for payment of all federal, state and local taxes, including, but not limited to all payroll taxes,
self-employment taxes, workers compensation premiums, and any contributions imposed or required under
federal, state and local laws, with respect to CONTRACTOR and CONTRACTOR'S Personnel.
4. CONTRACTOR shall be responsible for, indemnify and hold harmless DOORDASH, including all parent,
subsidiary, and/or affiliated companies, as well as its and their past and present successors, assigns, officers,
owners, directors, agents, representatives, attorneys, and employees, from all costs of CONTRACTOR'S
business, including, but not limited to, the expense and responsibility for any and all applicable insurance,
local, state or federal licenses, permits, taxes, and assessments of any and all regulatory agencies, boards or
municipalities.

XI. MUTUAL ARBITRATION PROVISION
1. CONTRACTOR and DOORDASH mutually agree to resolve anyjusticiable disputes between them exclusively
through final and binding arbitration instead of filing a lawsuit in court. This arbitration agreement is governed
by the Federal Arbitration Act (9 U.S.C. §§ 1-16) ("FAA'1) and shall apply to any and ail claims arising out of or
relating to this Agreement, CONTRACTOR'S classification as an independent contractor, CONTRACTOR'S
provision of Contracted Services to consumers, the payments received by CONTRACTOR for providing
services to consumers, the termination of this Agreement, and all other aspects of CONTRACTOR'S
relationship with DOORDASH, past, present or future, whether arising under federal, state or local statutory
and/or common law, including without limitation harassment, discrimination or retaliation claims and claims
arising under or related to the Civil Rights Act of 1964 (or its state or local equivalents), Americans With
Disabilities Act (or its state or local equivalents), Age Discrimination in Employment Act (or its state or local
equivalents), Family Medical Leave Act (or its state or local equivalents), or Fair Labor Standards Act (or its
state or local equivalents), state and local wage and hour laws, state and local statutes or regulations
addressing the same or similar subject matters, and all other federal, state or local claims arising out of or
relating to CONTRACTOR'S relationship or the termination of that relationship with DOORDASH. The parties
expressly agree that this Agreement shall be governed by the FAA even in the event CONTRACTOR and/or
DOORDASH are otherwise exemptedfrom the FAA. Any disputes in this regard shall be resolved exclusively
by an arbitrator. In the event, but only in the event, the arbitrator determines the FAA does not apply, the state
law governing arbitration agreements in the state in which the CONTRACTOR operates shall apply.
2. If either CONTRACTOR or DOORDASH wishes to initiate arbitration, the initiating party must notify the other
party in writing via certified mail, return receipt requested, or hand delivery within the applicable statute of
limitations period. This demand for arbitration must include (1) the name and address of the party seeking
arbitration, (2) a statement of the legal and factual basis of the claim, and (3) a description of the remedy
sought. Any demand for arbitration by CONTRACTOR must be delivered to General Counsel, 901 Market
Street, 6th Floor, San Francisco, California 94103.
3. Class Action Waiver. CONTRACTOR and DOORDASH mutually agree that by entering into this agreement to
arbitrate, both waive their right to have any dispute or claim brought, heard or arbitrated as, or to participate
in, a class action, collective action and/or representative action, and an arbitrator shall not have any authority
to hear or arbitrate any class, collective or representative action ("Class Action Waiver"). Notwithstanding any
other clause contained in this Agreement or the AAA Rules, as defined below, any claim that all or part of this
Class Action Waiver is unenforceable, unconscionable, void or voidable may be determined only by a court of
competent jurisdiction and not by an arbitrator. In any case in which (1) the dispute is filed as a class,
collective, or representative action and (2) there is a final judicial determination that all or part of the Class
Action Waiver is unenforceable, the class, collective and/or representative action to that extent must be
litigated in a civil court of competent jurisdiction, but the portion of the Class Action Waiver that is enforceable
https://www.doordash.com/dasher/us/ica/

6/9

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

193a

shall be enforced in arbitration. Notwithstanding any other clause contained in this Agreement or the AAA
Rules, as defined below, any claim that all or part of this Class Action Waiver is unenforceable,
unconscionable, void or voidable may be determined only by a court of competent jurisdiction and not by an
arbitrator. All other disputes with respect to whether this Mutual Arbitration Provision is unenforceable,
unconscionable, applicable, valid, void or voidable shall be determined exclusively by an arbitrator, and not
by any court.
4. CONTRACTOR agrees and acknowledges that entering into this arbitration agreement does not change
CONTRACTOR'S status as an independent contractor in fact and In law, that CONTRACTOR is not an
employee of DOORDASH or its customers and that any disputes in this regard shall be subject to arbitration
as provided in this agreement.
5. Any arbitration shall be governed by the American Arbitration Association Commercial Arbitration Rules ("AAA
Rules"), except as follows:
a. The arbitration shall be heard by one arbitrator selected in accordance with the AAA Rules. The
Arbitrator shall be an attorney with experience in the law underlying the dispute.
b. If the parties cannot otherwise agree on a location for the arbitration, the arbitration shall take place
within 45 miles of CONTRACTOR'S residence as of the effective date of this Agreement.
c. Unless applicable law provides otherwise, as determined by the Arbitrator, the parties agree that
DOORDASH shall pay all of the Arbitrator's fees and costs.
d. The Arbitrator may issue orders (including subpoenas to third parties) allowing the parties to conduct
discovery sufficient to allow each party to prepare that party’s claims and/or defenses, taking into
consideration that arbitration is designed to be a speedy and efficient method for resolving disputes.
e. Except as provided in the Class Action Waiver, the Arbitrator may award all remedies to which a party is
entitled under applicable law and which would otherwise be available in a court of law, but shall not be
empowered to award any remedies that would not have been available In a court of law for the claims
presented in arbitration. The Arbitrator shall apply the state or federal substantive law, or both, as is
applicable.
f. The Arbitrator may hear motions to dismiss and/or motions for summary judgment and will apply the
standards of the Federal Rules of Civil Procedure governing such motions.
g. The Arbitrator's decision or award shall be in writing with findings of fact and conclusions of law.
h. The Arbitrator may issue orders to protect the confidentiality of proprietary information, trade secrets,
or other sensitive information. Subject to the discretion of the Arbitrator or agreement of the parties,
any person having a direct interest in the arbitration may attend the arbitration hearing. The Arbitrator
may exclude any non-party from any part of the hearing.
i. Either CONTRACTOR or DOORDASH may apply to a court of competent jurisdiction for temporary or
preliminary injunctive relief on the ground that without such relief the arbitration provided in this
paragraph may be rendered ineffectual.
6. Nothing in this Mutual Arbitration Provision prevents you from making a report to or filing a claim or charge
with the Equal Employment Opportunity Commission, U.S. Department of Labor, U.S. Securities and Exchange
Commission, National Labor Relations Board, or Office of Federal Contract Compliance Programs. Nothing in
this Mutual Arbitration Provision prevents the investigation by a government agency of any report, claim or
charge otherwise covered by this Mutual Arbitration Provision. This Mutual Arbitration Provision also does
not prevent federal administrative agencies from adjudicating claims and awarding remedies based on those
claims, even if the claims would otherwise be covered by this Mutual Arbitration Provision. Nothing in this
Mutual Arbitration Provision prevents or excuses a party from satisfying any conditions precedent and/or
exhausting administrative remedies under applicable law before bringing a claim in arbitration. DOORDASH
will not retaliate against CONTRACTOR for filing a claim with an administrative agency or for exercising rights
(individually or in concert with others) under Section 7 of the National Labor Relations Act. Disputes between
the parties that may not be subject to predispute arbitration agreement, including as provided by an Act of
https://www.doordash.com/dasher/us/ica/

7/9

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

194a

Congress or lawful, enforceable Executive Order, are excluded from the coverage of this Mutual Arbitration
Provision.

7. The AAA Rules may be found at www.adr.ora or by searching for "AAA Commercial Arbitration Rules" using a
service such as www.aooale.com or www.bina.com or by asking DOORDASH's General Counsel to provide a
copy.
8. CONTRACTOR’S Right to Pot Out of Arbitration Provision. Arbitration is not a mandatory condition of
CONTRACTOR'S contractual relationship with DOORDASH, and therefore CONTRACTOR may submit a
statement notifying DOORDASH that CONTRACTOR wishes to opt out and not be subject to this MUTUAL
ARBITRATION PROVISION. In order to opt out, CONTRACTOR must notify DOORDASH of CONTRACTOR'S
intention to opt out by sending an email to dasheroptout@doordash.com stating CONTRACTOR'S intention to
opt out. in order to be effective, CONTRACTOR’S opt out notice must be provided within 30 days of the
effective date of this Agreement. If CONTRACTOR opts out as provided in this paragraph, CONTRACTOR will
not be subject to any adverse action from DOORDASH as a consequence of that decision and he/she may
pursue available legal remedies without regard to this Mutual Arbitration Provision. If CONTRACTOR does not
opt out within 30 days of the effective date of this Agreement, CONTRACTOR and DOORDASH shall be
deemed to have agreed to this Mutual Arbitration Provision. CONTRACTOR has the right to consult with
counsel of CONTRACTOR'S choice concerning this Mutual Arbitration Provision (or any other provision of this
Agreement
9. This Mutual Arbitration Provision is the full and complete agreement relating to the formal resolution of
disputes covered by this Mutual Arbitration Provision. In the event any portion of this Mutual Arbitration
Provision is deemed unenforceable, the remainder of this Mutual Arbitration Provision will be enforceable.
The award issued by the Arbitrator may be entered in any court of competent jurisdiction.

XII. TERMINATION OF AGREEMENT
1. CONTRACTOR may terminate this Agreement upon seven (7) days written notice. DOORDASH may terminate
this Agreement and deactivate CONTRACTOR’S Dasher account only for the reasons set forth in the
DOORDASH Deactivation Policy (http://www.doordash.com/deactivationpolicy), or for a material breach of this
Agreement. Notwithstanding any other provision in this Agreement, DoorDash reserves the right to modify
the Deactivation Policy if, in DoorDash’s good faith and reasonable discretion, it is necessary to do so for the
safe and/or effective operation of the DoorDash platform. DOORDASH shall provide notice of any such
changes to CONTRACTOR via e-mail. Changes to the Deactivation Policy shall be effective and binding on
the parties upon CONTRACTOR’S continued use of the DOORDASH platform following DOORDASH’s e-mail
notice of such modifications. Nothing will prevent CONTRACTOR from attempting to negotiate an exemption
from any modification to the Deactivation Policy.
2. CONTRACTOR'S and DOORDASH’s obligations and rights arising under the Mutual Arbitration Provision of
this Agreement shall survive termination of this Agreement. Notwithstanding any other provision in this
Agreement, the Deactivation Policy is subject to change; such changes shall be effective and binding on the
parties upon DOORDASH’S provision of notice to CONTRACTOR via e-mail.

XIII. ENTIRE AGREEMENT, TRANSFERABILITY, AND WAIVER
1. This Agreement shall constitute the entire agreement and understanding between the parties with respect to
the subject matter of this Agreement and shall not be modified, altered, changed or amended in any respect,
unless in writing and signed by both parties. Before accepting any modifications, alterations, changes or
amendments, CONTRACTOR shall have the right to discuss any proposed changes with DOORDASH and
consider whether to continue his/her contractual relationship with DOORDASH. This Agreement supersedes
any prior contract between the parties. To the extent DOORDASH's consumer facing Terms and Conditions
Agreement (or updated consumer facing Terms and Conditions Agreement, if applicable) is inconsistent or
conflicts with this Agreement, this Agreement controls. However, the decision to opt-out of the Mutual
Arbitration Provision in this Agreement does not affect the enforceability of any arbitration agreement in the
https://www.doordash.com/dasher/us/ica/

8/9

195a

EXHIBIT H

American Arbitration Association
®
196a

EMPLOYMENT ARBITRATION RULES
DEMAND FOR ARBITRATION

To ensure your demand is processed promptly, please include a copy of the Arbitration Agreement, Plan or Contract.
Mediation: ‫ ؛؛‬you would like the AAA to contact the other parties and attempt to arrange mediation, please check this box ٥ .
!.Parties (Claimant)
Name of Claimant: Anfqnc Evans

Representatives Name (if known): Shannon LSsRiodan, Anne Kramer

Address:

Firm (if applicable): Lichten & Liss-Riordan, p.c.

c/o Lichten & Liss-Riordan, p.c.
729 Boylston Street, Suite 2000

Representatives Address:
729 Boylston Street, Suite 2000

Zip Code: 0‫ﻷ‬

City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.: 617-994-5801

Email Address:

Zip Code: 02‫ئ‬

City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.: 617-994-5801

Email Address: sliss@llrlaw.com; akramer@llrlaw.com

Parties (Respondent)
Name of Respondent: DoorDash, Inc.

Representative's Name (if known):

Address:

Firm (if applicable):

901 Market St., 6th Floor

Representative's Address:

City: San Francisco

State: CA

Phone No.:

Fax No,:

Zip Code: 94‫ح‬

Email Address:

City:

State:

Phone No.:

Fax No.:

Zip Code:

Email Address:

Claim: What was/is the employee/worker's annual wage range? H Less than $100,000 ٥ $100,000-$250,000 ٥ Over $250,000
Note: Th/s question is required by California law.
Claim involves: H Statutorily Proterted Rights □ Non-Statutorily
Protected Rights

Amount of Claim:

In detail, please describe the nature of each claim. You may attach additional pages if necessary:

See Exhibit A

Other Relief Sought: IZI Attorneys Fees 1Z) Interest IZI Arbitration Costs ٥ Punitive/Exemplary D Other
Please describe the qualifications for arbitrator(s) to hear this dispute:

Hearing: Estimated time needed for hearings overall:
Hearing Locale: Los Angeles, CA

hours or

days

□ Requested by Claimant 0 Locale provision included in the contract

Filing Fee requirement or $300 (max amount per AAA)
Filing by Company: ٥ $2,200 single arbitrator ٥ $2,800 three arbitrator panel
Notice: To begin proceedings, please send a copy of this Demand and the Arbitration Agreement, along with filing fee as provided for in the Rules, to:
American Arbitration Association, Case Filing Services, 1101 Laurel Oak Road, Suite 100, Voorhees, NJ 08043. Send the original Demand to the Respondent.

2：:1

Signature by be signed by ^resentative):

Mi/

Date:

5/31/2018

Pursuant to Section 1284.3 of the Caiifornia Code of Civil Procedure, consumers with a gross monthly income of less than 300% of the federal poverty guidelines are
entitled to a waiver of arbitration fees and costs, exclusive of arbitrator fees. This law applies to all consumer agreements subject to the California Arbitration Act, and to
all consumer arbitrations conducted in California. Only those disputes arising out of employer plans are included in the consumer definition. If you believe that you meet
these requirements, you must submit to the AAA a declaration under oath regarding your monthly income and the number of persons in your household. Please contact
the AAAs Western Case Management Center at1-8٥٥-77S-7879. If you have any questions regarding the waiver of administrative fees, AAA Case Filing Se^ices can be
reached at 877-495-4185. Please visit our website at wmv.adr.org if you would like to file this case online. AAA Customer Se^ice can be reached at 800-778-7879.

197a

EXHIBIT A

198a
Arbitration Demand
Claimant Anique Evans brings this claim against DoorDash, Inc. (“DoorDash”)
challenging DoorDash’s misclassification of her as an independent contractor and its
resulting wage violations.
DoorDash provides on-demand food delivery services to customers at their
homes and businesses through its mobile phone application and website. To use
DoorDash, a customer orders takeout food from a list of restaurants on DoorDash’s
phone application or website, and a nearby DoorDash delivery driver is notified. Once
the delivery driver accepts the request by tapping a button on their phone, he or she
drives to the restaurant to pick up the customer’s order and then drives to the
customer’s location to deliver it. After the delivery, DoorDash collects the payment from
the customer, takes its fee, and then distributes the remainder to the delivery driver.
Delivery drivers must provide or pay for their own smartphone and car. DoorDash
delivery drivers do not need special qualifications or experience apart from a valid
driver’s license.
Delivery drivers receive customer ratings in the form of "star ratings” at the end of
every delivery. These ratings are out of 5 stars, with 5 stars being the highest rating
and 1 star being the lowest. DoorDash utilizes this real-time customer feedback about
delivery drivers to monitor drivers and decide when a delivery driver may need to be
issued a warning or terminated. DoorDash also tracks other metrics for delivery drivers
such as their acceptance rates and may suspend or terminate delivery drivers whose
ratings it deems to be too low. When delivery drivers refuse too many orders,
DoorDash may end their shifts.

1

199a
Anique Evans has worked as a DoorDash delivery driver since approximately
2016 in the Los Angeles, California area. Like all other DoorDash delivery drivers,
he/she was subject to a standard form contract, provided by DoorDash, which drivers
were not able to negotiate. Throughout her time working for DoorDash, Claimant was
classified as an independent contractor rather than an employee. By misclassifying
workers like Claimant, DoorDash has required them to pay necessary business
expenses (such as for their vehicles, gas, smartphone, and data plan expenses). In
addition, Claimant has not been paid minimum wage for all hours worked.
Claimant brings this claim to challenge her classification as an independent
contractor, rather than an employee under California law, and the resulting violations of
the California Labor Code stemming from that practice including: (1) violation of Cal.
Lab. Code § 2802 for failure to reimburse necessary business expenses; & (2) violation
of Cal. Lab. Code §§1197 and 1194 for failure to pay minimum wage for all hours
worked.

2

200a

EXHIBIT B

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

201a

3. CONTRACTOR agrees to indemnify, protect and hold harmless DOORDASH, including all parent, subsidiary,
and/or affiliated companies, as well as its and their past and present successors, assigns, officers, owners,
directors, agents, representatives, attorneys, and employees, from any and all tax liabilities and
responsibilities for payment of all federal, state and local taxes, including, but not limited to all payroll taxes,
self-employment taxes, workers compensation premiums, and any contributions imposed or required under
federal, state and local laws, with respect to CONTRACTOR and CONTRACTOR'S Personnel.
4. CONTRACTOR shall be responsible for, indemnify and hold harmless DOORDASH, including all parent,
subsidiary, and/or affiliated companies, as well as its and their past and present successors, assigns, officers,
owners, directors, agents, representatives, attorneys, and employees, from all costs of CONTRACTOR'S
business, including, but not limited to, the expense and responsibility for any and all applicable insurance,
local, state or federal licenses, permits, taxes, and assessments of any and all regulatory agencies, boards or
municipalities.

XI. MUTUAL ARBITRATION PROVISION
1. CONTRACTOR and DOORDASH mutually agree to resolve any justiciable disputes between them exclusively
through final and binding arbitration instead of filing a lawsuit in court. This arbitration agreement is governed
by the Federal Arbitration Act (9 U.S.C. §§ 1-16) {"FAA") and shall apply to any and all claims arising out of or
relating to this Agreement, CONTRACTOR'S classification as an independent contractor, CONTRACTOR'S
provision of Contracted Services to consumers, the payments received by CONTRACTOR for providing
services to consumers, the termination of this Agreement, and all other aspects of CONTRACTOR'S
relationship with DOORDASH, past, present or future, whether arising under federal, state or local statutory
and/or common law, including without limitation harassment, discrimination or retaliation claims and claims
arising under or related to the Civil Rights Act of 1964 (or its state or local equivalents), Americans With
Disabilities Act (or its state or local equivalents), Age Discrimination in Employment Act (or its state or local
equivalents), Family Medical Leave Act (or its state or local equivalents), or Fair Labor Standards Act (or its
state or local equivalents), state and local wage and hour laws, state and local statutes or regulations
addressing the same or similar subject matters, and all other federal, state or local claims arising out of or
relating to CONTRACTOR'S relationship or the termination of that relationship with DOORDASH. The parties
expressly agree that this Agreement shall be governed by the FAA even in the event CONTRACTOR and/or
DOORDASH are otherwise exemptedfrom the FAA. Any disputes in this regard shall be resolved exclusively
by an arbitrator. In the event, but only in the event, the arbitrator determines the FAA does not apply, the state
law governing arbitration agreements in the state in which the CONTRACTOR operates shall apply.
2. If either CONTRACTOR or DOORDASH wishes to initiate arbitration, the initiating party must notify the other
party in writing via certified mail, return receipt requested, or hand delivery within the applicable statute of
limitations period. This demand for arbitration must include (1) the name and address of the party seeking
arbitration, (2) a statement of the legal and factual basis of the claim, and (3) a description of the remedy
sought. Any demand for arbitration by CONTRACTOR must be delivered to General Counsel, 901 Market
Street, 6،h Floor, San Francisco, California 94103.
3. Class Action Waiver. CONTRACTOR and DOORDASH mutually agree that by entering into this agreement to
arbitrate, both waive their right to have any dispute or claim brought, heard or arbitrated as, or to participate
in, a class action, collective action and/or representative action, and an arbitrator shall not have any authority
to hear or arbitrate any class, collective or representative action ("Class Action Waiver"). Notwithstanding any
other clause contained in this Agreement or the AAA Rules, as defined below, any claim that all or part of this
Class Action Waiver is unenforceable, unconscionable, void or voidable may be determined only by a court of
competent jurisdiction and not by an arbitrator. In any case in which (1) the dispute is filed as a class,
collective, or representative action and (2) there is a final judicial determination that all or part of the Class
Action Waiver is unenforceable, the class, collective and/or representative action to that extent must be
litigated in a civil court of competent jurisdiction, but the portion of the Class Action Waiver that is enforceable
https://www.doordash.com/dash0r/us/ica/

6/9

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

5/9/2018

202a

shall be enforced in arbitration. Notwithstanding any other clause contained in this Agreement or the AAA
Rules, as defined below, any claim that all or part of this Class Action Waiver is unenforceable,
unconscionable, void or voidable may be determined only by a court of competent jurisdiction and not by an
arbitrator. All other disputes with respect to whether this Mutual Arbitration Provision is unenforceable,
unconscionable, applicable, valid, void or voidable shall be determined exclusively by an arbitrator, and not
by any court.
4. CONTRACTOR agrees and acknowledges that entering into this arbitration agreement does not change
CONTRACTOR'S status as an independent contractor in fact and in law, that CONTRACTOR is not an
employee of DOORDASH or its customers and that any disputes in this regard shall be subject to arbitration
as provided In this agreement.
5. Any arbitration shall be governed by the American Arbitration Association Commercial Arbitration Rules ("AAA
Rules"), except as follows:
a. The arbitration shall be heard by one arbitrator selected in accordance with the AAA Rules. The
Arbitrator shall be an attorney with experience in the law underlying the dispute.
b. If the parties cannot otherwise agree on a location for the arbitration, the arbitration shall take place
within 45 miles of CONTRACTOR'S residence as of the effective date of this Agreement.
c. Unless applicable law provides otherwise, as determined by the Arbitrator, the parties agree that
DOORDASH shaii pay all of the Arbitrator's fees and costs.
d. The Arbitrator may issue orders (including subpoenas to third parties) allowing the parties to conduct
discovery sufficient to allow each party to prepare that party's claims and/or defenses, taking into
consideration that arbitration is designed to be a speedy and efficient method for resolving disputes.
e. Except as provided in the Class Action Waiver, the Arbitrator may award all remedies to which a party is
entitled under applicable law and which would otherwise be available in a court of law, but shall not be
empowered to award any remedies that would not have been available In a court of law for the claims
presented in arbitration. The Arbitrator shall apply the state or federal substantive law, or both, as is
applicable.
f. The Arbitrator may hear motions to dismiss and/or motions for summary judgment and will apply the
standards of the Federal Rules of Civil Procedure governing such motions.
g. The Arbitrator's decision or award shall be in writing with findings of fact and conclusions of law.
h. The Arbitrator may issue orders to protect the confidentiality of proprietary information, trade secrets,
or other sensitive information. Subject to the discretion of the Arbitrator or agreement of the parties,
any person having a direct interest in the arbitration may attend the arbitration hearing. The Arbitrator
may exclude any non-party from any part of the hearing.
i. Either CONTRACTOR or DOORDASH may apply to a court of competent jurisdiction for temporary or
preliminary injunctive relief on the ground that without such relief the arbitration provided in this
paragraph may be rendered ineffectual.
6. Nothing in this Mutual Arbitration Provision prevents you from making a report to or filing a claim or charge
with the Equal Employment Opportunity Commission, U.S. Department of Labor, U.S. Securities and Exchange
Commission, National Labor Relations Board, or Office of Federal Contract Compliance Programs. Nothing In
this Mutual Arbitration Provision prevents the investigation by a government agency of any report, claim or
charge otherwise covered by this Mutual Arbitration Provision. This Mutual Arbitration Provision also does
not prevent federal administrative agencies from adjudicating claims and awarding remedies based on those
claims, even if the claims would otherwise be covered by this Mutual Arbitration Provision. Nothing in this
Mutual Arbitration Provision prevents or excuses a party from satisfying any conditions precedent and/or
exhausting administrative remedies under applicable law before bringing a claim in arbitration. DOORDASH
will not retaliate against CONTRACTOR for filing a claim with an administrative agency or for exercising rights
(individually or in concert with others) under Section 7 of the National Labor Relations Act. Disputes between
the parties that may not be subject to predispute arbitration agreement, including as provided by an Act of
https://www.doordash.com/dasher/us/ica/

7/9

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

203a

Congress or lawful, enforceable Executive Order, are excluded from the coverage of this Mutual Arbitration
Provision.

7. The AAA Rules may be found at www.adr.ora or by searching for "AAA Commercial Arbitration Rules" using a
service such as www.aooale.com or www.bina.com or by asking DOORDASH's General Counsel to provide a
copy.
8. CONTRACTOR'S Right to Opt Out of Arbitration Provision. Arbitration is not a mandatory condition of
CONTRACTOR'S contractual relationship with DOORDASH, and therefore CONTRACTOR may submit a
statement notifying DOORDASH that CONTRACTOR wishes to opt out and not be subject to this MUTUAL
ARBITRATION PROVISION. In order to opt out, CONTRACTOR must notify DOORDASH of CONTRACTOR'S
intention to opt out by sending an email to dasheroptout@doordash.com stating CONTRACTOR'S intention to
opt out. In order to be effective, CONTRACTOR'S opt out notice must be provided within 30 days of the
effective date of this Agreement. If CONTRACTOR opts out as provided in this paragraph, CONTRACTOR will
not be subject to any adverse action from DOORDASH as a consequence of that decision and he/she may
pursue available legal remedies without regard to this Mutual Arbitration Provision. If CONTRACTOR does not
opt out within 30 days of the effective date of this Agreement, CONTRACTOR and DOORDASH shall be
deemed to have agreed to this Mutual Arbitration Provision. CONTRACTOR has the right to consult with
counsel of CONTRACTOR'S choice concerning this Mutual Arbitration Provision {or any other provision of this
Agreement.
9. This Mutual Arbitration Provision is the full and complete agreement relating to the formal resolution of
disputes covered by this Mutual Arbitration Provision. In the event any portion of this Mutual Arbitration
Provision is deemed unenforceable, the remainder of this Mutual Arbitration Provision will be enforceable.
The award issued by the Arbitrator may be entered in any court of competent jurisdiction.

XII. TERMINATION OF AGREEMENT
1. CONTRACTOR may terminate this Agreement upon seven (7) days written notice. DOORDASH may terminate
this Agreement and deactivate CONTRACTOR’S Dasher account only for the reasons set forth in the
DOORDASH Deactivation Policy {http://www.doordash.com/deactivationpolicy), or for a material breach of this
Agreement. Notwithstanding any other provision in this Agreement, DoorDash reserves the right to modify
the Deactivation Policy if, in DoorDash’s good faith and reasonable discretion, it is necessary to do so for the
safe and/or effective operation of the DoorDash platform. DOORDASH shall provide notice of any such
changes to CONTRACTOR via e-mail. Changes to the Deactivation Policy shall be effective and binding on
the parties upon CONTRACTOR’S continued use of the DOORDASH platform following DOORDASH’s e-mail
notice of such modifications. Nothing will prevent CONTRACTOR from attempting to negotiate an exemption
from any modification to the Deactivation Policy.
2. CONTRACTOR'S and DOORDASH's obligations and rights arising under the Mutual Arbitration Provision of
this Agreement shall survive termination of this Agreement. Notwithstanding any other provision in this
Agreement, the Deactivation Policy is subject to change; such changes shall be effective and binding on the
parties upon DOORDASH’S provision of notice to CONTRACTOR via e-mail.

XIII. ENTIRE AGREEMENT, TRANSFERABILITY, AND WAIVER
1. This Agreement shall constitute the entire agreement and understanding between the parties with respect to
the subject matter of this Agreement and shali not be modified, altered, changed or amended in any respect,
unless in writing and signed by both parties. Before accepting any modifications, alterations, changes or
amendments, CONTRACTOR shall have the right to discuss any proposed changes with DOORDASH and
consider whether to continue his/her contractual relationship with DOORDASH. This Agreement supersedes
any prior contract between the parties. To the extent DOORDASH's consumer facing Terms and Conditions
Agreement {or updated consumer facing Terms and Conditions Agreement, if applicable) is inconsistent or
conflicts with this Agreement, this Agreement controls. However, the decision to opt-out of the Mutual
Arbitration Provision in this Agreement does not affect the enforceability of any arbitration agreement in the
https://www.doordash.com/dasher/us/ica/

8/9

204a

EXHIBIT I

©

American Arbitration Association
®
205a

EMPLOYMENT ARBITRATION RULES
DEMAND FOR ARBITRATION

To ensure your demand is processed promptly, please include a copy of the Arbitration Agreement, Plan or Contract.
Mediation: If you would like the AAA to contact the other parties and attempt to arrange mediation, please check this box D .

Parties (Claimant)

Name of Claimant: Michael Goldstein

Representative's Name (if known): shannon Liss-Riordan, Arme Kramer

Address:

Firm (if applicable): Lichten & Liss-Riordan, p.c.

c/o Lichten & Liss-Riordan, P.C.
729 Boylston Street, Suite 2000

Representative's Address:

729 Boylston Street, Sirite 2000

Zip Code: 0٩٥

City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.: 617-994-5801

City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.: 617-994-5801

Email Address:

Email Address: sliss@llrlaw.com; akramer@llrlaw.coni

Name of Respondent: DoorDash, Inc,

Representative's Name (if known):

Address:

Firm (if applicable):

901 Market St., 6th Floor

Zip Code: 02‫ئ‬

Representative's Address:

City: San Francisco

State: CA

Phone No.:

Fax No.:

Zip Code: 9،‫؛‬٥

City:

State:

Phone No.:

Fax No.:

Zip Code:

Email Address:

Email Address:

Claim: What was/is the employee/worker's annual wage range? IZ1 Less than $100,000 ٥ $100,000-$250,000 ٥ Over $250,000
Note: This question is required by California law.
Claim involves: IZl Statutorily Protected Rights ٥ Non-Statutorily
Protected Rights

Amount of Claim:

In detail, please describe the nature of each claim. You may attach additional pages if necessary:

See Exhibit A

Other Relief Sought: E Attorneys Fees E Interest E Arbitration Costs CH Punitive/Exemplary CH Other
Please describe the qualifications for arbltrator(s) to hear this dispute:

Hearing: Estimated time needed for hearings overall:

Hearing Locale: Los Angeles, CA

hours or

days

FI Requested by Claimant E Locale provision included in the contract

Filing Fee requirement or $300 (max amount per AAA)
Filing by Company: ٥ $2,200 single arbitrator CH $2,800 three arbitrator panel
Notice: To begin proceedings, please send a copy of this Demand and the Arbitration Agreement, along with filing fee as provided for in the Rules, to:
American Arbitration Association, Case Filing Services, 1101 Laurel Oak Road, Suite 100, Voorhees, NJ 08043. Send the original Demand to the Respondent.
Signatujp ‫؛‬may be signed by a representative):

Ml

Date:

5/31/2018

Pursuant to Section 1284.3 of the California Code of Civil Procedure, consumers with a gross monthly income of less than 300% of the federal poverty guidelines are
entitled to a waiver of arbitration fees and costs, exclusive of arbitrator fees. This law applies to all consumer agreements subject to the California Arbitration Act, and to
ail consumer arbitrations conducted in California. Only those disputes arising out of employer plans are included in the consumer definition. If you believe that you meet
these requirements, you must submit to the AAA a declaration under oath regarding your monthly income and the number of persons in your household. Please contact
the AAA’s Western Case Management Center atl-800-778-7879. If you have any questions regarding the waiver of administrative fees, AAA Case Filing Services can be
reached at 877-495-4185. Please visit our website at www.adr.org if you would like to fie this case online. AAA Customer Sen/ice can be reached at 800-778-7879.

206a

EXHIBIT A

207a
Arbitration Demand
Claimant Michael Goldstein brings this claim against DoorDash, Inc.
(“DoorDash'') challenging DoorDash’s misclassification of him as an Independent
contractor and its resulting wage violations.
DoorDash provides on-demand food delivery services to customers at their
homes and businesses through its mobile phone application and website. To use
DoorDash, a customer orders takeout food from a list of restaurants on DoorDash’s
phone application or website, and a nearby DoorDash deliver driver is notified. Once
the delivery driver accepts the request by tapping a button on their phone, he or she
drives to the restaurant to pick up the customer’s order and then drives to the
customer’s location to deliver it. After the delivery, DoorDash collects the payment from
the customer, takes its fee, and then distributes the remainder to the delivery driver.
Delivery drivers must provide or pay for their own smartphone and car. DoorDash
delivery drivers do not need special qualifications or experience apart from a valid
driver's license.
Delivery drivers receive customer ratings in the form of “star ratings” at the end of
every delivery. These ratings are out of 5 stars, with 5 stars being the highest rating
and 1 star being the lowest. DoorDash utilizes this real-time customer feedback about
delivery drivers to monitor drivers and decide when a delivery driver may need to be
issued a warning or terminated. DoorDash also tracks other metrics for delivery drivers
such as their acceptance rates and may suspend or terminate delivery drivers whose
ratings it deems to be too low. When deliver drivers refuse too many orders.

DoorDash may end their shifts.

1

208a
Michael Goldstein has worked as a DoorDash delivery driver since approximately
August 2017 in the Los Angeles, California area. Like all other DoorDash delivery
drivers, he was subject to a standard form contract, provided by DoorDash, which
drivers were not able to negotiate. Throughout his time working for DoorDash, Claimant
was classified as an independent contractor rather than an employee. By misclassifying
workers like Claimant, DoorDash has required them to pay necessary business
expenses (such as for their vehicles, gas, smartphone, and data plan expenses). In
addition, Claimant has not been paid minimum wage for all hours worked.
Claimant brings this claim to challenge his classification as an independent
contractor, rather than an employee under California law, and the resulting violations of
the California Labor Code stemming from that practice including: (1) violation of Cal.
Lab. Code § 2802 for failure to reimburse necessary business expenses; & (2) violation
of Cal. Lab. Code §§1197 and 1194 for failure to pay minimum wage for all hours
worked.

2

209a

EXHIBIT B

5/9/2018

DoorDash Food Delivery ‫ ؛‬INDEPENDENT CONTRACTOR AGREEMENT

3. CONTRACTOR agrees to indemnify, protect and 210a
hold harmless DOORDASH, including ail parent, subsidiary,
and/or affiliated companies, as weli as its and their past and present successors, assigns, officers, owners,

directors, agents, representatives, attorneys, and employees, from any and all tax liabilities and
responsibilities for payment of all federal, state and local taxes, including, but not limited to all payroll taxes,
self-employment taxes, workers compensation premiums, and any contributions imposed or required under
federal, state and local laws, with respect to CONTRACTOR and CONTRACTOR'S Personnel.
4. CONTRACTOR shall be responsible for, indemnify and hold harmless DOORDASH, Including all parent,
subsidiary, and/or affiliated companies, as weli as its and their past and present successors, assigns, officers,
owners, directors, agents, representatives, attorneys, and employees, from all costs of CONTRACTOR'S
business, including, but not limited to, the expense and responsibility for any and all applicable insurance,
local, state or federal licenses, permits, taxes, and assessments of any and all regulatory agencies, boards or
municipalities.

XI. MUTUAL ARBITRATION PROVISION
1. CONTRACTOR and DOORDASH mutually agree to resolve any justiciable disputes between them exclusively
through final and binding arbitration Instead of filing a lawsuit in court. This arbitration agreement is governed
by the Federal Arbitration Act (9 U.S.C. §§ 1-16) ("FAA") and shall apply to any and all claims arising out of or
relating to this Agreement, CONTRACTOR'S classification as an independent contractor, CONTRACTOR'S
provision of Contracted Services to consumers, the payments received by CONTRACTOR for providing
services to consumers, the termination of this Agreement, and all other aspects of CONTRACTOR'S
relationship with DOORDASH, past, present or future, whether arising under federal, state or local statutory
and/or common law, including without limitation harassment, discrimination or retaliation claims and claims
arising under or related to the Civil Rights Act of 1964 (or its state or local equivalents), Americans With
Disabilities Act (or Its state or local equivalents), Age Discrimination in Employment Act (or its state or local
equivalents), Family Medical Leave Act (or its state or local equivalents), or Fair Labor Standards Act (or Its
state or local equivalents), state and local wage and hour laws, state and local statutes or regulations
addressing the same or similar subject matters, and all other federal, state or local claims arising out of or
relating to CONTRACTOR'S relationship or the termination of that relationship with DOORDASH. The parties
expressly agree that this Agreement shall be governed by the FAA even in the event CONTRACTOR and/or
DOORDASH are otherwise exemptedfrom the FAA. Any disputes in this regard shall be resolved exclusively
by an arbitrator. In the event, but only In the event, the arbitrator determines the FAA does not apply, the state
law governing arbitration agreements in the state in which the CONTRACTOR operates shall apply.
2. If either CONTRACTOR or DOORDASH wishes to initiate arbitration, the initiating party must notify the other
party in writing via certified mall, return receipt requested, or hand delivery within the applicable statute of
limitations period. This demand for arbitration must include (1) the name and address of the party seeking
arbitration, (2) a statement of the legal and factual basis of the claim, and (3) a description of the remedy
sought. Any demand for arbitration by CONTRACTOR must be delivered to General Counsel, 901 Market
Street, 6th Floor, San Francisco, California 94103.
3. Class Action Waiver. CONTRACTOR and DOORDASH mutually agree that by entering into this agreement to
arbitrate, both waive their right to have any dispute or claim brought, heard or arbitrated as, or to participate
in, a class action, collective action and/or representative action, and an arbitrator shall not have any authority
to hear or arbitrate any class, collective or representative action ("Class Action Waiver"). Notwithstanding any
other clause contained in this Agreement or the AAA Rules, as defined below, any claim that all or part of this
Class Action Waiver is unenforceable, unconscionable, void or voidable may be determined only by a court of
competent jurisdiction and not by an arbitrator. In any case in which (1) the dispute is filed as a class,
collective, or representative action and (2) there is a final judicial determination that all or part of the Class
Action Waiver is unenforceable, the class, collective and/or representative action to that extent must be
litigated in a civil court of competent jurisdiction, but the portion of the Class Action Waiver that is enforceable
https://www.doordash.com/dasher/us/ica/

6/9

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

5/9/2018

211a

shall be enforced In arbitration. Notwithstanding any other clause contained in this Agreement or the AAA
Rules, as defined below, any claim that all or part of this Class Action Waiver is unenforceable,
unconscionable, void or voidable may be determined only by a court of competent jurisdiction and not by an
arbitrator. All other disputes with respect to whether this Mutual Arbitration Provision is unenforceable,
unconscionable, applicable, valid, void or voidable shall be determined exclusively by an arbitrator, and not
by any court.
4. CONTRACTOR agrees and acknowledges that entering into this arbitration agreement does not change
CONTRACTOR'S status as an independent contractor in fact and in law, that CONTRACTOR is not an
employee of DOORDASH or its customers and that any disputes in this regard shall be subject to arbitration
as provided in this agreement.
5. Any arbitration shall be governed by the American Arbitration Association Commercial Arbitration Rules ("AAA
Rules"), except as follows:
a. The arbitration shall be heard by one arbitrator selected in accordance with the AAA Rules. The
Arbitrator shall be an attorney with experience in the law underlying the dispute.
b. If the parties cannot otherwise agree on a location for the arbitration, the arbitration shall take place
within 45 miles of CONTRACTOR'S residence as of the effective date of this Agreement.

I

c. Unless applicable law provides otherwise, as determined by the Arbitrator, the parties agree that
DOORDASH shall pay all of the Arbitrator's fees and costs.
d. The Arbitrator may issue orders (including subpoenas to third parties) allowing the parties to conduct
discovery sufficient to allow each party to prepare that party’s claims and/or defenses, taking into
consideration that arbitration is designed to be a speedy and efficient method for resolving disputes.
e. Except as provided in the Class Action Waiver, the Arbitrator may award all remedies to which a party is
entitled under applicable law and which would otherwise be available in a court of law, but shall not be
empowered to award any remedies that would not have been available in a court of law for the claims
presented in arbitration. The Arbitrator shall apply the state or federal substantive law, or both, as is
applicable.
f. The Arbitrator may hear motions to dismiss and/or motions for summary judgment and will apply the
standards of the Federal Rules of Civil Procedure governing such motions.
g. The Arbitrator's decision or award shall be in writing with findings of fact and conclusions of law.
h. The Arbitrator may Issue orders to protect the confidentiality of proprietary information, trade secrets,
or other sensitive information. Subject to the discretion of the Arbitrator or agreement of the parties,
any person having a direct interest in the arbitration may attend the arbitration hearing. The Arbitrator
may exclude any non-party from any part of the hearing.
i. Either CONTRACTOR or DOORDASH may apply to a court of competent jurisdiction for temporary or
preliminary injunctive relief on the ground that without such relief the arbitration provided in this
paragraph may be rendered ineffectual.
6. Nothing In this Mutual Arbitration Provision prevents you from making a report to or filing a claim or charge
with the Equal Employment Opportunity Commission, U.S. Department of Labor, U.S. Securities and Exchange
Commission, National Labor Relations Board, or Office of Federal Contract Compliance Programs. Nothing in
this Mutual Arbitration Provision prevents the investigation by a government agency of any report, claim or
charge otherwise covered by this Mutual Arbitration Provision. This Mutual Arbitration Provision also does
not prevent federal administrative agencies from adjudicating claims and awarding remedies based on those
claims, even if the claims would otherwise be covered by this Mutual Arbitration Provision. Nothing in this
Mutual Arbitration Provision prevents or excuses a party from satisfying any conditions precedent and/or
exhausting administrative remedies under applicable law before bringing a claim in arbitration. DOORDASH
will not retaliate against CONTRACTOR for filing a claim with an administrative agency or for exercising rights
(Individually or In concert with others) under Section 7 of the National Labor Relations Act. Disputes between
the parties that may not be subject to predispute arbitration agreement, including as provided by an Act of
https://www.doordash.com/dashe٢/us/ica/

71‫لأ‬

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

212a

Congress or lawful, enforceable Executive Order, are excluded from the coverage of this Mutual Arbitration
Provision.

7. The AAA Rules may be found at www.adr.ora or by searching for ,AAA Commercial Arbitration Rules" using a
service such as www.aooale.com or www.bina.com or by asking DOORDASH's General Counsel to provide a
copy.
8. CONTRACTOR'S Right to Opt Out of Arbitration Provision. Arbitration is not a mandatory condition of
CONTRACTOR'S contractual relationship with DOORDASH, and therefore CONTRACTOR may submit a
statement notifying DOORDASH that CONTRACTOR wishes to opt out and not be subject to this MUTUAL
ARBITRATION PROVISION. In order to opt out, CONTRACTOR must notify DOORDASH of CONTRACTOR'S
intention to opt out by sending an email to dasheroptout@doordash.com stating CONTRACTOR'S intention to
opt out. in order to be effective, CONTRACTOR'S opt out notice must be provided within 30 days of the
effective date of this Agreement. If CONTRACTOR opts out as provided in this paragraph, CONTRACTOR will
not be subject to any adverse action from DOORDASH as a consequence of that decision and he/she may
pursue available legal remedies without regard to this Mutual Arbitration Provision. If CONTRACTOR does not
opt out within 30 days of the effective date of this Agreement, CONTRACTOR and DOORDASH shall be
deemed to have agreed to this Mutual Arbitration Provision. CONTRACTOR has the right to consult with
counsel of CONTRACTOR'S choice concerning this Mutual Arbitration Provision (or any other provision of this
Agreement.
9. This Mutual Arbitration Provision is the full and complete agreement relating to the formal resolution of
disputes covered by this Mutual Arbitration Provision. In the event any portion of this Mutual Arbitration
Provision is deemed unenforceable, the remainder of this Mutual Arbitration Provision will be enforceable.
The award issued by the Arbitrator may be entered in any court of competent jurisdiction.

XII. TERMINATION OF AGREEMENT
1. CONTRACTOR may terminate this Agreement upon seven (7) days written notice. DOORDASH may terminate
this Agreement and deactivate CONTRACTOR'S Dasher account only for the reasons set forth in the
DOORDASH Deactivation Policy (http://www.doordash.com/deactivationpolicy), or for a material breach of this
Agreement. Notwithstanding any other provision in this Agreement, DoorDash reserves the right to modify
the Deactivation Policy if, in DoorDash’s good faith and reasonable discretion, it is necessary to do so for the
safe and/or effective operation of the DoorDash platform. DOORDASH shall provide notice of any such
changes to CONTRACTOR via e-mail. Changes to the Deactivation Policy shall be effective and binding on
the parties upon CONTRACTOR’S continued use of the DOORDASH platform following DOORDASH’s e-mail
notice of such modifications. Nothing will prevent CONTRACTOR from attempting to negotiate an exemption
from any modification to the Deactivation Policy.
2. CONTRACTOR'S and DOORDASH's obligations and rights arising under the Mutual Arbitration Provision of
this Agreement shall survive termination of this Agreement. Notwithstanding any other provision in this
Agreement, the Deactivation Policy is subject to change; such changes shall be effective and binding on the
parties upon DOORDASH’S provision of notice to CONTRACTOR via e-mail.

XIII. ENTIRE AGREEMENT, TRANSFERABILITY, AND WAIVER
1. This Agreement shall constitute the entire agreement and understanding between the parties with respect to
the subject matter of this Agreement and shall not be modified, altered, changed or amended in any respect,
unless in writing and signed by both parties. Before accepting any modifications, alterations, changes or
amendments, CONTRACTOR shall have the right to discuss any proposed changes with DOORDASH and
consider whether to continue his/her contractual relationship with DOORDASH. This Agreement supersedes
any prior contract between the parties. To the extent DOORDASH's consumer facing Terms and Conditions
Agreement (or updated consumer facing Terms and Conditions Agreement, if applicable) is inconsistent or
conflicts with this Agreement, this Agreement controls. However, the decision to opt-out of the Mutual
Arbitration Provision in this Agreement does not affect the enforceability of any arbitration agreement in the
https://www.doordash.com/dasher/us/ica/

8/9

213a

EXHIBIT J

ш

American Arbitration Association
®
214a

EMPLOYMENT ARBITRATION RULES
DEMAND FOR ARBITRATION

To ensure your demand is processed promptly, please include a copy of the Arbitration Agreement, Plan or Contract.
Mediation: If you would like the AAA to contact the other parties and attempt to arrange mediation, please check this box D.

Parties (Claimant)

Name of Claimant: Giovanni Jones

Representative's Name (if known): Shannon Liss-Riordan, Anne Kramer

Address:

Firm (if applicable): Lichten & Liss-Riordan, P.C.

c/o Lichten & Liss-Riordan, P.C.
729 Boylston Street, Suite 2000

Representative's Address:

729 Boylston Street, Suite 2000

Zip Code: 0٩٥

City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.: 617-994-5801

Email Address:

City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.: 617-994-5801

Zip Code: 02٥

Email Address: sl٤ss@lirlaw.com； akramer@llrlaw.com

Parties (Respondent)

Name of Respondent: DoorDash, Inc.

Representative's Name (if known):

Address:

Firm (if applicable):

901 Market St., 6th Floor

Representative's Address:

City: San Francisco

State: CA

Phone No.:

Fax No.:

Zip Code: 94٥

Email Address:

City:

State:

Phone No.:

Fax No.:

Zip Code:

Email Address:

Claim: What was/is the employee/worker's annual wage range? 1Z1 Less than $100,000 ٥ $100,000-$250,000 D Over $250,000
Note: This question is required by California law.
Claim involves: El Statutorily Protected Rights D Non-Statutorily

Amount of Claim:

Protected Rights
In detail, please describe the nature of each claim. You may attach additional pages if necessary:

See Exhibit A

Other Relief Sought: E Attorneys Fees E Interest E Arbitration Costs ٥ Punitive/ Exemplary D Other
Please describe the qualifications for arbitrator(s) to hear this dispute:

Hearing: Estimated time needed for hearings overall:

hours or

Hearing Locale: San Francisco, CA

days

D Requested by Claimant E Locale provision included in the contract

Filing Fee requirement or $300 (max amount per AAA)
Filing by Company: ٥ $2,200 single arbitrator ٥ $2,800 three arbitrator panel
Notice: To begin proceedings, please send a copy of this Demand and the Arbitration Agreement, along with filing fee as provided for in the Rules, to:
American Arbitration Association, Case Filing Services, 1101 Laurel Oak Road, Suite 100, Voorhees, NJ 08043. Send the original Demand to the Respondent.
Signature (may be signed by a representative):

ЛЛ

у

AAX

Date:

٥‫؛‬

5/31/2018

Pursuant to Section 1284.3 of the California Code of Civil Procedure, consumers with a gross monthly income of less than 300% of the federal poverty guidelines are
entitled to a waiver of arbitration fees and costs, exclusive of arbitrator fees. This law applies to all consumer agreements subject to the California Arbitration Act, and to
all consumer arbitrations conducted in California. Only those disputes arising out of employer plans are included in the consumer definition, if you believe that you meet
these requirements, you must submit to the AAA a declaration under oath regarding your monthly income and the number of persons in your household. Please contact
the AAA's Western Case Management Center atl-800-778-7879. if you have any questions regarding the waiver of administrative fees, AAA Case Filing Services can be
reached at 877-495-4185. Please visit our website at www.adr.org if you would like to file this case online. AAA Customer Service can be reached at 800-778-7879.

215a

EXHIBIT A

216a
Arbitration Demand
Claimant Giovanni Jones brings this claim against DoorDash, Inc. (“DoorDash”)
challenging DoorDash’s misclassification of him as an independent contractor and its
resulting wage violations.
DoorDash provides on-demand food delivery services to customers at their
homes and businesses through its mobile phone application and website. To use
DoorDash, a customer orders takeout food from a list of restaurants on DoorDash’s
phone application or website, and a nearby DoorDash delivery driver is notified. Once
the delivery driver accepts the request by tapping a button on their phone, he or she
drives to the restaurant to pick up the customer’s order and then drives to the
customer’s location to deliver it. After the delivery, DoorDash collects the payment from
the customer, takes its fee, and then distributes the remainder to the delivery driver.
Delivery drivers must provide or pay for their own smartphone and car. DoorDash
delivery drivers do not need special qualifications or experience apart from a valid
driver’s license.
Delivery drivers receive customer ratings in the form of “star ratings’’ at the end of
every delivery. These ratings are out of 5 stars, with 5 stars being the highest rating
and 1 star being the lowest. DoorDash utilizes this real-time customer feedback about
delivery drivers to monitor drivers and decide when a delivery driver may need to be
issued a warning or terminated. DoorDash also tracks other metrics for delivery drivers
such as their acceptance rates and may suspend or terminate delivery drivers whose
ratings it deems to be too low. When delivery drivers refuse too many orders,
DoorDash may end their shifts.

1

217a
Giovanni Jones has worked as a DoorDash delivery driver since approximately
October 2016 in the San Jose, California area. Like all other DoorDash deliver drivers
he was subject to a standarcl form contract, provided by DoorDash, which drivers were
not able to negotiate. Throughout his time working for DoorDash, Claimant was
classified as an independent contractor rather than an employee. By misclassifying
workers like Claimant, DoorDash has required them to pay necessaty business
expenses (such as for their vehicles, gas, smartphone, and data plan expenses). In
addition, Claimant has not been paid minimum wage for all hours worked.
Claimant brings this claim to challenge his classification as an independent
contractor, ratlier than an employee under California law, and the resulting violations of
the California Labor Code stemming from that practice including: (1) violation of Cal.
Lab. Code § 2802 for failure to reimburse necessary business expenses; & (2) violation
of Cal. Lab. Code §§1197 and 1194 for failure to pay minimum wage for all hours
worked.

2

218a

EXHIBIT B

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

3. CONTRACTOR agrees to Indemnify, protect and 219a
hold harmless DOORDASH, including all parent, subsidiary,
and/or affiliated companies, as well as its and their past and present successors, assigns, officers, owners,
directors, agents, representatives, attorneys, and employees, from any and all tax liabilities and
responsibilities for payment of all federal, state and local taxes, including, but not limited to all payroll taxes,
self-employment taxes, workers compensation premiums, and any contributions imposed or required under
federal, state and local laws, with respect to CONTRACTOR and CONTRACTOR'S Personnel.
4. CONTRACTOR shall be responsible for, indemnify and hold harmless DOORDASH, including all parent,
subsidiary, and/or affiliated companies, as well as its and their past and present successors, assigns, officers,
owners, directors, agents, representatives, attorneys, and employees, from ail costs of CONTRACTOR’S
business, including, but not limited to, the expense and responsibility for any and all applicable insurance,
local, state or federal licenses, permits, taxes, and assessments of any and all regulatory agencies, boards or
municipalities.

XI. MUTUAL ARBITRATION PROVISION
1. CONTRACTOR and DOORDASH mutually agree to resolve any justiciable disputes between them exclusively
through final and binding arbitration instead of filing a lawsuit in court. This arbitration agreement is governed
by the Federal Arbitration Act (9 U.S.C. §§ 1-16) ("FAA") and shall apply to any and all claims arising out of or
relating to this Agreement, CONTRACTOR’S classification as an independent contractor, CONTRACTOR’S
provision of Contracted Services to consumers, the payments received by CONTRACTOR for providing
services to consumers, the termination of this Agreement, and all other aspects of CONTRACTOR’S
relationship with DOORDASH, past, present or future, whether arising under federal, state or local statutory
and/or common law, including without limitation harassment, discrimination or retaliation claims and claims
arising under or related to the Civil Rights Act of 1964 (or its state or local equivalents), Americans With
Disabilities Act (or its state or local equivalents), Age Discrimination in Employment Act (or its state or local
equivalents), Family Medical Leave Act (or its state or local equivalents), or Fair Labor Standards Act (or its
state or local equivalents), state and local wage and hour laws, state and local statutes or regulations
addressing the same or similar subject matters, and all other federal, state or local claims arising out of or
relating to CONTRACTOR’S relationship or the termination of that relationship with DOORDASH. The parties
expressly agree that this Agreement shall be governed by the FAA even in the event CONTRACTOR and/or
DOORDASH are otherwise exemptedfrom the FAA. Any disputes in this regard shall be resolved exclusively
by an arbitrator. In the event, but only in the event, the arbitrator determines the FAA does not apply, the state
law governing arbitration agreements in the state in which the CONTRACTOR operates shall apply.
2. If either CONTRACTOR or DOORDASH wishes to initiate arbitration, the initiating party must notify the other
party in writing via certified mail, return receipt requested, or hand delivery within the applicable statute of
limitations period. This demand for arbitration must include (1) the name and address of the party seeking
arbitration, (2) a statement of the legal and factual basis of the claim, and (3) a description of the remedy
sought. Any demand for arbitration by CONTRACTOR must be delivered to General Counsel, 901 Market
Street, 6th Floor, San Francisco, California 94103.
3. Class Action Waiver. CONTRACTOR and DOORDASH mutually agree that by entering into this agreement to
arbitrate, both waive their right to have any dispute or claim brought, heard or arbitrated as, or to participate
in, a class action, collective action and/or representative action, and an arbitrator shall not have any authority
to hear or arbitrate any class, collective or representative action ("Class Action Waiver"). Notwithstanding any
other clause contained in this Agreement or the AAA Rules, as defined below, any claim that all or part of this
Class Action Waiver is unenforceable, unconscionable, void or voidable may be determined only by a court of
competent jurisdiction and not by an arbitrator. In any case in which (1) the dispute is filed as a class,
collective, or representative action and (2) there is a final judicial determination that all or part of the Class
Action Waiver is unenforceable, the class, collective and/or representative action to that extent must be
litigated in a civil court of competent jurisdiction, but the portion of the Class Action Waiver that is enforceable
https://www.doordash.com/dasher/us/ica/

6/9

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

220a

shall be enforced in arbitration. Notwithstanding any other clause contained in this Agreement or the AAA
Rules, as defined below, any claim that all or part of this Class Action Waiver is unenforceable,
unconscionable, void or voidable may be determined only by a court of competent jurisdiction and not by an
arbitrator. All other disputes with respect to whether this Mutual Arbitration Provision is unenforceable,
unconscionable, applicable, valid, void or voidable shall be determined exclusively by an arbitrator, and not
by any court.
4. CONTRACTOR agrees and acknowledges that entering into this arbitration agreement does not change
CONTRACTOR'S status as an independent contractor in fact and in law, that CONTRACTOR is not an
employee of DOORDASH or its customers and that any disputes in this regard shall be subject to arbitration
as provided in this agreement.
5. Any arbitration shall be governed by the American Arbitration Association Commercial Arbitration Rules {'AAA
Rules”), except as follows:
a. The arbitration shall be heard by one arbitrator selected in accordance with the AAA Rules. The
Arbitrator shall be an attorney with experience in the law underlying the dispute.
b. If the parties cannot otherwise agree on a location for the arbitration, the arbitration shall take place
within 45 miles of CONTRACTOR'S residence as of the effective date of this Agreement.
c. Unless applicable law provides otherwise, as determined by the Arbitrator, the parties agree that
DOORDASH shall pay all of the Arbitrator's fees and costs.
d. The Arbitrator may issue orders (including subpoenas to third parties) allowing the parties to conduct
discovery sufficient to allow each party to prepare that party's claims and/or defenses, taking into
consideration that arbitration is designed to be a speedy and efficient method for resolving disputes.
e. Except as provided in the Class Action Waiver, the Arbitrator may award all remedies to which a party is
entitled under applicable law and which would otherwise be available in a court of law, but shall not be
empowered to award any remedies that would not have been available in a court of law for the claims
presented in arbitration. The Arbitrator shall apply the state or federal substantive law, or both, as is
applicable.
f. The Arbitrator may hear motions to dismiss and/or motions for summary judgment and will apply the
standards of the Federal Rules of Civil Procedure governing such motions.
g. The Arbitrator's decision or award shall be in writing with findings of fact and conclusions of law.
h. The Arbitrator may issue orders to protect the confidentiality of proprietary information, trade secrets,
or other sensitive information. Subject to the discretion of the Arbitrator or agreement of the parties,
any person having a direct interest in the arbitration may attend the arbitration hearing. The Arbitrator
may exclude any non-party from any part of the hearing.
i. Either CONTRACTOR or DOORDASH may apply to a court of competent jurisdiction for temporary or
preliminary injunctive relief on the ground that without such relief the arbitration provided In this
paragraph may be rendered ineffectual.
6. Nothing in this Mutual Arbitration Provision prevents you from making a report to or filing a claim or charge
with the Equal Employment Opportunity Commission, U.S. Department of Labor, U.S. Securities and Exchange
Commission, National Labor Relations Board, or Office of Federal Contract Compliance Programs. Nothing in
this Mutual Arbitration Provision prevents the investigation by a government agency of any report, claim or
charge otherwise covered by this Mutual Arbitration Provision. This Mutual Arbitration Provision also does
not prevent federal administrative agencies from adjudicating claims and awarding remedies based on those
claims, even if the claims would otherwise be covered by this Mutual Arbitration Provision. Nothing in this
Mutual Arbitration Provision prevents or excuses a party from satisfying any conditions precedent and/or
exhausting administrative remedies under applicable law before bringing a claim in arbitration. DOORDASH
will not retaliate against CONTRACTOR for filing a claim with an administrative agency or for exercising rights
{individually or in concert with others) under Section 7 of the National Labor Relations Act. Disputes between
the parties that may not be subject to predispute arbitration agreement, including as provided by an Act of
https://www.doordash.com/dasher/us/ica/

7/9

5/9/2018

DoorDash Food Delivery j INDEPENDENT CONTRACTOR AGREEMENT

Congress or lawful, enforceable Executive Order,221a
are excluded from the coverage of this Mutual Arbitration
Provision.

7. The AAA Rules may be found at www.adr.ora or by searching for "AAA Commercial Arbitration Rules" using a
service such as www.aooale.com or www.bina.com or by asking DOORDASH's General Counsel to provide a
copy.
8. CONTRACTOR'S Right to Opt Out of Arbitration Provision. Arbitration is not a mandatory condition of
CONTRACTOR'S contractual relationship with DOORDASH, and therefore CONTRACTOR may submit a
statement notifying DOORDASH that CONTRACTOR wishes to opt out and not be subject to this MUTUAL
ARBITRATION PROVISION. In order to opt out, CONTRACTOR must notify DOORDASH of CONTRACTOR'S
intention to opt out by sending an email to dasheroptout@doordash.com stating CONTRACTOR'S intention to
opt out. in order to be effective, CONTRACTOR'S opt out notice must be provided within 30 days of the
effective date of this Agreement. If CONTRACTOR opts out as provided in this paragraph, CONTRACTOR will
not be subject to any adverse action from DOORDASH as a consequence of that decision and he/she may
pursue available legal remedies without regard to this Mutual Arbitration Provision. If CONTRACTOR does not
opt out within 30 days of the effective date of this Agreement, CONTRACTOR and DOORDASH shall be
deemed to have agreed to this Mutual Arbitration Provision. CONTRACTOR has the right to consult with
counsel of CONTRACTOR'S choice concerning this Mutual Arbitration Provision (or any other provision of this
Agreement.
9. This Mutual Arbitration Provision is the full and complete agreement relating to the formal resolution of
disputes covered by this Mutual Arbitration Provision. In the event any portion of this Mutual Arbitration
Provision is deemed unenforceable, the remainder of this Mutual Arbitration Provision will be enforceable.
The award issued by the Arbitrator may be entered in any court of competent jurisdiction.

XII. TERMINATION OF AGREEMENT
1. CONTRACTOR may terminate this Agreement upon seven (7) days written notice. DOORDASH may terminate
this Agreement and deactivate CONTRACTOR’S Dasher account only for the reasons set forth in the
DOORDASH Deactivation Policy (http://www.doordash.com/deactivationpolicy), or for a material breach of this
Agreement. Notwithstanding any other provision in this Agreement, DoorDash reserves the right to modify
the Deactivation Policy if, in DoorDash’s good faith and reasonable discretion, it is necessary to do so for the
safe and/or effective operation of the DoorDash platform. DOORDASH shall provide notice of any such
changes to CONTRACTOR via e-mail. Changes to the Deactivation Policy shall be effective and binding on
the parties upon CONTRACTOR’S continued use of the DOORDASH platform following DOORDASH’s e-mail
notice of such modifications. Nothing will prevent CONTRACTOR from attempting to negotiate an exemption
from any modification to the Deactivation Policy.
2. CONTRACTOR'S and DOORDASH's obligations and rights arising under the Mutual Arbitration Provision of
this Agreement shall survive termination of this Agreement. Notwithstanding any other provision in this
Agreement, the Deactivation Policy is subject to change; such changes shall be effective and binding on the
parties upon DOORDASH’S provision of notice to CONTRACTOR via e-mail.

XIII. ENTIRE AGREEMENT, TRANSFERABILITY, AND WAIVER
1. This Agreement shall constitute the entire agreement and understanding between the parties with respect to
the subject matter of this Agreement and shall not be modified, altered, changed or amended in any respect,
unless in writing and signed by both parties. Before accepting any modifications, alterations, changes or
amendments, CONTRACTOR shall have the right to discuss any proposed changes with DOORDASH and
consider whether to continue his/her contractual relationship with DOORDASH. This Agreement supersedes
any prior contract between the parties. To the extent DOORDASH's consumer facing Terms and Conditions
Agreement (or updated consumer facing Terms and Conditions Agreement, if applicable) is inconsistent or
conflicts with this Agreement, this Agreement controls. However, the decision to opt-out of the Mutual
Arbitration Provision in this Agreement does not affect the enforceability of any arbitration agreement in the
https://www.doordash.com/dasher/us/ica/

8/9

222a

EXHIBIT K

©

American Arbitration Association
®
223a

EMPLOYMENT ARBITRATION RULES
DEMAND FOR ARBITRATION

To ensure your demand is processed promptly, please include a copy of the Arbitration Agreement, Plan or Contract.
Mediation: If you would ‫؛‬ike the AAA to contact the other parties and attempt to arrange mediation, please check this box EH .

Parties (Claimant)

Name of Claimant: Jay B Lee

Representative's Name (if known): Shannon Liss-Riordan, Anne Kramer

Address:

Firm (if applicable): Lichten & Liss-Riordan, P.C.

c/o Lichten & Liss-Riordan, P.C.
729 Boylston Street, Suite 2000

Representative's Address:

729 Boylston Street, Suite 2000
City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.: 617-994-5801

Zip Code:

City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.: 617-994-5801

Zip Code: 02٥

Email Address: sliss@llrlaw.com; akramer@llrlaw.com

Email Address:
Parties (Respondent)

Name of Respondent: DoorDash, Inc.

Representative's Name (if known):

Address:

Firm (if applicable):

901 Market St., 6th Floor

Representative's Address:

City: San Francisco

State: CA

Phone No.:

Fax No.:

Zip Code: 9،^

Email Address:

City:

State:

Phone No.:

Fax No.:

Zip Code:

Email Address:

Claim: What was/is the employee/worker's annual wage range? 1Z1 Less than $100,000 D $100,000-$250,000 D Over $250,000
Note: Th/s question is required by California law.
Amount of Claim:

Claim involves: IS Statutorily Protected Rights ٥ Non-Statutorily
Protected Rights

In detail, please describe the nature of each claim. You may attach additional pages if necessary:

See Exhibit A

Other Relief Sought: IZ) Attorneys Fees 1Z1 Interest [Z] Arbitration Costs ٥ Punitive/Exemplary ٥ Other
Please describe the qualifications for arbitrators) to hear this dispute:

Hearing: Estimated time needed for hearings overall:

Hearing Locale: Los Angeles, CA

hours or

days

D Requested by Claimant H Locale provision included in the contract

Filing Fee requirement or $300 (max amount per AAA)
Filing by Company: ٥ $2,200 single arbitrator ٥ $2,800 three arbitrator panel
Notice: To begin proceedings, please send a copy of this Demand and the Arbitration Agreement, along with filing fee as provided for in the Rules, to:
American Arbitration Association, Case Filing Services, 1101 Laurel Oak Road, Suite 100, Voorhees, NJ 08043. Send the original Demand to the Respondent.
Signature (may be signed by a representative):

yWt y

Date:

5/31/2018

Pursuant to Section 1284.3 of the California Code of Civil Procedure, consumers with a gross monthly income of less than 300% of the federal poverty guidelines are
entitled to a waiver of arbitration fees and costs, exclusive of arbitrator fees. This law applies to all consumer agreements subject to the California Arbitration Act, and to
all consumer arbitrations conducted in California. Only those disputes arising out of employer plans are included in the consumer definition. If you believe that you meet
these requirements, you must submit to the AAA a declaration under oath regarding your monthly income and the number of persons in your household. Please contact
the AAA's Western Case Management Center atl-800-778-7879. If you have any questions regarding the waiver of administrative fees, AAA Case Filing Services can be
reached at 877-495-4185. Please visit our website atwww.adr.org if you would like to file this case online. AAA Customer Service can be reached at 800-778-7879.

224a

EXHIBIT A

225a
Arbitration Demand
Claimant Jay Lee brings this claim against DoorDash, inc. (“DoorDash”)
challenging DoorDash’s misclassification of him as an independent contractor and its
resulting wage violations.
DoorDash provides on-demand food delivery services to customers at their
homes and businesses through its mobile phone application and website. To use
DoorDash, a customer orders takeout food from a list of restaurants on DoorDash’s
phone application or website, and a nearby DoorDash delivery driver is notified. Once
the delivery driver accepts the request by tapping a button on their phone, he or she
drives to the restaurant to pick up the customer’s order and then drives to the
customer’s location to deliver it. After the delivery, DoorDash collects the payment from
the customer, takes its fee, and then distributes the remainder to the delivery driver.
Delivery drivers must provide or pay for their own smartphone and car. DoorDash
delivery drivers do not need special qualifications or experience apart from a valid
driver's license.
Delivery drivers receive customer ratings in the form of “star ratings” at the end of
every delivery. These ratings are out of 5 stars, with 5 stars being the highest rating
and 1 star being the lowest. DoorDash utilizes this real-time customer feedback about
delivery drivers to monitor drivers and decide when a delivery driver may need to be
issued a warning or terminated. DoorDash also tracks other metrics for delivery drivers
such as their acceptance rates and may suspend or terminate delivery drivers whose
ratings it deems to be too low. When delivery drivers refuse too many orders,
DoorDash may end their shifts.

1

226a
Jay Lee has wofked as a DoofDash delivefy d٢!ve٢ since approximately
September 2016 in the La Habra, California area. Like all other DoorDash deliver
drivers, he was subject to a standard form contract, provided by DoorDash, which
drivers were not able to negotiate. Throughout his time working for DoorDash, Claimant
was classified as an independent contractor rather than an employee. By misclassifying
workers like Claimant, DoorDash has required them to pay necessaty business
expenses (such as for their vehicles, gas, smartphone, and data plan expenses), in
addition, Claimant has not been paid minimum wage for all hours worked.
Claimant brings this claim to challenge his classification as an independent
contractor, rather than an employee under California ‫؛‬aw, and the resulting violations of
the California Labor Code stemming from that practice including: (1) violation of Cal.
Lab. Code § 22‫ ﻫﺞ‬for failure to reimburse necessaty business expenses: & (2) violation
of Cal. Lab. Code §§ 1197 and 1194 forfailure to pay minimum wage for all hours
worked.

2

227a

EXHIBIT B

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

5/9/2018

228a

3. CONTRACTOR agrees to indemnify, protect and hold harmless DOORDASH, including all parent, subsidiary,
and/or affiliated companies, as well as its and their past and present successors, assigns, officers, owners,
directors, agents, representatives, attorneys, and employees, from any and all tax liabilities and
responsibilities for payment of all federal, state and local taxes, including, but not limited to all payroll taxes,
self-employment taxes, workers compensation premiums, and any contributions imposed or required under
federal, state and local laws, with respect to CONTRACTOR and CONTRACTOR'S Personnel.
4. CONTRACTOR shall be responsible for, indemnify and hold harmless DOORDASH, including all parent,
subsidiary, and/or affiliated companies, as weli as its and their past and present successors, assigns, officers,
owners, directors, agents, representatives, attorneys, and employees, from all costs of CONTRACTOR'S
business, including, but not limited to, the expense and responsibility for any and all applicable insurance,
local, state or federal licenses, permits, taxes, and assessments of any and all regulatory agencies, boards or
municipalities.

XI. MUTUAL ARBITRATION PROVISION
1, CONTRACTOR and DOORDASH mutually agree to resolve any justiciable disputes between them exclusively
through final and binding arbitration instead of filing a lawsuit in court. This arbitration agreement is governed
by the Federal Arbitration Act {9 U.S.C. §§ 1-16) ("FAA") and shall apply to any and all claims arising out of or
relating to this Agreement, CONTRACTOR’S classification as an independent contractor, CONTRACTOR'S
provision of Contracted Services to consumers, the payments received by CONTRACTOR for providing
services to consumers, the termination of this Agreement, and all other aspects of CONTRACTOR'S
relationship with DOORDASH, past, present or future, whether arising under federal, state or local statutory
and/or common law, including without limitation harassment, discrimination or retaliation claims and claims
arising under or related to the Civil Rights Act of 1964 (or its state or local equivalents), Americans With
Disabilities Act (or its state or local equivalents), Age Discrimination in Employment Act (or its state or local
equivalents), Family Medical Leave Act (or its state or local equivalents), or Fair Labor Standards Act (or its
state or local equivalents), state and local wage and hour laws, state and local statutes or regulations
addressing the same or similar subject matters, and all other federal, state or local claims arising out of or
relating to CONTRACTOR'S relationship or the termination of that relationship with DOORDASH. The parties
expressly agree that this Agreement shall be governed by the FAA even in the event CONTRACTOR and/or
DOORDASH are otherwise exemptedfrom the FAA. Any disputes in this regard shall be resolved exclusively
by an arbitrator. In the event, but only in the event, the arbitrator determines the FAA does not apply, the state
law governing arbitration agreements in the state in which the CONTRACTOR operates shall apply.
2. If either CONTRACTOR or DOORDASH wishes to initiate arbitration, the initiating party must notify the other
party in writing via certified mail, return receipt requested, or hand delivery within the applicable statute of
limitations period. This demand for arbitration must include (1) the name and address of the party seeking
arbitration, (2) a statement of the legal and factual basis of the claim, and (3) a description of the remedy
sought. Any demand for arbitration by CONTRACTOR must be delivered to General Counsel, 901 Market
Street, 6th Floor, San Francisco, California 94103.
3. Class Action Waiver. CONTRACTOR and DOORDASH mutually agree that by entering into this agreement to
arbitrate, both waive their right to have any dispute or claim brought, heard or arbitrated as, or to participate
in, a class action, collective action and/or representative action, and an arbitrator shall not have any authority
to hear or arbitrate any class, collective or representative action ("Class Action Waiver"). Notwithstanding any
other clause contained in this Agreement or the AAA Rules, as defined below, any claim that all or part of this
Class Action Waiver is unenforceable, unconscionable, void or voidable may be determined only by a court of
competent jurisdiction and not by an arbitrator. In any case in which (1) the dispute is filed as a class,
collective, or representative action and (2) there is a final judicial determination that all or part of the Class
Action Waiver is unenforceable, the class, collective and/or representative action to that extent must be
litigated in a civil court of competent jurisdiction, but the portion of the Class Action Waiver that is enforceable
https://www.doordash.com/dasher/us/ica/

6/9

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

5/9/2018

shall be enforced in arbitration. Notwithstanding 229a
any other clause contained in this Agreement or the AAA
Rules, as defined below, any claim that all or part of this Class Action Waiver is unenforceable,

unconscionable, void or voidable may be determined only by a court of competent jurisdiction and not by an
arbitrator. All other disputes with respect to whether this Mutual Arbitration Provision is unenforceable,
unconscionable, applicable, valid, void or voidable shall be determined exclusively by an arbitrator, and not
by any court.
4. CONTRACTOR agrees and acknowledges that entering into this arbitration agreement does not change
CONTRACTOR'S status as an Independent contractor in fact and in law, that CONTRACTOR is not an
employee of DOORDASH or Its customers and that any disputes in this regard shall be subject to arbitration
as provided in this agreement.
5. Any arbitration shall be governed by the American Arbitration Association Commercial Arbitration Rules ("AAA
Rules"), except as follows:
a. The arbitration shall be heard by one arbitrator selected in accordance with the AAA Rules. The
Arbitrator shall be an attorney with experience in the law underlying the dispute.
b. If the parties cannot otherwise agree on a location for the arbitration, the arbitration shall take place
within 45 miles of CONTRACTOR'S residence as of the effective date of this Agreement.
c. Unless applicable law provides otherwise, as determined by the Arbitrator, the parties agree that
DOORDASH shall pay all of the Arbitrator's fees and costs.
d. The Arbitrator may issue orders (including subpoenas to third parties) allowing the parties to conduct
discovery sufficient to allow each party to prepare that party's claims and/or defenses, taking Into
consideration that arbitration is designed to be a speedy and efficient method for resolving disputes.
e. Except as provided in the Class Action Waiver, the Arbitrator may award all remedies to which a party is
entitled under applicable law and which would otherwise be available in a court of law, but shall not be
empowered to award any remedies that would not have been available in a court of law for the claims
presented in arbitration. The Arbitrator shall apply the state or federal substantive law, or both, as is
applicable.
f. The Arbitrator may hear motions to dismiss and/or motions for summary judgment and will apply the
standards of the Federal Rules of Civil Procedure governing such motions.
g. The Arbitrator's decision or award shall be in writing with findings of fact and conclusions of law.
h. The Arbitrator may issue orders to protect the confidentiality of proprietary information, trade secrets,

i

or other sensitive information. Subject to the discretion of the Arbitrator or agreement of the parties,
any person having a direct interest In the arbitration may attend the arbitration hearing. The Arbitrator
may exclude any non-party from any part of the hearing.
i. Either CONTRACTOR or DOORDASH may apply to a court of competent jurisdiction for temporary or
preliminary Injunctive relief on the ground that without such relief the arbitration provided in this
paragraph may be rendered ineffectual.
6. Nothing in this Mutual Arbitration Provision prevents you from making a report to or filing a claim or charge
with the Equal Employment Opportunity Commission, U.S. Department of Labor, U.S. Securities and Exchange
Commission, National Labor Relations Board, or Office of Federal Contract Compliance Programs. Nothing in
this Mutual Arbitration Provision prevents the investigation by a government agency of any report, claim or
charge otherwise covered by this Mutual Arbitration Provision. This Mutual Arbitration Provision also does
not prevent federal administrative agencies from adjudicating claims and awarding remedies based on those
claims, even if the claims would otherwise be covered by this Mutual Arbitration Provision. Nothing in this
Mutual Arbitration Provision prevents or excuses a party from satisfying any conditions precedent and/or
exhausting administrative remedies under applicable law before bringing a claim in arbitration. DOORDASH
will not retaliate against CONTRACTOR for filing a claim with an administrative agency or for exercising rights
(Individually or In concert with others) under Section 7 of the National Labor Relations Act. Disputes between
the parties that may not be subject to predispute arbitration agreement, including as provided by an Act of
https://www.doordash.com/dasher/us/ica/

7/9

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

5/9/2018

230a

Congress or lawful, enforceable Executive Order, are excluded from the coverage of this Mutual Arbitration
Provision.

7. The AAA Rules may be found at www.adr.ora or by searching for "AAA Commercial Arbitration Rules" using a
service such as www.aooale.com or www.bina.com or by asking DOORDASH's General Counsel to provide a
copy.
8. CONTRACTOR’S Right to Opt Out of Arbitration Provision. Arbitration is not a mandatory condition of
CONTRACTOR'S contractual relationship with DOORDASH. and therefore CONTRACTOR may submit a
statement notifying DOORDASH that CONTRACTOR wishes to opt out and not be subject to this MUTUAL
ARBITRATION PROVISION. In order to opt out, CONTRACTOR must notify DOORDASH of CONTRACTOR'S
intention to opt out by sending an email to dasheroptout@doordash.com stating CONTRACTOR'S intention to
opt out. In order to be effective, CONTRACTOR'S opt out notice must be provided within 30 days of the
effective date of this Agreement. If CONTRACTOR opts out as provided in this paragraph, CONTRACTOR will
not be subject to any adverse action from DOORDASH as a consequence of that decision and he/she may
pursue available legal remedies without regard to this Mutual Arbitration Provision. If CONTRACTOR does not
opt out within 30 days of the effective date of this Agreement, CONTRACTOR and DOORDASH shall be
deemed to have agreed to this Mutual Arbitration Provision. CONTRACTOR has the right to consult with
counsel of CONTRACTOR'S choice concerning this Mutual Arbitration Provision (or any other provision of this
Agreement.
9. This Mutual Arbitration Provision is the full and complete agreement relating to the formal resolution of
disputes covered by this Mutual Arbitration Provision. In the event any portion of this Mutual Arbitration

‫؛‬

Provision is deemed unenforceable, the remainder of this Mutual Arbitration Provision will be enforceable.
The award issued by the Arbitrator may be entered in any court of competent jurisdiction.

XII. TERMINATION OF AGREEMENT
1. CONTRACTOR may terminate this Agreement upon seven (7) days written notice. DOORDASH may terminate
this Agreement and deactivate CONTRACTOR’S Dasher account only for the reasons set forth in the
DOORDASH Deactivation Policy (http://www.doordash.com/deactivationpolicy), or for a material breach of this
Agreement. Notwithstanding any other provision in this Agreement, DoorDash reserves the right to modify
the Deactivation Policy if, in DoorDash’s good faith and reasonable discretion, it is necessary to do so for the
safe and/or effective operation of the DoorDash platform. DOORDASH shall provide notice of any such
changes to CONTRACTOR via e-mail. Changes to the Deactivation Policy shall be effective and binding on
the parties upon CONTRACTOR’S continued use of the DOORDASH platform following DOORDASH’s e-mail
notice of such modifications. Nothing will prevent CONTRACTOR from attempting to negotiate an exemption
from any modification to the Deactivation Policy.
2. CONTRACTOR'S and DOORDASH's obligations and rights arising under the Mutual Arbitration Provision of
this Agreement shall survive termination of this Agreement. Notwithstanding any other provision in this
Agreement, the Deactivation Policy is subject to change; such changes shall be effective and binding on the
parties upon DOORDASH’S provision of notice to CONTRACTOR via e-mail.

XII ENTIRE AGREEMENT, TRANSFERABILITY, AND WAIVER
1, This Agreement shall constitute the entire agreement and understanding between the parties with respect to
the subject matter of this Agreement and shall not be modified, altered, changed or amended in any respect,
unless in writing and signed by both parties. Before accepting any modifications, alterations, changes or
amendments, CONTRACTOR shall have the right to discuss any proposed changes with DOORDASH and
consider whether to continue his/her contractual relationship with DOORDASH. This Agreement supersedes
any prior contract between the parties. To the extent DOORDASH's consumer facing Terms and Conditions
Agreement (or updated consumer facing Terms and Conditions Agreement, if applicable) is inconsistent or
conflicts with this Agreement, this Agreement controls. However, the decision to opt-out of the Mutual
Arbitration Provision in this Agreement does not affect the enforceability of any arbitration agreement in the
https://www.doordash.com/dasher/us/ica/

8/9

231a

EXHIBIT L

232a

American Arbitration Association

EMPLOYMENT ARBITRATION RULES
DEMAND FOR ARBITRATION

To ensure your demand is processed promptly, please include a copy of the Arbitration Agreement. Plan or Contract.
Mediation: If you would like the AAA to contact the other parties and attempt to arrange mediation, please check this box D.

Name of Claimant: Edward Beck

Representative's Name (if known): Shannon Liss-Riordan, Anne Kramer

Address:

Firm (if applicable): Lichten & Liss-Riordan, P.C.

c/o Lichten & Liss-Riordan, P.C.
729 Boylston Street, Suite 2000

Representative's Address:

729 Boylston Street, Suite 2000

Zip Code: 0٩‫؛؛‬

City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.: 617-994-5801

Zip Code: 02،٥

City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.: 617-994-5801

Email Address:

Email Address: sliss@llriaw.com‫ ؛‬akTamer@llrlaw.com

Name of Respondent: DoorDash, Inc.

Representative's Name (if known):

Address:

Firm (if applicable):

90‫ ؛‬Market St., 6th Floor

Representative's Address:

City: San Francisco

State: CA

Phone No.:

Fax No.:

Zip Code: 9،٥١j

Email Address:

City:

State:

Phone No.:

Fax No.:

Zip Code:

Email Address:

Claim: What was/is the employee/worker's annual wage range? 12 Less than $100,000 D $100,000-$250,000 D Over $250,000
Note: This question is required by California law.
Claim involves: [2 Statutorily Protected Rights D Non-Statutorily

Amount of Claim:

Protected Rights
In detail, please describe the nature of each claim. You may attach additional pages if necessary:

Other Relief Sought: 0 Attorneys Fees 12 Interest [2 Arbitration Costs CH Punitive/ Exemplary D Other
Please describe the qualifications for arbitrators) to hear this dispute:

See Exhibit A

Flearing: Estimated time needed for hearings overall:

Hearing Locale: San Francisco, CA

hours or

days

D Requested by Claimant 12 Locale provision included in the contract

Filing Fee requirement or $300 (max amount per AAA)
Filing by Company: D $2,200 single arbitrator D $2,800 three arbitrator panel
Notice: To begin proceedings, please send a copy of this Demand and the Arbitration Agreement, along with filing fee as provided for in the Rules, to:
American Arbitration Association, Case Filing Services, 1101 Laurel Oak Road, Suite 100, Voorhees, NJ 08043. Send the original Demand to the Respondent.
Signature ،may be signed by a representative)^

. AjlJ' ^٠

aAAt

Date:

7/18/2018

Pursuant to Section 1284.3 of the California Code of Civil Procedure, consumers with a gross monthly inc
of less than 300% of the federal poverty guidelines are
entitled to a waiver of arbitration fees and costs, exclusive of arbitrator fees. This law applies to all consumer agreements subject to the California Arbitration Act, and to
a‫ ؛؛‬consumer arbitrations conducted in Caiifornia. Only those disputesarising out of employer plans are included in the consumer definition. If you believe that you meet
these requirements, you must submit to the AAA a declaration under oath regarding your monthly income and the number of persons in your household. Please contact
the AAA's Western Case Management Center atl-800-778-7879. If you have any questions regarding the waiver of administrative fees, AAA Case Filing Services can be
reached at 877-495-4185. Please visit our website atwww.adr.org if you would like to file this case online. AAA Customer Service can be reached at 800-778-7879.

233a

EXHIBIT A

:

234a
Arbitration Demand
Claimant Edward Beck brings this claim against DoorDash, Inc. (“DoorDash”)
challenging DoorDash’s misclassification of Claimant as an independent contractor and
its resulting wage violations.
DoorDash provides on-demand food delivery services to customers at their
homes and businesses through its mobile phone application and website. To use
DoorDash, a customer orders takeout food from a list of restaurants on DoorDash’s
phone application or website, and a nearby DoorDash delivery driver is notified. Once
the delivery driver accepts the request by tapping a button on their phone, he or she
drives to the restaurant to pick up the customer’s order and then drives to the
customer’s location to deliver It. After the delivery, DoorDash collects the payment from
the customer, takes its fee, and then distributes the remainder to the delivery driver.
Delivery drivers must provide or pay for their own smartphone and car. DoorDash
delivery drivers do not need special qualifications or experience apart from a valid
driver’s license.
Delivery drivers receive customer ratings in the form of “star ratings” at the end of
every delivery. These ratings are out of 5 stars, with 5 stars being the highest rating
and 1 star being the lowest. DoorDash utilizes this real-time customer feedback about
delivery drivers to monitor drivers and decide when a delivery driver may need to be
issued a warning or terminated. DoorDash also tracks other metrics for delivery drivers
such as their acceptance rates and may suspend or terminate delivery drivers whose
ratings it deems to be too low. When delivery drivers refuse too many orders,
DoorDash may end their shifts.

1

235a
Edward Beck has worked as a DoorDash delivery driver from approximately
September 2017 to April 2017 in the Sunnyvale, California area. Like all other
DoorDash delivery drivers, Claimant was subject to a standard form contract, provided
by DoorDash, which drivers were not able to negotiate. Throughout Claimant’s time
working for DoorDash, Claimant was classified as an independent contractor rather
than an employee. By misclassifying workers like Claimant, DoorDash has required
them to pay necessary business expenses (such as for their vehicles, gas, smartphone,
and data plan expenses). In addition, Claimant has not been paid minimum wage for
all hours worked.
Claimant brings this claim to challenge this misclassification of Claimant as an
independent contractor, rather than an employee under California law, and the resulting
violations of the California Labor Code stemming from that practice including; (1)
violation of Cal. Lab. Code § 2802 for failure to reimburse necessary business
expenses; (2) violation of Cal. Lab. Code §§1197 and 1194, as well as the San
Francisco Minimum Wage Ordinance for failure to pay minimum wage for all hours
worked.

2

236a

EXHIBIT B

5/9/2018

DoorDash Food Delivery ‫ ؛‬INDEPENDENT CONTRACTOR AGREEMENT

237aharmless DOORDASH, including all parent, subsidiary,
3. CONTRACTOR agrees to indemnify, protect and hold
and/or affiliated companies, as well as Its and their past and present successors, assigns, officers, owners,
directors, agents, representatives, attorneys, and employees, from any and all tax liabilities and
responsibilities for payment of all federal, state and local taxes, including, but not limited to all payroll taxes,
self-employment taxes, workers compensation premiums, and any contributions imposed or required under
federal, state and local laws, with respect to CONTRACTOR and CONTRACTOR'S Personnel.
4. CONTRACTOR shall be responsible for, indemnify and hold harmless DOORDASH, including all parent,
subsidiary, and/or affiliated companies, as well as its and their past and present successors, assigns, officers,
owners, directors, agents, representatives, attorneys, and employees, from all costs of CONTRACTOR'S
business, including, but not limited to, the expense and responsibility for any and all applicable insurance,
local, state or federal licenses, permits, taxes, and assessments of any and all regulatory agencies, boards or
municipalities.

XI. MUTUAL ARBITRATION PROVISION
1. CONTRACTOR and DOORDASH mutually agree to resolve anyjusticiable disputes between them exclusively
through final and binding arbitration instead of filing a lawsuit in court. This arbitration agreement is governed
by the Federal Arbitration Act (9 U.S.C. §§ 1-16) ("FAA") and shall apply to any and all claims arising out of or
relating to this Agreement, CONTRACTOR'S classification as an independent contractor, CONTRACTOR'S
provision of Contracted Services to consumers, the payments received by CONTRACTOR for providing
services to consumers, the termination of this Agreement, and all other aspects of CONTRACTOR'S
relationship with DOORDASH, past, present or future, whether arising under federal, state or local statutory
and/or common law, including without limitation harassment, discrimination or retaliation claims and claims
arising under or related to the Civil Rights Act of 1964 (or its state or local equivalents), Americans With
Disabilities Act (or its state or local equivalents), Age Discrimination in Employment Act (or its state or local
equivalents), Family Medical Leave Act (or its state or local equivalents), or Fair Labor Standards Act (or its
state or local equivalents), state and local wage and hour laws, state and local statutes or regulations
addressing the same or similar subject matters, and all other federal, state or local claims arising out of or
relating to CONTRACTOR'S relationship or the termination of that relationship with DOORDASH. The parties
expressly agree that this Agreement shall be governed by the FAA even in the event CONTRACTOR and/or
DOORDASH are otherwise exemptedfrom the FAA. Any disputes in this regard shall be resolved exclusively
by an arbitrator. In the event, but only in the event, the arbitrator determines the FAA does not apply, the state
law governing arbitration agreements In the state in which the CONTRACTOR operates shall apply.
2. If either CONTRACTOR or DOORDASH wishes to initiate arbitration, the initiating party must notify the other
party in writing via certified mail, return receipt requested, or hand delivery within the applicable statute of
limitations period. This demand for arbitration must include (1) the name and address of the party seeking
arbitration, (2) a statement of the legal and factual basis of the claim, and (3) a description of the remedy
sought. Any demand for arbitration by CONTRACTOR must be delivered to General Counsel, 901 Market
Street, 6th Floor, San Francisco, California 94103.
3. Class Action Waiver. CONTRACTOR and DOORDASH mutually agree that by entering into this agreement to
arbitrate, both waive their right to have any dispute or claim brought, heard or arbitrated as, or to participate
In, a class action, collective action and/or representative action, and an arbitrator shall not have any authority
to hear or arbitrate any class, collective or representative action ("Class Action Waiver"). Notwithstanding any
other clause contained in this Agreement or the AAA Rules, as defined below, any claim that all or part of this
Class Action Waiver is unenforceable, unconscionable, void or voidable may be determined only by a court of
competent jurisdiction and not by an arbitrator. In any case in which (1) the dispute is filed as a class,
collective, or representative action and (2) there is a final judicial determination that all or part of the Class
Action Waiver is unenforceable, the class, collective and/or representative action to that extent must be
litigated in a civil court of competent jurisdiction, but the portion of the Class Action Waiver that is enforceable
https://www.doordash.com/dasher/us/ica/

6/9

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

shall be enforced In arbitration. Notwithstanding 238a
any other clause contained in this Agreement or the AAA
Rules, as defined below, any claim that all or part of this Class Action Waiver is unenforceable,
unconscionable, void or voidable may be determined only by a court of competent jurisdiction and not by an
arbitrator. All other disputes with respect to whether this Mutual Arbitration Provision is unenforceable,
unconscionable, applicable, valid, void or voidable shall be determined exclusively by an arbitrator, and not
by any court.
4. CONTRACTOR agrees and acknowledges that entering into this arbitration agreement does not change
CONTRACTOR'S status as an independent contractor in fact and in law, that CONTRACTOR is not an
employee of DOORDASH or its customers and that any disputes in this regard shall be subject to arbitration
as provided in this agreement.
5. Any arbitration shall be governed by the American Arbitration Association Commercial Arbitration Rules ("AAA
Rules"), except as follows:
a. The arbitration shall be heard by one arbitrator selected in accordance with the AAA Rules. The
Arbitrator shall be an attorney with experience in the law underlying the dispute.
b. If the parties cannot otherwise agree on a location for the arbitration, the arbitration shall take place
within 45 miles of CONTRACTOR'S residence as of the effective date of this Agreement.
c. Unless applicable law provides otherwise, as determined by the Arbitrator, the parties agree that
DOORDASH shall pay all of the Arbitrator's fees and costs.
d. The Arbitrator may issue orders (including subpoenas to third parties) allowing the parties to conduct
discovery sufficient to allow each party to prepare that party’s claims and/or defenses, taking into
consideration that arbitration is designed to be a speedy and efficient method for resolving disputes.
e. Except as provided in the Class Action Waiver, the Arbitrator may award all remedies to which a party is
entitled under applicable law and which would otherwise be available in a court of law, but shall not be
empowered to award any remedies that would not have been available in a court of law for the claims
presented in arbitration. The Arbitrator shall apply the state or federal substantive law, or both, as is
applicable.
f. The Arbitrator may hear motions to dismiss and/or motions for summary judgment and will apply the
standards of the Federal Rules of Civil Procedure governing such motions.
g. The Arbitrator's decision or award shall be in writing with findings of fact and conclusions of law.
h. The Arbitrator may issue orders to protect the confidentiality of proprietary information, trade secrets,
or other sensitive information, Subject to the discretion of the Arbitrator or agreement of the parties,
any person having a direct interest in the arbitration may attend the arbitration hearing. The Arbitrator
may exclude any non-party from any part of the hearing,
‫؛‬. Either CONTRACTOR or DOORDASH may apply to a court of competent jurisdiction for temporary or
preliminary injunctive relief on the ground that without such relief the arbitration provided in this
paragraph may be rendered ineffectual.
6. Nothing in this Mutual Arbitration Provision prevents you from making a report to or filing a claim or charge
with the Equal Employment Opportunity Commission, U.S. Department of Labor, U.S. Securities and Exchange
Commission, National Labor Relations Board, or Office of Federal Contract Compliance Programs. Nothing in
this Mutual Arbitration Provision prevents the investigation by a government agency of any report, claim or
charge otherwise covered by this Mutual Arbitration Provision. This Mutual Arbitration Provision also does
not prevent federal administrative agencies from adjudicating claims and awarding remedies based on those
claims, even if the claims would otherwise be covered by this Mutual Arbitration Provision. Nothing in this
Mutual Arbitration Provision prevents or excuses a party from satisfying any conditions precedent and/or
exhausting administrative remedies under applicable law before bringing a claim in arbitration. DOORDASH
will not retaliate against CONTRACTOR for filing a claim with an administrative agency or for exercising rights
(individually or in concert with others) under Section 7 of the National Labor Relations Act. Disputes between
the parties that may not be subject to predispute arbitration agreement, including as provided by an Act of

https://www.doordash.com/dasher/us/ica/

7/9

DoorDash Food Delivery ‫ ؛‬INDEPENDENT CONTRACTOR AGREEMENT

5/9/2018

Congress or lawful, enforceable Executive Order,239a
are excluded from the coverage of this Mutual Arbitration
Provision.
7. The AAA Rules may be found at www.adr.or□ or by searching for "AAA Commercial Arbitration Rules" using a
service such as www.aooale.com or www.bina.com or by asking DOORDASH's General Counsel to provide a
copy.
8. CONTRACTOR’S Right to Opt Out of Arbitration Provision. Arbitration is not a mandatory condition of
CONTRACTOR'S contractual relationship with DOORDASH, and therefore CONTRACTOR may submit a
statement notifying DOORDASH that CONTRACTOR wishes to opt out and not be subject to this MUTUAL
ARBITRATION PROVISION. In order to opt out, CONTRACTOR must notify DOORDASH of CONTRACTOR'S
intention to opt out by sending an email to dasheroptout@doordash.com stating CONTRACTOR'S intention to
opt out. In order to be effective, CONTRACTOR'S opt out notice must be provided within 30 days of the
effective date of this Agreement. If CONTRACTOR opts out as provided in this paragraph, CONTRACTOR will
not be subject to any adverse action from DOORDASH as a consequence of that decision and he/she may
pursue available legal remedies without regard to this Mutual Arbitration Provision. If CONTRACTOR does not
opt out within 30 days of the effective date of this Agreement, CONTRACTOR and DOORDASH shall be
deemed to have agreed to this Mutual Arbitration Provision. CONTRACTOR has the right to consult with
counsel of CONTRACTOR'S choice concerning this Mutual Arbitration Provision {or any other provision of this
Agreement.
9. This Mutual Arbitration Provision is the full and complete agreement relating to the formal resolution of
disputes covered by this Mutual Arbitration Provision. In the event any portion of this Mutual Arbitration
Provision is deemed unenforceable, the remainder of this Mutual Arbitration Provision will be enforceable.
The award issued by the Arbitrator may be entered in any court of competent jurisdiction.

XII. TERMINATION OF AGREEMENT
1. CONTRACTOR may terminate this Agreement upon seven (7) days written notice. DOORDASH may terminate
this Agreement and deactivate CONTRACTOR’S Dasher account only for the reasons set forth in the
DOORDASH Deactivation Policy {http://www.doordash.com/deactivationpolicy), or for a material breach of this
Agreement. Notwithstanding any other provision in this Agreement, DoorDash reserves the right to modify
the Deactivation Policy if, in DoorDash’s good faith and reasonable discretion, it is necessary to do so for the
safe and/or effective operation of the DoorDash platform. DOORDASH shall provide notice of any such
changes to CONTRACTOR via e-mail. Changes to the Deactivation Policy shall be effective and binding on
the parties upon CONTRACTOR’S continued use of the DOORDASH platform following DOORDASH’s e-mail
notice of such modifications. Nothing will prevent CONTRACTOR from attempting to negotiate an exemption
from any modification to the Deactivation Policy.
2. CONTRACTOR'S and DOORDASH's obligations and rights arising under the Mutual Arbitration Provision of
this Agreement shall survive termination of this Agreement. Notwithstanding any other provision in this
Agreement, the Deactivation Policy is subject to change; such changes shall be effective and binding on the
parties upon DOORDASH’S provision of notice to CONTRACTOR via e-mail.

XIII. ENTIRE AGREEMENT, TRANSFERABILITY, AND WAIVER
1. This Agreement shall constitute the entire agreement and understanding between the parties with respect to
the subject matter of this Agreement and shall not be modified, altered, changed or amended in any respect,
unless in writing and signed by both parties. Before accepting any modifications, alterations, changes or
amendments, CONTRACTOR shall have the right to discuss any proposed changes with DOORDASH and
consider whether to continue his/her contractual relationship with DOORDASH. This Agreement supersedes
any prior contract between the parties. To the extent DOORDASH's consumer facing Terms and Conditions
Agreement (or updated consumer facing Terms and Conditions Agreement, if applicable) is inconsistent or
conflicts with this Agreement, this Agreement controls. However, the decision to opt-out of the Mutual
Arbitration Provision in this Agreement does not affect the enforceability of any arbitration agreement in the
https://www.doordash.com/dasher/us/ica/

8/9

240a

EXHIBIT M

©

241a

American Arbitration Association®

EMPLOYMENT ARBITRATION RULES
DEMAND FOR ARBITRATION

To ensure your demand is processed promptly, please include a copy of the Arbitration Agreement, Plan or Contract.
Mediation: If you would like the AAA to contact the other parties and attempt to arrange mediation, please check this box D.

Parties (Claimant)
NameofClaimant: MervynCoIe

Representative's Name (if known): Shannon Liss-Riordan, Anne Kramer

Address:

Firm (if applicable): Lichten & Liss-Riordan, P.C,

c/o Lichten & Liss-Riordan, P.C.
729 Boylston Street, Suite 2000

Representative's Address:

729 Boylston Street, Suite 2000
City: Boston

State: MA

Zip Code: 02٥

Phone No.: 617-994-5800

Fax No.: 617-994-5801

Email Address:

City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.:

Zip Code: 02‫؛؛‬

617-994-5801

Email Address: sHss@l!rla١v.com; akramer@llrlaw.com

Parties (Respondent)
Name of Respondent: DoorDash, Inc,

Representative's Name (if known):

Address:

Firm (if applicable):

5901 Market St, 6th Floor

Representative's Address:

City: San Francisco

State: CA

Phone No.:

Fax No.:

Zip Code: 94٥

Email Address:

City:

State:

Phone No.:

Fax No.:

Zip Code:

Email Address:

Claim: What was/is the employee/worker's annual wage range? 0 Less than $100,000 D $100,000-$250,000 ٥ Over $250,000
Note: This question is required by California law.
Amount of Claim:

Claim involves: 0 Statutorily Protected Rights □ Non-Statutorily
Protected Rights

In detail, please describe the nature of each claim. You may attach additional pages if necessary:

Other Relief Sought: 0 Attorneys Fees 0 Interest 0 Arbitration Costs ٥ Punitive/ Exemplary D Other
Please describe the qualifications for arbitrators) to hear this dispute:

See Exhibit A

Hearing: Estimated time needed for hearings overall:

Hearing Locale: Los Angeles, CA

hours or

days

D Requested by Claimant 0 Locale provision included in the contract

Fiiing Fee requirement or $300 (max amount per AAA)
Filing by Company: D $2,200 single arbitrator D $2,800 three arbitrator panel
Notice: To begin proceedings, please send a copy of this Demand and the Arbitration Agreement, along with filing fee as provided for in the Rules, to:
American Arbitration Association, Case Filing Sen/ices, 1101 Laurel Oak Road, Suite 100, Voorhees, NJ 08043. Send the original Demand to the Respondent.
Signature.(may be signed by a representative):

Date:

7/18/2018
^١

Pursuant to Section 1284.3 of the California Code of Civil Procedure, consumers with a gross monthly income of ‫؛‬ess than 300% of the federal poverty guidelines are
entitled to a waiver of arbitration fees and costs, exclusive of arbitrator fees. This law applies to all consumer agreements subject to the California Arbitration Act, and to
all consumer arbitrations conducted in California. Only those disputes arising out of employer plans are included in the consumer definition. If you believe that you meet
these requirements, you must submit to the AAA a declaration under oath regarding your monthly income and the number of persons in your household. Please contact
the AAA’s Western Case Management Center atl-800-778-7879. If you have any questions regarding the waiver of administrative fees, AAA Case Filing Services can be
reached at 877-49S-418S. Please visitourwebsiteatwww.adr.org if you would like to file this case online. AAA Customer Service can be reached at 800-778-7879.

242a

'

EXHIBIT A

：

١

243a
Arbitration Demand
Claimant Mervyn Cole brings tills claim against DoorDash, Inc. (“DoorDash")
challenging DoorDash's misclassification of Claimant as an independent contractor and
its resulting wage violations.
DoorDasli provides on-demand food delivery services to customers at their
homes and businesses through its mobile phone application and website. To use
DoorDash, a customer orders takeout food from a list of restaurants on DoorDash’s
phone application or website, and a nearby DoorDash delivery driver is notified. Once
the delivery driver accepts the request by tapping a button on their phone, he or she
drives to the restaurant to pick up the customer’s order and then drives to the
customer's location to deliver it. After the delivery, DoorDash collects the payment from
the customer, takes its fee, and then distributes the remainder to the delivery driver.
Delivery drivers must provide or pay for their own smartphone and car. DoorDash
delivery drivers do not need special qualifications or experience apart from a valid
driver’s license.
Delivery drivers receive customer ratings in the form of “star ratings” at the end of
every delivery. These ratings are out of 5 stars, with 5 stars being the highest rating
and 1 star being the lowest. DoorDash utilizes this real-time customer feedback about
delivery drivers to monitor drivers and decide when a delivery driver may need to be
issued a warning or terminated. DoorDasli also tracks otlier metrics for delivery drivers
such as their acceptance rates and may suspend or terminate delivery drivers whose
ratings it deems to be too low. When delivery drivers refuse too many orders,
DoorDasli may end tlieir s!lifts.

1

244a
Mervyn Cole has worked as a DoorDash delivery driver since approximately
August 2016 in the Los Angeles, California area. Like all other DoorDash deliver
drivers, Claimant was subject to a standard form contract, provided by DoorDash, which
drivers were not able to negotiate. Throughout Claimant’s time working for DoorDash
Claimant was classified as an independent contractor rather than an employee. By
misclassifying workers like Claimant, DoorDash has required them to pay necessary
business expenses (such as for their vehicles, gas, smartphone, and data plan
expenses). In addition, Claimant has not been paid minimum wage for all hours
worked.
Mervyn Cole regularly worked in excess of forty hours per week, but was not paid
at time-and-a-half for the hours in excess of forty. Moreover, Claimant was not paid
time-and-a-half for working more than eight hours in a day, or twice the regular hourly
rate for working more than twelve hours in a day.
Claimant brings this claim to challenge this misclassification of Claimant as an
independent contractor, rather than an employee under California law, and the resulting
violations of the California Labor Code stemming from that practice including: (1)
violation of Cal. Lab. Code § 2802 for failure to reimburse necessary business
expenses; (2) violation of Cal. Lab. Code §§1197 and 1194, Los Angeles County
Minimum Wage Ordinance (Ord. 2015-0039 § 3, 2015) for failure to pay minimum wage
for all hours worked; & (3) violation of Cal. Lab. Code §§ 1194, 1198, 510, and 554 for
failure to pay the appropriate overtime premium for overtime hours worked.

2

245a

EXHIBIT B

■٠

■‫؛‬
i

‫؛‬

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

hold harmless DOORDASH, including all parent, subsidiary,
3. CONTRACTOR agrees to indemnify, protect and 246a
and/or affiliated companies, as well as its and their past and present successors, assigns, officers, owners,
directors, agents, representatives, attorneys, and employees, from any and all tax liabilities and
responsibilities for payment of ail federal, state and local taxes, including, but not limited to all payroll taxes,
self-employment taxes, workers compensation premiums, and any contributions imposed or required under
federal, state and local laws, with respect to CONTRACTOR and CONTRACTOR'S Personnel.
4. CONTRACTOR shall be responsible for, indemnify and hold harmless DOORDASH, including all parent,
subsidiary, and/or affiliated companies, as well as its and their past and present successors, assigns, officers,
owners, directors, agents, representatives, attorneys, and employees, from all costs of CONTRACTOR'S
business, including, but not limited to, the expense and responsibility for any and all applicable insurance,
local, state or federal licenses, permits, taxes, and assessments of any and all regulatory agencies, boards or
municipalities.

XI, MUTUAL ARBITRATION PROVISION
1. CONTRACTOR and DOORDASH mutually agree to resolve any justiciable disputes between them exclusively
through final and binding arbitration instead of filing a lawsuit in court. This arbitration agreement is governed
by the Federal Arbitration Act (9 U.S.C. §§ 1-16) ("FAA’j and shall apply to any and all claims arising out of or
relating to this Agreement, CONTRACTOR'S classification as an independent contractor, CONTRACTOR'S
provision of Contracted Services to consumers, the payments received by CONTRACTOR for providing
services to consumers, the termination of this Agreement, and all other aspects of CONTRACTOR'S
relationship with DOORDASH, past, present or future, whether arising under federal, state or local statutory
and/or common law, including without limitation harassment, discrimination or retaliation claims and claims
arising under or related to the Civil Rights Act of 1964 (or its state or local equivalents), Americans With
Disabilities Act (or its state or local equivalents), Age Discrimination in Employment Act (or its state or local
equivalents), Family Medical Leave Act (or its state or local equivalents), or Fair Labor Standards Act (or its
state or local equivalents), state and local wage and hour laws, state and local statutes or regulations
addressing the same or similar subject matters, and all other federal, state or local claims arising out of or
relating to CONTRACTOR'S relationship or the termination of that relationship with DOORDASH. The parties
expressly agree that this Agreement shall be governed by the FAA even in the event CONTRACTOR and/or
DOORDASH are otherwise exemptedfrom the FAA. Any disputes in this regard shall be resolved exclusively
by an arbitrator. In the event, but only in the event, the arbitrator determines the FAA does not apply, the state
law governing arbitration agreements in the state in which the CONTRACTOR operates shall apply.
2. If either CONTRACTOR or DOORDASH wishes to initiate arbitration, the initiating party must notify the other
party in writing via certified mail, return receipt requested, or hand delivery within the applicable statute of
limitations period. This demand for arbitration must include (1) the name and address of the party seeking
arbitration, (2) a statement of the legal and factual basis of the claim, and (3) a description of the remedy
sought. Any demand for arbitration by CONTRACTOR must be delivered to General Counsel, 901 Market
Street, 6th Floor, San Francisco, California 94103.
3. Class Action Waiver. CONTRACTOR and DOORDASH mutually agree that by entering into this agreement to
arbitrate, both waive their right to have any dispute or claim brought, heard or arbitrated as, or to participate
in, a class action, collective action and/or representative action, and an arbitrator shall not have any authority
to hear or arbitrate any class, collective or representative action ("Class Action Waiver"). Notwithstanding any
other clause contained in this Agreement or the AAA Rules, as defined below, any claim that ail or part of this
Class Action Waiver is unenforceable, unconscionable, void or voidable may be determined only by a court of
competent jurisdiction and not by an arbitrator. In any case in which (1) the dispute is filed as a class,
collective, or representative action and (2) there is a final judicial determination that ail or part of the Class
Action Waiver is unenforceable, the class, collective and/or representative action to that extent must be
litigated in a civil court of competent jurisdiction, but the portion of the Class Action Waiver that is enforceable
https://www.doordash.com/dasher/us/ica/

6/9

‫؛‬5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

any other clause contained in this Agreement or the AAA
shall be enforced in arbitration. Notwithstanding 247a
Rules, as defined below, any claim that all or part of this Class Action Waiver is unenforceable,
unconscionable, void or voidable may be determined only by a court of competent jurisdiction and not by an
arbitrator. All other disputes with respect to whether this Mutual Arbitration Provision is unenforceable,
unconscionable, applicable, valid, void or voidable shall be determined exclusively by an arbitrator, and not
by any court.
4. CONTRACTOR agrees and acknowledges that entering into this arbitration agreement does not change
CONTRACTOR'S status as an independent contractor in fact and in law, that CONTRACTOR is not an
employee of DOORDASH or Its customers and that any disputes in this regard shall be subject to arbitration
as provided in this agreement.
5. Any arbitration shall be governed by the American Arbitration Association Commercial Arbitration Rules (,,AAA
Rules”), except as follows:
a. The arbitration shall be heard by one arbitrator selected in accordance with the AAA Rules. The
Arbitrator shall be an attorney with experience in the law underlying the dispute.
b. If the parties cannot otherwise agree on a location for the arbitration, the arbitration shall take place
within 45 miles of CONTRACTOR'S residence as of the effective date of this Agreement.
c. Unless applicable law provides otherwise, as determined by the Arbitrator, the parties agree that
DOORDASH shall pay all of the Arbitrator's fees and costs.
d. The Arbitrator may issue orders (including subpoenas to third parties) allowing the parties to conduct
discovery sufficient to allow each party to prepare that party's claims and/or defenses, taking into
consideration that arbitration is designed to be a speedy and efficient method for resolving disputes.
e. Except as provided in the Class Action Waiver, the Arbitrator may award all remedies to which a party is
entitled under applicable law and which would otherwise be available in a court of law, but shall not be
empowered to award any remedies that would not have been available in a court of law for the claims
presented In arbitration. The Arbitrator shall apply the state or federal substantive law, or both, as Is
applicable.
f. The Arbitrator may hear motions to dismiss and/or motions for summary judgment and will apply the
standards of the Federal Rules of Civil Procedure governing such motions.
g. The Arbitrator's decision or award shall be in writing with findings of fact and conclusions of law.
h. The Arbitrator may issue orders to protect the confidentiality of proprietary information, trade secrets,
or other sensitive information. Subject to the discretion of the Arbitrator or agreement of the parties,
any person having a direct interest In the arbitration may attend the arbitration hearing. The Arbitrator
may exclude any non-party from any part of the hearing.
i. Either CONTRACTOR or DOORDASH may apply to a court of competent jurisdiction for temporary or
preliminary injunctive relief on the ground that without such relief the arbitration provided in this
paragraph may be rendered ineffectual.
6. Nothing in this Mutual Arbitration Provision prevents you from making a report to or filing a claim or charge
with the Equal Employment Opportunity Commission, U.S. Department of Labor, U.S. Securities and Exchange
Commission, National Labor Relations Board, or Office of Federal Contract Compliance Programs. Nothing in
this Mutual Arbitration Provision prevents the investigation by a government agency of any report, claim or
charge otherwise covered by this Mutual Arbitration Provision. This Mutual Arbitration Provision also does
not prevent federal administrative agencies from adjudicating claims and awarding remedies based on those
claims, even if the claims would otherwise be covered by this Mutual Arbitration Provision. Nothing in this
Mutual Arbitration Provision prevents or excuses a party from satisfying any conditions precedent and/or
exhausting administrative remedies under applicable law before bringing a claim in arbitration. DOORDASH
will not retaliate against CONTRACTOR for filing a claim with an administrative agency or for exercising rights
(individually or in concert with others) under Section 7 of the National Labor Relations Act. Disputes between
the parties that may not be subject to predispute arbitration agreement, including as provided by an Act of

https://www.doordash.com/dasher/us/ica/

7/9

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

Congress or lawful, enforceable Executive Order,248a
are excluded from the coverage of this Mutual Arbitration
Provision.
7. The AAA Rules may be found at www.adr.ora or by searching for "AAA Commercial Arbitration Rules" using a
service such as www.aooaie.com or www.bina.com or by asking DOORDASH's General Counsel to provide a
copy.
8. CONTRACTOR'S Right to Opt Out of Arbitration Provision. Arbitration is not a mandatory condition of
CONTRACTOR'S contractual relationship with DOORDASH, and therefore CONTRACTOR may submit a
statement notifying DOORDASH that CONTRACTOR wishes to opt out and not be subject to this MUTUAL
ARBITRATION PROVISION. In order to opt out, CONTRACTOR must notify DOORDASH of CONTRACTOR'S
intention to opt out by sending an email to dasheroptout@doordash.com stating CONTRACTOR'S intention to
opt out. In order to be effective, CONTRACTOR'S opt out notice must be provided within 30 days of the
effective date of this Agreement. If CONTRACTOR opts out as provided in this paragraph, CONTRACTOR will
not be subject to any adverse action from DOORDASH as a consequence of that decision and he/she may
pursue available legal remedies without regard to this Mutual Arbitration Provision. If CONTRACTOR does not
opt out within 30 days of the effective date of this Agreement, CONTRACTOR and DOORDASH shall be
deemed to have agreed to this Mutual Arbitration Provision. CONTRACTOR has the right to consult with
counsel of CONTRACTOR'S choice concerning this Mutual Arbitration Provision {or any other provision of this
Agreement.
9. This Mutual Arbitration Provision is the full and complete agreement relating to the formal resolution of
disputes covered by this Mutual Arbitration Provision. In the event any portion of this Mutual Arbitration
Provision is deemed unenforceable, the remainder of this Mutual Arbitration Provision will be enforceable.
The award issued by the Arbitrator may be entered in any court of competent jurisdiction.

XII. TERMINATION OF AGREEMENT
1. CONTRACTOR may terminate this Agreement upon seven (7) days written notice. DOORDASH may terminate
this Agreement and deactivate CONTRACTOR’S Dasher account only for the reasons set forth in the
DOORDASH Deactivation Policy (http://www.doordash.com/deactivationpolicy), or for a material breach of this
Agreement. Notwithstanding any other provision in this Agreement, DoorDash reserves the right to modify
the Deactivation Policy if, in DoorDash’s good faith and reasonable discretion, it is necessary to do so for the
safe and/or effective operation of the DoorDash platform. DOORDASH shall provide notice of any such
changes to CONTRACTOR via e-mail. Changes to the Deactivation Policy shall be effective and binding on
the parties upon CONTRACTOR’S continued use of the DOORDASH platform following DOORDASH’s e-mail
notice of such modifications. Nothing will prevent CONTRACTOR from attempting to negotiate an exemption
from any modification to the Deactivation Policy.
2. CONTRACTOR'S and DOORDASH's obligations and rights arising under the Mutual Arbitration Provision of
this Agreement shall survive termination of this Agreement. Notwithstanding any other provision in this
Agreement, the Deactivation Policy is subject to change; such changes shall be effective and binding on the
parties upon DOORDASH’S provision of notice to CONTRACTOR via e-mail.

XIII. ENTIRE AGREEMENT TRANSFERABILITY, AND WAIVER
1. This Agreement shall constitute the entire agreement and understanding between the parties with respect to
the subject matter of this Agreement and shall not be modified, altered, changed or amended in any respect,
unless in writing and signed by both parties. Before accepting any modifications, alterations, changes or
amendments, CONTRACTOR shall have the right to discuss any proposed changes with DOORDASH and
consider whether to continue his/her contractual relationship with DOORDASH. This Agreement supersedes
any prior contract between the parties. To the extent DOORDASH's consumer facing Terms and Conditions
Agreement (or updated consumer facing Terms and Conditions Agreement, if applicable) is inconsistent or
conflicts with this Agreement, this Agreement controls. However, the decision to opt-out of the Mutual
Arbitration Provision in this Agreement does not affect the enforceability of any arbitration agreement in the
https://www.doordash.com/dasher/us/ica/

8/9

249a

EXHIBIT N

250a

@

American Arbitration Association®

EMPOYMENT ARBITRAT،٥N RULES
DEMAND FOR ARBITRATION

To ensure your demand is processed promptly, please include a copy of the Arbitration Agreement, Plan or Contract.
Mediation: If you would like the AAA to contact the other parties and attempt to arrange mediation, please check this box ٥ .

Name of Claimant: Thomas Denham

Representatives Name (if known): Shannon Liss-Riordan, ‫ د‬Kramer

Address:

Firm (if applicable): Lichten & Liss-Riordan, p.c.

c/o Lichten & Liss-Riordan, p.c.
729 Boylston Sfreet, Suite 200٥

Representative's Address:
729 Boylston Street, Suite 20٥٥

Zip Code: 0٩‫ئ‬

City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.: 617-994-5801

Email Address:

City: Boston

State: MA

Phone No.: 6Î7-994-5800

Fax No.: 617-994-5801

Zip Code: 02‫ئ‬

Email Address: sliss@llrlaw.com; akramer@llrlaw.com

|||‫أآﺀ؟ﺟﺈاا‬١‫ا‬
Name of Respondent: DoorDash, Inc.

Representative's Name (if known):

Address:

Firm (if applicable):

5901 Market St., 6th Floor

Representatives Address:

City: San Francisco

State: CA

Phone No.:

Fax No.:

Zip Code: 9٠

Email Address:

City:

State:

Phone No.:

Fax No.:

Zip Code:

Email Address:

Claim: What was/is the employee/worker's annual wage range? B Less than $100,000 ٥ $100,00،>-$250,000 ٥ Over $250,000
Note: This question is required by California law.
Amount of Claim:

Claim involves: B Statutorily Protected Rights □ Non-Statutorily
Protected Rights

In detail, please describe the nature of each claim. You may attach additional pages if necessary:

Other Relief Sought: B Attorneys Fees B Interest B Arbitration Costs D Punitive/ Exemplary D Other
Please describe the qualifications for arbitrator(s) to hear this dispute:
See Exhibit A

Hearing: Estimated time needed for hearings overall:
Hearing locale: San Diego, CA

hours or

days

٥ Requested by Claimant B Locale provision included in the contract

Filing Fee requirement or $300 (max amount per AAA)
Filing by Company: ٥ $2,200 single arbitrator ٥ $2,800 three arbitrator panel
Notice: To begin proceedings, please send a copy of this Demand and the Arbitration Agreement, along with filing fee as provided for in the Rules, to:
American Arbitration Association, Case Filing Services, 1101 Laurel Oak Road, Suite 100, Voorhees, NJ 08043. Send the original Demand to the Respondent.
Signature (pisy be signed by a re۶es۶ntative):

Date:
7/18/2018

AjLjir
Pursuant to Section 1284.3 of the California Code of Civ‫ !؛‬Procedure, consumers with a gross monthly income of less than 31 of the federal poverty guidelines are
entitled to a waiver of agitation fees and costs, exclusive of arbitrator fees. This law applies to all consumer agreements subject to the California Arbitration Art, and to
all consumer arbitrations conducted in California. Only those disputes arising out of employer plans are Included in the consumer definition. If you believe that you meet
these requirements, you must submit to the AAA a declaration under oath regarding your monthly income and the number of persons in your household. Please contact
the AAA's Western Case Management Center 311-778-7879. If you have any questions regarding the waiver of administrative fees, AAA Case Filing Sendees can be
reached at 877495-4185. Please visit ourwebsits at -.adrorg if you wouid like to file this case online. AAA Customer Service can be reached at 80^778-7879.

251a

EXHIBIT A

252a
Arbitration Demand
Claimant Thomas Denham brings this claim against DoorDash, inc. (“DoorDash”)
challenging DoorDash’s misclassification of Claimant as an independent contractor and
its resulting wage violations.
DoorDash provides on-demand food delivery services to customers at their
homes and businesses through its mobile phone application and website. To use
DoorDash, a customer orders takeout food from a list of restaurants on DoorDash’s
phone application or website, and a nearby DoorDash delivery driver is notified. Once
the delivery driver accepts the request by tapping a button on their phone, he or she
drives to the restaurant to pick up the customer’s order and then drives to the
customer’s location to deliver it. After the delivery, DoorDash collects the payment from
the customer, takes its fee, and then distributes the remainder to the delivery driver.
Delivery drivers must provide or pay for their own smartphone and car. DoorDash
delivery drivers do not need special qualifications or experience apart from a valid
driver’s license.
Delivery drivers receive customer ratings in the form of “star ratings” at the end of
every delivery. These ratings are out of 5 stars, with 5 stars being the highest rating
and 1 star being the lowest. DoorDash utilizes this real-time customer feedback about
delivery drivers to monitor drivers and decide when a delivery driver may need to be
issued a warning or terminated. DoorDash also tracks other metrics for delivery drivers
such as their acceptance rates and may suspend or terminate delivery drivers whose
ratings it deems to be too low. When delivery drivers refuse too many orders,
DoorDash may end their shifts.

1

253a
Thomas Denham worked as a DoorDash delivery driver from approximately
January 2017 to April 2018 in the Oceanside, California area. Like all other DoorDash
delivery drivers, Claimant was subject to a standard form contract, provided by
DoorDash, which drivers were not able to negotiate. Throughout Claimant’s time
working for DoorDash, Claimant was classified as an independent contractor rather than
an employee. By misclassifying workers like Claimant, DoorDash has required them to
pay necessary business expenses (such as for their vehicles, gas, smartphone, and
data plan expenses). In addition, Claimant has not been paid minimum wage for all
hours worked.
Thomas Denham regularly worked in excess of forty hours per week, but was not
paid at time-and-a-half for the hours in excess of forty. Moreover, Claimant was not
paid time-and-a-half for working more than eight hours in a day, or twice the regular
hourly rate for working more than twelve hours in a day.
Claimant brings this claim to challenge this misclassification of Claimant as an
independent contractor, rather than an employee under California law, and the resulting
violations of the California Labor Code stemming from that practice including: (1)
violation of Cal. Lab. Code § 2802 for failure to reimburse necessary business
expenses; (2) violation of Cal. Lab. Code §§1197 and 1194 for failure to pay minimum
wage forali hours worked; & (3) violation of Cal. Lab. Code §§ 1194, 1198, 510, and
554 for failure to pay the appropriate overtime premium for overtime hours worked.

2

254a

EXHIBIT B

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

5/9/2018

3. CONTRACTOR agrees to indemnify, protect and 255a
hold harmless DOORDASH, including all parent, subsidiary,
and/or affiliated companies, as well as its and their past and present successors, assigns, officers, owners,
directors, agents, representatives, attorneys, and employees, from any and all tax liabilities and
responsibilities for payment of all federal, state and local taxes, including, but not limited to all payroll taxes,
self-employment taxes, workers compensation premiums, and any contributions imposed or required under
federal, state and local laws, with respect to CONTRACTOR and CONTRACTOR'S Personnel.
4. CONTRACTOR shall be responsible for, indemnify and hold harmless DOORDASH, including all parent,
subsidiary, and/or affiliated companies, as well as its and their past and present successors, assigns, officers,
owners, directors, agents, representatives, attorneys, and employees, from all costs of CONTRACTOR'S
business, including, but not limited to, the expense and responsibility for any and all applicable insurance,
local, state or federal licenses, permits, taxes, and assessments of any and all regulatory agencies, boards or
municipalities.

XI. MUTUAL ARBITRATION PROVISION
1. CONTRACTOR and DOORDASH mutually agree to resolve anyjusticiable disputes between them exclusively
through final and binding arbitration instead of filing a lawsuit in court. This arbitration agreement is governed
by the Federal Arbitration Act (9 U.S.C. §§ 1-16) ("FAA") and shall apply to any and all claims arising out of or
relating to this Agreement, CONTRACTOR'S classification as an independent contractor, CONTRACTOR'S
provision of Contracted Services to consumers, the payments received by CONTRACTOR for providing
services to consumers, the termination of this Agreement, and all other aspects of CONTRACTOR’S
relationship with DOORDASH, past, present or future, whether arising under federal, state or local statutory
and/or common law, including without limitation harassment, discrimination or retaliation claims and claims
arising under or related to the Civil Rights Act of 1964 (or its state or local equivalents), Americans With
Disabilities Act (or its state or local equivalents), Age Discrimination in Employment Act (or its state or local
equivalents), Family Medical Leave Act (or its state or local equivalents), or Fair Labor Standards Act (or its
state or local equivalents), state and local wage and hour laws, state and local statutes or regulations
addressing the same or similar subject matters, and all other federal, state or local claims arising out of or
relating to CONTRACTOR'S relationship or the termination of that relationship with DOORDASH. The parties
expressly agree that this Agreement shall be governed by the FAA even in the event CONTRACTOR and/or
DOORDASH are otherwise exemptedfrom the FAA. Any disputes in this regard shall be resolved exclusively
by an arbitrator. In the event, but only in the event, the arbitrator determines the FAA does not apply, the state
law governing arbitration agreements in the state in which the CONTRACTOR operates shall apply.
2. If either CONTRACTOR or DOORDASH wishes to initiate arbitration, the initiating party must notify the other
party in writing via certified mail, return receipt requested, or hand delivery within the applicable statute of
limitations period. This demand for arbitration must include (1) the name and address of the party seeking
arbitration, (2) a statement of the legal and factual basis of the claim, and (3) a description of the remedy
sought. Any demand for arbitration by CONTRACTOR must be delivered to Genera! Counsel, 901 Market
Street, 6th Floor, San Francisco, California 94103.
3. Class Action Waiver. CONTRACTOR and DOORDASH mutually agree that by entering into this agreement to
arbitrate, both waive their right to have any dispute or claim brought, heard or arbitrated as, or to participate
in, a class action, collective action and/or representative action, and an arbitrator shall not have any authority
to hear or arbitrate any class, collective or representative action ("Class Action Waiver"). Notwithstanding any
other clause contained in this Agreement or the AAA Rules, as defined below, any claim that all or part of this
Class Action Waiver is unenforceable, unconscionable, void or voidable may be determined only by a court of
competent jurisdiction and not by an arbitrator. In any case in which (1) the dispute is filed as a class,
collective, or representative action and (2) there is a final judicial determination that all or part of the Class
Action Waiver is unenforceable, the class, collective and/or representative action to that extent must be
litigated in a civil court of competent jurisdiction, but the portion of the Class Action Waiver that is enforceable
https://www.doordash.com/dasher/us/ica/

6/9

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

5/9/2018

shall be enforced in arbitration. Notwithstanding 256a
any other clause contained in this Agreement or the AAA
Rules, as defined below, any claim that all or part of this Class Action Waiver is unenforceable,
unconscionable, void or voidable may be determined only by a court of competent jurisdiction and not by an
arbitrator. All other disputes with respect to whether this Mutual Arbitration Provision is unenforceable,
unconscionable, applicable, valid, void or voidable shall be determined exclusively by an arbitrator, and not
by any court.
4. CONTRACTOR agrees and acknowledges that entering into this arbitration agreement does not change
CONTRACTOR'S status as an independent contractor in fact and in law, that CONTRACTOR is not an
employee of DOORDASH or its customers and that any disputes in this regard shall be subject to arbitration
as provided in this agreement.
5. Any arbitration shall be governed by the American Arbitration Association Commercial Arbitration Rules ("AAA
Rules"), except as follows:
a. The arbitration shall be heard by one arbitrator selected in accordance with the AAA Rules. The
Arbitrator shall be an attorney with experience in the law underlying the dispute.
b. if the parties cannot otherwise agree on a location for the arbitration, the arbitration shall take place
within 45 miles of CONTRACTOR'S residence as of the effective date of this Agreement.
c. Unless applicable law provides otherwise, as determined by the Arbitrator, the parties agree that
DOORDASH shall pay all of the Arbitrator's fees and costs.
d. The Arbitrator may issue orders (including subpoenas to third parties) allowing the parties to conduct
discovery sufficient to allow each party to prepare that party's claims and/or defenses, taking into
consideration that arbitration is designed to be a speedy and efficient method for resolving disputes.
e. Except as provided in the Class Action Waiver, the Arbitrator may award all remedies to which a party is
entitled under applicable law and which would otherwise be available in a court of law, but shall not be
empowered to award any remedies that would not have been available in a court of law for the claims
presented in arbitration. The Arbitrator shall apply the state or federal substantive law, or both, as is
applicable.
f. The Arbitrator may hear motions to dismiss and/or motions for summaryjudgment and will apply the
standards of the Federal Rules of Civil Procedure governing such motions.
g. The Arbitrator's decision or award shall be in writing with findings of fact and conclusions of law.

j

h. The Arbitrator may issue orders to protect the confidentiality of proprietary information, trade secrets,
or other sensitive information. Subject to the discretion of the Arbitrator or agreement of the parties,
any person having a direct interest in the arbitration may attend the arbitration hearing. The Arbitrator
may exclude any non-party from any part of the hearing.
i. Either CONTRACTOR or DOORDASH may apply to a court of competent jurisdiction for temporary or
preliminary injunctive relief on the ground that without such relief the arbitration provided in this
paragraph may be rendered ineffectual.
6. Nothing in this Mutual Arbitration Provision prevents you from making a report to or filing a claim or charge
with the Equal Employment Opportunity Commission, U.S. Department of Labor, U.S. Securities and Exchange
Commission, National Labor Relations Board, or Office of Federal Contract Compliance Programs. Nothing in
this Mutual Arbitration Provision prevents the investigation by a government agency of any report, claim or
charge otherwise covered by this Mutual Arbitration Provision. This Mutual Arbitration Provision also does
not prevent federal administrative agencies from adjudicating claims and awarding remedies based on those
claims, even if the claims would otherwise be covered by this Mutual Arbitration Provision. Nothing in this
Mutual Arbitration Provision prevents or excuses a party from satisfying any conditions precedent and/or
exhausting administrative remedies under applicable law before bringing a claim in arbitration. DOORDASH
will not retaliate against CONTRACTOR for filing a claim with an administrative agency or for exercising rights
(individually or In concert with others) under Section 7 of the National Labor Relations Act. Disputes between
the parties that may not be subject to predispute arbitration agreement, including as provided by an Act of
https://vw٨v.doordash.com/dasher/us/ica/

7/9

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

5/9/2018

Congress or lawful, enforceable Executive Order,257a
are excluded from the coverage of this Mutual Arbitration
Provision.
7. The AAA Rules may be found at www.adr.ora or by searching for 'AAA Commercial Arbitration Rules" using a
service such as www.aooale.com or www.bina.com or by asking DOORDASH's General Counsel to provide a
copy.
8. CONTRACTOR'S Right to Opt Out of Arbitration Provision. Arbitration is not a mandatory condition of
CONTRACTOR'S contractual relationship with DOORDASH. and therefore CONTRACTOR may submit a
statement notifying DOORDASH that CONTRACTOR wishes to opt out and not be subject to this MUTUAL
ARBITRATION PROVISION. In order to opt out, CONTRACTOR must notify DOORDASH of CONTRACTOR'S
intention to opt out by sending an email to dasheroptout@doordash.com stating CONTRACTOR'S intention to
opt out. In order to be effective, CONTRACTOR'S opt out notice must be provided within 30 days of the
effective date of this Agreement. If CONTRACTOR opts out as provided in this paragraph, CONTRACTOR will
not be subject to any adverse action from DOORDASH as a consequence of that decision and he/she may
pursue available legal remedies without regard to this Mutual Arbitration Provision. If CONTRACTOR does not
opt out within 30 days of the effective date of this Agreement, CONTRACTOR and DOORDASH shall be
deemed to have agreed to this Mutual Arbitration Provision. CONTRACTOR has the right to consult with
counsel of CONTRACTOR'S choice concerning this Mutual Arbitration Provision (or any other provision of this
Agreement.
9. This Mutual Arbitration Provision is the full and complete agreement relating to the formal resolution of
disputes covered by this Mutual Arbitration Provision. In the event any portion of this Mutual Arbitration
Provision is deemed unenforceable, the remainder of this Mutual Arbitration Provision will be enforceable.
The award issued by the Arbitrator may be entered in any court of competent jurisdiction.

XII. TERMINATION OF AGREEMENT
1. CONTRACTOR may terminate this Agreement upon seven (7) days written notice. DOORDASH may terminate
this Agreement and deactivate CONTRACTOR’S Dasher account only for the reasons set forth in the
DOORDASH Deactivation Policy (http://www.doordash.com/deactivationpolicy), or for a material breach of this
Agreement. Notwithstanding any other provision in this Agreement, DoorDash reserves the right to modify
the Deactivation Policy if, in DoorDash’s good faith and reasonable discretion, it is necessary to do so for the
safe and/or effective operation of the DoorDash platform. DOORDASH shall provide notice of any such
changes to CONTRACTOR via e-mail. Changes to the Deactivation Policy shall be effective and binding on
the parties upon CONTRACTOR’S continued use of the DOORDASH platform following DOORDASH’s e-mail
notice of such modifications. Nothing will prevent CONTRACTOR from attempting to negotiate an exemption
from any modification to the Deactivation Policy.
2. CONTRACTOR'S and DOORDASH's obligations and rights arising under the Mutual Arbitration Provision of
this Agreement shall survive termination of this Agreement. Notwithstanding any other provision in this
Agreement, the Deactivation Policy is subject to change; such changes shall be effective and binding on the
parties upon DOORDASH’S provision of notice to CONTRACTOR via e-mail.

XIII. ENTIRE AGREEMENT, TRANSFERABILITY, AND WAIVER
1, This Agreement shall constitute the entire agreement and understanding between the parties with respect to
the subject matter of this Agreement and shall not be modified, altered, changed or amended in any respect,
unless in writing and signed by both parties. Before accepting any modifications, alterations, changes or
amendments, CONTRACTOR shall have the right to discuss any proposed changes with DOORDASH and
consider whether to continue his/her contractual relationship with DOORDASH. This Agreement supersedes
any prior contract between the parties. To the extent DOORDASH's consumer facing Terms and Conditions
Agreement (or updated consumer facing Terms and Conditions Agreement, if applicable) is inconsistent or
conflicts with this Agreement, this Agreement controls. However, the decision to opt-out of the Mutual
Arbitration Provision in this Agreement does not affect the enforceability of any arbitration agreement in the
https://www.doordash.com/dasher/us/ica/

8/9

258a

EXHIBIT O

259a

American Arbitration Association

EMPLOYMENT ARBITRATION RULES
DEMAND FOR ARBITRATION

To ensure your demand is processed promptly, please include a copy of the Arbitration Agreement, Plan or Contract.
Mediation: If you would like the AAA to contact the other parties and attempt to arrange mediation, please check this box ٥ .

■or،‫؛‬,

lai

Name of Ciaimant: David Erickson

Representative's Name (if known): Shannon Liss-Riordan, Anne Kramer

Address:

Firm (if applicable): Lichten & Liss-Riordan, P.C.

c/o Lichten & Liss-Riordan, P.C.
729 Boylston Street, Suite 2000

Representative's Address:

729 Boylston Street, Suite 2000
Zip Code: o٩*j

City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.: 617-994-5801

City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.:

617-994-5801

Email Address:

Email Address: sliss@llrlaw.com; akramer@llrlaw.com

Name of Respondent: DoorDash, Inc.

Representative's Name (if known):

Address:

Firm (if applicable):

901 Market St., 6th Floor

Zip Code: 02‫؛؛‬

Representative's Address:

City: San Francisco

State: CA

Phone No.:

Fax No.:

Zip Code: 94٥

Email Address:

City:

State:

Phone No.:

Fax No.:

Zip Code:

Email Address:

Claim: What was/is the empioyee/worker's annual wage range? H Less than $100,000 ٥ $100,000-$250,000 ٥ Over $250,000
Note: This question is required by California law.
Claim involves: El Statutorily Protected Rights D Non-Statutorily
Protected Rights

Amount of Claim:

‫؛‬

In detail, please describe the nature of each claim. You may attach additional pages if necessary:

Other Relief Sought: E Attorneys Fees E Interest B Arbitration Costs G Punitive/ Exemplary G Other
Please describe the qualifications for arbitrators} to hear this dispute:

See Exhibit A

Hearing: Estimated time needed for hearings overall:

Hearing Locale: San Diego, CA

hours or

days

G Requested by Claimant B Locale provision included in the contract

Filing Fee requirement or $300 (max amount per AAA)
Filing by Company: G $2,200 single arbitrator G $2,800 three arbitrator panel
Notice: To begin proceedings, please send a copy of this Demand and the Arbitration Agreement, along with filing fee as provided for in the Rules, to:
American Arbitration Association, Case Filing Services, 1101 Laurel Oak Road, Suite 100, Voorhees, NJ 08043. Send the original Demand to the Respondent.
SignatureZraay be signed by a representative/,

ÀX

ÀÀÀrï

Date:

7/18/2018

Pursuant to Section 1284,3 of the California Code of Civ¡‫ ؛‬Procedure, consumers with a gross monthly income of less than 300% of the federal poverty guidelines are
entitled to a waiver of arbitration fees and costs, exclusive of arbitrator fees. This law applies to ail consumer agreements subject to the California Arbitration Act, and to
all consumer arbitrations conducted in California. Only those disputes arising out of employer plans are included in the consumer definition. If you believe that you meet
these requirements, you must submit to the AAA a declaration under oath regarding your monthly income and the number of persons in your household. Please contact
the AAA's Western Case Management Center atl-800-778-7879. If you have any questions regarding the waiver of administrative fees, AAA Case Filing Services can be
reached at 877-495-4185. Please visit our website atwww.adr.org if you would like to file this case online. AAA Customer Service can be reached at 800-778-7879,

260a

'

EXHIBIT A

261a
Arbitration Demand
Claimant David Erickson brings this claim against DoorDash, Inc. (“DoorDash")
challenging DoorDash’s misclassification of Claimant as an independent contractor and
its resulting wage violations.
DoorDash provides on-demand food delivery services to customers at their
homes and businesses through its mobile phone application and website. To use
DoorDash, a customer orders takeout food from a list of restaurants on DoorDash’s
phone application or website, and a nearby DoorDasli deliver driver is notified. Once
the delivery driver accepts the request by tapping a button on their phone, he or she
drives to the restaurant to pick up the customer’s order and then drives to the
customer’s location to deliver it. After the delivery, DoorDash collects the payment from
the customer, takes its fee, and then distributes the remainder to the delivery driver.
Delivery drivers must provide or pay for their own smartphone and car. DoorDash
delivery drivers do not need special qualifications or experience apart from a valid
driver’s license.
Delivery drivers receive customer ratings in the form of “star ratings” at the end of
every delivery. These ratings are out of 5 stars, with 5 stars being the highest rating
and 1 star being the lowest. DoorDash utilizes this real-time customer feedback about
delivery drivers to monitor drivers and decide when a delivery driver may need to be
issued a warning or terminated. DoorDash also tracks other metrics for delivery drivers
such as their acceptance rates and may suspend or terminate delivery drivers whose
ratings it deems to be too low. When delivery drivers refuse too many orders,
DoorDash may end their shifts.

1

262a
David Erickson has worked as a DoorDash delivery driver since approximately
Februaty 2016 in the El Cajon, California area. Like all other DoorDash delivery drivers.
Claimant was subject to a standard form contract) provided by DoorDash, which drivers
were not able to negotiate. Throughout Claimant’s time working for DoorDash
Claimant was classified as an independent contractor rather than an employee. By
misclassifying workers like Claimant, DoorDash has required them to pay necessaty
business expenses (such as for their vehicles, gas, smartphone, and data plan
expenses). In addition, Claimant has not been paid minimum wage for all hours
worked.
David Erickson regularly worked in excess of forty hours per week, but was not
paid at time-and-a-half for the hours in excess of forty. Moreover, Claimant was not
paid time-and-a-half for working more than eight hours in a day, or twice the regular
hourly rate for working more than twelve hours in a day.
Claimant brings this claim to challenge this misclassification of Claimant as an
independent contractor, rather than an employee under California law, and the resulting
violations of the California Labor Code stemming from that practice including: (1)
violation of Cal. Lab. Code § 29٥2 for failure to reimburse necessary business
expenses; (2) violation of Cal. Lab. Code §§1197 and 1194 for failure to pay minimum
wage for all hours worked: & (3) violation of Cal. Lab. Code §§ 1194, 1193, 51٥, and
554 for failure to pay the appropriate overtime premium for overtime hours worked.

2

‫ﴽ‬

263a

EXHIBIT B

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

264aharmless DOORDASH, including all parent, subsidiary,
3. CONTRACTOR agrees to indemnify, protect and hold
and/or affiliated companies, as well as its and their past and present successors, assigns, officers, owners,
directors, agents, representatives, attorneys, and employees, from any and all tax liabilities and
responsibilities for payment of all federal, state and local taxes, including, but not limited to all payroll taxes,
self-employment taxes, workers compensation premiums, and any contributions imposed or required under
federal, state and local laws, with respect to CONTRACTOR and CONTRACTOR'S Personnel.
4. CONTRACTOR shall be responsible for, indemnify and hold harmless DOORDASH, including all parent,
subsidiary, and/or affiliated companies, as well as its and their past and present successors, assigns, officers,
owners, directors, agents, representatives, attorneys, and employees, from all costs of CONTRACTOR'S
business, including, but not limited to, the expense and responsibility for any and all applicable insurance,
local, state or federal licenses, permits, taxes, and assessments of any and all regulatory agencies, boards or
municipalities.

XL MUTUAL ARBITRATION PROVISION
t. CONTRACTOR and DOORDASH mutually agree to resolve anyjusticiable disputes between them exclusively
through final and binding arbitration instead of filing a lawsuit in court. This arbitration agreement is governed
by the Federal Arbitration Act (9 U.S.C. §§ 1-16) ("FAA") and shall apply to any and all claims arising out of or
relating to this Agreement, CONTRACTOR'S classification as an independent contractor, CONTRACTOR'S
provision of Contracted Services to consumers, the payments received by CONTRACTOR for providing
services to consumers, the termination of this Agreement, and all other aspects of CONTRACTOR'S
relationship with DOORDASH, past, present or future, whether arising under federal, state or local statutory
and/or common law, including without limitation harassment, discrimination or retaliation claims and claims
arising under or related to the Civil Rights Act of 1964 {or its state or local equivalents), Americans With
Disabilities Act (or its state or local equivalents), Age Discrimination in Employment Act (or its state or local
equivalents), Family Medical Leave Act (or its state or local equivalents), or Fair Labor Standards Act (or its
state or local equivalents), state and local wage and hour laws, state and local statutes or regulations
addressing the same or similar subject matters, and all other federal, state or local claims arising out of or
relating to CONTRACTOR'S relationship or the termination of that relationship with DOORDASH. The parties
expressly agree that this Agreement shall be governed by the FAA even in the event CONTRACTOR and/or
DOORDASH are otherwise exemptedfrom the FAA. Any disputes in this regard shall be resolved exclusively
by an arbitrator. In the event, but oniy in the event, the arbitrator determines the FAA does not apply, the state
law governing arbitration agreements in the state in which the CONTRACTOR operates shall apply.
2. If either CONTRACTOR or DOORDASH wishes to initiate arbitration, the initiating party must notify the other
party in writing via certified mail, return receipt requested, or hand delivery within the applicable statute of
limitations period. This demand for arbitration must include (1) the name and address of the party seeking
arbitration, (2) a statement of the legal and factual basis of the claim, and (3) a description of the remedy
souglit. Any demand for arbitration by CONTRACTOR must be delivered to Genera! Counsel, 901 Market
Street, 6‫؛‬h Floor, San Francisco, California 94103.
3. Class Action Waiver. CONTRACTOR and DOORDASH mutually agree that by entering into this agreement to
arbitrate, both waive their right to have any dispute or claim brought, heard or arbitrated as, or to participate
in, a class action, collective action and/or representative action, and an arbitrator shall not have any authority
to hear or arbitrate any class, collective or representative action ("Class Action Waiver"). Notwithstanding any
other clause contained in this Agreement or the AAA Rules, as defined below, any claim that all or part of this
Class Action Waiver is unenforceable, unconscionable, void or voidable may be determined only by a court of
competent jurisdiction and not by an arbitrator. In any case in which (1) the dispute is filed as a class,
collective, or representative action and (2) there is a final judicial determination that all or part of the Class
Action Waiver is unenforceable, the class, collective and/or representative action to that extent must be
litigated in a civil court of competent jurisdiction, but the portion of the Class Action Waiver that is enforceable
fiftps://-.d00٢dash.com/dashe٢/us/ica/

6/9

5/9/2018

DoorDash Food Delivery j INDEPENDENT CONTRACTOR AGREEMENT

any other clause contained in this Agreement or the AAA
shall be enforced in arbitration. Notwithstanding 265a
Rules, as defined below, any claim that all or part of this Class Action Waiver is unenforceable,
unconscionable, void or voidable may be determined only by a court of competent jurisdiction and not by an
arbitrator. All other disputes with respect to whether this Mutual Arbitration Provision is unenforceable,
unconscionable, applicable, valid, void or voidable shall be determined exclusively by an arbitrator, and not
by any court.
4. CONTRACTOR agrees and acknowledges that entering into this arbitration agreement does not change
CONTRACTOR'S status as an independent contractor in fact and in law, that CONTRACTOR is not an
employee of DOORDASH or its customers and that any disputes in this regard shall be subject to arbitration
as provided in this agreement.
5. Any arbitration shall be governed by the American Arbitration Association Commercial Arbitration Rules ("AAA
Rules"), except as follows:
a. The arbitration shall be heard by one arbitrator selected in accordance with the AAA Rules. The
Arbitrator shall be an attorney with experience in the law underlying the dispute.
b. If the parties cannot otherwise agree on a location for the arbitration, the arbitration shall take place
within 45 miles of CONTRACTOR'S residence as of the effective date ofthis Agreement.
c. Unless applicable law provides otherwise, as determined by the Arbitrator, the parties agree that
DOORDASH shall pay all of the Arbitrator's fees and costs.
d. The Arbitrator may issue orders (including subpoenas to third parties) allowing the parties to conduct
discovery sufficient to allow each party to prepare that party's claims and/or defenses, taking into
consideration that arbitration is designed to be a speedy and efficient method for resolving disputes.
e. Except as provided in the Class Action Waiver, the Arbitrator may award all remedies to which a party is
entitled under applicable law and which would otherwise be available in a court of law, but shall not be
empowered to award any remedies that would not have been available in a court of law for the claims
presented in arbitration. The Arbitrator shall apply the state or federal substantive law, or both, as is
applicable.
f. The Arbitrator may hear motions to dismiss and/or motions for summaryjudgment and will apply the
standards of the Federal Rules of Civil Procedure governing such motions.
g. The Arbitrator's decision or award shall be in writing with findings of fact and conclusions of law.
h. The Arbitrator may issue orders to protect the confidentiality of proprietary information, trade secrets,
or other sensitive information. Subject to the discretion of the Arbitrator or agreement of the parties,
any person having a direct interest in the arbitration may attend the arbitration hearing. The Arbitrator
may exclude any non-party from any part of the hearing.
‫؛‬. Either CONTRACTOR or DOORDASH may apply to a court of competent jurisdiction for temporary or
preliminary injunctive relief on the ground that without such relief the arbitration provided in this
paragraph may be rendered ineffectual.
6. Nothing in this Mutual Arbitration Provision prevents you from making a report to or filing a claim or charge
with the Equal Employment Opportunity Commission, U.S. Department of Labor, U.S. Securities and Exchange
Commission, National Labor Relations Board, or Office of Federal Contract Compliance Programs. Nothing in
this Mutual Arbitration Provision prevents the investigation by a government agency of any report, claim or
charge otherwise covered by this Mutual Arbitration Provision. This Mutual Arbitration Provision also does
not prevent federal administrative agencies from adjudicating claims and awarding remedies based on those
claims, even if the claims would otherwise be covered by this Mutual Arbitration Provision. Nothing in this
Mutual Arbitration Provision prevents or excuses a party from satisfying any conditions precedent and/or
exhausting administrative remedies under applicable law before bringing a claim in arbitration. DOORDASH
will not retaliate against CONTRACTOR for filing a claim with an administrative agency or for exercising rights
(individually or in concert with others) under Section 7 of the National Labor Relations Act. Disputes between
the parties that may not be subject to predispute arbitration agreement, including as provided by an Act of

https://www.doordash.com/dasher/iis/ica/

7/9

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

Congress or lawful, enforceable Executive Order,266a
are excluded from the coverage of this Mutual Arbitration
Provision.
7. The AAA Rules may be found at www.adr.ora or by searching for "AAA Commercial Arbitration Rules" using a
service such as www.aooale.com or www.bina.com or by asking DOORDASH's General Counsel to provide a
copy.
8. CONTRACTOR’S Right to Opt Out of Arbitration Provision. Arbitration is not a mandatory condition of
CONTRACTOR’S contractual relationship with DOORDASH, and therefore CONTRACTOR may submit a
statement notifying DOORDASH that CONTRACTOR wishes to opt out and not be subject to this MUTUAL
ARBITRATION PROVISION. In order to opt out, CONTRACTOR must notify DOORDASH of CONTRACTOR’S
intention to opt out by sending an email to dasheroptout@doordash.com stating CONTRACTOR'S intention to
opt out. In order to be effective, CONTRACTOR'S opt out notice must be provided within 30 days of the
effective date of this Agreement. If CONTRACTOR opts out as provided in this paragraph, CONTRACTOR will
not be subject to any adverse action from DOORDASH as a consequence of that decision and he/she may
pursue available legal remedies without regard to this Mutual Arbitration Provision. If CONTRACTOR does not
opt out within 30 days of the effective date of this Agreement, CONTRACTOR and DOORDASH shall be
deemed to have agreed to this Mutual Arbitration Provision. CONTRACTOR has the right to consult with
counsel of CONTRACTOR'S choice concerning this Mutual Arbitration Provision (or any other provision of this
Agreement.
9. This Mutual Arbitration Provision is the full and complete agreement relating to the formal resolution of
disputes covered by this Mutual Arbitration Provision. In the event any portion of this Mutual Arbitration
Provision is deemed unenforceable, the remainder of this Mutual Arbitration Provision will be enforceable.
The award issued by the Arbitrator may be entered in any court of competent jurisdiction.

XII. TERMINATION OF AGREEMENT
1. CONTRACTOR may terminate this Agreement upon seven (7) days written notice. DOORDASH may terminate
this Agreement and deactivate CONTRACTOR’S Dasher account only for the reasons set forth in the
DOORDASH Deactivation Policy (http://www.doordash.com/deactivationpolicy), or for a material breach of this
Agreement. Notwithstanding any other provision in this Agreement, DoorDash reserves the right to modify
the Deactivation Policy if, in DoorDash’s good faith and reasonable discretion, it is necessary to do so for the
safe and/or effective operation of the DoorDash platform. DOORDASH shall provide notice of any such
changes to CONTRACTOR via e-mail. Changes to the Deactivation Policy shall be effective and binding on
the parties upon CONTRACTOR’S continued use of the DOORDASH platform following DOORDASH’s e-mail
notice of such modifications. Nothing will prevent CONTRACTOR from attempting to negotiate an exemption
from any modification to the Deactivation Policy.
2. CONTRACTOR’S and DOORDASH's obligations and rights arising under the Mutual Arbitration Provision of
this Agreement shall survive termination of this Agreement. Notwithstanding any other provision in this
Agreement, the Deactivation Policy is subject to change; such changes shall be effective and binding on the
parties upon DOORDASH’S provision of notice to CONTRACTOR via e-mail.

XIII. ENTIRE AGREEMENT, TRANSFERABILITY, AND WAIVER
1. This Agreement shall constitute the entire agreement and understanding between the parties with respect to
the subject matter of this Agreement and shall not be modified, altered, changed or amended in any respect,
unless in writing and signed by both parties. Before accepting any modifications, alterations, changes or
amendments, CONTRACTOR shall have the right to discuss any proposed changes with DOORDASH and
consider whether to continue his/her contractual relationship with DOORDASH. This Agreement supersedes
any prior contract between the parties. To the extent DOORDASH's consumer facing Terms and Conditions
Agreement (or updated consumer facing Terms and Conditions Agreement, if applicable) is inconsistent or
conflicts with this Agreement, this Agreement controls. However, the decision to opt-out of the Mutual
Arbitration Provision in this Agreement does not affect the enforceability of any arbitration agreement in the
htlps://www.doo٢dash.com/dash0r/us/ica/

8/9

267a

EXHIBIT P

268a

American Arbitration Association®

EMPLOYMENT ARBITRATION RULES
DEMAND FOR ARBITRATION

To ensure your demand is processed promptly, please include a copy of the Arbitration Agreement, Plan or Contract.
Mediation: If you would like the AAA to contact the other parties and attempt to arrange mediation, please check this box ٥ .

‫ه؛ا*ه'ا‬-„„‫ا‬，‫ا‬
Representative's Name (if known): Shannon Liss-Rfordan, Anne Kramer

Name of Claimant: Ernest Fogg
Address:

Firm (if applicable): Lichten & Liss-Riordan, p.c.

c/o Lichten & Liss-Riordan, p.c.

Representatives Address:

729 Boylston Street, Suite 2٥٥0
729 Boylston Sheet, Suite 2000
Zip Code: 0‫ت‬١‫ه‬

City: Boston

State: MA

Phone No-: 617-994-5800

Fax No.: 617-994-5801

City: Boston

State: i

Phone No.: 617-994-5800

Fax No.: 617-994-5801

Email Address:

Email Address: sJiss@JIrlaw.com: akramer@llrlaw.com

Name of Respondent: DoorDash, Inc.

Representatives Name (if known):

Address:

Firm (if applicable):

5901 Market St,, 6th Floor

Zip Code: 02‫ئ‬

Representatives Address:

City: San Francisco

State: CA

Phone No.:

Fax No.:

Zip Code: 94Ù

City:

State:

Phone No.:

Fax No.:

Zip Code:

Email Address:

Email Address:

Claim: What was/is the employee/worker's annual wage range? 0 Less than $100,000 ٥ $100,000-$250,000 ٥ Over $250,000
Note: This question is required by California law.
Amount of Claim:

Claim involves: 0 Statutorily Protected Rights □ Non-Statutorily
Protected Rights

In detail, please describe the nature of each claim. You may attach additional pages if necessary:

Other Relief Sought: 0 Attorneys Fees 0 interest 0 Arbitration Costs□ Punitive/ Exemplary □ Other
Please describe the qualifications for arbitratorfs) to hear this dispute:

See Exhibit A

Hearing: Estimated time needed for hearings overall:
Hearing Locale:

SanFranisco, CA

hours or

days

□ Requested by Claimant 0 Locale provision included in the contract

Filing Fee requirement or $300 (max amount per AAA)
Filing by Company: □ $2,200 single arbitrator □ $2,800 three arbitrator panel
Notice: To begin proceedings, please send a copy of this Demand and the Arbitration Agreement, along with filing fee as provided for in the Rufes, to:
American Arbitration Association, Case Filing Sewices, 1101 Laurel Oak Road, Suite 100, Voorhees, NJ 08043. Send the original Demand to the Respondent.
Signatur¿

ay be signed by a representative):

L.；＞ (m

Date:

7/18/2018

Pursuant to Section 1284.3 of the California Code of Civil Procedure, consumers with a gross monthly income of less than 300% of the federal poverty guidelines are
entitled to a waiver of arbitration fees and costs, exclusive of arbitrator fees. This law applies to all consumer agreements subject to the California Arbitration Act, and to
all consumer arbitrations conducted in California. Only those disputes arising out of employer plans are included in the consumer definition. If you believe that you meet
these requirements, you must submit to the AAA a declaration under oath regarding your monthly income and the number of persons In your household. Please contact
the AAA's Western Case Management Center atl-800-778-7879. If you have any questions regarding the waiver of administrative fees, AAA Case Filing Services can be
reached at 877-495-4185. Please visit our website atwww.adr.org if you would like to file this case online. AAA Customer Service can be reached at 800-778-7879.

269a

EXHIBIT A
：

270a
Arbitration Demand
Claimant Ernest Fogg brings this claim against DoorDash, Inc. (“DoorDash”)
challenging DoorDash’s misclassification of Claimant as an independent contractor and
its resulting wage violations.
DoorDash provides on-demand food delivery services to customers at their
homes and businesses through its mobile phone application and website. To use
DoorDash, a customer orders takeout food from a list of restaurants on DoorDash’s
phone application or website, and a nearby DoorDash delivery driver is notified. Once
the delivery driver accepts the request by tapping a button on their phone, he or she
drives to the restaurant to pick up the customer’s order and then drives to the
customer’s location to deliver it. After the delivery, DoorDash collects the payment from
the customer, takes its fee, and then distributes the remainder to the delivery driver.
Delivery drivers must provide or pay for their own smartphone and car. DoorDash
delivery drivers do not need special qualifications or experience apart from a valid
driver’s license.
Delivery drivers receive customer ratings in the form of “star ratings” at the end of
every delivery. These ratings are out of 5 stars, with 5 stars being the highest rating
and 1 star being the lowest. DoorDash utilizes this real-time customer feedback about
delivery drivers to monitor drivers and decide when a delivery driver may need to be
issued a warning or terminated. DoorDash also tracks other metrics for delivery drivers
such as their acceptance rates and may suspend or terminate delivery drivers whose
ratings it deems to be too low. When delivery drivers refuse too many orders,
DoorDash may end their shifts.

1

271a
Ernest Fogg worked as a DoorDash delivery driver from approximately 2016 to
2017 in California. Like all other DoorDash delivery drivers, Claimant was subject to a
standard form contract, provided by DoorDash, which drivers were not able to negotiate.
Throughout Claimant's time working for DoorDash, Claimant was classified as an
independent contractor rather than an employee. By misclassifying workers like
Claimant, DoorDash has required them to pay necessary business expenses (such as
for their vehicles, gas, smartphone, and data plan expenses). In addition, Claimant has
not been paid minimum wage for all hours worked.
Claimant brings this claim to challenge this misclassification of Claimant as an
independent contractor, rather than an employee under California law, and the resulting
violations of the California Labor Code stemming from that practice including: (1)
violation of Cal. Lab. Code § 2802 for failure to reimburse necessary business
expenses; (2) violation of Cal. Lab. Code §§1197 and 1194 for failure to pay minimum
wage for all hours worked.

2

272a

EXHIBIT B

'

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

3. CONTRACTOR agrees to indemnify, protect and 273a
hold harmless DOORDASH, including all parent, subsidiary,
and/or affiliated companies, as well as its and their past and present successors, assigns, officers, owners,
directors, agents, representatives, attorneys, and employees, from any and all tax liabilities and
responsibilities for payment of all federal, state and local taxes, including, but not limited to ail payroll taxes,
self-employment taxes, workers compensation premiums, and any contributions imposed or required under
federal, state and local laws, with respect to CONTRACTOR and CONTRACTOR'S Personnel.
4. CONTRACTOR shall be responsible for, indemnify and hold harmless DOORDASH, including all parent,
subsidiary, and/or affiliated companies, as well as its and their past and present successors, assigns, officers,
owners, directors, agents, representatives, attorneys, and employees, from all costs of CONTRACTOR'S
business, including, but not limited to, the expense and responsibility for any and all applicable insurance,
local, state or federal licenses, permits, taxes, and assessments of any and all regulatory agencies, boards or
municipalities.

XI. MUTUAL ARBITRATION PROVISION
1. CONTRACTOR and DOORDASH mutually agree to resolve anyjusticiable disputes between them exclusively
through final and binding arbitration instead of filing a lawsuit in court. This arbitration agreement is governed
by the Federal Arbitration Act (9 U.S.C. §§ 1-16) ("FAA") and shall apply to any and all claims arising out of or
relating to this Agreement, CONTRACTOR'S classification as an independent contractor, CONTRACTOR'S
provision of Contracted Services to consumers, the payments received by CONTRACTOR for providing
services to consumers, the termination of this Agreement, and all other aspects of CONTRACTOR'S
relationship with DOORDASH, past, present or future, whether arising under federal, state or local statutory
and/or common law, including without limitation harassment, discrimination or retaliation claims and claims
arising under or related to the Civil Rights Act of 1964 (or its state or local equivalents), Americans With
Disabilities Act (or its state or local equivalents), Age Discrimination in Employment Act (or its state or local
equivalents), Family Medical Leave Act (or its state or local equivalents), or Fair Labor Standards Act (or its
state or local equivalents), state and local wage and hour laws, state and local statutes or regulations
addressing the same or similar subject matters, and all other federal, state or local claims arising out of or
relating to CONTRACTOR'S relationship or the termination of that relationship with DOORDASH. The parties
expressly agree that this Agreement shall be governed by the FAA even in the event CONTRACTOR and/or
DOORDASH are otherwise exemptedfrom the FAA. Any disputes in this regard shall be resolved exclusively
by an arbitrator. In the event, but only in the event, the arbitrator determines the FAA does not apply, the state
law governing arbitration agreements in the state in which the CONTRACTOR operates shall apply.
2. If either CONTRACTOR or DOORDASH wishes to initiate arbitration, the initiating party must notify the other
party in writing via certified mail, return receipt requested, or hand delivery within the applicable statute of
limitations period. This demand for arbitration must include (1) the name and address of the party seeking
arbitration, (2) a statement of the legal and factual basis of the claim, and (3) a description of the remedy
sought. Any demand for arbitration by CONTRACTOR must be delivered to Genera} Counsel, 901 Market
Street, 6‫؛‬h Floor, San Francisco, California 94103.
3. Class Action Waiver. CONTRACTOR and DOORDASH mutually agree that by entering into this agreement to
arbitrate, both waive their right to have any dispute or claim brought, heard or arbitrated as, or to participate
in, a class action, collective action and/or representative action, and an arbitrator shall not have any authority
to hear or arbitrate any class, collective or representative action ("Class Action Waiver"). Notwithstanding any
other clause contained in this Agreement or the AAA Rules, as defined below, any claim that all or part of this
Class Action Waiver Is unenforceable, unconscionable, void or voidable may be determined only by a court of
competent jurisdiction and not by an arbitrator. In any case in which (1) the dispute is filed as a class,
collective, or representative action and (2) there is a final judicial determination that all or part of the Class
Action Waiver is unenforceable, the class, collective and/or representative action to that extent must be
litigated in a civil court of competent jurisdiction, but the portion of the Class Action Waiver that is enforceable
https://wvw.doordash.com/dasher/us/tca/

6/9

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

274a
shall be enforced in arbitration. Notwithstanding any
other clause contained in this Agreement or the AAA
Rules, as defined below, any claim that all or part of this Class Action Waiver is unenforceable,
unconscionable, void or voidable may be determined only by a court of competent jurisdiction and not by an
arbitrator. Ail other disputes with respect to whether this Mutual Arbitration Provision is unenforceable,
unconscionable, applicable, valid, void or voidable shall be determined exclusively by an arbitrator, and not
by any court.
4. CONTRACTOR agrees and acknowledges that entering into this arbitration agreement does not change
CONTRACTOR'S status as an independent contractor In fact and in law, that CONTRACTOR Is not an
employee of DOORDASH or Its customers and that any disputes in this regard shall be subject to arbitration
as provided in this agreement.
5. Any arbitration shall be governed by the American Arbitration Association Commercial Arbitration Rules {"AAA
Rules"), except as follows:
a. The arbitration shall be heard by one arbitrator selected in accordance with the AAA Rules. The
Arbitrator shall be an attorney with experience in the law underlying the dispute,
b. If the parties cannot otherwise agree on a location for the arbitration, the arbitration shall take place
within 45 miles of CONTRACTOR'S residence as of the effective date of this Agreement.
c. Unless applicable law provides otherwise, as determined by the Arbitrator, the parties agree that
DOORDASH shall pay all of the Arbitrator's fees and costs.
d. The Arbitrator may issue orders {including subpoenas to third parties) allowing the parties to conduct
discovery sufficient to allow each party to prepare that party’s claims and/or defenses, taking Into
consideration that arbitration is designed to be a speedy and efficient method for resolving disputes.
e. Except as provided in the Class Action Waiver, the Arbitrator may award all remedies to which a party is
entitled under applicable law and which would otherwise be available in a court of law, but shall not be
empowered to award any remedies that would not have been available In a court of law for the claims
presented in arbitration. The Arbitrator shall apply the state or federal substantive law, or both, as is
applicable.
f. The Arbitrator may hear motions to dismiss and/or motions for summary judgment and will apply the
standards of the Federal Rules of Civil Procedure governing such motions.
g. The Arbitrator's decision or award shall be in writing with findings of fact and conclusions of law.
‫؛؛‬

h. The Arbitrator may issue orders to protect the confidentiality of proprietary information, trade secrets,
or other sensitive information. Subject to the discretion of the Arbitrator or agreement of the parties,
any person having a direct interest in the arbitration may attend the arbitration hearing. The Arbitrator
may exclude any non-party from any part of the hearing.
i. Either CONTRACTOR or DOORDASH may apply to a court of competent jurisdiction for temporary or
preliminary injunctive relief on the ground that without such relief the arbitration provided In this
paragraph may be rendered ineffectual.
6. Nothing in this Mutual Arbitration Provision prevents you from making a report to or filing a claim or charge
with the Equal Employment Opportunity Commission, U.S. Department of Labor, U.S. Securities and Exchange
Commission, National Labor Relations Board, or Office of Federal Contract Compliance Programs. Nothing in
this Mutual Arbitration Provision prevents the investigation by a government agency of any report, claim or
charge otherwise covered by this Mutual Arbitration Provision. This Mutual Arbitration Provision also does
not prevent federal administrative agencies from adjudicating claims and awarding remedies based on those
claims, even If the claims would otherwise be covered by this Mutual Arbitration Provision. Nothing in this
Mutual Arbitration Provision prevents or excuses a party from satisfying any conditions precedent and/or
exhausting administrative remedies under applicable law before bringing a claim In arbitration. DOORDASH
will not retaliate against CONTRACTOR for filing a claim with an administrative agency or for exercising rights
{individually or in concert with others) under Section 7 of the National Labor Relations Act. Disputes between
the parties that may not be subject to predispute arbitration agreement, including as provided by an Act of
https://www.doordash.com/dasher/us/ica/

7/9

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

Congress or !awful, enforceable Executive Order,275a
are excluded from the coverage of this Mutual Arbitration
Provision.
7. The AAA Rules may be found at www.adr.ora or by searching for "AAA Commercial Arbitration Rules" using a
service such as www.aooale.com or www.bina.com or by asking DOORDASH's General Counsel to provide a
copy.
8. CONTRACTOR'S Right to Pot Out of Arbitration Provision. Arbitration is not a mandatory condition of
CONTRACTOR'S contractual relationship with DOORDASH, and therefore CONTRACTOR may submit a
statement notifying DOORDASH that CONTRACTOR wishes to opt out and not be subject to this MUTUAL
ARBITRATION PROVISION. In order to opt out, CONTRACTOR must notify DOORDASH of CONTRACTOR’S
intention to opt out by sending an email to dasheroptout@doordash.com stating CONTRACTOR'S intention to
opt out. In order to be effective, CONTRACTOR'S opt out notice must be provided within 30 days of the
effective date of this Agreement. If CONTRACTOR opts out as provided in this paragraph, CONTRACTOR will
not be subject to any adverse action from DOORDASH as a consequence of that decision and he/she may
pursue available legal remedies without regard to this Mutual Arbitration Provision. If CONTRACTOR does not
opt out within 30 days of the effective date of this Agreement, CONTRACTOR and DOORDASH shall be
deemed to have agreed to this Mutual Arbitration Provision. CONTRACTOR has the right to consult with
counsel of CONTRACTOR'S choice concerning this Mutual Arbitration Provision (or any other provision of this
Agreement.
9. This Mutual Arbitration Provision is the full and complete agreement relating to the formal resolution of
disputes covered by this Mutual Arbitration Provision. In the event any portion of this Mutual Arbitration
Provision is deemed unenforceable, the remainder of this Mutual Arbitration Provision will be enforceable.
The award issued by the Arbitrator may be entered in any court of competent jurisdiction.

XII. TERMINATION OF AGREEMENT
1. CONTRACTOR may terminate this Agreement upon seven (7) days written notice. DOORDASH may terminate
this Agreement and deactivate CONTRACTOR’S Dasher account only for the reasons set forth in the
DOORDASH Deactivation Policy (http://www.doordash.com/deactivationpolicy), or for a material breach of this
Agreement. Notwithstanding any other provision in this Agreement, DoorDash reserves the right to modify
the Deactivation Policy if, in DoorDash’s good faith and reasonable discretion, it is necessary to do so for the
safe and/or effective operation of the DoorDash platform. DOORDASH shall provide notice of any such
changes to CONTRACTOR via e-mail. Changes to the Deactivation Policy shall be effective and binding on
the parties upon CONTRACTOR’S continued use of the DOORDASH platform following DOORDASH’s e-mail
notice of such modifications. Nothing will prevent CONTRACTOR from attempting to negotiate an exemption
from any modification to the Deactivation Policy.
2. CONTRACTOR’S and DOORDASH’s obligations and rights arising under the Mutual Arbitration Provision of
this Agreement shall survive termination of this Agreement. Notwithstanding any other provision in this
Agreement, the Deactivation Policy is subject to change; such changes shall be effective and binding on the
parties upon DOORDASH’S provision of notice to CONTRACTOR via e-mail.

XIII. ENTIRE AGREEMENT, TRANSFERABILITY, AND WAIVER
1. This Agreement shall constitute the entire agreement and understanding between the parties with respect to
the subject matter of this Agreement and shall not be modified, altered, changed or amended in any respect,
unless in writing and signed by both parties. Before accepting any modifications, alterations, changes or
amendments, CONTRACTOR shall have the right to discuss any proposed changes with DOORDASH and
consider whether to continue his/her contractual relationship with DOORDASH. This Agreement supersedes
any prior contract between the parties. To the extent DOORDASH's consumer facing Terms and Conditions
Agreement (or updated consumer facing Terms and Conditions Agreement, if applicable) is inconsistent or
conflicts with this Agreement, this Agreement controls. However, the decision to opt-out of the Mutual
Arbitration Provision in this Agreement does not affect the enforceability of any arbitration agreement in the
https ://www.doordash.com/dasher/us/ica/

8/9

276a

EXHIBIT Q

©

277a

American Arbitration Association®

EMPLOYMENT ARBITRATION RULES
DEMAND FOR ARBITRATION

To ensure your demand is processed promptly, please include a copy of the Arbitration Agreement, Plan or Contract.
Mediation: If you would like the AAA to contact the other parties and attempt to arrange mediation, please check this box D .

Parties (Claimant)

Name of Claimant: Frank Hseih

Representative's Name (if known): Shannon Liss-Riordan, Anne Kramer

Address:

Firm (if applicable): Lichten & Liss-Riordan, P.C.

c/o Lichten & Liss-Riordan, P.C.
729 Boyiston Street, Suite 2000

Representative's Address:

729 Boyiston Street, Suite 2000
City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.: 617-994-5801

Zip Code:

Email Address:

City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.:

Zip Code: 02‫؛؛‬

617-994-5801

Email Address: sliss@llrlaw.com; akramer@llrlaw.com

Part¡« (Respondent}

Name of Respondent: DoorDash, Inc.

Representative’s Name (if known):

Address:

Firm (if applicable):

5901 Market St., 6th Floor

Representative's Address:

City: San Francisco

State: CA

Phone No.:

Fax No.:

Zip Code: 94٥

Email Address:

City:

State:

Phone No.:

Fax No.:

Zip Code:

Email Address:

Claim: What was/is the employee/worker's annual wage range? ‫؛‬Z) Less than $100,000 ٥ $100,000-$250,000 D Over $250,000
Note: This question is required by California law.
Amount of Claim:

Claim involves: 2] Statutorily Protected Rights ٥ Non-StatutorNy
Protected Rights

in detail, please describe the nature of each claim. You may attach additional pages if necessary:

Other Relief Sought: 0 Attorneys Fees E interest E Arbitration Costs ٥ Punitive/Exemplary D Other
Please describe the qualifications for arbitrator(s) to hear this dispute:
See Exhibit A

Hearing: Estimated time needed for hearings overall:

Hearing Locale: Los Angeles, CA

hours or

days

٥ Requested by Claimant E Locale provision included in the contract

Filing Fee requirement or $300 (max amount per AAA)
Filing by Company: D $2,200 single arbitrator ٥ $2,800 three arbitrator panel
Notice: To begin proceedings, please send a copy of this Demand and the Arbitration Agreement, along with filing fee as provided for in the Rules, to:
American Arbitration Association, Case Filing Services, 1101 Laurel Oak Road, Suite 100, Voorhees, NJ 08043. Send the original Demand to the Respondent.
Signatura(‫؛‬flay be signed by a representative):

Date:

7/18/2018
Pursuant to Section 1284.3 of the California Code of Civil Procedure, consumers with a gross monthly income of less than 300% of the federal poverty guidelines are
entitled to a waiver of arbitration fees and costs, exdusiveof arbitrator fees. This law applies to all consumer agreements subject to the California Arbitration Act, and to
all consumer arbitrations conducted In California. Only those disputes arising out of employer plans are included in the consumer definition, if you believe that you meet
these requirements, you must submit to the AAA a declaration under oath regarding your monthly income and the number of persons in your household. Please contact
the AAA's Western Case Management Center atl-800-778-7879. If you have any questions regarding the waiver of administrative fees, AAA Case Filing Services can be
reached at 877-495-4185. Please visit our website at www.adr.org if you would like to file this case online. AAA Customer Service can be reached at 800-778-7879.

278a

EXHIBIT A

279a
Arbitration Demand
Claimant Frank Hselh brings this claim against DoorDash) Inc. (“DoorDash”)
challenging DoorDashs misclassification of Claimant as an independent contractor and
its resulting wage violations.
DoorDash provides on-demand food delivery services to customers at their
homes and businesses through its mobile phone application and website. To use
DoorDash, a customer orders takeout food from a list of restaurants on DoorDash's
phone application or website, and a nearby DoorDash deliver driver is notified. Once
the delivery driver accepts the request by tapping a button on their phone, he or she
drives to the restaurant to pick up the customer's order and then drives to the
customer’s location to deliver it. After the delivery, DoorDash collects the payment from
the customer, takes its fee, and then distributes the remainder to the delivery driver.
Delivery drivers must provide or pay for their own smartphone and car. DoorDash
delivery drivers do not need special qualifications or experience apart from a valid
driver’s license.
Delivery drivers receive customer ratings in the form of “star ratings” at the end of
every delivery. These ratings are out of 5 stars, with 5 stars being the highest rating
and 1 star being the lowest. DoorDash utilizes this real-time customer feedback about
delivery drivers to monitor drivers and decide when a delivery driver may need to be
issued a warning or terminated. DoorDash also tracks other metrics for delivery drivers
such as their acceptance rates and may suspend or terminate delivery drivers whose
ratings it deems to be too low. When delivery drivers refuse too many orders,
DoorDash may end their shifts.

1

280a
F٢ank Hseih has w٥٢ked as a D٥٥٢Dash deliver d٢ive٢ from approximately 2016
to June 2018 in the Irvine, California area. Like all other DoorDash delivery drivers,
Claimant was subject to a standard form contract, provided by DoorDash, which drivers
were not able to negotiate. Throughout Claimant’s time working for DoorDash,
Claimant was classified as an independent contractor rather than an employee. By
misclassifying workers like Claimant, DoorDash has required them to pay necessary
business expenses (such as for their vehicles, gas, smartphone, and data plan
expenses). In addition, Claimant has not been paid minimum wage for all hours
worked.
Frank Hseih regularly worked In excess of forty hours per week, but was not paid
at time-and-a-half for the hours in excess of forty. Moreover, Claimant was not paid
time-and-a-half for working more than eight hours in a day, or twice the regular hourly
rate for working more than twelve hours in a day.
Claimant brings this claim to challenge this misclassification of Claimant as an
independent contractor, rather than an employee under California law, and the resulting
violations of the California Labor Code stemming from that practice including: (1)
violation of Cal. Lab. Code § 2802 for failure to reimburse necessary business
expenses: (2) violation of Cal. Lab. Code §§1197 and 1194, as well as the Los Angeles
County Minimum Wage Ordinance (Ord. 2015-0039 § 3, 2015) for failure to pay
minimum wage for all hours worked! & (3) violation of Cal. Lab. Code §§ 1194, 1198,
510, and 554 for failure to pay the appropriate overtime premium for overtime hours
worked.

2

:

281a

EXHIBIT B

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

5/9/2018

3. CONTRACTOR agrees to indemnify, protect and 282a
hold harmless DOORDASH, including all parent, subsidiary,
and/or affiliated companies, as well as its and their past and present successors, assigns, officers, owners,
directors, agents, representatives, attorneys, and employees, from any and all tax liabilities and
responsibilities for payment of all federal, state and local taxes, including, but not limited to all payroll taxes,
self-employment taxes, workers compensation premiums, and any contributions imposed or required under
federal, state and local laws, with respect to CONTRACTOR and CONTRACTOR'S Personnel.
4. CONTRACTOR shall be responsible for, indemnify and hold harmless DOORDASH, including all parent,
subsidiary, and/or affiliated companies, as well as its and their past and present successors, assigns, officers,
owners, directors, agents, representatives, attorneys, and employees, from all costs of CONTRACTOR'S
business, including, but not limited to, the expense and responsibility for any and all applicable Insurance,
local, state or federal licenses, permits, taxes, and assessments of any and all regulatory agencies, boards or
municipalities.

XI. MUTUAL ARBITRATION PROVISION
1. CONTRACTOR and DOORDASH mutually agree to resolve anyjusticiable disputes between them exclusively
through final and binding arbitration instead of filing a lawsuit in court. This arbitration agreement is governed
by the Federal Arbitration Act (9 U.S.C. §§ 1-16) {"FAA1') and shall apply to any and all claims arising out of or
relating to this Agreement, CONTRACTOR’S classification as an independent contractor, CONTRACTOR'S
provision of Contracted Services to consumers, the payments received by CONTRACTOR for providing
services to consumers, the termination of this Agreement, and all other aspects of CONTRACTOR'S
relationship with DOORDASH, past, present or future, whether arising under federal, state or local statutory
and/or common law, including without limitation harassment, discrimination or retaliation claims and claims
arising under or related to the Civil Rights Act of 1964 (or its state or local equivalents), Americans With
Disabilities Act (or its state or local equivalents), Age Discrimination in Employment Act (or its state or local
equivalents), Family Medical Leave Act (or its state or local equivalents), or Fair Labor Standards Act (or its
state or local equivalents), state and local wage and hour laws, state and local statutes or regulations
addressing the same or similar subject matters, and all other federal, state or local claims arising out of or
relating to CONTRACTOR'S relationship or the termination of that relationship with DOORDASH. The parties
expressly agree that this Agreement shall be governed by the FAA even in the event CONTRACTOR and/or
DOORDASH are otherwise exemptedfrom the FAA. Any disputes in this regard shall be resolved exclusively
by an arbitrator. In the event, but only in the event, the arbitrator determines the FAA does not apply, the state
law governing arbitration agreements in the state in which the CONTRACTOR operates shall apply.
2. If either CONTRACTOR or DOORDASH wishes to initiate arbitration, the initiating party must notify the other
party in writing via certified mail, return receipt requested, or hand delivery within the applicable statute of
limitations period. This demand for arbitration must include (1) the name and address of the party seeking
arbitration, (2) a statement of the legal and factual basis of the claim, and (3) a description of the remedy
sought. Any demand for arbitration by CONTRACTOR must be delivered to General Counsel, 901 Market
Street, 6th Floor, San Francisco, California 94103.
3. Class Action Waiver. CONTRACTOR and DOORDASH mutually agree that by entering into this agreement to
arbitrate, both waive their right to have any dispute or claim brought, heard or arbitrated as, or to participate
in, a class action, collective action and/or representative action, and an arbitrator shall not have any authority
to hear or arbitrate any class, collective or representative action ("Class Action Waiver"). Notwithstanding any
other clause contained in this Agreement or the AAA Rules, as defined below, any claim that all or part of this
Class Action Waiver is unenforceable, unconscionable, void or voidable may be determined only by a court of
competent jurisdiction and not by an arbitrator. In any case in which (1) the dispute is filed as a class,
collective, or representative action and (2) there is a final judicial determination that all or part of the Class
Action Waiver is unenforceable, the class, collective and/or representative action to that extent must be
litigated in a civil court of competent jurisdiction, but the portion of the Class Action Waiver that is enforceable
https://www.doordash.com/dasher/us/ica/

6/9

5/9/2018

DoorDash Food Delivery j INDEPENDENT CONTRACTOR AGREEMENT

any other clause contained in this Agreement or the AAA
shall be enforced in arbitration. Notwithstanding 283a
Rules, as defined below, any claim that all or part of this Class Action Waiver is unenforceable,
unconscionable, void or voidable may be determined only by a court of competent jurisdiction and not by an
arbitrator. All other disputes with respect to whether this Mutual Arbitration Provision is unenforceable,
unconscionable, applicable, valid, void or voidable shall be determined exclusively by an arbitrator, and not
by any court,
4. CONTRACTOR agrees and acknowledges that entering into this arbitration agreement does not change
CONTRACTOR'S status as an independent contractor in fact and in law, that CONTRACTOR is not an
employee of DOORDASH or its customers and that any disputes in this regard shall be subject to arbitration
as provided in this agreement.
5. Any arbitration shall be governed by the American Arbitration Association Commercial Arbitration Rules ("AAA
Rules"), except as follows:
a. The arbitration shall be heard by one arbitrator selected in accordance with the AAA Rules. The
Arbitrator shall be an attorney with experience in the law underlying the dispute.
b. If the parties cannot otherwise agree on a location for the arbitration, the arbitration shall take place
within 45 miles of CONTRACTOR'S residence as of the effective date of this Agreement.
c. Unless applicable law provides otherwise, as determined by the Arbitrator, the parties agree that
DOORDASH shall pay all of the Arbitrator's fees and costs.
d. The Arbitrator may issue orders (including subpoenas to third parties) allowing the parties to conduct
discovery sufficient to allow each party to prepare that party's claims and/or defenses, taking into
consideration that arbitration is designed to be a speedy and efficient method for resolving disputes.
e. Except as provided in the Class Action Waiver, the Arbitrator may award all remedies to which a party is
entitled under applicable law and which would otherwise be available in a court of law, but shall not be
empowered to award any remedies that would not have been available in a court of law for the claims
presented in arbitration. The Arbitrator shall apply the state or federal substantive law, or both, as is
applicable.
f. The Arbitrator may hear motions to dismiss and/or motions for summary judgment and will apply the
standards of the Federal Rules of Civil Procedure governing such motions.
g. The Arbitrator's decision or award shall be in writing with findings of fact and conclusions of law.
h. The Arbitrator may issue orders to protect the confidentiality of proprietary information, trade secrets,
or other sensitive information. Subject to the discretion of the Arbitrator or agreement of the parties,
any person having a direct interest in the arbitration may attend the arbitration hearing. The Arbitrator
may exclude any non-party from any part of the hearing.
i. Either CONTRACTOR or DOORDASH may apply to a court of competent jurisdiction for temporary or
preliminary injunctive relief on the ground that without such relief the arbitration provided in this
paragraph may be rendered ineffectual.
6. Nothing in this Mutual Arbitration Provision prevents you from making a report to or filing a claim or charge
with the Equal Employment Opportunity Commission, U.S. Department of Labor, U.S. Securities and Exchange
Commission, National Labor Relations Board, or Office of Federal Contract Compliance Programs. Nothing in
this Mutual Arbitration Provision prevents the investigation by a government agency of any report, claim or
charge otherwise covered by this Mutual Arbitration Provision. This Mutual Arbitration Provision also does
not prevent federal administrative agencies from adjudicating claims and awarding remedies based on those
claims, even if the claims would otherwise be covered by this Mutual Arbitration Provision. Nothing in this
Mutual Arbitration Provision prevents or excuses a party from satisfying any conditions precedent and/or
exhausting administrative remedies under applicable law before bringing a claim in arbitration. DOORDASH
will not retaliate against CONTRACTOR for filing a claim with an administrative agency or for exercising rights
(individually or in concert with others) under Section 7 of the National Labor Relations Act. Disputes between
the parties that may not be subject to predispute arbitration agreement, including as provided by an Act of

https://www.doorcJash.com/dasher/us/ica/

7/9

5/9/2‫ه‬18

DoorDash Food Delivery [ INDEPENDENT CONTRACTOR AGREEMENT

Congress or lawful, enforceable Executive Order,284a
are excluded from the coverage of this Mutual Arbitration
Provision.
7. The AAA Rules may be found at www.adr.ora or by searching for "AAA Commercial Arbitration Rules" using a
service such as www.aooale.com or www.bina.com or by asking DOORDASH's General Counsel to provide a
copy.
8. CONTRACTOR'S Right to Opt Out of Arbitration Provision. Arbitration is not a mandatory condition of
CONTRACTOR'S contractual relationship with DOORDASH, and therefore CONTRACTOR may submit a
statement notifying DOORDASH that CONTRACTOR wishes to opt out and not be subject to this MUTUAL
ARBITRATION PROVISION. In order to opt out, CONTRACTOR must notify DOORDASH of CONTRACTOR'S
intention to opt out by sending an email to dasheroptout@doordash.com stating CONTRACTOR'S intention to
opt out. In order to be effective, CONTRACTOR'S opt out notice must be provided within 30 days of the
effective date of this Agreement. If CONTRACTOR opts out as provided in this paragraph, CONTRACTOR will
not be subject to any adverse action from DOORDASH as a consequence of that decision and he/she may
pursue available legal remedies without regard to this Mutual Arbitration Provision. If CONTRACTOR does not
opt out within 30 days of the effective date of this Agreement, CONTRACTOR and DOORDASH shall be
deemed to have agreed to this Mutual Arbitration Provision. CONTRACTOR has the right to consult with
counsel of CONTRACTOR'S choice concerning this Mutual Arbitration Provision (or any other provision of this
Agreement.
9. This Mutual Arbitration Provision is the full and complete agreement relating to the formal resolution of
disputes covered by this Mutual Arbitration Provision. In the event any portion of this Mutual Arbitration
Provision is deemed unenforceable, the remainder of this Mutual Arbitration Provision will be enforceable.
The award issued by the Arbitrator may be entered in any court of competent jurisdiction.

XII. TERMINATION OF AGREEMENT
1. CONTRACTOR may terminate this Agreement upon seven (7) days written notice. DOORDASH may terminate
this Agreement and deactivate CONTRACTOR’S Dasher account only for the reasons set forth in the
DOORDASH Deactivation Policy {http://www.doordash.com/deactivationpolicy), or for a material breach of this
Agreement. Notwithstanding any other provision in this Agreement, DoorDash reserves the right to modify
the Deactivation Policy if, in DoorDash’s good faith and reasonable discretion, it is necessary to do so for the
safe and/or effective operation of the DoorDash platform. DOORDASH shall provide notice of any such
changes to CONTRACTOR via e-mail. Changes to the Deactivation Policy shall be effective and binding on
the parties upon CONTRACTOR'S continued use of the DOORDASH platform following DOORDASH’s e-mail
notice of such modifications. Nothing will prevent CONTRACTOR from attempting to negotiate an exemption
from any modification to the Deactivation Policy.
2. CONTRACTOR'S and DOORDASH's obligations and rights arising under the Mutual Arbitration Provision of
this Agreement shall survive termination of this Agreement. Notwithstanding any other provision in this
Agreement, the Deactivation Policy is subject to change; such changes shall be effective and binding on the
parties upon DOORDASH’S provision of notice to CONTRACTOR via e-mail.

XIII. ENTIRE AGREEMENT, TRANSFERABILITY, AND WAIVER
1. This Agreement shall constitute the entire agreement and understanding between the parties with respect to
the subject matter of this Agreement and shall not be modified, altered, changed or amended in any respect,
unless in writing and signed by both parties. Before accepting any modifications, alterations, changes or
amendments, CONTRACTOR shall have the right to discuss any proposed changes with DOORDASH and
consider whether to continue his/her contractual relationship with DOORDASH. This Agreement supersedes
any prior contract between the parties. To the extent DOORDASH's consumer facing Terms and Conditions
Agreement (or updated consumer facing Terms and Conditions Agreement, if applicable) is inconsistent or
conflicts with this Agreement, this Agreement controls. However, the decision to opt-out of the Mutual
Arbitration Provision in this Agreement does not affect the enforceability of any arbitration agreement in the
https://www.doordash.com/dasher/us/ica/

8/9

285a

EXHIBIT R

286a

American Arbitration Association®

EMPLOYMENT ARBITRATION RULES
DEMAND FOR ARBITRATION

To ensure your demand Is processed promptly, please Include a copy of the Arbitration Agreement, Plan or Contract.
Mediation: If you would like the AAA to contact the other parties and attempt to arrange mediation, please check this box ٥.

‫„™¡ﻫﺎﺀ(ﻹﻋﻬﺎ‬.).
Name of Claimant: Marlene Mendoza

Representatives Name (if known): Shannon Liss-RJordan, ‫ د‬Kramer

Address:

Firm (if applicable): Lichten & Liss-Riordan, p.c.

cO Lichten & Liss-Riordan, p.c.
729 Boylston Street, Suite 2000

Representatives Address:
729 Boylston Street, Suite 2000

Zip Code: 0٩‫ئ‬

City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.: 617-994-5801

Email Address:

City: Boston

State: i

Phone No.: 617.994-5800

Fax No.: 617-994-5801

Zip Code: 02‫ئ‬

Email Address: sliss@llrlaw.com; abamer@llrlaw.com

Parties {Respondent}
Name of Respondent: DoorDash, Inc.

Representative's Name (if known):

Address:

Firm (if applicable):

5901 Market St., 6th Floor

Representatives Address:

City: San Francisco

State: CA

Phone No.:

Fax No.:

Zip Code: 9‫ا‬

Email Address:

City:

State:

Phone No.:

Fax No.:

Zip Code:

Email Address:

Claim: What was/is the employee/workerS annua! wage range? 0 Less than $1OT,OT0 □ $1K,,a)0-$250,0OT □ Over $2500‫س‬
Note: This question is required by California ,aw.
Amount of Claim:

Claim involves: m Statutorily Proterted Rights □ Non-Statutorily
Proterted Rights

In detail, please describe the nature of each claim. You may attach additional pages if necessary:

Other Relief Sought: E Attorneys Fees E Interest E Arbitration Costs ٥ Punitive/Exemplary D Other
Please describe the qualifications for arbitrator(s) to hear this dispute:

See Exhibit A

Hearing: Estimated time needed for hearings overall:

hours or

Hearing Locale: Los Angeles, CA

days

□ Requested by Claimant 0 Locale provision included in the contract

Filing Fee requirement or $300 (max amount per AAA)
Filing by Company: ٥ $2,200 single arbitrator ٥ $2,800 three arbitrator panel
Notice: To begin proceedings, please send a copy of this Demand and the Arbitration Agreement, along with filing fee as provided for in the Rules, to:
American Arbitration Association, Case Filing Services, 1101 Laurel Oak Road, Suite 100, Voorhees, NJ 08043. Send the original Demand to the Respondent.
Signature jViay be signed by a representative):

l¿r

Date:
7/18/2018

‫ﻫﻪ‬

Pursuant to Section 1284.3 of the California Code of Civil Procedure, consumers with a gross monthly income of less than 300% of the federal poverty guidelines
entitled to a waiver of arbitration fees and costs, exclusive of arbitrator fees. This law applies to all consumer agreements subject to the California Arbitration Act, and to
all consumer arbitrations conducted in California. Only those disputes arising out of employer plans are included in the consumer definition. If you believe that you meet
these requirements, you must submit to the AAA a declaration under oath regarding your monthly income and the number of persons in your household. Please contact
the AAA's Western Case Management Center atl-800-778-7879. If you have any questions regarding the waiver of administrative fees, AAA Case Filing Services can be
reached at 877-495-4185. Please visit our website atwww.adr.org if you would like to file this case online. AAA Customer Service can be reached at 800-778-7879.

287a

EXHIBIT A

288a
Arbitration Demand
Claimant Marlene Mendoza brings this claim against DoorDash, Inc.
(“DoorDash”) challenging DoorDash’s misclassification of Claimant as an independent
contractor and its resulting wage violations.
DoorDash provides on-demand food delivery services to customers at their
homes and businesses through its mobile phone application and website. To use
DoorDash, a customer orders takeout food from a list of restaurants on DoorDash’s
phone application or website, and a nearby DoorDash delivery driver is notified. Once
the delivery driver accepts the request by tapping a button on their phone, he or she
drives to the restaurant to pick up the customer’s order and then drives to the
customer’s location to deliver it. After the delivery, DoorDash collects the payment from
the customer, takes its fee, and then distributes the remainder to the delivery driver.
Delivery drivers must provide or pay for their own smartphone and car. DoorDash
delivery drivers do not need special qualifications or experience apart from a valid
driver’s license.
Delivery drivers receive customer ratings in the form of 1‘star ratings” at the end of
every delivery. These ratings are out of 5 stars, with 5 stars being the highest rating
and 1 star being the lowest. DoorDash utilizes this real-time customer feedback about
delivery drivers to monitor drivers and decide when a delivery driver may need to be
issued a warning or terminated. DoorDash also tracks other metrics for delivery drivers
such as their acceptance rates and may suspend or terminate delivery drivers whose
ratings it deems to be too low. When delivery drivers refuse too many orders,
DoorDash may end their shifts.

1

289a
Marlene Mendoza has worked as a DoorDash delivery driver since approximately
November 2017 in the Palm Springs, California area, like all other DoorDash delivery
drivers. Claimant was subject to a standard form contract, provided by DoorDash, which
drivers were not able to negotiate. Throughout Claimant’s time working for DoorDash
Claimant was classified as an independent contractor rather than an employee. By
misclassifying workers like Claimant, DoorDash has required them to pay necessary
business expenses (such as for their vehicles, gas, smartphone, and data plan
expenses). In addition, Claimant has not been paid minimum wage for a،، hours

worked.
Claimant brings this claim to challenge this misclassification of Claimant as an
independent contractor, rather than an employee under California law, and the resulting
violations of the California Labor Code stemming from that practice including: (1)
violation of Cal. Lab. Code § 2802 for failure to reimburse necessary business
expenses: (2) violation of Cal. Lab. Code §§1197 and 1194, as well as the Los Angeles
County Minimum Wage Ordinance (Ord. 2015-0039 § 3, 2015) for failure to pay
minimum wage for all hours worked.

2

290a

EXHIBIT B

5/9/20٩8

DoorDash Food Defivery ، iNDEPENDENT CONTRACTOR AGREEMENT

hold harmless DOORDASH, including all parent, subsidiary,
3. CONTRACTOR agrees to indemnify, protect and291a
and/or affiliated companies, as well as its and their past and present successors, assigns, officers, owners,
directors, agents, representatives, attorneys, and employees, from any and ail tax liabilities and
responsibilities for payment of all federal, state and local taxes, including, but not limited to all payroll taxes,
self-employment taxes, workers compensation premiums, and any contributions imposed or required under
federal, state and local laws, with respect to CONTRACTOR and CONTRACTOR'S Personnel.
4. CONTRACTOR shall be responsible for, indemnify and hold harmless DOORDASH, including all parent,
subsidiary, and/or affiliated companies, as well as its and their past and present successors, assigns, officers,
owners, directors, agents, representatives, attorneys, and employees, from all costs of CONTRACTOR'S
business, including, but not limited to, the expense and responsibility for any and all applicable insurance,
local, state or federal licenses, permits, taxes, and assessments of any and all regulatory agencies, boards or
municipalities,

XI. MUTUAL ARBITRATION PROVISION
1. CONTRACTOR and DOORDASH mutually agree to resolve any justiciable disputes between them exclusively
through final and binding arbitration instead of filing a lawsuit in court. This arbitration agreement is governed
by the Federal Arbitration Act (9 U.S.C. §§ 1-16) ("FAA") and shall apply to any and all claims arising out of or
relating to this Agreement, CONTRACTOR'S classification as an independent contractor, CONTRACTOR'S
provision of Contracted Services to consumers, the payments received by CONTRACTOR for providing
services to consumers, the termination of this Agreement, and all other aspects of CONTRACTOR'S
relationship with DOORDASH, past, present or future, whether arising under federal, state or local statutory
and/or common law, including without limitation harassment, discrimination or retaliation claims and claims
arising under or related to the Civil Rights Act of 1964 (or its state or local equivalents), Americans With
Disabilities Act (or its state or local equivalents), Age Discrimination in Employment Act (or its state or local
equivalents), Family Medical Leave Act (or its state or local equivalents), or Fair Labor Standards Act (or its
state or local equivalents), state and local wage and hour laws, state and local statutes or regulations
addressing the same or similar subject matters, and all other federal, state or local claims arising out of or
relating to CONTRACTOR'S relationship or the termination of that relationship with DOORDASH. The parties
expressly agree that this Agreement shall be governed by the FAA even in the event CONTRACTOR and/or
DOORDASH are otherwise exemptedfrom the FAA. Any disputes in this regard shall be resolved exclusively
by an arbitrator. In the event, but only in the event, the arbitrator determines the FAA does not apply, the state
law governing arbitration agreements in the state in which the CONTRACTOR operates shall apply.
2. If either CONTRACTOR or DOORDASH wislies to initiate arbitration, the initiating party must notify the other
party in writing via certified mail, return receipt requested, or hand delivery within the applicable statute of
limitations period. This demand for arbitration must include (1) the name and address of the party seeking
arbitration, (2) a statement of the legal and factual basis of the claim, and (3) a description of the remedy
sought. Any demand for arbitration by CONTRACTOR must be delivered to General Counsel, 9٥1 Market
Street, 6th Floor, San Francisco, California 94103.
3. Class Action Waiver. CONT RACTOR and DOORDASH mutually agree that by entering into this agreement to
arbitrate, both waive their right to have any dispute or claim brought, heard or arbitrated as, or to participate
in, a class action, collective action and/or representative action, and an arbitrator shall not have any authority
to hear or arbitrate any class, collective or representative action ("Class Action Waiver”). Notwithstanding any
other clause contained in this Agreement or the AAA Rules, as defined below, any claim that all or part of this
Class Action Waiver is unenforceable, unconscionable, void or voidable may be determined only by a court of
competentjurisdiction and not by an arbitrator. In any case in which (1) the dispute is filed as a class,
collective, or representative action and (2) there is a final judicial determination that all or part of the Class
Action Waiver is unenforceable, the class, collective and/or representative action to that extent must be
litigated in a civil court of competentjurisdiction, but the portion of the Class Action Waiver that is enforceable
https://viv.doordash.cQ m/dasher/us/ica/

6‫و‬

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

5/9/2018

any other clause contained in this Agreement or the AAA
shall be enforced In arbitration. Notwithstanding 292a
Rules, as defined below, any claim that all or part of this Class Action Waiver is unenforceable,
unconscionable, void or voidable may be determined only by a court of competent jurisdiction and not by an
arbitrator. Ail other disputes with respect to whether this Mutual Arbitration Provision is unenforceable,
unconscionable, applicable, valid, void or voidable shall be determined exclusively by an arbitrator, and not
by any court.
4. CONTRACTOR agrees and acknowledges that entering into this arbitration agreement does not change
CONTRACTOR'S status as an independent contractor in fact and in law, that CONTRACTOR is not an
employee of DOORDASH or its customers and that any disputes in this regard shall be subject to arbitration
as provided in this agreement.
5. Any arbitration shall be governed by the American Arbitration Association Commercial Arbitration Rules ("AAA
Rules"), except as follows:
a. The arbitration shall be heard by one arbitrator selected in accordance with the AAA Rules. The
Arbitrator shall be an attorney with experience in the law underlying the dispute.
b. If the parties cannot otherwise agree on a location for the arbitration, the arbitration shall take place
within 45 miles of CONTRACTOR'S residence as of the effective date of this Agreement.
c. Unless applicable law provides otherwise, as determined by the Arbitrator, the parties agree that
DOORDASH shall pay all of the Arbitrator's fees and costs.
d. The Arbitrator may issue orders (including subpoenas to third parties) allowing the parties to conduct
discovery sufficient to allow each party to prepare that party's claims and/or defenses, taking into
consideration that arbitration is designed to be a speedy and efficient method for resolving disputes.
e. Except as provided in the Class Action Waiver, the Arbitrator may award all remedies to which a party is
entitled under applicable law and which would otherwise be available in a court of law, but shall not be
empowered to award any remedies that would not have been available in a court of law for the claims
presented in arbitration. The Arbitrator shall apply the state or federal substantive law, or both, as is
applicable.
f. The Arbitrator may hear motions to dismiss and/or motions for summary judgment and will apply the
standards of the Federal Rules of Civil Procedure governing such motions.
g. The Arbitrator's decision or award shall be in writing with findings of fact and conclusions of law.
h. The Arbitrator may issue orders to protect the confidentiality of proprietary information, trade secrets,
or other sensitive information, Subject to the discretion of the Arbitrator or agreement of the parties,
any person having a direct interest in the arbitration may attend the arbitration hearing. The Arbitrator
may exclude any non-party from any part of the hearing.
i. Either CONTRACTOR or DOORDASH may apply to a court of competent jurisdiction for temporary or
preliminary injunctive relief on the ground that without such relief the arbitration provided in this
paragraph may be rendered ineffectual.
6. Nothing in this Mutual Arbitration Provision prevents you from making a report to or filing a claim or charge
with the Equal Employment Opportunity Commission, U.S. Department of Labor, U.S. Securities and Exchange
Commission, National Labor Relations Board, or Office of Federal Contract Compliance Programs. Nothing in
this Mutual Arbitration Provision prevents the investigation by a government agency of any report, claim or
charge otherwise covered by this Mutual Arbitration Provision. This Mutual Arbitration Provision also does
not prevent federal administrative agencies from adjudicating claims and awarding remedies based on those
claims, even if the claims would otherwise be covered by this Mutual Arbitration Provision. Nothing in this
Mutual Arbitration Provision prevents or excuses a party from satisfying any conditions precedent and/or
exhausting administrative remedies under applicable law before bringing a claim in arbitration. DOORDASH
will not retaliate against CONTRACTOR for filing a claim with an administrative agency or for exercising rights
(individually or in concert with others) under Section 7 of the National Labor Relations Act. Disputes between
the parties that may not be subject to predispute arbitration agreement, including as provided by an Act of
https://www.doordash.com/dasher/us/ica/

7/9

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

Congress or lawful, enforceable Executive Order,293a
are excluded from the coverage of this Mutual Arbitration
Provision.
7. The AAA Rules may be found at www.adr.ora or by searching for 'ÄAA Commercial Arbitration Rules" using a
service such as www.aooale.com or www.bina.com or by asking DOORDASH's General Counsel to provide a
copy.
8. CONTRACTOR'S Right to Opt Out of Arbitration Provision. Arbitration Is not a mandatory condition of
CONTRACTOR'S contractual relationship with DOORDASH, and therefore CONTRACTOR may submit a
statement notifying DOORDASH that CONTRACTOR wishes to opt out and not be subject to this MUTUAL
ARBITRATION PROVISION. In order to opt out, CONTRACTOR must notify DOORDASH of CONTRACTOR’S
intention to opt out by sending an email to dasheroptout@doordash.com stating CONTRACTOR'S intention to
opt out. In order to be effective, CONTRACTOR'S opt out notice must be provided within 30 days of the
effective date of this Agreement. If CONTRACTOR opts out as provided in this paragraph, CONTRACTOR will
not be subject to any adverse action from DOORDASH as a consequence of that decision and he/she may
pursue available legal remedies without regard to this Mutual Arbitration Provision. If CONTRACTOR does not
opt out within 30 days of the effective date of this Agreement, CONTRACTOR and DOORDASH shall be
deemed to have agreed to this Mutual Arbitration Provision. CONTRACTOR has the right to consult with
counsel of CONTRACTOR'S choice concerning this Mutual Arbitration Provision {or any other provision of this
Agreement.
9. This Mutual Arbitration Provision is the full and complete agreement relating to the formal resolution of
disputes covered by this Mutual Arbitration Provision. In the event any portion of this Mutual Arbitration
Provision is deemed unenforceable, the remainder of this Mutual Arbitration Provision will be enforceable.
The award Issued by the Arbitrator may be entered in any court of competent jurisdiction.

XII. TERMINATION OF AGREEMENT
1. CONTRACTOR may terminate this Agreement upon seven (7) days written notice. DOORDASH may terminate
this Agreement and deactivate CONTRACTOR’S Dasher account only for the reasons set forth in the
DOORDASH Deactivation Policy (http://www.doordash.com/deactivationpolicy), or for a material breach of this
Agreement. Notwithstanding any other provision in this Agreement, DoorDash resen/es the right to modify
the Deactivation Policy if, in DoorDash’s good faith and reasonable discretion, it is necessary to do so for the
safe and/or effective operation of the DoorDash platform. DOORDASH shall provide notice of any such
changes to CONTRACTOR via e-mail. Changes to the Deactivation Policy shall be effective and binding on
the parties upon CONTRACTOR’S continued use of the DOORDASH platform following DOORDASH’s e-mail
notice of such modifications. Nothing will prevent CONTRACTOR from attempting to negotiate an exemption
from any modification to the Deactivation Policy.
2. CONTRACTOR'S and DOORDASH's obligations and rights arising under the Mutual Arbitration Provision of
this Agreement shall survive termination of this Agreement. Notwithstanding any other provision in this
Agreement, the Deactivation Policy is subject to change; such changes shall be effective and binding on the
parties upon DOORDASH’S provision of notice to CONTRACTOR via e-mail.

XIII. ENTIRE AGREEMENT, TRANSFERABILITY, AND WAIVER
1. This Agreement shall constitute the entire agreement and understanding between the parties with respect to
the subject matter of this Agreement and shall not be modified, altered, changed or amended in any respect,
unless in writing and signed by both parties. Before accepting any modifications, alterations, changes or
amendments, CONTRACTOR shall have the right to discuss any proposed changes with DOORDASH and
consider whether to continue his/her contractual relationship with DOORDASH. This Agreement supersedes
any prior contract between the parties. To the extent DOORDASH's consumer facing Terms and Conditions
Agreement (or updated consumer facing Terms and Conditions Agreement, if applicable) is inconsistent or
conflicts with this Agreement, this Agreement controls. However, the decision to opt-out of the Mutual
Arbitration Provision in this Agreement does not affect the enforceability of any arbitration agreement in the
https://www.doordash.com/dasher/us/ica/

8/9

294a

EXHIBIT S

295a

American Arbitration Association®

EMPLOYMENT ARBITRATION RULES
DEMAND FOR ARBITRATION

To ensure your demand is processed promptly, please include a copy of the Arbitration Agreement, Plan or Contract.
Mediation: If you would like the AAA to contact the other parties and attempt to arrange mediation, please check this box D .

Name of Claimant: Gary Teitelbaum

Representative's Name (if known): Shannon Liss-Riordan, Anne Kramer

Address:

Firm (if applicable): Lichten & Liss-Riordan, P.C.

c/o Lichten & Liss-Riordan, P.C.
729 Boylston Street, Suite 2000

Representative's Address:

729 Boylston Street, Suite 2000

Zip Code: 0٩‫¡؛‬

City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.: 617-994-5801

City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.: 617-994-5801

Zip Code: 02،j

Email Address:

Email Address: sliss@llrlaw.com‫ ؛‬akramer@llrlaw.com

Name of Respondent: DoorDash, Inc.

Representative's Name (if known):

Address:

Firm (if applicable):

5901 Market St., 6th Floor

1

Representative's Address:

City: San Francisco

State: CA

Phone No.:

Fax No.:

Zip Code: 94،jj

Email Address:

City:

State:

Phone No.:

Fax No.:

Zip Code:

Email Address:

Claim: What was/is the employee/worker's annual wage range? 21 Less than $100,000 G $100,000-$250,000 D Over $250,000
Note: This question is required by California law.
Amount of Claim:

Claim involves: H Statutorily Protected Rights D Non-Statutorily
Protected Rights

In detail, please describe the nature of each claim. You may attach additional pages if necessary:

Other Relief Sought: IZ1 Attorneys Fees El Interest E Arbitration Costs D Punitive/Exemplary D Other
Please describe the qualifications for arbitrator(s) to hear this dispute:

See Exhibit A

Hearing: Estimated time needed for hearings overall:
Hearing Locale: Los Angeles, CA

hours or

days

D Requested by Claimant E Locale provision included in the contract

Filing Fee requirement or $300 (max amount per AAA)
Filing by Company: D $2,200 single arbitrator D $2,800 three arbitrator panel
Notice: To begin proceedings, please send a copy of this Demand and the Arbitration Agreement, along with filing fee as provided for in the Rules, to:
American Arbitration Association, Case Filing Services, 1101 Laure! Oak Road, Suite 100, Voorhees, NJ 08043. Send the original Demand to the Respondent.
Signatur‫؛‬y(raay be signed by a representative):

Date:

7/18/2018
Pursuant to Section 1284.3 of the California Code of Civil Procedure, consumers with a gross monthly income of less than 300% of the federal poverty guidelines are
entitled to a waiver of arbitration fees and costs, exclusive of arbitrator fees. This ‫؛‬aw applies to all consumer agreements subject to the California Arbitration Act, and to
ail consumer arbitrations conducted in California. Only those disputes arising out of employer plans are included in the consumer definition. If you believe that you meet
these requirements, you must submit to the AAA a declaration under oath regarding your monthly income and the number of persons in your household. Please contact
the AAA's Western Case Management Center at1 -800-778-7879. If you have any questions regarding the waiver of administrative fees, AAA Case Filing Services can be
reached at 877-495-4185. Please visit our website atwww.adr.org if you would like to file this case online. AAA Customer Service can be reached at 800-778-7879.

296a

EXHIBIT A

‫؛‬

297a
Arbitration Demand
Claimant Gary Teitelbaum brings this claim against DoorDash, Inc. (“DoorDash”)
challenging DoorDash’s misclassification of Claimant as an independent contractor and
its resulting wage violations.
DoorDash provides on-demand food delivery services to customers at their
homes and businesses through its mobile phone application and website. To use
DoorDash, a customer orders takeout food from a list of restaurants on DoorDash’s
phone application or website, and a nearby DoorDash delivery driver is notified. Once
the delivery driver accepts the request by tapping a button on their phone, he or she
drives to the restaurant to pick up the customer’s order and then drives to the
customer’s location to deliver it. After the delivery, DoorDash collects the payment from
the customer, takes its fee, and then distributes the remainder to the delivery driver.
Delivery drivers must provide or pay for their own smartphone and car. DoorDash
delivery drivers do not need special qualifications or experience apart from a valid
driver’s license.
Delivery drivers receive customer ratings in the form of “star ratings” at the end of
every delivery. These ratings are out of 5 stars, with 5 stars being the highest rating
and 1 star being the lowest. DoorDash utilizes this real-time customer feedback about
delivery drivers to monitor drivers and decide when a delivery driver may need to be
issued a warning or terminated. DoorDash also tracks other metrics for delivery drivers
such as their acceptance rates and may suspend or terminate delivery drivers whose
ratings it deems to be too low. When delivery drivers refuse too many orders,
DoorDash may end their shifts.

1

298a
Gary TeiteJbaum has worked as a DoorDash delivery driver since approximately
September 2016 in the Los Angeles, California area. Like all other DoorDash delivery
drivers, Claimant was subject to a standard form contract, provided by DoorDash, which
drivers were not able to negotiate. Throughout Claimant’s time working for DoorDash,
Claimant was classified as an independent contractor rather than an employee. By
misclassifying workers like Claimant, DoorDash has required them to pay necessary
business expenses (such as for their vehicles, gas, smartphone, and data plan
expenses). In addition, Claimant has not been paid minimum wage for all hours
worked.
Gary Teitelbaum regularly worked in excess of forty hours per week, but was not
paid at time-and-a-half for the hours in excess of forty. Moreover, Claimant was not
paid time-and-a-half for working more than eight hours in a day, or twice the regular
hourly rate for working more than twelve houre in a day.
Claimant brings this claim to challenge this misclassification of Claimant as an
independent contractor, rather than an employee under California law, and the resulting
violations of the California Labor Code stemming from that practice including: (1)
violation of Cal. Lab. Code § 2802 for failure to reimburse necessaty business
expenses; (2) violation of Cal. Lab. Code §§1197 and 1194, as well as the Los Angeles
County Minimum Wage Ordinance (Ord. 2015-0039 § 3, 2015) for failure to pay
minimum wage for all hours worked; & (3) violation of Cal. Lab. Code §§ 1194,1198,
510, and 554 for failure to pay the appropriate overtime premium for overtime hours
worked.

2

299a

EXHIBIT B

'
■

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

hold harmless DOORDASH, Including all parent, subsidiary,
3, CONTRACTOR agrees to indemnify, protect and 300a
and/or affiliated companies, as well as its and their past and present successors, assigns, officers, owners,
directors, agents, representatives, attorneys, and employees, from any and ail tax liabilities and
responsibilities for payment of all federal, state and local taxes, including, but not limited to all payroll taxes,
self-employment taxes, workers compensation premiums, and any contributions imposed or required under
federal, state and local laws, with respect to CONTRACTOR and CONTRACTOR'S Personnel.
4. CONTRACTOR shall be responsible for, indemnify and hold harmless DOORDASH, including all parent,
subsidiary, and/or affiliated companies, as well as its and their past and present successors, assigns, officers,
owners, directors, agents, representatives, attorneys, and employees, from all costs of CONTRACTOR'S
business, including, but not limited to, the expense and responsibility for any and all applicable insurance,
local, state or federal licenses, permits, taxes, and assessments of any and ail regulatory agencies, boards or
municipalities.

XI. MUTUAL ARBITRATION PROVISION
1. CONTRACTOR and DOORDASH mutually agree to resolve anyjusticiable disputes between them exclusively
through final and binding arbitration instead of filing a lawsuit in court. This arbitration agreement is governed
by the Federal Arbitration Act (9 U.S.C. §§ 1-16) ("FAA1’) and shall apply to any and all claims arising out of or
relating to this Agreement, CONTRACTOR'S classification as an independent contractor, CONTRACTOR'S
provision of Contracted Services to consumers, the payments received by CONTRACTOR for providing
services to consumers, the termination of this Agreement, and all other aspects of CONTRACTOR'S
relationship with DOORDASH, past, present or future, whether arising under federal, state or local statutory
and/or common law, including without limitation harassment, discrimination or retaliation claims and claims
arising under or related to the Civil Rights Act of 1964 (or its state or local equivalents), Americans With
Disabilities Act (or its state or local equivalents), Age Discrimination in Employment Act (or its state or local
equivalents), Family Medical Leave Act (or its state or local equivalents), or Fair Labor Standards Act (or its
state or local equivalents), state and local wage and hour laws, state and local statutes or regulations
addressing the same or similar subject matters, and all other federal, state or local claims arising out of or
relating to CONTRACTOR'S relationship or the termination of that relationship with DOORDASH. The parties
expressly agree that this Agreement shall be governed by the FAA even in the event CONTRACTOR and/or
DOORDASH are otherwise exemptedfrom the FAA. Any disputes in this regard shall be resolved exclusively
by an arbitrator. In the event, but only in the event, the arbitrator determines the FAA does not apply, the state
law governing arbitration agreements in the state in which the CONTRACTOR operates shall apply.
2. If either CONTRACTOR or DOORDASH wishes to initiate arbitration, the initiating party must notify the other
party in writing via certified mail, return receipt requested, or hand deliveiy within the applicable statute of
limitations period. This demand for arbitration must include (1) the name and address of the party seeking
arbitration, (2) a statement of the legal and factual basis of the claim, and (3) a description of the remedy
sought. Any demand for arbitration by CONTRACTOR must be delivered to General Counsel, 9٥1 Market
Street, 6th Floor, San Francisco, California 94193.
3. Class Action Waiver. CONTRACTOR and DOORDASH mutually agree that by entering into this agreement to
arbitrate, both waive their right to have any dispute or claim brought, heard or arbitrated as, or to participate
in, a class action, collective action and/or representative action, and an arbitrator shall not have any authority
to hear or arbitrate any class, collective or representative action ("Class Action Waiver”). Notwithstanding any
other clause contained in this Agreement or the AAA Rules, as defined below, any claim that all or part of this
Class Action Waiver is unenforceable, unconscionable, void or voidable may be determined only by a court of
competent jurisdiction and not by an arbitrator. In any case in which (1) the dispute is filed as a class,
collective, or representative action and (2) there is a final judicial determination that all or part of the Class
Action Waiver Is unenforceable, the class, collective and/or representative action to that extent must be
litigated in a civil court of competent jurisdiction, but the portion of the Class Action Waiver that is enforceable
https ://-.doordash.com/dasher/us/ica/

6/9

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

301a
other clause contained in this Agreement or the AAA
shall be enforced In arbitration. Notwithstanding any
Rules, as defined below, any claim that all or part of this Class Action Waiver is unenforceable,
unconscionable, void or voidable may be determined only by a court of competent jurisdiction and not by an
arbitrator. All other disputes with respect to whether this Mutual Arbitration Provision is unenforceable,
unconscionable, applicable, valid, void or voidable shall be determined exclusively by an arbitrator, and not
by any court,
4. CONTRACTOR agrees and acknowledges that entering into this arbitration agreement does not change
CONTRACTOR’S status as an independent contractor in fact and in law, that CONTRACTOR is not an
employee of DOORDASH or its customers and that any disputes in this regard shall be subject to arbitration
as provided in this agreement.
5. Any arbitration shall be governed by the American Arbitration Association Commercial Arbitration Rules ("AAA
Rules"), except as follows:
a. The arbitration shall be heard by one arbitrator selected in accordance with the AAA Rules. The
Arbitrator shall be an attorney with experience in the law underlying the dispute,
b. If the parties cannot otherwise agree on a location for the arbitration, the arbitration shall take place
within 45 miles of CONTRACTOR'S residence as of the effective date of this Agreement.
c. Unless applicable law provides otherwise, as determined by the Arbitrator, the parties agree that
DOORDASH shall pay all of the Arbitrator's fees and costs.
d. The Arbitrator may issue orders (including subpoenas to third parties) allowing the parties to conduct
discovery sufficient to allow each party to prepare that party's claims and/or defenses, taking into
consideration that arbitration is designed to be a speedy and efficient method for resolving disputes.
e. Except as provided in the Class Action Waiver, the Arbitrator may award all remedies to which a party is
entitled under applicable law and which would otherwise be available in a court of law, but shall not be
empowered to award any remedies that would not have been available In a court of law for the claims
presented in arbitration. The Arbitrator shall apply the state or federal substantive law, or both, as is
applicable.
f. The Arbitrator may hear motions to dismiss and/or motions for summary judgment and will apply the
standards of the Federal Rules of Civil Procedure governing such motions.
g. The Arbitrator's decision or award shall be in writing with findings of fact and conclusions of law.
h. The Arbitrator may issue orders to protect the confidentiality of proprietary information, trade secrets,

-

or other sensitive information. Subject to the discretion of the Arbitrator or agreement of the parties,
any person having a direct interest in the arbitration may attend the arbitration hearing. The Arbitrator
may exclude any non-party from any part of the hearing,
i. Either CONTRACTOR or DOORDASH may apply to a court of competent jurisdiction for temporary or
preliminary injunctive relief on the ground that without such relief the arbitration provided in this
paragraph may be rendered ineffectual.
6. Nothing in this Mutual Arbitration Provision prevents you from making a report to or filing a claim or charge
with the Equal Employment Opportunity Commission, U.S. Department of Labor, U.S. Securities and Exchange
Commission, National Labor Relations Board, or Office of Federal Contract Compliance Programs. Nothing in
this Mutual Arbitration Provision prevents the investigation by a government agency of any report, claim or
charge otherwise covered by this Mutual Arbitration Provision. This Mutual Arbitration Provision also does
not prevent federal administrative agencies from adjudicating claims and awarding remedies based on those
claims, even if the claims would otherwise be covered by this Mutual Arbitration Provision. Nothing in this
Mutual Arbitration Provision prevents or excuses a party from satisfying any conditions precedent and/or
exhausting administrative remedies under applicable law before bringing a claim in arbitration. DOORDASH
will not retaliate against CONTRACTOR for filing a claim with an administrative agency or for exercising rights
(individually or in concert with others) under Section 7 of the National Labor Relations Act. Disputes between
the parties that may not be subject to predispute arbitration agreement, including as provided by an Act of
https://www.doordash.com/dasher/us/ica/

7/9

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

5/9/2018

Congress or lawful, enforceable Executive Order,302a
are excluded from the coverage of this Mutual Arbitration
Provision.
7. The AAA Rules may be found at www.adr.ora or by searching for ,AAA Commercial Arbitration Rules" using a
service such as www.Qooaie.com or www.binq.com or by asking DOORDASH's General Counsel to provide a
copy.
8. CONTRACTOR'S Right to Opt Out of Arbitration Provision. Arbitration is not a mandatory condition of
CONTRACTOR’S contractual relationship with DOORDASH, and therefore CONTRACTOR may submit a
statement notifying DOORDASH that CONTRACTOR wishes to opt out and not be subject to this MUTUAL
ARBITRATION PROVISION. In order to opt out, CONTRACTOR must notify DOORDASH of CONTRACTOR'S
intention to opt out by sending an email to dasheroptout@doordash.com stating CONTRACTOR'S intention to
opt out. In order to be effective, CONTRACTOR'S opt out notice must be provided within 30 days of the
effective date of this Agreement If CONTRACTOR opts out as provided in this paragraph, CONTRACTOR will
not be subject to any adverse action from DOORDASH as a consequence of that decision and he/she may
pursue available legal remedies without regard to this Mutual Arbitration Provision, if CONTRACTOR does not
opt out within 30 days of the effective date of this Agreement, CONTRACTOR and DOORDASH shall be
deemed to have agreed to this Mutual Arbitration Provision. CONTRACTOR has the right to consult with
counsel of CONTRACTOR'S choice concerning this Mutual Arbitration Provision (or any other provision of this
Agreement.
9. This Mutual Arbitration Provision is the full and complete agreement relating to the formal resolution of
disputes covered by this Mutual Arbitration Provision. In the event any portion of this Mutual Arbitration
Provision is deemed unenforceable, the remainder of this Mutual Arbitration Provision will be enforceable.
The award issued by the Arbitrator may be entered in any court of competent jurisdiction.

XII. TERMINATION OF AGREEMENT
1. CONTRACTOR may terminate this Agreement upon seven (7) days written notice. DOORDASH may terminate
this Agreement and deactivate CONTRACTOR’S Dasher account only for the reasons set forth in the
DOORDASH Deactivation Policy (http://www.doordash.com/deactivationpolicy), or for a material breach of this
Agreement. Notwithstanding any other provision in this Agreement, DoorDash reserves the right to modify
the Deactivation Policy if, in DoorDash’s good faith and reasonable discretion, it is necessary to do so for the
safe and/or effective operation of the DoorDash platform. DOORDASH shall provide notice of any such
changes to CONTRACTOR via e-mail. Changes to the Deactivation Policy shall be effective and binding on
the parties upon CONTRACTOR’S continued use of the DOORDASH platform following DOORDASH’s e-mail
notice of such modifications. Nothing will prevent CONTRACTOR from attempting to negotiate an exemption
from any modification to the Deactivation Policy.
2. CONTRACTOR'S and DOORDASH's obligations and rights arising under the Mutual Arbitration Provision of
this Agreement shall survive termination of this Agreement. Notwithstanding any other provision in this
Agreement, the Deactivation Policy is subject to change; such changes shall be effective and binding on the
parties upon DOORDASH’S provision of notice to CONTRACTOR via e-mail.

XIII. ENTIRE AGREEMENT TRANSFERABILITY, AND WAIVER
1. This Agreement shall constitute the entire agreement and understanding between the parties with respect to
the subject matter of this Agreement and shall not be modified, altered, changed or amended in any respect,
unless in writing and signed by both parties. Before accepting any modifications, alterations, changes or
amendments, CONTRACTOR shall have the right to discuss any proposed changes with DOORDASH and
consider whether to continue his/her contractual relationship with DOORDASH. This Agreement supersedes
any prior contract between the parties. To the extent DOORDASH's consumer facing Terms and Conditions
Agreement (or updated consumer facing Terms and Conditions Agreement, if applicable) is inconsistent or
conflicts with this Agreement, this Agreement controls. However, the decision to opt-out of the Mutual
Arbitration Provision in this Agreement does not affect the enforceability of any arbitration agreement in the
https ://www.doordash.com/dasher/us/ica/

8/9

303a

EXHIBIT T

304a

@

American Arbitration Association®

EMPLOYMENT ARBITRATION RULES
DEMAND FOR ARBITRATION

To ensure your demand is processed promptly, please include a copy of the Arbitration Agreement, Plan or Contract.
Mediation: If you would like the AAA to contact the other parties and attempt to arrange mediation, please check this box ٥ .

Name of Claimant: Outhai Xayavongsa

Representatives Name (if known): Sharon Liss-Riordan, ‫ د‬Earner

Address:

Firm (if applicable): Lichten & Liss-Riordan, p.c.

c/o Lichten & Liss-Riordan, p.c.

Representatives Address:

729 Boylston Street, Suite 2000

729 Boylston Sheet) Suite 2000

City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.: 617-994-5801

Zip Code: 0٩‫؛‬g

City: Boston

State: MA

Phone No.: 617-994-5800

Fax No.: 617-994-5801

Zip Code: 02g

Email Address:

Email Address: sliss@lhlaw.com; akramer@lhlaw.com

Name of Respondent: DoorDash, Inc.

Representatives Name (if known):

Address:

Firm (if applicable):

5901 Market St., 6th Floor

2

Representatives Address:

City: San Francisco

State: CÀ

Phone No.:

Fax No.:

Zip Code: 94،‫؛؛‬

Email Address:

City:

State:

Phone No.:

Fax No.:

Zip Code:

Email Address:

Claim: What was/is the employee/workerS annua! wage range? 1Z1 Less than $100,000 D $100,000-$250,000 ٥ Over $250,000
Note: This question is required by California law.
Claim involves: IZ) Statutorily Protected Rights □ Non-Statutorily
Protected Rights

Amount of Claim:

In detail, please describe the nature of each claim. You may attach additional pages if necessary:

Other Relief Sought: !2 Attorneys Fees !2 Interest 12 Arbitration Costs D Punitive/Exemplary D Other
Please describe the qualifications for arbitrator(s) to hearthis dispute:

See Exhibit A

Hearing: Estimated time needed for hearings overall:
Hearing Locale:

hours or

Sacramento, CA

days

□ Requested by Claimants Locale provision included in the contrart

Filing Fee requirement or $300 (max amount per AAA)
Filing by Company: □ $2,200 single arbitrator □ $2,800 three arbitrator panel
Notice: To begin proceedings, please send a copy of this Demand and the Arbitration Agreement, along with filing fee as provided for In the Rules, to:
American Arbitration Association, Case Filing Services, 1101 Laurel Oak Road, Suite 100, Voorhees, NJ 08043. Send the original Demand to the Respondent.
Signature (^y be signed by a representative):

xir

Date:

‫ﺻﺮ‬

7/18/2018

Pursuant to Section 1284.3 of the California Code of Civil Procedure, consumers with a gross monthly income of less than 300% of the federal poverty guidelines
entitled to a waiver of arbitration fees and costs, exclusive of arbitrator fees. This law applies to all consumer agreements subject to the California Arbitration Act, and to
all consumer arbitrations conducted in California. Only those disputes arising out of employer plans are included in the consumer definition. If you believe that you meet
these requirements, you must submit to the AAA a declaration under oath regarding your monthly income and the number of persons in your household. Please contact
the AAA's Western Case Management Center atl-800-778-7879. If you have any questions regarding the waiver of administrative fees, AAA Case Filing Services can be
reached at 877-495-418S. Please visit our website atwww.adr.org if you would like to file this case online. AAA Customer Service can be reached at 800-778-7879.

305a

EXHIBIT A

306a
Arbitration Demand
Ciaimant Outhai Xayavongsa brings this claim against DoorDash, Inc.
("DoorDash”) challenging DoorDash's misclassification of Claimant as an independent
contractor and its resulting wage violations.
DoorDash provides on-demand food delivery services to customers at their
homes and businesses through its mobile phone application and website. To use
DoorDash, a customer orders takeout food from a list of restaurants on DoorDash’s
phone appiication or website, and a nearby DoorDash deliver driver is notified. Once
the delivery driver accepts the request by tapping a button on their phone, he or she
drives to the restaurant to pick up the customer’s order and then drives to the
customer's location to deiiver it. After the deliver, DoorDash collects the payment from
the customer, takes its fee, and then distributes the remainder to the delivery driver.
Delivery drivers must provide or pay for their own smartphone and car. DoorDash
delivery drivers do not need special qualifications or experience apart from a valid
driver’s license.
Delivery drivers receive customer ratings in the form of ''star ratings" at the end of
every delivery. These ratings are out of 5 stars, with 5 stars being the highest rating
and 1 star being the lowest. DoorDash utilizes this real-time customer feedback about
delivery drivers to monitor drivers and decide when a delivery driver may need to be
issued a warning or terminated. DoorDash also tracks other metrics for delivery drivers
such as their acceptance rates and may suspend or terminate delivery drivers whose
ratings it deems to be too low. When delivery drivers refuse too many orders,
DoorDash may end their shifts.

1

307a
Outhai Xayavongsa has worked as a DoorDash deliver driver from
approximately 2014 to 2016 in the Eik Grove) California area. Like all other DoorDash
delivery drivers. Claimant was subject to a standard form contract, provided by
DoorDash, which drivers were not able to negotiate. Throughout Claimant’s time
working for DoorDash, Claimant was classified as an independent contractor rather than
an employee. By misclassifying workers like Claimant, DoorDash has required them to
pay necessary business expenses (such as for their vehicles, gas, smartphone, and
data plan expenses). In addition, Claimant has not been paid minimum wage for all
hours worked.
Outhai Xayavongsa regularly worked in excess of forty hours per week, but was
not paid at time-and-a-half for the hours in excess of forty. Moreover, Claimant was not
paid time-and-a-half for working more than eight hours in a day, or twice the regular
hourly rate for working more than twelve hours in a day.
Claimant brings this claim to challenge this misclassification of Claimant as an

independent contractor, rather than an employee under California law, and the resulting
violations of the California Labor Code stemming from that practice including: (1)
violation of Cal. Lab. Code § 2802 for failure to reimburse necessary business
expenses; (2) violation of Cal. Lab. Code §§1197 and 1194 for failure to pay minimum
wage for all hours worked; & (3) violation of Cal. Lab. Code §§ 1194,1198, 510, and

554 for failure to pay the appropriate overtime premium for overtime hours worked.

2

308a

EXHIBIT B

53/2‫ه‬18

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

hold harmless DOORDASH, including all parent, subsidiary,
3. CONTRACTOR agrees to indemnify, protect and 309a
and/or affiliated companies, as well as its and their past and present successors, assigns, officers, owners,
directors, agents, representatives, attorneys, and employees, from any and all tax liabilities and
responsibilities for payment of all federal, state and local taxes, including, but not limited to all payroll taxes,
self-employment taxes, workers compensation premiums, and any contributions imposed or required under
federal, state and local laws, with respect to CONTRACTOR and CONTRACTOR'S Personnel.
4. CONTRACTOR shall be responsible for, indemnify and hold harmless DOORDASH, including all parent,
subsidiary, and/or affiliated companies, as well as its and their past and present successors, assigns, officers,
owners, directors, agents, representatives, attorneys, and employees, from all costs of CONTRACTOR'S
business, including, but not limited to, the expense and responsibility for any and all applicable insurance,
local, state or federal licenses, permits, taxes, and assessments of any and all regulatory agencies, boards or
municipalities.

XI. MUTUAL ARBITRATION PROVISION
1. CONTRACTOR and DOORDASH mutually agree to resolve anyj'ustlciable di'sputes between tfiem exclusi'vely
through final and binding arbitration instead of filing a lawsuit in court. This arbitration agreement is governed
by the Federal Arbitration Act (9 u.s.c. §§ 1-16) ("FAA") and shall apply to any and all claims arising out of or
relating to this Agreement, CONTRACTOR'S classification as an independent contractor, CONTRACTOR'S
provision of Contracted Services to consumers, the payments received by CONTRACTOR for providing
sen/ices to consumers, the termination of this Agreement, and all other aspects of CONTRACTOR'S
relationship with DOORDASH, past, present or future, whether arising under federal, state or local statutoty
and/or common law, including without limitation harassment, discrimination or retaliation claims and claims
arising under or related to the Civil Rights Act of 1964 (or its state or local equivalents), Americans With
Disabilities Act (or its state or local equivalents). Age Discrimination in Employment Act (or its state or local
equivalents). Family Medical Leave Act (or its state or local equivalents), or Fair Labor Standards Act (or its
state or local equivalents), state and local wage and hour laws, state and local statutes or regulations
addressing the same or similar subject matters, and all other federal, state or local claims arising out of or
relating to CONTRACTOR'S relationship or the termination of that relationship with DOORDASH. The parties
expressly agree that this Agreement shall be governed by the FAA even in the event CONTRACTOR and/or
DOORDASH are otherwise exemptedfrom the FAA. Any disputes in this regard shall be resolved exclusively
by an arbitrator. In the event, but only in the event, the arbitrator determines the FAA does not apply, the state
law governing arbitration agreements in the state in which the CONTRACTOR operates shall apply.
2. If either CONTRACTOR or DOORDASH wishes to initiate arbitration, the initiating party must notify the other
party in writing via certified mail, return receipt requested, or hand delivery within the applicable statute of
limitations period. This demand for arbitration must include (1) the name and address of the party seeking
arbitration, (2) a statement of the legal and factual basis of the claim, and (3) a description of the remedy
sought. Any demand for arbitration by CONTRACTOR must be delivered to General Counsel, 901 Market
Street, 6th Floor, San Francisco, California 94103.
3. Class Action Waiver. CONTRACTOR and DOORDASH mutually agree that by entering into this agreement to
arbitrate, both waive their right to have any dispute or claim brought, heard or arbitrated as, or to participate
in, a class action, collective action and/or representative action, and an arbitrator shall not have any authority
to hear or arbitrate any class, collective or representative action (1,Class Action Waiver”). Notwithstanding any
other clause contained in this Agreement or the AAA Rules, as defined below, any claim that all or part of this
Class Action Waiver is unenforceable, unconscionable, void or voidable may be determined only by a court of
competent jurisdiction and not by an arbitrator. In any case in which (1) the dispute is filed as a class,
collective, or representative action and (2) there is a final judicial determination that all or part of the Class
Action Waiver is unenforceable, the class, collective and/or representative action to that extent must be
litigated in a civil court of competent jurisdiction, but the portion of the Class Action Waiver that is enforceable
https://wMv.dQordash.com/dasher/us/ica/

5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

any other clause contained in this Agreement or the AAA
shall be enforced In arbitration. Notwithstanding 310a
Rules, as defined below, any claim that all or part of this Class Action Waiver is unenforceable,
unconscionable, void or voidable may be determined only by a court of competent jurisdiction and not by an
arbitrator. All other disputes with respect to whether this Mutual Arbitration Provision is unenforceable,
unconscionable, applicable, valid, void or voidable shall be determined exclusively by an arbitrator, and not
by any court.
4. CONTRACTOR agrees and acknowledges that entering into this arbitration agreement does not change
CONTRACTOR'S status as an independent contractor in fact and in law, that CONTRACTOR is not an
employee of DOORDASH or its customers and that any disputes in this regard shall be subject to arbitration
as provided in this agreement.
5. Any arbitration shall be governed by the American Arbitration Association Commercial Arbitration Rules ("AAA
Rules"), except as follows:
a. The arbitration shall be heard by one arbitrator selected in accordance with the AAA Rules. The
Arbitrator shall be an attorney with experience in the law underlying the dispute.
b. If the parties cannot otherwise agree on a location for the arbitration, the arbitration shall take place
within 45 miles of CONTRACTOR'S residence as of the effective date of this Agreement.
c. Unless applicable law provides otherwise, as determined by the Arbitrator, the parties agree that
DOORDASH shall pay all of the Arbitrator's fees and costs.
d. The Arbitrator may issue orders (including subpoenas to third parties) allowing the parties to conduct
discovery sufficient to allow each party to prepare that party’s claims and/or defenses, taking into
consideration that arbitration is designed to be a speedy and efficient method for resolving disputes.
e. Except as provided in the Class Action Waiver, the Arbitrator may award all remedies to which a party is
entitled under applicable law and which would otherwise be available in a court of law, but shall not be
empowered to award any remedies that would not have been available in a court of law for the claims
presented in arbitration. The Arbitrator shall apply the state or federal substantive law, or both, as is
applicable.
f. The Arbitrator may hear motions to dismiss and/or motions for summary judgment and will apply the
standards of the Federal Rules of Civil Procedure governing such motions.
g. The Arbitrator's decision or award shall be in writing with findings of fact and conclusions of law.
h. The Arbitrator may issue orders to protect the confidentiality of proprietary information, trade secrets,
or other sensitive information. Subject to the discretion of the Arbitrator or agreement of the parties,
any person having a direct interest in the arbitration may attend the arbitration hearing. The Arbitrator
may exclude any non-party from any part of the hearing.
i. Either CONTRACTOR or DOORDASH may apply to a court of competent jurisdiction for temporary or
preliminary injunctive relief on the ground that without such relief the arbitration provided in this
paragraph may be rendered ineffectual.
6. Nothing in this Mutual Arbitration Provision prevents you from making a report to or filing a claim or charge
with the Equal Employment Opportunity Commission, U.S. Department of Labor, U.S. Securities and Exchange
Commission, National Labor Relations Board, or Office of Federal Contract Compliance Programs. Nothing in
this Mutual Arbitration Provision prevents the investigation by a government agency of any report, claim or
charge otherwise covered by this Mutual Arbitration Provision. This Mutual Arbitration Provision also does
not prevent federal administrative agencies from adjudicating claims and awarding remedies based on those
claims, even if the claims would otherwise be covered by this Mutual Arbitration Provision. Nothing in this
Mutual Arbitration Provision prevents or excuses a party from satisfying any conditions precedent and/or
exhausting administrative remedies under applicable law before bringing a claim in arbitration. DOORDASH
will not retaliate against CONTRACTOR for filing a claim with an administrative agency or for exercising rights
(individually or in concert with others) under Section 7 of the National Labor Relations Act. Disputes between
the parties that may not be subject to predispute arbitration agreement, including as provided by an Act of

https://www.cloordash.com/dasher/us/ica/

7/9

- 5/9/2018

DoorDash Food Delivery | INDEPENDENT CONTRACTOR AGREEMENT

Congress or lawful, enforceable Executive Order,311a
are excluded from the coverage of this Mutual Arbitration
Provision.
7. The AAA Rules may be found at www.adr.ora or by searching for ,AAA Commercial Arbitration Rules" using a
service such as www.aooale.com or www.bina.com or by asking DOORDASH's General Counsel to provide a
copy.
8. CONTRACTOR'S Right to Pot Out of Arbitration Provision. Arbitration is not a mandatory condition of
CONTRACTOR’S contractual relationship with DOORDASH, and therefore CONTRACTOR may submit a
statement notifying DOORDASH that CONTRACTOR wishes to opt out and not be subject to this MUTUAL
ARBITRATION PROVISION. In order to opt out, CONTRACTOR must notify DOORDASH of CONTRACTOR'S
intention to opt out by sending an email to dasheroptout@doordash.com stating CONTRACTOR'S intention to
opt out. In order to be effective, CONTRACTOR'S opt out notice must be provided within 30 days of the
effective date of this Agreement. If CONTRACTOR opts out as provided in this paragraph, CONTRACTOR will
not be subject to any adverse action from DOORDASH as a consequence of that decision and he/she may
pursue available legal remedies without regard to this Mutual Arbitration Provision. If CONTRACTOR does not
opt out within 30 days of the effective date of this Agreement, CONTRACTOR and DOORDASH shall be
deemed to have agreed to this Mutual Arbitration Provision. CONTRACTOR has the right to consult with
counsel of CONTRACTOR'S choice concerning this Mutual Arbitration Provision (or any other provision of this
Agreement.
9. This Mutual Arbitration Provision is the full and complete agreement relating to the formal resolution of
disputes covered by this Mutual Arbitration Provision. In the event any portion of this Mutual Arbitration
Provision is deemed unenforceable, the remainder of this Mutual Arbitration Provision will be enforceable.
The award issued by the Arbitrator may be entered in any court of competent jurisdiction.

XII. TERMINATION OF AGREEMENT
1. CONTRACTOR may terminate this Agreement upon seven (7) days written notice. DOORDASH may terminate
this Agreement and deactivate CONTRACTOR'S Dasher account only for the reasons set forth in the
DOORDASH Deactivation Policy (http://www.doordasli.com/deactivationpolicy), or for a material breach of this
Agreement. Notwithstanding any other provision in this Agreement, DoorDash reserves the right to modify
the Deactivation Policy if, in DoorDash's good faith and reasonable discretion, it is necessary to do so for the

‫ة‬

safe and/or effective operation of the DoorDash platform. DOORDASH shall provide notice of any sudi
changes to CONTRACTOR via e-mail. Clianges to the Deactivation Policy sfiali be effective and binding on
the parties upon CONTRACTOR'S continued use of the DOORDASH platform following DOORDASH'S e-mail
notice ofsucfi modifications. Nothing will prevent CONTRACTOR from attempting to negotiate an exemption
from any modification to tfie Deactivation Policy.
2. CONTRACTOR'S and DOORDASH'S obligations and rights arising under the Mutual Arbitration Provision of
this Agreement sfiali survive termination oftflis Agreement. Notwithstanding any otfier provision in tflis
Agreement, tfie Deactivation Policy is subject to change; sucfi changes sfiali be effective and binding on tfie
parties upon DOORDASH'S provision of notice to CONTRACTOR via e-mail.

XIII. ENTIRE AGREEMENT) TRANSFERABILITY, AND WAIVER
1. This Agreement shall constitute the entire agreement and understanding between the parties with respect to
the subject matter of this Agreement and shall not be modified, altered, changed or amended in any respect,
unless in writing and signed by both parties. Before accepting any modifications, alterations, changes or
amendments, CONTRACTOR shall have the right to discuss any proposed changes with DOORDASH and
consider whether to continue his/her contractual relationship with DOORDASH. This Agreement supersedes
any prior contract between the parties. To the extent DOORDASH'S consumer facing Terms and Conditions
Agreement (or updated consumer facing Terms and Conditions Agreement, if applicable) is inconsistent or
conflicts with this Agreement, this Agreement controls. However, the decision to opt-out of the Mutual
Arbitration Provision in this Agreement does not affect the enforceability of any arbitration agreement in the
https://www.doordash.com/dasher/us/ica/

8/9

312a

EXHIBIT U

-

313a

SUPERIOR COURT OF CALIFORNIA
COUNTY OF SAN FRANCISCO

Document Scanning Lead Sheet
Sep-23-2٥15 2:06 pm

Case Number CGC-15-5481٥1
Filing Date: Sep-23-2٥15 1:57
Filed by: ARLENE RAMOS
Juke Box: ٥٥1

Image: ٥5٥87583

COMPLAINT

CYNTHIA MARCIANO vs. DOORDASH, INC.

٥٥1C٥5٥87583

Instructions:
Please place this sheet on top of the document to be scanned.
«

SUM-100

SUMMONS
(CITACION JUDICIAL)

TOR COURT USE ONLY
(SOLO PARA USO DE LA CORTE)

314a

NOTICE TO DEFENDANT:
(jAWSOA(.fiADOJ.■

YOU ARE BEING SUED BY PLAINTIFF:
(LO ESTA DEMANDANDO EL DEMANDANTE):
Cynthia Marciano

NOTICE! You have been sued. The court may decide against you without your being heard unless you respond within 30 days. Read the information
below.
You have 30 CALENDAR DAYS after this summons and legal papere are senred on you to file a written response at tliis court and have a copy
served on the plaintiff. A letter or plione call will not protect you. Your written response must be in proper legal form ff you want the court to liear your
case. Tliere may be a court form that you can use for your response. You can find tliese court forms and more information at the California Courts
Online Self-Help Center (www.couiiinfo.ca.gov/selfhelp), your county law library, or the courthouse nearest you. If you cannot pay the filing fee, ask
the court cleft for a fee waiver form. If you do not file your response on time, you may lose the case by default, and your wages, money, and property
may be taken without forther warning from tire court.
Ttrere are ottrer l^al requirements. You may want to call an attorney rig lit away. If you do not know an attorney, you may want to call an attorney
referral service. If you cannot afford an attorney, you may be eligible for free legal services from a nonprofit legal services program. You can locate
tliese nonprofit groups at the California Legal Services Web site (www.lawhelpcalifomia.org), the California Courts online Self-Help Center
(www.courtinfo.ca.gov/selfhelp), or by contacting your local court or county bar association. NOTE: The court has a statutory lien for waived fees and
costs on any settleTOrit or artiitration award of $10,000 or more in a civil case. The court's lien must be paid before the court will dismiss the case.
‫؛‬AVISO» Lo han demandado. Si no responda dentro de 30 dtas, la corte puede decidir en su contra sin escuchar su version, lea ‫؛‬a información a
continuación.
Tiene 30 DÍAS DE CALENDARIO después de que ‫؛‬e entreguen esta citaciOn y papetes iegaies para presentar una respuesta por escrito en esta
corte y hacer que se entregue una copia a‫ ؛‬demandante. Una carta 0 una «amada teiefonica no 0‫ ا‬protegen. Su respuesta por escrito tiene que estar
en formato ‫؛‬ega‫ ؛‬correcto si desea que procesen su caso en ١a corte. Es posibie que haya un formuiario que usted pueda usar para su respuesta.
Puede encontrar estos formuiarios de ia corte y m٥s información en e١ Centro de Ayuda de ias Cortes de California (yfi.sucorta ca.gov), en ia
biblioteca de leyes de su condado 0 en la corte que te quede m٥s cerca. Si no puede pagar la cuota de presentación, pida al secretario de la corte
que le do un formulario de exenciOn de pago de cuotas. SI no presenta su respuesta a tiempo, puede perder el caso por incumplimiento y la corte te
podrá quitar su sueldo, dinero y bienes sin más advertencia.

Hay otros requisitos legales. Es recomendable que llame a un atacado inmediatamente. Si no conoce a un abroado, puede llamar a un senricto de
remisiOn a abogados. Si no puede pagar a un abroado, es froslble que cumpla con los requisitos para obtener senricios tegales gratuitos de un
programa de senrlclos legates sin fines de lucro. Puede encontrar estos grupos sin fines de lucro en el sitto web de California Legal Senrices,
(wAw.lawhelpcaliforna.org), en e. Centro de Ayuda de las Cortes de California, ^AMw.sucorte.ca.govJ 0 poniéndose en ronfacto con la corte 0 e/
colegio de abados Ircales. AVISO: Por ley, la corte fiene derecho a reclamar las cuotas y los costos exentos por Imponer un gravamen sobre
cualquier recuperación de 510,000 ٥ más de valor recibida mediante un acuerdo 0 una concesión de arbitraje en un caso de derecho civil. Tiene que
pagar el gravamen de la corte artes de que la corte pueda desechar el caso.
The name and address of the court is:

CASE NUMBER:

ifl№‫؛‬ft‫؟‬Us،0?CA94iaf Superi٥r Cmm

1) 5-54 81 01

The name, address, and telephone number of plaintiffs attorney, or plaintiff witliout an attorney, is:
(B nombreja dirección y el númer0]de telgfon¡ delatado delgemandante.d^e^demandanteguznogienerabogado, es):

‫سمأ باط‬

V"Íene ramos

SEP 2 3205‫ﴽ‬

DATE:
Clerk, by
(Fecha)
(Secretario)
(For proof of service of this summons, use Proof of Service of Summons (form POS-010).)
(Para prueba de entrega de esta citatidn use el formuiario Proof of Service of Summons, (POS-010)).
NOTICE TO THE PERSON SERVED: You are served
[SEAL]

‫ار‬0‫م‬
-9Ì
sa
‫ي‬
\o
*a

‫ة‬
‫ت‬

٥

r•'

‫ﻟﻲ‬
ss

KOFTHECOURT

1. I

I as an individual defendant.

2. |

| as the person sued under the fictitious name of (specify):

3. l/l on behalf of (specify).• DoorDash, Inc.

>
o

□
under:\/\ CCP 416.10 (corporation)
I
I
corporation)
(defunct
I CCP 416.20
I
I
I
I CCP 416.40 (association or partnerehip)
I

n

I

i?5AN‫؛؟؟‬f

4. I
Form Adopted for MandatUse
Judicial Council of Calcia
SUM-100 ‫؛‬Rev. July 1, ‫ود‬

, Deputy
(Adjunto)

CCP 416.60 (minor)
CCP 416.70 (conservatee)
CCP 416.90 (authorized person)

I other (spec.):
I
I by personal deliver on (dafe):

SUMMONS

Code of Civil p-ure §§ 412.20.465
'www.courtinfo.c8.gov

CM-010
FORCOURTUSEONLY

—Wß?‫؟‬H٧T attorney (Warne. State Sarnumier. andBéss):

Carlson lÆgal Services
IWPine St.,Ste. 1250

315a

‫اﺗﺎل‬7‫ﻫﻞ‬
AnORNEYFORfWaTOj.-

MAILING ADDRESS
c ITC AND ZIP CODE
BRANCH NAME

San Francisco

SEP 23 2015
CLERKOF|،COURT

San Francisco, CA 94102
Civil Division

Bf.

CASE NAME:

‫ﻣﺎﺀاﻣﻢ‬
Deputy dem

Marciano V. DoorDash, Inc.
CASE NUMBER:
CIVIL CASE COVER SHEET
Complex Case Designation
I
I Unlimited
I
I Limited
□ Counter
□ Joinder
(Amount
(Amount
demanded
demanded is
Filed with first appearance by defendan
DEPT:
$25,000 or less)
exceeds $25,000)
(Cal. Rules of Court, rule 3.402)
Items 1-6 below must be completed (see instmcfions on page 2).
1. Check one box below for the case type that best describes this case:
Contract
Auto Tort
Provisionally Complex Civil Litigation
(Cal. Rules of Court, rules 3.400-3.403)
I
I Breach of contract/warranty (06)
□ Auto (22)
I
I Rule 3.740 collections (09)
I
I Antitrust/Trade regulation (03)
I I Uninsured motorist (46)
I I Other collections (09)
I I Construction defect (10)
Other PI/PD/WD (Personal Injury/Property
Damage/Wrongful Death) Tort
I— l Insurance coverage (18)
I I Mass tort (40)
l I Asbestos (04)
I I Securities litigation (28)
I I Other contract (37)
I I Product liability (24)
Real Property
I I Environmental/Toxic tort (30)
I I Medical malpractice (45)
I I Eminent domain/inverse
I— 1 Insurance coverage claims arising from the
condemnation (14)
□ Other PI/PD/WD (23)
above listed provisionally complex case
types (41)
I
I
Wrongful
eviction (33)
Non-PI/PD/WD (Other) Tort
Enforcement of Judgment
I-----1 Business tort/unfair business practice (07) I I Other real property (26)
I
I Enforcement of judgment (20)
Unlawful Detainer
I I Civil rights (08)
l
l Commercial (31)
I I Defamation (13)
Miscellaneous Civil Complaint
□ Fraud (16)
I
I Residential (32)
□ RICO (27)
□ Drugs (38)
I I Intellectual property (19)
I
I Other complaint (not specified above) (42)

c 01- 1 5-54 81 01

I I Professional negligence (25)
Judicial Review
Miscellaneous Civil Petition
□ Other non-PI/PD/WD tort (35)
I
I Asset forfeiture (05)
I
I Partnership and corporate governance (21)
I
I Petition re: arbitration award (11)
^^loym^nt
I
I Other petition (not specified above) (43)
II Wrongful termination (36)
I
I Writ of mandate (02)
I✓! Other employment (15)
I
I Other judicial review (39)
2. This case □is
□ is not
complex under rule 3.4٥0 of the California Rules of Court. If the case is comp'lex, mark the
factors requiring exceptional judicial management:
a. □ Large number of separately represented parties
d. □ Large number of witnesses
b. □ Extensive motion practice raising difficult or novel e. □ Coordination with related actions pending in one or more courts
issues that will be time-consuming to resolve
in other counties, states, or countries, or in a federal court
c. □ Substantial amount of documentary evidence
f. I
I Substantial postjudgment judicial supervision
3. Remedies sought (check all that apply): a.I ✓I monetary
4. Number of causes of action (specify): 1

b. I ✓ I nonmonetary; declaratory or injunctive relief

c. I

!punitive

5. This case I
I is
I if I is not a class action suit.
6. If there are any known related cases, file and serve a notice of related case. (You may use form CM-015.)

‫لآ‬1‫لآ‬1١‫ة‬

Matthew D. Carlson
(TYPE OR PRINT NAME)

•
•
•
•

►

(SIGNATURE OF PARTC OR ATCORNEY FOR PARTC)

NOTICE
Plaintiff must file this cover sheet with the first paper filed in the action or proceeding (except small claims cases or cases filed
under the Probate Code, Family Code, or Welfare and Institutions Code). (Cal. Rules of Court, rule 3.220.) Failure to file may result
in sanctions.
File this cover sheet in addition to any cover sheet required by local court rule.
If this case is complex under rule 3.400 et seq. of the California Rules of Court, you must serve a copy of this cover sheet on all
other parties to the action or proceeding.
Unless this is a collections case under rule 3.740 or a complex case, this cover sheet will be used for statistical purposes only.
¿age 1 of 2

Form Adopted fc* Mandato^ Use
Judicial Council of Caltfomla
CM^10(Rev. July 1,2007]

CIVIL CASE COVER SHEET

Cal. Rutes of Court, rutes 2.30, 3.220, 3.400-3.403, 3.740;
Cal. Startáards of Judicial Administration, std. 3.10
www.courtinfo.ca.gov

316a
1

2
3
4
5
6

SHANNON LISS-RIORDAN, pro hac vice anticipated
(sliss@llrlaw.com)
ADELAIDE PAGANO, pro hac vice anticipated
(apagano@llrlaw.com)
LIGHTEN & LISS-RIORDAN, P.C.
729 Boylston Street, Suite 2000
Boston, MA 02116
(617) 994-5800
Telephone:
(617)994-5801
Facsimile:

^ Superior Court of (awroml.
County of San Franoiaoo

7
8
9

10

MATTHEW CARLSON (SBN 273242)
(mcarlson@carlsonlegalservices.com)
Carlson Legal Services
100 Pine Street, Suite 1250
San Francisco, CA 94111
(415)817-1470
Telephone:

SEP 39 2015
CLER^OFT^ECOURT

٠١١‫؛‬

11
12

SUPERIOR COURT OF THE STATE OF CALIFORNIA
FOR THE COUNTY OF SAN FRANCISCO

13

CGC-1 5-54 81 01

14

CYNTHIA MARCIANO,

Case No.

15

Plaintiff,

16

COMPLAINT

17

v.

18

DOORDASH, INC.,

19

20

Defendant.

1. PRIVATE ATTORNEY GENERAL
ACT (PAGA) CLAIM FOR CIVIL
PENALTIES (CAL. LAB. CODE
§ 2698 etseq.)

21

22
23
24
25
26

27
28

1
COMPLAINT

317a
1

I.

2
3
4
5
6
7
8
9

INTRODUCTION
1.

Plaintiff Cynthia Marciano brings this suit as a representative action on behalf of

the state of California and all other similarly situated aggrieved employees of DoorDash, Inc.
(“DoorDash”) who have worked as delivery drivers for DoorDash in California during the past
year. DoorDash has classified Plaintiff and other similarly situated drivers as independent
contractors and, in so doing, has violated various provisions of the California Labor Code,
including: (1) Cal. Labor Code §2802 by requiring drivers to pay various expenses that should
have been borne by the employer and (2) Cal. Lab. Code § 226(a) by failing to provide itemized

10

wage statements. Pursuant to the Private Attorney General Act (“PAGA”), Cal. Lab. Code

11

§2699, et seq.. Plaintiff Marciano brings this claim on behalf of the state of California and all

12

similarly situated aggrieved DoorDash drivers, seeking penalties provided for under the

13

California Labor Code.

14

II.

2.

15
16

PARTIES
Plaintiff Cynthia Marciano is an adult resident of Palo Alto, California, where she

has worked as a DoorDash driver since September 2014.

17

3.

Defendant Doordash, Inc. (“DoorDash”) is a Delaware corporation with its

18

principal place of business in Palo Alto, California.

19

III.

20

JURISDICTION
4.

This Court has jurisdiction over Plaintiff’s claim under the Private Attorney

21

General Act of 2004, Cal. Lab. Code § 2699, et seq. pursuant to California Code of Civil

22

Procedure § 410.10.

23
24
25
26

IV.

STATEMENT OF FACTS
5.

DoorDash is a Palo Alto-based food delivery service, which provides food

delivery services in cities throughout the country via an on demand dispatch system.
6.

DoorDash offers customers the ability to request a driver on a mobile phone

27
28

2
COMPLAINT

318a
1
2

application or online through their website, who will go to the restaurant and pick up their food,
then deliver it to the customer at their home or business.

3

7.

DoorDash’s website advertises that it offers “Your favorite local restaurants

4
5

delivered to you” and that “We deliver from the best restaurants.”
8.

6
7

gratuities added by the customer.
9.

8
9

DoorDash drivers receive a flat fee for each delivery completed plus any

Although classified as independent contractors, DoorDash drivers are actually

employees. Drivers are required to sign up for shifts in advance. DoorDash directs drivers’

10

work in detail, instructing drivers where to report for their shifts, how to dress, and where to go

11

to pick up or await deliveries. Drivers are required to follow requirements imposed on them by

12

DoorDash regarding handling of the food and timeliness of the deliveries or risk termination.
10.

13

In addition, DoorDash is in the business of providing food delivery services to

14

customers, and that is the very service that DoorDash drivers provide. The drivers’ services are

15

fully integrated into DoorDash’s business, and without the drivers, DoorDash’s business would

16

not exist.

17

11.

However, based on their misclassification as independent contractors, DoorDash

18

has required drivers to bear many of the expenses of their employment, including expenses for

19

their vehicle, gas, parking, phone data, and other expenses.

20

V.

21
22
23
24
25
26

PAGA REPRESENTATIVE ACTION ALLEGATIONS
12.

On August 13,2015, Plaintiff Marciano gave written notice of DoorDash’s

violations of various provisions of the California Labor Code as alleged in this complaint to the
Labor and Workforce Development Agency (“LWDA”) as well as to DoorDash.
13.

More than thirty-three days have lapsed since the LWDA was notified of the

Labor Code violations asserted in this Complaint, and the LWDA has not provided any notice
that it will or will not investigate the alleged violations. See Cal. Lab. Code § 2699.3(a)(2)(A).

27
28

3
COMPLAINT

319a
1
2
3
4

14.

Plaintiff alleges that DoorDash violated PAGA in the following ways: (1) failure

to reimburse its drivers for all necessary expenditures incurred in performing their duties,
including but not limited to fuel, car maintenance, phones, and data, in violation of Labor Code
§2802, and (2) failure to provide itemized wage statements in violation of § 226(a).

5

7

COUNT I
Penalties Pursuant to the Labor Code Private Attorneys General Act of 2004
(Representative Action)

8

15.

6

9

Plaintiff realleges and incorporates by reference the allegations in the preceding

paragraphs as if fully alleged herein. Plaintiff is an aggrieved employee as defined by Cal. Lab.

10

Code § 2699(c) as she was employed by DoorDash during the applicable statutory period and

ll

suffered injury as a result of DoorDash’s Labor Code violations. Accordingly, Plaintiff seeks to

12

recover on behalf of the State of California, as well as herself and all other current and former

13

aggrieved employees of DoorDash who have worked in California, the civil penalties provided

14

by PAGA, plus reasonable attorney’s fees and costs.

15

16.

DoorDash drivers are entitled to penalties for DoorDash’s violations of Cal. Lab.

16

Code §§ 2802 and 226(a) as set forth by Cal. Lab. Code § 2699(f). Plaintiff seeks civil penalties

17

pursuant to PAGA for (1) failure to reimburse delivery driver employees for all necessary

18

expenditures incurred in performing their duties, including but not limited to fuel, car

19

maintenance, parking, phones, and data, in violation of Labor Code § 2802, and (2) failure to

20
21
22
23
24
25
26
27
28

provide itemized wage statements in violation of § 226(a).
17.

Cal. Lab. Code § 2699(f) provides for civil penalties for violation of all Labor

Code provisions for which no civil penalty is specifically provided. There is no specified civil
penalty for violations of Cal. Lab. Code § 2802. With respect to violations of Labor Code
§ 226(a), Labor Code § 226.3 imposes a civil penalty in addition to any other penalty provided
by law of two hundred fifty dollars ($250) per aggrieved employee for the first violation, and one
thousand dollars ($1,000) per aggrieved employee for each subsequent violation of Labor Code
4
COMPLAINT

320a
1

§ 226(a).

2

18.
3

Plaintiff Marciano complied with the notice requirement of Cal. Lab. Code

§ 2699.3 and mailed a written notice to the California Labor & Workforce Development Agency

4
5
6
7
8

(“LWDA”), and Defendant via Certified Mail, return receipt requested, on August 13,2015. It
has been 33 days or more since the LWDA was notified of the Labor Code violations asserted in
this Complaint, and the LWDA has not provided any notice that it will or will not investigate the
alleged violations.

9
10

WHEREFORE, Plaintiff requests that this Court enter judgment in her favor on her

ll

PAGA claim pursuant to Cal. Lab. Code § 2699(c); award pre- and post-judgment

12

interest; award reasonable attorneys’ fees, costs, and expenses; and award any other

13

relief to which the plaintiff may be entitled.

14

Respectfully submitted,

15
16

CYNTHIA MARCIANO,

17

By her attorneys,

18

Shannon Liss-Riordan, pro hac vice anticipated
Adelaide Pagano, pro hac vice anticipated
LIGHTEN & LISS-RIORDAN, P.C.
729 Boylston Street, Suite 2000
Boston, MA 02116
(617)994-5800
Email: sliss@llrlaw.com, apagano@llrlaw.com

19
20
21
22
23

Matthew Carlson (SBN 273242)
CARLSON LEGAL SERVICES
100 Pine Street, Suite 1250
San Francisco, CA 94111
(415)817-1470
Email: mcarlson@carlsonlegalservices.com

24
25
26
27
28

Dated:

September 23,2015
5
COMPLAINT

321a

EXHIBIT V

e
Dept #5{p Assigned

322a
f-u (J)l{:3

1 Jeremy F. Bollinger (SBN 240132)
Dennis F. Moss (SBN 77512)
2 Ari E. Moss (SBN 238579)
MOSS BOLLINGER LLP
3 15300 Ventura Blvd., Ste. 207
Sherman Oaks, California 91403
Telephone:
(310) 982-2984
.t2Q 4 Facsimile: (818)
963-5954

FILED

Supe~lor Court of e
Countv nf r
il/fornilll
.I)~

SberriR.C

AD!!eles

JU~ 0·6 2018

~xecurireuu,

Br.

~IerkofCourt

N 5 jeremy@mossbollinger.com
0
dennis@mossbollinger.com
ari@mossbollinger.com
~6

-ludi Lara

'Deputy

Attorneys for Plaintiff DAMONE BROWN
SUPERIOR COURT OF CALIFORNIA
COUNTY OF LOS ANGELES

BC 7 l 2 9 7 3 ·

11

DAMONE BROWN, individually and on
12 behalf of the State of California and other
aggrieved persons,
13

Plaintiffs,
14

vs.

Case No.:
COMPLAINT FOR CIVIL PENALTIES
PURSUANT TO PRIVATE ATTORNEY
GENERAL ACT OF 2004 (LABOR CODE
§§ 2698 ET SEQ.)

15

DOORDASH, INC., a Delaware corporation,
16 and DOES 1-50,
17

DEMAND FOR JURY TRIAL

Defendants.

18
19
20
21
22
23
24

;l.;1-00;{.'I

rn D J:> rn
(."') < ..... (."')
rn:s::rnrn
..... rn
.....
<Z-0-0
('"),:·:,r.i,:-;,rn-l:x>-1

:Z::·:CJ:>:CO••,....
::UJ:>(.J)rrl••
0#
0 Z :I: 1:-)
••

G:i ••

..rn

A
••

r.o

"-~'
(."')

- ..J

22;

·-O
-..J
,;..,i

-.....,.J

2:~
'+

,.o

'2(]_)
co

28'
v,;:,
'-' '-'

0

'COMPLAINT

.e

.I
1

323a

Plaintiff DAMONE BROWN ("PLAINTIFF") on behalf of himself, and all other

2 similarly aggrieved employees and the State of California, complains and alleges as follows:

3

INTRODUCTION

4

1.

This is a representative action by PLAINTIFF on behalf of himself, other

5 similarly aggrieved employees, and the State of California against defendant DOORDASH,
6 INC., and Doe Defendants 1-50 ("collectively DEFENDANT") pursuant to the California
7 Private Attorney General Act, Labor Code sections 2698 et seq. ("PAGA") to recover civil
8 penalties (75% payable to the Labor Workforce Development Agency and 25% payable to
9 aggrieved employees) for failure to pay all minimum and overtime wages, failure to provide
10 adequate meal and rest breaks, failure to pay meal and rest break premiums, failure to provide
11

adequate wage statements, and failure to pay all wages upon cessation of employment to

12 PLAINTIFF andothers engaged as couriers and misclassified as independent contractors by
13 DEFENDANT in California.
14

JURISDICTION AND VENUE

15

2.

This Court has jurisdiction over PLAINTIFF's claims for penalties pursuant to

3.

Venue is proper in this Judicial district and the County of Los Angeles pursuant to

16 PAGA
17

18 California Code of Civil Procedure§ 395.5 because DEFENDANT employed PLAINTIFF as a
19 courier throughout the County of Los Angeles, and the acts, omissions, and conduct alleged by
20 PLAINTIFF herein occurred iri this county.
21
22
23

PARTIES
4.

Defendant DOORDASH, INC. is a for-profit company that operates a delivery

service by engaging persons throughout California to make deliveries to its customers.

24 DOORDASH, INC. was incorporated in the state of Delaware, and has its headquarters in San
2?:::, Francisco, California.
·--....J

26::
<..:..·
<..C

2z=
G

28
1
COMPLAINT

324a
1

5.

DEFENDANT offers its customers the ability to request one ofDEFENDANT's

2 couriers, referred to as "Dashers", on their mobile phone using the DoorDash mobile phone app
3 to deliver anything from DEFENDANT's partner merchants.
4

6.

Plaintiff DAMONE BROWN is a resident of California. PLAINTIFF has worked

5 for DEFENDANT as a Dasher in Los Angeles, California, from approximately July 2017
6 through the present. Dashers, like PLAINTIFF, receive a fee from DEFENDANT for each
7 delivery completed and may receive tips from customers in addition to their delivery fees.
8 Dashers do not receive an hourly wage.
9

7.

PLAINTIFF is informed and believes that DOES 1 through 50 are corporations,

10 individuals, limited liability partnerships, limited liability companies, general partnerships, sole
11

proprietorships or are other business entities or organizations of a nature not currently known to

12 PLAINTIFF.
13

8.

PLAINTIFF is unaware of the true names of Defendants DOES 1 through 50.

14 PLAINTIFF sues said Defendants by said fictitious name, and will amend this complaint when
15 the true names and capacities are ascertained or when such facts pertaining to liability are
16 ascertained, or as permitted by law or by the Court. PLAINTIFF is informed and believes that
17 each of the fictitiously named Defendants is in some manner responsible for the events and
18 allegations set forth in this complaint.
19

9.

PLAINTIFF is informed and believes, and thereon alleges, that at all times herein

20 mentioned each Defendant, including all Defendants sued under fictitious names, was the
21

employee, or representative of each of the remaining Defendants, and in doing the things

22 hereinafter alleged, was at tunes acting within the course and scope of this employment, and at
23

other times, acting in his or her own individual capacity. In the alternative, each of the

24 individually named Defendants, acted in concert and in furtherance of a fraudulent plan and
25
scheme and each actively participated in the wrongful acts alleged in this complaint.
~~
-,-1

26Q

"°
27r-...,.)
2e'·
&,

2
COMPLAINT

325a
1
2

COMPLIANCE WITH NOTIFICATION REQUIREMENTS
10.

On or about May 2, 2018, PLAINTIFF, through his counsel, sent a certified

3 letter to the California Labor and Workforce Development Agency ("LWDA") informing them
4 that DEFENDANT failed to meet its obligations under California law ("PAGA Letter").
5 Attached hereto as Exhibit A is a true and correct copy of the May 2, 2018 PAGA letter also
6 sent to Defendant DOORDASH, INC. at the office of its Agent for Service of Process.
7

11.

To date, 65 days after the PAGA Letter was mailed, the L WDA has not

8 responded.
9

12.

The PAGA Letter outlined PLAINTIFF's claims for violations of the California

10 Labor Code and the applicable wage orders.
11

13.

Accordingly, PLAINTIFF exhausted administrative remedies as required by

12 Labor Code § 2699. 3.
13

FIRST CAUSE OF ACTION

14

CIVIL PENALTIES UNDER PAGA

15

(By Plaintiff, the State of California, and Aggrieved Employees against Defendant)

16

14.

PLAINTIFF incorporates paragraphs 1 through 13 of this complaint as if fully

17 alleged herein.
18

15.

Under the Private Attorney General Act, Labor Code §§ 2698-99 ("PAGA"),

19 private parties may recover civil penalties for violations of the California Labor Code, including
20 sections 510, 512, 1194, 1197, 201,202,226,226.7, 2802 and the Industrial Welfare
21

Commission's ("IWC") Wage Orders. PAGA penalties are in addition to any other relief

22 available under the Labor Code.
23

16.

As set forth above, DEFENDANT violated the California Labor Code within the

24 one year prior to the date of PLAINTIFF's PAGA Letter by consistently misclassifying
25
PLAINTIFF and other aggrieved employees as independent contractors exempt from
G)
-...J

t.B

California's labor laws.

<,.e,

t-Z
a:J
~

3
COMPLAINT

326a
1

17.

In Dynamex Operations v. Superior Court, the California Supreme Court

2 articulated the test for whether a worker is properly classified as an independent contractor to
3 whom California's wage orders do not apply. There, the Court held that the hiring entity must
4 establish:
(A) that the worker is free from the control and direction of the hirer in
connection with the performance of the work, both under the contract for
the performance of such work and in fact; (B) that the worker performs
work that is outside the usual course of the hiring entity's business; and
(C) that the worker is customarily engaged in an independently established
trade, occupation, or business of the same nature as the work performed
for the hiring entity.

5
6
7

8

9 Dynamex Operations v. Superior Court, 4 Cal. 5th 903, 916-917 (2018). Under Dynamex, if the
10 hiring entity fails to meet any one of the criteria above, the classification fails and the worker is

11

deemed an employee. As discussed above, DEFENDANT is in the business of providing

12 delivery services to customers, and that is the service that DEFENDANT's Dashers provide. The

13 Dashers' services are fully integrated into DEFENDANT's business, and without the Dashers,
14 DEFENDANT's business would not exist. Moreover, other than choosing when to work,
15 DEFENDANT dictates and controls what and how its Dashers perform their work.
16 DEFENDANT requires PLAINTIFF and other similarly aggrieved Dashers to follow detailed
17 requirements, grades its Dashers, and Dashers are subject to termination based on
18 DEFENDANT's discretion and/or the Dashers failure to follow DEFENDANT's requirements
19 (such as rules regarding Dashers' conduct with customers, their timeliness in picking up items
20 and delivering them to customers, the accurateness of their orders, etc.).
21

18.

At all times relevant to this action, under Dynamex, PLAINTIFF and other

22 similarly situated aggrieved Dashers were employees of DEFENDANT entitled to the benefits of
23 the California Labor Code and the Industrial Welfare Commission's ("IWC") Wage Orders.

24

19.

At all times relevant hereto, California Labor Code § 2802 has required

250 DEFENDANT to reimburse PLAINTIFF and other aggrieved employees for all expenses
"'-,.]

2,g; incurred by them in direct consequence of the discharge of their job duties or obedience to the
f...D

2J:)
28''
00

directions of the employer if the employer either knows or has reason to know that the employee
4
COMPLAINT

327a
1 has incurred the expenses. Stuart v. RadioShack Corp., 641 F.Supp.2d 901, 904 (N.D. Cal.
2 2009). "Once the employer has such knowledge, then it has the duty to exercise due diligence
3 and take any and all reasonable steps to ensure that the employee is paid the expense." Id.
4

20.

DEFENDANT requires its Dashers, like PLAINTIFF, to use their own vehicles to

5 make deliveries to DEFENDANT's customers. PLAINTIFF and other aggrieved employees pay
6 for all expenses related to the use of their personal vehicle for business-related purposes,
7 including but not limited to insurance, maintenance, parking, and gasoline.

8

21.

DEFENDANT requires its Dashers, like PLAINTIFF, to use their own mobile

9 phone to access DEFENDANT's mobile app to receive requests for deliveries during working
10 hours and track their deliveries and payments. PLAINTIFF and other aggrieved employees have
11

to pay for all expenses related to the use of their personal mobile phone for business-related

12 purposes. DEFENDANT does not contribute any money toward the costs of maintaining a
13 mobile phone or use of cellular data to work as a Dasher for DEFENDANT.
14

22.

DEFENDANT hired PLAINTIFF as a Dasher, knowing that he would need to use

15 his personal vehicle to make deliveries and to use his personal mobile phone to access the
16 DoorDash mobile phone app. DEFENDANT did not reimburse PLAINTIFF and other similarly
17 paid Dashers for expenses related to the use of their personal vehicles and mobile phones.
18

23.

At all times relevant hereto, California Labor Code§§ l 194(a) and 1197 and the

19 applicable wage orders, have required DEFENDANT to pay its employees the applicable
20 minimum wage for all hours worked.
21

24.

PLAINTIFF and the other aggrieved Dashers were not paid by DEFENDANT,

22 during the relevant period, the applicable minimum wage for all hours worked because
23 DEFENDANT misclassified PLAINTIFF and other Dashers as independent contractors.
24 PLAINTIFF and other similarly paid Dashers were compensated with a delivery fee and
25 discretionary tips from customers. Often their compensation did not meet the minimum wage for
o:i
-....J

26·
c,:, the hours they worked making deliveries for DEFENDANT. In addition, be.cause PLAINTIFF
u:;

27~.
,...._. and similarly paid Dashers had to bear the cost of gas and wear and tear on the vehicles they
5
COMPLAINT

328a
·1

used to make DoorDash deliveries and the cost of their mobile phone and data usage in order to

2 use the DoorDash app, even when the delivery fees met the minimum wage, these expenses
3 caused their total compensation to drop below the minimum wage. Under California law,
4 customers' tips cannot count toward an employer's minimum wage obligations.

5

25.

At all relevant times, PLAINTIFF and the other aggrieved Dashers were

6 employees ofDEFENDANT covered by Labor Code§§ 510 and 1194 and the applicable wage
7 orders, entitling them to overtime wages.

8

26.

By failing to pay PLAINTIFF and the other aggrieved employees for all hours

9 worked on days in which they worked 8 or more hours or in weeks in which they worked 40 or
10 more hours, DEFENDANT willfully breached its obligation to pay overtime wages, violating the
11
12
13

provisions ofLabor Code§§ 510 and 1194 and the applicable wage orders.
27.

At all relevant times, PLAINTIFF and the other aggrieved Dashers were

employees of DEFENDANT covered by the rest period provisions of Labor Code§§ 226.7 and

14 512, and the applicable wage orders.
15

28.

Pursuant to Labor Code §§ 226. 7 and 512, and the applicable wage orders,

16 PLAINTIFF and the other aggrieved Dashers were entitled to a rest period of at least 10
17 uninterrupted minutes for each four-hour period of work, or major fraction thereof, and one hour
18 of additional pay for every day a required rest period was not provided.
19

29.

By misclassifying PLAINTIFF and other aggrieved Dashers as independent

20 contractors, DEFENDANT failed to provide PLAINTIFF and other aggrieved employees rest
21
22
23

periods in accordance with Labor Code§ 226.7 and the applicable wage orders.
30.

The plain language of California's Wage Orders relating to rest periods requires

employers to count "rest period time" as "hours worked for which there shall be no deduction

24 from wages." See, e.g., Cal. Code Regs. tit. 8, § 11070, subd. 12(A), italics added. 1 In Bluford v.

t3

Safeway Stores, Inc., 216 Cal. App. 4th 864 (2013), the court interpreted this language to require

~-.J

1

The other Wage Orders contain the same provision.
6
COMPLAINT

329a
1 employers to "separately compensate[ ]" employees for rest periods where the employer uses an
2 "activity based compensation system" that does not directly compensate for rest periods. Id. at
3 872. In Vaquero v. Stone/edge Furniture LLC, 9 Cal. App. 5th 98 (2017), as modified (Mar. 20,
4 2017), review denied (June 21, 2017), the Court of Appeal held that the wage order requirement
5 that employees be separately paid for rest periods applies to "applies equally to commissioned
6 employees". Id. at 111. DEFENDANT paid PLAINTIFF and other Dashers on a per delivery
7 basis. It did not separately pay PLAINTIFF and other similarly paid Dashers for their rest
8 periods in conformity with California law during the relevant period.
9

31.

DEFENDANT failed to provide PLAINTIFF and other aggrieved employees the

10 additional hour of pay required by Labor Code § 226. 7 and the applicable wage orders.
11

PLAINTIFF is informed and believes and thereon alleges that at all relevant times within the

12 applicable limitations period, DEFENDANT maintained and continues to maintain a policy or
13
14
15

practice of not paying additional pay to employees for rest period violations.
32.

At all relevant times, PLAINTIFF and other aggrieved Dashers were employees

ofDEFENDANTS covered by meal period provisions of Labor Code§§ 226.7 and 512, and the

16 applicable wage orders.
17

33.

Pursuant to Labor Code§§ 226.7 and 512, and the applicable wage orders,

18 PLAINTIFF and other aggrieved Dashers were entitled to a meal period of at least 30 minutes
19 for each workday they worked more than 5 hours in any workday, and one additional hour of pay
20 for every day that a timely meal period was not provided.
21

34.

DEFENDANT failed to provide PLAINTIFF and other aggrieved Dashers with

22 uninterrupted, duty free meal periods in accordance with Labor Code§ 226.7 and 512, and the
23

applicable wage orders. During the applicable limitations period, DEFENDANT maintained and

24 continues to maintain a policy or practice of requiring aggrieved employees to work during meal
~

periods taken by PLAINTFF and the other aggrieved employees, as alleged above.

--I

35.

rz

DEFENDANT failed to provide PLAINTIFF and other aggrieved employees the

additional hour of pay required by Labor Code § 226. 7 and the applicable wage orders for meal
7
COMPLAINT

330a
1 period violations. PLAINTIFF is informed and believes and thereon alleges that at all relevant
2 times within the applicable limitations period, DEFENDANT maintained and continues to
3 maintain a policy or practice of not paying additional pay to employees for meal period
4 violations.
36.

5

Section 226(a) of the California Labor Code requires DEFENDANT to accurately

6 report total hours worked by PLAINTIFF and other aggrieved employees and the corresponding
7 applicable rates of pay, and to accurately set forth gross and net wages earned, among other
8 things. DEFENDANT has knowingly and intentionally failed to comply with Labor Code§
9 226(a) on each wage statement provided to PLAINTIFF and other aggrieved Dashers during pay
10 periods in which DEFENDANT failed to pay minimum and/or overtime wages or a break

11

premium owed to PLAINTIFF or any other aggrieved employee.

12
13

37.

PLAINTIFF and other aggrieved Dashers were employees of DEFENDANT

covered by Labor Code§§ 201 or 202 whose employment with DEFENDANT ended during the

14 relevant class period. 2
15

38.

Pursuant to Labor Code§§ 201 or 202, aggrieved Dashers were entitled upon

16 cessation of employment with DEFENDANT to timely payment of all wages earned and unpaid
17 prior to termination. Discharged Dashers were entitled to payment of all wages earned and
18 unpaid prior to discharge immediately upon termination. Dashers who resigned were entitled to
19 payment of all wages earned and unpaid prior to resignation within 72 hours after giving notice
20 of resignation or, if they gave 72 hours previous notice, they were entitled to payment of all
21

wages earned and unpaid prior to resignation at the time of resignation.
39.

22

DEFENDANT failed to pay aggrieved Dashers all wages earned and unpaid prior

23
24

2

Although Plaintiff Brown does not contend that his employment was terminated, he may still
pursue PAGA penalties for violations of Labor Code §§201 and 202 on behalf of other aggrieved
~
employees and the State. Huff v. Securitas Sec. Servs. USA, Inc., 23 Cal. App. 5th 745, 233 Cal.
-,..J
2fj Rptr. 3d 502, 513 (Ct. App. 2018), reh'g denied (June 13, 2018) ("The trial court correctly found
~ that so long as Huff was affected by at least one of the Labor Code violations alleged in the
iJ complaint, he can recover penalties [under PAGA] for all the violations he proves.").
8
COMPLAINT

331a
1 to termination timely in accordance with Labor Code§§ 201 or 202. PLAINTIFF is informed
2 and believes and thereon alleges that at all relevant times within the applicable limitations
3 period, DEFENDANT maintained and continues to maintain a policy or practice of not paying
4 terminated Dashers all final wages earned before termination due under Labor Code§§ 201 or
5 202.
6

40.

DEFENDANT's failure to pay aggrieved Dashers all wages earned prior to

7 termination in accordance with Labor Code§§ 201 or 202 was willful. DEFENDANT had the
8 ability to pay all wages earned by Dashers prior to termination in accordance with Labor Code
9 §§ 201 or 202, but intentionally adopted policies or practices incompatible with the requirements
10 of Labor Code§§ 201 or 202.
11

41.

Under PAGA, PLAINTIFF and all other aggrieved Dashers are entitled to recover

12 the maximum civil penalties permitted by law from DEFENDANT for the violations of Labor
13 Code alleged in this Complaint.
14

42.

PLAINTIFF and all other aggrieved Dashers are also entitled to recover their

15 attorneys' fees and costs under Labor Code§ 2699.
16
17

PRAYER FOR RELIEF

WHEREFORE, Plaintiff, on behalf of himself and all other aggrieved employees and the

18 State of California, prays for relief and judgment against Defendants as follows:
19

1.

20

Civil penalties under Labor Code Section 2699 (75% payable to the LWDA and
25% payable to aggrieved employees);

21

2.

Costs;

22

3.

Reasonable attorney's fees; and

23

4.

Such other and further relief as this Court may deem just and proper.

24 Dated: July 6, 2018

MOSS BOLLINGER LLP

,JS
,. .c,

~:r~myF~

-

Attorneys for Plaintiff DAMONE BROWN
9
COMPLAINT

332a
DEMAND FOR JURY TRIAL

1
2

Plaintiff demands a trial by jury for himself and all other aggrieved employees on all

3 claims so triable.
4 Dated: July 6, 2018

MOSS BOLLINGER LLP

,.

5
6
7

By: _ _ _ _ _ _ _ _ _ _ _ _ _ __
Jeremy F. Bollinger
Attorneys for Plaintiff DAMONE BROWN

8
9
10
11

12
13

14
15
16
17
18
19
20
21
22
23
24
25a:

--

26~
,::;::
i.C

27"·
t'-~
1..:..

2&10
COMPLAINT

e
ATIORNEY OR PARTY WITHOUT ATIORNEY{Name, State Bar number, and address):

Jeremy F. Bollinger (SBN 240 32)
MOSS BOLLINGER LLP
15300 Ventura Blvd., Suite 207
Sherman Oaks, CA 91403

C -010

333a

FOR COURT USE OHL Y

FlLEb

3 lQ-982-2984
FAX NO.: 818-983-5954
ATIORNEY FOR Name: Plaintiff Damone Brown
SUPERIOR COURT OF CALIFORNIA, COUNTY OF Los Angeles
STREET ADD~Ess: 111 North Hill Street

Superior Court of Californfa
Countv 11f r.n\' ~ r,oP.IP.~

TaEPHONE NO.:

MAILING ADDRESS:
c1TY AND 21P coDE:
BRANCH NAME:

Los AngeleskCA 90012
Stanle Mos Courthouse

CASE NAME:

Damone Brown v. DoorDash Inc.

0

CIVIL CASE COVER SHEET
Unllmlted

D

(Amount
demanded
exceeds $25,000)

Limited
(Amount
demanded is
$25,000 or less)

CASE NUMBER:

Complex Case Designation

D

D

Counter

Jolnder

Filed with first appearance by defendant
(Cal. Rules of Court, rule 3.402)

JUDGE:
DEPT:

Items 1-6 below must be completed (see instructions on page 2).
1. Check one box below for the case type that best describes this case:
Auto Tort

D
D

Contract

Auto (22)
Uninsured motorist (46)

Other PIIPD/WD (Personal Injury/Property
Damage/Wrongful Death) Tort

D Asbestos (04)
D Product liability (24)
D Medical malpractice (45)
D Other Pl/PD/WO (23)
Non.Pl/PD/WO (Other) Tort
D Business torUunfair business practice (07)
D Civil rights (08)
D Defamation (13)
D Fraud (16)
D Intellectual property (19)
D Professional negligence (25)
D

Other non-Pl/PD/WO tort (35)

!Em]loyment
Wrongful termination (36)

[ZJ

Other employment (15)

D
D

Breach of contracUwarranty (06)
Rule 3.740 collections (09)

D Other collections (09)
D Insurance coverage (18)
D Other contract (37)
Real Property
Eminent domain/Inverse
D condemnation
(14)
D Wrongful eviction (33)
D Other real property (26)
Unlawful Detainer
D Commercial (31)
D Residential (32)
D Drugs(38)
D
D

n

D
D
D
D
D
D

AntitrusUTrade regulation (03)
Construction defect (10)
Mass tort (40)
Securities litigation (28)
Environmental/Toxic tort (30)
Insurance coverage claims arising from the
above listed provisionally complex case
types (41)

Enforcement of Judgment

D

Enforcement of judgment (20)

Miscellaneous Civil Complaint

D
D

Judicial Review

D

Provisionally Complex Civil Litigation
(Cal. Rules of Court, rules 3.400-3.403)

RIC0(27)
Other complaint (not specified above) (42)

Miscellaneous Civil Petition

Asset forfeiture (05)
Petition re: arbitration award (11)
Writ of mandate (02)

D
D

Partnership and corporate governance (21)
Other petition (not specified above) (43)

Other judicial review (39)

2. This case LJ is
lLJ is not complex under rule 3.400 of the California Rules of Court. If the case is complex, mark the
factors requiring exceptional judicial management:
a.

D

Large number of separately represented parties

D

Extensive motion practice raising difficult or novel
issues that will be time-consuming to resolve
Substantial amount of documentary evidence

b.D
c.

D Large number of witnesses
D Coordination with related actions pending in one or more courts
in other counties, states, or countries, or in a federal court
f. D Substantial postjudgment judicial supervision
b. D nonmonetary; declaratory or injunctive relief
c. D punitive
d.
e.

3. Remedies sought (check all that apply): a.[Z] monetary
4. Number of causes of action (specify): 1
5. This case
is
[Z] is not a class action suit.
6. If there are any known related cases, file and serve a notice of related case. (You may use form CM-015.)

D

Date:

July 6, 2018

Jeremy F. Bollinger

~

~ }

•

(SINATUEOFPARTY ORNEY FOR PARTY)

(TYPE OR PRINT NAME)

NOTICE
~Plaintiff must file this cover sheet with the first paper filed in the action or proceeding (except small claims cases or cases filed
::,-Lnder the Probate Code, Family Code, or Welfare and Institutions Code). (Cal. Rules of Court, rule 3.220.) Failure to file may result
dn sanctions.
t:file this cover sheet in addition to any cover sheet required by local court rule.
•·..ff this case is complex under rule 3.400 et seq. of the California Rules of Court, you must serve a copy of this cover sheet on all
t---other parties to the action or proceeding.
fj:Jnless this is a collections case under rule 3.7 40 or a complex case, this cover sheet will be used for statistical purposes onlv.

Flage 1 of 2

Form.Adopted for Mandatory Use
Judicial Council of Calffomla
CM--010 !Rev. July 1, 2007)

CIVIL CASE COVER SHEET

Cal. Rules of Court, rules 2.30, 3.220, 3.400-3.403, 3.740;
Cal. Standards of Judicial Administration, std. 3.10
www.courtlnfo.ca.gov

e

e

334a

SHORT TITLE:

CASE NUMBER

Brown v. DoorDash, Inc.

CIVIL CASE COVER SHEET ADDENDUM AND
STATEMENT OF LOCATION
(CERTIFICATE OF GROUNDS FOR ASSIGNMENT TO COURTHOUSE LOCATION)
This form is required pursuant to Local Rule 2.0 in all new civil case filings in the Los Angeles Superior Court.
Item I. Check the types of hearing and fill in the estimated length of hearing expected for this case:
JURYTRIAL?

:ll

YES

CLASSACTION?D YES LIMITEDCASE?

DYES

TIMEESTIMATEDFORTRIAL5
L HOURS/I?: DAYS
--=-.:..:.:.=:::..==-=°"""".:.

Item II. Indicate the correct district and courthouse location (4 steps - If you checked "Limited Case", skip to Item Ill, Pg. 4): .

Step 1: After first completing the Civil Case Cover Sheet form, find the main Civil Case Cover Sheet heading for your
case in the left margin below, and, to the right in Column A, the Civil Case Cover Sheet case type you selected.
Step 2: Check Q!!! Superior Court type of action in Column 8

below which best describes the nature of this case.

Step 3:

In Column C, circle the reason for the court location choice that applies to the type of action you have
checked. For any exception to the court location, see Local Rule 2.0.
Applicable Reasons for Choosing Courthouse Location (see Column C below)
1.
2.
3.
4.
5.

Class actions must be filed in the Stanley Mosk Courthouse, central district.
May be filed in central (other county, or no bodily injury/property damage).
Location where cause of action arose.
Location where bodily injury, death or damage occurred.
Location where performance required or defendant resides.

Step 4:

I-

Location of property or permanently garaged vehicle.
Location where petitioner resides.
Location wherein defendant/respondent functions wholly.
Location where one or more of the p_arties·reside.
Location of Labor Commissioner Office

Fill in the information requested on page 4 in Item Ill; complete Item IV. Sign the declaration.

Auto (22)

.s= t:0

cc

6.
7.
8.
9.
10.

Uninsured Motorist (46)

D A7100 Motor Vehicle - Personal Injury/Property Damage/Wrongful Death

1., 2., 4.

D A711 O Personal Injury/Property Damage/Wrongful Death - Uninsured Motorist

1., 2., 4.

D A6070 Asbestos Property Damage

2.

D A7221 Asbestos - Personal Injury/Wrongful Death

2.

D A7260 Product Liability (not asbestos or toxic/environmental)

1., 2., 3., 4., 8.

D A7210 Medical Malpractice - Physicians & Surgeons

1., 4.

D A7240 Other Professional Health Care Malpractice

1., 4.

Asbestos (04)

~ ,,::.

-

8.~
0 .c

...

0..

Product Liability (24)

CV
QI

~c

-

= -=
c·Cl

Medical Malpractice (45)

C
:g e
5l 3:

-

...
QI

iQ;,

~~

QI

e
Cl

.i c!:

D
Other
Personal Injury
Property Damage
Wrongful Death
(23)

assault, vandalism, etc.)

D A7270 Intentional Infliction of Emotional Distress
D

00

LACIV 109 (Rev. 03/11)
LASC Approved 03-04

A7250 Premises Liability (e.g., slip and fall)

D A7230 Intentional Bodily Injury/Property Damage/Wrongful Death (e.g.,

A7220 Other Personal Injury/Property Damage/Wrongful Death

CIVIL CASE COVER SHEET ADDENDUM
AND STATEMENT OF LOCATION

1., 4.
1., 4.
1., 3.
1., 4.

Local Rule 2.0
Page 1 of 4

.

e
SHORT TITLE:

335a

CASE NUMBER

Brown v. DoorDash, Inc.

~s

Business Tort (07)

e

D A6029 Other Commercial/Business Tort (not fraud/breach of cohtract)

1., 3.

'!_I-

Civil Rights (08)

D A6005 Civil Rights/Discrimination

1., 2., 3.

·~~
::, ::,

Defamation (13)

D A6010 Defamation (slander/libel)

1., 2., 3.

D A6013 Fraud (no contract)

1., 2., 3.

D A6017 Legal Malpractice

1., 2., 3.

D A6050 Other Professional Malpractice (not medical or legal)

1., 2., 3.

D A6025 Other Non-Personal Injury/Property Damage tort

2.,3.

D A6037 Wrongful Temiination

1., 2., 3.

IZI A6024 Other Employment Complaint Case

1., 2., 3.

D A6109 Labor Commissioner Appeals

10.

D A6004 Breach of Rental/Lease Contract (not unlawful detainer ?r wrongful
eviction)

2., 5.

e=
a. I

·--=e

en

C

cii

Fraud (16)

5;:

I!! aJ
QI en
a. ca

co Eca
zc

Professional Negligence (25)

Other (35)

C

QI

Wrongful Tem,ination (36)

E
>,

0

i5.
E

Other Employment (15)

w

Breach of Contract/ Warranty
(06)
(not insurance)

-8
C

Collections (09)

Insurance Coverage (18)

Other Contract (37)

Eminent Domain/Inverse
Condemnation (14)

~
QI
Q,

...

D A6019 Negligent Breach of Contract/Warranty (no fraud)
D A6028 Other Breach of Contract/Warranty (not fraud or negligence)

u

I!

D A6008 Contract/Warranty Breach -Seller Plaintiff (no fraud/negligence)

2., 5.
1., 2., 5.
1., 2., 5.

D A6002 Collections Case-Seller Plaintiff

2., 5., 6.

D A6012 Other Promissory Note/Collections Case

2., 5.

D A6015 Insurance Coverage (not complex)

1., 2., 5., 8.

D A6009 Contractual Fraud

1., 2., 3., 5.

D A6031 Tortious Interference

1., 2., 3., 5.

D A6027 Other Contract Dispute(not breach/insurance/fraud/negligence)

1., 2., 3., 8.

D A7300 Eminent Domain/Condemnation

Number of p~rcels_ _

2.

D A6023 Wrongful Eviction Case

2., 6.

D A6018 Mortgage Foreclosure

2., 6.

D A6032 Quiet Title

2., 6.

D A6060 Other Real Property (not eminent domain, landlord/tenant, foreclosure)

2., 6.

Unlawful Detainer-Commercial
(31)

D A6021 Unlawful Detainer-Commercial (not drugs or wrongful eviction)

2., 6.

Unlawful Detainer-Residential
(32)

D A6020 Unlawful Detainer-Residential (not drugs or wrongful eviction)

2., 6.

D A6020F Unlawful Detainer-Post-Foreclosure

2., 6.

D A6022 Unlawful Detainer-Drugs

2., 6.

Wrongful Eviction (33)

0

Q.

cii

&!

...
QI

Other Real Property (26)

C

Jg
QI

0C

:: i
8

.!!
C

Unlawful DetainerPost-Foreclosure (34)

u::;, :::,

--

Unlawful Detainer-Drugs (38)

r,-..>
0
r-'"

'~LACIV
""' 109 (Rev. 03/11)
LASC Approved 03-04

CIVIL CASE COVER SHEET ADDENDUM
AND STATEMENT OF LOCATION

Local Rule 2.0
Page 2 of 4

e
SHORT TITLE:

336a
.

..

A

.' •Civil

i

Case Cover Sheet
Category No.

2., 5.

D A6151 Writ - Administrative Mandamus

2., 8.

D A6152 Writ - Mandamus on Limited Court Case Matter

2.

D A6153 Writ - other Limited Court Case Review

2.

Other Judicial Review (39)

D A6150 Other Writ /Judicial Review

2., 8.

Antitrust/Trade Regulation (03)

D A6003 Antitrust/Trade Regulation

1., 2., 8.

D A6007 Construction Defect

1., 2., 3.

D A6006 Claims Involving Mass Tort

1., 2., 8.

Securities Litigation (28)

D A6035 Securities Litigation Case

1., 2., 8.

Toxic Tort
Environmental (30)

D A6036 Toxic Tort/Environmental

1., 2., 3., 8.

D A6014 Insurance Coverage/Subrogation (complex case only)

1., 2., 5., 8.

D A6141 Sister State Judgment

2., 9.

D A6160 Abstract of Judgment

2., 6.

D A6107 Confession of Judgment (non-<iomestic relations)

2., 9.

D A6140 Administrative Agency Award (not unpaid taxes)

2., 8.

D A6114 Petition/Certificate for Entry of Judgment on Unpaid Tax

2., 8.

D A6112 Other Enforcement of Judgment Case

2., 8., 9.

D A6033 Racketeering (RICO) Case

1., 2., 8.

D A6030 Declaratory Relief Only

1., 2., 8.

D A6040 Injunctive Relief Only (not domestic/harassment)

2., 8.

D A6011 Other Commercial Complaint Case (non-tort/non-complex)

1., 2., 8.

D A6000 other Civil Complaint (non-tort/non-complex)

1., 2., 8.

D A6113 Partnership and Corporate Governance Case

2., 8.

D A6121 Civil Harassment

2., 3., 9.

D A6123 Workplace Harassment

2., 3., 9.

D A6124 Elder/Dependent Adult Abuse Case

2., 3., 9.

D A6190 Election Contest

2.

D A6110 Petition for Change of Name

2., 7.

D A6170 Petition for Relief from Late Claim Law

2., 3., 4., 8.

D A6100 Other Civil Petition

2., 9.

Claims Involving Mass Tort
(40)

Insurance Coverage Claims
from Complex Case (41)

-C

GI

E Cl)
E

GI

~ "'CII

.e .:;

Enforcement
of Judgment (20)

=0

RICO (27)

Other Complaints
(Not Specified Above) (42)

Partnership Corporation
Governance (21)

"'0 "'0C
=
C

.:I
.J

1ii

C.

GI

~~
:§

a;,

Applicable Reasons Se.e Step 3 Above

D A6115 Petition to Compel/ConfirmNacate Arbitration

Construction Defect (10)

ra

C'

Type of Action
(Check only one)

2., 6.

Writ of Mandate (02)

G)

{\

.,

D A6108 Asset Forfeiture Case

Petition re Arbitration (11)

w

.

.,

8

., .

..

,·,·

Asset Forfeiture (05)

C

CASE NUMBER

Brown v. DoorDash, Inc.
.. ,.

GI

e

u

Other Petitions
(Not Specified Above)
(43)

-..J

~CIV 109 (Rev. 03/11)
LASC Approved 03-04

CIVIL CASE COVER SHEET ADDENDUM
AND STATEMENT OF LOCATION

Local Rule 2.0
Page 3 of 4

337a

SHORT TITLE:

e
CASE NUMBER

Brown v. DoorDash, Inc.

Item Ill. Statement of Location: Enter the address of the accident, party's residence or place of business, performance, or other
circumstance indicated in Item II., Step 3 on Page 1, as the proper reason for filing in the court location you selected.
ADDRESS:

REASON: Check the appropriate boxes for the numbers shown

6201 Hollywood Boulevard

under Column C for the type of action that you have selected for
this case.

C1. 02. 03. C4. 05. 06. C7. 08. 09. C10.
CITY:

STATE:

ZIP CODE:

Los Angeles

CA

90028

Item IV. Declaration of Assignment: I declare under penalty of perjury under the laws of the State of California that the foregoing is true
and correct and that the above-entitled matter is properly filed for assignment to the Stanley Mosk

courthouse in the

District of the Superior Court of California, County of Los Angeles [Code Civ. Proc., § 392 et seq., and Local

Central

Rule 2.0, subds. (b), (c) and (d)].

Dated: July 6, 2018

PLEASE HAVE THE FOLLOWING ITEMS COMPLETED AND READY TO BE FILED IN ORDER TO PROPERLY
COMMENCE YOUR NEW COURT CASE:
1.

Original Complaint or Petition.

2.

If filing a Complaint, a completed Summons form for issuance by the Clerk.

3.

Civil Case Cover Sheet, Judicial Council form CM-01

4.

Civil Case Cover Sheet Addendum and Statement of Location form, LACIV 109, LASC Approved 03-04 (Rev.
03/11 ).

5.

Payment in full of the filing fee, unless fees have been waived.

6.

A signed order appointing the Guardian ad Litem, Judicial Council form CIV-010, if the plaintiff or petitioner is a
minor under 18 years of age will be required by Court in order to issue a summons.

7.

Additional copies of documents to be conformed by the Clerk. Copies of the cover sheet and this addendum
must be served along with the summons and complaint, or other initiating pleading in the case.

LA'c1v 109 (Rev. 03111)
LASC Approved 03-04

o:

CIVIL CASE COVER SHEET ADDENDUM
AND STATEMENT OF LOCATION

Local Rule 2.0
Page 4 of 4

338a

EXHIBIT W

e
'i

Oepl

~

~

~

l

#!J2 Assigrted ~ - - -

6

Arnab Banerjee (SBN 252618)
Arnab.Bane1jee@capstonelawyers.com
Brandon K. Brouillette (SBN 273156)
Brandon. Brou iIlette@capstonelawyers.com
Ruhandy Glezakos (SBN 307473)
Ru handy.Glez<!_kos@capstonelawyers.com
Capstone Law·APC
1875 Century Park East, Suite 1000
Los Angeles, California 90067
Telephone:
(310) 556-4811
Facsimile:
(310) 943-0396

7

Attorneys for Plaintiff Dana Lowe

2
')

.)

4

~

339a

5

8
SUPERIOR COURT OF THE STATE OF CALIFORNIA
9

BY FAX

FOR THE COUNTY OF LOS ANGELES

IO
11
12

DANA LOWE, as an aggrieved employee
pursuant to the Private Attorneys General
Act ("PAGA"),

13
14
15

'-

16
17

Plaintiff,
vs.
DOORDASI-1, INC., a Delaware
corporation; and DOES I through I 0,
inclusive,

Case No.:

BC 7 15 4 2 5

PAGA ENFORCEMENT ACTION

(I)

Claim for Civil Penalties for Violations
of California Labor Code, Pursuant to
PAGA, §§ 2698, et seq.

Jury Trial Demanded

Defendants.

18
19
20
21
22

r

<')

m .....

J:> -,

23

·~M

24

#m

m ::t>
(J)

il

co

25

(")

....-.J
,;..11

(!)

"'-l

-·......

.
"·-,J
··-.

~, .)
~

26

~
~-)

f.Jl

27

.)

<D
!"-~

28

(\'i'

PAG1\ COMPLJ\INT

a:::, c, ,5 c:,

O

.e

e

340a

Plaintiff Dana Lowe, as an aggrieved employee and on behalf of al I other aggrieved

2

employees, alleges as follows:
JURISDICTION AND VENUE

".)
4

Act of 2004, California Labor Code section 2698, el seq. ("PAGA") to recover civil penalties

6

and any other available relief on behalf of Plaintiff, the State of California, and other current

7

and former employees who worked for Defendants in California as a Dasher performing

8

courier services, and against whom one or more violations of any provision in Division 2 Part

9

2 Chapter 1 of the Labor Code or any provision regulating hours and days of work in the

10

applicable Industrial Welfare Commission ("]WC") Wage Order were committed, as set forth

11

in this complaint, at any time between one year prior to the filing of this complaint until

12

judgment ("non-party Aggrieved Employees"). Plaintiffs share of civil penalties sought in

13

this action does not exceed $75,000.

.

2.

This Court has jurisdiction over this action pursuant to the California

15

Constitution, Article VI, section I 0. The statute under which this action is brought does not

16

specify any other basis for jurisdiction.

17

~.":-

This is an enforcement action under the Labor Code Private Attorneys General

5

14

(0
~--J

I.

3.

This Court has jurisdiction over all Defendants because, on information and

18

belief, Defendants are either citizens of California, have sufficient minimum contacts iii

19

California, or otherwise intentionally avail themselves of the California market so as to render

20

the exercise of jurisdiction over them by the California courts consistent with traditional

21

notions of fair play and substantial justice. There is no basis for federal diversity jurisdiction

22

in this act ion given that the State of Ca Iiforn ia, as the rea I party in interest in th is action, is not

23

a "citizen" for purposes of satisfying diversity jurisdiction. Urbino v. Orkin Servs. of Cal.,

24

726 F.3d 11 18, 1123 (9th Cir. Cal.2013). Urbino also holds that civil penalties cannot be

25

aggregated to satisfy the amount in controversy requirement for federal diversity jurisdiction

26

in this action, and that diversity jurisdiction cannot be established when Plaintiffs' share of the

27

civil penalties attributable to violations personally suffe1-ed are less than $75,000. id. at 1122.

~ ..)

·-·-J
~--...l
(I)

""..,.i,.
0::.?

28

4.

Venue is proper in this Court, because Defendants employ persons in this
Page I

PAGA

COMl'l_1\INT

341a

county and employed Plaintiff in this county, and thus a substantial portion of the transactions
2
'l

.)

and occurrences related to this action occurred in this county.
5.

California Labor Code sections 2698 et seq., the "Labor Code Private Attorneys

4

General Act of 2004" ("PAGA"), authorize aggrieved employees to sue as private attorneys

5

general their current or former employers for various civil penalties for violations of various

6

provisions in the California Labor Code.

THE PARTIES

7
8
9

Plaintiff DANA LOWE is a resident of Los Angeles, in Los Angeles County,

California. Defendants employed Plaintiff as a "Dasher" or courier from approximately

10

August 2015 to April or May 2018, performing food delivery and pickups from various Los

11

Angeles-area restaurants, such as Lemonade and Tender Greens. Plaintiff typically worked

12

eight (8) to ten ( I 0) hours or more per day, four (4) to five (5) days or more per week, and

13

approximately 40 hours or more per week. Plaintiff earned a delivery service fee of either $5

14

or $25, as explained further below, plus tips.

15

7.

Defendant DOORDASH, lNC. was and is, upon information and belief, a

16

Delaware corporation, and at all times hereinafter mentioned, an employer whose employees

17

are engaged throughout this county, the State of California, or the various states of the United

18

States of America.

19

8.

Plaintiff is unaware of the true names or capacities of the Defendants sued

20

herein under the fictitious names DOES I through I 0, but will seek leave of this Court to

21

amend the complaint and serve such fictitiously named Defendants once their names and

22

capacities become known.

23

(S)
~ •.,,1

6.

9.

Plaintiff is informed and believes, and thereon alleges, that DOES I through 10

24

are the partners, agents, owners, shareholders, managers, or employees of DOORDASH, INC.

25

at all relevant times.

26

10.

Plaintiff is informed and believes, and thereon alleges, that each and all of the

r-f,,:-1
··,,.J

·~-

27

acts and omissions alleged herein was performed by. or is attributable to, DOORDASH, INC.

~p

28

and/or DOES 1 through 10 (collectively, "Defendants" or "DOORDASH''), each acting as the

r·,.)

(>,O

Page 2
P;\G.'\ (OMPl.1\INT

342a

agent, employee, alter ego, and/or joint venturer of, or working in concert with, each of the
2

other co-Defendants and was acting within the course and scope of such agency, e111ploy111ent,

.)

"t

joint venture, or concerted activity with legal authority to act on the others' behalf. The acts

4

of any and al I Defendants were in accordance with, and represent, the official pol icy of

5

Defendants.

6

11.

At all relevant times, Defendants, and each of them, ratified each and every act
I

7

or omission complained of herein. At all relevant times, Defendants, and each of them, aided

8

and abetted the acts and omissions of each and all the other Defendants in proximately causing

9

the damages herein alleged.

JO

12.

Plaintiff is informed and believes, and thereon alleges, that each of said

11

Defendants is in some manner intentionally, negligently, or otherwise responsible for the acts,

12

omissions, occurrences, and transactions alleged herein.
PAGA REPRESENTATIVE ALLEGATIONS

13
14

13.

Defendants operate an on-demand food/catering delivery service and mobile

15

application ("app") in over 56 markets in more than 600 cities in the United States.

16

Defendants are a Delaware corporation headquartered in San Francisco, California.

17

14.

Defendants launched in 2013 as a mobile application that uses logistics services

18

to offer food delivery from restaurants. Defendants hold themselves out as a technology

19

company providing an on-demand mobile app and website providing food delivery services to

20

various restaurants. However, in reality, Defendants do more than simply offer software for

21

use by restaurants and application users. Rather, Defendants have engaged in an elaborate

22

scheme to create the fa9ade that it does not employ Dashers, or delivery drivers.

23

15.

The reality is, Defendants exert virtually complete control over the working

24

hours and conditions of its Dashers, including Plaintiff and other non-party Aggrieved

25

E111ployees. For example, as detailed further below, Defendants set their schedules; set their

26

pay; require that they undergo an interview process to be hired; require the111 to wear uniforms

27

bearing Defendants' logo \.Vhile performing their deliveries; discipline the111 for Defendants'

28

policy violations, including ter111inating and discharging them from their work; and provide

!~W
··...,J
·~~

/',J
•.,,.)
•r'I':

t•,,-'
.<P

~'*

,.~).;i

Pane 3
PAGA COMPL1\INT

e

e
343a

tools for the performance
of their services, including, but not limited to, lists of items to be
,

2
'l

:,

delivered, delivery routes via a mobile application, and uniforms.

16.

However, Defendants uniformly treat all Dashers as independent contractors in

4

order to circumvent labor laws designed to protect employees, including not providing them

5

with minimum wages and overtime pay.

6

17.

As a result of Defendants' intentional misclassification of Dashers as

7

independent contractors instead of employees, Defendants have denied Plaintiff and other

8

non-party Aggrieved Employees numerous wage-and-hour protections provided by the

9

California Labor Code and the applicable Industrial Welfare Commission ("IWC") Wage

10

Orders including, but not limited to, overtime wages, minimum wages, meal and rest periods,

11

and reimbursement of business-related expenses.

12

18.

Despite Defendants' effo11s to evade California wage-and-hour laws by

13

engaging in an alleged independent contractor scheme, the reality is that Plaintiff and other

14

non-party Aggrieved Employees are, in fact, employees according to the law. As stated,

15

Defendants exercised control over the wages, hours, and working conditions of Plaintiff and

16

other non-party Aggrieved Employees by, among other things: setting the work schedules for

17

Plaintiff and other non-party Aggrieved Employees; negotiating the rates at which Plaintiff

18

and other non-party Aggrieved Employees were paid for performing delivery services, i.e., a

19

flat "service fee"; dictating the order in which Plaintiff and other non-party Aggrieved

20

Employees made deliveries, the time frames in which deliveries were to be made, and/or

21

deciding delivery driving routes on a daily basis; mandating that Plaintiff and other non-party

22

Aggrieved Employees wear uniforms bearing the Defendants' DOORDASH logo while

23

performing deliveries; providing training at Defendants' offices and requiring trial

24

deliveries/catering runs; discouraging Plaintiff and other non-party Aggrieved Employees

25

from working for.other on-demand or online delivery companies, such as Uber and Lyft;

26

disciplining Plaintiff and other non-party Aggrieved Employees or kicking them off jobs if

27

they did not show up on time for deliveries, if customers make complaints about them when

28

Dashers fail to meet certain metrics (such as customer ratings, job acceptance ratings, and

(.:"'.)

"'-..J

--

!'-.)

~-...1

~-

f'..)

G:)
I-...
(.:,0

Page 4
PAGA CoMrLJ\INT

344a

delivery completion ratings), or for missing scheduled shifts, cancelling shifts, or for declining

2

jobs; and maintaining the authority and po~er to discharge or terminate Plaintiff and other

3

non-party Aggrieved Employees from jobs.

4

19.

Thus, Defendants exercised substantial control over Plaintiffs and other non-

5

party Aggrieved Employees' wages, hours, and working conditions. ]ndeed, almost all

6

aspects of Plaintiffs and other non-party Aggrieved Employees' job performance were

7

controlled by Defendants. Defendants knew Plaintiff and other non-party Aggrieved

8

Employees were providing services for Defendants' benefit and knew that Defendants

9

negotiated the rates at which Plaintiff and other non-party Aggrieved Employees were paid-

10
11

i.e., they did not have the opportunity to negotiate the rates paid for various jobs.
20.

Furthermore, Defendants are in the business of delivering food through a

12

mobile on line application. As part of its operation, Defendants offer food delivery services to

13

customers. Plaintiff and other non-party Aggrieved Employees are Defendants' delivery

14

personnel. The work that Plaintiff and other non-party Aggrieved Employees perform, i.e.,

15

delivering food and catering orders to customers, is therefore not a distinct occupation or an

16

incidental or tangential part of Detendants' operations, but rather is central to Defendants.'

17

business. Defendants provide tools, instrumentalities and locations where Plaintiff and other

18

non-party Aggrieved Employees perform their jobs, including, without limitation, the lists of

]9

items to be delivered, delivery routes via a mobile application, and uniforms. Further,

20

Plaintiff and other non-party Aggrieved Employees were not free to set their own hours and

21

days of work. Instead, Defendants determined their schedules and hours of work and required

22

that they report for specific shifts. In addition, Defendants would discipline Plaintiff and

23

other non-party Aggrieved Employees if they were late for deliveries or pickups.

24

Furthermore, Plaintiff and other non-party Aggrieved Employees \Vere not free to decline jobs

25

or refuse the schedule provided to them.

!~;°;'J

'•-~
.......,

26

21.

The job duties Plaintiff and other non-party Aggrieved Employees performed

~c.J
"·~)

-~

.....

27

for Defendants, namely, making deliveries . arc not those typically done by a specialist and

28

require no special skill, higher degree, or special education. As stated, the delivery and pick-

ti-~..J

(:;)

"""
(),9

Page 5

PAGA (OMl'I.AINT

345a

up assignments and schedules were set by Defendants without any input from or consultation

2

with Plaintiff and other non-party Aggrieved Employees. Moreover, the rates paid to Plaintiff

".)

and other non-party Aggrieved Employees constituted the majority of their pay.

4

22.

Based on the work relationship described above and the degree of control

5

Defendants exercised over Plaintiff and other non-party Aggrieved Employees, Plaintiff and

6

other non-party Aggrieved Employees were and/or are Defendants' employees-not

7

independent contractors. Thus, Defendants' conduct constitutes an intentional, willful pattern

8

and/or practice of misclassification. As a result of this conduct, Defendants have violated

9

numerous wage-and-hour provisions, including, but not limited to, failing to pay all gratuities,

10

failing to pay at least minimum wages for all hours worked, failing to pay ove11ime wages for

11

all overtime hours worked, failing to provide meal or rest breaks, unlawfully shifting the costs

12

of doing business to Dashers by failing to provide reimbursement for necessary business-

13

related expenses, and not paying all wages earned and due during employment and upon

14

termination, among other violations.

15

23.

Pursuant to California Labor Code section 3357, Plaintiff and other non-party

16

Aggrieved Employees are entitled to a presumption that they are in fact employees of

17

Defendants. Moreover, the existence of any document purporting to create an independent

18

contractor relationship is not determinative.

19

24.

Defendants employed Plaintiff as a Dasher in the Los Angeles County,

20

California area, but knowingly and willfully misclassified her as an independent contractor

21

and on that basis committed the violations against her as set forth herein.

22
23
24

25.

Defendants continue to employ Dashers, or delivery drivers, throughout

California and continue to misclassify these e111ployees as independent contractors.
26.

Plaintiff is infor111ed and believes, and thereon alleges, that at all times herein

25

mentioned, Defendants were advised by skilled lawyers and other professionals, employees

· ~~

26

and advisors knowledgeable about California labor and wage law, e111ploy111ent and personnel

"'-~

27

practices, and about the requirements of California law.

(;;)

"'-.J
i~~~'

~,,::-

f,.,}

<;;::>
!"'~

28

27.

Plaintiff is informed and believes, and thereon alleges, that Plaintiff and other

(;,-9

Page 6

346a

non-party Aggrieved Employees were not paid for all hours worked because all hours worked

2

were not recorded.

"

28.

.)

Plaintiff is informed and believes, and thereon alleges, that at all times herein

4

mentioned, Defendants knew or should have known that employers are prohibited from

5

sharing in or keeping any portion of a gratuity given to or left for employees by a customer.

6

In violation of the California Labor Code, Defendants deducted from wages due to employees

7

on account of a gratuity and/or required Plaintiff and other non-pa11y Aggrieved Employees to

8

credit the amount of a gratuity against and as a part of the wages due to the employee from the

9

employer.

10

29.

Plaintiff is informed and believes, and thereon alleges, that Defendants knew or

11

should have known that Plaintiff and other non-party Aggrieved Employees were entitled to

12

receive certain wages for overtime compensation and that they were not receiving certain

13

wages for overtime compensation.

14

30.

Plaintiff is informed and believes, and thereon alleges, that Defendants knew or

15

should have known that Plaintiff and other non-party Aggrieved Employees were entitled to

16

be paid at a regular rate of pay, and corresponding overtime rate of pay, that included as

17

eligible income all income derived from incentive pay, nondiscretionary bonuses, and/or other

18

forms of compensation.

19

- 31.

Plaintiff is informed and believes, and thereon alleges, that Defendants knew or

20

should have known that Plaintiff and other non-party Aggrieved Employees were entitled to

21

receive at least min_imum wages for compensation and that they were not receiving at least

22

minimum wages for work that was required to be done off-the-clock. In violation of the

23

California Labor Code, Plaintiff and other non-party Aggrieved Employees were not paid at

24

least minimum wages for work done off-the-clock.

25

32.

Plaintiff is informed and believes, and thereon alleges, that Defendants knew or

(,;)
-..,.i
....r:.g

26

should have known that Plaintiff and other non-party Aggrieved Employees were entitled to

27

meal periods in accordance with the Labor Code or payment of one (I) additiona_l hour of pay

28

at their regular rates of pay when they were not provided with timely, uninterrupted, thirty

~~.,)

-....._J

-,..~
f-,,d
0
~~

.::-s
Page 7
PAGA CoMrLAJNT

e

e

347a

(30) minute meal periods and that Plaintiff and other non-party Aggrieved Employees were
2

not provided with all meal periods or payment of one (I) additional hour of pay at their

3

regular rates of pay when they did not receive a timely, uninterrupted, thirty (30) minute meal

4

period.

5

33.

Plaintiff is informed and believes, and thereon alleges, that Defendants knew or

6

should have known that Plaintiff and other non-pat1y Aggrieved Employees were entitled to

7

rest periods in accordance with the Labor Code and applicable lWC Wage Order or payment

8

of one(]) additional hour of pay at their regular rates of pay when they were not provided

9

with a compliant rest period and that Plaintiff and other non-party Aggrieved Employees were

10

not provided compliant rest periods or payment of one (I) additional hour of pay at their

II

regular rates of pay when they were not provided a compliant rest period.

12

34.

Plaintiff is informed and believes, and thereon alleges, that Defendants knew or

13

should have known that Plaintiff and other non-party Aggrieved Employees were entitled to

14

receive complete and accurate wage statements in accordance with California law. ]n

15

violation of the California Labor Code, Plaintiff and other non-party Aggrieved Employees

16

were not provided complete and accurate wage statements.

17

35.

Plaintiff is informed and believes, and thereon alleges, that Defendants knew or

18

should have known that they had a duty to maintain accurate and complete payroll records,

19

including hours worked, in accordance with the Labor Code and applicable IWC Wage Order,

20

but willfully, knowingly, and intentionally failed to do so.

21

36.

Plaintiff is informed and .believes, and thereon alleges, that Defendants knew or

22

should have known that Plaintiff and other non-party Aggrieved Employees were entitled to

23

timely payment of all wages earned upon termination of employment. In violation of the

24

California Labor Code, Plaintiff and other non-party Aggrieved Employees did not receive

25

payment of all wages due, including, but not limited to, overtime wages, minimum wages, and

26

meal and rest period premiums, within permissible time periods.

ttP
-,,,._J
:"<'"::

f',_,

""..J

-~

27

37.

Plaintiff is informed and believes, and thereon alleges, that Defendants knew or

!"<.J
@
h~

28

should have k1Jown that Plaintiff and other non-party Aggrieved Employees were entitled to

CP

Page 8
PAGA

COMPLAINT

348a

timely payment of wages during their employment. In violation of the California Labor Code,

2

Plaintiff and other non-party Aggrieved Employees did not receive payment of al I wages,

.)

"l

including, but not limited to, overtime wages, minimum wages, and meal and rest period

4

premiums, within permissible time periods.

5

should have known that they were prohibited from requiring Plaintiff and other non-party

7

Aggrieved Employees to execute a release of their claims as a condition to receiving wages

8

due to them. In violation of the California Labor Code, Defendants required Plaintiff and

9

other non-pa11y Aggrieved Employees to execute a release of their claims as a condition to

11

Plaintiff is informed and believes, and thereon alleges, that Defendants knew or

13

previously paid to Plaintiff and other non-party Aggrieved Employees. Tn violation of the

14

California Labor Code, Defendants deducted a portion of Plaintiff's and other non-party

15

Aggrieved Employees' previously-paid wages from their paychecks by withholding gratuities.
40.

Plaintiff is informed and believes, and thereon alleges that Defendants knew or

17

should have known that Plaintiff and other non-party Aggrieved Employees were entitled to

18

payment of wages as designated by statute. In violation of the California Labor Code,

19

Defendants secretly paid Plaintiff and other non-party Aggrieved Employees lower wages that

20

required by statute while purporting to pay them proper wages.
41.

Plaintiff is informed and believes, and thereon alleges, that Defendants knew o·r

22

should have known that they were required to pay Plaintiff and other non-party Aggrieved

23

Employees the statutorily designated wage scale but did not do so.

24

'•,:,,

39.

should have known that they could not lawfully collect or receive any part of wages

21

•r~

receiving wages due to them.

12

16

~.,.;
,.,.,,,1

Plaintiff is informed and believes, and thereon alleges, that Defendants knew or

6

10

.~'f.)
~,.cJ

38.

42.

Plaintiff is informed and believes, and thereon alleges, that at all times herein

25

mentioned, that Defendants knew or should have known that they had a duty to cover the costs

26

and expenses other non-party Aggrieved Employees incurred obtaining mandatory physical

27

examinations and/or drug tests, but willfully, knowingly, and intentionally failed to do so.

!'•d
.i,P

r""

28

43.

Plaintiff is informed and believes, and thereon alleges, that Defendants knew or

~119
Pa"e 9
PAGA COMPLAINT

349a

shou Id have known that Plaintiff and other non-party Aggrieved Employees were entitled to
2
.,

paid sick leave benefits, including three (3) days of paid sick leave, and written notice of paid

.)

sick leave or paid time off available. In violation of the California Labor Code, Defendants

4

did not provide Plaintiff and other non-party Aggrieved Employees with sufficient paid sick

5

leave benefits and written notice of paid sick leave or paid time off avai Iable, with in

6

permissible time periods.

7

44.

Plaintiff is informed and believes, and thereon alleges, that Defendants knew or

8

should have known that Plaintiff and other non-party Aggrieved Employees were entitled to

9

one day's rest in seven. In violation of the California Labor Code, Defendants required

10

Plaintiff and other non-party Aggrieved Employees to work more than six consecutive days

11

without a day of rest, where the total hours worked exceeded 30 hours in any week or six

12

hours in.any one day thereof.

13

45.

Plaintiff is informed and believes, and thereon alleges that Defendants knew or

14

should have known that Plaintiff and other non-party Aggrieved Employees were entitled to

15

receive reimbursement for all business-related expenses and costs they incurred during the

16

course and scope of their employment, and that they did not receive reimbursement of

17

applicable business-related expenses and costs they incurred.

18

46.

Plaintiff is informed and believes, and thereon alleges, that at all times herein

19

mentioned, Defendants knew or should have known that they had a duty to provide Plaintiff

20

and other non-party Aggrieved Employees with written notice of the material terms of their

21

employment with Defendants as required by the California Wage Theft Prevention Act, but

22

willfully, knowingly, and intentionally failed to do so.

23

47.

Plaintiff is informed and believes, and thereon alleges, that at all times herein

24

mentioned, Defendants knew or should have known that they had a duty to compensate

25

Plaintiff and other non-party Aggrieved Employees for all hours worked, and that Defendants

26

had the financial ability to pay such compensation, but willfully, knowingly, and intentionally

27

failed to do so, and falsely represented to Plaintiff and other non-party Aggrieved Employees

28

that they were properly denied wages, all in order to increase Defendants' profits.

1;~
:-,,,,.J

.

•rt:')'
~

.;

r>r,~

.
~p
•:p

~ .)

I-""'
I~~~

Paue 10

PAGA COMPL,\INT

350a

48.
2
,.,

At all times herein set forth, PAGA provides that any provision of law under

the Labor Code and applicable IWC Wage Order that provides for a civil penalty to be

.)

assessed and collected by the L WDA for violations of the California Labor Code and

4

applicable !WC Wage Order may, as an alternative, be recovered by aggrieved employees in a

5

civi I action brought on behalf of themselves and other current or former employees pursuant

6

to procedures outlined in California Labor Code section 2699,3.

7

49.

PAGA defines an "aggrieved employee" in Labor Code section 2699(c) as "any

8

person who was employed by the alleged violator and against whom one or· more of the

9

alleged violations was committed."

10

50.

Plaintiff and other current and former employees of Defendants are "aggrieved

11

employees" as defined by Labor Code section 2699(c) in that they are all Defendants' current

12

or former employees and one or more of the alleged violations were committed against them.

13

51.

Pursuant to California Labor Code sections 2699.3 and 2699.5, an aggrieved

14

employee, including Plaintiff, may pursue a civil action arising under PAGA after the

15

following requirements have been met:

16

(a)

The aggrieved employee or representative shall give written notice by

17

online filing with the LWDA and by certified mail to the employer of

18

the specific provisions of the California Labor Code alleged to have

19

been violated, including the facts and theories to support the alleged

20

violation.

21

(b)

An aggrieved employee's notice filed with the LWDA pursuant to

22

2699.3(a) and any employer response to that notice shall be

23

accompanied by a filing fee of seventy-five dollars ($75).

24

(c)

The LWDA shall notify the employer and the aggrieved employee or

25

representative by certified mail that it does not intend to investigate the

26

alleged violation ("LWDA 's Notice") within sixty (60) calendar days of

·~

27

the postmark date of the aggrieved employee's notice. Upon receipt of

~""'

28

the L WDA Notice, or if no LWDA Notice is provided within sixty-five

~!;)
-..,J
~~

,..,,,.,
,-,,.i

f',,,}

.,~
.~·)f;l

Page 11
PAGA COMPL1\INT

e
351a

(65) calendar days of the postmark date of the aggrieved employee's
2

notice, the aggrieved employee may commence a civil action pursuant

')

to California Labor Code section 2699 to recover civil penalties.

.)

52.

4

Pursuant to California Labor Code sections 2699.3(c), aggrieved employees,

5

through Plaintiff, may pursue a civil action arising under PAGA for violations of any

6

provision other than those listed in Section 2699.5 after the following requirements have been

7

met:
(a)

8

online filing with the LWDA and by certified mail to the employer of

9

IO

the specific provisions of the California Labor Code alleged to have

11

been violated (other than those listed in Section 2699.5), including the

12

facts and theories to support the alleged violation.

(b)

13

An aggrieved employee's notice filed with the L WDA pursuant to

14

2699.3(c) and any employer response to that notice shall be

15

accompanied by a filing fee of seventy-five dollars ($75).
(c)

16

The employer may cure the alleged violation within thirty-three (33)

17

calendar days of the postmark date of the notice sent by the aggrieved

18

employee or representative. The employer shall give written notice

19

within that period of time by certified mail to the aggrieved employee or

20

representative and by on line filing with the LWDA if the alleged

21

violation is cured, including a description of actions taken, and no civil

22

action pursuant to Section 2699 may commence. If the alleged violation

23

is not cured within the 33-day period, the aggrieved employee may

24

commence a civi I action pursuant to Section 2699.

25
~;::)
~,. ~

The aggrieved employee or representative shall give written notice by

53.

On May 21, 2018, Plaintiff provided w1·itten notice by on line filing to the

26

LWDA and by Certified Mail to Detenclants of the specific provisions of the California Labor

27

Code alleged to have been violated, including facts and theories to support the alleged

28

violations, in accordance with California Labor Code section 2699.3. Plaintiffs written

r,.J
~,-..J
!"~,,)

(:0

r·~
~:~:;i

Page 12
PAGA COMl'i.;\INT

e

352a

notice was accompanied with the applicable filing fee of seventy-five dollars ($75). The
2
...,

LWDA PAGA Administrator confirmed receipt of Plaintiff's written notices and assigned

.)

Plaintiff PAGA Case Number LWDA-CM-539580-18. A true and correct copy of Plaintiffs

4

written notices to the L WDA and Defendants dated May 21, 2018, are attached hereto as

5

"Exhibit I."
54.

6

On July 20, 2018, Plaintiff sent an amended written notice by on line filing to

7

the LWDA and by certified mail to Defendants of the specific provisions of the California

8

Labor Code alleged to have been violated, supplementing and clarifying the facts and theories

9

co support the alleged violations set forth in her original LWDA notice, in accordance with

10

California Labor Code section 2699:3. A true and correct copy of Plaintiff's amended written

II

notice to the LWDA and Defendants dated July 20, 2018, is attached hereto as "Exhibit 2."
55.

12

As of the filing date of this compiaint, over 65 days have passed since Plaintiff

13

sent her initial notices described above to the L WDA, and the L WDA has not responded that

14

it intends to investigate Plaintiffs claims and Defendants have not cured the violations.

15

56.

Thus, Plaintiff has satisfied the administrative prerequisites under California

16

Labor Code section 2699.3(a) and 2699.3(c) to recover civil penalties against Defendants for

17

violations of California Labor Code sections 20 I, 202, 203, 204, 206.5, 221, 222.5, 223, 224,

18

226(a), 226.7, 226.8, 246,351,510, 512(a), 551,552, I 174(d), 1182.12, 1194, 1197, 1197.1,

19

I 198, 2802, and 2810.5.
57.

20

Defendants, at all times relevant to this complaint, were employers or persons

21

acting on behalf of an employer(s) who violated Plaintiffs and other non-party Aggrieved

22

Employees' rights by violating various sections of the California Labor Code as set forth

)">
_.)

above.
58.

24

As set forth below, Defendants have violated numerous provisions of both the

25

Labor Code sections regulating hours and days of work as well as the applicable IWC Wage

26

Order.

(;)

~-J
••'°:"

.

~

.,)

-~,J

27

59.

Pursuant to PAGA, and in particular. California Labor Code sections 2699(a),

r·,-'

(µ

'"'""
<;~;:;i

28

2699.3(a), 2699.3(c), and 2699.5, Plaintiff, acting in the public interest as a private attorney
Page 13
PAG;\ (OMPL\INT

•

e
353a

general, seeks assessment and collection of civil penalties for herself, all other non-party
2

,.,

.)

California Labor Code sections 20 I, 202, 203, 204, 206.5, 221, 222.5, 223, 224, 226(a), 226.7,

4

226.8, 246, 351,510, 5 l 2(a), 551, 552, l 174(d), 1182.12, 1194, 1197, 1197.1, 1198, 2802,

5

and 2810.5.

6

FIRST CAUSE OF ACTION

7

For Civil Penalties Pursuant to California Labor Code §§ 2698, et seq.

8

(Against all Defendants)

9
10
11

61.

California Labor Code§§ 2698, et seq. ("PAGA") permits Plaintiff to recover

section 2699.5. Section 2699.5 enumerates Labor Code sections 201, 202, 203, 204, 206.5,

14

221, 222.5, 223, 224, 226(a), 226.7, 351,510, 5 I 2(a), 551, 552, 1 I 74(d), 1194, 1197, 1197.1,

15

1198, and 2802. Labor Code section 2699.3(c) permits aggrieved employees, including

16

Plaintiff, to recover civil penalties for violations of those Labor Code sections not found in

17

section 2699.5, including section 226.8, 246, 1182.12, and 2810.5.
62.

Defendants' conduct, as alleged herein, violates numerous sections of the

California Labor Code, including, but not limited to, the following:
(a)

· Violation of Labor Code 226.8 for Defendants' improper classification

21

of Plaintiff and other non-party Aggrieved Employees as "independent

22

contractors" rather than employees as set forth below;

23

"--J

and every allegation set forth above.

13

20

........
~-_;,

Plaintiff incorporates by reference and re-alleges as if fully stated herein each

civil penalties for the violation(s) of the Labor Code sections enumerated in Labor Code

19

~..J

60.

12

18

a:,

Aggrieved Employees, and the State of California against Defendants for violations of

(b)

Violation of Labor Code section 351 for collecting and/or withholding

24

gratuities intended for Plaintiff and other non-party Aggrieved

25

Employees as set forth below;

26

(c)

Violation of Labor Code sections 510, 1198, and the applicable lWC

~-

27

wage order for Defendants' failure to compensate Plaintiff and other

a::•

28

non-party Aggrieved Employees with all required overtime pay and

~._;,
J--'·
(';O

Pane 14
PAGA COMPLAINT

•

354a

failure to properly calculate the overtime rates paid to Plaintiff and other
non-party Aggrieved Employees as set forth below;

2
.,
-'

(d)

4

and the applicable !WC wage order for Defendants' failure to

5

compensate Plaintiff and other non-party Aggrieved Employees with at

6

least minimum wages for all hours worked as set forth below;

7

(e)

!WC wage order for Defendants' failure to provide Plaintiff and other

9

non-party Aggrieved Employees with meal and/or rest periods, as set

11

forth below;

(t)

Violation of Labor <;::ode sections 226(a), I 198, and the applicable !WC

12

wage order for failure to provide accurate and complete wage statements

13

to Plaintiff and other non-party Aggrieved Employees, as set forth

14

below;

15

(g)

Violations of Labor Code sections I I 74(d), 1198, and the applicable

16

IWC wage order for failure to maintain payroll records as set forth

17

below;

18

(h)

20

(i)

21
22

Violation of Labor Code section 204 for failure to pay all earned wages
during employment as set forth below;

19

~-..J

Violation of Labor Code sections 226.7, 512, 1198, and the applicable

8

10

·cs,

Violation of Labor Code sections 1182.12. 1194, 1197, 1197.1, 1198,

Violation of Labor Code sections 20 I, 202, and 203 for failure to pay all
earned wages upon termination as set forth below;

G)

Violation of Labor Code section 206.5 for requiring Plaintiff and other

23

non-party Aggrieved Employees to execute a release of claims as a

24

condition to receiving wages due to them;

25

(k)

Violation of Labor Code sections 221 and 224 for unlawfully deducting

26

a portion of wages previously paid to Plaintiff and other non-party

·-

27

Aggrieved Employees, as set forth below;

<D
......

28

~-·~·,
-..J

~--"

(I)

Violation of Labor Code section 222.5 for failure to compensate other

co
Page 15
PAGA

COMPLAINT

355a

non-party Aggrieved Employees for mandatory physical examinations
2

and/or drug testing as set forth below;

....

(rn)

.)

4

other non-party Aggrieved Employees lower wages than required by

5

statute while purporting to pay the proper wages, as set forth below;

(n)

6

leave benefits and failure to provide written notice of paid sick leave

8

available, or paid time off, as set forth below;

(o)

day's rest in seven to Plaintiff and other non-party Aggrieved

11

Employees as set forth below;

(p)

and other non-party Aggrieved Employees for all business expenses

14

necessarily incurred, as set forth below; and

.•r,.:,,

!'.)
~P.
I"...

(q)

Violation of Labor Code section 2810.5(a)( I)(A)-(C) for failure to

16

provide written notice of information material to Plaintiffs and other

17

non-party Aggrieved Employees 1 employment with Defendants, as set

18

forth below.

19

MISCLASSIFICATION AS INDEPENDENT CONTRACTORS

20

VIOLATION OF LABOR CODE SECTION 226.8

21

·~~

Violation of Labor Code section 2802 for failure to reimburse Plaintiff

13

15

f',.,.I
::,,·,.~

Violation of Labor Code sections 551 and 552 for failure to provide one

10

12

~.,,.)

Violations of Labor Code section 246 for failure to provide paid sick

7

9

(P.

Violation of Labor Code section 223 for secretly paying Plaintiff and

63.

At all times relevant herein set forth, California Labor Code section 226.8

22

makes it illegal to willfully misclassify an employee as an independent contractor, providing:

23

"[i]t is unlawful for any person or employer to engage in any of the following activities: (I)

24

Willful misclassification of an individual as an independent contractor. (2) Charging an

25

individual who has been willfully misclassified as an independent contractor a fee, or making

26

any deductions from compensation, for any purpose, including for goods, materials, space

27

n:ntal, services, government licenses, repairs, equipment maintenance, or tines arising from

28

the individual's employment where any of the acts described in this paragraph would have

q,;:i

Paoe 16
PAGA COMPLAINT

e
356a

violated the law if the individual had not been misclassified."
2
.,

Workforce Development Agency or a court issues a determination that a person or employer

4

has engaged in any of the enu111erated violations of subdivision (a), the person or e111ployer

5

shall be subject to a civil penalty of not less than five thousand dollars ($5,000) and not more

6

than fifteen thousand dollars ($15,000) for each violation, in addition to any other penalties or

7

fines permitted by law."

9

65.

Moreover, California Labor Code section 226.8(c) provides "[i]f the Labor and

Workforce Development Agency or a court issues a determination that a person or e111ployer

10

has engaged in any of the enumerated violations of subdivision (a) and the person or employer

11

has engaged in or is engaging in a pattern or practice of these violations, the person or

12

e111ployer shall be subject to a civil penalty of not less than ten thousand dollars ($10,000) and

13

not 111ore than twenty-five thousand dollars ($25,000) for each violation, in addition to any

14

other penalties or fines permitted by law."

15

·~...,

California Labor Code section 226.8(b) further provides that "[i]f the Labor and

.)

8

'~~
~,"14

64.

66.

_California Labor Code section 226.8(e) also provides "[i]f the Labor and

16

Workforce Development Agency or a court issues a deter111ination that a person or e111ployer

17

has violated subdivision (a), the agency or court, in addition to any other remedy that has been

18

ordered, shall order the person or employer to display prominently on its Internet Web site, in

19

an area which is accessible to all employees and the general public, or, if the person or

20

employer does not have an Internet Web site, to display prominently in an area that is

21

accessible to all e111ployees and the general public at each location where a violation of

22

subdivision (a) occurred, a notice that sets forth all of the following: (I) That the Labor and

23

Workforce Development Agency or a court, as applicable, has found that the person or

24

employer has committed a serious violation of the law by engaging in the willful

25

misclassification of employees. (2) That the person or employer has changed its business

26

practices in order to avoid co111mitting further violations of this section. (3) That any

27

employee who believes that he or she is being misclassified as an independent contractor may

28

contact the Labor and Workforce Development Agency. The notice shall include the mailing

~

,,,.,J
"r,::,

I',..)

~t:i
r~~

~~r;,

Paue 17
PAGA COMPL,\INT

357a

address, e-mail address, and telephone number of the agency. (4) That the notice is being
2
...,
.)

posted pursuant to a state order.
67.

California Labor Code section 226.S(f) further provides "[i]n addition to

4

including the information specified in subdivision (e), a person or employer also shall satisfy

5

the following requirements in preparing the notice: (I) An officer shall sign the notice. (2) lt

6

shall post the notice for one year commencing with the date of the final decision and order."

7

68.

During the relevant time period, Defendants knew that Plaintiff and other non-

8

party Aggrieved Employees were employees under the law, yet still classified them as

9

independent contractors .. Defendants' conduct as described herein amounts to a pattern a

10

willful pattern and practice, throughout all of the time period applicable in this complaint, of

11

unlawful misclassification in violation of California Labor Code section 226.8.

12

69.

Plaintiff and other non-party Aggrieved Employees are therefore entitled to

13

recover civil penalties pursuant to Labor Code sections 226.8 and/or 2699(f)-(g).

14

COLLECTING OR RECEIVING GRATUITY PAID TO EMPLOYEES BY PATRONS

15

VIOLATION OF LABOR CODE SECTION 351

16

70.

At all times relevant herein, California Labor Code section 351 provides that no

17

employer shall collect, take, or receive any gratuity that is paid, given to, or left for an

18

employee by a patron. Further, California Labor Code section 351 states that no employer

19

shall deduct any amount from wages due to an employee on account of a gratuity, nor shall an

20

employer require an employee to credit the amount, or any part thereof, of a gratuity against

21

and as a part of the wages due the employee from the employer. Gratuity is deemed to be the

22

sole property of the employee or employees to whom.they are paid, given, or left for.

23

71.

During the relevant period, Defendants required Plaintiff and other non-party

24

Aggrieved Employees to turn over gratuities paid to them by deducting gratuities from wages

25

due to Plaintiff and other non-party Aggrieved Employees. Alternatively, Defendants

26

effectively required Plaintiff and other non-party Aggrieved Employees to credit the amount

27

of gratuity against and as part of the wages due to them from Defendants.

(P
~,.J

"~)
..:i,"!:

•,c,J
•'r"/'

~..)

i;~;::,
~

28

72.

Defendants collected these gratuities paid to Plaintiff and other non-party

rs:ia
Paue 18
Pf\Gf\ COMl'l.1\INT

358a

Aggrieved Employees and withheld them from Plaintiffs and other non-party Aggrieved
2
,..,
.)

employees to $5 per delivery, when the gratuity given by a customer was $25 or more.

4

Defendants created such a scheme by re-attributing part of the delivery fee, which were wages

5

to be paid to Plaintiff and other non-party Aggrieved Employees, to be covered by the

6

gratuities from customers, thus reducing Plaintiffs and other non-party Aggrieved

7

Employees' wages on account of g~atuities and/or crediting gratuities earned against the

8

wages Defendants owed Plaintiff and other non-party Aggrieved Employees.

9

·~

For example, if Defendants assigned Plaintiff a catering order and the customer

provided a $25 tip, instead of paying Plaintiff $50 ($25 service fee and $25 tip), Plaintiff

11

would only receive $30 under this scheme (a reduced $5 flat service fee for delivery and $25

12

in tips). However, in this scenario, Plaintiff should have received $50 for the same delivery

13

(full $25 tip and the full $25 service charge). Under this payment scheme, if no tip is

14

provided, a "Dasher" will receive the total $25 service fee; and if a $75 tip is given, then the

15

Dasher will only receive $80 (instead of $100), which includes the reduced $5 delivery service

16

fee. Defendants have deducted the gratuity from Plaintiffs and other non-party Aggrieved

17

Employees' wages and/or required them to credit the amount of the gratuity against the wages

18

Defendants owed to Plaintiff and other non-party Aggrieved Employees.
74.

On information and belief, Defendants implemented this new payment policy

20

unilaterally when it realized how much Plaintiff and other non-party Aggrieved Employees

21

were making per job previously, depending on gratuities paid.

22

~,~J

73.

10

19

r;~

Employees' wages by reducing the $25 per delivery "service fee" paid to aggrieved

75.

Upon information and belief, the gratuities listed in paychecks did not include

23

all gratuities paid to Plaintiff and other non-party Aggrieved Employees, because a portion of

24

the gratuities were retained by Defendants. As a result, Defendants violated California Labor

25

Code section 35 l.

26

76.

Plaintiff and other non-party Aggrieved Employees are therefore entitled to

~-,,,)

:,, ~.""
•r":'

27

recover civil penalties pursuant to Labor Code sections 2699(t) and (g).

~.,,,)

i;:s;.,
r""'
I!':~':;;)

28

FAILURE TO PAY OVERTIME
Paue 19

PAGA COMPLAINT

359a

VIOLATION OF LABOR CODE SECTIONS 510 AND 1198

2
,.,

77.

Labor Code section 1198 makes it illegal to employ an employee under

.)

conditions of labor that are prohibited by the applicable wage order. California Labor Code

4

section 1198 requires that" ... the standard conditions of labor fixed by the commission shall

5

be the ... standard conditions of labor for employees. The employment of any employee ...

6

under conditions of labor prohibited by the order is unlawful."

7

78.

California Labor Code section 1198 and the applicable IWC Wage Order

8

provide that it is unlawful to employ persons without compensating them at a rate of pay

9

either time-and-one-half or two-times that person's regular rate of pay, depending on the

10
11

number of hours worked by the person on a daily or weekly basis.
79.

Specifically, the applicable JWC Wage Order provides that Defendants are and

12

were required to pay Plaintiff and other non-party Aggrieved Employees working more than

13

eight (8) hours in a day or more than forty (40) hours in a workweek, at the rate of time and

14

one-half (I Yi) for all hours worked in excess of eight (8) hours in a day or more than forty (40)

15

hours in a workweek.

16

80.

The applicable IWC Wage Order further provides that Defendants are and were

17

required to pay Plaintiff and other non-party Aggrieved Employees working more than twelve

18

(12) hours in a day, overtime compensation at a rate of two (2) times their regular rate of pay.

19

An employee's regular rate of pay includes all remuneration for employment paid to, or on

20

behalf of, the employee, including non-discretionary bonuses and incentive pay.

21

81.

California Labor Code section 510 codifies the right to overtime compensation

22

at one and one-half (I Yi) times the regular rate of pay for hours worked in excess of eight (8)

23

hours in a day or forty (40) hours in a week or for the first eight (8) hours worked on the

24

seventh (7th) day of\.vork, and to overtime compensation at twice the employee's regular rate

25

of pay for hours worked in excess of twelve ( 12) hours in a day or in excess of eight (8) hours

26

in a day on the seventh (7th) day of work.

(D
~,.,.J

....~

~-.J
~-.,.J

....
~-.)'
~·~

(;;)

r:-,,:,.

27
28

82.

During the relevant time period, Defendants willfully failed to pay all overtime

wages owed to Plaintiff and other non-party Aggrieved Employees. During the relevant time

~~~

Page 20
PAGA COMPLAINT

360a

period, Plaintiff and other non-party Aggrieved Employees were not paid overtime premiums
2
...,

for all of the hours they worked in excess of eight (8) h_ours in a day, in excess of twelve ( 12)

.)

hours in a d<1y, and/or in excess of forty (40) hours in a week, because Defendants wrongfully

4

misclassified Plaintiff and other_non-party Aggrieved Employees as independent contractors

5

and treated them as "exempt" from overtime and, on that basis, did not record and compensate

6

them for overtime hours worked.

7

83.

Defendants' misclassification of Plaintiff and other non-party Aggrieved

8

Employees as independent contractors and "exempt" status from overtime and other related

9

wage-and-hour protections, including meal and rest periods, is, and was, wilful, intentional,

10

unjustified, and unlawful. Plaintiff and other non-party Aggrieved Employees worked forty

11

(40) hours or more per week and more than ten (10) hours per day, of which Defendants were

12

fully aware. However, because Defendants misclassified Plaintiff and other non-party

13

Aggrieved Employees as independent contractors, Defendants did not record their actual hours

14

worked and did not pay any hourly rate to them. Thus, Defendants willfully failed to pay all

15

overtime wages for hours worked in excess of eight (8) hours in one day, twelve (12) hours in

16

one day, or forty (40) hours in one week. Because Plaintiff and other non-party Aggrieved

17

Employees worked shifts exceeding eight (8) hours per day or forty (40) hours a week or

18

more, this time qualified for overtime pay, but Defendants failed to pay Plaintiff and other

19

non-party Aggrieved Employees for this time worked.

20

84.

Defendants also failed to provide Plaintiff and other non-party Aggrieved

21

Employees with meal periods and instead required that they perform work during unpaid meal

22

periods. Because Plaintiff and other non-party Aggrieved Employees typically worked shifts

23

of eight (8) hours a day or more or forty (40) hours a week or more, most, if not all unpaid

24

time worked during meal periods qualified for overtime premium pay. Therefore, Plaintiff

25

and other non-party Aggrieved Employees were not paid overtime wages for all of the

··-. ..,

26

overtime hours they worked. Defendants' failure to pay Plaintiff and other non-party

"'.,,i

27

Aggrieved Employees the balance of overtime compensation, as required by California law,

28

violates the provisions of California Labor Code sections 510 and 1198.

,;;;;i
r.'T.J
~

~..,
..;.,,.,

co
h~

(if,?

Page 21
PAGA COMPLAINT

361a

85.
2
...,

Employees the correct overtime rate for the recorded overtime hours that they generated. ln

.)

addition to an hourly wage, Defendants paid Plaintiff and other non-pa11y Aggrieved

4

Employees incentive pay, nondiscretionary bonuses, and/or other forms ofremuneration. For

5

example, on information and belief, Plaintiff and other non-party Aggrieved Employees were

6

entitled to bonus payments of $4.50 per delivery for working during certain hours. However,

7

in violation of the California Labor Code, Defendants failed to incorporate all remunerations,

8

including incentive pay, nondiscretionary bonuses, and/or other forms of remuneration, into

9

the calculation of the regular rate of pay for purposes of calculating the overtime wage rate.

IO

Therefore, during times when Plaintiff and other non-pa11y Aggrieved Employees worked

II

overtime and received these other forms of pay, Defendants failed to pay all overtime wages

12

by paying a lower overtime rate than required.

13

86.

Defendants' failure to pay Plaintiff and other non-party Aggrieved Employees

14

the balance of overtime compensation and failure to include all applicable remuneration in

15

calculating the regular rate ·of pay for overtime pay, as required by California law, violates the

16

provisions of California Labor Code sections 510 and I 198. Plaintiff and other non-party

17

Aggrieved Employees -are entitled to recover civil penalties pursuant to Labor Code sections

18

I 194 and/or 2699(a), (f)-(g).

19

FAILURE TO PAY MINIMUM WAGES

20

VIOLATION OF LABOR CODE SECTIONS 1182.12, 1194, 1197, 1197.1, AND 1198

21

(P

Furthermore, Defendants did not pay Plaintiff and other non-party Aggrieved

87.

At all relevant times, California Labor Code sections 1182.12, I 194, 1197,

22

1197.1, and 1198 provide that the minimum wage for employees fixed by the IWC is the

23

minimum wage to be paid to employees, and the payment of a wage less tha1i the minimum so

24

fixed is unlawful. Compensable work time is defined in Wage Order No. 4 as "the time

25

during which an employee is subject to the control of an employer, and includes all the time

26

the employee is suffered or permitted to work, whether or not required to do so." Cal. Code.

27

Regs. tit. 8, § 11040(2)(G) (defining "Hours Worked").

",,,j
..,.,:'!:

f,.)
-....,.J

...

~~

~'e'.;:?~'
~

28

88.

As stated, due to Defendants' uniform and company-wide, willful

Q;>

Page 22
PAGA COMPLAINT

362a

misclassification of Dashers, Plaintiff and other non-party Aggrieved Employees were not
2
.,
.)

Employees were misclassified as independent contractors and thus not paid any hourly wage .

4

Plaintiff and other non-party Aggrieved Employees were not paid even minimum wage for all

5

of the hours they \VOrked as a result of being paid on a fixed rate basis (a per delivery "service

6

charge"). Plaintiff and other non-party Aggrieved Employees were not paid the minimum

7

wage for all hours that they worked, and the wages paid to them were not sufficient to

8

compensate them for all hours they worked at a minimum wage rate on a cumulative basis, in

9

violation of California Labor Code sections 1182.12, 1194, 1197, and 1197.1.

10

~,.,J
~"':,'I

89.

Additionally, Defendants have no policies in place for the provision of meal

11

periods and did not authorize and permit Plaintiff and other non-party Aggrieved Employees

12

to take uninterrupted, duty-free meal periods. To the extent Defendants deducted time for

13

meal periods which Plaintiff and other non-party Aggrieved Employees did not receive, they

14

were not paid for all hours worked.

15

i:P

paid minimum wages for all hours worked. As stated, Plaintiff and other non-party Aggrieved

90.

During the relevant time period, Defendants. also maintained and implemented

16

a company-wide policy of requiring all newly-hired employees to undergo a mandatory drug

17

test and/or physical examination as a condition of employment. At all times, upon

18

information and belie( Defendants were in control of scheduling the date and time for the test

19

and examination, selecting the provider/facility where the test and examination was to take

20

place, and determining the scope of the test and examination. Defendants gave other non-

21

party Aggrieved Employees strict instructions to obtain a drug test and/or physical

22

examination as a condition of their employment and other non-party Aggrieved Employees

23

·underwent the testing and/or examination for the sole benefit of Defendants. However,

24

Defendants did not compensate other non-party Aggrieved Employees for the time they spent

25

traveling to and from the medical facility or for the time they spent undergoing the drug test or

26

physical examination.

f',.,?
~·~~J

·,~.1

27

·~~

28

r.~)

~""'

91.

Thus, Defendants did not pay at least

111 in i111 um

wages for off-the-clock hours

that qualified for overtime premium payment. Also, to the extent that these hours worked did

1').Q

Pane 23
PAGA COMPLAINT

363a

not qualify for overtime premium payment, Defendants did ·not pay at least minimum wages
2
,.,

for those hours worked, in violation of California Labor Code sections 1 182.12, 1194, 1197,
t

.)

1197.1, and 1198.

4

92.

5

minimum wages violates California Labor Code sections 1182.12, 1194, 1197, 1197.1, and

6

1198. Plaintiff and other non-party Aggrieved Employees are therefore entitled to recover

7

civil penalties pursuant to sections 1197. I and/or 2699(a), (t), and (g).

8

FAILURE TO PROVIDE AND RECORD MEAL PERIODS

9

VIOLATION OF LABOR CODE SECTIONS 226.7, 512(a), AND 1198

93.

10

California Labor Code sections 226.7, 5 l 2(a), and 1198 were applicable to Plaintiff and non-

12

party Aggrieved Employees' employment by Defendants.
94.

provides that an employer may not require, cause, or permit an employee to work for a period

15

of more than five (5) hours per day without providing the employee \Vith a meal period of not

16

less than thirty (30) minutes, except that if the total work period per day of the employee is

17

not more than six (6) hours, the meal period may be waived by mutual consent of both the

18

employer and the employee. Under California law, first meal periods must start after no more

19

than five hours. Brinker Rest. Corp. v. Superior Court, 53 Cal. 4th I 004, I 041-1 042 (Cal.

20

2012).
95.

At all relevant times herein set forth, California Labor Code section 226.7 and

22

5 l 2(a) provide that no employer shall require an employee to work during any meal period

23

mandated by an applicable order of the IWC.

24

~r~

At all relevant times herein set forth, California Labor Code section 5 l 2(a)

14

21

"',,j

At all relevant times herein set forth, the applicable lWC Wage Order(s) and

11

13

i:;;p

Defendants' failure to pay Plaintiff and other non-party Aggrieved Employees

96.

At all relevant times herein set forth, Labor Code sections 226.7 and 5 I 2(a) and

25

the applicable IWC Wage Order also require employers to provide a second meal break of not

26

less than thirty (30)

27

employee one (I) additional hour of pay at the employee's regular rate, except that if the total

28

hours worked is no more than twelve ( 12) hours, the second meal period may be waived by

111 inutes

if an employee works over ten ( I 0) hours per day or to pay an

f·i-,,.)
::.,.~
~·~

f'..,,)

~p

~""'
~~

Paue 24
PAGA COMPLAINT

364a

· mutual consent of the employer and the employee only if the first meal period was not waived.

2
,.,

Plaintiff and other non-party Aggrieved Employees to work during meal periods and failed to

4

compensate them for work performed during meal periods. Defendants systematically (and

5

improperly) classified Plaintiff and other non-party Aggrieved Employees as independent

6

contractors and, on that basis, never informed them they could take meal periods nor took any

7

measures to relieve them of all of their duties such that Plaintiff and other non-party

8

Aggrieved Employees could take compliant meal periods. Instead, Defendants scheduled

9

deliveries and required Plaintiff and other non-party Aggrieved Employees to work

10

throughout their entire shifts (over five (5) hours and/or over ten ( I 0) hours), which prevented

II

Plaintiff and other non-party Aggrieved Employees from taking compliant meal periods.
98.

Due to the systemic misclassification, Plaintiff and other non-party Aggrieved

13

Employees had to work through some or all of their meal periods, have their meal periods

14

interrupted to return to work, and/or wait extended periods of time before taking meal periods.

15

Further, Defendants knew, or should have known, that because it had misclassified Plaintiff

16

and other non-party Aggrieved Employees as "exempt" and for the reasons stated above, it did

17

not pay Plaintiff and other non-party Aggrieved Employees meal period premium wages when

18

meal periods were missed, interrupted, or taken late.

19

~,••J
'•,:,,,

During the relevant time period, as stated, Defendants willfully required

.)

12

~t)

97.

99.

Moreover, Defendants have engaged in a systematic, company-wide policy of

20

not paying meal period premiums when compliant meal periods are not provided.

21

Alternatively, to the extent that Defendants did pay Plaintiff and other non-party Aggrieved

22

Employees one (I) additional hour of premium pay for missed meal periods, Defendants did

23

not pay Plaintiff and other non-party Aggrieved Employees at the correct rate of pay for

24

premium wages because Defendants systematically failed to include all forms of

25

compensation, such as incentive pay, nondiscretionary bonuses, and/or other forms of

26

remuneration, in the regular rate of pay. As a result, to the extent Defendants paid Plaintiff

27

and other non-party Aggrieved Employees premium pay for missed meal periods, it did so at a

28

lower rate than required by law.

~e,,)

,.;,_J
·~-:.-

r,~'
(;)

r~·
(;:;f'.J

Page 25

PAGi\

CO,\.ll'l.1\INT

365a

100.
2

.,

.)

Employees compliant meal periods and failed to pay the full meal period premiums due.
10 I.

Defendants' conduct violates the applicable IWC Wage Order, and California

4

Labor Code sections 226.7, 5 I 2(a), and 1198. Plaintiff and other non-party Aggrieved

5

Employees are entitled to recover civil penalties pursuant to sections 2699(a), (f), and (g).

6

FAILURE TO PROVIDE REST PERIODS

7

VIOLATION OF LABOR CODE SECTIONS 226.7 AND 1198

8
9
10
11

102.

At all relevant times herein set forth, the applicable IWC Wage Order and

California Labor Code sections 226.7 and 1198 were applicable to Plaintiff and other nonparty Aggrieved Employees' employment by Defendants.
103.

At all relevant times, the applicable IWC Wage Order provides that "[e]very

12

employer shall authorize and permit all employees to take rest periods, which insofar as

13

practicable shall be in the middle of each work period" and that the "rest period time shall be

14

based on the total hours worked daily at the rate of ten ( I 0)

15

hours or major fraction thereof" unless the total daily work time is less than three and one-half

16

(3 Yz) hours.

17

104.

111 inutes

net rest time per four (4)

At all relevant times, California Labor Code section 226.7 provides that no

18

employer shall require an employee to work during any rest period mandated by an applicable

19

order of the California IWC. To comply with its obligation to provide rest periods under

20

California Labor Code section 226.7 and the applicable IWC Wage Order, an employer must

21

"relinquish any control over how employees spend their break time, and relieve their

22

employees of all duties -

23

period, in short, must be a period of rest." Augustus, et al. v. ABM Security Services, Inc., 2

24

Cal. 5th 257, 269-270 (2016).

25
,~)
~,.,J

Thus, Defendants failed to provide Plaintiff and other non-party Aggrieved

105.

including the obligation that an employee remain on call. A rest

Pursuant to the applicable IWC Wage Order and California Labor Code section

26

226.7(b), Plaintiff and other non-party Aggrieved Employees were entitled to recover from

27

Defendants one (I) additional hour of pay at their regular rates of pay for each work day that a

28

required rest period was not provided.

~.,.)

r:-r..J

.

~~-

~

.)

(;;)

r-,....:i,
(~O

Page 26
PAGA COMl'L,\INT

366a

106.
2

permit Plaintiff and other non-party Aggrieved Employees to take ten ( I 0) minute rest period

')

.)

per each four (4) hour period worked or major fraction thereof. As with meal periods,

4

Defendants' company-wide practices, including systemic misclassification, prevented Plaintiff

5

and other non-party Aggrieved Employees from being relieved of all duty in order to take

6

compliant rest periods. Defendants failed to schedule rest periods and therefore had no policy

7

for permitting Plaintiff and other non-party Aggrieved Employees to take rest periods. As a

8

result, Plaintiff and other non-party Aggrieved Employees would work shifts in excess of3.5

9

hours, in excess of 6 hours, and/or in excess of IO hours without receiving al I ten ( I 0) minute

10
11

.

Defendants have also engaged in a company-wide practice and/or policy to not

13

to the extent that Defendants did pay Plaintiff and other non-party Aggrieved Employees one

14

(I) additional hour of premium pay for missed rest periods, Defendants did not pay Plaintiff

15

and other non-party Aggrieved Employees at the correct rate of pay for premium wages

16

because Defendants failed to include all forms of compensation, such as incentive pay,

17

nondiscretionary bonuses, and/or other forms of remuneration, in the regular rate of pay. As a

18

result, to the extent Defendants paid other non-party Aggrieved Employees premium pay for

19

missed rest periods, it did so at a lower rate than required by law.

22

~~

107.

pay rest period premiums owed when compliant rest periods are not provided. Alternatively,

21

~

rest periods to which they were entitled.

12

20

~p

During the relevant time period, Defendants regularly failed to authorize and

108.

Based on the foregoing, Plaintiff and other non-party Aggrieved Employees

· were denied rest periods and Defendants failed to pay the full rest period premiums due.
I 09.

Defendants' conduct violates the applicable IWC Wage Order and California

23

Labor Code sections 226.7 and 1198. Plaintiff and other non-party Aggrieved Employees are

24

therefore entitled to recover civil penalties pursuant to section 2699(a), (f), and (g).

25

FAILURE TO PROVID.E AND MAINTAIN COMPLIANT WAGE STATEMENTS

26

VIOLATION OF LABOR CODE SECTIONS 226(a), 1174(d), AND 1198

~ .)

,:.;....J

.

~~

~

27

110.

At all relevant times herein, California Labor Code section 226(a) provides that

.)

I~

rM•

28

every employer shall furnish each of his or her employees an accurate and complete itemized

Cl';:,

Pane 27

PAGA COMPLAINT

367a

wage statement in writing, including, but not limited to, the name and address of the legal
2

,,

.)

4

'•.,./
-~.'::

applicable rates of pay.

111.

During the relevant time period, Defendants have, on a company-wide basis,

5

systematically failed to issue wage statements to Plaintiff and other non-party Aggrieved

6

Employees that list gross wages earned in violation of section 226(a)( I), total hours worked by

7

employees in violation of section 226(a)(2); the number of piece-rate units earned and any

8

applicable piece rate in violation of section 226(a)(3); all deductions in violation of section

9

226(a)(4); net wages earned in violation of section 226(a)(5); the inclusive dates of the period

10

for which aggrieved employees were paid in violation of section 226(a)(6); the name of the

11

employee and only the last four digits of his or her social security number or an employee

12

identification number other than a social security number in violation of section 226(a)(7); the

13

name and address of the legal entity that is the employer in violation of section 226(a)(8); and all

14

applicable hourly rates in effect during the pay period and the corresponding number of hours

15

worked at each hourly rate in violation of section 226(a)(9). In addition, Defendants failed to

16

provide Plaintiff and other non-party Aggrieved Employees the option to elect to receive hard

17

copies of their wage statements at any time and/or failed to provide them with the ability to

18

easily access the information and convert the electronic wage statements into hard copies at no

19

expense to them.

20

(;;~

entity that is the employer, the inclusive dates of the pay period, total hours worked, and all

112.

California Labor Code section I I 74(d) provides that "[e]very person employing

21

labor in this state shall ... [k)eep a record showing the names and addresses of all employees

22

employed and the ages of all minors" and "[k)eep, at a central location in the state or at the

23

plants or establishments at which employees are employed, payroll records showing the hours

24

worked daily by and the wages paid to, and the number of piece-rate units earned by and any

25

applicable piece rate paid to, employees employed at the respective plants or

26

establishments ... " During the relevant time period, and in violation of Labor Code section

27

I I 74(d), Defendants willfully failed to maintain accurate payroll records for Plaintiff and

28

other non-party Aggrieved Employees showing the daily hours they worked and the wages

~-,.,)
,,.,J
~-,.,)

(P

r~

Q9

Page 28
PAGA COMPLAINT

•

368a

paid thereto as a result of misclassifying them as independent contractors.
2

California Labor Code section 1198 provides that the maximum hours of work

".)

and the standard conditions of labor shall be those fixed by the Labor Commissioner and as

4

set forth in the applicable lWC Wage Orders. Section 1198 further provides that "[t]he

5

employment of any employees for longer hours than those fixed by the order or under

6

conditions of labor prohibited by the order is unlawful." Pursuant to the applicable IWC

7

Wage Order, employers are required to keep accurate time records showing when the

8

employee begins and ends each work period and meal period. During the relevant time

9

period, Defendants failed, on a company-wide basis, to keep accurate records of meal period

10

start and stop times for Plaintiff and other non-party Aggrieved Employees as a result of

1I

misclassifying them, in violation of section I -I 98.

12

114.

Because Defendants' violations of 226(a) and 1174(d) were committed against

13

Plaintiff and other non-party Aggrieved Employees, Plaintiff and other non-party Aggrieved

14

Employees are entitled to recover civil penalties pursuant to sections 226(e), 226.3, 1174.5,

15

and/or 2699(a), (f), and (g).

16

FAILURE TO PAY WAGES DURING EMPLOYMENT

17

VIOLATION OF LABOR CODE SECTION 204

18

(D
-...,1

113.

115.

At all relevant times herein set forth, California Labor Code section 204

19

requires that all wages earned by any person in any employment between the l st and the 15th

20

days, inclusive, of any calendar month, other than those wages due upon termination of an

21

employee, are due and payable between the 16th and the 26th day of the month during which

22

the labor was performed. Labor Code section 204 further provides that all wages earned by

23

any person in any employment between the 16th and the last day, inclusive, of any calendar

24

month, other than those wages due upon termination of an employee, are due and payable

25

between the 1st and the I 0th day of the following month.

~-

26

-s...J
......,.

27

that all wages earned for labor in excess of the normal work period shall be paid no later than

28

the payday for the next regular payroll period. Alternatively, at all relevant times herein,

,-.....:•

rv
0
~-+·

116.

At all relevant times herein, California Labor Code section 204 also requires

l,?.9

Paoe 29
PAGA COMPL,\INT

369a

Labor Code section 204 provides that the requirements of this section are deemed satisfied by
2

the payment of wages for weekly, biweekly, or semimonthly payroll if the wages are paid not

'l

more than seven (7) calendar days following the close of the payroll period.

_)

4

other non-party Aggrieved Employees all wages due to them within any time period specified

6

by California Labor Code section 204 including, but not limited to, overtime wages, minimum

7

wages, and meal and rest period premium wages.

9

118.

Plaintiff and other non-party Aggrieved Employees are therefore entitled to

recover civil penalties pursuant to Labor Code sections 210 and/or 2699(a), (f), and (g).

10

FAILURE TO PAY WAGES UPON TERMINATION

11

VIOLATION OF LABOR CODE SECTIONS 201,202, AND 203

12

119.

At all times relevant herein set forth, Labor Code sections 201 and 202 provide

13

that if an employer discharges an employee, the wages earned and unpaid at the time of

]4

discharge are due and payable immediately, and that if an employee voluntarily leaves his or

15

her employment, his or her wages shall become due and payable not later than seventy-two

16

(72) hours thereafter, unless the employee has given seventy-two (72) hours previous notice of

17

his or her intention to quit, in which case the employee is entitled to his or her wages at the

18

time of quitting.

]9

120.

During the relevant time period, Defendants willfully failed to pay Plaintiff and

20

other non-party Aggrieved Employees who are no longer employed by Defendants the earned

21

and unpaid wages set forth above, including but not limited to, overtime wages, minimum

22

wages, and meal and rest period premium wages, either at the time of discharge, or within

23

seventy-two (72) hours of their leaving Defendants' employ.

24

•:-

During the relevant time period, Defendants willfully failed to pay Plaintiff and

5

8

(µ
,,.-J

117.

121.

Defendants' failure to pay Plaintiff and those Aggrieved Employees who are no

25

longer employed by Defendants their wages earned and unpaid at the time of discharge, or

26

within seventy-two (72) hours of their leaving Defendants' employ, violates Labor Code

27

sections 20 I and 202. Pia inti ff and other non-party Aggrieved Employees are therefore

28

entitled to recover civil penalties pmsuant to Labor Code section 256 and/or 2699(f)-(g).

l'·t,-)

'·-~

·~,,..
(':,J

J~P
!--,~·

(~q

Page 30
Pf\GA

COMl'l.1\INT

e

370a

UNLAWFUL REQUIREMENT FOR RELEASE OF CLAIMS AS A CONDITION TO
RECEIVING WAGES

2
...,

VIOLATION OF LABOR CODE SECTION 206.5

.)

4

122.

California Labor Code section 206.5 prohibits employers from requiring

5

employees to execute releases of a claim or right "on account of wages due, or to become due,

6

or made as an advance on wages to be earned, unless payment of those wages has been made.

7

A release required or executed in violation of the provisions of this section shall be null and

8

void as between the employer and the employee."

9

123.

During the relevant time period, Defendants effectively required Plaintiff and

10

other non-party Aggrieved Employees to release their claims for meal and rest break

11

violations as a condition to receiving their pay checks. For example, on information and

12

belief, Plaintiff was presented with paperwork to sign that required her to attest that she was

13

an independent contractor (not an employee), if she wanted to continue working for

14

Defendants.

15

124.

Defendants' policy and practice of requiring Plaintiff and other non-party

16

Aggrieved Employees to release their claims for meal and rest break violations as a condition

17

to receiving their wages are in violation of California Labor Code section 206.5. Plaintiff and

18

other non-party Aggrieved Employees are therefore entitled to recover civil penalties pursuant

19

to section 2699(a), (f), and (g).

20

COLLECTING OR RECEIVING WAGES ALREADY PAID

21

VIOLATION OF LABOR CODE SECTION 221 AND 224

22

125.

At all ti111es relevant herein, California Labor Code section 221 provides that it

23

is unlawful for any employer to collect or receive from an employee any part of wages

24

theretofore paid by said employer to said employee. California Labor Code section 224 also

25

provides in pertinent part that it is lawful to withhold a portion of the e111ployee's wages if "a

26

deduction is expressly authorized in writing by the e111ployee."

(D
-.J

~-..

~

..)

-,..J

~-

27

126.

During the relevant time period, Defendants unlawfully deducted a portion of

r·. .

_.'ll

(;)'

,...~

28

wages previously paid to Plaintiff and other non-party Aggrieved Employees in violation of

(,~-:;,;i

Page 3 I
PAGA (OMl'L;\INT

.e

371a

California Labor Code section 221. As described above, Defendants had a company-wide
2
.,
_)

form of gratuities. Defendants unlawfully deducted gratuities from Plaintiffs and other non-

4

party Aggrieved Employees' wages by reducing the.$25 service fee paid by Defendants to $5

5

by re-attributing part of that fee to be covered by the gratuities from customers, when the

6

gratuity given was $25 or more. Furthermore, these deductions were not expressly authorized

7

in writing by Plaintiff and other non-party Aggrieved Employees. Thus, Defendants' policy

8

of deducting earnings and withholding wages from Plaintiff and other non-party Aggrieved

9

Employees' paychecks without their written consent constitutes an unlawful deduction of

10

JI

""c-1
·~~

wages in violation of California Labor Code sections 221 and 224.
127.

Defendants' conduct as alleged herein violates California Labor Code sections

12

221 and 224. Plaintiff and other non-party Aggrieved Employees are therefore entitled to

13

recover civil penalties pursuant to Labor Code section 2699(a), (f), and (g).

14

FAILURE TO COMPENSATE FOR PHYSICAL EXAMINATION AND

15

MANDATORY DRUG TESTING

16

VIOLATION OF LABOR CODE SECTION 222.5

17

128. · At all times herein set forth, California Labor Code section 222.5 requires

18

employers to pay for the costs a current or prospective employee incurs for obtaining any

19

medical or physical examination and drug testing taken as a condition of employment.

20

~p

policy of withholding wages paid to Plaintiff and other non-party Aggrieved Employees in the

129.

During the relevant time period, Defendants required that other non-party

21

Aggrieved Employees undergo a physical examination and/or mandatory drug test, but

22

required them to do so at their own expense. As stated, upon information and belief,

23

Defendants had a company-wide policy requiring that all newly-hired employees, including

24

other non-party Aggrieved Employees, travel to a medical clinic on their own time and using

25

their own personal vehicles to undergo a mandatory physical examination and/or drug test. At

26

all times, upon information and belief, Defendants were in control of scheduling the date and

27

time for the examination and testing, selecting the provider/facility where the exam and/or

28

testing was to take place, and determining the scope of the exam. Other non-party Aggrieved

~-,.,,)

~-c-1
!"!'.,,.
I".,)

Q
~~

(~

Page 32
PAGA COMPL,\INT

372a

Employees were instructed by Defendants to travel to a clinic and obtain a physical
2

,.,

examination and/or drug test. Other non-party Aggrieved Employees followed Defendants'

.)

instructions, traveled to a facility selected by Defendants, and underwent the physical

4

examination and/or drug test. Other non-party Aggrieved Employees spent time traveling to

5

and from the clinic and undergoing the mandatory physical examination and/or drug test.

6

130.

However, Defendants did not compensate other non-party Aggrieved ·

7

Employees for the time they spent traveling to and from their drug test and/or physical

8

examination, or for the time they spent undergoing the testing, or reimburse them for the

9

travel expenses they incurred getting to and from the medical clinic.

10

131.

Defendants' policy and/or practice of not paying for all costs other non-party

11

Aggrieved Employees incurred obtaining mandatory drug tests is in violation of California

12

Labor Code section 222.5. Other non-party Aggrieved Employees are therefore entitled to

13

recover penalties, attorney's fees, costs, and interest thereon, pursuant to Labor Code section

14

2699(a), (f)-(g).

15

SECRETLY PAYING A LOWER WAGE

16

VIOLATION OF LABOR CODE SECTION 223

17

13.2.

At all relevant times herein set forth, California Labor Code section 223

18

provides that it shall be unlawful for an employer to secretly pay a lower wage than that

19

designated by statute or by contract while purporting to pay legal wages.

20

133.

During the relevant time period, Defendants willfully and systematically

21

misclassified Plaintiff and other non-party Aggrieved Employees as independent contractors,

22

and, on that basis, denied them the protections provided for by California wage-and-hour law.

23

Defendants' intentional misclassification of Plaintiff and other non-party Aggrieved

24

Employees resulted in the payment of less than statutorily-required wages to Plaintiff and

25

other non-party Aggrieved Employees. In misclassifying Plaintiff and other non-party

26

Aggrieved Employees, Defendants acted with the intent to deprive Plain ti ff and other non-

27

party Aggrieved Employees of statutory wages, including, but not limited to, overtime wages,

28

to which they were entitled to under California law. Thus, Defendants paid Plaintiff and other

(;.)

~'"~
~~'!:

r,...,

,,,.~
~:":':

~,.,)

.(;?
r,,..,.::,

CP.

Page 33
PAGA COMPLAINT

373a

non-party Aggrieved Employees lower wages than those they were entitled to while
2
-,
.)

purporting that Plaintiff and other non-party Aggrieved Employees were properly classified.

134.

Defendants' failure to pay Plaintiff and other non-party Aggrieved Employees

4

the correct designated wage, while purporting to pay legal wages, is a violation of California

5

Labor Code section 223. Plaintiff and other non-party Aggrieved Employees are therefore

6

entitled to recover civil penalties pursuant to section 2699(a), (f), and (g).

7

FAILURE T_O PROVIDE PAID SICK LEAVE BENEFITS AND WRITTEN NOTICE
OF PAID SICK LEAVE OR PAID TIME OFF AVAILABLE

8

VIOLATION OF LABOR CODE SECTION 246

9
10

135.

At all relevant times herein, California Labor Code sections 245.5, 246, 246.5,

11

247, 247.5, 248.5, and 249 provide employees who have worked in California for 30 or more

·12

days from the commencement of employment with paid sick days, to be accrued at least one

13

hour for every 30 hours worked. Pursuant to California Labor Code section 246(b)(4),

14

employers must provide no less than 24 hours or three (3) days of paid sick leave ( or

15

equivalent paid leave or paid time off) in each year of the employee's employment. Further,

16

section 246(h) provides that an employer must provide an employee with written notice that

17

sets forth the amount of paid sick leave available, or paid time off that an employer provides

18

in lieu of sick leave, for use on either the employee's itemized wage statement or in a separate

19

written statement provided on the designated pay date with the employee's wages. The

20

penalties described in this a11icle for a violation of this subdivision shall be in lieu of the

21

penalties for a violation of Section 246.

22

136.

During the relevant time period, on information and belief Defendants

23

systematically failed to provide Plaintiff and other non-party Aggrieved Employees paid sick

24

leave of no less than 24 hours or three (3) days because Defendants misclassified Plaintiff and

25

other non-party Aggrieved Employees. Specifically, Plaintiff and other non-party Aggrieved

26

Employees worked in excess of 30 days for Defendants in California and were therefore

27

eligible to receive paid sick leave. However, Defendants failed to provide Plaintiff and other

28

non-party Aggrieved Employees with any sick leave benefits, in violation of section

(P
"'..,)
"="..-,.

rs-'
"'·./
~':t'

~·-'
w

CP

Page 34
PAGA COMPL/\INT

374a

246(b)(4).
2

137.

Additionally, Defendants failed to provide Plaintiff and other non-party

.)

'l

Aggrieved Employees written notice on Wage statements and/or other separate written

4

statements that listed the requisite information set forth in Labor Code section 246(i).

5
6
.7

138.

Defendants' ongoing and systematic failure to provide sick leave benefits and

written notice of paid sick leave available, or paid time off that an employer provided in lieu
of sick leave, is in violation of Labor Code section 246. Plaintiff and other non-party

8

Aggrieved Employees are therefore entitled to recover civil penalties pursuant to Labor Code

9

sections 248.5 and/or 2699(t)-(g).

10

FAILURE TO PROVIDE ONE DAY'S REST IN SEVEN

11

VIOLATION OF LABOR CODE SECTIONS 551 AND 552

12

139.

At all relevant times herein, California Labor Code section 551 provides that

13

every person employed in any occupation of labor is entitled to one day's rest in seven.

14

Additionally, California Labor Code section 552 prohibits employers from requiring

15

employees to work more than six consecutive days without a day of rest.

16

140.

At all times relevant herein set forth, California Labor Code section 556

17

exempts an employer from the day-of-rest requirement when the total hours worked by an

18

employee do not exceed 30 hours in any week or six hours in any one day thereof.

19

141.

During the relevant time period, Defendants routinely scheduled Plaintiff and

20

other non-party Aggrieved Employees to work eight (8) or more hours per day and seven (7)

21

consecutive days in a workweek. Because Plaintiff and other non-party Aggrieved Employees

22

worked over 30 hours per week and over six (6) hours per day in a workweek, they were not

23

exempt from the day-of-rest requirement. To the extent that Plaintiff and other non-party

24

Aggrieved Employees signed purported waivers of their right to a day's rest in seven, such

25

waivers are invalid.

26

142.

r.1:d

···~J
....'":'

Thus, during the relevant time period, and in violation of Labor Code sections

~·cc)

"'"1
:-,,~

27

551 and 552, Defendants willfully caused Plaintiff and other Aggrieved Employees to work

28

more than six days in seven. Plaintiff and other non-party Aggrieved Employees are therefore

r-..?

r;:_p
r-~
().9

Page 35
PAGA COMPLAINT

e

.•.

375a

entitled to recover civil penalties pursuant to Labor Code section 2699(J)-(g).
FAILURE TO REIMBURSE NECESSARY BUSINESS EXPENSES

2
,..,

VIOLATION OF LABOR CODE SECTION 2802

.)

4

an employer must reimburse employees for all necessary expenditures and losses incurred by

6

the employee in the performance of his or her job. The purpose of Labor Code section 2802 is

7

to prevent employers from passing off their cost of doing business and operating expenses on

8

to their employees. Cochran v. Schwan 's Home Service, Inc., 228 Cal. App. 4th 1137, 1144

9

(2014). The applicable wage order, JWC Wage Order 4-2001, provides that: "[w)hen tools or

10

equipment are required by the employer or are necessary to the performance of a job, such

11

tools and equipment shall be provided and maintained by the employer, except that an

12

employee whose wages are at least two (2) times the minimum wage provided herein may be

13

required to provide and maintain hand tools and equipment customarily required by the trade

14

or craft."
144.

During the relevant time period, Defendants, on a company-wide basis,

16

required that Plaintiff and other non-party Aggrieved Employees utilize their own personal

17

cellular phones and/or cellular phone data to carry out their job duties, but Defendants failed

18

to reimburse them for the costs of their cellular phone plans and/or data plans. For example,

19

Plaintiff was required to use a personal cellular phone to carry out her work, such as receiving

20

orders from Defendants and communicating with Defendants regarding status updates on

21

delivery orders. Plaintiff estimates that I 00% of her cellular phone usage ,,vas work-related.

22

Although Defendants required Plaintiff to regularly utilize her personal cellular phone to carry

23

out work-related responsibilities, Defendants failed to reimburse her for this cost.

24

....":":

At all times herein set forth, California Labor Code section 2802 provides that

5

15

~µ
,,...,.J

143.

145.

Moreover, Defendants, on a company-wide basis, required Plaintiff and other

25

non-party Aggrieved Employees to utilize their own personal vehicles to carry out company

26

business, but Defendants failed to reimburse them for all costs of travel, including mileage.

27

For example, as part of her duties, Plaintiff was required to pick up and deliver catering arid

28

online orders. Additionally, Plaintiff and other non-party Aggrieved Employees were required

,.,,,)

,.,.,J
~···,:,

J',~'

q
r~
~;;9

Page 36
PAGA COMPL,\INT

376a

to attend orientation and training sessions, and drive around making trial pickups and
2

deliveries in order to get accli111ated to Defendants' syste111. Although Defendants required

,..,
.)

that Plaintiff use her own vehicle and complete these tasks and/or attend these training

4

sessions as part of her job duties, Defendants never reimbursed her for all of her travel

5

expenses.
146.

6

Defendants engaged in a syste111atic, company-wide policy to not reimburse its

7

employees for necessary business expenses. Defendants cou Id have provided Plaintiff and

8

other non-party Aggrieved Employees with the actual tools for use on the job, including

9

co111pany phones, and company vehicles to be used for fulfilling work-related tasks, or

10

reimbursed employees for their cellular phone usage, travel, and 111ileage, but instead,

11

Defendants passed these operating costs off onto Plaintiff and other non-party Aggrieved

12

Employees. At all relevant times, Plaintiff did not earn at least two (2) times the minimum

13

wage.

14

147.

Defendants' co111pany-wide policy and/or practice of passing on its operating

15

costs on to Plaintiff and non-party Aggrieved E111ployees by requiring tha.t they use their

16

personal cellular phones and vehicles for business and failing to reimburse all travel expenses,

17

is in violation of California Labor Code section 2802. Defendants have intentionally and

18

willfully failed to fully reimburse Plaintiff and other non-party Aggrieved Employees for

19

necessary business-related expenses and costs.

20
21

148.

Plaintiff and other non-party Aggrieved E111ployees are therefore entitled to

recover civil penalties pursuant to Labor Code section 2699(f)-(g).

22

FAILURE TO PROVIDE WRITTEN NOTICE OF MATERIAL TERMS OF

23

EMPLOYMENT - VIOLATION OF LABOR CODE SECTION 2810.S(a)(l)(A)-(C)

24

149.

California's Wage Theft Prevention Act was enacted to ensure that employers

25

provide employees with basic information material to their employment relationship at the

26

time of hiring, and to ensure that employees are given written and timely notice of any

27

changes to basic information material to their employment. Codified at California Labor

28

Code section 2810.5, the Wage Theft Prevention Act provides that at the time.of hiring, an

~:ti
,.,,,.J
••"l'

r··"'
r•'"~J
·~"!!

r,.r~)

(4'

'r;;,i;,
""""
Paoe37
PAGA COMl'Li\lNT

377a

employer must provide written notice to employees containing basic and material payroll
2

information, including, among other things, the rate(s) of pay and basis thereof, whether paid

".)

by the hour, shift, day, week, salary, piece, commission, or otherwise, including any rates for

4

overtime, the regular payday designated by the employer, and any allowances claims as part

5

of the minimum wage, including meal or lodging allowances. Labor Code section

6

2810.5(a)( I )(A)-(C).

7

150.

During the relevant time period, Defendants failed to provide written notice to

8

Plaintiff and other non-party Aggrieved Employees that lists the requisite information set forth

9

in Labor Code section 2810.5(a)( I)(A)-(C), on a company-wide basis, because Defendants

10
11

111 isclassified

15 l.

Plaintiff and other non-party Aggrieved Employees as independent contractors.
Defendants' failure to provide Plaintiff and other non-party Aggrieved

12

Employees with written notice of basic information regarding their employment with

13

Defendants is in violation of Labor Code section 2810.5. Plaintiff and other non-party

14

Aggrieved Employees are therefore entitled to recover penalties, attorney's fees, costs, and

15

interest thereon, pursuant to Labor Code section 2699(f)-(g).

16
l7

REQUEST FOR .JURY TRIAL

Plaintiff requests a trial by jury.

18
19
20
21
22

PRAYER FOR RELIEF

Plaintift~ on behalf of all other non-party Aggrieved Employees, prays for relief and
judgment against Defendants, jointly and severally, as follows:

I.
($25,000).

23
24

For civil penalties and attorneys' fees in excess of twenty-five thousand dollars

As to the First Cause of Action

2.

That the Court declare, adjudge and decree that Defendants violated the

25

following California Labor Code provisions as to Plaintiff and/or other non-party Aggrieved

26

Employees: 226.8 (by intentionally and knowingly misclassifying Plaintiff and other non-

,.;."l'

27

party Aggrieved Employees as independent contractors); 351 (by collecting and/or

i\'.P

28

withholding gratuities); 510 and 1198 (by failing to pay all overtime compensation); 1182.12,

~~

·~.,.J
.;."I':

t··""
~,,,J
~-·,. )
I-~

e,;ig

Pane 38
PAGA COMPLAINT

378a

1194, 1197, 1197.1, and 1198 (by failing to pay at least minimum wages for all hours
2
,.,

worked); 226.7, 512 and 1198 (by failing to provide all meal and rest periods); 226(a),

.)

l l 74(d) and 1198 (by failing to provide accurate wage statements and maintain accurate

4

payroll records); 201, 202, and 203 (by failing timely to pay all earned vvages upon

5

termination); 204 (by failing timely to pay all earned wages during employment); 206.5 (by

6

requiring release of claims as a condition to receiving paychecks); 221 and 224 (by collecting

7

and/or receiving wages already paid); 222.5 (by failing to pay the costs of mandatory drug

8

testing and/or physical examinations); 223 (by secretly paying wages lower than required by

9

statute); 246 (by failing to provide sick leave benefits and written notice of paid sick leave or

10

paid time off available); 551 and 552 (failing to provide one day's rest in seven); 2802 (by

11

failing to reimburse business expenses); and 2810.5 (by failing to provide written notice of

12

material terms of employment);
3.

13
14

248.5, 256, 1174.5, 1197.1, 2699(a) and/or 2699(f) and (g), for violations of California Labor

15

Code sections 20 I, 202, 203, 204, 206.5, 221, 222.5, 223, 224, 226(a), 226. 7, 226.8, 246, 351,

16

510,512(a),551,552, 1174(d), 1182.12, 1194, 1197, 1197.1, 1198,2802,and2810.5;

17

4.

"·.../
~~

For attorneys' fees and costs pursuant to California Labor Code section

18

2699(g)(l), and any and all other relevant statutes, for Defendants' violations of California

19

Labor Code sections 20 I, 202, 203, 204, 206.5, 221, 222.5, 223, 224, 226(a), 226.7, 226.8,

20

246,351,510, 512(a), 551,552, 1174(d), 1182.12, 1194, 1197, 1197.1, 1198, 2802, and

21

2810.5;

22

"~

For civil penalties pursuant to California Labor Code sections 210, 226.3,

5.

23

II

24

II

25

II

26

II

27

II

28

II

For pre-judgment and post-judgment interest as provided by law; and

r-,,,,)
,,,,.i

~·"'~·

r~,.J
(.P
~
~)IQ

Paoe 39
PAGA COMPLAINT

379a

6.
2

For such other and further relief as the Court may deem equitable and

appropriate.

,.,
.)

4
5

Dated: July 26, 2018

Respectfully submitted,
Capstone Law APC

6
7
8
9

ByAr~e~
Brandon K. Brouillette
Ru handy G lezakos

Attorneys for Plaintiff Dana Lowe

10
11
12
13
14
15
16
17

18
19

20
21
22
23
24
25
<D
:--.;,..,J

~-.,)
'-,.,.J

......

~

26
27

r·.,_,
(,b

""~
lf.~-0

28
Page 40
PAGA COMPLAINT

e

,,
i

A TIORNEY

OR PARTY WITHOUT ATIORNEY

BY FAX
380a

/Name, State Bar number, and addre~s):

CM-010
FOR COURT USE ONLY

Arnab Banerjee(SBN 252618); Brandon Brouillette (SBN 273156)
Capstone Law APC
187 5 Century Park East, Suite 1000
Los Angeles, CA 90067

r

FILED

:iperfor Court of California
County l9,; Anoeles

m~i

(310) 556-4811
FAX NO.: (310) 943-0396
Plaintiff Dana Lowe
SUPERIOR COURT OF CALIFORNIA, COUNTY OF LOS ANGELES
sTREET ADDREss, 111 North H!ll Street, Los Angeles
. MA1uNGADDREss, 111 North Hill Street, Los Angeles, CA 90012
c1TY AND z1P coDE: Los Angeles 90012
BRANCH NAME: Stanley Mosk Courthouse
TELEPHONE NO.:
ATIORNEY FOR (Name):

CASENAME:

~!Jg

JUL 26 2018

.

DANA LOWE v. DOORDASH, INC.
CIVIL CASE COVER SHEET

[ZJ

D

Unlimited

Limited

(Amount
demanded
exceeds $25,000)

(Amount
demanded is
$25,000 or less)

D

CASE NUMBER:

Complex Case Designation

D

Counter

Joinder

JUDGE:

Filed with first appearance by defendant
(Cal. Rules of Court, rule 3.402)

DEPT:
Items 1-6 below must be completed (see instructions on page 2).
1. Check one box below for the case type that best describes this case:
Auto Tort

D
D

Contract

D
D

Auto (22)
Uninsured motorist (46)

Other PI/PD/WD (Personal Injury/Property
Damage/Wrongful Death) Tort

D

Asbestos (04)
Product liability (24)
Medical malpractice (45)

D
D
D

D

Rule 3.740 collections (09)
Other collections (09)
Insurance coverage (18)
Other contract (37)

Real Property

D
D
D

Other PI/PD/WD (23)

Non-PI/PD/WD (Other) Tort

D
D
D
D
D
D

D
D

Breach of contracVwarranty (06)

Eminent domain/Inverse
condemnation (14)
Wrongful eviction (33)

Otherrealproperty(26)
Business tort/unfair business practice (07)
Unlawful Detainer
Civil rights (08)
Commercial (31)
Defamation (13)
Fraud(16)
Intellectual property (19)
Professional negligence (25)
Other non-Pl/PD/WO tort (35)

D

~loyment

LJ

Wrongful termination (36)

[ZJ

Other employment (15)

D
D
D

D
D
D

D
D
D
D
D
D

Drugs(38)

Antitrust/Trade regulation (03)
Construction defect (10)
Mass tort (40)
Securities litigation (28)
Environmental/Toxic tort (30)
Insurance coverage claims arising from the
above listed provisionally complex case
types (41)

Enforcement of Judgment

D

Enforcement of judgment (20)

Miscellaneous Civil Complaint

D
D

Residential (32)

Judicial Review

D

Provisionally Complex Civil Litigation
(Cal. Rules of Court, rules 3.400-3.403)

RIC0(27)
Other complaint (not specified above) (42)

Miscellaneous Civil Petition

Asset forfeiture (05)
Petition re: arbitration award (11)
Writ of mandate (02)

D
D

Partnership and corporate governance (21)
Other petition (not specified above) (43)

Other judicial review (39)

LJ

2. .This case
is
LLJ is not complex under rule 3.400 of the California Rules of Court. If the case is complex, mark the
factors requiring exceptional judicial management:

3.

a.

D

Large number of separately represented parties

d.

b.

[lJ

Extensive motion practice raising difficult or novel
issues that will be time-consuming to resolve

e.

D

c.

[ZJ

Substantial amount of documentary evidence

f.

D

Remedies sought (check all that apply): a.[Z] monetary

[lJ Large number of witnesses
Coordination with related actions pending in one or more courts
in other counties, states, or countries, or in a federal court
Substantial postjudgment judicial supervision

b. [Z] nonmonetary; declaratory or injunctive relief

c.

D

punitive

4. Number of causes of action (specify): One ( 1)
5.

This case

D

is

[Z]

is not

a class action suit.

6. If there are any known related cases, file and serve a notice of related case. (
Date: July 26, 2018
Amab Banerjee
(TYPE OR PRINT NAME)
(P
NOTICE
'·,~, Plaintiff must file this cover sheet with the first paper filed in the action or proceeding (except small claims cases or cases filed
~:~ under the Probate Code, Family Code, or Welfare and Institutions Code). (Cal. Rules of Court, rule 3.220.) Failure to file may result
:..,,,.J in sanctions.
,,.!' File this cover sheet in addition to any cover sheet required by local court rule.
r-,-• If this case is complex under rule 3.400 et seq. of the California Rules of Court, you must serve a copy of this cover sheet on all
;::: other parties to the action or proceeding.
;..,! Unless this is a collections case under rule 3.740 or a complex case, this cover sheet will be used for statistical purposes onlv.
·•··
Pa e1 of2
Form Adopted for Mandatory Use
Judicial Council of California
CM-010 IRev. July 1, 2007]

CIVIL CASE COVER SHEET

Cal. Rules of Court, rules 2.30, 3.220, 3.400-3.403, 3. 740;
Cal. Standards of Judicial Administration, std. 3.10
www.courtinfo.ca.gov

e

381a

e

INSTRUCTIONS ON HOW TO COMPLETE THE COVER SHEET

CM-010

To Plaintiffs and Others Filing First Papers. If you are filing a first paper (for example, a complaint) in a civil case, you must
complete and file, along with your first paper, the Civil Case Cover Sheet contained on page 1. This information will be used to compile
statistics about the types and numbers of cases filed. You must complete items 1 through 6 on the sheet. In item 1, you must check
one box for the case type that best describes the case. If the case fits both a general and a more specific type of case listed in item 1,
check the more specific one. If the case has multiple causes of action, check the box that best indicates the primary cause of action.
To assist you in completing the sheet, examples of the cases that belong under each case type in item 1 are provided below. A cover
sheet must be filed only with your initial paper. Failure to file a cover sheet with the first paper filed in a civil case may subject a party,
its counsel, or both to sanctions under rules 2.30 and 3.220 of the California Rules of Court.
To Parties in Rule 3.740 Collections Cases. A "collections case" under rule 3.740 is defined as an action for recovery of money
owed in a sum stated to be certain that is not more than $25,000, exclusive of interest and attorney's fees, arising from a transaction in
which property, services, or money was acquired on credit. A collections case does not include an action seeking the following: (1) tort
damages, (2) punitive damages, (3) recovery of real property, (4) recovery of personal property, or (5) a prejudgment writ of
attachment. The identification of a case as a rule 3. 740 collections case on this form means that it will be exempt from the general
time-for-service requirements and case management rules, unless a defendant files a responsive pleading. A rule 3.740 collections
case will be subject to the requirements for service and obtaining a judgment in rule 3.740.
To Parties in Complex Cases. In complex cases only, parties must also use the Civil Case Cover Sheet to designate whether the
case is complex. If a plaintiff believes the case is complex under rule 3.400 of the California Rules of Court, this must be indicated by
completing the appropriate boxes in items 1 and 2. If a plaintiff designates a case as complex, the cover sheet must be served with the
complaint on all parties to the action. A defendant may file and serve no later than the time of its first appearance a joinder in the
plaintiff's designation, a counter-designation that the case is not complex, or, if the plaintiff has made no designation, a designation that
CASE TYPES AND EXAMPLES
the case is complex.
Auto Tort
Auto (22}-Personal Injury/Property
Damage/1/Vrongful Death
Uninsured Motorist (46) (if the
case involves an uninsured
motorist claim subject to
arbitration, check this item
instead of Auto)
Other PI/PD/WD (Personal Injury/
Property Damage/Wrongful Death)
Tort
Asbestos (04)
Asbestos Property Damage
Asbestos Personal Injury/
Wrongful Death
Product Liability (not asbestos or
toxic/environmental) (24)
Medical Malpractice (45)
Medical MalpracticePhysicians & Surgeons
Other Professional Health Care
Malpractice
Other PI/PDI\IVD (23)
Premises Liability (e.g., slip
and fall)
Intentional Bodily Injury/PD/WO
(e.g., assault, vandalism)
Intentional Infliction of
Emotional Distress
Negligent Infliction of
Emotional Distress
Other Pl/PD/WO
Non-PI/PD/WD (Other) Tort

Business Tort/Unfair Business
Practice (07)
Civil Rights (e.g., discrimination,
false arrest) (not civil

harassment) (08)
Defamation (e.g., slander, libel)
(13)
Fraud (16)
Intellectual Prcperty (19)
t"" Professional Negligence (25)
~~
Legal Malpra~tice
.
, · . Other Professional Malpractice
~-:~
(not medical or legal)
~ ••.~ Other Non-Pl/PD/WO Tort (35)
E~ployment
r,,.; Wrongful Termination (36)
,;;;,Other Employment (15)

r~

·~X>
CM-010 IRev. July 1, 2007]

Contract
Breach of Contract/Warranty (06)
Breach of Rental/Lease
Contract (not unlawful detainer
or wrongful eviction)
Contract/Warranty Breach-Seller
Plaintiff (not fraud or negligence)
Negligent Breach of ContracV
Warranty
Other Breach of Contract/Warranty
Collections (e.g., money owed, open
book accounts) (09)
Collection Case-Seller Plaintiff
Other Promissory Note/Collections
Case
Insurance Coverage (not provisionally
complex) (18)
Auto Subrogation
Other Coverage

Other Contract (37)
Contractual Fraud
Other Contract Dispute
Real Property
Eminent Domain/Inverse
Condemnation (14)
Wrongful Eviction (33)
Other Real Property (e.g., quiet title) (26)
Writ of Possession of Real Property
Mortgage Foreclosure
Quiet Title
Other Real Property (not eminent
domain, landlord/tenant, or
foreclosure)
Unlawful Detainer
Commercial (31)
Residential (32)
Drugs (38) (if the case involves illegal
drugs, check this item; otherwise,
· report as Commercial or Residential)
Judicial Review
Asset Forfeiture (05)
Petition Re: Arbitration Award (11 ).
Writ of Mandate (02)
Writ-Administrative Mandamus
Writ-Mandamus on Limited Court
Case Matter
Writ-Other Limited Court Case
Review
Other Judicial Review (39)
Review of Health Officer Order
Notice of Appeal-Labor
Commissioner Appeals

CIVIL CASE COVER SHEET

Provisionally Complex Civil Litigation (Cal.
Rules of Court Rules 3.400-3.403)
AntitrusVTrade Regulation (03)
Construction Defect (10)
Claims Involving Mass Tort (40)
Securities Litigation (28)
Environmental/Toxic Tort (30)
Insurance Coverage Claims
(arising from provisionally complex
case type listed above) (41)
Enforcement of Judgment
Enforcement of Judgment (20)
Abstract of Judgment (Out of
County)
Confession of Judgment (nondomestic relations)
Sister State Judgment
Administrative Agency Award
(not unpaid taxes)
Petition/Certification of Entry of
Judgment on Unpaid Taxes
Other Enforcement of Judgment
Case
Miscellaneous Civil Complaint
RICO (27)
Other Complaint (not specified
above) (42)
Declaratory Relief Only
Injunctive Relief Only (nonharassment)
Mechanics Lien
Other Commercial Complaint
Case (non-tort/non-complex)
Other Civil Complaint
(non-tortlnon-complex)
Miscellaneous Civil Petition
Partnership and Corporate
Governance (21)
Other Petition (not specified
above) (43)
Civil Harassment
Workplace Violence
Elder/Dependent Adult
Abuse
Election Contest
Petition for Name Change
Petition for Relief From Late
Claim
Other Civil Petition

Page 2 of 2

BY FAX
382a

7 l 5 4 25
'------------------------------......&.-----------------,,------'
SHORT TITLE:

'.,)

CASE NUMBERBC

DANA LOWE v. DOORDASH, INC.

CIVIL CASE COVER SHEET ADDENDUM AND
STATEMENT OF LOCATION
(CERTIFICATE OF GROUNDS FOR ASSIGNMENT TO COURTHOUSE LOCATION)
This form is required pursuant to Local Rule 2.3 in all new civil case filings in the Los Angeles Superior Court.
Item I. Check the types of hearing and fill in the estimated length of hearing expected for this case:
JURY TRIAL ?,/fES

CLASS ACTION?

YES LIMITED CASE? YES

TIME ESTIMATED FOR TRIAL_1_5_-2_o_ _ _ _H;..;.O=U;...:R.:;;S/'-./-=D"'-A~Y=S

Item II. Indicate the correct district and courthouse location (4 steps - If you checked "Limited Case", skip to Item Ill, Pg. 4):

Step 1: After first completing the Civil Case Cover Sheet form, find the main Civil Case Cover Sheet heading for your
case in the left margin below, and, to the right in Column

A, the Civil Case Cover Sheet case type you selected.

Step 2: Check .s;w& Superior Court type of action in Column B below which best describes the nature of this case.
Step 3: In Column C, circle the reason for the court location choice that applies to the type of action you have
checked. For any exception to the court location, see Local Rule 2.3.
Applicable Reasons for Choosing Courthouse Location (see Column C below)
1.
2.
3.
4.
5.

Class actions must be filed in the Stanley Mosk Courthouse, central district.
May be filed in central (other county, or no bodily injury/property damage).
Location where cause of action arose.
Location where bodily injury, death or damage occurred.
Location where performance required or defendant resides.

6.
7.
8.
9.
10.
11.

Location of property or permanently garaged vehicle.
Location where petitioner resides.
Location wherein defendanUrespondent functions wholly.
Location where one or more of the parties reside.
Location of Labor Commissioner Office
Mandatory Filing Location (Hub Case)

Step 4: Fill in the information requested on page 4 in Item Ill; complete Item IV. Sign the declaration.
A

Auto(22)

B

:s

B

,

Civil Case Cover Sheet
Category No.

•Type of Action
(Check only one)

C Applicable
Reasons - See Step 3
Above

D A7100 Motor Vehicle - Personal Injury/Property Damage/Wrongful Death

1., 2., 4.

D A7110 Personal Injury/Property Damage/Wrongful Death - Uninsured Motorist

1., 2., 4.

D A6070 Asbestos Property Damage

2.

D

2.

t::

0
c( I-

Uninsured Motorist (46)

Asbestos (04)

Product Liability (24)

A7221 Asbestos - Personal Injury/Wrongful Death

D A7260 Product Liability (not asbestos or toxic/environmental)

1., 2., 3., 4., 8.

D A7210 Medical Malpractice - Physicians & Surgeons

1., 4.

D A7240 Other Professional Health Care Malpractice

1., 4.

Medical Malpractice (45)

D A7250 Premises Liability (e.g., slip and fall)
Other Personal
Injury Property
Damage Wrongful
Death (23)

D A7230 Intentional Bodily Injury/Property Damage/Wrongful Death (e.g.,
assault, vandalism, etc.)

D A7270 Intentional Infliction of Emotional Distress
D A7220 Other Personal Injury/Property Damage/Wrongful Death

LACIV 109 (Rev 3/15)
LASC Approved 03-04

CIVIL CASE COVER SHEET ADDENDUM
AND STATEMENT OF LOCATION

1., 4.
1., 4.
1., 3.
1., 4.

Local Rule 2.3
Page 1 of 4

383a
CASE NUMBER

SHORT TITLE:

DANA LOWE v. DOORDASH, INC.

A

B

Civil Case Cover Sheet
Category No.

Type of Action
(Check only one)

D A6029 Other Commercial/Business Tort (not fraud/breach of contract)

1., 3.

Civil Rights (08)

D A6005 Civil Rights/Discrimination

1., 2., 3.

Defamation (13)

D A6010 Defamation (slander/libel)

1., 2., 3.

D A6013 Fraud (no contract)

1., 2., 3.

D A6017 Legal Malpractice

1., 2., 3.

D A6050 Other Professional Malpractice (not medical or legal)

1., 2., 3.

D A6025 Other Non-Personal Injury/Property Damage tort

2.,3.

D A6037 Wrongful Termination

1., 2.,.3.

!JI A6024 Other Employment Complaint Case

1.,2.,0

D A6109 Labor Commissioner Appeals

10.

Business Tort (07)

~~
Cl) I--

C Applicable
Reasons - See Step 3
Above

CL .S::.
o_

..

IQ

CL

a,

-c

~c
·-«i e
g 3:
:::,

:::I
C>
C

-

!!!Cl) Cl)

CL

C>

C
0

Fraud (16)

Professional Negligence (25)

E
IQ

zc

Other(35)

'E
Cl)
E
~

'ii.
E
w

Wrongful Termination (36)

Other Employment (15)

D A6004 Breach of Rental/Lease Contract (not unlawful detainer or wrongful
eviction)
Breach of ContracU Warranty
(06)
(not insurance)

D A6008 ContracUWarranty Breach -Seller Plaintiff (no fraud/negligence)
D A6019 Negligent Breach of ContracUWarranty (no fraud)
D A6028 Other Breach of ContracUWarranty (not fraud or negligence)

0

E

'E

D A6002 Collections Case-Seller Plaintiff

0

lns1Jrance Coverage (18)

Other Contract (37)

Eminent Domain/Inverse
Condemnation (14)
Wrongful Eviction (33)

Other Real Property (26)

C

Unlawful Detainer-Commercial
(31)

. . t.l)'s

Unlawful Detainer-Residential

r,,...,IQ

Unlawful DetainerPost-Foreclosure 1341

Ill

s
1;l.~

(32)

.,.,.}

~

•.,.rc

•t,':'l"::l

r,,...,

2., 5.
1., 2., 5.
1., 2., 5.

2., 5., 6, 11

Collections (09)

0

..

2., 5.

Unlawful Detainer-Drugs (38)

f-P

D A6012 Other Promissory Note/Collections Case

2., 5, 11

D

5, 6, 11

A6034 Collections Case-Purchased Debt (Charged Off Consumer Debt
Purchased on or after Januarv 1 2014 l

D A6015 Insurance Coverage (not complex)

1., 2., 5., 8.

D A6009 Contractual Fraud

1., 2., 3., 5.

D A6031 Tortious Interference

1., 2., 3., 5.

D A6027 Other Contract Dispute(not breach/insurance/fraud/negligence)

1., 2., 3., 8.

D A7300 Eminent Domain/Condemnation

Number of parcels_ _ _

2.

D A6023 Wrongful Eviction Case

2., 6.

D A6018 Mortgage Foreclosure

2., 6.

D A6032 Quiet Title

2., 6.

D A6060 Other Real Property (not eminent domain, landlord/tenant, foreclosure)

2., 6.

D A6021 Unlawful Detainer-Commercial (not drugs or wrongful eviction)

2., 6.

D A6020 Unlawful Detainer-Residential (not drugs or wrongful eviction)

2., 6.

D A6020F Unlawful Detainer-Post-Foreclosure

2., 6.

D A6022 Unlawful Detainer-Drugs

2., 6.

r""'
f.')O

LACIV 109 (Rev 3/15)
LASC Approved 03-04

CIVIL CASE COVER SHEET ADDENDUM
AND STATEMENT OF LOCATION

Local Rule 2.3
Page 2 of 4

384a
SHORT TITLE:

DANA LOWE

CASE NUMBER

v. DOORDASH, INC.

A

.

B

Civil Case Cover Sheet
Category No.

Type of Action
(Check only one)

C Applicable
Reasons - See Step 3
Above

D A6108 Asset Forfeiture Case

2., 6.

D A6115 Petition to Compel/ConfirmNacate Arbitration

2., 5.

D A6151 Writ- Administrative Mandamus

2., 8.

D A6152 Writ - Mandamus on Limited Court Case Matter

2.

D A6153 Writ - Other Limited Court Case Review

2.

Other Judicial Review (39)

D A6150 Other Writ /Judicial Review

2., 8.

Antitrust/Trade Regulation (03)

D A6003 Antitrust/Trade Regulation

1., 2., 8.

D A6007 Construction Defect

1., 2., 3.

D A6006 Claims Involving Mass Tort

1., 2., 8.

Securities Litigation (28)

D A6035 Securities Litigation Case

1., 2., 8.

·;;;

Toxic Tort
Environmental (30)

D A6036 Toxic Tort/Environmental

1., 2., 3., 8.

11.

Insurance Coverage Claims
from Complex Case (41)

D A6014 Insurance Coverage/Subrogation (complex case only)

1., 2., 5., 8.

D A6141 Sister State Judgment

2., 9.

D A6160 Abstract of Judgment

2., 6.

D A6107 Confession of Judgment (non-domestic relations)

2., 9.

D A6140 Administrative Agency Award (not unpaid taxes)

2., 8.

D A6114 Petition/Certificate for Entry of Judgment on Unpaid Tax

2., 8.

D A6112 Other Enforcement of Judgment Case

2., 8., 9.

D A6033 Racketeering (RICO) Case

1., 2., 8.

D A6030 Declaratory Relief Only

1., 2., 8.

D A6040 Injunctive Relief Only (not domestic/harassment)

2., 8.

D A6011 Other Commercial Complaint Case (non-tort/non-complex)

1., 2., 8.

D A6000 Other Civil Complaint (non-tort/non-complex)

1., 2., 8.

D A6113 Partnership and Corporate Governance Case

2., 8.

D A6121 Civil Harassment

2., 3., 9.

D A6123 Workplace Harassment

2., 3., 9.

D A6124 Elder/Dependent Adult Abuse Case

2., 3., 9.

D A6190 Election Contest

2.

D A6110 Petition for Change of Name

2., 7.

D A6170 Petition for Relief from Late Claim Law

2., 3., 4., 8.

D A6100 Other Civil Petition

2., 9.

Asset Forfeiture (05)
Petition re Arbitration ( 11)

Writ of Mandate (02)

C

.!:!
ni
~
::::i
II(

GI

Q.

Construction Defect (10)
Claims Involving Mass Tort
(40)

E

0

u
2:-

ni
C

0

-~

Enforcement
of Judgment (20)

RICO (27)
u:

::::

.!!
C

a "iii
~ Q.

.!! E
"iij 0
u u
Ill
:§ :~

Other Complaints
(Nol Specified Above) (42)

u

Partnership Corporation
Governance (21)

Ill•
::::i:

O·

GI·

C

.!!
"iij
u
Ill

Ill

C
0

:.::

l

~

Other Petitions (Not
Specified Above) (43)

f:E 0
"t,:J

..

~ )

~,.,j

LACIV 109 (Rev 3/15)
LASC Approved 03-04

CIVIL CASE COVER SHEET ADDENDUM
AND STATEMENT OF LOCATION

Local Rule 2.3
Page 3 of 4

e

385a
CASE NUMBER

SHORT TITLE:

DANA LOWE v. DOORDASH, INC.

Item Ill. Statement of Location: Enter the address of the accident, party's residence or place of business, performance, or other
circumstance indicated in Item II., Step 3 on Page 1, as the proper reason for filing in the court location you selected.
AODRESS:

REASON: Check the appropriate boxes for the numbers shown
under Column C for the type of action that you have selected for
this case.

b

1505 E. 111th Street
Los Angeles, CA 90059

1. D 2. QI 3. Qi 4. D 5. D 6. D 7. D 8. rJ 9. :· 10. rn I.

CITY:

STATE:

ZIP CODE:

Los Angeles

CA

90059

Item IV. Declaration of Assignment: I declare under penalty of perjury under the laws of the State of California that the foregoing is true

and correct and that the above-entitled matter is properly filed for assignment to the Stanley Mask
Central

courthouse in the

District of the Superior Court of California, County of Los Angeles [Code Civ. Proc.,§ 392 et seq., and Local

Rule 2.3, subd.(a).

Dated: July 26, 2018

PLEASE HAVE THE FOLLOWING ITEMS COMPLETED AND READY TO BE FILED IN ORDER TO PROPERLY
COMMENCE YOUR NEW COURT CASE:

1.

Original Complaint or Petition.

2.

If filing a Complaint, a completed Summons form for issuance by the Clerk.

3.

Civil Case Cover Sheet, Judicial Council form CM-010.

4.

Civil Case Cover Sheet Addendum and Statement of Location form, LACIV 109, LASC Approved 03-04 (Rev.
03/15).

5.

Payment in full of the filing fee, unless fees have been waived.

6. A signed order appointing the Guardian ad Litem, Judicial Council form CIV-010, if the plaintiff or petitioner is a
minor under 18 years of age will be required by Court in order to issue a summons.
7.

Additional copies of documents to be conformed by the Clerk. Copies of the cover sheet and this addendum
must be served along with the summons and complaint, or other initiating pleading in the case.

LACIV 109

(Rev 3/15)

LASC Approved 03-04

CIVIL CASE COVER SHEET ADDENDUM
AND STATEMENT OF LOCATION

Local Rule 2.3
Page 4 of 4

386a

EXHIBIT X

387a

SUPERIOR COURT OF CALIFORNIA
COUNTY OF SAN FRANCISCO

Document Scanning Lead Sheet
Dec-07-2018 2:38 pm

Case Number: CGC-18-567869
Filing Date: Dec-07-2018 2:37
Filed by: WILLIAM TRUPEK
Image: 06602720
ORDER

CYNTHIA MARCIANO VS. DOORDASH INC.

001C06602720

Instructions:
Please place this sheet on top of the document to be scanned.

388a

V ¿oo(٠ \r /

THE SUPERIOR COURT OF THE STATE OF CALIFORNIA
IN AND FORTmCOI^TY OF SAN FRANCISCO
Ssn Francisco OountySuperiofcofjrt

DEC

Case No. CGC-18-567869

CWTHIA MARCIANO, et al..

‫دا‬

7 2018

QFgEpQURT
-

Plaintiffs,
ORDER GRANTIG MOTION TO STAY
ACTION

vs.
DOORDASH, INC.,
Defendant.

A welter of litigation has been filed to decide the same central issue: whether people who
have worked with DoorDash, Inc. to deliver food from restaurants to consumers are independent
contractors or employees. This particular action was filed under “the Labor Code Private
Attorneys General Act of 2004” (Labor Code §2698 et seq.: PAGA).
DoorDash moves to stay these court proceedings and to compel arbitration. I GRANT
the motion to stay for each of three reasons:
First, other plaintiffs (represented by the same counsel) are presently arbitrating the same
independent conttactor V. employee issue with DoorDash, with hearings set .for early 2019.
Thus, CCP §1281.4 provides that this action “shall be stayed” pending the arbitrations. (See also
Marcus V. Sup. Ct. (1977) 75 Ca!.App.3d 204,209.)
Second, a PAGA action - Marko v. DoorDash, Inc. - that makes the same allegations
seeking the same penalties for the same group of DoorDash delivery providers was first-filed in
Los Angeles County Superior Court. Thus, this San Francisco PAGA action should be stayed in

1

389a
favor of the Los Angeles PAGA action. (See, e.g., Alakozai v. Chase Inv. Servs. Corp. (C.D.Cal.
3/1/12 2012 WL 748548 at 6 (“allowing the two matters to proceed simultaneously would risk
inconsistent judgments and defeat efficiency”).
Third, as recognized by Code of Civil Procedure §128, courts have inherent powers to
control the proceedings before them. Thus, I could, and would, stay this action sua sponte on
grounds of efficiency and consistency even if not required to do so by statute.
Questions of arbitrability are DEFERRED until such time as they need to be decided, if
ever.
Dated: December 7,2018
‫؟‬/?•

Richard B. Ulmer Jr.
Judge of the Superior Court

2

390a

SUPERIOR COURT OF CALIFORNIA
County of San Francisco
CYNTHIA MARCIANO, et al„
Case No. CGC-18-567869
Plaintiffs,
V.

CERTIFICATE OF MAILING
(CCP 1013a (4))

DOORDASH, INC.,
Defendants.

I, William Trupek, a Deputy Clerk of the Superior Court of the County of San Francisco,
certify that I am not a party to the within action.
On December 7,2018,1 served the attached ORDER GRANTING MOTION TO STAY
ACTION, by placing a copy thereof in a sealed envelope, addressed as follows:
MICHAEL J. HOLECEK
GIBSON DUNN
333 SOUTH GRAND AYE.
LOS ANGELES, CA 90071

SHANNON LISS-RIORDAN
LICHTEN & LISS-RIORDAN, P.C.
729 BOYLSTON ST. STE 2000
BOSTON, MA 02116

JOSHUA LIPSHUTZ
GIBSON DUNN
1050 CONNECTICUT AVE. N.W.
WASHINGTON D.C. 20036

I then placed the sealed envelopes in the outgoing mail at 400 McAllister Street, San Francisco, CA.
94102 on the date indicated above for collection, attachment of required prepaid postage, and mailing
on that date following standard court practices.
Dated: December 7, 2018
T. MICHAEL YUEN, Clerk

ByXr^,—
William Trupek,
Deputy Clerk

C

-

391a

EXHIBIT Y

392a

SUPERIOR COURT OF CALIFORNIA, COUNTY OF LOS ANGELES
Civil Division
Central District, Stanley Mosk Cornihouse, Depaiiment 56

December 13, 2018
8:33 AM

BC712973
DAMONE BROWN VS DOORDASH INC

Judge: Honorable Holly J. Fujie
Judicial Assistant: O.Chavez
Courtroom Assistant: B.Chavez

CSR:None
ERM: None
Deputy Sheriff: None

APPEARANCES:
For Plaintiff(s): No Appearances
For Defendant(s): No Appearances

NATURE OF PROCEEDINGS: Hearing on Petition; Case Management Conference

The matter is held this date.
Counsel for Plaintiff and Defendant both submitted to the Court's tentative ruling. The tentative
ruling becomes the Order of the Corni, which is signed and filed this date and incorporated
herein by reference.
Post-Arbitration Status Conference is scheduled for 06/27/2019 at 08:30 AM in Department 56
at Stanley Mosk Comihouse.
Counsel for the moving is to give notice.

Minute Order

Page 1 of 1

393a

2
3
4

SUPERIOR COURT OF THE STATE OF CALIFORNIA

5

FOR THE COUNTY OF LOS ANGELES - CENTRAL DISTRICT

6

DAMONE BRO\VN,

CASE NO.: BC712973

7

Plaintiff,
8

vs.

8:30 a.m.

9
IO
II

DOORDASH, INC., and DOES 1-50,

December 13, 2018
Dept. 56

Defendants.

12

13
14

On July, 2018, Plaintiff filed the operative Complaint alleging a PAGA claim premised o
misclassification.

15
16

17
18
19

20

Defendant DoorDash, Inc. seeks to compel arbitration based on an arbitration provisio
within Plaintiffs independent contractor agreement. (Tang Deel., Exhibit A.) The arbitratio
provision waives the right to arbitrate representative claims. (ibid.) Defendant argues that th
United States Supreme Court's recent decision in Epic Systems Inc. v. Lewis (2018) 138 S.Ct. 1612

("Epic Systems") abrogated the California Supreme Court's ruling in lskanian v. CLS Transp. Los
Angeles, LLC (2014) 59 Cal.4th 348 ("Jskanian") that waivers of representative PAGA claims ar
unenforceable as contrary to public policy.

24

25

- 1-

394a

The Court rejects that Epic Systems had any effect on the ruling in Jskanian. Epic Systems
2

simply pertains to the viability of class action waivers and does not pertain to PAGA. Thus.

3

Plaintiff's representative PAGA claims are to be heard in this Court.

4

5

The parties agree that the arbitrator rnust decide whether Plaintiffs Complaint presents any

6

individualized claims for damages ,vhich must be subject to arbitration. Thus, the Motion i

7

GRANTED IN PART. The Court compels arbitration only to the extent the arbitrator is to decid

8

whether Plaintiff presents individualized claims for damages subject to arbitration. The action i

9

stayed pending~the arbitration proceedings.

10
II

Defendant is ordered to give notice of this ruling.

12

13

Parties who intend to submit on this tei1tative must send an email to the Court a

14

SMCDEPT56@lacourt.org as directed by the instructions provided on the court website a

15

www.lacourt.org. If the department does not receive an email and there are no appearances at th

16

hearing, the motion will be placed off calendar.

17

Dated this 13 111 day of.December 2018

18

/

/

i/

19

I

20

,:,,23
;.,, ...,

24

25

-2-

!

395a

EXHIBIT Z

SUPERIOR COURT OF CALIFORNIA,
COUNTY OF ORANGE
396a CENTER
CIVIL COMPLEX
MINUTE ORDER
DATE: 03/07/2019

TIME: 02:00:00 PM
JUDICIAL OFFICER PRESIDING: Peter Wilson
CLERK: Virginia Harting
REPORTER/ERM: Carolyn Marie Gregor-2351 CSR# 2351
BAILIFF/COURT ATTENDANT: Nestor Peraza

DEPT: CX102

CASE NO: 30-2018-00992677-CU-OE-CXC CASE INIT.DATE: 05/11/2018
CASE TITLE: Suhail Farran vs. Doordash Inc.
CASE TYPE: Other employment
CASE CATEGORY: Civil - Unlimited
EVENT ID/DOCUMENT ID: 72975996
EVENT TYPE: Petition to Compel Arbitration
MOVING PARTY: Doordash Inc.
CAUSAL DOCUMENT/DATE FILED: Motion to Compel Arbitration, 07/02/2018

APPEARANCES
Daniel Hyun, from Aegis Law Firm, PC, present for Plaintiff(s).
Joshua Lipshutz and Michael J. Holecek, from Gibson, Dunn & Crutcher LLP, present for Defendant(s).
Tentative Ruling posted on the Internet.
The Court hears oral argument and confirms the tentative ruling as follows:
The motion of Defendant Doordash, Inc. to Compel Arbitration and Stay the Proceedings is GRANTED.
The parties’ arbitration agreement is governed by the FAA as it involves interstate commerce. (See
Allied-Bruce Terminix Companies, Inc. v. Dobson (1995) 513 U.S. 265, 277.) “The United States
Supreme Court has broadly interpreted the phrase ‘involving commerce’ … as the functional equivalent
of ‘affecting’ commerce. [Citations.] The [FAA’s] reach is expansive and coincides with that of the
commerce clause.” (Scott v. Yoho (2016) 248 Cal.App.4th 392, 400.) “Congress' Commerce Clause
power ‘may be exercised in individual cases without showing any specific effect upon interstate
commerce’ if in the aggregate the economic activity in question would represent ‘a general practice ...
subject to federal control.’ [Citations.] Only that general practice need bear on interstate commerce in a
substantial way.” (Citizens Bank v. Alafabco, Inc. (2003) 539 U.S. 52, 56–57.)
Here, the evidence shows that Defendant operates in 40 states and Canada. Its mobile application is
internet based and its transactions involve technological infrastructure located in various states.
Defendant advertises to customers on the internet. It also communicates with customers, “Dashers,”
restaurants, and other businesses in other states by telephone, mail, and email. (Aughney Decl., ¶¶ 4-6.)
Defendant has sufficient nexus with interstate commerce to require the Agreement to be enforced under
the FAA. (See e.g., Scott v. Yoho (2016) 248 Cal.App.4th 392, 401-02.)
The FAA’s transportation-worker exemption contained in 9 U.S.C. § 1 does not apply to Plaintiff. The

DATE: 03/07/2019
DEPT: CX102

MINUTE ORDER

Page 1
Calendar No.

CASE TITLE: Suhail Farran vs. Doordash Inc.

CASE NO: 30-2018-00992677-CU-OE-CXC

inquiry whether an arbitration agreement involves397a
interstate commerce is separate from the inquiry as to
whether the Section 1 exemption applies. (Circuit City Stores, Inc. v. Adams (2001) 532 U.S. 105,
105-106, 114-19.) The meaning of “in commerce” as used in Section 1 is narrower than Section 2. (Ibid.)
“[S]ection 1 of the FAA exempts only the employment contracts of workers actually engaged in the
movement of goods in interstate commerce.” (Cole v. Burns Intern. Sec. Services (D.C. Cir. 1997) 105
F.3d 1465, 1471; see e.g. Levin v. Caviar, Inc. (N.D. Cal. 2015) 146 F.Supp.3d 1146, 1152-55 [denying
Section 1 exemption where food delivery driver did not make deliveries across state lines].) Section 1
applies to “workers who are actually engaged in the movement of interstate or foreign commerce or in
work so closely related thereto as to be in practical effect part of it.” (Tenney Eng’g v. United Elec., Radio
& Mach. Workers (3d Cir. 1953) 207 F.2d 450, 452.) While New Prime Inc. v. Oliveira (2019) 139 S.Ct.
532 clarified that the Section 1 exemption can apply to independent contractors, it did not otherwise alter
the definition of transportation workers.
Plaintiff has not provided any evidence that his work had any effect on the movement of goods in
interstate commerce. To the contrary, he states he was a “local delivery driver” that “used his personal
vehicle to deliver food from local California restaurants to local California citizens” and “did not engage in
any activity involving interstate commerce.” (Plaintiff’s Supp. Opp., p. 4:15-19.) Thus, the Section 1
exemption does not apply to him.
As to the arbitrability of his claims, Plaintiff does not contest that his first through seventh causes of
action are arbitrable. Nor does he challenge the class action waivers relating to these claims. The Court
notes that these waivers are permitted under the FAA. (See AT&T Mobility LLC v. Concepcion (2011)
563 U.S. 333, 333-34; Iskanian v. CLS Transportation Los Angeles, LLC (2014) 59 Cal.4th 348, 359.)
Thus, these claims are arbitrable.
As to the eighth cause of action, Plaintiff’s argument that his waiver of the UCL claim is unenforceable is
for the Court to determine. (Tang Decl., Ex. A, § XI, ¶ 3 [“[A]ny claim that all or part of this Class Action
waiver is unenforceable, unconscionable, void or voidable may be determined only by a court of
competent jurisdiction and not by an arbitrator.”].) “Agreements to arbitrate claims for public injunctive
relief under the … the UCL … are not enforceable in California.” (McGill v. Citibank, N.A. (2017) 2
Cal.5th 945, 956.) However, Plaintiff’s cause of action does not seek public injunctive relief. The UCL
claim seeks redress for wage and hours violations. This is a private dispute between Plaintiff and
Defendant that provides, at best, an incidental benefit to the public. (See McGill v. Citibank, N.A. (2017)
2 Cal.5th 945, 955-56.) Thus, Plaintiff’s UCL claim is arbitrable.
Defendant has requested a stay pending determination of this petition and a stay pending completion of
the arbitration. Thus, this action has been stayed since July 2018, when Defendant filed this petition.
(Code Civ. Proc., § 1284.4; Twentieth Century Fox Film Corp. v. Superior Court (2000) 79 Cal.App.4th
188, 192.) The Court’s authority during the stay is limited. (See Titan/Value Equities Group, Inc. v.
Superior Court (1994) 29 Cal.App.4th 482, 487.)
Further, the Court finds lifting the stay to allow Plaintiff leave to amend to add a PAGA claim would
cause prejudice to Defendant. (Melican v. Regents of University of California (2007) 151 Cal.App.4th
168, 175.) Defendant would lose the benefit of the parties’ agreement to arbitrate disputes, such as
whether Plaintiff is an independent contractor. (See AT&T Mobility LLC v. Concepcion (2011) 563 U.S.
333, 339 [stating the “liberal federal policy favoring arbitration” and that arbitration agreement must be
enforced “according to their terms”].)

DATE: 03/07/2019
DEPT: CX102

MINUTE ORDER

Page 2
Calendar No.

CASE TITLE: Suhail Farran vs. Doordash Inc.

CASE NO: 30-2018-00992677-CU-OE-CXC

Further, allowing Plaintiff leave to amend would 398a
have little practical benefit for Plaintiff. As Defendant
notes in its reply, at least five PAGA actions predate Plaintiff’s proposed PAGA claim. (Lipshutz Decl.,
Exs. C-G.) Thus, even if Plaintiff added a PAGA claim it would be stayed pending the outcome of the
other actions. (See Alakozai v. Chase Inv. Services Corp. (C.D. Cal., Mar. 1, 2012) 2012 WL 748584, at
*5, aff'd (9th Cir. 2014) 557 Fed.Appx. 658.)
Thus, the Court orders Plaintiff’s claims against Defendants to arbitration and continues the stay of this
action pending arbitration.
Plaintiff’s requests for judicial notice are denied as irrelevant. (Jordache Enterprises, Inc. v. Brobeck,
Phleger & Harrison (1998) 18 Cal.4th 739, 748 fn. 6 [declining to take judicial notice of materials not
“necessary, helpful, or relevant”].)
The Court sets an Arbitration Review Hearing for September 6, 2019 at 9:00 AM.
Moving party to give notice.

DATE: 03/07/2019
DEPT: CX102

MINUTE ORDER

Page 3
Calendar No.

399a

EXHIBIT AA

SUPERIOR COURT OF CALIFORNIA,
400a COUNTY OF LOS ANGELES
Civil Division
Central District, Stanley Mosk Courthouse, Department 26

BC715425
DANA LOWE VS DOORDASH INC
Judge: Honorable Elaine Lu
Judicial Assistant: S. Bousfield
Courtroom Assistant: B. Ly

April 18, 2019
8:30 AM
CSR: Adriana Patron, CSR #13834
ERM: None
Deputy Sheriff: None

APPEARANCES:
For Plaintiff(s): Ariel S. Harman-Holmes
For Defendant(s): Stephanie Victoria Balitzer; Michael J Holecek
Other Appearance Notes: Ryan Wu, appear for plaintiff

NATURE OF PROCEEDINGS: Case Management Conference & OSC RE PROOF OF
SERVICE; Hearing on Motion to Compel Arbitration TO COMPEL ARB & STAY
PROCEEDINGS
Pursuant to Government Code sections 68086, 70044, California Rules of Court, rule 2.956, and
the stipulation of appearing parties, Adriana Patron, CSR #13834, certified shorthand reporter is
appointed as an official Court reporter pro tempore in these proceedings, and is ordered to
comply with the terms of the Court Reporter Agreement. The Order is signed and filed this date.
The matters are called for hearing.
The Court has read and considered the moving papers, opposition, and reply. All counsel are in
receipt of the Court's Tentative Order re: Defendants' Motion to Compel Arbitration. The Court
hears argument from counsel. After consideration of oral argument and documents filed, the
Court adopts its tentative as the order of the Court as modified. The Court will issue a new order.
Defendant Doordash, Inc.,'s Petition to Compel Arbitration and Stay Proceedings is denied as to
Petition to Compel Arbitration. Hearing on Motion for Stay of Proceedings is scheduled for
08/29/19 at 08:30 AM in Department 26 at Stanley Mosk Courthouse. Plaintiff's supplemental
opposition shall be filed on or before 8/1/19. Defendant's supplemental reply shall be filed on or
before 8/15/19.
As all parties have appeared, the Order to Show Cause re: Failure to File Proof of Service is
discharged this date.
Pursuant to oral stipulation, Case Management Conference is scheduled for 08/29/19 at 08:30
AM in Department 26 at Stanley Mosk Courthouse.
The case is stayed until August 29, 2019. The Court hereby stays the case in its entirety.
Minute Order

Page 1 of 2

SUPERIOR COURT OF CALIFORNIA,
401a COUNTY OF LOS ANGELES
Civil Division
Central District, Stanley Mosk Courthouse, Department 26

BC715425
DANA LOWE VS DOORDASH INC
Judge: Honorable Elaine Lu
Judicial Assistant: S. Bousfield
Courtroom Assistant: B. Ly

April 18, 2019
8:30 AM
CSR: Adriana Patron, CSR #13834
ERM: None
Deputy Sheriff: None

Notice is waived.

Minute Order

Page 2 of 2

402a

EXHIBIT BB

403a

2
3
4

5
6

SHANNON LISS-RIORDAN (SBN 310719)
(sliss@llrlaw.com)
LICHTEN & LISS-R IORDAN, P.C.
729 Boylston Street, Suite 2000
Boston, MA 02 11 6
Telephone:
(617) 994-5 800
Facsimile:
(617) 994-5801

Superior Court of Cali rnia,
County of San Franci co

03/12/20 9

Clerk of the Co rt
BY:DAVID YUEN
D e puty Cle rk

Attorney for Plaintiff"Jared Roussel, in his
capacity as Private Attorney General Representative

7
8

SUPERIOR COURT OF THE STATE OF CALIFORNIA

9

FOR THE COUNTY OF SAN FRANCISCO

10

11
12
13

Case No. CGC-19-572934
JARED ROUSSEL,

14

Plaintiff,

FIRST AMENDED COMPLAINT

15
16
17
18
19
20
21
22

23
24
25
26

V.

DOORDASH, INC.,
Defendant.

1. FAILURE TO REIMBURSE FOR
BUSINESS EXPENSES (CAL. LAB.
CODE§ 2802)
2. MINIMUM WAGE (CAL. LABOR
CODE§§ 11 94, 1197)
3. OVERTIME (CAL. LAB. CODE§§
1194, 1198, 510, & 554)
4. WILLFUL MISCLASSIFICATION
(CAL. LABOR CODE § 226.8)
5. PAY STATEMENTS (CAL. LABOR
CODE § 226(a))
6. UNLAWFUL AND/OR UNFAIR
BUSINESS PRACTICES (CAL. BUS.
& PROF. CODE §§ l 7200-17208)
7. PRIVATE ATTORNEY GENERAL
ACT (PAGA) CLAfM FOR CIVIL
PENALTIES (CAL. LAB. CODE
§2698 ET SEQ.)

27
28

1
FIRST AMENDED COMPLAINT

404a
I.

INTRODUCTION

2

1.

This case is brought by Jared Roussel, on behalf of the state of California and

3

other similarly situated aggrieved individuals who have worked for DoorDash Inc. ("DoorDash")
4

as delivery drivers in California. DoorDash provides on-demand takeout food delivery to
5

customers at their homes and businesses through its mobile phone application and website.
6

7
8

DoorDash is based in San Francisco, California, but it does business across the United States and
extensively throughout California.
2.

9
10

As described further below, DoorDash has willfully misclassified its delivery

drivers including Plaintiff Roussel in violation of Cal. Labor Code § 226.8. Additionally,

11

because of delivery drivers' misclassification as independent contractors, DoorDash has

12

unlawfully required Mr. Roussel to pay business expenses (including expenses to own or lease a

13

vehicle and maintain and fuel it, as well as phone/data expenses) in violation of Cal. Lab. Code§

14

2802 and has also failed to pay required minimum wage for all hours worked in violation of Cal.

15

Lab. Code§§ 1194, 1197 and has failed to pay the appropriate overtime premium for all

16

overtime hours worked beyond forty per week or eight per day in violation of Cal. Lab. Code §§

17

1194, 1198, 510, and 554. Likewise, DoorDash has failed to provide proper itemized wage

18

statements in violation of Cal. Lab. Code § 226(a) because it does not explain the piece-rate basis

19

on which drivers are paid and does not break out the amount of drivers' wages and tips, among

20

other reasons. Plaintiffs brings his claims pursuant to the Private Attorney General Act

21

("PAGA''), Cal. Lab. Code§ 2699, et seq., on behalf of the state of California and all other

22

23
24
25

26

similarly situated aggrieved employees who have been misclassified by DoorDash in California
since December 3, 2017.
II.

PARTIES
3.
Plaintiff Jared Roussel is an adult resident of San Francisco, California, where he

has worked as a delivery driver for DoorDash since May 2018.

27

28

2

FIRST AMENDED COMPLAINT

405a
4.

Defendant DoorDash, Inc. ("DoorDash") is headquartered in San Francisco,

2

California.
3

III.

JURISDICTION

4

5.

This Court has jurisdiction over Plaintiffs claims pursuant to California Code of

5

Civil Procedure§ 410.10.
6

6.

7
8
9
10

Venue is proper in this Court because DoorDash has its principal place of

business in San Francisco County and Plaintiff resides in San Francisco County.

IV.

STATEMENT OF FACTS
7.

DoorDasb is a food delivery service, based in San Francisco, which engages

11

delivery drivers across the state of California to deliver food and other merchandise to its

12

customers at their homes and businesses.

13

8.

DoorDash offers customers the ability to request a driver on a mobile phone

14

application or online through its website, who will go to the restaurant and pick up their food,

15

then deliver it to the customer at their home or business.

16

9.

DoorDash holds itself out to the public as a food delivery service. Its tagline is

17

"Delivering Good", and its website advertises, "[w ]ith your favorite restaurants at your fingertips

18

DoorDash satisfies your cravings and connects you with possibilities -

19

for yourself and those you love."

more time and energy

20

10.

Plaintiff Jared Roussel has driven for DoorDash over the last year.

21

11.

DoorDash classifies its delivery drivers like Mr. Roussel as " independent

22

23
24

contractors," but under California law, they should be classified as employees.

12.

Plaintiff Roussel and other DoorDash delivery drivers perform services within

DoorDash's usual course of business as a takeout food delivery service. The delivery drivers'

25

services are fully integrated into DoorDash' business. Without delivery drivers to perform
26

deliveries, DoorDash would not exist.
27

28

3
FIRST AMENDED COMPLAINT

406a
13.

DoorDash delivery drivers like Plaintiff Roussel are not typically engaged in their

2

own food delivery business. When delivering items for DoorDash customers, they wear the "hat"
3

of DoorDash.
4

14.

In addition, DoorDash maintains the right of control over the delivery drivers'

5

performance of their jobs and exercises detailed control over them.
6

7
8
9
10

15.

For example, drivers must follow DoorDash's instructions regarding where

to report for their shifts and where to go to pick up or await deliveries. Drivers can be
penalized or terminated for missing scheduled shifts or cancelling their shifts too close
to the start time. DoorDasb bas collected various metrics regarding its drivers' performance,

11

including (1) drivers' customer rating (out of five stars, with five being the highest},

12

which is used to gauge customers' satisfaction with a delivery; (2) drivers' acceptance

13

rating, which gauges how many deliveries drivers were assigned and accepted over the

14

last 100 deliveries; and (3) drivers' completion rating, which gauges the number of

15

deliveries drivers completed that they accepted. If drivers' ratings fall below DoorDash's

16

minimum thresholds they may be tem1inated.

17

16.

DoorDash communicates directly with customers and follows up with delivery

18

drivers if the customer complains that something was not delivered or that the delivery otherwise

19

failed to meet their expectations. Based on any customer feedback, DoorDash may suspend or

20

terminate delivery drivers.

21

22

23
24

17.

DoorDash unilaterally sets the pay scheme and rate of pay for delivery drivers'

services and changes the rate of pay in its sole discretion.
18.

DoorDasb does not reimburse delivery drivers for any expenses they may incur

while working for DoorDash, including, but not limited to the cost of maintaining their vehicles,

25

gas, insurance, and phone and data expenses for running the DoorDash Application. Delivery
26
27

28

4
FIRST AMENDED COMPLAINT

407a
drivers incur these costs as a necessary expenditure to work for DoorDash, which California law
2

requires employers to reimburse.
3

19.

DoorDash pays its drivers a guaranteed delivery fee for each delivery plus tips

4

they receive from customers. DoorDash has failed to ensure that its delivery drivers receive the
5

applicable state minimum wage for all hours worked, and delivery drivers frequently do not
6

7
8
9
10

11

receive minimum wage for all hours worked, particularly given that customers' tips cannot count
toward DoorDash's minimum wage obligations. Furthermore, DoorDash does not provide
transparent itemized wage statements to drivers with information regarding how their pay is
calculated or what portion of pay is attributable to tips as opposed to wages from DoorDash.
20.

On April 30, 2018, the California Supreme Court issued its decision in Dynamex

12

Operations W. v. Superior Court, 4 Cal. 5th 903, 416 P.3d 1 (2018), reb'g denied (June 20,

13

2018), which makes clear that DoorDash delivery drivers should be classified as employees

14

rather than as independent contractors under California law for purposes of wage-and-hour

15

statutes like the ones at issue here. Under the "ABC" test adopted in Dynamex, in order to

16

justify classifying the delivery drivers as independent contractors, DoorDash would have to

17

prove that its delivery drivers perform services outside its usual course of business, which it

18

cannot do. Notwithstanding this decision, DoorDash has willfully continued to misclassify its

19

delivery drivers as independent contractors.

20
21

22

23
24
25

V. PAGA REPRESENTATIVE ACTION ALLEGATIONS
21.

Plaintiff alleges that DoorDash violated the Labor Code by willfully

misclassifying its delivery drivers in violation of Cal. Labor Code § 226.8. Plaintiff also alleges
that DoorDash has violated PAGA by failing to reimburse delivery driver employees for all
reasonably necessary expenditures incurred by drivers in discharging their duties, including fuel ,
insurance, and maintenance costs in violation of Cal. Lab. Code § 2802. Plaintiff also alleges

26

that DoorDash has violated Cal. Lab. Code§§ 11 97 and 1194 by failing to ensure that its
27

28

5
FIRST AMENDED COMPLAINT

408a
delivery drivers receive the applicable state minimum wage for all hours worked and by
2

impennissibly counting customers' tips toward their minimum wage obligations. DoorDash has
3

violated Cal. Lab. Code§§ 1194, 1198, 510, and 554 by failing to pay the appropriate overtime
4

premium for all overtime hours worked beyond forty per week or eight hours per day. Finally,
5

DoorDash has also violated Cal. Lab. Code§ 226(a) by failing to provide itemized wage
6

7
8
9
10

statements.
22.

On December 3, 2018, Plaintiff Roussel gave written notice ofDoorDash's

violations to the California Labor Code as alleged in this complaint to the Labor and Workforce
Development Agency ("LWDA") via online filing and to Defendant DoorDash's general counsel

11

via ce1tified mail.

12

23.

It bas been 65 days since the LWDA was notified of the Labor Code violations

13

asserted in this Complaint, and the L WDA has not provided any notice that it will or will not

14

investigate the alleged violations. See Cal. Lab. Code§ 2699.3(a)(2)(A).

15

COUNTI
Expense Reimbursement
Violation of Cal. Lab. Code § 2802

16
17

18

21.

Plaintiff realleges and incorporates by reference the allegations in the preceding

19

paragraphs as if fully alleged herein. Defendant's conduct, as set fmth above, in misclassifying

20

Plaintiff Roussel as an independent contractor and failing to reimburse him for expenses that he

21

paid that should have been borne by his employer, constitutes a violation of California Labor

22

Code Section 2802.

23
24
25

26
27

28

6

FIRST AMENDED COMPLAINT

409a
COUNT II
Willful Misclassification
Violation of Cal. Lab. Code § 226.8

2
3
4

5
6

7

22.

Plaintiff realleges and incorporates by reference the allegations in the preceding

paragraphs as if fully alleged herein. Defendant's conduct, as set forth above, in continuing to
classify Mr. Roussel as an independent contractor notwithstanding the California Supreme
Comt's decision in Dynamex Operations W. v. Superior Court, 4 Cal. 5th 903,4 16 P.3d 1
(2018), reh'g denied (June 20, 2018), which makes clear that delivery drivers are its employees

8

under California law, violates Cal. Lab. Code §226.8 and constitutes willful misclassification.
9
10

COUNT III
Minimum Wage
Violation of Cal. Lab. Code §§ 1197 and 1194

11
12

23.

Plaintiff realleges and incorporates by reference the allegations in the preceding

13

paragraphs as if fully alleged herein. Defendant's conduct, as set forth above, in failing to pay
14

Plaintiff Roussel minimum wage for all hours worked as required by California law, violates Cal.
15

Lab. Code§§ 1197 and 1194.
16
17

COUNTIV
Overtime
Violation of Cal. Lab. Code§§ 1194, 1198, 510, and 554

18
19

23.

Plaintiff realleges and incorporates by reference the allegations in the preceding

20

paragraphs as if fully alleged herein. Defendant's conduct, as set forth above, in failing to pay
21

Plaintiff Roussel minimum wage for all hours worked as required by California law, violates Cal.
22

Lab. Code§§ 1197 and 1194.
23
24
25

26
27

28

7
FIRST AMENDED COMPLAINT

410a
COUNTV
Pay Statements
Violation of Cal. Lab. Code § 226(a)

2
3

24.

4

Plaintiff realleges and incorporates by reference the allegations in the preceding

5

paragraphs as if fully alleged herein. Door Dash's conduct, as set forth above, in failing to

6

provide itemized wage statements, as required by California state law, violates Cal. Lab. Code§

7

226(a).

8

COUNT VJ
Unfair Business Practices
Violation of Cal. Bus. & Prof. Code §17200, et seq.

9
10

25.

11

Defendant's conduct, as set forth above, violates the California Unfair

12

Competition Law, Cal. Bus. & Prof. Code§ 17200 et seq. ("UCL"). Defendant's conduct

13

constitutes unlawful business acts or practices, in that Defendant has violated California Labor

14

Code§§ 2802, 1194, 1197, 1198, 510,554, 226(a) and 226.8. As a result of Defendant's

15

unlawful conduct, Plaintiff suffered injury in fact and lost money and property, including, but not

16

limited to business expenses he was required to pay and wages that he was due. Pursuant to

17

California Business and Professions Code§ 17203, Plaintiff seeks declaratory and injunctive

18

relief for Defendant's unlawful conduct and to recover restitution. The nature of this relief is in

19

the public interest, since Defendant's violation of the Labor Code in misclassifying drivers like

20

Plaintiff, and failing to provide the protections of the Labor Code, ham1s the public interest (and

21

22

23
24

not just drivers like Plaintiff), in that it burdens the govermnent and taxpayers, as well as
complying competitors, and also negatively harms the labor market as a whole, particularly in
the delivery industry. Pursuant to California Code of Civil Procedure § 1021 .5, Plaintiff is
entitled to recover reasonable attorneys' fees, costs, and expenses incurred in bringing this

25

action.
26
27

28

8
FIRST AMENDED COMPLAINT

411a
2
3
4

5
6

7

COUNT VII
Penalties Pursuant to Labor Code Private Attorneys General Act of 2004
Violation of Cal. Lab. Code §§ 2698, et seq., 558
26.

Plaintiff realleges and incorporates by reference the allegations in the preceding

paragraphs as if fully alleged herein. Plaintiff is an aggrieved employee as defined by Cal. Lab.
Code § 2699(c) as he was employed by DoorDash during the applicable statutory period and
suffered injury as a result of DoorDash's Labor Code violations. Accordingly, Plaintiff seeks to

8

recover on behalf of the State of California, as well as himself and all other cw-rent and fo1mer
9

aggrieved employees of DoorDash who have worked in California, the civil penalties provided
10

by PAGA, plus reasonable attorney's fees and costs.
11

27.

DoorDash delivery drivers are entitled to penalties for DoorDash' s violations of

12

13

14
15
16

Cal. Lab. Code§ 2802, § 226(a), § 226.8, §§ 1194, 1197, and§§ 1194, 1198, 510, and 554, as set
forth by Cal. Lab. Code §2699(f) and§ 558. Plaintiff seeks civil penalties pursuant to PAGA
for: (1) failure to reimburse delivery driver employees for all necessary expenditures incmTed in
performing their duties, including but not limited to owning or leasing and maintaining their

17

vehicles, fuel, phones, and data, in violation of Cal. Lab. Code §2802; (2) the willful

18

misclassification of delivery workers as independent contractors in violation of Cal. Lab. Code §

19

226.8; (3) failure to assure that all delivery drivers received minimum wage for all hours worked

20

in violation of Cal. Lab. Code§§ 1194, 1197; (4) failure to assure that all delivery drivers

21

received the appropriate overtime premium for all overtime hours worked beyond forty per week

22

or eight hours per day in violation of Cal. Lab. Code§§ 1194, 1198, 510, and 554; and (5) failure

23

to provide proper itemized wage statements in violation of Cal. Lab. Code§ 226(a).

24

28.

Cal. Lab. Code § 2699(f) provides for civil penalties for violation of all Labor

25

Code provisions for which no civil penalty is specifically provided. There is no specified civil

26

penalty for violations of Cal. Lab. Code § 2802. With respect to minimum wage violations

27

28

9

FIRST AMENDED COMPLAINT

412a
under Cal. Lab. Code §§ 1197 and 1194, § 1197. l imposes a civil penalty in addition to any
2

other penalty provided by law of one hundred ($100) for each underpaid employee for each pay
3

period for which the employee is underpaid in addition to an amount sufficient to recover
4

underpaid wages and liquidated damages, and, for each subsequent violation of Labor §§ 1197
5

and 1194, two hundred and fifty dollars ($250) for each underpaid employee for each pay period
6

7
8
9
10

for which the employee is underpaid in addition to an amount sufficient to recover underpaid
wages and liquidated damages. With respect to overtime violations under Labor Code §§ 510
and 558, the statute imposes a civil penalty in addition to any other penalty provided by law of
fifty dollars ($50) for initial violations for each underpaid employee for each pay period for

11

which the employee was underpaid in addition to an amount sufficient to recover unpaid wages,

12

and one hundred dollars ($100) for subsequent violations for each underpaid employee for each

13

pay period for which the employee was underpaid in addition to an amount sufficient to recover

14

underpaid wages. With respect to violations of Labor Code§ 226(a), Labor Code§ 226.3

15

imposes a civil penalty in addition to any other penalty provided by law of two hundred fifty

16

dollars ($250) per aggrieved employee for the first violation, and one thousand dollars ($1 ,000)

17

per aggrieved employee for each subsequent violation of Labor Code§ 226(a). With respect to

18

violations of Labor Code§ 226.8, Labor Code§ 226.8(b) imposes a civil penalty of not less than

19

five thousand dollars ($5,000) and not more than fifteen thousand dollars ($15,000) for each

20

violation.

21

22

23
24
25

29.

Plaintiff complied with the notice requirement of Cal. Lab. Code §2699.3 and

served a written notice to the California Labor & Workforce Development Agency ("LWDA")
through its website's online fi ling portal, and on Defendant DoorDash via Certified Mail, return
receipt requested, on December 3, 2018. It has been 65 days or more since the LWDA was
notified of the Labor Code violations asserted in this Complaint, and the LWDA has not

26

provided any notice that it will or will not investigate the alleged violations.
27

28

10
FIRST AMENDED COMPLAINT

413a
1

WHEREFORE, Plaintiff requests that this Court enter the following relief:

2

a. Declare and find that the Defendant has violated the UCL and Cal. Lab. Code§§
3

2802, 1194, 1197, 226(a), and 226.8;
4

b. Enter Judgment in Plaintiffs' favor on their PAGA claim pursuant to Cal. Lab. Code §
5

2699(c};
6

c. Award penalties in an amount according to proof;

7

d. Award compensatory damages, including all expenses and wages owed, in an amount

8

according to proof;

9

e. Award pre- and post-judgment interest;

10

f.

11

Award reasonable attorneys' fees, costs, and expenses;

g. Public injunctive relief in the fonn of an order requiring Defendant to comply with

12

the California Labor Code; and

13

h . Any other relief to which Plaintiff may be entitled.

14
15

16
17

Respectfully submitted,

18

JARED ROUSSE L,

19

By his attorney,

20

L~h-Lc

21
22

Shannon Liss-RiOTdan, SBN 310719
LICHTEN & LISS-RIORDAN, P.C.
729 Boylston Street, Suite 2000
Boston, NIA 02 11 6
(617} 994-5800
Email; sliss@llrlaw.com

23
24
25
26

Dated:

March 12, 2019

27
28

11
FIRST AMENDED COMPLAINT

414a

EXHIBIT CC

Case 3:19-cv-01513 Document 1 Filed 03/22/19 Page 1 of 19

415a
1
2
3
4
5
6
7
8
9

Robert R. Debes, Jr.(Pending PHV)
bdebes@eeoc.net
Ricardo J. Prieto (Pending PHV)
rprieto@eeoc.net
SHELLIST | LAZARZ | SLOBIN LLP
11 Greenway Plaza, Suite 1515
Houston, Texas 77046
Telephone: (713) 621-2277
Facsimile: (713) 621-0993
Melinda Arbuckle, Cal. Bar No. 302723
marbuckl@baronbudd.com
BARON & BUDD, P.C.
15910 Ventura Boulevard, Suite 1600
Encino, California 91436
Telephone: (818) 839-6506
Facsimile: (818) 986-9698

10

Counsel for Plaintiff, Noah Goldman-Hull, and Proposed Class and Collective Action Members

11

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN FRANCISCO DIVISION

12
13
14
15
16
17
18

Case No: 3:19-cv-01513

NOAH GOLDMAN-HULL, on behalf of
himself and all others similarly situated,

PLAINTIFF’S ORIGINAL COMPLAINT
FOR VIOLATIONS OF FLSA AND
CALIFORNIA LAWS

Plaintiff,
vs.

FLSA COLLECTIVE ACTION

DOORDASH, INC.,

RULE 23 CLASS ACTION

Defendant.

PAGA REPRESENTATIVE ACTION

19

DEMAND FOR JURY TRIAL

20

Plaintiff Noah Goldman-Hull (“Goldman-Hull” or “Plaintiff”), on behalf of himself and

21

all others similarly situated, files this Original Complaint against Defendant DoorDash, Inc. and

22

shows in support as follows:

23
24

I.
1.

INTRODUCTION AND NATURE OF ACTION

Defendant, DoorDash, Inc. (referred to hereinafter as “Defendant” and/or

25

“DOORDASH”), provides takeout food delivery via a phone application and website throughout

26

the country. To do so, it employs delivery drivers (a/k/a “Dashers”). Defendant misclassifies

27
28

-1-

Case No. 3:19-cv-01513
Plaintiff’s Original Complaint

Case 3:19-cv-01513 Document 1 Filed 03/22/19 Page 2 of 19

416a
1

Plaintiff and its other Dashers as “independent contractors” rather than “employees” and fails to

2

pay them for all hours worked.

3

2.

This is an action brought under the Fair Labor Standards Act, 29 U.S.C. §§ 201-

4

219, and the Portal-to-Portal Act, 29 U.S.C. §§ 251-262 (collectively, the “FLSA”) seeking

5

damages for Defendant’s failure to pay the federally-mandated minimum wage. Plaintiff brings

6

this action on behalf of similarly situated Dashers misclassified by Defendant as independent

7

contractors located nationwide as a collective action under 29 U.S.C. § 216(b).

8
9

3.

This action is also brought under the California Labor Code § 226.8 for the willful

misclassification of its Dashers, California Labor Code § 2802 for unlawfully requiring its

10

misclassified Dashers to pay business expenses, California Labor Code §§ 1194 and 1197 for

11

failing to pay the required minimum wage for all hours worked, and California Labor Code §

12

226(a) for failing to provide itemized wage statements. Plaintiff brings the California State Law

13

claims as a class action under FED. R. CIV. P. 23.

14

4.

Finally, this action is brought under the California Private Attorneys General Act,

15

(“PAGA”) for Defendant’s various aforementioned violations of California State Law seeking

16

statutory penalties assessed in connection with PAGA. Plaintiff brings the claims under PAGA

17

as a representative action pursuant to that statute.

18
19
20
21
22
23
24
25
26
27
28

II.
A.

THE PARTIES

Plaintiff Goldman-Hull
5.

Plaintiff Noah Goldman-Hull is an individual residing in San Mateo County,

California. He has standing to file this lawsuit.
6.

Goldman-Hull is a current employee of Defendant who works as a Dasher from

approximately December 1, 2018 to the present.
7.

Goldman-Hull’s written consent to participate in this action is attached to this

Complaint as Exhibit 1.
8.

Plaintiff has provided written notice by certified mail and electronic submission to

the California Labor & Workforce Development Agency (“LWDA”) and to Defendant through
-2-

Case No. 3:19-cv-01513
Plaintiff’s Original Complaint

Case 3:19-cv-01513 Document 1 Filed 03/22/19 Page 3 of 19

417a
1

its registered agent of the legal claims and theories of this case. In the event the LWDA does not

2

investigate Defendant’s actions, Plaintiff seeks to represent similarly situated technicians

3

pursuant to PAGA.

4

B.

5

Putative Collective Action Members
9.

The putative Collective Action Members are all current and former Dashers

6

misclassified by Defendant as independent contractors who work or worked for Defendant

7

nationwide at any time within the three years prior to the filing of the Original Complaint

8

through the date of final disposition of this action.

9

10.

Plaintiff seeks to represent the Collective Action Members seeking damages for

10

claims of unpaid minimum wages pursuant to the FLSA, and is similarly situated to the

11

Collective Action Members pursuant to 29 U.S.C. § 216(b).

12

C.

13

Putative California Class Action Members
11.

The putative California Class Action Members are all current and former Dashers

14

misclassified by Defendant as independent contractors who work or worked for Defendant in

15

California at any time within the four years prior to the date of filing of this Complaint through

16

the date of the final disposition of this action.

17

12.

Plaintiff seeks to represent the California Class Action Members, seeking

18

damages for the California State Law Claims, described further below. Plaintiff is a proper class

19

representative pursuant to FED. R. CIV. P. 23(a)(4).

20

D.

21

Defendant DoorDash, Inc.
13.

Defendant DoorDash, Inc. is headquartered in San Francisco, California.

22

Doordash, Inc. is a Delaware corporation that is licensed to do business (and is doing business)

23

in the State of California. Doordash, Inc. may be served through its registered agent, Registered

24

Agent Solutions, Inc., 2138 Silas Deane Hwy. Suite 101, Rocky Hill, CT 06067.

25
26

14.

At all times relevant to this lawsuit, Defendant has been an “enterprise engaged in

commerce” as defined by the FLSA.

27
28

-3-

Case No. 3:19-cv-01513
Plaintiff’s Original Complaint

Case 3:19-cv-01513 Document 1 Filed 03/22/19 Page 4 of 19

418a
1
2
3

15.

At all times relevant to this lawsuit, Defendant employed, and continues to

employ, two or more employees.
16.

At all times relevant to this lawsuit, Defendant employed two or more employees

4

who engaged in commerce and/or who handled, sold or otherwise worked on goods or materials

5

that have been moved in or produced for commerce by any person.

6
7

17.

gross operating revenues or business volume in excess of $500,000.

8
9
10
11

On information and belief, at all times relevant to this lawsuit, Defendant has had

III.
18.

JURISDICTION AND VENUE

This Court has federal question jurisdiction over all claims pursuant to 28 U.S.C.

§ 1331 and the FLSA at 29 U.S.C. § 216(b).
19.

This Court also has supplemental jurisdiction over Plaintiff’s California State Law

12

claims pursuant to 28 U.S.C. § 1367 because those claims derive from a common nucleus of

13

operative fact.

14
15
16

20.

This Court is empowered to issue a declaratory judgment with respect to all

claims pursuant to 28 U.S.C. §§ 2201 & 2202.
21.

The United States District Court for the Northern District of California has

17

personal jurisdiction over Defendant because Defendant does business in California and in this

18

District, and because many of the acts complained of and giving rise to the claims alleged

19

occurred in California and in this District.

20
21
22

22.

Venue is proper in this District pursuant to 28 U.S.C. § 1391(b) because a

substantial part of the events giving rise to all claims occurred in this District.
23.

Intradistrict Assignment: This lawsuit should be assigned to the San Francisco

23

Division of this Court because a substantial part of the events or omissions which give rise to this

24

lawsuit occurred in San Mateo County.

25
26
27
28

-4-

Case No. 3:19-cv-01513
Plaintiff’s Original Complaint

Case 3:19-cv-01513 Document 1 Filed 03/22/19 Page 5 of 19

419a
IV.
FACTUAL BACKGROUND
(APPLICABLE TO ALL CLAIMS FOR RELIEF)

1
2
3

24.

DoorDash is a food delivery service which provides home and office food

delivery to its customers.

4

25.

Plaintiff was hired to work as a delivery driver/Dasher for Defendant.

5

26.

DoorDash does not pay Plaintiff or its other Dashers an hourly wage or a salary;

6

rather, Plaintiff receives the “delivery fee” that is paid by DoorDash’s customers, as well as any

7

gratuity that the customer pays to the Dasher. DoorDash, not Plaintiff or the other Dashers,

8

determines the “delivery fee.”

9

27.

While DoorDash classifies Plaintiff as an “independent contractor,” Plaintiff is

10

truly an “employee” pursuant to the FLSA’s economic realities test, and pursuant to the “ABC”

11

test under California state law, as set forth in Dynamex Operations W., Inc. v. Superior Court, 4

12

Cal.5th 903 (2018).

13

28.

For instance, Plaintiff does not determine the amount he will charge DoorDash for

14

his services; rather, DoorDash decides how much of a “delivery fee” its customers will pay and

15

simply passes that charge on to the Plaintiff as his sole compensation.

16
17
18

29.

DoorDash provides Plaintiff and its other Dashers with the customers for whom

the delivery services are to be performed.
30.

DoorDash requires Plaintiff and its other Dashers to comply with certain rules,

19

regulations, policies and procedures in order to work for them. A Dasher who fails to comply

20

with said policies is subject to reprimand and/or termination.

21

31.

Plaintiff and the other Dashers all perform delivery services within DoorDash’s

22

usual course of business as a food delivery service. Without delivery drivers/Dashers, DoorDash

23

would not exist.

24
25
26
27
28

32.

DoorDash unilaterally sets the pay scheme and rate of pay for Plaintiff and its

other Dashers. This rate of pay is not negotiated by and among DoorDash and its Dashers.
33.

DoorDash has a single pay practice and/or policy that applies to Plaintiff and all

of its other Dashers.
-5-

Case No. 3:19-cv-01513
Plaintiff’s Original Complaint

Case 3:19-cv-01513 Document 1 Filed 03/22/19 Page 6 of 19

420a
1
2
3

34.

Pursuant to DoorDash’s policy, it does not reimburse Plaintiff or any of its

Dashers for the cost of owning/leasing a vehicle, nor the cost to fuel or maintain it.
35.

Moreover, DoorDash: (i) had the power to discipline and/or terminate Plaintiff

4

and the Class Members, (ii) regularly supervised and controlled work conditions of employment

5

for Plaintiff and Class Members, (iii) determined the rate and method of payment of wages, (iv)

6

paid Plaintiff and Class Member wages and made deductions to his wages, and (v) maintained

7

employment records of Plaintiff and Class Members.

8
9

36.

Plaintiff was not a member of management. Neither he nor any other Class

Member had authority to (nor did they): manage an enterprise, hire or fire other employees, set

10

the pay rates of other employees, create policies or procedures to govern Defendant’s employees,

11

handle employee grievances, determine the type of equipment or materials that Defendant could

12

use in their operations, plan and/or set Defendant’s budget, enter into contracts on behalf of

13

Defendant, or otherwise have operational control over Defendant’s business operations and

14

practices. Moreover, Plaintiff and the Dasher Class Members did not perform office or non-

15

manual work directly related to the management or general business operations of Defendant or

16

their customers, nor did they exercise discretion and independent judgment with respect to

17

matters of significance in the conduct of Defendant’s businesses.

18

37.

Plaintiff and the Dasher Class Members were at all times “non-exempt”

19

employees and eligible to receive the minimum wage pay pursuant to the FLSA and California

20

state law.

21

38.

Moreover, DoorDash fails to reimburse Plaintiff and its other Dashers for the

22

normal and customary business expenses incurred on DoorDash’s behalf in connection with the

23

delivery services they provide. These expenses include, but are not limited to, (i) Plaintiff’s use

24

of a personal vehicle (i.e. gasoline and maintenance), (ii) the cost of liability insurance, (iii)

25

damage claims, (iv) parking and toll road charges incurred while picking up/dropping off

26

deliveries; (v) the cost of a cell phone, and all other tools/equipment in order to do the work

27

required. By failing to reimburse Plaintiff for these expenses, Plaintiff has often earned less than

28

-6-

Case No. 3:19-cv-01513
Plaintiff’s Original Complaint

Case 3:19-cv-01513 Document 1 Filed 03/22/19 Page 7 of 19

421a
1

the statutory minimum and overtime wage required by the FLSA and under California state law

2

during many workweeks.

3

39.

Finally, DoorDash does not provide proper itemized wage statements that explain

4

the piece rate basis on which Dashers are paid and does not break out the amount of drivers’

5

wages and tip, among other reasons.

6

V.

7

40.

8

this section.

9

A.

FLSA CLAIMS FOR MINIMUM WAGE

Plaintiff incorporates the preceding paragraphs by reference as if set forth fully in

FLSA Coverage

10

41.

All conditions precedent to this suit, if any, have been fulfilled.

11

42.

At all times relevant to this lawsuit, Defendant was an eligible and covered

12

employer under the FLSA pursuant to 29 U.S.C. § 203(d).

13
14

43.

At all times relevant to this lawsuit, Defendant has been an enterprise engaged in

commerce under the FLSA pursuant to 29 U.S.C. § 203(s)(1)(A).

15

44.

At all times relevant to this lawsuit, Defendant has employed, and continues to

16

employ, employees including Plaintiff and the putative Collective Action Members who engaged

17

in commerce or in the production of goods for commerce as required by 29 U.S.C. §§ 206-207.

18

45.

At all relevant times, Defendant has had gross operating revenues or business

19

volume in excess of $500,000.

20

B.

21
22
23
24
25

FLSA Allegations
46.

At all relevant times, Plaintiff and the Putative Collective Action Members were

employees of Defendant pursuant to the FLSA.
47.

The FLSA generally requires that employers pay their employees the minimum

wage for all hours worked. 29 U.S.C. § 206(a)(1).
48.

Defendant misclassifies Plaintiff and its other delivery drivers as “independent

26

contractors” rather than “employees” and fails to pay them for all hours worked. In addition,

27

Defendant has required Plaintiff and its other Dashers to pay business expenses (including

28

-7-

Case No. 3:19-cv-01513
Plaintiff’s Original Complaint

Case 3:19-cv-01513 Document 1 Filed 03/22/19 Page 8 of 19

422a
1

expenses incurred to own/lease a vehicle, maintain it, and fuel it) causing Plaintiff to be paid less

2

than the statutory minimum wage required by Sections 206 of the FLSA. As a result, Defendant

3

violates the minimum wage provisions of the FLSA.

4

C.

5

Collective Action Allegations
49.

Plaintiff brings this suit as a collective action pursuant to 29 U.S.C. § 216(b) on

6

behalf of himself and all other persons employed by Defendant as a delivery service driver (i.e.

7

Dasher) within three (3) years from the filing of this suit who, like Plaintiff, (i) have been

8

misclassified as an “independent contractor;” and (ii) who have not been compensated at least

9

the full statutory minimum wage for all hours worked up to 40 each week. Those who file a

10
11

written consent will be a party to this action pursuant to 29 U.S.C. § 216(b) (the “FLSA Class”).
50.

Plaintiff has actual knowledge that putative Collective Action Members have been

12

misclassified and denied their minimum wage. Plaintiff worked with other Dashers employed by

13

Defendant. As such, he has personal knowledge of the pay violations. Furthermore, other

14

Dashers have shared with him that they experienced similar pay violations as those described in

15

this complaint. In fact, other Dashers who worked for Defendant have opted into this lawsuit as

16

opt-in Plaintiffs.

17
18
19
20
21

51.

Other Dashers similarly situated to Plaintiff work or have worked for Defendant

and did not receive their minimum wage.
52.

Other Dashers similarly situated to Plaintiff work or have worked for Defendant

and were misclassified as independent contractors.
53.

The putative Collective Action Members are similarly situated to Plaintiff in all

22

relevant respects, having performed the same work duties as Plaintiff and being similarly situated

23

with regard to Defendant’s pay practices – specifically, misclassifying Dashers as independent

24

contractors and denying them their minimum wage pay.

25
26

54.

The putative Collective Action Members are similar to Plaintiff in terms of job

duties, pay structure, and the denial of all due and owing wages.

27
28

-8-

Case No. 3:19-cv-01513
Plaintiff’s Original Complaint

Case 3:19-cv-01513 Document 1 Filed 03/22/19 Page 9 of 19

423a
1

55.

Defendant’s failure to pay the minimum wage to Dashers it misclassifies as

2

independent contractors results from generally applicable policies or practices, and does not

3

depend on the personal circumstances of the putative Collective Action Members.

4
5

56.

thereof, is typical of the experiences of the putative Collective Action Members.

6
7

57.

10

58.

to all of the technician employees.
59.

All current and former Dashers who worked for Defendant nationwide from
any time starting three years before a collective action may be conditionally
certified in the case until the date the case resolves.

14
15
17
18
19

Plaintiff proposes that the class of putative Collective Action Members be defined

as:

13

16

Although the exact amount of damages may vary among the putative Collective

Action Members, the damages are easily calculable using a simple formula uniformly applicable

11
12

The specific job titles or precise job responsibilities of each putative Collective

Action Member does not prevent collective treatment.

8
9

The experiences of Plaintiff with respect to his misclassification and pay, or lack

VI.
A.

CALIFORNIA STATE LAW CLAIMS

Controlling California State Law and Allegations
60.

Plaintiff incorporates the preceding paragraphs by reference as if set forth fully in

this section, unless inconsistent.
61.

This action is also brought under the California Labor Code § 226.8 for the willful

20

misclassification of its Dashers, California Labor Code § 2802 for unlawfully requiring its

21

misclassified Dashers to pay business expenses, California Labor Code §§ 1194 and 1197 for

22

failing to pay the required minimum wage for all hours worked, and California Labor Code §

23

226(a) for failing to provide itemized wage statements. Plaintiff brings the California State Law

24

claims as a class action under FED. R. CIV. P. 23. Plaintiff brings the claims under PAGA as a

25

representative action pursuant to that statute.

26
27
28

62.

Defendant’s actions described herein with regard to Plaintiff and the putative

California Class were willful, intentional, and not the result of mistake or inadvertence.
-9-

Case No. 3:19-cv-01513
Plaintiff’s Original Complaint

Case 3:19-cv-01513 Document 1 Filed 03/22/19 Page 10 of 19

424a
1

63.

Defendant was aware that the California Labor Code, and other laws of the State

2

of California applied to its business operations at all relevant times. Indeed, this is not the first

3

time Defendant has been sued by Dashers for the same alleged violations herein.

4

64.

Defendant is aware that its failure to pay the minimum wage to its Dashers and

5

that their misclassification of independent contractor is unlawful pursuant to California State

6

Law.

7

B.

8
9
10
11

Class Action Allegations
65.

Plaintiff brings his claims for relief under California State Law, listed above, for

violations of California’s wage and hour laws as a class action, pursuant to FED. R. CIV. P. 23(a),
(b)(2), & (b)(3).
66.

Numerosity (FED. R. CIV. P. 23(a)(1)) – the California Class is so numerous that

12

joinder of all members is impracticable. On information and belief, during the relevant time

13

period at least one hundred individuals worked for Defendant in the State of California.

14
15

67.

as to putative members of the California Class, including, but not limited to, the following:

16
17

a.

24

Whether Dashers are engaged in their own business, or on behalf of

c.

Whether uniform polies and procedures apply to all Dashers regarding

how they perform their work for Defendant; and

22
23

b.
Defendant;

20
21

Whether the work performed by Class Members s within DoorDash’s

usual course of business;

18
19

Commonality (FED. R. CIV. P. 23(a)(2)) – Common questions of law and fact exist

d.

Whether Dashers have been forced to incur business expenses on behalf

of Defendant.
68.

Typicality (FED. R. CIV. P. 23(a)(3)) – Plaintiff’s claims are typical of those of the

25

putative California Class. Plaintiff, like other California Class members, was subjected to

26

Defendant’s policy and practice of refusing to pay minimum wages owed to its Dashers in

27

violation of California law. Plaintiff’s job duties and claims are typical of those of the putative

28

- 10 -

Case No. 3:19-cv-01513
Plaintiff’s Original Complaint

Case 3:19-cv-01513 Document 1 Filed 03/22/19 Page 11 of 19

425a
1

California Class. Furthermore, Plaintiff, like all Class members, was misclassified as an

2

independent contractor.

3
4
5

69.

Adequacy (FED. R. CIV. P. 23(a)(4)) – Plaintiff will fairly and adequately

represent and protect the interests of the putative California Class.
70.

Adequacy of counsel (FED. R. CIV. P. 23(g) – Plaintiff has retained counsel

6

competent and experienced in complex class actions, the FLSA, and state labor and employment

7

litigation. Plaintiff’s counsel has litigated numerous class actions on behalf of nonexempt

8

employees asserting claims under the FLSA and state law. Plaintiff’s counsel intends to commit

9

the necessary resources to prosecute this action vigorously for the benefit of all of the putative

10

California Class.

11

71.

Class certification of the California State Law claims is appropriate pursuant to

12

FED. R. CIV. P. 23(b)(2) because Defendant has acted or refused to act on grounds generally

13

applicable to the putative California Class, making appropriate declaratory and injunctive relief

14

with respect to the Plaintiff and the putative California Class as a whole. Plaintiff is entitled to

15

injunctive relief to end Defendant’s common and uniform practice of failing to pay minimum

16

wages due to Plaintiff and the putative California Class.

17

72.

Predominance and superiority (FED. R. CIV. P. 23(b)(3)) – Class certification of

18

the California State Law claims is also appropriate under FED. R. CIV. P. 23(b)(3) because

19

questions of law and fact common to the putative California Class predominate over any

20

questions affecting only individual members of the putative California Class, and because a class

21

action is superior to other available methods for the fair and efficient adjudication of this

22

litigation. Defendant’s common and uniform policies and practices unlawfully failed to

23

completely compensate the putative California Class. The damages suffered by individual

24

members of the putative California Class are small compared to the expense and burden of

25

individual prosecution of this litigation. In addition, class certification is superior because it will

26

obviate the need for unduly duplicative litigation which might result in inconsistent judgments

27

about Defendant’s practices.

28

- 11 -

Case No. 3:19-cv-01513
Plaintiff’s Original Complaint

Case 3:19-cv-01513 Document 1 Filed 03/22/19 Page 12 of 19

426a
1
2

73.

Notice (FED. R. CIV. P. 23(c)(2)(B)) – Plaintiff intends to send notice to all

members of the putative California Class to the extent provided by Rule 23.

3

74.

4
5

All current and former Dashers who worked for Defendant in the State of
California from any time starting four years prior to the date of the filing of the
initial Complaint until the date the case resolves.

6

75.

Plaintiff proposes that the class be defined as:

Plaintiff also brings this action as an aggrieved employee on behalf of himself and

7

other current former employees pursuant to the California Private Attorneys General Act

8

(“PAGA”) of 2004, Cal. Labor Code §§ 2698-2699.5.

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26

VII.

CAUSES OF ACTION

1.

First Claim for Relief – Violation of the FLSA, Failure to Pay the Minimum
Wage to Plaintiff and Putative Collective Action Members.

76.

Plaintiff incorporates the preceding paragraphs by reference as if set forth fully in

this section, unless inconsistent.
77.

The foregoing conduct, as alleged, violated the FLSA.

78.

Plaintiff and the putative Collective Action are non-exempt employees entitled to

be paid overtime compensation for all overtime hours worked, as defined above. See 29 U.S.C. §
203(e)(1).
79.

Defendant was, at all times relevant to this claim for relief, the employer of

Plaintiff and the putative Collective Action. See 29 U.S.C. § 203(d).
80.

Defendant is and was required to pay its employees, Plaintiff and the putative

Collective Action, the minimum wage for all hours worked. 29 U.S.C. § 206.
81.

Defendant failed to pay Plaintiff and the putative Collective Action their

minimum wages for all hours worked in a given workweek.
82.

Defendant’s conduct was willful and done to avoid paying wages. 29 U.S.C. §

255(a). Therefore, Plaintiff and the putative Collective Action are entitled to a three (3) year
statute of limitations. Id.

27
28

- 12 -

Case No. 3:19-cv-01513
Plaintiff’s Original Complaint

Case 3:19-cv-01513 Document 1 Filed 03/22/19 Page 13 of 19

427a
1

83.

Plaintiff seeks all damages to which he and the putative Collective Action are

2

entitled under the FLSA, including their back wages, liquidated damages, attorneys’ fees and

3

costs, post-judgment interest, and specifically plead recovery for the three (3) year period

4

preceding the filing of this lawsuit through its resolution.

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20

2.

Second Claim for Relief – Failure to Reimburse Employees for Required
Expenses in Violation of Cal. Labor Code § 2802.

84.

Plaintiff incorporates the preceding paragraphs by reference as if set forth fully in

this section, unless inconsistent.
85.

Pursuant to California Labor Code section 2802, Defendant is required to

indemnify Plaintiff and the California Class Members for the expenses and losses incurred
during the performance of their job duties. The purpose of this statute is to prevent employers
from passing their operating expenses on to their employees.
86.

In violation of Labor Code Section 2802, Defendant required Plaintiff and Class

Members to pay the following operational expenses: (i) Plaintiff’s use of a personal vehicle (i.e.
gasoline and maintenance), (ii) the cost of liability insurance, (iii) damage claims, (iv) parking
and toll road charges incurred while picking up/dropping off deliveries; (v) the cost of a cell
phone, and all other tools/equipment in order to do the work required.
87.

Plaintiff seeks to recover, on behalf of himself and other Class Members, these

expenses unlawfully deducted by Defendant from Class Members’ pay, plus interest thereon,
reasonable attorneys’ fees, and costs, in an amount to be proven at trial.

21

3.

22

Third Claim for Relief – Willful Misclassification in Violation of Cal. Lab.
Code § 226.8.

88.

Plaintiff incorporates the preceding paragraphs by reference as if set forth fully in

23
24
25
26
27
28

this section, unless inconsistent.
89.

Defendant continues to willfully misclassify Dashers as independent contractors,

as set forth above. Plaintiff seeks damages for himself and the California Class members
pursuant to Cal. Lab. Code § 226.8.

- 13 -

Case No. 3:19-cv-01513
Plaintiff’s Original Complaint

Case 3:19-cv-01513 Document 1 Filed 03/22/19 Page 14 of 19

1
2
3

428a

4.

Fourth Claim for Relief - Minimum Wage Violations, Cal. Wage Order No.
MW-2017; Cal. Labor Code §§ 1182.11, 1182.12, & 1194.

90.

Plaintiff incorporates the preceding paragraphs by reference as if set forth fully in

this section, unless inconsistent.

4

91.

5

by their employers.

6

92.

7
8
9

The California Labor Code requires that all employees be paid minimum wages

Defendant’s policy and practices as described herein resulted in violations of the

California minimum wage provisions.
93.

As a direct and proximate result of Defendant’s unlawful conduct, as set forth

herein, Plaintiff and the putative California Class have sustained damages, including loss of

10

earnings for hours worked under forty in a workweek, or under eight hours per day during the

11

period relevant to this lawsuit in an amount to be established at trial, prejudgment interest,

12

liquidated damages in an amount equal to the back wages and costs and attorneys’ fees, pursuant

13

to statute and other applicable law.

14
15
16
17
18

5.

Fifth Claim for Relief - Failure to Provide Accurate, Itemized Wage
Statements Cal. Lab. Code § 226.

94.

Plaintiff incorporates the preceding paragraphs by reference as if set forth fully in

this section, unless inconsistent.
95.

Section 226(a) of the California Labor Code requires Defendant to itemize in

19

wage statements all deductions made from wages earned by Plaintiff and other Class Members,

20

and to accurately report total hours worked, tips and wages earned, by such employees.

21

Defendant has knowingly and intentionally failed to comply with Labor Code section 226(a) on

22

each and every wage statement that should have been provided to Plaintiff and other Class

23

Members.

24

96.

By failing to keep adequate records, as required by Labor Code section 226,

25

Defendant has injured Plaintiff and other Class Members, and made it confusing and difficult to

26

calculate the unpaid wages earned and expenditures not indemnified by Defendant (including

27

wages, interest, and penalties thereon) due to Plaintiff and other Class Members.

28

- 14 -

Case No. 3:19-cv-01513
Plaintiff’s Original Complaint

Case 3:19-cv-01513 Document 1 Filed 03/22/19 Page 15 of 19

429a
1

97.

Plaintiff seeks to recover, on behalf of himself and other Class Members, the

2

statutory penalties provided by Labor Code section 226(e) for the wage statement violations

3

committed by Defendant.

4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

6.

Sixth Claim for Relief – Unfair Business Practices under Cal. Bus. & Prof.
Code §§ 17200, et seq.

98.

Plaintiff incorporates the preceding paragraphs by reference as if set forth fully in

this section, unless inconsistent.
99.

Plaintiff and the putative California Class are nonexempt employees entitled to be

paid their minimum wages for all hours worked, as defined above. See Section 4 above.
100.

Defendant was, at all times relevant to this claim for relief, the employer of

Plaintiff and the putative California Class pursuant to California law and all other relevant law.
See Cal. Labor Code §350(a).
101.

The foregoing conduct, as alleged, violates the California Unfair Competition

Law (“UCL”), Cal. Bus. & Prof. Code §§ 17200-17210. The UCL prohibits unfair competition
by prohibiting, inter alia, any unlawful or unfair business acts or practices.
102.

Beginning at some point prior to four years ago, Defendant committed and

continues to commit, acts of unfair competition, as defined by the UCL, by, among other things,
engaging in the acts and practices described herein. Defendant’s conduct as herein alleged has
injured Plaintiff and the putative California Class by wrongfully denying them earned wages, and
therefore was substantially injurious to Plaintiff and the putative California Class.
103.

Defendants engaged in unfair competition in violation of the UCL by violating,

inter alia, each of the following laws. Each of these violations constitutes an independent and
separate violation of the UCL:
a. Failure to pay the minimum wage pursuant to the Fair Labor Standards Act; and
b. Failure to pay the California state minimum wage.
104.

Defendant’s course of conduct, acts, and practices in violation of the California

laws mentioned in the above paragraph constitute a separate and independent violation of the

- 15 -

Case No. 3:19-cv-01513
Plaintiff’s Original Complaint

Case 3:19-cv-01513 Document 1 Filed 03/22/19 Page 16 of 19

430a
1

UCL. Defendant’s conduct described herein violates the policy or spirit of such laws or

2

otherwise significantly threatens or harms competition.

3

105.

The unlawful and unfair business practices and acts of Defendant, described

4

above, have injured Plaintiff and the putative California Class in that they were wrongfully

5

denied payment of earned wages.

6

106.

Plaintiff, on behalf of himself and the putative California Class, seeks restitution

7

in the amount of the respective unpaid wages earned and due for work performed at the

8

applicable minimum wage rate. Plaintiff also seeks losses incurred as a result of Defendant’s

9

requirement that he and the California Class Members incur business expenses on behalf of

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

DoorDash.
107.

Plaintiff seeks recovery of attorneys’ fees and costs of this action to be paid by

Defendants, as provided by the UCL and California Labor Code §§ 218, 218.5, & 1194.

7.

Seventh Claim for Relief – California PAGA Claims Cal. Wage Order No.
16-2001; Cal. Labor Code §§ 2698-2699.5

108.

Plaintiff incorporates the preceding paragraphs by reference as if set forth fully in

this section, unless inconsistent.
109.

Plaintiff and the putative California Class are nonexempt employees entitled to be

paid their minimum wages for all overtime hours worked, as defined above.
110.

Defendant was, at all times relevant to this claim for relief, the employer of

Plaintiff and the putative California Class pursuant to California law and all other relevant law.
111.

Under the California Private Attorneys General Act (“PAGA”) of 2004, Cal.

Labor Code §§ 2698-2699.5, an aggrieved employee, on behalf of himself or herself and other
current or former employees as well as the general public, may bring a representative action as a
private attorney general to recover penalties for an employer’s violations of the California Labor
Code and IWC Wage Orders. These civil penalties are in addition to any other relief available
under the California Labor Code, and must be allocated 75% to California’s Labor and
Workforce Development Agency and 25% to the aggrieved employee. Cal. Labor Code § 2699.

- 16 -

Case No. 3:19-cv-01513
Plaintiff’s Original Complaint

Case 3:19-cv-01513 Document 1 Filed 03/22/19 Page 17 of 19

431a
1
2
3

112.

Plaintiff and the putative California Class are nonexempt employees entitled to be

paid their minimum wage compensation for all regular hours worked, as defined above.
113.

Pursuant to Cal. Labor Code § 1198, Defendant’s failure to pay proper

4

compensation to Plaintiff and the putative California Class is unlawful and constitutes violations

5

of the California Labor Code, each actionable under PAGA.

6

114.

Plaintiff alleges, on behalf of himself and the putative California Class, as well as

7

the general public, that Defendant has violated the following provisions of the California Labor

8

Code and the following provisions of California Wage Order 16 that are actionable through the

9

Cal. Labor Code and PAGA, as previously alleged herein: Cal. Wage Order No. 16-2001, Cal.

10

Labor Code §§ 510 & 1194. Each of these violations entitles Plaintiff, as a private attorney

11

general, to recover the applicable statutory civil penalties on his own behalf, on behalf of all

12

aggrieved employees, and on behalf of the general public.

13
14

115.

Cal. Labor Code § 2699(a), which is part of PAGA, provides in pertinent part:

17

Notwithstanding any other provision of law, any provision of this code that
provides for a civil penalty to be assessed and collected by the Labor and
Workforce Development Agency or any of its departments, divisions,
commissions, boards, agencies, or employees, for a violation of this code, may, as
an alternative, be recovered through a civil action brought by an aggrieved
employee on behalf of himself or herself and other current or former employees
pursuant to the procedures specified in Section 2699.3.

18

116.

Cal. Labor Code § 2699(f), which is part of PAGA, provides in pertinent part:

19

117.

Plaintiff is entitled to civil penalties to be paid by Defendant and allocated as

15
16

20

PAGA requires, pursuant to Cal. Labor Code § 2699(a), for Defendant’s violations of the

21

California Labor Code and the relevant IWC Wage Order for which violations a civil penalty is

22

already specifically provided by law. Further, Plaintiff is entitled to civil penalties to be paid by

23

Defendant and allocated as PAGA requires, pursuant to § 2699(f) for Defendant’s violations of

24

the California Labor Code and the relevant IWC Wage Order for which violations a civil penalty

25

is not already specifically provided.

26
27
28

- 17 -

Case No. 3:19-cv-01513
Plaintiff’s Original Complaint

Case 3:19-cv-01513 Document 1 Filed 03/22/19 Page 18 of 19

432a
1

118.

Plaintiff will provide written notice of his PAGA claims to relevant entities

2

subsequent to filing this Complaint, and will file a notice with the Court when exhaustion is

3

completed.

4

119.

Under PAGA, Plaintiff and the State of California are entitled to recover the

5

maximum civil penalties permitted by law for the violations of the California Labor Code and

6

Wage Order No. 16 that are alleged in this Complaint.

7
8
9
10

VIII. JURY DEMAND
120.

Plaintiff hereby demands a jury trial on all causes of action and claims for relief

with respect to which he and the putative Collective and California Class Action Members have
a right to jury trial.

11
12
13
14
15
16

IX.
121.

Plaintiff asks that the Court issue summons for Defendant to appear and answer,

and that Plaintiff and the Collective and California Class Action Members be awarded a
judgment against Defendant or order(s) from the Court for the following:
a.

An order conditionally certifying this case as an FLSA collective action
and requiring notice to be issued to all putative Collective Action
Members;

b.

An order certifying that the California State Law Claims may be
maintained as a class action pursuant to Federal Rule of Civil Procedure
23;

c.

Designation of Goldman-Hull as a Representative of the California Class
Action Members;

d.

Designation of attorneys Robert R. Debes, Jr. and Ricardo J. Prieto, of
Shellist Lazarz Slobin, LLP, and Melinda Arbuckle, of Baron & Budd,
P.C., as Class Counsel for the California Class Action Members;

e.

A declaratory judgment that the practices complained of herein are
unlawful under the FLSA and California State law;

f.

An injunction against Defendant and its officers, agents, successors,
employees, representatives, and any and all persons acting in concert with
Defendant, as provided by law, from engaging in each of the unlawful
practices, policies, and patterns set forth herein;

17
18
19
20
21
22
23
24
25
26

DAMAGES AND PRAYER

27
28

- 18 -

Case No. 3:19-cv-01513
Plaintiff’s Original Complaint

Case 3:19-cv-01513 Document 1 Filed 03/22/19 Page 19 of 19

433a
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23

g.

An award of damages including all unpaid minimum wages for all hours
worked up to forty in a workweek, and all liquidated damages, and
restitution to be paid by Defendant;

h.

Appropriate statutory penalties;

i.

Costs of action incurred herein, including expert fees;

j.

Attorneys’ fees, including fees pursuant to 29 U.S.C. § 216;

k.

Pre-judgment and post-judgment interest, as provided by law;

l.

Such other injunctive and equitable relief as the Court may deem just and
proper.

DATED: March 22, 2019
Respectfully submitted,
By:

s/Melinda Arbuckle
Melinda Arbuckle

BARON & BUDD, P.C.
Melinda Arbuckle (Cal. Bar No. 302723)
marbuckl@baronbudd.com
15910 Ventura Boulevard, Suite 1600
Encino, California 91436
Telephone: (818) 839-6506
Facsimile: (818) 986-9698
SHELLIST | LAZARZ | SLOBIN LLP
Robert R. Debes, Jr. (Pending PHV)
bdebes@eeoc.net
Ricardo J. Prieto (Pending PHV)
rprieto@eeoc.net
11 Greenway Plaza, Suite 1515
Houston, Texas 77046
Telephone: (713) 621-2277
Facsimile: (713) 621-0993
Counsel for Plaintiff, Noah Goldman-Hull, and
Proposed Class and Collective Action Members

24
25
26
27
28

- 19 -

Case No. 3:19-cv-01513
Plaintiff’s Original Complaint

Case 3:19-cv-01513 Document 1-1 Filed 03/22/19 Page 1 of 2

434a

EXHIBIT 1

Case 3:19-cv-01513 Document 1-1 Filed 03/22/19 Page 2 of 2

435a

CONSENT TO BECOME A PARTY PLAINTIFF
Name: Noah Goldman-Hull
1. I consent and agree to pursue my claims of unpaid overtime and/or minimum wage
through the lawsuit filed against my employer.
2. I understand that this lawsuit is brought under the Fair Labor Standards Act. I hereby
consent, agree and opt-in to become a plaintiff herein and be bound by any judgment by
the Court or any settlement of this action.
3. I intend to pursue my claim individually, unless and until the court certifies this case as a
collective or class action. I agree to serve as the class representative if the court approves.
If someone else serves as the class representative, then I designate the class
representatives as my agents to make decisions on my behalf concerning the litigation,
including negotiating a settlement of my claims, and understand that I will be bound by
such decisions, the method and manner of conducting the litigation, the entering of an
agreement with the plaintiffs' counsel concerning attorney's fees and costs, and all other
matters pertaining to this lawsuit.
4. In the event the case is certified and then decertified, I authorize Plaintiffs’ counsel to use
this Consent Form to re-file my claims in a separate or related action against my
employer.
12/12/2018
(Signature) _______________________________ (Date Signed) ____________________

Case 3:19-cv-01513 Document 1-2 Filed 03/22/19 Page 1 of 1

CIVIL COVER SHEET

JS-CAND 44 (Rev. 06/17)

The JS-CAND 44 civil cover sheet and the information contained herein neither replace nor supplement the filing and service of pleadings or other papers as required by law,
except as provided by local rules of court. This form, approved in its original form by the Judicial Conference of the United States in September 1974, is required for the Clerk of
Court to initiate the civil docket sheet. (SEE INSTRUCTIONS ON NEXT PAGE OF THIS FORM.)

436a

I. (a) PLAINTIFFS

DEFENDANTS

Noah Goldman-Hull

Doordash Inc.

(b) County of Residence of First Listed Plaintiff

County of Residence of First Listed Defendant

San Mateo

(IN U.S. PLAINTIFF CASES ONLY)

(EXCEPT IN U.S. PLAINTIFF CASES)

NOTE:

(c)

Attorneys (Firm Name, Address, and Telephone Number)

Melinda Arbuckle, Baron & Budd, P.C.; 15910 Ventura Boulevard, Suite 1600,
Encino, CA 91436; (818) 839-6506

II.

BASIS OF JURISDICTION (Place an “X” in One Box Only)
1

U.S. Government Plaintiff

3

2

U.S. Government Defendant

4

IV.

NATURE OF SUIT

CONTRACT
110 Insurance
120 Marine
130 Miller Act
140 Negotiable Instrument
150 Recovery of
Overpayment Of
Veteran’s Benefits
151 Medicare Act
152 Recovery of Defaulted
Student Loans (Excludes
Veterans)
153 Recovery of
Overpayment
of Veteran’s Benefits
160 Stockholders’ Suits
190 Other Contract
195 Contract Product Liability
196 Franchise
REAL PROPERTY
210 Land Condemnation
220 Foreclosure
230 Rent Lease & Ejectment
240 Torts to Land
245 Tort Product Liability
290 All Other Real Property

V.

1

VI.

CAUSE OF
ACTION

2

Attorneys (If Known)

III. CITIZENSHIP OF PRINCIPAL PARTIES (Place an “X” in One Box for Plaintiff
(For Diversity Cases Only)

Federal Question
(U.S. Government Not a Party)

PTF
1

Citizen of This State

Diversity
(Indicate Citizenship of Parties in Item III)

DEF
1

Citizen of Another State

2

2

Citizen or Subject of a
Foreign Country

3

3

and One Box for Defendant)
PTF
Incorporated or Principal Place
4
of Business In This State
Incorporated and Principal Place
5
of Business In Another State
Foreign Nation
6

DEF
4
5
6

(Place an “X” in One Box Only)
TORTS

PERSONAL INJURY
310 Airplane
315 Airplane Product Liability
320 Assault, Libel & Slander
330 Federal Employers’
Liability
340 Marine
345 Marine Product Liability
350 Motor Vehicle
355 Motor Vehicle Product
Liability
360 Other Personal Injury
362 Personal Injury -Medical
Malpractice

Removed from
State Court

PERSONAL INJURY
365 Personal Injury – Product
Liability
367 Health Care/
Pharmaceutical Personal
Injury Product Liability
368 Asbestos Personal Injury
Product Liability
PERSONAL PROPERTY
370 Other Fraud
371 Truth in Lending
380 Other Personal Property
Damage
385 Property Damage Product
Liability
PRISONER PETITIONS

CIVIL RIGHTS
440 Other Civil Rights
441 Voting
442 Employment
443 Housing/
Accommodations
445 Amer. w/Disabilities–
Employment
446 Amer. w/Disabilities–Other
448 Education

ORIGIN (Place an “X” in One Box Only)

Original
Proceeding

IN LAND CONDEMNATION CASES, USE THE LOCATION OF
THE TRACT OF LAND INVOLVED.

3

HABEAS CORPUS
463 Alien Detainee
510 Motions to Vacate
Sentence
530 General
535 Death Penalty

FORFEITURE/PENALTY
625 Drug Related Seizure of
Property 21 USC § 881
690 Other
LABOR

BANKRUPTCY
422 Appeal 28 USC § 158
423 Withdrawal 28 USC
§ 157
PROPERTY RIGHTS

710 Fair Labor Standards Act
720 Labor/Management
Relations
740 Railway Labor Act
751 Family and Medical
Leave Act
790 Other Labor Litigation
791 Employee Retirement
Income Security Act
IMMIGRATION
462 Naturalization
Application
465 Other Immigration
Actions

820 Copyrights
830 Patent
835 Patent─Abbreviated New
Drug Application
840 Trademark
SOCIAL SECURITY
861 HIA (1395ff)
862 Black Lung (923)
863 DIWC/DIWW (405(g))
864 SSID Title XVI
865 RSI (405(g))
FEDERAL TAX SUITS
870 Taxes (U.S. Plaintiff or
Defendant)
871 IRS–Third Party 26 USC
§ 7609

OTHER
540 Mandamus & Other
550 Civil Rights
555 Prison Condition
560 Civil Detainee–
Conditions of
Confinement
Remanded from
Appellate Court

4

Reinstated or
Reopened

5 Transferred from
Another District (specify)

6

Multidistrict
Litigation–Transfer

OTHER STATUTES
375 False Claims Act
376 Qui Tam (31 USC
§ 3729(a))
400 State Reapportionment
410 Antitrust
430 Banks and Banking
450 Commerce
460 Deportation
470 Racketeer Influenced &
Corrupt Organizations
480 Consumer Credit
490 Cable/Sat TV
850 Securities/Commodities/
Exchange
890 Other Statutory Actions
891 Agricultural Acts
893 Environmental Matters
895 Freedom of Information
Act
896 Arbitration
899 Administrative Procedure
Act/Review or Appeal of
Agency Decision
950 Constitutionality of State
Statutes

8 Multidistrict
Litigation–Direct File

Cite the U.S. Civil Statute under which you are filing (Do not cite jurisdictional statutes unless diversity):

Fair Labor Standards Act, 29 U.S.C. §§ 201-219; Portal-to-Portal Act, 29 U.S.C. §§ 251-262 (collectively, "FLSA")

Brief description of cause:

Action brought under FLSA for Defendant's alleged failure to pay federally-mandated minimum wage

VII.

REQUESTED IN
COMPLAINT:

✔

CHECK IF THIS IS A CLASS ACTION
UNDER RULE 23, Fed. R. Civ. P.

VIII. RELATED CASE(S),
IF ANY (See instructions):
IX.

DEMAND $

JUDGE

DIVISIONAL ASSIGNMENT (Civil Local Rule 3-2)
SAN FRANCISCO/OAKLAND

(Place an “X” in One Box Only)

DATE 03/22/2019

CHECK YES only if demanded in complaint:
JURY DEMAND:
Yes
No
DOCKET NUMBER

SAN JOSE

SIGNATURE OF ATTORNEY OF RECORD

EUREKA-MCKINLEYVILLE

s/Melinda Arbuckle

437a

EXHIBIT DD

438a
E-FILED
3/24/2017 3:48:12 PM
Clerk of Court
Superior Court of CA,
County of Santa Clara
2014-1-CV-274709
Reviewed By:R. Walker

439a
1

Court orders that the tentative ruling be adopted and incorporated herein as the Order of the

‫ة‬

Court, as follows:

3

‫ب‬
5

This coordinated putative class action arises out of various alleged Labor Code
violations.

6
7

On September 23, 2015, tlie Court issued an order granting defendiint DirecTV's

s

(“Defendant”) motion to compel arbitration of individual claims and dismiss all class claims

9

against plaintiff Ditniel Duran. On July 11,2016, tlie Court issuetl an order granting Defendants

10

motion to contpel arbitration of plaintiff Carl BritschgiS individual claims and dismiss class

11

claims. Britschgi moved for reconsideration of tliat order based on tlie California Supreme

12

Court’s opinion in Sandquist V. Ubo .‘[ulomotive, Inc. (2016) 2016 WL 4045008, which was

13

issuetl on July 28, 2016. Duran joined in tlie motion.

11
15

Britschgi argued that the Sandquist decision directly conflicted with this Court’s July 11

16

order and required that the Court reconsider and modify the order to hold that the arbitrator

17

should decide in this case whether class arbitration is permissible. This Court ultimately agreed

18

and granted Britschgi’s motion.

19
20

With regard to Duran’s joinder, however, tlie Court fount) tliat Duran was not 1‫ ؛‬party to

21

tlie motion to compel arbitration pertaining to Britschgi, so any ruling on Britscligi’s motion for

22

reconsideration would have no impact on Duran. Tlie Court stated further that tlie order for

23

whicli Duran would ‫؛‬ictuillly want reconsideration was Bled on September 23, 2015, but tliat

2-1

Duran liad filed an appeal to tliat order, so proceedings related to tlie order iippealed fiom were

25

stayed and tlie Court could not modify tlie order at tliat time. (See Code Civ. Proc, § 916, subd.

26

(a).) Duran tlien filetl liis own motion for reconsideration of tlie September 23, 2015 order,

27

stating tliat lie ،lismissed liis appeal. The Court gi'anted Duran’s motion.

28

2
DIRECTV WAGE ■AND 'lOUR CASES (JCCi 185«)
Order After tearing Oil March 17, 20171(1) Moliun by RluimijJ Darn» lo ‫»؟‬force Arbitrntio» AgreeiHe»! or. olleraalively. Sei
Aside ',he Coarl's Order Granting Defendant DirecTV, l.l.c's Motion 10 Contpel .Arbitration: (2) Motion by Defendant DirecTV,
LLCforci Maiuhuoiy Slay of ProceediHgi■]

440a
There are now two motions before the Court - (1) Duran’s motion to enforce arbitration
2

agreement or, in the alternative, set aside the Court’s order granting Defendant’s motion to

3

compel arbitration; and (2) Defendant’s motion for a mandatory stay of proceedings.

3
5

‫ا‬.

Motion to Enforce Arbitration Agreement

6
7
8

a. Request for Judicial Notice
Duran requests that the Court take judicial notice of the following documents:

‫ؤ‬
10

(1) Defendant’s Memorandum of Points and Authorities filed in support of its Motion to
Compel Arbitration, filed on May 1, 2015; and

12
13

(2) Declaration of Scott P. Jang in Support of Defendant’s Motion to Compel Arbitration,
filed on May 1,2015.

14
15
16
17

The Court can take judicial notice of these documents as court records pursuant to
Evidence Code section 452, subdivision (d). Accordingly, thè request for judicial notice is
GRANTED.

18
19
20
21
22
23
2-1
25
26

b. Discussion
The parties’ arbitration agreement states, in relevant part: “The arbitration will be
conducted either by the American Arbitration Association (،AAA’), the Judicial Arbitration &
Mediation Services (،JAMS’) or as otherwise mutually agreed upon by the parties (،Tribunal’).”
(Plaintiff Daniel Duran’s Request for Judicial Notice in Support of his Motion to Enforce
Arbitration Agreement or, in the Alternative, Set Aside the Court’s Order Granting Defendant
DirecTV, EEC’s Motion to Compel Arbitration, Exhibit B, Exhibit A (the “Arbitration
Agreement”).

27
28

3
١i٥٧R CASES DIRIXTV WAGE AND ‫؛‬.ICC!) 4850)
Order AJlcr 1 ‫؛‬earing 1)11 \tarcli 17. 20171(1) Million by RUlinliJTDuran 10 Enforce Arbilralion .Agreement or, '.tllcnnalively. Set
.Aside line Court's Order Granting Defendant DirecTV, l.LC's Motion to Compel Arbitration: (2) Motion by Defendant DirecTV
LLCfor a ،١70„،/،„0،:‫'ا‬of Proceedings]

1

On October 14, 2016, Defendant submitted a demand for arbitration to JAMS. Duran has

2

objected, arguing that the Arbitration Agreement provides that arbitration can also be done

3

through the AAA or as “mutually agreed upon by the parties.” Duran asserts Defendant should

4

be ordered to comply with the Arbitration Agreement and allow arbitration to proceed before the

5

AAA. In the alternative, Duran contends that the Court should order the Arbitration Agreement

6

rescinded and set aside the order compelling arbitration because Defendant has breached the

7

Arbitration Agreement.

8
9

Defendant argues that, because arbitration has already begun and this case is stayed,

10

Duran’s objection to the JAMS tribunal must be resolved by the arbitrator. Defendant argues

II

further that, even if the Court were to consider Duran's motion, the parties agreed that JAMS is

12

an appropriate forum. Defendant contends it is complying with the Arbitration Agreement and

13

Duran should be ordered to participate in the arbitration before JAMS.

14
15

Duran seeks to “enforce” the Arbitration Agreement, contending that Defendant has

16

breached it. Duran argues that Defendant should be ordered to comply with the Arbitration

17

Agreement, but it is not apparent in what way Defendant is not complying. The specific relief

IS

sought by Duran is to have the arbitration ordered to proceed before the AAA instead of JAMS,

19

but there is no provision in the Arbitration Agreement that authorizes that relief or gives

20

precedence to the AAA over JAMS. Both tribunals are equally valid under the Arbitration

21

Agreement and the Arbitration Agreement is otherwise silent regarding the selection of the

22

arbitral forum.

23
24

Duran argues in the alternative that he should be allowed to rescind the Arbitration

25

Agreement because Defendant has breached it by refusing to comply with the provision that

26

allows the arbitration to proceed before the AAA. As discussed above, however, that provision

27

also allows the arbitration to proceed before JAMS. There is nothing in the record demonstrating

28

that Defendant is not complying with the Arbitration Agreement.

DIRECTV WAGE ：\ND HOUR C.4SES (JCGR 4850)

Order tjler Hearing on March 17, 2017 [(1) Motion by llaintyj Duran to Enforce Arbitration Agreement or. alternatively. Set
-Aside tile Court's Order Granting Defendant DirecTV, l.l.c's Motion to Compel Arbitration: ،2) Motion by Defendant DirecTV,
lie for a Mandatory Stay of Proceedings!

4

I
2

In sum. Duran has provided no basis for the Court to grant the relief sought.
Accordingly, Duran’s motion to enforce the Arbitration Agreement is DENIED.

3
4

II.

Motion for Stay of Proceedings

5
6
7
8
9
10
II

As stated by Defendant, there are four coordinated cases pending against Defendant:
Duran, Britschgi, Bennett, and Garcia. Britschgi and Duran (excluding PAG A claims) have
been compelled to arbitration by this Court. Defendant argues that, pursuant to Code of Civil
Procedure section 1281.4, this Court must stay the entirety of the instant coordinated action
pending the outcome of the Britschgi and Duran arbitration proceedings. Section 1281.4 states
in relevant part:

12
13
14
!5
16
!7

If a court of competent jurisdiction, whether in this State or not, has ordered
arbitration of a controversy which is an issue involved in an action or proceeding
pending before a court of this State, the court in which such action or proceeding
is pending shall, upon motion of a party to such action or proceeding, stay the
action or proceeding until an arbitration is had in accordance with the order to
arbitrate or until such earlier time as the court specifies.
(Code Civ. Proc.١ § 1281.4.)

18
19
20
21
22
23

Defendant contends that the non-PAGA claims that have been compelled to arbitration
overlap with the claims at issue in the PAGA claims still pending before this Court. Defendant
states that all of the actions involve the same central issue: an Installation Technician who
alleges Defendant’s alleged piece-rate system did not compensate the technician in accordance
with California law.

24
25
26
27
28

The motion is opposed by plaintiffs Garcia and Bennett. They assert that their claims are
only based on PAGA. Garcia argues that his Complaint is not about piece-rate compensation
and that there is a difference between employee claims for damages and government claims for
civil penalties. Bennett argues that there is no basis for a stay because the PAGA litigation in his
DIRECTV WAGE AND HOUR CASES (JCCP ■1850)
Order After Hearing on March 17. 2017 [(1) Motion by Plaintiff Duran to Enforce Arbitration Agreement or. alternatively. Set
Aside the Court's Order Granting Defendant DirecTV. LLC’s Motion to Compel Arbitration; (2) Motion by Defendant DirecTV.
LLCfor a Mandatory Stay of Proceedings]

case involves only the entitlement to civil penalties and would not interfere with or impede the
2

arbitrator’s authority.

3
-I

As explained in one case:

5
f)
7

8

‫ن‬
I()

12

When a trial court has ordered arbitration of a controversy which is an issue
involved in an action or proceeding pending before the court, it shall, upon
motion of a party stay the action or proceeding until the arbitration is had in
accordance with the order to arbitrate. It is irrelevant under the statute whether the
movant is a party to the arbitration agreement. Any party to a judicial proceeding
is entitled to a stay of those proceedings whenever (1) the arbitration of a
controversy has been ordered, and (2) that controversy is also an issue involved in
the pending judicial action. The purpose of the statutory stay is to protect the
jurisdiction of the arbitrator by preserving the status quo until arbitration is
resolved. In the absence of a stay, the continuation of the proceedings in the trial
court disrupts the arbitration proceedings and can render them ineffective.

13
1-1
15

(Heritage Provider Ne!١vork, Inc. ١١٠ Superior Court (TQQS٦\‫ ةلآ‬Ca\A‫؟؟‬Av\٦ M, WST,
quotations marks, ellipses, and citations omitted.)

16
17

18
I‘)

The Court notes that Garcia and Bennett are correct that the remedies sought in the
arbitrations are different than those sought by the PAGA claims (i.e. damages vs. penalties).
This does not mean, however, that there are no overlapping issues. As argued by Defendant,

20

Garcia and Bennett are two out of four coordinated cases and cases are coordinated when they

21

share a common question of fact or law. (Code Civ. Proc., § 404.1.) It is not apparent how it

22

can now be asserted that there are no overlapping issues between the cases. In fact, Bennett

23

stipulated that coordination was appropriate, effectively conceding there is at least some

21

common question of fact or law.

25
26

With regard to section 1281.4, “[a] controversy can be a single question of law or fact,

27

and a stay shall be issued upon proper motion if the court has ordered arbitration of a

28

controversy that is also an issue involved in an action or proceeding pending before it.”
(Heritage Provider Network, Inc. v. Superior Court (2008) 158 Cal.App.4lh at pp. 1152-1153,
DIRECTV WAGE AND 1101)1‫ ؛‬CASES (JCCP1850)
Oillci- ,AJter Heoil'g Oil Moreh 17, 2017 1)‫ )؛‬Motion by ”lint‫ ))؛‬Duran to En)orce Arbitration Agreement or. alternatively. Set
Aside tire Court's Order Granting De)endant DirecTV, EEC'S Motion to Compel Arbitration; (2) Motion by De)endant DirecTV.
EEC )or a Mandatory Stay o) Proceedings]

‫ا‬

emphasis in original.) Garcia and Bennett cite to no authority demonstrating that there is a

2

PAGA exception to section 1281.4. Accordingly, Defendant’s motion for a stay is GRANTED.

3

IT IS SO ORDERED.

•1
5
6
7

Dated:

3

2-‫ب‬

\٦

— Vy . i,Hon. Peter 1.1. Kirwan
Judge of tlie Superior Court

8
9
10
II
12
13
1-1

15
If,
17
18
19
20
21
22
23
2-1
25
26
27
28

7
DIRECT'.' "'.AGE AND 'lOUR CASES (.IGGR 1850)
Order After 'tearing on \tarcl1‫ ؛‬17, 20171‫ )؛‬Motion by Plaintiff Dnran to Enforce Arbitration Agreement or, alternatively. Set
Aside the Conn's Order Granting Defendant DirecTV, EEC'S Motion to Compel -Arbitration: (2) 'lotion by Defendant DirecTV,
ELCfor a Mandatory Slay of Proceedings)

